<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA


                             ANNUAL REPORT

                                  2006

=======================================================================

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-862 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001








              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON H. SMITH, Oregon              FRANK R. WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  SANDER LEVIN, Michigan
CARL LEVIN, Michigan                 MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         SHERROD BROWN, Ohio
BYRON DORGAN, North Dakota           MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
               FRANKLIN L. LAVIN, Department of Commerce
                CHRISTOPHER R. HILL, Department of State
                BARRY F. LOWENKRON, Department of State

                David Dorman, Staff Director (Chairman)
               John Foarde, Staff Director (Co-Chairman)
















                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Commission Finding............................................     1

II. Executive Summary............................................     2

III. List of Recommendations.....................................    16

IV. Introduction.................................................    22

V. Monitoring Compliance With Human Rights.......................    25
    (a) Special Focus for 2006: Freedom of Expression............    25
    (b) Rights of Criminal Suspects and Defendants...............    42
    (c) Protection of Internationally Recognized Labor Rights....    60
    (d) Freedom of Religion......................................    75
    (e) Status of Women..........................................    97
    (f) The Environment..........................................   100
    (g) Public Health............................................   104
    (h) Population Planning......................................   109
    (i) Freedom of Residence and Travel..........................   113

VI. Political Prisoner Database..................................   118

VII. Development of the Rule of Law and Institutions of 
  Democratic Governance..........................................   119
    (a) Development of Civil Society.............................   119
    (b) Institutions of Democratic Governance and Legislative 
      Reform.....................................................   124
    (c) Access to Justice........................................   131
    (d) Commercial Rule of Law and the Impact of the WTO.........   142

VIII. Tibet......................................................   160

IX. North Korean Refugees in China...............................   172

X. Developments in Hong Kong.....................................   175

XI. Appendix: Commission Activities in 2005 and 2006.............   178

XII. Endnotes....................................................   180



























          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2006 ANNUAL REPORT

                         I. Commission Finding

     The Commission is deeply concerned that some Chinese 
government policies designed to address growing social unrest 
and bolster Communist Party authority are resulting in a period 
of declining human rights for China's citizens. The Commission 
identified limited improvements in the Chinese government's 
human rights practices in 2004, but backward-stepping 
government decisions in 2005 and 2006 are leading the 
Commission to reevaluate the Chinese leadership's commitment to 
additional human rights improvements in the near term. In its 
2005 Annual Report, the Commission highlighted increased 
government restrictions on Chinese citizens who worship in 
state-controlled venues or write for state-controlled 
publications. These restrictions remain in place, and in some 
cases, the government has strengthened their enforcement.
    The Communist Party's concern with growing social unrest 
dominated its policy statements over the past year, and served 
as 
justification for increased government interference with, and 
intimidation and harassment of, individuals and groups that the 
Party believes may threaten its authority or legitimacy. The 
government targeted social, political, and legal activists, as 
well as 
religious believers who violated strict government limitations 
on religious practice. In the past year, government efforts to 
maintain social stability have led to a greater reliance on the 
coercive powers of the police to subdue potential threats to 
Party rule. Chinese officials have also taken additional steps 
in the past year to curb the growth of China's emerging civil 
society. New government and Party controls have been imposed on 
courts and judges that may further weaken the independence of 
the Chinese judiciary. Moreover, the Chinese government 
continues to use its regulatory control over the Internet and 
print publishing to censor political and religious expression, 
to imprison journalists and writers, and to prevent Chinese 
citizens from having access to independent news sources.
    The Commission notes the progress that the Chinese 
government has made over the past 25 years in beginning to 
build a political system based on the rule of law and on 
respect for basic human rights. The twin demands of social 
stability and continued economic progress have spurred legal 
reforms that may one day be the leading edge of constraints on 
the arbitrary exercise of state power. The Chinese government 
continues to pursue judicial and criminal reforms, often in 
cooperation with international partners, that could lead to 
further protection of citizen rights. The government's 
achievements in the economic realm are impressive, none more so 
than its success in lifting more than 400 million Chinese 
citizens out of extreme poverty since the early 1980s. Economic 
reforms have also contributed to a growing middle class, 
expected to total 170 million people by 2010. China's WTO 
accession commitments have resulted in gradual improvements in 
transparency at all levels of government. Elections at the 
village level are now commonplace in China, and limited 
experiments with popular participation continue at other levels 
of government. Average Chinese citizens are free to discuss 
sensitive issues in a way that would have been unimaginable two 
decades ago.
    While all of these changes are important, the gap between 
forward-looking economic freedoms and a backward-looking 
political system remains significant. There are leaders now 
within China who comprehend the need for change, and who 
understand that inflexibility, secretiveness, and a lack of 
democratic oversight pose the greatest challenges to continued 
development. These leaders will need to gather considerable 
reformist courage to overcome obstacles and push for continued 
change. Such changes will not occur overnight, but rather in 
ways that Chinese society, culture, infrastructure, and 
institutions must be prepared for and willing to accept.

                         II. Executive Summary

    China has an authoritarian political system controlled by 
the Communist Party. Party committees formulate all major state 
policies before the government implements them. The Party 
dominates Chinese legislative bodies such as the National 
People's Congress (NPC), and fills all important government 
positions in executive and judicial institutions through an 
internal selection process. Party control extends throughout 
institutions of local government. Chinese authorities have 
ruled out building representative democratic institutions to 
address citizen complaints about corruption and abuse of power, 
and instead are recentralizing government posts into the hands 
of individual Party secretaries. The absence of popular and 
legal constraints to check the behavior of Party officials has 
led to widespread corruption and citizen anger. The Party has 
strengthened the role of internal responsibility systems to 
moderate official behavior, but these systems have provided 
some local Party officials with new incentives to conceal 
information and abuse their power. In 2005, the central 
leadership called for strengthened controls over society to 
address mounting social unrest and to suppress dissent.
    Since the 1980s, officials have introduced limited reforms 
to allow citizens to vote in village elections. While these 
reforms are a step forward in permitting citizen participation 
at the local level, the reforms are designed to strengthen 
Party governance and do not represent Party acceptance of 
representative government. Since the late 1990s, the Party has 
experimented with reforms that allow a limited degree of 
citizen participation in the selection of local Party cadres, 
but the Party retains tight control over the candidate pool and 
the selection process. Since 2000, Chinese authorities have 
experimented with the use of legislative hearings to solicit 
public views on pending legislation, and the NPC held its first 
controlled public hearing in September 2005. In March 2005, the 
central government announced new transparency requirements for 
local governments. The requirements mandate county and 
provincial governments to increase transparency and popular 
participation in government decisionmaking. Implementation of 
these ``open government'' requirements varies, but some local 
governments have taken steps toward greater transparency.
    The Chinese government continues to engage the 
international community on human rights and rule of law issues 
to varying degrees. The government announced in 2006 that it 
plans to amend its Criminal, Civil, and Administrative 
Procedure Laws and reform the judiciary to prepare for 
ratification of the International Covenant on Civil and 
Political Rights. The government hosted visits by the UN 
Special Rapporteur on Torture in late 2005 and the UN High 
Commissioner for Refugees in March 2006. Both UN officials 
commended the Chinese government for its open attitude toward 
increased dialogue, but Manfred Nowak, UN Special Rapporteur on 
Torture, also reported that his work was monitored and 
obstructed by Chinese authorities. In May 2006, China was 
elected to serve for a three-year term on the newly established 
UN Human Rights Council. The government's application for 
membership in the Council noted that it has acceded to 22 
international human rights accords. As a member of the new 
Council, the government has pledged to fulfill its obligations 
under the terms of these accords, and is obligated under the 
rules of the Council to submit to peer review of its human 
rights record.
    Chinese scholars and officials continued to engage foreign 
governments and legal experts on a range of criminal justice 
issues during late 2005 and 2006. Chinese law enforcement 
agencies expressed a growing interest in cooperating with other 
countries to combat transnational crime, and in expanding 
cooperation with U.S. law enforcement agencies on money 
laundering, fighting terrorism, and other issues. Numerous 
international conferences and legal exchanges with Western 
NGOs, judges, and legal experts took place, including programs 
on public accountability, pretrial discovery, evidence 
exclusion, criminal trials and procedure, bail, capital 
punishment, and prison reform. In 2006, the U.S. and Chinese 
governments continued to conduct a series of bilateral 
cooperative activities on wage and hour laws, occupational 
safety and health, mine safety and health, and pension program 
oversight.
    Government censorship, while not total, is pervasive and 
highly effective, and denies Chinese citizens the freedoms of 
speech and of the press guaranteed to them in the Chinese 
Constitution. The government has imprisoned journalists who 
provide news to foreigners, such as Zhao Yan, Shi Tao, and 
Ching Cheong. Editors of publications that criticize government 
policies, such as Yang Bin of the Beijing News and Li Datong of 
the China Youth Daily, have been dismissed. The government 
blocks the Web sites and radio and television broadcasts of 
foreign news organizations, such as those of the British 
Broadcasting Corporation, Radio Free Asia, and the Voice of 
America. In 2005, the government banned dozens of newspapers 
and confiscated almost one million ``illegal'' political 
publications. Beginning in May 2005, the government blocked the 
Commission's Web site from being viewed in China.
    Modern telecommunications technologies such as the 
Internet, cell phones, and satellite broadcasts, allow Chinese 
citizens access to more information sources, both state-
controlled and non-state-controlled. But government 
restrictions on news and information media, including on these 
new information sources, do not conform to international human 
rights standards for freedom of expression. The Chinese 
government imposes a strict licensing scheme on news and 
information media that includes oversight by government 
agencies with discretion to grant, deny, and rescind licenses 
based on political and economic criteria. The Chinese 
government's content-based restrictions include controls on 
political opinion and religious literature that are not 
prescribed by law, and whose primary purpose is to protect the 
ideological and political dominance of the Communist Party.
    The government's restrictions on religious literature do 
not conform to international human rights standards. Only 
government-
licensed printing enterprises may print religious materials, 
and then only with approval from both the provincial-level 
religious affairs bureau and the press and publication 
administration. In addition to confiscating religious 
publications, the Chinese government also has fined, detained, 
and imprisoned citizens for publishing, printing, and 
distributing religious literature without government 
permission. Cai Zhuohua, a house church pastor in Beijing, and 
two of his family members were imprisoned in 2005 for printing 
and giving away Bibles and other Christian literature. In Anhui 
province, house church pastor Wang Zaiqing was arrested in May 
2006 on the same charges.
    The Communist Party's concern with growing social 
instability dominated its policy statements over the past year, 
and served as justification for increased government vigilance 
over activities and groups that potentially threaten Party 
legitimacy. Top Party, court, and law enforcement officials 
repeatedly linked the government's policy of pursuing periodic 
anti-crime campaigns, referred to as ``Strike Hard'' campaigns, 
to the goal of maintaining social stability. Government efforts 
to maintain social stability have led to a greater reliance on 
the coercive powers of the police to subdue 
potential threats to Party rule.
    Abuse of power by local police forces remains a serious 
problem. The Supreme People's Procuratorate (SPP) has 
acknowledged the existence of continuing and widespread abuses 
in law enforcement, including illegal extended detentions and 
torture. New SPP regulations that detail the criteria for 
prosecuting official abuses of power went into effect in July 
2006, and establish standards for the prosecution of police who 
abuse their power to hold individuals in custody beyond legal 
limits, coerce confessions under torture, acquire evidence 
through the use of force, maltreat prisoners, or retaliate 
against those who petition the government or file complaints 
against them.
    The Chinese government continues to apply vague criminal 
and administrative provisions to justify detentions based on an 
individual's political opinions or membership in religious, 
ethnic, or social groups. These provisions allow for the 
targeting and punishment of activists for crimes that 
``endanger state security'' or ``disturb public order'' under 
the Criminal Law. The UN Special Rapporteur on Torture 
concluded in his March 2006 report to the UN Commission on 
Human Rights that the vague definition of these crimes leaves 
their application open to abuse, particularly of the rights to 
freedom of religion, speech, and assembly.
    Chinese authorities use reeducation through labor and other 
forms of administrative detention to circumvent the criminal 
process and imprison offenders for ``minor crimes,'' without 
judicial review and the procedural protections guaranteed by 
the Chinese Constitution and Criminal Procedure Law. The UN 
Working Group on Arbitrary Detention concluded in 2004 that the 
Chinese government has made no significant progress in 
reforming the administrative detention system to ensure 
judicial review and to conform to international law. Although 
proposed reforms would provide some added procedural 
protections, they would still not provide an accused individual 
the opportunity to dispute the alleged misconduct and contest 
law enforcement accusations of guilt before an independent 
adjudicatory body.
    Although illegal in China, torture and abuse by law 
enforcement officers remain widespread. Factors that perpetuate 
or exacerbate the problem of torture include a lack of 
procedural safeguards to protect criminal suspects and 
defendants, over reliance on confessions of guilt, the absence 
of lawyers at interrogations, inadequate complaint mechanisms, 
the lack of an independent judiciary, and the abuse of 
administrative detention measures. The Chinese government 
emphasizes its ongoing efforts to pass new laws and 
administrative regulations preventing, punishing, and 
compensating cases of torture by law enforcement officers. Both 
the SPP and the Ministry of Public Security have announced 
their support for audio and video taping of interrogations of 
criminal suspects accused of a limited number of crimes. The 
Chinese government recognizes that problems of misconduct, 
including physical abuse, exist within Chinese prisons and 
reeducation through labor centers, and it is making progress 
toward increasing accountability for such behavior.
    In 2006, Chinese authorities increased restrictions on 
lawyers who work on politically sensitive cases or cases that 
draw attention from the foreign news media. Law enforcement 
officials also intimidated lawyers defending these cases by 
charging them, or threatening to charge them, with various 
crimes. Since mid-2005, local authorities have also used 
harassment and violent measures against those who participated 
in criminal or civil rights defense in sensitive matters. 
Beijing lawyer Zhu Jiuhu was detained during the past year. 
Self-trained legal advocate Chen Guangcheng was sentenced on 
August 24, 2006, to four years and three months' imprisonment, 
and Shanghai lawyer Zheng Enchong is currently under house 
arrest after being released from prison on June 5, 2006. 
Beijing lawyer Gao Zhisheng has been held incommunicado since 
authorities reportedly abducted him on August 15 from his 
sister's home in Shandong province. Guo Feixiong, who served as 
a legal advisor to Gao's law firm, was arrested and later 
released in late 2005, and is currently in detention after 
being taken from his home on September 14.
    Chinese criminal law includes 68 capital offenses, over 
half of which are non-violent crimes. The Chinese government 
reportedly has adopted an ``execute fewer, execute cautiously'' 
policy. In 2006, the Chinese judiciary made reform of the death 
penalty review process a top priority and introduced new 
appellate court procedures for hearing death penalty cases. The 
Supreme People's Court announced that it would consolidate and 
reclaim the death penalty review power from provincial-level 
high courts. These reforms are designed to limit the use of 
death sentences, consolidate criteria used by courts to 
administer those sentences, and ensure constitutionally 
protected human rights.
    The Vice Minister of Health acknowledged that the majority 
of human organs used in transplants in China originate from 
executed prisoners. Under the World Health Organization's 
guiding principles on human organ transplantation, organ 
donations by prisoners, even when reportedly voluntary, may 
nonetheless violate international standards if the organs are 
obtained through undue influence and pressure. New Ministry of 
Health regulations include medical standards for organ 
transplants, but do not provide guidance on what type of 
consent is required for taking organs from 
executed prisoners.
    The Chinese government does not respect the internationally 

recognized right of workers to organize their own unions. The 
All-China Federation of Trade Unions (ACFTU), a Party-led mass 
organization, is the only legal labor federation in China. It 
controls local union branches and aligns worker and union 
activity with government and Party policy. The ACFTU began a 
campaign in March 2006 to establish union branches in foreign 
enterprises doing business in China. Chinese workers who 
attempt to form independent workers' organizations, or whom the 
government suspects of being leaders of such organizations, 
risk imprisonment. The government secretly tried labor rights 
activist Li Wangyang and sentenced him to 10 years' 
imprisonment in September 2001 for staging a peaceful hunger 
strike. Li had previously served most of a 13-year sentence for 
organizing an independent union. In May 2003, the government 
sentenced labor activist Yao Fuxin to a seven-year prison term 
for peacefully rallying workers to demand wage and pension 
arrearages from a bankrupt state-owned enterprise. Both Li and 
Yao remain in prison.
    Weak protection of worker rights has contributed to an 
increase in the number of labor disputes and protests. 
According to ACFTU figures, the number of labor disputes rose 
sharply in 2005. The ACFTU reports that there were 300,000 
labor-related lawsuits filed, a 20.5 percent increase over 2004 
and a 950 percent increase compared to 1995. Strikes, marches, 
demonstrations, and collective petitions increased from fewer 
than 1,500 in 1994 to about 11,000 in 2003, while the number of 
workers involved increased from nearly 53,000 in 1994 to an 
estimated 515,000 in 2003. Poor workplace health and safety 
conditions and continuing wage and pension arrearages were the 
most prominent issues resulting in labor disputes during the 
past year. Chinese industry continues to have a high accident 
rate, with death rates in the mining and construction 
industries leading other sectors. According to official 
statistics, 110,027 people were killed in 677,379 workplace 
accidents through December 2005, and more than 10,000 workers 
died in the mining and construction sectors during 2005.
    Forced labor is an integral part of the Chinese 
administrative 
detention system. Authorities sentence some prisoners without 
judicial review to reeducation through labor (laojiao) centers, 
where they are forced to work long hours without pay to fulfill 
heavy production quotas, and sometimes are tortured for 
refusing to work. China's Labor Law prohibits forced labor 
practices in the workplace, and authorities have arrested 
employers who trap workers at forced labor sites. In 2002, the 
Chinese government began to cooperate with the International 
Labor Organization on broad issues of concern regarding forced 
labor, including on potential reforms to the reeducation 
through labor system, and on improving institutional capacity 
to combat human trafficking for labor exploitation.
    The use of child labor in some regions of China is 
reportedly on the rise. Labor shortages in the economically 
developed southern and eastern coastal provinces are causing 
employers to turn to child laborers, according to NGO reports. 
This development coincides with intensified efforts by the 
Ministry of Justice and the Ministry of Labor and Social 
Security to fight the illegal employment of children, 
suggesting that the government is more concerned about such 
abuses than before. Government authorities 
consider statistics on child labor that have not been 
officially 
approved for release to be state secrets, and this policy 
thwarts 
efforts to understand the extent and causes of the problem.
    Chinese government restrictions on the practice of religion 
violate international human rights standards. Freedom of 
religious 
belief is protected by the Chinese Constitution and laws, but 
government implementation of Party policy on religion, and 
restrictions elsewhere in domestic law, violate these 
guarantees. The 
Chinese government tolerates some aspects of religious belief 
and practice, but only under a strict regulatory framework that 
represses religious and spiritual activities falling outside 
the scope of Party-sanctioned practice. Religious organizations 
are required to register with the government and submit to the 
leadership of ``patriotic religious associations'' created by 
the Party to lead each of China's five recognized religions: 
Buddhism, Catholicism, Daoism, Islam, and Protestantism. Those 
who choose not to register with the government, or groups that 
the government refuses to register, operate outside the zone of 
protected religious activity and risk harassment, detention, 
imprisonment, and other abuses. Registered communities also 
risk such abuse if they engage in religious activities that 
authorities deem a threat to Party authority or legitimacy.
    The 2004 Regulation on Religious Affairs (RRA) has not 
afforded greater religious freedom to Chinese citizens, despite 
government claims that it represented a ``paradigm shift'' by 
limiting state control over religion. Like earlier local and 
national regulations on religion, the RRA emphasizes government 
control and restrictions on religion. The RRA articulates 
general protection only for freedom of ``religious belief,'' 
but not for expressions of religious belief. Like earlier 
regulations, it also protects only those religious activities 
deemed ``normal,'' without defining this term. Although the RRA 
includes provisions that permit registered religious 
organizations to select leaders, publish materials, and engage 
in other affairs, many provisions are conditioned on government 
approval and oversight of religious activities.
    Chinese government enforcement of Party policy on religion 
creates a repressive environment for the practice of Tibetan 
Buddhism. Party policies toward the Dalai Lama and Panchen 
Lama, the second-ranking Tibetan spiritual leader, seek to 
control the fundamental religious convictions of Tibetan 
Buddhists. Government actions to implement Party policies 
caused further deterioration in some aspects of religious 
freedom for Tibetan Buddhists in the past year. Officials began 
a patriotic education campaign in Lhasa-area monasteries and 
nunneries in April 2005. Expressions of resentment by Tibetan 
monks and nuns against the continuing campaign resulted in 
detentions, expulsions, and an apparent suicide. Chinese 
officials continue to hold Gedun Choekyi Nyima, the boy the 
Dalai Lama recognized as the Panchen Lama in May 1995, in 
incommunicado custody along with his parents.
    Tibetan Buddhist monks and nuns constituted 21 of the 24 
known political detentions of Tibetans by Chinese authorities 
in 2005, compared to 8 of the 15 such known detentions in 2004, 
based on data available in the Commission's Political Prisoner 
Database. None of the known detentions of monks and nuns in 
2005 took place in Sichuan province, a shift from the previous 
three years, but known detentions of monks and nuns in Qinghai 
and Gansu provinces increased during the same period. Based on 
data available for 50 currently imprisoned Tibetan monks and 
nuns, their average sentence length is approximately nine years 
and six months. In one positive development, the government 
permitted the resumption of a centuries-old Tibetan Buddhist 
tradition of advanced study that leads to the highest level of 
scholarly attainment in the Gelug tradition.
    Government repression of unregistered Catholic clerics 
increased in the past year. Based on NGO reports, officials in 
Hebei and Zhejiang provinces detained a total of 38 
unregistered clerics in 13 incidents in the last year, while in 
the previous year officials detained 11 clerics in 5 incidents. 
The government targets Catholic bishops who lead large 
unregistered communities for the most severe punishment. Bishop 
Jia Zhiguo, the unregistered bishop of Zhengding diocese in 
Hebei province, has spent most of the past year in detention. 
Bishop Jia has been detained at least eight times since 2004.
    Government harassment and abuse of registered Catholic 
clerics also increased in the past year. In November and 
December 2005, three incidents were reported in which officials 
or unidentified 
assailants beat registered Catholic nuns or priests after they 
demanded the return of church property. In April and May 2006, 
officials began a campaign to increase control over registered 
Catholic bishops. Officials detained, sequestered, threatened, 
or exerted pressure on dozens of registered Catholic clerics to 
coerce them into participating in the consecration of bishops 
selected by the state-controlled Catholic Patriotic Association 
but not approved by the Holy See. Government authorities also 
restricted contact between registered clergy and the Holy See, 
denying bishops permission to travel to Rome in September 2005 
to participate in a meeting of Catholic bishops. Authorities 
continued to permit some registered priests and nuns to study 
abroad.
    The Chinese government also strictly controls the practice 
of Islam. Muslims face the same rigorous registration 
requirements as other religious groups. The state-controlled 
Islamic Association of China aligns Islamic practice to Party 
goals by directing the training and confirmation of religious 
leaders, the publication of religious materials, the content of 
sermons, and the organization of Hajj pilgrimages, as well as 
by indoctrinating religious leaders and adherents in Party 
ideology and government policy.
    The government severely represses Islamic practice in the 
Xinjiang Uighur Autonomous Region (XUAR), especially among the 
Uighur ethnic group. Local regulations in the XUAR impose 
restrictions on religion that are not found in other parts of 
China. The government's religious repression in the XUAR is 
part of a broader policy aimed at diluting expressions of 
Uighur identity and tightening government control in the 
region. The government continues to imprison Uighurs who engage 
in peaceful expressions of dissent and other non-violent 
activities. Writer Nurmemet Yasin and historian Tohti Tunyaz 
remain in prison for writing a short story and conducting 
research on the XUAR.
    The Chinese government continues to repress Chinese 
Protestants who worship in house churches. From May 2005 to May 
2006, the government detained nearly 2,000 house church 
members, according to one U.S. NGO. Almost 50 percent of the 
reported detentions of Protestant house church members and 
leaders took place in Henan province, where the house church 
movement is particularly strong. In June 2006, Pastor Zhang 
Rongliang, the leader of one of China's largest house churches, 
was sentenced to seven years and six months in prison for 
``illegally crossing the national border'' and ``fraudulently 
obtaining a passport.'' Authorities have detained or imprisoned 
Pastor Zhang multiple times since 1976. Pastor Gong Shengliang 
is serving a life sentence in declining health, and was beaten 
in prison during the past year.
    The Chinese government continues to maintain strict control 
over the registered Protestant church. The RRA requires that 
all Protestants worship at registered churches, regardless of 
their differences in doctrine and liturgy. The state-controlled 
Three-Self Patriotic Movement, which leads the registered 
Protestant church in China, continues to impose a Party-defined 
theology, called ``theological construction,'' on registered 
seminaries that is intended to ``weaken those aspects within 
Christian faith that do not conform with the socialist 
society.'' In the past year, authorities detained a registered 
Protestant pastor in Henan province for conducting a Bible 
study meeting at a registered Protestant church outside his 
designated geographic area.
    The Chinese government continues to disrupt the 
relationships that many house churches maintain with co-
religionists outside China, including raiding meetings between 
house church leaders and overseas Protestants, and preventing 
foreign travel by house church leaders. The Chinese government 
also continues to restrict and monitor the ties between the 
registered Protestant Church and foreign denominations.
    Government persecution of the Falun Gong spiritual movement 
continued during the past year. Authorities use both criminal 
and administrative punishments to punish Falun Gong 
practitioners for peacefully exercising their spiritual 
beliefs. The state-controlled press has reported on at least 
149 cases of Falun Gong practitioners currently in prison, but 
Falun Gong sources estimate that up to 100,000 practitioners 
have been detained since 1999. Manfred Nowak, UN Special 
Rapporteur on Torture, reported after his November 2005 visit 
to China that Falun Gong practitioners account for two-thirds 
of victims of alleged torture by Chinese law enforcement 
officers. Tsinghua University student Wang Xin was sentenced to 
nine years' imprisonment in 2001 for downloading Falun Gong 
materials from the Internet and printing leaflets.
    Despite strict government controls on the practice of 
religion, Chinese authorities accommodate the social programs 
of Buddhist, Catholic, Daoist, Muslim, and Protestant 
communities when these programs support Party goals. For 
example, domestic Muslim civil society organizations carry out 
social welfare projects, and international Muslim charities 
have supported projects in Gansu and Shaanxi provinces, as well 
as in the XUAR. The Amity Foundation, affiliated with the 
registered Protestant Church, sponsors projects in social 
services and development aid, including education, health care, 
and care for the elderly.
    The Chinese Constitution and national laws provide that men 
and women should enjoy equal rights and list protections for 
the economic and social rights of women, but vague language and 
inadequate implementation hinder the effectiveness of these 
legal protections. Some provincial and municipal governments 
have passed regulations to strengthen the implementation of 
national laws. A 2005 amendment to the Law on the Protection of 
Rights and Interests of Women prohibits sexual harassment and 
domestic violence, promotes a greater voice for women in the 
government, and charges several government organizations with 
responsibility for preventing human trafficking and 
rehabilitating victims.
    Civil society groups in China advocate on behalf of women's 
rights within the confines of government and Party policy. The 
All-China Women's Federation, a Party-led mass organization, 
works with the Chinese government to support women's rights, 
implement programs for disadvantaged women, and provide a 
limited measure of legal counseling and training for women. 
Women, 
however, have limited earning power compared to men, despite 
government policies that guarantee women non-discrimination in 
employment and occupation.
    The Chinese government strictly controls the reproductive 
lives of Chinese women. Since the early 1980s, the government's 
population planning policy has limited most women in urban 
areas to bearing one child, while permitting many women in 
rural China to bear a second child if their first child is 
female. Officials have coerced compliance with the policy 
through a system marked by pervasive propaganda, mandatory 
monitoring of women's reproductive cycles, mandatory 
contraception, mandatory birth permits, coercive fines for 
failure to comply, and, in some cases, forced sterilization and 
abortion. The Chinese government's population planning laws and 
regulations contravene international human rights standards by 
limiting the number of children that women may bear, by 
coercing compliance with population targets through heavy 
fines, and by discriminating against ``out-of-plan'' children. 
Local officials have violated Chinese law by punishing 
citizens, such as legal advocate Chen Guangcheng, who have 
drawn attention to population planning abuses by government 
officials.
    Human trafficking remains pervasive in China despite 
efforts by government agencies to combat trafficking, a 
framework of domestic laws to address the problem, and ongoing 
cooperation with international anti-trafficking programs. The 
government's population planning policy has created a severe 
imbalance in the male-female birth ratio, and this imbalance 
exacerbates trafficking of women and girls for sale as brides. 
Between 10,000 and 20,000 men, women, and children are victims 
of trafficking within China each year, and NGOs estimate that 
90 percent of those victims are women and children trafficked 
for sexual exploitation. Authorities are working with the 
International Labor Organization to build anti-trafficking 
capacity and raise domestic awareness of the problem.
    The Chinese government acknowledges the severity of China's 
environmental problems and has taken steps to curb pollution 
and environmental degradation. Since 2001, it has formulated or 
revised environmental protection laws, administrative 
regulations, and standards, and has worked to strengthen 
enforcement of anti-pollution rules. The Chinese government has 
also welcomed international technical assistance to combat 
environmental degradation, and has increased cooperation with 
the U.S. government on environmental protection over the past 
year.
    Despite these initiatives, local enforcement of 
environmental laws and regulations is poor, and under funding 
of environmental protection activities continues to hinder 
official efforts to prevent environmental degradation. A lack 
of transparency hampers the Chinese government's ability to 
respond to civil emergencies, including environmental 
disasters. Government efforts to impose greater control over 
environmental civil society groups during the past year have 
stifled citizen activism.
    The central government strengthened its commitment during 
the past year to address the severe shortage of affordable 
health care in rural China. Since the collapse of the rural 
public health infrastructure in the 1980s, the disparity in the 
availability and affordability of health care between urban and 
rural areas has increased. As a result, the medical needs of 
China's rural poor, including the diagnosis and treatment of 
infectious diseases, often go unaddressed. The government, 
however, has pledged to accelerate the establishment of rural 
health cooperatives and invest more than 20 billion yuan 
(US$2.5 billion) over the next five years to modernize 
hospitals, clinics, and medical equipment at the village, 
township, and county levels.
    The central government continued to take steps over the 
past year to prevent and control the spread of HIV/AIDS. 
Although the estimated number of HIV/AIDS cases nationwide has 
decreased, health officials still consider the disease to be a 
grave problem. Government efforts to prevent and control the 
transmission of HIV/AIDS continue to face serious challenges, 
as local implementation of national policy lags far behind 
central government attention to the problem. Victims of HIV/
AIDS and other infectious diseases also continue to face 
harassment and discrimination, despite legal protections.
    Chinese public health officials have shown increased 
commitment and responsiveness in their efforts to prevent and 
control the spread of avian flu, and have taken steps to 
improve government transparency following the mishandling of 
the SARS epidemic in 2003. International health experts, 
however, still consider China to be among the most likely 
incubators of a potential human influenza pandemic. Central 
government cooperation in sharing information and virus samples 
with international health organizations has been inconsistent, 
and international health organizations and central government 
officials continue to express concern about the speed and 
accuracy of local reporting on outbreaks among both humans and 
poultry.
    Since its implementation in the 1950s, the Chinese 
household registration (hukou) system has limited the rights of 
ordinary Chinese citizens to choose their permanent place of 
residence, receive equal access to social services, and enjoy 
equal protection of the law. Economic changes and relaxation of 
some hukou controls have eroded previously strict limits on 
citizens' freedom of movement, but these changes have also 
exported a discriminatory urban-rural social division to 
China's cities. Migrants who lack a local hukou for their new 
city of residence face legal discrimination in employment, 
education, and social services.
    Chinese leaders called for reforms to the hukou system 
during the past year. Central government interest in reform 
stems not only from concern over migrant rights and economic 
inequality, but also from concern over growing social 
instability and a desire for stronger government control over 
China's internal migrant population. New national goals for 
hukou reform, like similar proposals implemented periodically 
since the late 1990s, call for streamlined hukou categories, 
elimination of discriminatory regulations on employment, and 
improved migrant access to social services. Local governments 
and urban residents have resisted reforms to the hukou system 
because of the potential budgetary impact, fears of increasing 
population pressure in cities, and discriminatory attitudes 
toward migrants. Local opposition has limited the ability of 
central government authorities to achieve national reform 
goals.
    The number of civil society organizations in China is 
growing, with many organizations undertaking projects such as 
poverty alleviation, faith-based social work, and legal efforts 
to protect citizen rights. These organizations include national 
mass organizations that the Party created and funds, smaller 
citizen associations 
registered under national regulations, and loose networks of 
unregistered grassroots organizations. In February 2006, the 
China Foundation for Poverty Alleviation selected six groups as 
the first civil society organizations to receive Chinese 
government funding to run experimental anti-poverty programs, 
including the China office of a U.S.-based rural development 
organization.
    Central authorities seek to maintain control over civil 
society groups, halt the emergence of independent 
organizations, and prevent what they have called the 
``Westernization'' of China. While recognizing the utility of 
civil society organizations to address social problems, Chinese 
authorities use strict regulations to limit the growth of an 
independent civil society. Some Chinese citizens who attempt to 
organize groups outside of state control have been imprisoned. 
These include individuals who have attempted to establish 
independent labor unions and political associations, such as 
China Free Trade Union Preparatory Committee member Hu Shigen, 
and China Democracy Party member Qin Yongmin; or young 
intellectuals who organize informal discussion groups, such as 
New Youth Study Group members Jin Haike, Xu Wei, Yang Zili, and 
Zhang Honghai.
    Chinese officials have taken additional steps to curtail 
civil society organizations in the past year, but authorities 
are undecided on how to proceed. Since early 2005, Ministry of 
Civil Affairs (MOCA) officials have been researching a new 
administrative system to monitor and control civil society 
organizations. Many details of the new system are undetermined, 
such as who will conduct the required evaluations of civil 
society groups, how the evaluation results will be used, and 
who will fund the evaluations. At the same time, Chinese 
authorities have supported limited reforms to the status of 
civil society organizations. MOCA officials are advocating 
changes to the tax code to encourage private donations to civil 
society organizations. Central Party officials have expressed 
support for the creation of rural farmer cooperatives in annual 
policy guidelines issued each year since 2004.
    International human rights standards require effective 
remedies for official violations of citizen rights. Despite 
these guarantees, Chinese citizens face formidable obstacles in 
seeking remedies to government actions that violate their legal 
rights and constitutionally protected freedoms. External 
government and Party controls continue to limit the 
independence of the Chinese judiciary. Party officials control 
the selection of top judicial personnel in all courts, 
including the Supreme People's Court, China's highest judicial 
authority. Since 2005, the government has restricted the 
efforts of private lawyers and human rights defenders who 
challenge government abuses. The All China Lawyers Association 
issued a guiding opinion that restricts the ability of lawyers 
to handle cases involving large groups of people. Local Chinese 
authorities have imposed additional restrictions on lawyer 
advocacy efforts.
    The constitutional and administrative mechanisms in Chinese 
law that allow citizens to challenge government actions do not 
provide effective legal remedies, and Chinese citizens seldom 
use them. Chinese citizens rarely submit proposals to the 
National People's Congress for constitutional and legal review 
because the review process lacks transparency and citizens 
cannot compel review. Administrative court challenges to 
government actions have not increased since 1998. Provincial 
authorities report an overall decline between 2003 and 2005 in 
applications for administrative reconsideration, and the total 
numbers of such applications in major Chinese municipalities is 
a few hundred per year.
    Chinese law also permits citizens to petition government 
officials directly to redress their grievances through the 
``letters and visits'' (xinfang) system. Official news media 
report that Chinese citizens presented 12.7 million petitions 
to county-level and higher xinfang bureaus during 2005, in 
contrast to the 8 million total court cases handled by the 
Chinese judiciary during the same period. Local officials are 
disciplined more severely for high incidences of petitioning. 
Absent alternative political or legal channels to check the 
power of local officials and obtain redress, this punishment 
structure provides an incentive for Chinese citizens to take 
their grievances to the streets in order to force local 
officials to act. But this punishment structure also gives 
local authorities an interest in suppressing mass petitions and 
preventing petitioners from approaching higher authorities. A 
December 2005 study of the xinfang system by a U.S. NGO found 
that some local authorities have resorted to ``rampant violence 
and intimidation'' to abduct or detain petitioners in Beijing 
and force them to return home.
    The Supreme People's Court 2004-2008 court reform program 
imposes stronger external and internal controls that may 
further weaken the independence of courts and judges. The court 
reform program, however, also sets some positive long-term 
goals for judicial reform in the areas of court financing, 
adjudication, retrial procedures, and juvenile justice. Party 
efforts to address growing 
social unrest have resulted in new government programs to 
strengthen institutions that assist citizens with legal claims 
and disputes. Official Chinese statistics show that the number 
of government legal aid centers rose from 2,774 in 2003 to 
3,081 in 2005. The total number of cases handled by these 
centers rose from about 166,000 in 2003 to an estimated 250,000 
in 2005, or roughly 3 percent of all cases handled by the 
Chinese courts in 2005.
    In 2005, the Dalai Lama increased his efforts to explain 
that he does not seek Tibetan independence from China. The 
Dalai Lama's envoys traveled to China for a fifth round of 
dialogue with Chinese officials in February 2006, relaying a 
request to Chinese leaders to permit the Dalai Lama to visit 
China as a religious pilgrim. Tibetans could benefit from full 
implementation of the Regional Ethnic Autonomy Law, but the 
lack of local self-government in Tibetan autonomous areas of 
China creates mistrust in the dialogue and demonstrates that 
authorities are not implementing this law.
    The Chinese government favors accelerating implementation 
of development initiatives, especially the Great Western 
Development program, that already erode Tibetan culture and 
heritage. The Qinghai-Tibet railway began passenger service in 
July 2006, increasing Tibetan concerns about the railway's 
potential effects on Tibetan culture and the environment. 
Education levels among Tibetans are much lower than those of 
ethnic Han Chinese, undermining the ability of Tibetans to 
compete for employment and other economic advantages in an 
emerging market economy that attracts an increasing number of 
Han.
    The Chinese government strictly limits the rights of 
Tibetans to exercise the constitutionally guaranteed freedoms 
of religion, speech, and assembly. Communist Party political 
campaigns promote atheism and strengthen government efforts to 
discourage 
Tibetan aspirations to foster their unique culture and 
religion. Chinese authorities have punished Tibetans, such as 
Jigme Gyatso, a former monk imprisoned in 1996 who is serving a 
17-year sentence and Choeying Khedrub, a monk serving a life 
sentence since 2000, for peaceful expressions and non-violent 
actions that officials believe could undermine Party rule. The 
Commission's Political Prisoner Database listed 103 known cases 
of current Tibetan political detention or imprisonment as of 
August 2006, a figure that is likely to be lower than the 
actual number of Tibetan political prisoners. Based on sentence 
information available for 70 of the current prisoners, the 
average sentence is approximately 10 years and 11 months.
    The Chinese government forcibly repatriates North Korean 
refugees facing starvation and political and religious 
persecution in their homeland, contravening its obligations 
under the 1951 Convention relating to the Status of Refugees 
and its 1967 Protocol. Chinese authorities detained and 
returned to the Democratic People's Republic of Korea (DPRK) 
thousands of North Koreans in 2005. The government classifies 
all North Koreans who enter China without documents as illegal 
economic migrants and claims it must return them to the DPRK, 
even though North Korean defectors meet the definition of 
refugees under international law. Repatriated North Koreans 
face long prison sentences, torture, and execution.
    Without legal status, North Korean refugees in China are 
vulnerable to abuse and exploitation. There are an estimated 
20,000 to 50,000 North Koreans currently hiding in northeastern 
China, and some NGOs estimate that the number of refugees is 
much higher. The government refuses the UN High Commissioner 
for Refugees (UNHCR) access to North Korean refugees, and fines 
and imprisons humanitarian workers who assist North Koreans in 
China. 
Officials in Beijing met with UNHCR Antonio Guterres in March 
2006 during the first UNHCR visit to China since 1997. In July 
2006, the Chinese government for the first time allowed three 
North Korean refugees to travel directly from the U.S. 
Consulate in Shenyang, Liaoning province, to the United States 
to seek asylum.
    The people of Hong Kong continue to enjoy the benefits of 
an independent judiciary and an open society in which the 
freedoms of religion, speech, and assembly are respected. The 
Commission strongly supports the provisions of the Basic Law 
that provide for the election of the chief executive and the 
entire Legislative Council through universal suffrage, and 
highlights the importance of the central government's 
obligation to give Hong Kong the ``high degree of autonomy'' 
promised in the Basic Law. The Commission notes, however, that 
during the past year, no steps were taken that would move Hong 
Kong closer to the ``ultimate aim'' of universal suffrage as 
specified in the Basic Law.
    The Hong Kong Special Administrative Region's 
Constitutional Development Task Force issued its fifth report 
in October 2005, which proposed modest measures to expand 
citizen participation in selecting the chief executive in 2007 
and forming the Legislative Council in 2008. A vigorous public 
debate on the merits of the Task Force proposals, and their 
lack of a timetable for universal suffrage, culminated in a 
December 2005 march by tens of thousands to protest the slow 
pace of democratization. Twenty-four Legislative Council 
members voted against the report in late December, blocking its 
passage. A last-minute package of adjustments offered by the 
government did not meet the lawmakers' demand for a specific 
timetable to realize universal suffrage.
    The Chinese government has made progress in bringing its 
laws and regulations into compliance with its World Trade 
Organization (WTO) commitments. Although significant flaws 
remain, the new body of commercial laws has improved the 
business climate for foreign companies in China. With new, more 
transparent rules, the Chinese trade bureaucracy has reduced 
regulatory and licensing delays in many sectors. The Chinese 
commercial regulatory regime remains, however, largely opaque 
to both domestic and foreign businesses. When China joined the 
WTO in December 2001, the government committed to establishing 
an official journal that would publish drafts of trade-related 
measures for notice and comment, and to publish trade-related 
measures no later than 90 days after they become effective. 
Although the government has acted to improve transparency, some 
central government agencies and many local governments are not 
consistent in publishing trade-
related measures in the official journal.
    The Chinese government tolerates intellectual property 
rights (IPR) infringement rates that are among the highest in 
the world. The Chinese government has not introduced criminal 
penalties sufficient to deter IPR infringement, and steps taken 
by Chinese government agencies to improve the protection of 
foreign intellectual property have not produced any significant 
decrease in infringement activity. The Chinese government's 
failure to provide effective criminal enforcement of IPR has 
led foreign companies to turn to civil litigation to obtain 
monetary damages or injunctive relief. Civil litigants continue 
to find, however, that most judges lack the necessary training 
and experience to handle IPR cases, and damage awards are too 
low to be an effective deterrent.
    Since acceding to the WTO, the Chinese government has used 
technical, regulatory, and industrial policies, some of which 
appear to conflict with its WTO commitments, to discriminate 
against foreign producers and investors and limit their access 
to the domestic market. U.S. rights holders and industry groups 
have complained that the government's censorship regime serves 
as a barrier to entry and encourages IPR violations. In 2005, 
the American Chamber of Commerce in China wrote that censorship 
clearance procedures severely restrict the ability to 
distribute CD, VCD, and DVD products in China and provide an 
``unfair and unnecessary advantage to pirate producers who 
bring their products to market long before legitimate copies 
are available for sale.''

                      III. List of Recommendations

    The Commission is working to implement the recommendations 
made in its 2002-2005 Annual Reports. Based on the information 
presented in this report and the Commission's belief that the 
United States must continue to pursue a dual policy of high-
level advocacy on human rights issues and support for legal 
reform efforts, the Commission makes the following additional 
recommendations to the President and the Congress for 2006:
Human Rights for China's Citizens
        <bullet> The UN Human Rights Council held its first 
        session from June 19 to June 30 in Geneva. As a 
        responsible member of the international community and 
        one of the 47 members of the new Council, China must 
        abide by the international norms of behavior 
        articulated in the Universal Declaration of Human 
        Rights and international covenants, and submit to peer 
        review of its human rights record. The President and 
        the Congress should continue to urge the Chinese 
        government to ratify the International Covenant on 
        Civil and Political Rights, and to adopt such 
        legislative and other measures as may be necessary to 
        give effect to the rights recognized in the Covenant. 
        The President and the Congress should also encourage 
        the Council to fight human rights abuses and to speak 
        on behalf of Chinese prisoners of conscience who have 
        had their voices silenced, including: democracy and 
        labor activist Hu Shigen (imprisoned for helping to 
        establish an independent political party and trade 
        union), members Jin Haike, Xu Wei, Yang Zili, and Zhang 
        Honghai of the New Youth Study Group (imprisoned for 
        participating in a university discussion group), former 
        monk Jigme Gyatso (imprisoned for printing leaflets and 
        distributing posters), Uighur publisher Korash Huseyin 
        (imprisoned for publishing a short story), Uighur 
        writer Nurmemet Yasin (imprisoned for writing a short 
        story), democracy activist Qin Yongmin (imprisoned for 
        serving as a China Democracy Party spokesman), poet and 
        journalist Shi Tao (imprisoned for investigative 
        journalism), Uighur historian Tohti Tunyaz (imprisoned 
        for historical research), U.S. permanent resident and 
        democracy activist Yang Jianli (whose detention was 
        found to be arbitrary by the UN Working Group on 
        Arbitrary Detention), freelance writer Yang Tianshui 
        (imprisoned for writing articles critical of 
        authoritarian rule), labor rights activist Yao Fuxin 
        (imprisoned for rallying workers to seek back wages), 
        and New York Times researcher Zhao Yan (imprisoned for 
        investigative journalism).
        <bullet> China's leaders say they are committed to 
        building a fair and just society based on the rule of 
        law, and, in an effort to control social unrest, have 
        moved toward strengthening government institutions that 
        assist citizens with legal claims. Over the past year, 
        however, prominent Chinese criminal and civil rights 
        defense lawyers who have worked to advance the 
        development of the rule of law under the rubric of 
        ``rights defenders'' have met with government 
        intimidation, harassment, and imprisonment. The 
        President and the Congress should continue to discuss 
        with China's leaders the importance of an effective, 
        robust, and transparent legal defense in protecting 
        civil and political rights, and recall the 1998 UN 
        General Assembly declaration calling for the protection 
        of human rights defenders worldwide. The President and 
        the Congress should also continue to emphasize that 
        continued detention and imprisonment of rights 
        defenders such as Chen Guangcheng (sentenced in August 
        for speaking out against population planning abuses) 
        will only undermine the legitimacy of government 
        actions and of China's developing legal system. A full 
        commitment to the rule of law will also require the 
        Chinese government to cease its harassment, 
        surveillance, and abuse of citizens such as legal 
        advocates Guo Feixiong and Zhao Xin, who have suffered 
        repeated violence for working peacefully to defend 
        citizen rights, and to allow courageous lawyers such as 
        Gao Zhisheng and Zheng Enchong to resume their 
        important legal advocacy.
        <bullet> The future of Tibetans and their religion, 
        language, and culture depends on fair and equitable 
        decisions about future policies that can only be 
        achieved through dialogue. The Dalai Lama is essential 
        to this dialogue. To help the parties build on dialogue 
        held during visits by the Dalai Lama's representatives 
        each year since 2002, the President and the Congress 
        should continue to urge the Chinese government to 
        invite the Dalai Lama to visit China, so that he can 
        see for himself the changes and developments in China, 
        and so that he can seek to build trust through direct 
        contact with the Chinese leadership.
        <bullet> Rapid economic development without effective 
        environmental safeguards has resulted in severe 
        environmental degradation throughout China, poor air 
        and water quality in many areas, and increased risk of 
        disease. The Chinese government has acknowledged the 
        severity of China's environmental problems and has 
        taken steps to curb pollution. The United States and 
        China share a common interest in protecting the 
        environment, and the Chinese government has welcomed 
        international technical assistance to combat 
        environmental degradation. The President and the 
        Congress should discuss with China's leaders the 
        importance of citizen activism in protecting the 
        environment and in challenging governments to provide 
        clean air and drinking water. The President and the 
        Congress should also provide funding to support the 
        full range of activities envisioned in new Sino-U.S. 
        bilateral and international efforts to protect the 
        environment like the Joint Committee on Environmental 
        Cooperation and the Asia-Pacific Partnership on Clean 
        Development and Climate.
        <bullet> The Chinese government continues to apply 
        vague criminal and administrative provisions to justify 
        detentions based on an individual's political opinions 
        or membership in religious, ethnic, or social groups. 
        These provisions allow for the targeting and punishment 
        of activists for crimes that ``endanger state 
        security'' or ``disturb public order'' under the 
        Criminal Law. They also allow for administrative 
        detention for ``minor crimes'' in centers where 
        prisoners can be subjected to forced labor without 
        judicial review and the procedural protections 
        guaranteed by the Constitution and Criminal Procedure 
        Law. The President and the Congress should raise these 
        issues in discussions with UN oversight agencies and 
        the Chinese government, and recommend that the Criminal 
        Law be amended to define these crimes in precise terms, 
        and to create exceptions for the peaceful exercise of 
        fundamental rights guaranteed under the Chinese 
        Constitution and international declarations and 
        treaties. The President and the Congress should also 
        recommend that the administrative detention system be 
        reformed to conform to international law, including the 
        abolition of forced labor practices. Reforms should 
        ensure that Chinese citizens have the opportunity to 
        dispute any alleged misconduct and contest law 
        enforcement accusations of guilt before an independent 
        adjudicatory body.
Freedom for Religious Believers in China
        <bullet> Freedom of religion is a fundamental human 
        right. The freedom to believe and to practice one's 
        religion includes the right of religious adherents to 
        interact freely with their co-religionists abroad, and 
        to choose where they worship, who will teach them, the 
        texts they study, and whom they accept as their 
        leaders. The President and the Congress should continue 
        to foster the development of freedom of religion in 
        China by encouraging the Chinese government to 
        recognize that this freedom includes the right of 
        Tibetan Buddhists to freely express their religious 
        devotion to the Dalai Lama, of Chinese Catholics to 
        worship with bishops selected by the Holy See, of 
        Muslims to participate in religious pilgrimages without 
        government interference, of Protestants to worship in 
        house churches, and of adherents of spiritual belief 
        systems, like Falun Gong, to freely practice their 
        beliefs. In addition, the President and the Congress 
        should continue to encourage the Chinese government to 
        end the harassment, detention, and abuse of leaders and 
        members of unregistered religious organizations; raise 
        cases of religious imprisonment with the Chinese 
        government; and call for the immediate release of 
        religious prisoners of conscience, including house 
        church pastor Cai Zhuohua (imprisoned for printing and 
        giving away Bibles), Tibetan monk Choeying Khedrub 
        (sentenced to life imprisonment for printing leaflets), 
        South China Church leader Gong Shengliang (sentenced to 
        life imprisonment based on tortured confessions), 
        Catholic bishop Jia Zhiguo (detained for unauthorized 
        Catholic ministry), Catholic bishop Su Zhimin (held 
        incommunicado since 1997), and Tsinghua University 
        student and Falun Gong practitioner Wang Xin 
        (imprisoned for downloading Internet materials). The 
        President and the Congress should also continue to urge 
        the Chinese government to allow the UN Special 
        Rapporteur on Religious Intolerance to visit China 
        without conditions, as the Chinese government has 
        committed to the U.S. government and to the Special 
        Rapporteur.
        <bullet> Chinese central government policy, and some 
        local regulations, only recognize five government-
        defined religions. This restriction is neither 
        contained in national law nor in China's new Regulation 
        on Religious Affairs. In some parts of China, 
        Protestant communities that are not affiliated with the 
        state-controlled patriotic religious association have 
        been allowed to register with the government. Although 
        the government does not recognize Orthodox Christianity 
        as a religion, some Orthodox communities in China have 
        registered with a local government. These are welcome 
        developments, but they have been limited in scope. The 
        President and the Congress should continue to encourage 
        the Chinese government to eliminate its policy 
        restrictions on religion and to guarantee citizens 
        freedom of thought, conscience, religion, and belief in 
        accordance with Article 18 of the Universal Declaration 
        of Human Rights; to allow all religious and spiritual 
        groups to form independent organizations and practice 
        their faith free from interference by the government 
        and state-controlled religious associations; to remove 
        registration requirements or amend them so that the 
        government does not have the discretion to deny 
        registration to certain groups; and to provide 
        protections for individuals who choose to worship 
        outside the framework of organized 
        religion.
Labor Rights for China's Workers
        <bullet> Working conditions in China remain poor, and 
        Chinese workers are often unaware of the national laws 
        that protect their rights. The U.S. Department of Labor 
        has been working with the Chinese Ministry of Labor and 
        Social Security and the State Administration of Work 
        Safety to implement activities that focus on such labor 
        issues as occupational and mine safety and health, wage 
        and hour law administration, and education for Chinese 
        workers about national labor laws. The President and 
        the Congress should support expansion of these 
        cooperative activities to improve labor conditions for 
        Chinese workers. The President and the Congress should 
        also raise with Chinese leaders the critical role that 
        independent unions can play in achieving safer 
        workplaces, pressing factory owners to pay workers 
        fully and on time, and reducing accidents and 
        countering official corruption in the mining sector.
        <bullet> Human trafficking is a serious problem in 
        China. The government is cooperating with the 
        International Labor Organization's (ILO) Special Action 
        Program to Combat Forced Labor to strengthen the law 
        enforcement aspects of the trafficking cycle, but 
        government institutions lack the knowledge and capacity 
        to combat these practices effectively. China's Criminal 
        Law does not specifically address the issue of human 
        trafficking as it relates to forced labor, and although 
        the Labor Law outlaws forced labor practices in the 
        workplace, it only provides light penalties for 
        violators. The President should continue to support, 
        and the Congress should continue to fund, U.S. 
        assistance to the ILO's cooperative programs with China 
        on forced labor and trafficking; should urge the 
        Chinese government to ratify the two protocols to the 
        UN Convention against Transnational Organized Crime 
        concerning trafficking in persons and smuggling of 
        migrants; and should encourage bilateral discussions on 
        ways that government agencies, domestic law, and 
        employers and business groups can deter human 
        trafficking more 
        effectively.
Free Flow of Information for China's Citizens
        <bullet> The National People's Congress is considering 
        a draft ``Law on the Handling of Sudden Incidents'' 
        that, in its current form, restricts domestic and 
        foreign news media reporting on natural and man-made 
        disasters. If passed, this law would not only impose a 
        prior restraint on the press that is inconsistent with 
        international human rights standards, but also impede 
        the efficiency of the Global Public Health Intelligence 
        Network, an electronic surveillance system used by the 
        World Health Organization to monitor the Internet for 
        reports of communicable diseases and communicable 
        disease syndromes. The President and the Congress 
        should continue to raise with China's leaders the 
        global nature of public health emergencies, the 
        importance of complete transparency in the 
        administration of public health, and the importance of 
        an unimpeded press in monitoring government performance 
        on public health and providing critical information to 
        the public in a timely manner.
        <bullet> The Chinese government uses technology, prior 
        restraints, intimidation, detention, imprisonment, and 
        vague and arbitrarily applied censorship regulations to 
        suppress free expression and control the news media. 
        Because the government 
        restricts the free flow of information, many Chinese 
        citizens are unaware that official censorship policies 
        violate their rights to freedom of speech and freedom 
        of the press. The President and the Congress should 
        urge the Chinese government to eliminate prior 
        restraints on publishing, cease detaining journalists 
        and writers, stop blocking foreign news broadcasts and 
        Web sites, and specify precisely what kind of political 
        content is illegal to publish. The President should 
        propose, and the Congress should appropriate, funds to 
        support U.S. programs to develop technologies that 
        would help Chinese citizens access Internet-based 
        information currently unavailable to them, as well as 
        educational materials about their rights under 
        international law to freedom of speech and freedom of 
        the press.
Rule of Law and the Development of Civil Society
        <bullet> Chinese officials have taken additional steps 
        in the past year to curb the growth of China's emerging 
        civil society. Ministry of Civil Affairs officials are 
        currently researching a new administrative system to 
        supervise, control, and ``rate'' civil society 
        organizations. Many details of the plan, such as who 
        will conduct the evaluations and how the results will 
        be used, are not yet determined. The President and the 
        Congress should encourage bilateral discussion on the 
        issue of official control over civil society 
        organizations; reiterate statements made by Chinese 
        officials and scholars regarding the important role 
        independent civil society organizations can play in 
        resolving 
        conflict, protecting citizen rights, and maintaining 
        social stability; and encourage the Chinese government 
        to take steps that would promote the development of an 
        independent civil society, such as removing the sponsor 
        organization requirement.
        <bullet> The Chinese government forcibly repatriates 
        North Koreans seeking refuge in China and denies the 
        Office of the UN High Commissioner for Refugees (UNHCR) 
        access to this vulnerable population, contravening its 
        obligations under the 1951 Convention relating to the 
        Status of Refugees and its 1967 Protocol, as well as 
        the Chinese government's 1995 Agreement with the UN. 
        The State Council is currently considering new 
        Regulations on the Administration of Refugees. These 
        regulations could provide new protections for the 
        vulnerable North Korean refugee population, but little 
        is known about their contents. The President and the 
        Congress should continue to press the Chinese 
        government to immediately cease repatriation of North 
        Korean refugees and grant the UNHCR unimpeded access to 
        screen North Korean refugee petitions. The President 
        and the Congress should also encourage the Chinese 
        government to be transparent as it progresses in 
        drafting and adopting its new regulations on refugees, 
        and to work closely with the UNHCR to ensure that this 
        legislation will protect North Korean refugees in full 
        accordance with international law.
        <bullet> Abuse of power by local police forces remains 
        a serious problem throughout China. The Supreme 
        People's Procuratorate has acknowledged the existence 
        of continuing and widespread abuses in law enforcement, 
        including illegal extended detentions and torture. The 
        President and the Congress should work to expand 
        programs, such as funding a permanent Resident Legal 
        Advisor at the U.S. Embassy in Beijing, that will help 
        foster dialogue between Chinese and U.S. counterparts, 
        and encourage Chinese procuratorates to exercise 
        greater oversight over police abuses. These programs 
        should encourage the Chinese government to continue 
        reform efforts such as providing criminal defense 
        lawyers with greater access to their clients and case 
        files, audio and video taping law enforcement 
        interrogations of criminal suspects, and excluding 
        evidence at trial that was obtained through torture or 
        other illegal means.
        <bullet> Upon joining the World Trade Organization 
        (WTO), the Chinese government committed to increasing 
        regulatory transparency, improving the protection of 
        intellectual property rights, and ensuring non-
        discrimination in administering trade-related measures. 
        The government has achieved incremental improvements in 
        regulatory transparency since WTO accession, but 
        continues to tolerate rampant infringement of 
        intellectual property rights. In addition, government 
        industrial policies promote and protect many domestic 
        industries, in some cases in a manner that appears to 
        contravene China's WTO commitments. The President and 
        the Congress should continue to urge the Chinese 
        government to ensure that relevant authorities publish 
        all measures affecting trade in a timely manner; to 
        enact and impose criminal and civil penalties severe 
        enough to deter intellectual property infringement; and 
        to 
        remove all non-prudential barriers to U.S. and other 
        foreign participation in those market sectors governed 
        by WTO commitments.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. The views and recommendations 
expressed in this report, however, do not necessarily reflect 
the views of individual Executive Branch members or the 
Administration.
    This report was approved by a vote of 22 to 1.<dagger>

                            IV. Introduction

Domestic Challenges Growing Out of Economic Restructuring
    Since the beginning of the ``reform and opening up'' period 
in 1978, Chinese government policies have raised the national 
standard of living and lifted more than 400 million citizens 
out of extreme poverty, according to Chinese and World Bank 
statistics. This is an impressive achievement. But as incomes 
have risen, so too have inequalities created by economic 
restructuring policies that have favored urban over rural 
development. In 2005, the average income of China's urban 
residents was more than three times that of rural residents, an 
increase from two and one-half times in 1978. China's ethnic 
minorities, who live primarily in rural areas, constitute less 
than 10 percent of China's population, but represent more than 
40 percent of the nation's poorest citizens. The government 
also faces a growing population of new urban poor. Millions of 
Chinese citizens who lost their jobs and pensions because of 
the collapse of state-owned enterprises have not found new 
jobs. In addition, many rural to urban migrants survive in the 
low-wage informal economy without access to public services of 
any kind.
    Chinese leaders face enormous domestic challenges. The 
government estimated that it needs to create 25 million new 
urban jobs in 2006 just to keep unemployment levels in check. 
The dual problems of urban unemployment and growing rural-urban 
inequality have created diverse and competing societal 
interests that increasingly clash, fueling social unrest 
throughout China, and complicating the government's efforts to 
find solutions. Officials reported that ``disturbances of 
public order'' rose to a total of 87,000 in 2005, a 6.6 percent 
increase over the figure in 2004. Citizen protests broke out in 
several provinces during the past year over land 
expropriations, official corruption and abuse, low wages and 
poor working conditions in factories, and environmental 
degradation. In September 2005, police clashed with hundreds of 
residents in Taishi village, Guangdong province, over citizen 
attempts to remove a local official from office for embezzling 
land compensation funds. In October, police in Chongqing 
municipality broke up one of the largest worker protests in 
China in more than a decade. In December, forces from the 
paramilitary People's Armed Police shot at thousands of 
villagers and killed as many as 20 in Shanwei city, Guangdong 
province, in response to protests against the pollution and 
displacement caused by construction of a power plant. In July 
2006, hundreds of citizens rioted in Guiyang city, Guizhou 
province, after officials beat a migrant worker lacking a 
temporary residence permit.
Rural Inequality and Social Unrest
    Concerns about mounting social unrest because of rural-
urban inequality have reached the top levels of the Chinese 
leadership. In late 2005, Premier Wen Jiabao warned senior 
rural bureaucrats that more violence would result if they 
continued to commit the ``historic mistake'' of failing to 
protect farmers and their lands. Party and government leaders 
used the first major policy document of 2006 to announce a 
campaign for ``construction of a new socialist countryside.'' 
This campaign seeks to address the growing inequalities between 
rural and urban residents and commits the central government to 
increasing services to rural areas in health, education, and 
employment. In March, Wen told the National People's Congress 
(NPC) that the central government will invest more than 20 
billion yuan (US$2.5 billion) over the next five years to 
modernize hospitals, clinics, and medical equipment at the 
village, township, and county levels. Chinese officials also 
promised to spend 218 billion yuan (US$27.25 billion) over the 
next five years to improve rural education. In January, the 
central government stopped levying agricultural and livestock 
taxes on farmers in an effort to boost rural incomes. Although 
Chinese authorities remain sensitive to farmers' efforts to 
organize collectively to protect their interests, central 
policy documents issued each year since 2004 have given a 
limited degree of support to establishing farmer cooperatives, 
and the 2006 legislative calendar for the NPC contains a 
proposal for a national law on these organizations.
    The central government has also called for increased 
protections for the rights of migrant workers as part of its 
effort to increase social stability. The Central Party 
Committee and State Council issued a joint circular on social 
stability in October 2005 calling, in part, for greater 
protections of migrant rights and the creation of a permanent 
mechanism to address worker claims for unpaid wages, a problem 
that disproportionately affects migrants. China's Communist 
Party-led labor union federation responded to the new central 
government mandate by creating programs to help migrants avoid 
abuse and exploitation by employers. In the past year, the 
labor union federation has announced new programs to assist 
migrants in signing labor contracts with employers, recovering 
unpaid wages, improving work safety, and securing legal aid and 
job training. Concerns over social unrest growing out of rural-
urban inequality also have compelled the government to consider 
reforming some of the political tools it has used to control 
society. Chinese 
authorities announced in October 2005 that they were 
considering national reforms to the Chinese household 
registration (hukou) system, and have taken steps to remove 
restrictions on migrant 
employment in urban areas.
Political and Religious Repression and Social Unrest
    The largely positive government response to social unrest 
growing out of rural inequality stands in sharp contrast to the 
government response to citizen grievances over political and 
religious repression. The Chinese government has punished 
citizens who press for change and challenge government abuses, 
in disregard of the peaceful nature of their activities and in 
contravention of international human rights standards. The same 
October joint circular that detailed positive measures to help 
migrants and the rural poor also called for stronger controls 
over society. The central government has imposed 
countermeasures to rein in the Chinese press and to exercise 
greater control over the Internet. Officials are currently 
evaluating new measures to control civil society organizations. 
Party officials have warned about foreign ``hostile forces'' 
that push for ``color revolutions'' and ``infiltrate'' the 
press, civil society, the legal profession, and the Uighur and 
Tibetan autonomous areas of China.
    In the absence of a free press, civil society, democratic 
governance, and other mechanisms to allow citizens to press for 
change, Chinese human rights defenders have used legal advocacy 
and civil disobedience to promote democracy and the development 
of the rule of law. Wang Yi, a Chinese law professor and rights 
defender, said at a May 3 Congressional Human Rights Caucus 
roundtable, ``If even the rights defense movement cannot 
succeed, then there is really no hope for China.'' In February, 
Beijing lawyer and rights defender Gao Zhisheng began a hunger 
strike relay following months of government violence against 
large numbers of Chinese citizens. The hunger strike called 
attention to the illegal persecution and violent beatings of 
many groups in China, including workers, farmers, 
intellectuals, religious believers, petitioners, activists, and 
journalists. These groups suffered from government repression 
despite having maintained a strict policy of peaceful protest 
against government abuses. In response to his citizen activism 
and peaceful defense of basic human rights, authorities 
stripped Gao Zhisheng of his ability to practice law, targeted 
him for government intimidation and harassment, and accused him 
of criminal activity.
    The Chinese government's repressive measures threaten the 
Party's goal of maintaining social stability. The failure to 
provide effective mechanisms for citizens to voice their 
grievances and protect their civil and political rights fuels 
citizen anger and ultimately unrest, the very condition that 
China's leaders are seeking to prevent. Such a result can only 
undermine China's progress. Freedom of the press, a vibrant 
civil society, and democratic governance are the primary means 
for keeping officials accountable to the citizens they serve. 
They are also the essential building blocks for any long-term 
and successful system of government.

               V. Monitoring Compliance with Human Rights

           V(a) Special Focus for 2006: Freedom of Expression


                                findings


        <bullet> Government censorship, while not total, is 
        pervasive and highly effective, and denies Chinese 
        citizens the freedoms of speech and of the press 
        guaranteed to them in the Chinese Constitution. The 
        government has imprisoned journalists who provide news 
        to foreigners, such as Zhao Yan, Shi Tao, and Ching 
        Cheong. Editors of publications that criticize 
        government policies, such as Yang Bin of the Beijing 
        News and Li Datong of the China Youth Daily, have been 
        dismissed. The government blocks the Web sites and 
        radio and television broadcasts of foreign news 
        organizations, such as those of the British 
        Broadcasting Corporation, Radio Free Asia, and the 
        Voice of America. In 2005, the government banned dozens 
        of newspapers and confiscated almost one million 
        ``illegal'' political publications. Beginning in May 
        2005, the government blocked the Commission's Web site 
        from being viewed in China.
        <bullet> Modern telecommunications technologies such as 
        the Internet, cell phones, and satellite broadcasts 
        allow Chinese citizens access to more information 
        sources, both state-controlled and non-state-
        controlled. But government restrictions on news and 
        information media, including on these new information 
        sources, do not conform to international human rights 
        standards for freedom of expression. The Chinese 
        government imposes a strict licensing scheme on news 
        and information media that includes oversight by 
        government agencies with discretion to grant, deny, and 
        rescind licenses based on political and 
        economic criteria. The Chinese government's content-
        based restrictions include controls on political 
        opinion and religious literature that are not 
        prescribed by law, and whose primary purpose is to 
        protect the ideological and political dominance of the 
        Communist Party.
        <bullet> The government's restrictions on religious 
        literature do not conform to international human rights 
        standards. Only government-licensed printing 
        enterprises may print religious materials, and then 
        only with approval from both the provincial-level 
        religious affairs bureau and the press and publication 
        administration. In addition to confiscating religious 
        publications, the Chinese government also has fined, 
        detained, and imprisoned citizens for publishing, 
        printing, and distributing religious literature without 
        government permission. Cai Zhuohua, a house church 
        pastor in Beijing, and two of his family members were 
        imprisoned in 2005 for printing and giving away Bibles 
        and other Christian literature. In Anhui province, 
        house church pastor Wang Zaiqing was arrested in May 
        2006 on the same charges.
Government Censorship in China
    Government censorship in China, while not total, is 
pervasive and highly effective, and denies Chinese citizens the 
freedom of the press guaranteed to them in the Chinese 
Constitution.\1\ As 13 Chinese scholars, lawyers, and editors 
wrote in a letter to Chinese President Hu Jintao after the 
Communist Party's Central Propaganda Department (CPD) shut down 
a popular news weekly in February 2006, the CPD ``manipulates 
and controls the range of speech, and it has become the sole 
criterion for measuring truth.'' \2\ Another group, composed of 
13 former senior government, Party, and news media officials, 
wrote in an open letter regarding the same event that the CPD 
has ``stripped away freedom of speech in order to quash public 
opinion.'' \3\
    The Chinese government has imprisoned journalists who 
provide news to foreigners, such as Zhao Yan, Shi Tao, and 
Ching Cheong. Editors of publications that criticize government 
policies, such as Yang Bin of the Beijing News and Li Datong of 
the China Youth Daily, have been dismissed. The government 
blocks the Web sites and radio and television broadcasts of 
foreign news organizations, such as those of the British 
Broadcasting Corporation, Radio Free Asia, and the Voice of 
America. In 2005, the government banned dozens of newspapers 
and confiscated almost one million ``illegal'' political 
publications. Beginning in May 2005, the government blocked the 
Commission's Web site from being viewed in China. The heads of 
government and Party agencies responsible for enforcing China's 
media regulations emphasize press control, not press freedom:

        <bullet> Liu Yunshan, director of the CPD, told 
        attendees at the National Propaganda Directors Seminar 
        in August 2005 that they should increase their 
        supervision of the media, impose content controls 
        earlier in the editorial process, and coordinate the 
        application of administrative, economic, legal, 
        ideological, and other controls.\4\ In a speech to the 
        same group the previous year, Liu said that no change 
        to the role of the news media as the mouthpiece of the 
        Party, or the Party's supervision of the media, would 
        be tolerated.\5\
        <bullet> Long Xinmin, Director of the General 
        Administration of Press and Publication (GAPP), said in 
        a speech to the National Press and Publication 
        Directors Conference in December 2005 that Party 
        leaders had ordered press and publication officials to 
        increase their administration of press and publishing. 
        Long said that the key was to strengthen the leadership 
        of the Party and establish a ``grand cadre'' of 
        ``politically strong'' press and publication 
        workers.\6\
        <bullet> Liu Yuzhu, head of the Ministry of Culture's 
        Market Department, wrote in the January 2005 edition of 
        Seeking Truth, the official journal of the Chinese 
        Communist Party Central Committee, that Web sites 
        located in foreign countries such as the United States 
        represent a threat to China's political structure. He 
        encouraged increased censorship of foreign Web sites 
        and called on domestic Web site operators to step up 
        their self-censorship.\7\

    Despite pervasive censorship, state control of domestic 
news media is now less severe than before the ``reform and 
opening up'' period began in the late 1970s. Modern 
telecommunications technologies such as the Internet, cell 
phones, and satellite broadcasts allow Chinese citizens access 
to more information sources, both state-controlled and non-
state-controlled. More information is also available as a 
result of a dynamic domestic newspaper and book publishing 
industry. China also has a thriving underground publishing 
industry, and citizens may easily purchase many banned books 
from unlicensed publishers and retailers.\8\ By forcing 
unlicensed publishers to break the law, however, the government 
erodes respect for intellectual property rights and the rule of 
law because illegal publishers are also de facto copyright 
violators (the illegal works are ``pirated,'' and authors 
cannot collect royalties on them) and must bribe officials to 
keep operating.
    Chinese leaders and officials maintain that citizens enjoy 
freedom of the press, and that government restrictions on that 
freedom conform to international standards.\9\ While the Party 
does not screen content before publication to the same degree 
as in the past, the government continues to impose 
administrative restrictions on who may publish and what they 
may publish (``prior restraints'') that do not conform to the 
international human rights standards set forth in the Universal 
Declaration of Human Rights\10\ and the International Covenant 
on Civil and Political Rights (ICCPR).\11\ These standards 
require the elimination of registration systems for the print 
media that grant government agencies the discretion to approve, 
deny, or rescind licenses based on the political and financial 
qualifications of the applicant (``licensing schemes'').\12\ 
These standards also prohibit government restrictions on the 
publication of political and religious ideas and information, 
other than restrictions that are both prescribed by law and 
necessary to protect an important state interest (``content-
based restrictions''). As two Chinese legal scholars noted in 
their study of the ICCPR:

          This principle [that the ICCPR prohibits prior 
        restraints] requires that government power may not be 
        employed to suppress expressive activities before they 
        are carried out, and no licensing measures or 
        ideological 
        content restrictions may be imposed on speech, books, 
        periodicals, or radio or television programs prior to 
        their dissemination, publication, distribution, or 
        broadcast.\13\

    The Chinese government imposes a strict licensing scheme on 
all newspaper, magazine, and book publishing and printing 
(public and private, for-profit and non-profit). The government 
uses this licensing scheme, as well as post-publication 
punishments, to enforce content-based restrictions that include 
prohibitions on the publication of political opinion and 
religious literature. These content-based restrictions on 
political opinion and religious literature are neither 
prescribed by law nor necessary to protect a legitimate state 
interest. Government and Party leaders state that these 
restrictions are intended to protect the ideological and 
political dominance of the Party.
Government Licensing for Print Media
    Article 19 of the Universal Declaration of Human Rights and 
Article 19 of the International Covenant on Civil and Political 
Rights provide that people enjoy the right to seek, receive, 
and impart information and ideas through any media and 
regardless of frontiers. The Chinese government's licensing 
scheme for print media does not conform to international 
standards for freedom of the press. Although no absolute 
international standard prescribes what constitutes freedom of 
the press, international human rights standards set forth a 
minimum prerequisite: no legal system can be said to respect 
freedom of the press if it subjects the print media to any 
prior restraint through a licensing scheme. In 2003, the UN 
Special Rapporteur on Freedom of Opinion and Expression, the 
Organization for Security and Cooperation in Europe (OSCE) 
Representative on Freedom of the Media, and the Organization of 
American States (OAS) Special Rapporteur on Freedom of 
Expression issued a joint declaration saying that licensing 
schemes are unnecessary and subject to abuse.\14\ Many nations, 
both developed and developing, have abolished licensing schemes 
for the print media. For example, the constitutions of many 
countries, including those of Brazil and South Korea, 
explicitly prohibit licensing schemes.\15\ In other countries, 
such as the United States and India, the right to publish 
without first having to obtain government authorization is 
protected through a combination of constitutional and court-
made law.\16\ In those countries with registration 
requirements, such as Sweden and the United Kingdom, the 
government does not have the discretion to refuse 
registration.\17\
    The Chinese government, like a number of governments in 
other countries, including Ethiopia,\18\ Iran,\19\ Jordan,\20\ 
Syria,\21\ Uzbekistan,\22\ and Yemen,\23\ imposes a strict 
licensing scheme on the print media.\24\ No one may legally 
publish a book, newspaper, or magazine in China unless they 
have a license from the General Administration of Press and 
Publication (GAPP).\25\ Chinese law requires that every book, 
newspaper, and magazine have a unique serial number, and the 
GAPP maintains exclusive control over the distribution of these 
numbers.\26\ GAPP officials have explicitly linked the 
allotment of book numbers to the political orientation of 
publishers.\27\ The Chinese government's licensing scheme 
includes substantive conditions on who may publish. To obtain a 
license to publish news, applicants must have a government 
sponsor.\28\ Although the average annual income in China is 
less than 10,000 yuan (US$1,250),\29\ the government also 
restricts the right to publish to those who can afford to 
invest at least 300,000 yuan (US$37,500) in registered 
capital.\30\ The Chinese government says that its licensing 
scheme is necessary to regulate the publishing market,\31\ but 
such reasoning does not conform to international human rights 
standards.\32\
    Chinese authorities banned 79 newspapers and periodicals 
and seized 169 million publications in 2005.\33\ From 2003 to 
2005, the government canceled the registrations of 202 news 
bureaus and shut down 73 others.\34\ Other examples of the 
government using its licensing authority to violate citizens' 
freedom of the press in the past year include:

        <bullet> In August 2005, GAPP officials in Luliang 
        city, Shanxi province, banned the Luliang Weekly, shut 
        down its editorial 
        department, and dismissed its staff. Officials imposed 
        these sanctions because the weekly had been published 
        without government authorization, and ``the articles it 
        carried were mostly negative reports, which severely 
        violated relevant national regulations, and which had 
        an adverse effect on society.'' \35\
        <bullet> In September 2005, the Hunan provincial 
        government shut down the news bureaus of four 
        publications established without government 
        permission.\36\
        <bullet> Also in September 2005, the Chinese government 
        reported that no illegal political materials had been 
        published in the Inner Mongolia Autonomous Region city 
        of Wuhai since 2002.\37\ The report attributed the city 
        government's ``success'' in part to a rigorous training 
        regime for publishers and printers and the fact that 
        authorities had closed 12 illegal printing enterprises. 
        The report said officials conducted daily inspection 
        tours and surprise raids to stop unauthorized 
        publications from entering or leaving the city.

    In addition to these administrative measures, Chinese 
authorities have used Article 225 of the Criminal Law, which 
defines operating a publishing business without government 
permission as an illegal business activity,\38\ to fine and 
imprison publishers:

        <bullet> In January 2004, authorities in Anhui province 
        sentenced two men to prison terms of nine and seven 
        years for publishing collections of love poems.\39\
        <bullet> In September 2004, a court in Xinxiang county, 
        Henan province sentenced Wang Lelan, a farmer who had 
        purchased two printing presses, to five years' 
        imprisonment and an 8,000 yuan (US$1,000) fine for 
        publishing ``illegal books'' such as ``China's Top 
        Level'' and ``Confidential Exclusive News.'' \40\
        <bullet> In August 2005, a court in Beijing sentenced 
        the head of the Beijing representative office of Hong 
        Kong's Credit China International Media Group Limited 
        to three years' imprisonment for publishing the 
        magazine ``Credit China'' without government 
        authorization.\41\

     New rules governing the publication of newspapers and 
magazines in China went into effect in December 2005.\42\ In 
addition to restricting the right to publish newspapers and 
magazines to government licensees, the rules also establish 
post-publication content screening and review systems. The 
rules require provincial-level GAPP offices to submit regular 
written reports to the GAPP and conduct annual ``verification 
and examination'' reviews. The rules stipulate that publishing, 
printing, and distribution enterprises may not provide services 
to any newspaper or magazine unless they have passed the 
previous year's inspection. The rules also require each 
newspaper and magazine publisher to submit regular reports to 
the GAPP, as well as annual ``self-examination reports'' with 
copies of its most recently published editions. The rules 
require the GAPP to assess the ``publishing quality'' of 
newspapers and magazines, and empower it to take the following 
actions against any publisher whose contents it deems incorrect 
or in violation of regulations:

        <bullet> order it to cease publication and 
        distribution;
        <bullet> order it to retract entire editions;
        <bullet> order supervising and sponsoring government 
        agencies to ``rectify'' the publisher;
        <bullet> revoke its publishing license.

    The Chinese government's press licensing scheme also 
extends to the Internet. According to the state-run media:

          Since 1996, 14 agencies, including the Central 
        Propaganda Department, State Council Information 
        Office, Ministry of Public Security, Ministry of 
        Culture, and the 
        General Administration of Press and Publication have 
        participated in the administration of the Internet, 
        have promulgated nearly 50 laws and regulations, and 
        have put 
        together the world's most extensive and comprehensive 
        regulatory system for Internet administration. One 
        scholar who specializes in researching Internet Law 
        [said] China's emphasis on, and effectiveness of 
        administration over, the problem of Internet security 
        is ``rare in this world.'' \43\

    The government requires all Web sites in China to be either 
licensed by, or registered with, the Ministry of Information 
Industry (MII).\44\ Web sites that fail to register or obtain a 
license may be shut down and their operators fined.\45\ As part 
of the registration process, the MII requires anyone who posts 
news on a Web site to confirm that the Chinese government has 
authorized him or her to do so.\46\ According to the OpenNet 
Initiative, ``In large measure, the registration regulation is 
designed to induce website owners to forego potentially 
sensitive or prohibited content, such as political criticism, 
by linking their identities to that content. The regulation 
operates through a chilling effect.'' \47\ In August 2005, the 
state-controlled news media reported that over 700,000 Web 
sites had registered,\48\ and that authorities had shut down a 
``large number of Web sites,'' using ``specialized software to 
render them inaccessible.'' \49\ In December 2005, the MII 
issued a notice to Internet service providers saying, ``The 
campaign to rectify unregistered Web sites has entered a period 
of severe sanctions,'' and demanded they shut down all 
unregistered Web sites.\50\
    In September 2005, the MII and the State Council 
Information Office promulgated new rules tightening the 
government's control over Internet news services.\51\ These 
rules prohibit anyone from using the Internet to post or 
transmit news reports or commentary relating to politics and 
economics, or military, foreign, and public affairs, without a 
government license. Chinese authorities used these rules to 
shut down at least five Web sites before the annual plenary 
sessions of the National People's Congress and the Chinese 
People's Political Consultative Conference, which concluded in 
March 2006.\52\
    The MII crackdown coincided with a similar crackdown on the 
Internet by branches of China's Ministry of Public Security 
(MPS) in major cities.\53\ Throughout 2005 and 2006, public 
security bureaus in cities such as Beijing, Guangzhou, and 
Chongqing ordered Web sites to register with public security 
authorities or be shut down. In addition, in December 2005, the 
MPS promulgated new rules\54\ requiring Internet portals, Web 
sites, Web logs (``blogs''), and hosting services to record and 
retain any content that news providers post on their Web sites, 
as well as the time it was posted.
    Finally, the Chinese government instituted a licensing 
scheme for journalists in 2005,\55\ even though such schemes 
are incompatible with international human rights standards for 
freedom of the press.\56\ In January 2005, the GAPP issued two 
new regulations limiting ``lawful'' news gathering and 
editorial activities to government-licensed journalists.\57\ In 
March 2005, the GAPP, Central Propaganda Department, and State 
Administration of Radio, Film, and Television (SARFT) jointly 
issued new rules specifying that journalists and editors must 
``support the leadership of the Chinese Communist Party, 
support the socialist system . . ., respect the Party's news 
propaganda discipline, [and] protect the interests of the Party 
and the government.'' \58\ SARFT used its authority to accredit 
television hosts to shut down the television show of well-known 
economist Lang Xianping (also known as Larry Lang) in February 
2006 on the grounds that he lacked required government 
certification.\59\
Restrictions on Political and Religious Publishing
    The Chinese government's restrictions on the publication of 
political opinion and religious literature do not conform to 
international human rights standards for freedom of the press 
and freedom of religion. Article 19 of the Universal 
Declaration of Human Rights and the same article of the 
International Covenant on Civil and Political Rights (ICCPR) 
provide that people enjoy the right to publish ``information 
and ideas,'' and the ICCPR adds ``of all kinds.'' International 
human rights standards permit restrictions on the press, 
provided they are prescribed by law and are necessary to 
prevent the dissemination of speech that is obscene or 
defamatory, or that poses a realistic threat to national 
security, or that is false and threatens public order.\60\ The 
Chinese government's restrictions on the press are not clearly 
prescribed in national law. In addition, the government uses 
discretionary and extralegal powers to restrict the publication 
of information and ideas that conflict with the Party's 
political and religious orthodoxy or that threaten its control 
over political and religious ideology.
Not Prescribed by Law
    National media regulations include vague and sweeping 
prohibitions on the publication of material that ``harms the 
honor or the interests of the nation,'' \61\ ``spreads 
rumors,'' \62\ or ``harms the credibility of a government 
agency.'' \63\ The Criminal Law punishes acts said to 
constitute ``rumor mongering'' to incite subversion or the 
overthrow of the socialist system with sentences of up to five 
years' imprisonment.\64\ Nothing in Chinese law specifies what 
constitutes the ``interests of the nation,'' a ``rumor,'' or 
``harming credibility.'' Chinese laws and regulations provide 
lists of what may be deemed a state secret, but these lists are 
broad and vague, encompassing essentially all matters of public 
concern.\65\ Moreover, Chinese law does not require the 
government to show that anyone committing any of these acts 
knew that the materials they published fell into one of these 
categories.\66\ Finally, Chinese courts do not require the 
government to show that the publication of the materials in 
question caused, or could have caused, any negative effect on 
the national interest.\67\
    Government agencies responsible for implementing and 
interpreting national security do not balance government 
interests against a citizen's right to freedom of the press, 
and instead consistently interpret laws in favor of the 
government. In recent years, more than 70 percent of all cases 
of criminal disclosure of state secrets were the result of a 
``faulty understanding of state secrets.'' \68\ None of the 17 
or more central government and Party agencies responsible for 
enforcing and interpreting national security and state secrets 
laws as they relate to freedom of the press has provided any 
public guidance about when it will or will not censor 
publications or pursue criminal complaints against 
publishers.\69\ In 2004, the Chinese government shut down 338 
publications for publishing ``internal'' information.\70\ In 
addition, the Chinese judiciary is not independent from Party 
control and does not issue instructive opinions in criminal 
trials (see discussion of Huang Qi below). [For more 
information on the Chinese judiciary, see Section VII(c)--
Access to Justice.]
    The Chinese government does not articulate content-based 
restrictions in statutes and court judgments, but instead 
relies upon detaining writers, indoctrinating journalists, and 
banning publications to encourage companies, institutions, and 
individuals to ``choose'' not to publicize views that a 
government official might deem politically unacceptable.\71\ An 
example of the Chinese government's indifference to freedom of 
the press is the case of Huang Qi. The Chengdu Intermediate 
People's Court sentenced Huang to five years' imprisonment in 
May 2003 for inciting subversion by operating a Web site that 
included articles on democracy and the 1989 Tiananmen democracy 
protests. The court's decision did not provide examples of any 
subversive language, and made no attempt to show that the 
articles on the Web site had caused, or were likely to cause, a 
threat to China's national security. Moreover, the court did 
not place any constitutional limitations on the authority of 
the government to criminalize certain types of speech, or 
balance the need to protect national security with Huang Qi's 
right to freedom of expression.\72\
    Another example of the Chinese government's opaque national 
security content-based restrictions occurred in October 2003, 
when a Shanghai court sentenced Zheng Enchong to three years' 
imprisonment for ``illegally providing state secrets to an 
entity or individual outside China.'' Zheng faxed a copy of a 
Xinhua news report to a U.S. NGO to get it published 
abroad.\73\ In rejecting Zheng's appeal, the Shanghai High 
People's Court said that, while the document in question 
included no markings indicating it was a ``state secret,'' 
Zheng ``should have known'' that it was a state secret 
because it had been published in a Xinhua publication called 
``Internal Selections.'' Xinhua is a government agency that 
reports directly to the State Council, and if an article 
included information that was a state secret, Xinhua had both 
the authority and the legal obligation to have it 
classified.\74\ Instead, Xinhua officials labeled the article 
``internal,'' and according to the Shanghai High People's 
Court, officials with the local state secrets bureau had it 
``certified'' as a state secret after Zheng was detained.\75\ 
Stories from ``Internal Selections,'' however, are freely 
available on Party Web sites, including those of the Beijing 
Municipal Party Committee and the Chongqing Municipal Party 
Committee.\76\
    The case of Zhao Yan, a researcher for the New York Times, 
is a more recent example. Authorities detained Zhao in 
September 2004 for ``illegally providing state secrets to an 
entity or individual outside China.'' Sources said the ``state 
secret'' was information that former President and Party 
General Secretary Jiang Zemin had offered to resign as Chairman 
of the Central Military Commission. His resignation was later 
reported in the official press.\77\ [See Section V(b)--Rights 
of Criminal Suspects and Defendants, for a discussion of Zhao's 
arbitrary and extended detention.]
    Chinese courts cannot consider Chinese citizens' 
constitutional right to freedom of the press in subversion and 
state secrets trials [see Section VII(c)--Access to Justice--
Constitutional Review]. Some cases have been reported, however, 
in which a court found insufficient evidence to hold a trial on 
the charges brought against a defendant. Such decisions are the 
result of international pressure rather than an interest in 
upholding the rights of the accused. For example, Chinese 
authorities detained Liu Di (also known as the ``Stainless 
Steel Mouse'') in November 2002 after she posted a series of 
essays on the Internet discussing political reform and 
criticizing the Party. They released her in November 2003 
without charges following widespread international pressure.
    The Chinese government also uses indoctrination as an 
extralegal means of restricting publishing of political 
opinions and religious literature. A January 2006 General 
Administration of Press and Publication (GAPP) report described 
an example of press indoctrination, saying that in 2005 the 
government carried out on-the-job training of Party officials 
holding leadership positions at news publishers, and ``deeply 
and meticulously performed worker and staff ideological and 
political work'' in order to ``safeguard stability and unity.'' 
\78\ Xinhua reported in May 2006 that the government and the 
Party expect Chinese journalists to be ``politically strong'' 
and ``strictly disciplined.'' \79\ The All China Journalists 
Association held a conference in April 2006 to study and 
implement the Party's propaganda campaign on ``Socialist Glory 
and Shame.'' \80\ The state-run news media reported that 
conference participants expressed a desire to reject 
``capitalist liberalism'' and to accept ``serving the general 
work of the Party and the nation'' as the ``sacred mission'' of 
journalists.\81\ Western news media have reported that the 
Beijing Municipal Information Office, an agency that reports to 
the Central Propaganda Department, summons executives from a 
dozen Internet news Web sites every Friday morning to attend a 
meeting. Chen Hua, Director of the Internet Propaganda 
Management Department, usually runs this meeting. According to 
one Western news report, ``[Chen] or one of his colleagues 
tells the executives what news they should keep off their sites 
and what items they should highlight in the week ahead.'' \82\
    The Chinese government and the Party often carry out 
censorship through informal and opaque procedures that are not 
subject to legal oversight or restraint. For example, according 
to Wang Yi, a law professor in Sichuan province, public 
security officials in Beijing had his Web site shut down by 
calling an employee of the Chinese Internet company Blogchina 
at home and ordering him to do it.\83\
    Chinese authorities used similar extralegal measures to 
censor two of China's most popular publications. The first 
incident occurred in December 2005, when the Party removed 
editor-in-chief Yang Bin and two deputy editors at the Beijing 
News, as part of an effort to curb that newspaper's aggressive 
reporting style.\84\ Central Propaganda Department director Liu 
Yunshan had told officials at an April 2005 meeting that 
``[t]he South has a newspaper that disgusts a lot of officials 
in the North, and the North has a paper that disgusts a lot of 
officials in the South.'' \85\ An unnamed source told a Western 
news magazine that the ``northern paper'' was the Beijing News, 
and a Beijing News editor noted that so many cadres had 
traveled to Beijing to complain about the paper that it was 
under ``heavy'' pressure to conform to new restrictions on 
``extra-territorial'' investigative reporting.\86\ In December 
2005, propaganda officials singled out the Beijing News for 
criticism at a meeting where it was decided that ``metropolitan 
newspapers'' such as the Beijing News should ``strengthen Party 
control'' and obey propaganda officials.\87\ Officials have 
said that the Beijing News ``committed errors in the 
orientation of opinion,'' and Liu Yunshan concluded that the 
Beijing News' ``problems'' must be ``fundamentally resolved.''
    A second example of official circumvention of the law to 
silence critics occurred in January 2006, when Party officials 
ordered the China Youth Daily (CYD) to suspend publication of 
its Freezing Point weekly because it had published an essay on 
Chinese history textbooks that officials claimed contradicted 
historical facts, violated news propaganda discipline, harmed 
the national sentiments of the Chinese people, harmed the image 
of the CYD, and had a detrimental social influence.\88\ The 
officials also ordered the CYD Publishing House to submit a 
report criticizing Li Erliang, CYD editor-in-chief, and Li 
Datong, editor-in-chief of the Freezing Point weekly. On 
February 16, Ministry of Foreign Affairs spokesperson Qin Gang 
defended the Party's decision.\89\ On the same day, the 
Communist Party Youth League Publishing House Party Committee 
announced the conditions under which Freezing Point would 
resume publication. The CYD was required to dismiss Li Datong 
from his position as editor-in-chief, and Lu Yuegang from his 
position as deputy editor. In addition, it had to publish an 
essay in the first issue of the re-launched Freezing Point 
weekly that would 
refute the earlier objectionable essay.\90\
    Government and Party intimidation, harassment, and 
imprisonment of writers and journalists create a chilling 
effect on freedom of speech that results in self-censorship. 
For instance, Internet and software companies in China must 
either employ censorship technologies in their products or risk 
a government order to close. 
Although no Chinese law or regulation forbids specific words, 
companies such as Tencent and MSN embed a list of banned words 
and phrases in their Internet applications, including 
``freedom'' and ``democracy.'' \91\ Chinese search engines such 
as Baidu, and the China-based search engines of Yahoo!, MSN, 
and Google filter search 
results, including those relating to the Voice of America, 
Radio Free Asia, and human rights. A senior corporate official 
from Google testified to the House Committee on International 
Relations in February 2006 that one of the factors leading to 
the company's decision to filter search results for its China-
based service was:

          Many queries, especially politically sensitive 
        queries, were not making it through to Google's 
        servers. And access became often slow and unreliable, 
        meaning that our service in China was not something we 
        felt proud of. Even though we weren't doing any self-
        censorship, our results were being filtered anyway, and 
        our service was being 
        actively degraded on top of that. Indeed, at some times 
        users were even being redirected to local Chinese 
        search engines.\92\

    Google designed its Chinese-language news aggregation 
service so that users in China cannot view materials from 
dissident news Web sites that Chinese authorities have blocked. 
Google has said that it will not deploy e-mail and blogging 
services in China because the company cannot meet its own 
standards for the privacy and security of users' sensitive 
information.\93\
    The Party and the government are seeking to expand self-
censorship by instituting ``industry self-discipline.'' During 
an August 2005 speech, Liu Yunshan called on propaganda 
officials to ``merge propaganda work into the self-supervision 
of mass groups and professional organizations,'' and said that 
requiring professional organizations to ``tightly integrate 
professional discipline and restraint with professional moral 
restraint'' will allow employees to ``voluntarily'' accept 
government supervision. In April 2006, 14 major Internet 
portals, including Sina.com, Sohu.com, Baidu.com, and Yahoo!'s 
Chinese Web site, issued a joint proposal calling for the 
Chinese Internet industry to censor harmful information, spread 
the ideas of President Hu Jintao, and voluntarily accept 
government supervision.\94\ Shortly after the Internet portals 
issued their 
proposal, Internet information providers and industry groups 
throughout China made similar announcements.
    The state-run media portrayed the Internet portals' 
participation as spontaneous and voluntary, but both the GAPP 
and State Administration for Radio, Film, and Television 
(SARFT) have either used or advocated the use of ``self-
discipline'' agreements and other informal methods to control 
the press in China. For example, in April 2006, GAPP Director 
Long Xinmin wrote that the government should establish an 
administrative system for newspapers and magazines 
characterized by Party leadership, government administration, 
and industry self-discipline.\95\ In September 2005, SARFT 
issued a notice saying that radio announcers and television 
hosts would ``voluntarily'' obey professional ethical standards 
that SARFT had issued in December 2004.\96\
Political Speech
    International human rights standards obligate the Chinese 
government to respect the rights of its citizens to publish 
political ideas or opinions, even when they are critical of the 
government.\97\ Chinese government and Party officials have 
said, however, that they will not tolerate the publication of 
political ideas or opinions with which they disagree:

        <bullet> Liu Binjie, a deputy director of the General 
        Administration of Press and Publication (GAPP), has 
        said that political publications are the highest 
        priority target for the Sweep Away Pornography and 
        Strike Down Illegal Publications Task Force.\98\
        <bullet> Shi Feng, another GAPP deputy director, 
        complained in an October 2005 speech that some 
        newspapers and periodicals in China have exhibited 
        ``political orientation problems,'' by ``denying the 
        leading position of Marxism,'' ``violating the Party 
        line,'' and ``openly smearing the Party's leaders.'' 
        \99\
        <bullet> Officials have said that it is necessary to 
        ``strike hard at'' and ``tightly seal up and 
        investigate'' political publications that ``spread 
        political rumors and create ideological chaos.'' \100\

    The State Administration for Radio, Film, and Television 
(SARFT) issued ``propaganda priorities'' in 2005 that said 
broadcasters should ``refuse all incorrect ideological and 
political perspectives and expression.'' \101\ The GAPP has 
said that it will shut down publications with ``severe 
political errors,'' \102\ and in 2005, the Chinese government 
confiscated 996,000 publications because of their political 
content.\103\ Regulations require that everything published in 
China must adhere to Marxism, Leninism, Mao Zedong Thought, and 
Deng Xiaoping Theory\104\ and prohibit the publication of 
anything that violates the propaganda discipline of the 
Party\105\ or contradicts the guiding policies of the 
Party.\106\ In addition, Chinese law requires that books and 
essays about Party and national government leaders must be 
``solemn and discreet,'' and their point of view must conform 
to the spirit of various Party documents.\107\
    To enforce these ideological restrictions, Chinese 
regulations require that publishers submit to the GAPP and the 
Central Propaganda Department a list of any ``important topic 
selections'' that they plan to publish.\108\ Only publishing 
houses that the GAPP specifically approves may publish works 
about government and Party leaders, foreign relations, 
religion, the history of the People's Republic of China, and 
the history of the People's Liberation Army.\109\ In February 
2005, a GAPP official warned in a report:

          If publishers are careless about strictly screening 
        topic selection, then serious orientation and quality 
        problems will occur. . . . Therefore, publishers' 
        screening of the selection of topics is not merely a 
        professional matter, but rather is a serious political 
        responsibility. Therefore, topic selection screening is 
        a political system.\110\

    The GAPP report also said that publishers must carry out 
registration procedures for all selections relating to 
politics, the military, security, foreign affairs, religion, 
ethnicities, and ``other 
sensitive issues.'' In addition, the report also noted that it 
is illegal to publish anything on these topics that has not 
been reported to, and approved by, authorities.
     New rules governing the publication of newspapers and 
periodicals that went into effect in December 2005\111\ include 
requirements that these publications must ``adhere to Marxism-
Leninism,'' ``follow correct guidelines of public opinion and 
publication orientation,'' and foster a ``good atmosphere for 
building socialism with Chinese characteristics.'' The rules 
also require newspapers and periodicals to obey unspecified 
``relevant regulations'' when publishing articles that relate 
to ``important state policies'' and ethnic and religious 
affairs.
    SARFT requires screenplays that depict major historic 
events and important leaders and their families to be approved 
by both the government and the Party.\112\ SARFT issued 
regulations in April 2006\113\ that removed the previous 
requirement that television producers obtain government 
approval for dramas, but 
programs relating to modern Chinese history must still have 
government approval.\114\ In addition, anyone wishing to film 
television programs with content relating to ``important or 
sensitive political issues, the military, foreign affairs, the 
Party's United Front, religion, ethnicities, the administration 
of justice, public security, education, and famous people'' 
must first request an ``opinion'' from the relevant department 
at the provincial level or higher.
    Government and Party intolerance of the independent 
political views of citizens is particularly apparent before and 
during government and Party plenary meetings and some national 
holidays. In the weeks before the annual plenary sessions of 
the National People's Congress and the Chinese People's 
Political Consultative Conference, which concluded in March 
2006, Chinese officials took the following measures (in 
addition to the Web site closings that were described 
previously):

        <bullet> The Sweep Away Pornography and Strike Down 
        Illegal Publications Task Force held a teleconference 
        in January 2006 and notified relevant agencies that 
        they should ``purify the publishing market'' and be on 
        duty 24 hours per day during the plenary sessions.\115\
        <bullet> Officials in Zhongshan city, Guangdong 
        province, issued a circular calling on local customs, 
        traffic, press and publications officials, and 
        commercial agencies, to step up their enforcement 
        measures against ``harmful information,'' including 
        illegal political publications.\116\
        <bullet> Officials in Henan province launched a 
        crackdown on political publications and Falun Gong 
        materials to ``ensure the health and stability of the 
        publications market'' during the plenary sessions.\117\

    During the last year Chinese authorities have continued to 
silence writers, journalists, and Web sites for expressing 
political ideas or opinions with which they disagree. In 
October, an Anhui court upheld Zhang Lin's sentence of five 
years' imprisonment for subverting state power in connection 
with articles he posted on the Internet and a radio interview 
he gave.\118\ Chinese authorities detained and imprisoned 
several others, including Yang Tianshui, Guo Qizhen, and Li 
Yuanlong for publishing articles on foreign Web sites 
criticizing the government and the Party.\119\ During the run-
up to the annual plenary sessions, Chinese authorities shut 
down the Aegean Sea [Aiqinhai] Web site, as well as four other 
sites that had complained on behalf of local workers.\120\ In 
June, authorities shut down two of China's major Internet 
portals, Sina.com and Sohu.com, for several days to allow the 
Internet portals to upgrade their censorship capabilities after 
authorities found that the Internet portals failed to filter 
certain key words deemed politically harmful.\121\ In July, the 
Beijing Communications Administration shut down the ``Century 
China'' Web site, a popular Internet discussion forum for 
commentary on political, historical, and cultural issues.\122\ 
In August, authorities shut down the ``Polls'' Web site and 
revoked its license after the Web site posted a poll asking 
visitors whether the General Secretary of the Communist Party 
should be chosen from among several candidates in differential 
voting.\123\
Religious Speech
    International human rights standards protect the printing 
and distribution of religious literature as a fundamental human 
right.\124\ The Chinese government asserts that its protection 
of freedom of religious belief ``is basically in accordance 
with the main contents of [relevant] international documents 
and conventions,'' and that everyone in China ``should have the 
freedom to compile and distribute printed materials pertaining 
to religion or belief.'' \125\ Only government-licensed 
printing enterprises may print such materials, however, and 
then only with approval from the provincial-level religious 
affairs bureau and a certificate of approval from the press and 
publication administration.\126\ Printing enterprises in China 
may print religious publications for in-house use by customers, 
but the printing enterprise must first receive approval from 
provincial-level religious and publishing authorities.\127\ 
Non-religious publications only require printing approval from 
publishing authorities at the county level.\128\ Publishing 
regulations mandate government authorization and screening of 
books and news reports that mention religious issues.\129\ [See 
Section V(d)--Freedom of Religion.]
    Chinese authorities confiscated 4.62 million items of Falun 
Gong and ``other cult organization propaganda material'' in 
2005.\130\ This included the confiscation of 9,860 printed 
materials in the Xinjiang Uighur Autonomous Region that were 
either illegal publications of a religious nature, Falun Gong 
materials, or publications related to ``feudal superstitions.'' 
\131\ In addition, authorities in the Tibet Autonomous Region 
confiscated 54 ``Dalai Lama splittist group reactionary 
publications.'' \132\
    In addition to confiscating religious publications, the 
Chinese government also has fined, detained, and imprisoned 
citizens for publishing, printing, and distributing religious 
literature without government permission. In November and 
December 1999, officials detained and arrested Jiang Sunian, an 
unregistered Catholic priest from Wenzhou diocese in Zhejiang 
province who had published hymnals.\133\ Officials charged 
Jiang with illegal publishing.\134\ In April 2000, a court 
convicted Jiang under Article 225 of the Criminal Law, assessed 
a fine of 270,000 yuan (US$32,000), and sentenced him to six 
years' imprisonment. Officials released Jiang in December 
2003.\135\ In November 2005, a Beijing court sent Cai Zhuohua, 
a pastor of six house churches in Beijing, and two of his 
family members to prison under Article 225 of the Criminal Law 
for printing and giving away Bibles and other Christian 
literature without government permission.\136\ In Anhui 
province, house church pastor Wang Zaiqing was arrested in May 
2006 on the same charges.
    During the last year Chinese authorities have continued to 
detain people who express religious ideas or opinions which 
they consider incorrect. Chinese authorities detained 
documentary filmmaker Hao Wu for 140 days after they discovered 
him shooting a documentary about China's unregistered house 
churches.\137\ In July 2006, authorities shut down two blogs 
maintained by the popular Tibetan poet and writer Oezer, which 
she believed was a response to her posting a photograph of the 
Dalai Lama.\138\ In August 2006, authorities detained 
journalist Zan Aizong for one week after he posted reports on 
foreign Web sites about detentions of Protestants who were 
protesting the destruction of a church in Xiaoshan city, 
Zhejiang province.\139\
Ideological Uniformity
    International human rights standards prohibit content-based 
restrictions on the press except those necessary to protect the 
rights and reputations of others and to meet the requirements 
for morality, national security, and public order in a 
democratic society.\140\ The Chinese government and the 
Communist Party exceed these allowances, however, and control 
and censor the press to impose ideological uniformity. In one 
of his first speeches as head of the General Administration of 
Press and Publication (GAPP), Long Xinmin told officials 
attending a national conference in December 2005 to ``maintain 
a high degree of uniformity with the political ideology of the 
Party Central Committee under Comrade Hu Jintao as Secretary, 
and insist on never wavering from Marxism as the guiding 
principle of press and publication work.'' \141\ Liu Yunshan 
called on propaganda officials to leverage the advantage 
provided by the large circulation and distribution of the 
state-run news media to guide public opinion in an ``intimate, 
natural, quiet, and unobtrusive manner.'' \142\ Shi Feng has 
said that investigative reporting must ``serve the work of the 
Party and the government.'' \143\ In September 2005, the 
Guangming Daily published an editorial saying:

          [I]rresponsible expression online easily brings with 
        it ideological confusion, and creates a severe 
        challenge for college students' political ideological 
        education. An important and pressing question for 
        university political ideological education is how to 
        use positive and healthy ideological culture to capture 
        the Internet battlefield and prevent people with 
        ulterior motives from using the Internet to disseminate 
        incorrect ideology and information, and resist 
        infiltration by enemy forces and cult 
        organizations.\144\

    Government and Party leaders also have said that they 
intend to co-opt modern communications technologies such as the 
Internet and mobile communications, and have called on 
officials to ensure that their propaganda reaches newly 
emerging social groups.\145\ Liu Yunshan noted that Chinese 
society is becoming increasingly complex as it shifts from one 
dominated by people employed in state-run enterprises to one in 
which more and more people work for 
private enterprises.\146\ Given this shifting demographic, Liu 
said that Party propagandists must ``expand the targets of 
propaganda work'' to new groups, such as young intellectuals, 
and ``troubled'' groups, such as unemployed workers, migrant 
workers, and farmers who have lost their land.\147\ The Party 
also focuses political propaganda on Chinese youth. In late 
2005, the Party journal Seeking Truth called on Party cadres to 
focus on guiding the organization of college student 
groups,\148\ and the Guangming Daily published an editorial 
saying that schools should work to form ``united and positive 
online public opinion'' by organizing ``ranks of online 
commentators.'' \149\ Some Chinese universities have also 
instituted student-run monitoring groups to remove offensive 
content, including political dissent, from university Internet 
forums.\150\
    In December 2004, the State Administration of Radio, Film, 
and Television (SARFT) issued ethical guidelines requiring 
television editors, reporters, and hosts to be loyal to, and 
carry out the work of, the Party.\151\ Later the same month, 
SARFT announced that it would require television stations to 
increase control over what television interviewers say on the 
air, and only broadcast programs that ``comply with propaganda 
discipline'' produced by government-licensed production 
companies and screened by relevant officials.\152\ In March 
2005, the Central Propaganda Department, the GAPP, and SARFT 
jointly issued regulations requiring news reporting and editing 
personnel to support the leadership of the Party, focus on 
``correct propaganda'' as their guiding principle, and have a 
firm grasp of ``correct guidance of public opinion.'' \153\ In 
April 2005, SARFT issued ``Interim Implementation Rules for 
Administration of Those Employed as Radio and Television News 
Reporters and Editors,'' saying: ``It is necessary to instruct 
news reporting and editing personnel to strengthen their 
political consciousness.'' \154\ In September 2005, SARFT 
issued a notice requiring television 
announcers and hosts to increase their study of political 
theory, improve their political character and political 
proficiency, guide people with correct public opinion, 
passionately love the motherland, serve the greater interests 
of the work of the Party and the government, and implement the 
Party's ``line, principles, and policies.'' \155\ The same 
month, SARFT also issued a notice warning that reports relating 
to politics and government policies must be handled carefully 
to avoid ``problems.'' In addition, to ``ensure the correct 
guidance of public opinion,'' radio and television broadcasters 
must 
receive approval from SARFT before making any ``large-scale 
live broadcast reports of significant events . . . especially 
those live broadcast reports of activities chaired by central 
leading cadres.'' \156\ The notice also requires all 
broadcasters to be sensitive to ``political'' issues and to 
screen live broadcasts to ``ensure their orientation is 
correct.''
    The government and the Party remain concerned that Chinese 
citizens have increased access to foreign sources of 
information that may dilute the Party's control over public 
opinion. Senior officials portray the news and information 
media as a battlefield for the Party's propaganda work that 
must either be occupied or lost to Western countries. For 
example, Liu Yunshan has called on Party propagandists to learn 
how to open to the outside world but prevent ``Western enemy 
forces'' from using their ``economic and technical superiority 
to carry out ideological infiltration and cultural expansion'' 
in order to ``Westernize and divide'' China.\157\ Shi Feng has 
said the government must not abandon the battlefield of public 
opinion, and has complained that, despite strict government 
prohibitions on private and foreign investment in newspaper and 
periodical publishing, people continue to ``illegally enter the 
newspaper and periodical publication domain,'' and that illegal 
publishers are a ``serious threat'' to the Party's ability to 
use propaganda to influence ideology.\158\
    The Supreme People's Court also supports censorship to 
prevent Chinese citizens from having access to ``foreign'' 
political ideas. In 1998, the same year it issued a judicial 
interpretation expanding the scope of Article 225 of China's 
Criminal Law to include unauthorized publishing,\159\ it warned 
China's judges, ``Foreign enemy forces are using publishing as 
a channel to carry out infiltration and aggravation of our 
ideology and culture, and there are numerous publications with 
political problems circulating within the country's borders.'' 
\160\
    The Chinese government attempts to prevent its citizens 
from having access to uncensored political ideas and 
information by banning the general distribution of foreign 
newspapers, news magazines, and television news programs, and 
by restricting the ability of foreign news agencies to 
distribute news domestically. In November 2005, Shi Zongyuan, 
then Director of the GAPP, said that Chinese authorities had 
halted plans to allow foreign newspapers to print in China 
because of concerns raised by the recent ``color revolutions'' 
in former Soviet republics.\161\ Also in 2005, the GAPP 
introduced internal restrictions on foreign magazines, limiting 
approvals to science and technology publications.\162\ In 
October 2004, SARFT issued regulations prohibiting joint 
ventures from producing programs on ``political news.'' \163\ 
In March 2005, SARFT issued an interpretive notice on these 
regulations that further limits foreign companies to investing 
in a single joint venture, saying:

          [W]e must control the contents of all products of 
        joint ventures in a practical manner, understand the 
        political inclinations and background of foreign joint 
        venture parties, and in this way prevent harmful 
        foreign ideology and culture from entering the realm of 
        our television program production through joint 
        investment and cooperation.\164\

    In September 2006, Xinhua issued new rules prohibiting 
foreign news agencies from distributing news to Chinese 
citizens without government permission.\165\ The new rules 
require foreign news agencies to be licensed by Xinhua and to 
submit all articles to a government-approved agency for 
distribution.\166\ The new rules give Xinhua the authority to 
select the news and information that foreign news agencies 
release, and to delete any information that the government has 
banned.\167\ [For information on the commercial implications of 
the new rules, see Section VII(d)--Commercial Rule of Law and 
the Impact of the WTO.]
    To prevent Chinese citizens from using television and radio 
to access ideas and opinions that may conflict with the Party 
line, the government jams programming offered by the Voice of 
America and the British Broadcasting Corporation. The 
government also has enacted regulations that restrict private 
satellite dish ownership and only permit foreign television 
news from broadcasters that are ``friendly'' to China and that 
offer their programs through government-controlled 
channels.\169\ In August 2005, SARFT issued three notices 
restricting Chinese citizens' access to foreign television and 
radio content.\166\ In April 2006, SARFT issued a circular\170\ 
repeating the restrictions on the dissemination of foreign news 
reports that were first put in place in 2002.\171\ Both 
circulars prohibit local television stations from using news 
footage taken from foreign satellite programs and require them 
to use only international news 
reports provided by China Central Television and China Radio 
International. The new circular said these restrictions are 
required to ``ensure correct orientation of public opinion,'' 
because some foreign wire services and news media have 
distributed international news to local television stations 
with ``blatant political intentions.'' The circular calls on 
television regulators to ``firmly establish political 
consciousness'' and ``increasingly bring the administration of 
international news within the administration of propaganda 
work.''
    Chinese officials attempt to prevent citizens who use the 
Internet from gaining access to ideas and opinions that the 
government and Party cannot censor. In February 2006, Liu 
Zhengrong, Deputy Chief of the Internet Affairs Bureau of the 
State Council Information Office, said Chinese citizens can 
access the Web freely, except for ``a very few'' foreign Web 
sites that are blocked because their contents mostly involve 
pornography or terrorism.\172\ According to one study, however, 
Chinese authorities operate ``the most extensive, 
technologically sophisticated, and broad-reaching system of 
Internet filtering in the world'' to prevent access to 
``sensitive'' religious and political material on the 
Internet.\173\ The central government blocks the Web sites of 
foreign news providers such as the Voice of America, Radio Free 
Asia, and the British Broadcasting Corporation, and of human 
rights advocacy groups such as Human Rights Watch, Human Rights 
in China, Reporters Without Borders, and the Committee to 
Protect Journalists. Since May 2005, the Chinese government has 
prevented its citizens from accessing the Commission's Web 
site.

            V(b) Rights of Criminal Suspects and Defendants


                                findings


        <bullet> The Communist Party's concern with growing 
        social instability dominated its policy statements over 
        the past year, and served as justification for 
        increased government vigilance over activities and 
        groups that potentially threaten Party legitimacy. Top 
        Party, court, and law enforcement officials repeatedly 
        linked the government's policy of pursuing periodic 
        anti-crime campaigns, referred to as ``Strike Hard'' 
        campaigns, to the goal of maintaining social stability. 
        Government efforts to maintain social stability have 
        led to a greater reliance on the coercive powers of the 
        police to subdue potential threats to Party rule.
        <bullet> Abuse of power by local police forces remains 
        a serious problem. The Supreme People's Procuratorate 
        (SPP) has acknowledged the existence of continuing and 
        widespread abuses in law enforcement, including illegal 
        extended detentions and torture. New SPP regulations 
        that detail the criteria for prosecuting official 
        abuses of power went into effect in July 2006, and 
        establish standards for the prosecution of police who 
        abuse their power to hold individuals in custody beyond 
        legal limits, coerce confessions under torture, acquire 
        evidence through the use of force, maltreat prisoners, 
        or retaliate against those who petition the government 
        or file complaints against them.
        <bullet> The Chinese government continues to apply 
        vague criminal and administrative provisions to justify 
        detentions based on an individual's political opinions 
        or membership in religious, ethnic, or social groups. 
        These provisions allow for the targeting and punishment 
        of activists for crimes that ``endanger state 
        security'' or ``disturb public order'' under the 
        Criminal Law. The UN Special Rapporteur on Torture 
        concluded in his March 2006 report to the UN Commission 
        on Human Rights that the vague definition of these 
        crimes leaves their application open to abuse, 
        particularly of the rights to freedom of religion, 
        speech, and assembly.
        <bullet> Chinese authorities use reeducation through 
        labor and other forms of administrative detention to 
        circumvent the criminal process and imprison offenders 
        for ``minor crimes,'' without judicial review and the 
        procedural protections guaranteed by the Chinese 
        Constitution and Criminal Procedure Law. The UN Working 
        Group on Arbitrary Detention concluded in 2004 that the 
        Chinese government has made no significant progress in 
        reforming the administrative detention system to ensure 
        judicial review and to conform to international law. 
        Although 
        proposed reforms would provide some added procedural 
        protections, they would still not provide an accused 
        individual the opportunity to dispute the alleged 
        misconduct and contest law enforcement accusations of 
        guilt before an independent adjudicatory body.
        <bullet> Although illegal in China, torture and abuse 
        by law enforcement officers remain widespread. Factors 
        that perpetuate or exacerbate the problem of torture 
        include a lack of procedural safeguards to protect 
        criminal suspects and defendants, over reliance on 
        confessions of guilt, the absence of lawyers at 
        interrogations, inadequate complaint mechanisms, the 
        lack of an independent judiciary, and the abuse of 
        administrative detention measures. The Chinese 
        government emphasizes its ongoing efforts to pass new 
        laws and administrative regulations preventing, 
        punishing, and compensating cases of torture by law 
        enforcement officers. Both the SPP and the Ministry of 
        Public Security have announced their support for audio 
        and video taping of interrogations of criminal suspects 
        accused of a limited number of crimes. The Chinese 
        government recognizes that problems of misconduct, 
        including physical abuse, exist within Chinese prisons 
        and reeducation through labor centers, and it is making 
        progress toward increasing accountability for such 
        behavior.
        <bullet> In 2006, Chinese authorities increased 
        restrictions on lawyers who work on politically 
        sensitive cases or cases that draw attention from the 
        foreign news media. Law enforcement officials 
        intimidated lawyers defending these cases by charging 
        them, or threatening to charge them, with various 
        crimes. Since mid-2005, local authorities have also 
        used harassment and violent measures against those who 
        participated in criminal or civil rights defense in 
        sensitive matters. Beijing lawyer Zhu Jiuhu was 
        detained during the past year. Self-trained legal 
        advocate Chen Guangcheng was sentenced on August 24, 
        2006, to four years and three months' imprisonment, and 
        Shanghai lawyer Zheng Enchong is currently under house 
        arrest after being released from prison on June 5, 
        2006. Beijing lawyer Gao Zhisheng has been held 
        incommunicado since authorities reportedly abducted him 
        on August 15 from his sister's home in Shandong 
        province. Guo Feixiong, who served as a legal advisor 
        to Gao's law firm, was arrested and later released in 
        late 2005, and is currently in detention after being 
        taken from his home on September 14.
        <bullet> Chinese criminal law includes 68 capital 
        offenses, over half of which are non-violent crimes. 
        The Chinese government reportedly has adopted an 
        ``execute fewer, execute cautiously'' policy. In 2006, 
        the Chinese judiciary made reform of the death penalty 
        review process a top priority and introduced new 
        appellate court procedures for hearing death penalty 
        cases. The Supreme People's Court announced that it 
        would consolidate and reclaim the death penalty review 
        power from provincial-level high courts. These reforms 
        are designed to limit the use of death sentences, 
        consolidate criteria used by courts to administer those 
        sentences, and ensure constitutionally protected human 
        rights.
        <bullet> The Vice Minister of Health acknowledged that 
        the majority of human organs used in transplants in 
        China originate from executed prisoners. Under the 
        World Health Organization's guiding principles on human 
        organ transplantation, organ donations by prisoners, 
        even when reportedly voluntary, may nonetheless violate 
        international standards if the organs are obtained 
        through undue influence and pressure. New Ministry of 
        Health regulations include medical standards for organ 
        transplants, but do not provide guidance on what type 
        of consent is required for taking organs from executed 
        prisoners.
        <bullet> The Chinese government continues to engage the 
        international community on human rights and rule of law 
        issues, including those related to the criminal justice 
        system. The government's application for membership in 
        the UN Human Rights Council noted that it has acceded 
        to 22 international human rights accords, and that it 
        plans to amend its Criminal, Civil, and Administrative 
        Procedure Laws and reform the judiciary to prepare for 
        ratification of the International Covenant on Civil and 
        Political Rights. As a member of the new Council, the 
        government has pledged to fulfill its obligations under 
        the terms of these accords, and is obligated under the 
        rules of the Council to submit to peer review of its 
        human rights record.
Public Security and Coercive Use of Police Power
    The Communist Party's concern with growing social 
instability dominated its policy statements over the past year, 
and served as justification for increased government vigilance 
over activities and groups that potentially threaten Party 
legitimacy. Top Party, court, and law enforcement officials 
repeatedly linked the government's policy of pursuing periodic 
anti-crime campaigns, referred to as ``Strike Hard'' campaigns, 
to the goal of maintaining social stability.\1\ On a national 
level, the government's ``Strike Hard'' campaigns included 
crackdowns on the publication of materials, including Falun 
Gong literature, that the government deemed to be ``illegal 
political publications'' or that allegedly ``spread political 
rumors and create ideological chaos'' \2\ [see Section V(a)--
Special Focus for 2006: Freedom of Expression]. Regionally, 
provincial-level officials used ``Strike Hard'' campaigns to 
justify crackdowns on ``ethnic separatist forces'' in the 
Xinjiang Uighur Autonomous Region\3\ and those who might 
threaten the operation of the new Qinghai-Tibet railroad,\4\ 
among other groups. [See Section V(d)--Freedom of Religion--
Religious Freedom for China's Muslims; Section VIII--Tibet for 
additional information.]
    Government efforts to maintain social stability have led to 
a greater reliance on the coercive powers of the police to 
subdue potential threats to Party rule.\5\ In late 2005, a land 
dispute between local government officials and villagers in 
Shanwei city, Guangdong province, escalated into a mass protest 
and then a violent confrontation between villagers and the 
paramilitary People's Armed Police (PAP).\6\ Both domestic and 
international human rights activists condemned the coercive use 
of police power to subdue the Shanwei villagers, and called for 
an investigation into the PAP's decision to open fire on the 
crowd.\7\ Shanwei authorities detained Deputy Director Wu Sheng 
of the local public security bureau for mishandling the 
situation,\8\ but one month later, Public Security Minister 
Zhou Yongkang and the PAP's top two officials reaffirmed the 
role of the PAP as a prominent force in guarding against 
threats to public order, particularly large-scale mass 
incidents.\9\ In May 2006, domestic news media reported that 
Party officials delivered a ``stern internal warning'' to Wu 
and fired him from office.\10\ No criminal charges were filed 
against Wu, but 13 of the villagers who participated in the 
protest received sentences ranging from three to seven years' 
imprisonment for allegedly ``gathering people to disturb public 
order,'' among other crimes.\11\
    Party concerns over the type of unrest that occurred in 
Shanwei have prompted new government measures that allow for 
greater discretion by local police in responding to 
``disturbances of public order.'' \12\ In late 2005, Premier 
Wen Jiabao warned senior rural bureaucrats that more violence 
would result if they continued to commit the ``historic 
mistake'' of failing to protect farmers and their lands.\13\ In 
April 2006, the Ministry of Public Security (MPS) denied the 
existence of conflict between police and villagers.\14\ 
Instead, MPS officials maintained that China faces ``conflicts 
among the people,'' high crime rates, and struggles against 
unnamed ``enemies.'' \15\ The MPS reported that crimes of 
``disturbing public order'' rose to a total of 87,000 in 2005, 
a 6.6 percent increase over the figure in 2004.\16\ Officials 
declined to provide a figure for mass incidents in 2005, but 
previously reported a rise from 58,000 mass incidents in 2003 
to 74,000 in 2004.\17\ In March, a new Public Security 
Administration Punishment Law went into effect nationwide and 
added 165 new offenses that are subject to administrative 
punishments at the discretion of public security agencies, 
rather than according to the procedures required under the 
criminal justice system.\18\ In a press conference about the 
new law, MPS officials 
explained that the law entrusts public security agencies and 
the police with greater powers and means for protecting social 
stability and public order.\19\
    Abuse of power by local police forces remains a serious 
problem. The government does not encourage external supervision 
over police affairs or prosecution of police abuses by the 
procuratorate,\20\ as mandated by law.\21\ Instead, the MPS 
maintains a system of self-discipline carried out by the police 
affairs supervisory departments within local public security 
bureaus.\22\ Between 2001 and 2005, 1.5 million on-site 
inspections resulted in 330,000 findings of abuse by police 
officers.\23\ Of those, 4,321 offending officers were suspended 
and 2,576 were taken into custody as punishment for their 
wrongdoing.\24\ In February 2006, the MPS announced that it had 
suspended a total of 10,034 police officers since 1997 for 
breaches of discipline.\25\ The announcement acknowledged the 
problem of police misconduct and expressed a high-level 
commitment to confront the problem and improve the image of the 
police. At the same time, it also confirmed that local police 
in some areas openly collude with criminals, without fear of 
reprisal. In one case in Hunan province, a court convicted 
three senior public security officials for ties to organized 
crime, but ultimately suspended their two- and three-year 
sentences.\26\
    The Supreme People's Procuratorate (SPP) has acknowledged 
the existence of continuing and widespread abuses in law 
enforcement, including illegal extended detentions and 
torture.\27\ New SPP regulations that detail the criteria for 
prosecuting official abuses of power went into effect on July 
26, 2006, and establish standards for the prosecution of police 
who abuse their power to hold individuals in custody beyond 
legal limits, coerce confessions under torture, acquire 
evidence through the use of force, maltreat prisoners, or 
retaliate against those who petition the government or file 
complaints against them.\28\ Domestic news media reported in 
2006 on the convictions of several public security officials 
who had beaten to death criminal suspects or prisoners in their 
custody.\29\ In one case, two public security officials 
received sentences of 1 year and 12 years' imprisonment, 
respectively, for beating a woman to death during police 
interrogation.\30\ The local procuratorate did not launch an 
investigation until two years after the incident occurred, and 
only in response to persistent efforts by the woman's husband 
to petition the government.\31\ In response to these reports, 
one Chinese legal scholar criticized authorities for being too 
lenient and for shielding one another from punishment.\32\ In 
July, an SPP spokesperson stated that local procuratorates do 
not lack potential cases against official abuses of power, but 
that ``many of them are cases that [the procuratorates] don't 
dare handle, are unlikely to handle, and cannot handle.'' \33\
Political Crimes
    The Chinese government continues to harass, detain, and 
imprison citizens for the peaceful exercise of fundamental 
rights guaranteed under the Chinese Constitution and 
international declarations and treaties such as the Universal 
Declaration of Human Rights (UDHR) and the International 
Covenant on Civil and Political Rights (ICCPR).\34\ In some 
cases, police detain individuals without formal charge or 
judicial review, in contravention of provisions in both the 
UDHR and the ICCPR.\35\ Arbitrary detentions intensified during 
politically sensitive periods, such as the periods both 
preceding and following the visits of U.S. President George W. 
Bush and Manfred Nowak, UN Special Rapporteur on Torture, in 
November and December 2005, respectively.\36\ Police also 
detained, placed under surveillance, and harassed citizens 
before the first anniversary of former Communist Party General 
Secretary Zhao Ziyang's death in January 2006,\37\ and before 
and after the March 2006 plenary sessions of the National 
People's Congress (NPC) and Chinese People's Political 
Consultative Conference.\38\ A senior official from the 
Ministry of Public Security justified police use of mass 
roundups during the plenary sessions by stressing the need to 
``manage public order'' and ``reduce some of the factors 
threatening social stability'' \39\ [see Section VII(c)--Access 
to Justice--Citizen Petitioning]. In most cases, police 
released individuals after a few days in detention.
    The Chinese government continues to apply vague criminal 
and administrative provisions to justify detentions based on an 
individual's political opinions or membership in religious, 
ethnic, or social groups, even when authorities identify a 
formal charge and initiate the legal process. These provisions 
allow for the targeting and punishment of activists for crimes 
that ``endanger state security'' or ``disturb public order'' 
under the Criminal Law.\40\ After a 2004 visit to China, the UN 
Working Group on Arbitrary Detention (UNWGAD) recommended that 
the Chinese government define these crimes in precise terms and 
create exceptions under the Criminal Law for the peaceful 
exercise of fundamental rights guaranteed by the UDHR.\41\ 
Nowak noted after his visit to China in late 2005 that the 
UNWGAD's recommendations have not been implemented to date.\42\ 
He concluded in his March 2006 report to the UN Commission on 
Human Rights: ``The vague definition of these crimes leaves 
their application open to abuse, particularly of the rights to 
freedom of religion, speech, and assembly.'' \43\
    Courts convict 99 percent of those tried for crimes that 
allegedly ``endanger state security,'' and the Dui Hua 
Foundation, a U.S. NGO that advocates for political prisoners 
in China, reports: ``The great majority were detained for non-
violent expression of their political and religious beliefs.'' 
\44\ ``Splittism'' and ``inciting splittism,'' \45\ as well as 
``subversion of state power'' and ``inciting subversion of 
state power,'' \46\ are classified as crimes that endanger 
state security under the Criminal Law. Chinese authorities 
continue to use charges of ``splittism'' and ``inciting 
splittism'' to target and punish peaceful activities by ethnic 
Uighurs and Tibetans [see Section V(d)--Freedom of Religion--
Religious Freedom for China's Muslims; Section VIII--Tibet]. 
They continue to apply charges of ``subversion'' and ``inciting 
subversion'' to target and punish the peaceful activities of 
writers, journalists, and publishers [see Section V(a)--Special 
Focus for 2006: Freedom of Expression], as well as those who 
have supported the creation of independent political parties or 
associations [see Section VII(a)--Development of Civil 
Society].
    Faced with an increasing number of ``public order 
disturbances'' in 2005, Chinese authorities have applied 
criminal provisions to crack down on otherwise lawful citizen 
attempts to challenge government abuses.\47\ Many of the 
``public order disturbances'' that 
occurred in 2005 involved alleged crimes of ``gathering people 
to disturb public order,'' \48\ ``obstructing public 
services,'' \49\ ``gathering people to engage in affrays,'' 
\50\ and ``creating disturbances.'' \51\ From 2004 to 2005, 
these ``public order disturbances'' increased by 13 percent, 
18.9 percent, 5.8 percent, and 11.8 percent, respectively.\52\ 
In one case, a local people's court in Yulin city, Shaanxi 
province, sentenced private investor and former Party official 
Feng Bingxian to three years' imprisonment for ``gathering 
people to disturb public order'' and obstructing the work of 
government agencies.\53\ Feng's conviction was based on his 
efforts to meet with local officials and discuss compensation 
for private property that the government seized in 2003.\54\ 
The procuratorate charged that the presence of too many 
investor representatives led to traffic congestion, disturbance 
of public order, and interference with the work of the 
government.\55\ At the time that the procuratorate indicted 
Feng, the NPC was publicizing efforts to increase legal 
protection for property rights.\56\
    Since late 2005, government officials have abused Criminal 
Law provisions on ``public order disturbances'' to silence 
property rights advocates in particular. In 2004, the 
government amended the 
Constitution to recognize explicitly the private property 
rights of Chinese citizens.\57\ One year later, at the same 
time that Shaanxi officials detained Feng Bingxian, Guangdong 
provincial authorities used force to suppress citizen efforts 
to defend property rights in Shanwei city\58\ and Taishi 
village\59\ in Guangzhou city. In October 2005, Guangdong 
authorities arrested legal advocate Yang Maodong (who uses the 
pen name Guo Feixiong) for ``gathering people to disturb public 
order.'' \60\ The charge was based on Guo's efforts to advise 
Taishi villagers in their recall campaign against the village 
committee head, who allegedly had embezzled compensation funds 
for government seizures of farmland [see Section VII(b)--
Institutions of Democratic Governance and Legislative Reform]. 
In February 2006, the Guangdong Public Security Bureau 
circulated a report that blamed a succession of mass protests 
in 2005 on ``disputes over so-called rights defense.'' \61\ 
With the release of this report, Guangdong authorities made 
explicit their campaign against legal advocates such as Guo and 
directly linked the activities of these individuals to crimes 
of ``disturbing public order.''
    The Chinese government has released a small number of 
political prisoners since August 2005, but many Chinese 
citizens continue to serve long prison or reeducation through 
labor sentences for political or religious activities.\62\ In 
April 2005, the Chinese government insisted that authorities do 
not apply a stricter standard for evaluating sentence 
reductions and parole in crimes that ``endanger state 
security.'' \63\ Between early 2005 and 2006, however, 
officials granted sentence reductions or early releases to 
political prisoners in only a few cases.\64\ Authorities 
released most political prisoners only when their court-imposed 
sentences expired. The list of released political prisoners 
includes political activist Wang Wanxing, journalist Liu Shui, 
legal advocate Guo Feixiong, journalist Jiang Weiping, Falun 
Gong practitioner Charles Lee, labor activist Xiao Yunliang, 
journalist and Tiananmen democracy activist Yu Dongyue, 
Internet publisher Cai Lujun, China Democracy Party member Tong 
Shidong, Internet writer Luo Changfu, house church activist 
Xiao Gaowen, Shanghai lawyer Zheng Enchong, Gyatso Children's 
Home founder Nyima Choedron, and Catholic auxiliary bishop An 
Shuxin.\65\ Despite the Chinese government's pledge to conduct 
a national review of cases involving political acts that are no 
longer crimes under Chinese law,\66\ some prisoners are still 
serving sentences for counterrevolutionary and other crimes 
that were removed from the Criminal Law in 1997.\67\
Arbitrary Detention in the Formal Criminal Process
     The UN Working Group on Arbitrary Detention (UNWGAD) 
defines the deprivation of personal liberty to be ``arbitrary'' 
if it meets one of the following conditions:

        (1) there is clearly no legal basis for the deprivation 
        of liberty;
        (2) an individual is deprived of his liberty because he 
        has exercised rights and freedoms guaranteed under the 
        Universal 
        Declaration of Human Rights (UDHR) or the International 
        Covenant on Civil and Political Rights (ICCPR); or
        (3) non-compliance with the standards for a fair trial 
        set out in the UDHR and other relevant international 
        instruments is sufficiently grave to make the detention 
        arbitrary.\68\

    Chinese authorities use measures such as surveillance or 
house arrest\69\ to punish and control political activists, 
even when no legal basis exists for such deprivations of 
liberty. Authorities in Linyi city, Shandong province, placed 
Chen Guangcheng, a legal advocate who exposed and challenged 
the abuses of local population planning officials [see Section 
V(h)--Population Planning], under house arrest on September 6, 
2005.\70\ In March 2006, Chen's house arrest exceeded the six-
month limit permitted by Chinese law.\71\ A network of Chinese 
human rights activists and groups subsequently worked with 
Chen's defense lawyers to submit information about his case to 
the UNWGAD, the UN Special Rapporteur on the Independence of 
Judges and Lawyers, and the Special Representative of the 
Secretary General for Human Rights Defenders.\72\ From March 
until formal notification of Chen's criminal detention on June 
10, Linyi authorities held Chen without charge or trial.\73\ 
Since March, authorities have kept Chen's wife under 
surveillance at their home, formally arrested several of Chen's 
relatives, beaten and summoned Chen's lawyers for 
interrogation, and placed other activists under house arrest to 
prevent them from holding a press conference about Chen's 
case.\74\
    Chinese authorities also have used incommunicado detention 
to punish and control particularly high-profile political 
offenders who exercise their fundamental rights. The Criminal 
Procedure Law (CPL) permits detention without arrest or charge, 
but generally requires notification of family members or the 
detainee's workplace within 24 hours of custody.\75\ Despite 
this legal safeguard, a number of activists, including Hu Jia, 
disappeared in February 2006 after launching a nationwide 
hunger strike to protest government abuses [see Section IV--
Introduction]. Hu, who has campaigned on behalf of HIV/AIDS 
patients [see Section V(g)--Public Health--HIV/AIDS], was 
missing from February 16 to March 28. When Hu reappeared, he 
reported that security officers took him from his home and held 
him on the outskirts of Beijing without any legal formalities 
and without notifying his family.\76\ In February, a UN agency 
expressed concern about Hu's disappearance and reported his 
case to the Ministry of Health.\77\ Others who have been held 
incommunicado include Gedun Choekyi Nyima and his parents, 
abducted by Chinese officials in 1995 after the Dalai Lama 
recognized him as the reincarnation of the Panchen Lama, and 
Catholic Bishop Su Zhimin, who reportedly has been detained in 
a form of house arrest since 1997. Both Gedun Choekyi Nyima and 
Bishop Su have been the subject of frequent U.S. and 
international inquiries, but the Chinese government denies that 
it took coercive measures against either of them. [See Section 
V(d)--Freedom of Religion--Religious Freedom for Tibetan 
Buddhists; Section V(d)--Freedom of Religion--Religious Freedom 
for China's Catholics and China-Holy See Relations for 
additional information.]
    Law enforcement authorities continue to detain Chinese 
citizens for long periods without formal charge or trial, 
despite official statements to the contrary. In January 2006, 
the Chinese government reported to Manfred Nowak, UN Special 
Rapporteur on Torture, that serious cases of extended detention 
lasting more than three years had been eliminated, and that the 
number of individuals held beyond time limits was at an all-
time low.\78\ The government further reported that the number 
of provinces, autonomous regions, and municipalities in which 
there were no cases of extended detention had risen from 14 at 
the end of 2003 to 29.\79\ In May 2006, the Supreme People's 
Procuratorate (SPP) identified Beijing as one of nine 
municipalities or provinces where no cases of extended 
detention had occurred in 2005.\80\ Despite these claims, 
Beijing authorities repeatedly used provisions in Chinese law 
to hold New York Times researcher Zhao Yan from September 17, 
2004, until his trial date on June 16, 2006.\81\ After invoking 
several legal exceptions to extend Zhao's pretrial detention, 
authorities indicted him on December 23, 2005, for disclosing 
state secrets and for fraud.\82\ The Beijing procuratorate 
withdrew its case against Zhao on March 17, 2006,\83\ shortly 
before President Hu Jintao's visit to the United States, but 
resumed legal proceedings based on the same charge in May, 
after Hu returned to China.\84\ The court permitted the 
procuratorate to resume its case, despite objections from 
Zhao's defense lawyer that this action was illegal.\85\ The 
UNWGAD has concluded that Zhao's detention was arbitrary 
because it resulted from the exercise of rights guaranteed 
under the UDHR and the ICCPR, and because official non-
compliance with the international standards for a fair trial 
was sufficiently grave.\86\
    Chinese authorities do not comply with the minimum 
international standards for prompt judicial review of criminal 
detention and arrest. Both the UDHR and the ICCPR prohibit 
arbitrary detention or arrest. Under the ICCPR, anyone detained 
or arrested on a criminal charge must be brought promptly 
before a judge or other officer authorized by law to exercise 
adjudicatory powers, for review of the lawfulness of his 
detention or arrest.\87\ In December 2004, the UNWGAD found 
that the CPL and related regulations on pretrial detention fail 
to meet this basic standard because: (1) Chinese suspects 
continue to be held for too long without judicial review; (2) 
procurators, who review arrest decisions, only examine case 
files and do not hold a hearing; and (3) a procurator cannot be 
considered an independent adjudicator under applicable 
international standards.\88\ In May 2006, the SPP acknowledged 
that unlawful extended detentions remain problematic, and that 
Chinese authorities misuse provisions in the CPL to disguise 
this problem.\89\ The SPP is currently working with the Supreme 
People's Court and Ministry of Public Security to finalize new 
regulations that will seek to address the problem of extended 
detention.\90\
Administrative Detention
    The Chinese government continues to punish large numbers of 
citizens administratively, without effective judicial review 
and in contravention of human rights standards under the 
Universal Declaration of Human Rights (UDHR) and the 
International Covenant on Civil and Political Rights 
(ICCPR).\91\ Public security agencies reported that they 
investigated and charged a total of 6.3 million ``public 
security'' (zhi'an) offenses in 2005, up from 5.4 million in 
2004.\92\ ``Public security'' offenses include public order 
disturbances, traffic offenses, prostitution, drug use, and 
other ``minor crimes'' that the Chinese government typically 
sanctions with administrative punishments rather than formal 
criminal sentences.\93\ In some instances, public security 
agencies handle cases administratively because they do not have 
enough evidence for a formal prosecution,\94\ or because it is 
a convenient method for detaining and harassing activists.\95\ 
Administrative punishments can range from a warning or fine to 
detention in a reeducation through labor (RTL) center for up to 
three years, with the possibility of a one-year extension.\96\ 
Administrative punishments such as RTL can be harsher than some 
criminal punishments such as fines, public surveillance, and 
criminal detention of one to six months.\97\
    In March 2006, Manfred Nowak, UN Special Rapporteur on 
Torture, concluded that the RTL system and other forms of 
administrative detention ``go beyond legitimate rehabilitation 
measures provided for in [A]rticle 10 of the ICCPR.'' \98\ 
Forms of administrative detention include short-term detention 
under the Public Security Administration Punishment Law (PSAPL) 
and long-term 
detention such as RTL, forced psychiatric commitment, ``custody 
and education'' of prostitutes and their clients, forced drug 
detoxification, work-study schools, and discipline and 
inspection of corrupt officials under Party rules.\99\ Although 
many public security cases do not result in detention, the U.S. 
State Department estimates that at least 260,000 to 310,000 
individuals are currently detained in approximately 340 RTL 
centers.\100\ In addition, another 350,000 individuals were 
held in facilities for drug offenders and prostitutes as of 
2004.\101\ The government consistently has emphasized the 
beneficial ``reeducation'' function of administrative detention 
measures,\102\ but Nowak found that ``some of these measures of 
[reeducation] through coercion, humiliation and punishment aim 
at altering the personality of detainees up to the point of 
even breaking their will.'' \103\
    The Chinese government is in the process of reforming the 
administrative punishment system, but these reforms seek to 
codify rather than abolish it. In August 2005, the National 
People's Congress Standing Committee passed the PSAPL to 
provide a basis in national law for short-term detentions of up 
to 20 days. In addition to establishing more severe punishments 
than its predecessor, the Regulations on Public Security 
Administration Punishment, the new law creates 165 new offenses 
subject to administrative punishment effective March 1, 
2006.\104\ These offenses include, among other things, ``taking 
on the name of religion or qigong to carry out activities 
disturbing public order'' \105\ and ``inciting or plotting 
illegal assemblies, marches, or demonstrations.'' \106\ The new 
law reaffirms the role of public security bureaus as the 
entities that determine and administer punishments for public 
security violations. Ministry of Public Security officials have 
interpreted this provision to mean greater powers and means for 
public security agencies and police to carry out their duties 
and protect stability.\107\ The new law provides for 
disciplinary sanctions and criminal liability to address 
violations of human rights, such as coercing confessions under 
torture or exceeding time limitations on interrogation.\108\ 
The law, however, lacks mechanisms for external supervision of 
public security agencies and police, and lacks standards for 
imposing disciplinary and criminal sanctions on police abuses.
    Although short-term administrative detention of up to 20 
days for public security offenses now has a basis in national 
law under the PSAPL, long-term administrative detention, 
including RTL, is authorized only under administrative 
regulations and therefore violates Chinese law. The Legislation 
Law requires that all deprivations of personal liberty be 
authorized by national law, and not by administrative 
regulation.\109\ Under the criminal justice system, a Chinese 
citizen cannot be found guilty of any crime, even a ``minor 
crime,'' without being judged guilty by a people's court.\110\ 
The Constitution makes explicit the inviolable nature of a 
person's liberty and further dictates:

        No citizen may be arrested except with the approval or 
        by decision of a people's procuratorate or by decision 
        of a people's court, and arrests must be made by a 
        public security organ. Unlawful deprivation or 
        restriction of citizens' freedom of person by detention 
        or other means is prohibited. . . .\111\

Nonetheless, Chinese authorities use RTL and other forms of 
long-term administrative detention to circumvent the criminal 
process and imprison offenders for ``minor crimes,'' without 
judicial review and the procedural protections guaranteed by 
the Chinese Constitution and Criminal Procedure Law.\112\
    The UN Working Group on Arbitrary Detention (UNWGAD) 
concluded that between its 1997 and 2004 visits, the Chinese 
government had made no significant progress in reforming the 
administrative detention system to ensure judicial review and 
to conform to international law.\113\ Domestic pressure is 
building to reform the RTL system, particularly in the National 
People's Congress (NPC).\114\ Since March 2005, the NPC has 
been considering a new Law on the Correction of Unlawful Acts 
that would provide a basis in national law for RTL.\115\ The 
draft law reportedly enhances the rights of RTL prisoners by 
setting a maximum sentence of 18 months, and by permitting 
defendants to hire a lawyer, request a hearing, and appeal 
sentences imposed by public security officials in RTL 
cases.\116\ Although the reforms would provide some added 
procedural protections, the draft law would still not provide 
an accused individual the opportunity to dispute the alleged 
misconduct and contest law enforcement accusations of guilt 
before an independent adjudicatory body.\117\ Public security 
officials continue to dominate the decisions of RTL 
administration commissions,\118\ which consist of officials 
from the public security, civil affairs, and labor 
bureaus.\119\ The Chinese government has argued that 
administrative detention decisions are subject to judicial 
review under the Administrative Procedure Law (APL), but the 
UNWGAD found APL review ``of very little value'' and maintained 
that ``no real judicial control has been created over the 
procedure to commit someone to [reeducation] through labor.'' 
\120\
    The UNWGAD also has found that the government's practice of 
forced psychiatric commitment of criminal offenders is a ``form 
of deprivation of liberty, since it lacks the necessary 
safeguards against arbitrariness and abuse.'' \121\ The U.S. 
State Department estimates that there are at least 20 
ankang,\122\ or special psychiatric institutions for mentally 
ill criminal offenders, in China. Public security officials can 
forcibly commit ``political maniacs,'' and increasingly have 
done so as a measure against those who repeatedly petition the 
government such as Liu Xinjuan,\123\ or political activists 
such as Wang Wanxing.\124\ The government deprives these 
individuals of their liberty without judicial review.\125\ 
Treatment in these institutions is sometimes brutal, and 
political prisoners are held along with patients suffering from 
true mental illnesses.\126\ Upon his release in August 2005, 
Wang called for the government to cease psychiatric detention 
of those without mental illness and transfer administration of 
ankang hospitals from public security 
officials to psychiatric professionals.\127\ He added that the 
inability to object to public security officials' determination 
that one is 
mentally ill ``makes it so difficult for the inmates to hope 
for release--more difficult than in prison or in a labor camp, 
where the punishments are for a fixed term.'' \128\
Torture and Abuse in Custody
    Although illegal in China, torture and abuse by law 
enforcement officers remain widespread.\129\ In March 2006, 
Manfred Nowak, UN Special Rapporteur on Torture, reported that 
Falun Gong practitioners make up the overwhelming majority of 
victims of alleged torture [see Section V(d)--Freedom of 
Religion--Government Persecution of Falun Gong], and that other 
targeted groups include Uighurs, Tibetans, human rights 
defenders, and political activists.\130\ About half of all 
alleged acts of torture take place in pretrial criminal 
detention centers or reeducation through labor (RTL) centers, 
and 47 percent of alleged perpetrators are police or other 
public security officials.\131\ Forms of torture and abuse 
cited in Nowak's report include beating, electric shock, 
painful shackling of the limbs, denial of medical treatment and 
medication, and hard labor.\132\ Foreign news media and NGOs 
reported that torture by law enforcement officers resulted in 
the death of at least one detainee during the past year.\133\
    The widespread use of torture in China violates both 
domestic and international law. Chinese domestic law prohibits 
judicial officers from coercing confessions under torture or 
acquiring evidence through the use of force, and imposes 
criminal liability on police and other corrections officers who 
beat or maltreat prisoners, if the circumstances are 
particularly ``serious.'' \134\ The government is further bound 
by the provisions of the Convention against Torture and Other 
Cruel, Inhuman or Degrading Treatment or Punishment (CAT) that 
prohibit the use of torture.\135\ Nowak has said that the 
government's definition of torture under the Criminal Law and 
administrative regulations does not correspond fully to the 
international standard as outlined in Article 1 of the 
CAT.\136\ In addition, the government does not recognize the 
competence of the Committee against Torture authorized under 
the CAT to investigate allegations of systematic torture.\137\
    Factors that perpetuate or exacerbate the problem of 
torture in China include a lack of procedural safeguards to 
protect criminal suspects and defendants, over reliance on 
confessions of guilt, the absence of lawyers at interrogations, 
inadequate complaint mechanisms, the lack of an independent 
judiciary, and the abuse of administrative detention 
measures.\138\ In late 2005 and early 2006, the U.S. State 
Department and several faith-based organizations reported that 
these factors and the pervasiveness of torture and abuse by 
public security officials contributed to the conviction of 
Pastor Gong Shengliang of the banned South China Church.\139\ 
Following their release from prison in late 2003 and early 
2004, several female members of the church disclosed that 
public security 
officials tortured and forced them to sign statements accusing 
Pastor Gong of the sexual crimes for which he was ultimately 
convicted.\140\ Pastor Gong reportedly continues to be tortured 
in prison,\141\ and is confined for a life term.
    The Chinese government emphasizes its ongoing efforts to 
pass new laws and administrative regulations preventing, 
punishing, and compensating cases of torture by law enforcement 
officers.\142\ Some of these new measures appeared after a 
series of news media reports in 2005 on wrongful convictions 
drew national attention to widespread abuses in the criminal 
justice system and the continuing problem of torture.\143\ In 
April 2005, the Sichuan provincial government prohibited the 
use of evidence acquired through illegal means and introduced a 
requirement that interrogation in ``major'' cases be 
taped.\144\ Other provincial governments have not followed 
Sichuan's lead in excluding illegally acquired evidence,\145\ 
but have shown more willingness to adopt the practice of audio 
and video taping of interrogations as a preventive measure 
against torture. In early 2006, the Supreme People's 
Procuratorate mandated that by October 1, 2007, all 
procuratorate interrogations of criminal suspects in job-
related crimes such as graft and dereliction of duty be audio 
and video taped.\146\ At the March 2006 plenary session of the 
National People's Congress, one deputy submitted a proposal 
calling on the Ministry of Public Security (MPS) to mandate 
tapings of police interrogations in cases of crimes punishable 
by death.\147\ The MPS has announced that it will promote audio 
and video taping of police interrogations in homicide and 
organized crime cases, and that public security bureaus in 
economically developed areas such as Shanghai and Beijing 
municipalities have already adopted this practice.\148\ It has 
no formal plans for nationwide implementation.
    The Chinese government recognizes that problems of 
misconduct, including physical abuse, exist within Chinese 
prisons and RTL centers, and it is making progress toward 
increasing accountability for such behavior. In February 2006, 
the Ministry of Justice (MOJ) established punishments ranging 
from warnings to dismissal and criminal liability for prison 
and RTL police found to violate prohibitions against beating, 
or instigating others to beat, prisoners.\149\ Under these new 
regulations, police activities will be subject to regular 
supervision and investigation by the MOJ and local justice 
bureaus, to ensure that they comply with legal requirements. 
Beijing municipal authorities have also imposed quality control 
measures on prison police that authorize warnings, demotions, 
and dismissals for misconduct including insults, beatings, 
prolonged confinement, and isolation of inmates.\150\
Access to Counsel and Right to Present a Defense
    Most defendants in China go to trial without a lawyer, and 
domestic sources cite fear of law enforcement retribution and 
the lack of legal protections for lawyers as major factors in 
the low rate of representation.\151\ Chinese law grants 
criminal defendants the right to hire an attorney, but 
guarantees pro bono legal defense only if the defendant is a 
minor, faces a possible death sentence, or is blind, deaf, or 
mute.\152\ In other cases in which defendants cannot afford 
legal representation, courts may appoint defense counsel or the 
defendant may apply for legal aid.\153\ In late 2005, the 
Chinese government expanded the scope of legal aid in criminal 
cases and required public security bureaus and procuratorates 
to notify all criminal suspects of their right to apply for 
legal aid.\154\ Criminal suspects who cannot afford legal 
services can now make a request for legal aid as early as the 
investigative stage of their case, and do not have to wait 
until formal indictment.\155\ Despite these advances, lawyers 
represent criminal defendants in, at most, 30 percent of all 
cases, and the rate of representation continues to drop.\156\
    Government abuses of provisions in the Criminal Procedure 
Law (CPL) have prevented some criminal defendants who are able 
to find lawyers from meeting with them. Under Chinese law, 
suspects have a right to meet with their lawyers after police 
interrogation or from the first day of their formal 
detention.\157\ Nevertheless, after the first interrogation, 
police have manipulated legal exceptions to deny lawyers access 
to their clients or otherwise obstruct or encumber such 
access.\158\ The UN Working Group on Arbitrary Detention 
identified China's use of the ``state secrets'' exception as 
one area of particular concern, noting that authorities apply 
the exception to improperly interfere with access to defense 
counsel.\159\ In late 2005, Beijing lawyer Gao Zhisheng 
attempted to register as defense counsel for democracy activist 
Xu Wanping, but authorities refused to grant him access to Xu 
on the grounds that the case involved ``state secrets.'' \160\ 
Authorities also held freelance writer Yang Tongyan (who uses 
the pen name Yang Tianshui) without access to a lawyer or 
contact with his family, again citing ``state secrets.'' \161\ 
According to Yang's lawyer, the inability of lawyers to get 
involved during the investigative stage is a ``tacitly 
understood, unwritten rule'' in political cases.\162\ Chinese 
scholars have urged amending the CPL to allow for lawyers to be 
present throughout the criminal process, beginning with the 
interrogation of a criminal suspect, to help guard against 
coerced confessions under torture and other abuses.\163\
    Chinese law imposes procedural obstacles that make it 
difficult for lawyers to build and present an adequate defense. 
In practice, defense lawyers cannot start building a case until 
the official investigation ends and a case is transferred to 
the procuratorate.\164\ Even then, police and procurators often 
deny lawyers access to government case files and information, 
despite provisions in the CPL that are intended to guarantee 
access to those materials.\165\ Defense lawyers can gather 
information in support of their case from a witness, but must 
obtain the consent of the witness or permission from a 
procuratorate or court.\166\ In June and July, authorities 
obstructed attempts by lawyers to meet with witnesses and 
gather evidence in defense of legal advocate Chen 
Guangcheng.\167\ Li Jinsong, one of Chen's defense lawyers, 
reported that unidentified assailants attacked him during a 
visit to Chen's home village, and that police officers stood by 
and watched.\168\ In order to interview crime victims, defense 
lawyers must obtain both the consent of the victim and 
permission from a procuratorate or court.\169\ In addition, 
about 95 percent of witnesses in criminal cases do not appear 
in court to testify, in part due to hardship or fear of 
reprisals.\170\ The inability of defense lawyers to cross-
examine witnesses undermines their ability to represent their 
clients.\171\ Chinese scholars involved in the discussion of 
potential amendments to the CPL suggest that a provision 
requiring witnesses to appear in court should be written into 
the law.\172\
    In 2006, Chinese authorities increased restrictions on 
lawyers who work on politically sensitive cases or cases that 
draw attention from the foreign news media. The All China 
Lawyers Association issued a guiding opinion that restricts and 
subjects to punishment lawyers who handle collective cases 
without authorization [see Section VII(c)--Access to Justice--
Access to Legal Representation]. Defense lawyers have also 
reported that local authorities apply added pressure in cases 
that involve systemic problems or large groups of people.\173\ 
In April 2006, local justice bureaus in at least two provinces 
formalized this growing practice by issuing opinions to 
restrict the scope of activities that lawyers are permitted to 
undertake in particularly sensitive or high-profile cases [see 
Section VII(c)--Access to Justice--Access to Legal 
Representation].\174\ The opinion issued by the justice bureau 
in Shenyang city, Liaoning province, emphasized the role of 
Chinese lawyers as protectors of social stability and builders 
of a harmonious society, and implied that these functions may 
outweigh the defense of legally protected rights.\175\
    Law enforcement officials intimidated lawyers defending 
these cases by charging them, or threatening to charge them, 
with various crimes [see Section IV--Introduction], including 
``evidence fabrication'' under Article 306 of the Criminal 
Law.\176\ Such charges often prove to be groundless.\177\ At 
the March 2006 plenary session of the National People's 
Congress, one delegate submitted a motion to eliminate the 
Criminal Law's provision on evidence fabrication and noted its 
chilling effect on criminal defense work.\178\ Since mid-2005, 
local authorities have also used harassment and violent 
measures against those who participated in criminal or civil 
rights defense in sensitive matters such as the Shaanxi oil 
case and Taishi recall election\179\ [see Section IV--
Introduction]. Asia Weekly included prominent legal advocates 
and scholars Chen Guangcheng,\180\ Fan Yafeng,\181\ Gao 
Zhisheng,\182\ Guo Feixiong,\183\ Guo Guoting,\184\ Li 
Baiguang,\185\ Li Heping,\186\ Xu Zhiyong,\187\ Zhang 
Xingshui,\188\ Zheng Enchong,\189\ and Zhu Jiuhu\190\ among 
China's 14 ``Icons of 2005,'' \191\ but all have been placed 
under surveillance or other government restrictions after 
drawing news media attention to themselves and their legal 
cases. Zhu Jiuhu was detained during the past year. Chen 
Guangcheng was sentenced on August 24, 2006, to four years and 
three months' imprisonment, and Zheng Enchong is currently 
under house arrest after being released from prison on June 5, 
2006. Gao Zhisheng has been held incommunicado since 
authorities reportedly abducted him on August 15 from his 
sister's home in Shandong province. Guo Feixiong was arrested 
and later released in late 2005, and is currently in detention 
after being taken from his home on September 14.
Fairness of Criminal Trials and Appeals
    China's criminal justice system is strongly biased toward 
presumptions of guilt, particularly in cases that are high-
profile or politically sensitive.\192\ The conviction rate for 
first instance criminal cases rose slightly and remained above 
99 percent in 2005.\193\ After Chinese reports disclosed in 
2005 that official malfeasance had led to the wrongful murder 
conviction of She Xianglin, a local court official blamed the 
miscarriage of justice on negligence by investigative 
personnel, intense public pressure, and a heavy presumption of 
guilt throughout the criminal process.\194\ The local court, 
city government, and public security bureau all acknowledged 
wrongdoing in She's case and agreed to provide compensation or 
subsidy based on his wrongful imprisonment, physical and 
emotional damages, lost wages, and reintegration into 
society.\195\ She Xianglin's case sets a potential precedent 
for similar claims based on wrongful conviction and 
imprisonment. Reports of wrongful murder convictions in Hebei, 
Henan, Liaoning, and Shaanxi provinces appeared in the news 
throughout 2005, and similarly called into question the 
fairness of those trials and the criminal process.\196\
    Reports of wrongful convictions indicate that public 
security officials and procurators rely heavily on pretrial 
witness statements to support their case,\197\ despite 
provisions in the Criminal Procedure Law (CPL) that say such 
statements cannot serve as the sole basis for a criminal 
judgment.\198\ In February 2006, an intermediate people's court 
in Chongqing municipality reversed its original death sentence 
against a man convicted of robbery, and called into question 
the procuratorate's heavy reliance on pretrial statements that 
were later retracted during the trial.\199\ One Chinese legal 
scholar has reported that retraction of pretrial statements is 
increasing, and that in recent years, the reliability of 
pretrial statements has become increasingly suspect.\200\
    According to one criminal defense lawyer, even when lawyers 
and judges believe that a defendant may be innocent, ``external 
factors'' may nonetheless lead to a criminal conviction.\201\ 
Senior court officials and Party political-legal committees 
continue to influence judicial decisionmaking, particularly in 
sensitive or important criminal cases\202\ [see Section 
VII(c)--Access to Justice--The Chinese Judicial System]. In 
addition, Chinese procurators may appeal acquittals as a matter 
of right or request ``adjudication supervision'' from higher 
courts until they obtain a guilty verdict.\203\ In practice, 
procurators have incentives to do so, since they face potential 
liability and professional sanction for wrongful detention if a 
criminal suspect is acquitted.\204\
    Chinese defendants who are judged to be guilty face limited 
prospects for reversal of their conviction, due to procedural 
and other barriers. In one case during the past year, Beijing 
court officials pressured house church pastor Cai Zhuohua into 
giving up his right to an appeal,\205\ even though provisions 
under the CPL guarantee this right.\206\ If an appeals court 
finds a case to be based on questionable or incomplete 
evidence, it may send the case back to a court of first 
instance for retrial.\207\ However, courts of first instance 
have incentives not to change their original judgments because 
they face potential liability and professional sanction for 
incorrect decisions\208\ [see Section VII(c) --Access to 
Justice--The Chinese Judicial System]. Procedural provisions do 
not limit the number of times an appeals court may send the 
case back for retrial, so some cases based on questionable or 
incomplete evidence have bounced back and forth between courts, 
sometimes for several years while the defendant remains in 
prison.\209\
Capital Punishment
    Chinese criminal law includes 68 capital offenses, over 
half of which are non-violent crimes such as tax evasion, 
bribery, and embezzlement.\210\ The Chinese government 
reportedly has adopted an ``execute fewer, execute cautiously'' 
policy, but the government publishes no official statistics on 
the number of executions and considers this figure a state 
secret.\211\ Some Chinese sources have estimated that the 
annual number of executions in China is in the thousands.\212\
    In 2006, the Chinese judiciary made reform of the death 
penalty review process a top priority and introduced new 
appellate court procedures for hearing death penalty cases. 
After news accounts of several wrongful murder convictions in 
2005, the Supreme People's Court (SPC) convened seminars to 
help lower-level courts draw lessons from judgments made in 
error.\213\ In October 2005, the SPC announced that it would 
consolidate and reclaim the death penalty review power from 
provincial-level high courts, as part of a five-year court 
reform program for 2004 to 2008.\214\ Court officials emphasize 
that returning the power of death penalty review to the SPC 
will play a significant role in limiting the use of death 
sentences, consolidating criteria used by courts to administer 
those sentences, and ensuring constitutionally protected human 
rights.\215\ The SPC's five-year court program also mandates 
that in 2006, provincial-level high courts will begin to 
conduct hearings on all death penalty appeals.\216\ At these 
hearings, courts are required to conduct a ``comprehensive 
examination'' of the trial court's conclusions of fact and law, 
and to ensure that key witnesses, expert witnesses, 
procurators, and lawyers appear in court.\217\ Some provincial-
level high courts began implementing these requirements in 
January 2006, and have commented that court hearings help them 
to minimize wrongful executions and to provide greater 
protection to criminal defendants.\218\
    The Chinese government took positive steps toward reform of 
death penalty procedures in 2006, but legal scholars and 
professionals question how these steps will be implemented in 
practice. In 2005, provincial-level high courts reviewed nearly 
90 percent of death sentences handed down in China.\219\ The 
SPC has added three criminal tribunals to cope with the 
additional work from 
reclaiming death penalty review from the high courts, and has 
already transferred hundreds of court personnel to staff the 
new tribunals.\220\ Scholars at the National Judges College, 
however, expressed concern that three new criminal tribunals 
would require training at least 300 new judges.\221\ Moreover, 
early reports indicate that provincial-level high courts do not 
agree about which cases require court hearings under the law, 
or about the specific procedures that they should apply to 
hearings.\222\ The SPC has not yet issued a judicial 
interpretation to help settle unresolved issues in the death 
penalty review process and further clarify its own 
procedures.\223\
Harvesting of Organs From Executed Prisoners
    In July 2005, Huang Jiefu, Vice Minister of Health, became 
the first senior official to acknowledge that the majority of 
organs used in transplants in China originate from executed 
prisoners.\224\ Other officials maintain that organ harvesting 
is limited to a few cases in which the express consent of the 
condemned convicts has been obtained, and pursuant to strict 
legal regulations.\225\ In 2006, new reports from overseas 
medical and legal experts condemned the government's continuing 
practice of harvesting organs from executed prisoners without 
their consent.\226\
    Existing Chinese law legalizes the harvesting of organs 
from executed prisoners, but does not regulate the practice in 
a way that conforms to international standards. Under the World 
Health Organization's guiding principles on human organ 
transplantation, organ donations by prisoners, even when 
reportedly voluntary, may nonetheless violate international 
standards if the organs are obtained through undue influence 
and pressure, or if insufficient information prevents the donor 
from understanding the consequences of consent.\227\ Ministry 
of Health regulations that became effective on July 1, 2006, 
include new medical standards for organ transplants in 
China.\228\ These regulations do not provide guidance, however, 
on what type of consent is required for taking organs from 
executed prisoners, and leave intact 1984 provisions that 
legalize organ harvesting if no one claims the prisoner's body 
for burial.\229\
Criminal Justice Exchanges
    Chinese scholars and officials continued to engage foreign 
governments and legal experts on a range of criminal justice 
issues during late 2005 and 2006. Chinese law enforcement 
agencies expressed a growing interest in cooperating with other 
countries to combat transnational crime,\230\ and in expanding 
cooperation with U.S. law enforcement agencies on money 
laundering, fighting terrorism, and other issues.\231\ Numerous 
international conferences and legal exchanges with Western 
NGOs, judges, and legal experts took place, including programs 
on public accountability, pretrial discovery, evidence 
exclusion, criminal trials and procedure, bail, capital 
punishment, prison reform, and other subjects.\232\ 
Participants in these programs encouraged more such 
exchanges.\233\
    The Chinese government continues to engage the 
international community on human rights and rule of law issues, 
including those related to the criminal justice system. The 
government hosted visits by the UN Special Rapporteur on 
Torture from November to December 2005\234\ and the UN High 
Commissioner for Refugees in March 2006.\235\ Both UN officials 
commended the Chinese government for its open attitude toward 
increased dialogue,\236\ but Manfred Nowak, UN Special 
Rapporteur on Torture, also reported that his work was 
monitored and obstructed by Chinese authorities.\237\ On May 9, 
2006, China was elected to serve for a three-year term on the 
newly established UN Human Rights Council.\238\ The 
government's application for membership in the Council noted 
that it has acceded to 22 international human rights accords, 
including five of the seven core conventions.\239\ In addition, 
the government reports that it plans to amend its Criminal, 
Civil, and Administrative Procedure Laws and reform the 
judiciary to prepare for ratification of the International 
Covenant on Civil and Political Rights.\240\ As a member of the 
new Council, the government has pledged to fulfill its 
obligations under the terms of these accords,\241\ and is 
obligated under the rules of the Council to submit to peer 
review of its human rights record.\242\

       V(c) Protection of Internationally Recognized Labor Rights


                                findings


        <bullet> The Chinese government does not respect the 
        internationally recognized right of workers to organize 
        their own unions. The All-China Federation of Trade 
        Unions (ACFTU), a Party-led mass organization, is the 
        only legal labor federation in China. It controls local 
        union branches and aligns worker and union activity 
        with government and Party policy. The ACFTU began a 
        campaign in March 2006 to establish union branches in 
        foreign enterprises doing business in China. Chinese 
        workers who attempt to form independent workers' 
        organizations, or whom the government suspects of being 
        leaders of such organizations, risk imprisonment. The 
        government secretly tried labor rights activist Li 
        Wangyang and sentenced him to 10 years' imprisonment in 
        September 2001 for staging a peaceful hunger strike. Li 
        had previously served most of a 13-year sentence for 
        organizing an independent union. In May 2003, the 
        government sentenced labor activist Yao Fuxin to a 
        seven-year prison term for peacefully rallying workers 
        to demand wage and pension arrearages from a bankrupt 
        state-owned enterprise. Li and Yao remain in prison.
        <bullet> Weak protection of worker rights has 
        contributed to an increase in the number of labor 
        disputes and protests. According to ACFTU figures, the 
        number of labor disputes rose sharply in 2005. The 
        ACFTU reports that there were 300,000 labor-related 
        lawsuits filed, a 20.5 percent increase over 2004 and a 
        950 percent increase compared to 1995. Strikes, 
        marches, demonstrations, and collective petitions 
        increased from fewer than 1,500 in 1994 to about 11,000 
        in 2003, while the number of workers involved increased 
        from nearly 53,000 in 1994 to an estimated 515,000 in 
        2003. Poor workplace health and safety conditions and 
        continuing wage and pension arrearages were the most 
        prominent issues resulting in labor disputes during the 
        past year. Chinese industry continues to have a high 
        accident rate, with death rates in the mining and 
        construction industries leading other sectors. 
        According to official statistics, 110,027 people were 
        killed in 677,379 workplace accidents through December 
        2005, and more than 10,000 workers died in the mining 
        and construction sectors during 2005.
        <bullet> Forced labor is an integral part of the 
        Chinese administrative detention system. Authorities 
        sentence some prisoners without judicial review to 
        reeducation through labor (laojiao) centers, where they 
        are forced to work long hours without pay to fulfill 
        heavy production quotas, and sometimes are tortured for 
        refusing to work. China's Labor Law prohibits forced 
        labor practices in the workplace, and authorities have 
        arrested employers who trap workers at forced labor 
        sites. In 2002, the Chinese government began to 
        cooperate with the International Labor Organization on 
        broad issues of concern regarding forced labor, 
        including on potential reforms to the reeducation 
        through labor system, and on improving institutional 
        capacity to combat human trafficking for labor 
        exploitation.
        <bullet> The use of child labor in some regions of 
        China is reportedly on the rise. Labor shortages in the 
        economically developed southern and eastern coastal 
        provinces are causing employers to turn to child 
        laborers, according to NGO reports. This development 
        coincides with intensified efforts by the Ministry of 
        Justice and the Ministry of Labor and Social Security 
        to fight the illegal employment of children, suggesting 
        that the government is more concerned about such abuses 
        than before. Government authorities consider statistics 
        on child labor that have not been officially approved 
        for release to be ``state secrets,'' and this policy 
        thwarts efforts to understand the extent and causes of 
        the problem.
        <bullet> In 2006, the U.S. and Chinese governments 
        continued to conduct a series of bilateral cooperative 
        activities on wage and hour laws, occupational safety 
        and health, mine safety and health, and pension program 
        oversight.
Internationally Recognized Labor Rights
    The Chinese government is committed through its membership 
in the International Labor Organization (ILO) to respect a 
basic set of internationally recognized labor rights for 
workers: the freedom of association and the right to collective 
bargaining, the elimination of forced labor, the abolition of 
child labor, and non-discrimination in employment and 
occupation. The ILO's Declaration on the Fundamental Principles 
and Rights at Work (1998 Declaration) commits ILO members ``to 
respect, to promote and to realize'' these fundamental rights 
based on ``the very fact of [ILO] membership.'' \1\ China is a 
founding member of the ILO, and has been a member of the ILO 
Governing Board since June 2002.\2\
    The ILO's eight core conventions provide guidance on the 
full scope of worker rights and principles enumerated in the 
1998 Declaration.\3\ Many ILO members have not ratified all of 
these core conventions, but each member is committed to respect 
the fundamental right or principle addressed in each.\4\ China 
has ratified four of the eight ILO core conventions, including 
two core conventions on the abolition of child labor (No. 138 
and No. 182) and two on non-discrimination in employment and 
occupation (No. 100 and No. 111).\5\ The ILO reports that the 
Chinese government is preparing to ratify the two core 
conventions on forced labor (No. 29 and No. 105).\6\
    Chinese labor law generally incorporates the basic 
obligations of the ILO's eight core conventions, with the 
exception of the provisions relating to the freedom of 
association and the right to collective bargaining.\7\ The 
Chinese government's failure to implement existing labor 
regulations, however, and the general lack of awareness 
regarding worker rights among citizens, renders most of the 
protective aspects of Chinese labor law ineffective. The 
administrative detention system prescribes forced labor as a 
punishment for those accused of ``minor crimes'' [see Section 
V(b)--Rights of Criminal Suspects and Defendants--
Administrative Detention],\8\ in contravention of the 1998 
Declaration, relevant ILO conventions,\9\ and Article 8 of the 
International Covenant on Civil and Political Rights 
(ICCPR).\10\
    In March 2001, the Chinese government ratified the 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR), which guarantees the right of workers to strike, the 
right of workers to organize independent unions, the right of 
trade unions to function freely, the right of trade unions to 
establish national federations or confederations, and the right 
of the latter to form or join international trade union 
organizations. The Chinese government took a reservation to 
Article 8(1)(a) of the ICESCR, which guarantees workers the 
right to form free trade unions. The government asserted that 
application of the article should be consistent with the 
Chinese Constitution and the Trade Union Law. The Trade Union 
Law does not allow for the creation of independent trade 
unions.\11\
 Freedom of Association
    The Chinese government does not respect the internationally 
recognized right of workers to organize their own unions. 
Article 22 of the International Covenant on Civil and Political 
Rights guarantees that ``[e]veryone shall have the right to 
freedom of association with others, including the right to form 
and join trade unions for the protection of his interests.'' 
The All-China Federation of Trade Unions (ACFTU), a Communist 
Party-led mass organization, is the only legal labor federation 
in China. It controls local union branches and aligns worker 
and union activity with government and Party policy.\12\ The 
Trade Union Law requires the ACFTU to ``uphold the leadership 
of the Communist Party.'' \13\ Wang Zhaoguo, the current ACFTU 
chairman, is a Politburo member, and the Party, not union 
members, selected him as ACFTU chairman.\14\ Article 10 of the 
Trade Union Law establishes the ACFTU as the ``unified national 
organization,'' and Article 11 mandates that all unions must be 
approved by the next higher-level union body, giving the ACFTU 
an absolute veto over the establishment of any local union and 
the legal authority to block the formation of independent 
workers' associations.\15\ Article 15 of the ACFTU constitution 
stipulates that the establishment of an ACFTU branch in a 
factory ``must be endorsed by its general membership or 
membership congress.'' \16\ Most workers, however, do not vote 
in union elections and most officials are appointed to their 
union posts.\17\
    Since 2004, ACFTU and Party officials have made major 
efforts to expand their control over non-unionized groups of 
workers. In 2004, the ACFTU announced the target of recruiting 
6.6 million workers per year from 2004 to 2008.\18\ It also 
launched a major recruitment drive aimed at migrant 
workers.\19\ Authorities permitted migrant workers to become 
union members for the first time in 2003, but ACFTU officials 
announced in 2006 that only 13.8 percent of the total migrant 
workforce has been ``unionized.'' \20\
    The ACFTU began a campaign in March 2006 to establish 
unions in foreign enterprises doing business in China, 
including Wal-Mart, Kentucky Fried Chicken, McDonald's, and 
Samsung.\21\ ACFTU officials noted in July that some 60 percent 
of the 500,000 foreign enterprises in China have not 
established ACFTU branches,\22\ and made the promotion of 
unions within foreign enterprises a priority for the second 
half of 2006.\23\ ACFTU Chairman Wang Zhaoguo proposed an 
amendment to the Trade Union Law on July 5 that would 
specifically require foreign enterprises to establish ACFTU-
affiliated unions.\24\ ACFTU pressure has led to the creation 
of some local branches in foreign enterprises doing business in 
China. In July and August, unions were established in 17 Wal-
Mart stores in China.\25\ The ACFTU's campaign to establish 
unions in foreign enterprises followed a March directive issued 
by top Party leaders ordering the establishment of Party 
committees and trade unions in foreign enterprises as a means 
to counter social unrest.\26\ Labor experts have noted that the 
ACFTU's 2006 efforts to expand the number of local branches in 
foreign enterprises is an effort to respond to declining ACFTU 
membership, increasing labor protests, efforts by Chinese 
workers to organize independent unions, and an increase in the 
percentage of the workforce composed of non-unionized migrant 
workers.\27\
    Some local authorities have experimented with using direct 
elections to choose the leaders of union branches, but Party 
authorities and higher-level ACFTU officials retain control 
over the selection and approval of candidates.\28\ ACFTU 
officials in Hubei province began an experimental program of 
direct elections for union officials in 2004, and issued a 
directive in July 2005 to implement the program on a province-
wide basis by 2009.\29\ The Hubei regulations provide that 
higher-level ACFTU officials and Party authorities are 
responsible for choosing the electoral leadership groups that 
determine candidate eligibility. These authorities also approve 
the specific proposals of individual union branches about how 
to conduct their direct elections.\30\
    Chinese workers who attempt to form independent workers' 
organizations, or whom the government suspects of being leaders 
of such organizations, risk imprisonment. The government 
secretly tried labor rights activist Li Wangyang and sentenced 
him to 10 years' imprisonment in September 2001 for staging a 
peaceful hunger strike. Li had previously served most of a 13-
year sentence for organizing an independent union.\31\ In May 
2003, the government sentenced labor activist Yao Fuxin to a 
seven-year prison term for rallying workers to demand payment 
of wage arrearages and pension benefits from a bankrupt state-
owned enterprise in Liaoning province.\32\ Yao reportedly 
suffers from serious medical problems resulting from his 
imprisonment.\33\ Li and Yao remain in prison.
Right to Collective Bargaining
    Chinese labor law does not prohibit collective bargaining, 
but the absence of independent unions to represent worker 
interests makes the concept of bargaining with employers on 
behalf of workers incompatible with the Chinese labor 
system.\34\ Trade union officials at the enterprise level 
function as part of the enterprise management structure for 
whom, according to three Western and Chinese labor experts, 
``the idea of representing and protecting the legitimate rights 
and interests of their members in opposition to those of the 
employer is something unfamiliar, if not totally alien.'' \35\ 
Although collective bargaining does not exist, trade union 
officials are permitted under Article 20 of the Trade Union Law 
to facilitate a process of ``equal consultations'' between 
workers and employers that can result in a ``collective 
contract.'' \36\ The Provisions on Collective Contracts, issued 
by the Ministry of Labor and Social Security (MOLSS) in January 
2004, detail the specific content which may be included, and 
the procedures for negotiating, such contracts.\37\ Once 
concluded, the collective contract is legally binding on both 
employer and employees, but the contract generally 
includes only the ``bare-boned reflections of labor statutory 
minimums,'' according to one Western scholar.\38\ Another group 
of Western and Chinese academics examining collective contracts 
and the consultation process concluded in 2004 that trade 
unions defer to the employer on any contentious issue. Both the 
union and the employer are reluctant to include any provisions 
in the collective contract that ``might subsequently provide 
grounds for a grievance or dispute.'' \39\ Collective contracts 
covered more than 103 million Chinese workers at the end of 
September 2005, out of a total urban labor force of around 250 
million.\40\ The majority of collective contracts are not 
actually negotiated, but rather model agreements endorsed by 
the employer and union without the direct involvement of 
workers.\41\ In addition, most collective contracts are 
``single-issue'' agreements, usually pertaining to wages, 
rather than comprehensive agreements covering all aspects of 
labor relations.\42\
    The Chinese labor dispute resolution process does not 
provide workers with meaningful union support to address 
workplace grievances. Labor disputes in China are channeled 
through the government's three-stage labor dispute resolution 
process: mediation, 
arbitration, and litigation.\43\ Workers enter the first stage 
of dispute resolution without union representation. Article 80 
of the Labor Law designates the union branch chief to serve as 
chair of the labor dispute mediation committee.\44\ As chair, 
the union official mediates on an equal basis between employer 
and employee, and does not represent the employee in the 
dispute. If mediation fails, either party may apply to an 
arbitration committee for a hearing.\45\ The high cost of 
arbitration discourages workers from applying. According to one 
National People's Congress (NPC) delegate, labor arbitration 
typically costs 420 yuan (US$52.39), about half the average 
monthly wage for Chinese workers.\46\ Workers who choose to 
arbitrate face other obstacles to achieving a fair outcome. 
Article 81 of the Labor Law designates a ``tripartite 
structure'' for the arbitration committee: the employer's 
representative, the union's representative, and the 
government's local labor bureau representative, who serves as 
chair.\47\ In effect, the local labor bureau representative, in 
consultation with two representatives from the enterprise 
management team, decides how to rule on a worker's 
complaint.\48\
    Chinese authorities currently are experimenting with 
reforms to the labor dispute resolution system. The Supreme 
People's Court issued a judicial interpretation on August 14 
that allows workers seeking to recover back wages to bypass the 
labor arbitration process and sue directly in court.\49\ Some 
authorities have supported the creation of arbitration 
tribunals, which are specialized sub-divisions of arbitration 
committees, to resolve labor disputes. Chinese news media 
reports note that the creation of these tribunals is an effort 
to make arbitration determinations ``more neutral'' by 
separating the administrative functions of the arbitration 
committees from hearing and deciding cases.\50\ These tribunals 
also conduct mediation in addition to their arbitration work. 
Shenzhen authorities created the first such tribunal in 
2001,\51\ and the MOLSS reported in May 2006 that Chinese 
authorities have since established 116 of the tribunals 
throughout China.\52\ Descriptions of the work responsibilities 
for some of the provincial tribunals emphasize that they should 
handle ``major,'' ``cross-provincial,'' or ``emergency'' 
events, suggesting that the tribunals may be focused on 
handling specifically designated, high-profile cases.\53\
    The courts are the final recourse for resolving labor 
disputes, pursuant to Article 83 of the Labor Law.\54\ The All-
China Federation of Trade Unions (ACFTU) reports that there 
were 300,000 labor-related lawsuits filed in 2005, a 20.5 
percent increase over 2004 and a 950 percent increase compared 
to 1995.\55\ Like arbitration, litigation costs are high, which 
``results in many workers being unable to afford a lawyer or to 
even bring the case to court,'' according to one Chinese legal 
scholar.\56\ The scholar 
recommended in December 2005 to the NPC Standing Committee that 
the NPC should enact a labor dispute resolution law that would 
allow courts to hear labor cases with simplified, less 
expensive procedures that better protect worker rights. The law 
should include evidentiary rules that do not discriminate 
against workers, the scholar said.\57\ She criticized the 
current three-stage process for labor dispute resolution as 
``more complex than the procedure for resolving regular civil 
disputes,'' and recommended that parties to certain types of 
labor disputes be able to choose to litigate directly without 
meeting the current precondition that parties first complete 
arbitration.\58\
Draft Labor Contract Law
    The National People's Congress (NPC) circulated a draft of 
a new Labor Contract Law for public comment in early 2006,\59\ 
the first law that would govern exclusively the establishment, 
revocation, and termination of labor contracts, and the rights 
of workers and employees who sign them.\60\ During the one-
month period for public comment, the NPC received over 190,000 
comments, and claimed that over 65 percent of these were 
submitted by Chinese workers.\61\
    Current Chinese law mandates labor contracts, but 
implementation and enforcement of this mandate have been poor. 
Chapter 3 of the Labor Law outlines the requirements and 
procedures for individual and collective labor contracts, and 
Article 16 mandates labor contracts between workers and 
employers.\62\ A recent NPC survey found that less than 20 
percent of small- and medium-size private enterprises use labor 
contracts.\63\ According to a survey published in 2006, 46 
percent of migrant workers did not have labor contracts with 
their employers.\64\ Current law is deficient in that the 
contractual relationship between enterprises and workers hired 
though labor contractors is not defined. The widespread use of 
both legal and illegal labor contractors results in numerous 
cases of non-payment, underpayment, or late payment of wages, 
especially in the construction sector. Moreover, when labor 
contractors fail to give contracts to the workers they hire and 
assign to enterprises, the workers often cannot prove a 
contractual relationship with the enterprise, which is the 
principal employer for whom they have performed the work.\65\
    The State Council compiled the draft Labor Contract Law for 
NPC consideration to increase the formation rate for written 
labor contracts. The draft law provides for a ``contractual 
relationship'' in situations where employers do not sign 
written contracts with their employees,\66\ and it standardizes 
labor contract rules and procedures in a way that ``tilts more 
toward workers,'' according to an All-China Federation of Trade 
Unions official.\67\ The Ministry of Labor and Social Security 
began a three-year effort, concurrent with consideration of the 
draft law, to compel all employers to sign labor contracts with 
their workers, as required under the existing Labor Law.\68\
    Some companies that have complied with Chinese labor 
contract regulations are concerned that the draft law includes 
provisions that would be both expensive and cumbersome to 
business owners,\69\ and would take away market-driven 
flexibility in hiring and firing.\70\ These provisions include 
a requirement that workers receive severance pay if fixed-term 
contracts expire and are not renewed, and a mandatory payment 
equaling an employee's annual salary to enforce non-compete 
agreements.\71\
    One article in the Chinese state-controlled media 
criticized portions of the proposed draft for being too weak, 
pointing out that it does not cover part-time workers or 
students engaged in work-study programs, that it fails to 
provide definitions for key terms such as ``technical'' and 
``non-technical'' positions, and that the sanctions it applies 
on employers who withhold workers' wages in bad faith do not 
exceed the requirements of existing labor regulations.\72\
 ACFTU Role in Protecting Worker Rights
    The careers of union leaders are tied to their rank in the 
Communist Party, and local union officials generally are 
recruited from enterprise management. This system compromises 
the ability and willingness of unions to defend worker rights 
when they conflict with Party or employer interests.\73\ 
Article 6 of the Trade Union Law calls on unions to ``represent 
and safeguard the legitimate rights and interests of workers,'' 
\74\ but in practice this directive means that unions help 
workers only in ways that do not conflict with government and 
Party policy, such as by managing welfare assistance programs 
for workers and organizing social events. Some local unions, 
however, have developed innovative programs to help workers, 
within the limits of government and Party policy. For example, 
the Tianjin Trade Union Council has developed new procedures to 
aid unemployed workers, monitor safety problems and accidents, 
and resolve employee-employer disputes.\75\
    Some national-level All-China Federation of Trade Unions 
(ACFTU) programs have had a positive impact on worker rights, 
while also maintaining consistency with government policy 
goals. ACFTU efforts in the past year to expand the 
availability of legal aid services to workers, and to improve 
worker knowledge of the dispute resolution process, are part of 
the central government's policy responses to Party concerns 
about growing social unrest\76\ [see Section VII(c)--Access to 
Justice]. According to news media reports from early 2006, 
nearly 4,000 legal aid offices were established by ACFTU 
branches in 2005. Provincial branches must establish a legal 
aid office by the end of 2006, but county branches have three 
years to do so.\77\ In 2005, the Shenzhen Federation of Trade 
Unions' legal aid efforts included outreach to ensure that 
workers understand their rights in cases of unlawful discharge, 
occupational injury, and compensation arrearages.\78\ In June 
2006, the ACFTU and the State Administration of Work Safety 
began a program to inspect mining, construction, and 
manufacturing worksites to ensure safe conditions for migrant 
workers.\79\
Elimination of Forced Labor
    Forced labor is an integral part of the Chinese 
administrative detention system [see Section V(b)--Rights of 
Criminal Suspects and Defendants--Administrative Detention]. 
Authorities sentence some prisoners without judicial review to 
reeducation through labor (RTL, or laojiao) centers, where they 
are forced to work long hours without pay to fulfill heavy 
production quotas, and sometimes are tortured for refusing to 
work.\80\ Prisoners in RTL centers have suffered physical 
injuries from extended periods of repetitive labor, and former 
prisoners report that fainting from exhaustion is common.\81\ 
The Chinese government continues to deny the International 
Committee of the Red Cross access to such centers.
    China's Labor Law prohibits forced labor practices in the 
workplace,\82\ and authorities have arrested employers who trap 
workers at forced labor sites. Article 96 of the Labor Law 
prohibits employers from ``compelling workers to work by the 
use of force, threat or by resorting to the means of 
restricting personal freedom,'' \83\ but only specifies light 
penalties for violators including a warning, fine, or 15 days 
in custody for the person in charge.\84\ Chinese press 
reports over the past year, however, have described some 
instances of overseers coercing workers to remain in factories 
or fields for work without pay, and beating or torturing those 
who try to 
escape.\85\
    In 2002, the Chinese government began to cooperate with the 
International Labor Organization (ILO) on broad issues of 
concern regarding forced labor, including potential reforms to 
China's RTL system, to prepare for the eventual ratification of 
the ILO's two conventions on forced labor.\86\ Since September 
2004, the ILO's Special Action Program to Combat Forced Labor 
has been working with the Chinese Ministry of Labor and Social 
Security to improve institutional capacity within China to 
address the law enforcement aspects of the trafficking cycle, 
and to assist employers' and workers' organizations in 
identifying cases of forced labor\87\ [see Section V(e)--Status 
of Women--Human Trafficking].
Prison Labor Products
    Section 307 of the Tariff Act of 1930 prohibits the import 
of goods made by prisoners into the United States.\88\ The 
United States and China signed a Memorandum of Understanding in 
1992 to prevent the import into the United States of prison 
labor products. A subsequent agreement in 1994 permits U.S. 
officials, with Chinese government permission, to visit prison 
facilities suspected of producing products for export to the 
United States.\89\ The U.S.-China Relations Act of 2000 created 
a Prison Labor Task Force to monitor and promote enforcement of 
U.S. law in this area.\90\ In 2005, the Chinese government 
cooperated with the Task Force to resolve a number of alleged 
cases of prison labor products being exported to the United 
States.\91\
    Although goods made in Chinese prisons probably do not 
constitute a large percentage of overall Chinese imports into 
the United States, the types of products produced by prisoners, 
and the commercialization of the Chinese prison system, make 
prison labor products difficult to detect. Many prison labor 
goods are produced under abusive conditions,\92\ and Chinese 
prisoners cannot refuse to produce goods for the commercial 
market.\93\ Although the term laogai, or reform through labor, 
has been expunged from the Criminal Law as a term describing 
one form of criminal punishment, Western and Chinese experts 
estimate the number of commercial prison factories in China to 
be in the thousands.\94\ One senior Chinese official expressed 
concern in 2004 about the commercial use of prison labor as a 
source of official corruption, and noted instances of prison 
administrators mixing prison-made goods with those from 
ordinary commercial enterprises.\95\
 Abolition of Child Labor
    The use of child labor in some regions of China is 
reportedly on the rise, according to analyses over the past 
year by NGOs with expertise on Chinese labor issues.\96\ State-
controlled media reported in June that the Ministry of Justice 
and the Ministry of Labor and Social Security intensified their 
efforts ``to fight illegal employment of child laborers,'' 
suggesting that the government is more concerned about such 
abuses than before.\97\ Article 15 of the Labor Law prohibits 
employing children under the age of 16, and Article 94 provides 
for punishment of businesses that employ children, including 
revocation of their business licenses.\98\ Chinese law bars 
employers from hiring juvenile workers between 16 and 18 years 
old to engage in mining, or highly strenuous or hazardous work, 
and requires employers to provide such workers with regular 
health inspections.\99\ The State Council issued a rule in 
September 2002 requiring employers to check identity cards to 
verify age, and imposing fines of 5,000 yuan (US$625) a month 
for each child laborer employed.\100\ Government authorities 
consider statistics on child labor that have not been 
officially approved for release to be state secrets, and this 
policy thwarts efforts to understand the extent and causes of 
the problem.\101\
    Labor shortages in the economically developed southern and 
eastern coastal provinces are causing employers to turn to 
child laborers, according to NGO reports.\102\ Hong Kong news 
media has reported on employers who exploit child labor by 
recruiting underage students to work in factories as 
``interns.'' In one press report, teachers at a school in 
Shaanxi province arranged for about 600 students to be employed 
in a joint venture electronics factory in southern China. At 
the time of the report, more than 240 students were working on 
the factory's assembly lines for up to 14 hours a day of 
``practical training.'' \103\ Although factory owners may 
legally employ interns, employers abuse internship programs 
when they rely on students as a large percentage of their 
workforce and do not pay them fairly for work performed, 
according to one publication on corporate social responsibility 
issues in China.\104\
    Hong Kong based experts have asserted that the Chinese 
education system is partly to blame for the problem of child 
labor because insufficient state funding, expensive local 
surcharges, and an excessive focus on college entrance exams 
leads many students to drop out of school.\105\ Poverty also 
leads to child labor abuses. Some poor families send children, 
frequently girls, to find work as a means of support.\106\ 
Other children work because their families cannot afford to pay 
school tuition fees, or because schools have hired them out to 
fill budget shortfalls.\107\
Non-discrimination in Employment and Occupation
    The Constitution, Labor Law, and Law on the Protection of 
Interests and Rights of Women all contain provisions that 
guarantee women non-discrimination in employment and 
occupation\108\ [see Section V(e)--Status of Women]. The Rules 
on Collective Contracts issued in December 2003 contain 
``special protections'' for women, including provisions on 
pregnancy and breastfeeding in the workplace.\109\ The Chinese 
government has also begun national development programs to 
improve the status of women.\110\ Despite these efforts and 
legal protections, both urban and rural women in China have 
limited earning power compared to men, and women lag behind men 
in finding employment in higher-wage urban areas.\111\
    Some local authorities provide job training and 
reemployment services for women,\112\ and civil society groups 
may advocate for women's rights within the confines of 
government and Party policy [see Section V(e)--Status of 
Women--Gender Disparities]. For example, the Center for Women's 
Law and Legal Services at Peking University submitted a 
petition in March 2006 to the National People's Congress (NPC) 
Standing Committee requesting constitutional review of a 
regulation that requires women workers to retire five years 
before men.\113\ The petition recommended that a future Chinese 
Pension Law include a provision for a flexible retirement 
system that allows both men and women to retire at or around 60 
years of age.\114\ As of August 2006, the NPC Standing 
Committee had not responded to the petition,\115\ and it has no 
legal obligation to do so [see Section VII(c)--Access to 
Justice--Constitutional 
Review].
    Article 4 of the Chinese Constitution prohibits ethnic 
discrimination,\116\ and Article 12 of the Labor Law forbids 
discrimination in job hiring on the basis of ethnicity.\117\ 
Nevertheless, ethnic discrimination continues to exist 
throughout China in both private and governmental hiring 
practices. Some Han Chinese entrepreneurs in ethnic minority 
areas recruit Han workers from other areas rather than hiring 
local minorities.\118\ Tibetans have reported discrimination in 
job hiring.\119\ According to the head of the Qinghai-Tibet 
railway construction project, 10,000 of 100,000 workers 
employed were Tibetan,\120\ and most of the Tibetan workers 
were employed in menial labor positions.\121\ In the Xinjiang 
Uighur Autonomous Region (XUAR), personnel decisions in 2005 
and 2006 explicitly favored Han Chinese over minorities. In 
April 2005, for example, the government specified that 500 of 
700 new civil service positions in the southern XUAR would be 
reserved for Han Chinese.\122\ In June 2006, the Xinjiang 
Production and Construction Corps announced it would recruit 
840 civil servants from the XUAR, designating almost all of the 
job openings for Han Chinese and reserving 38 positions for 
members of specified minority groups.\123\
Conditions for China's Workers
    Weak protection of worker rights has contributed to an 
increase in the number of labor disputes and protests. 
According to All-China Federation of Trade Unions (ACFTU) 
figures, the number of labor disputes rose sharply in 2005. The 
ACFTU reports that there were 300,000 labor-related lawsuits 
filed, a 20.5 percent increase over 2004 and a 950 percent 
increase compared to 1995.\124\ Strikes, marches, 
demonstrations, and collective petitions increased from 1,482 
in 1994 to about 11,000 in 2003, while the number of workers 
involved increased from 52,637 in 1994 to an estimated 515,000 
in 2003.\125\ Participants in all labor disputes rose from 
77,794 in 1994 to nearly 800,000 in 2003.\126\ Poor workplace 
health and safety conditions and continuing wage and pension 
arrearages were the most prominent issues resulting in labor 
disputes during the past year. Workers in all parts of China 
have difficulty collecting the wages that they are owed for 
work performed. Workers in the construction sector have the 
most problems with wage arrearages,\127\ and the continuing 
building boom, along with new construction for the 2008 
Olympics in Beijing, will challenge central and local 
governments to ensure that workers are paid promptly.
            Workplace Health and Safety Conditions
    Workplace health and safety conditions in China remain 
poor, despite central government statements about the need to 
improve safety and despite efforts at the enterprise level to 
cut the rate of industrial accidents. Chinese industry 
continues to have a high accident rate, with death rates in the 
mining and construction industries leading other sectors. 
According to State Administration of Work Safety (SAWS) 
statistics, 110,027 people were killed in 677,379 workplace 
accidents through December 2005, and more than 10,000 workers 
died in the mining and construction sectors during 2005.\128\
    The government has continued to take steps to address 
China's poor workplace safety record. In February 2006, SAWS 
ordered the closure of 35,842 companies that failed to meet a 
requirement to obtain safety licenses by the end of 2005, 
warning that it would 
ensure compliance by cutting off electric power to the 
companies' facilities.\129\ SAWS also announced in February 
2006 that the government is drafting legislation that would 
hold top provincial and city government and Party officials 
responsible for fatal accidents that result from lapses in 
workplace safety.\130\ Criminal Law amendments passed in June 
2006 strengthen punishments for work safety violation, 
including new penalties for personnel who hinder rescue efforts 
by covering up or failing to report accidents.\131\ In July, 
the government ratified a safety plan for the 11th Five-Year 
Program aimed at addressing major problems in workplace 
safety.\132\ In August, the government announced it would 
dedicate 467.4 billion yuan (US$58.81 billion) over the next 
five years to curb workplace accidents.\133\
    The Ministry of Health implemented a plan in May 2006 to 
improve rural migrant worker health that includes a number of 
goals for improving workplace health and safety conditions for 
migrant workers. These goals include implementing health and 
safety training and instruction programs in mid- and small-
scale businesses, and undertaking collaborative efforts with 
the World Health Organization and the International Labor 
Organization.\134\ Many migrant workers are employed in 
industries in which they are exposed to occupational diseases 
and other workplace safety hazards, according to an expert with 
the Chinese Center for Disease Control.\135\
            Occupational Health
    Occupational diseases and injuries are widespread in many 
Chinese industries. Estimates of the incidence rate of 
occupational diseases and injuries caused by chemicals, toxic 
fumes, and machinery vary and are difficult to confirm. For 
example, one Chinese press report estimates that 200 million 
workers suffer from occupational diseases.\136\ The SAWS 
officials who provided the estimate note that the number of 
workers suffering from occupational diseases is increasing, and 
describe the victims as mostly younger, poor workers.\137\
            Coal Mine Safety
    Deaths in the coal mining sector totaled 5,938 in 2005, 
according to official Chinese statistics,\138\ but some NGOs 
estimate that the number of deaths is much higher.\139\ A 
political scientist at the Chinese Academy of Social Sciences 
offered the view that ``China is so hungry for energy that safe 
coal produced by safe mines is not enough to quench its 
thirst.'' \140\ Press reports suggest that Chinese coal mines 
are the world's deadliest.\141\ Fires, explosions, and floods 
occur in Chinese mines almost daily.\142\ The government has 
set the modest goal of reducing coal mine deaths during 2006 by 
3.5 percent, but one workplace safety activist believes that 
``even this will take a great effort to realize.'' \143\
    Chinese officials have ordered the closure of dangerous 
mines, most of which are small, privately run mines, in an 
attempt to control the number of coal mine accidents.\144\ 
Small mines produce one-third of China's coal output, but are 
responsible for two-thirds of coal mine deaths.\145\ The 
government deems mines that produce under 30,000 tons per year 
as most vulnerable to accidents, and intends to close all such 
mines by the end of 2007.\146\ Most of these small mines are 
expected to merge administratively with larger mines with 
better safety records.\147\
    Pervasive official corruption impedes implementation of 
coal mine safety programs. Local officials often receive income 
from mines, and therefore are reluctant to enforce safety 
regulations that will affect production.\148\ In an August 2005 
circular, the State Council ordered the managers of state-owned 
enterprises and government officials to divest themselves of 
all financial interests in coal mines other than stock of 
publicly listed companies.\149\ By January 2006, official news 
media reported that more than 7,000 officials had given up 
investments in coal mines.\150\
    The government has prosecuted officials responsible for 
serious coal mine disasters. A December 2005 State 
Administration of Work Safety announcement described the 
prosecution and punishment of over 200 officials involved in 
six large coal mine disasters in 2004.\151\
            Wages
    Article 8 of the Provisions on Minimum Wages, issued by the 
Ministry of Labor and Social Security (MOLSS) in January 2004, 
charges provincial MOLSS authorities with drafting minimum wage 
rules in cooperation with provincial-level unions and 
industrial associations.\152\ In July 2006, the Shenzhen 
Special Economic Zone, which is not a provincial-level 
government, raised its minimum wage to 810 yuan per month 
(US$101).\153\ The previous minimum wage rate in Shenzhen had 
been the same as Jiangsu province and Shanghai municipality: 
690 yuan per month (US$86).\154\ At the lower end of the 
minimum wage scale are Gansu province at 340 yuan per month 
(US$43) and Jiangxi and Jilin provinces at 360 yuan per month 
(US$45).\155\
    Provincial governments in China are reluctant to review 
their minimum wage levels every two years, even though the 2004 
provisions require it.\156\ In March 2006, at least four 
provincial governments were out of compliance with the two-year 
rule, according to the MOLSS.\157\ Official news media suggests 
that provincial officials fear that higher minimum wages will 
force companies to relocate manufacturing facilities to 
provinces where wages are lower.\158\ A Xinhua editorial 
recommended that the central government develop a more clearly 
defined method to determine that the minimum wage is not 
artificially low, and monitor how local governments apply this 
method. An All-China Federation of Trade Unions official said 
in May that the minimum wage levels set by most provincial-
level governments did not meet national guidelines.'' \159\
            Wage Arrearages
    Employers illegally withhold or refuse to pay wages earned 
by millions of Chinese workers.\160\ Employers owe millions of 
migrant workers more than US$12 billion in unpaid wages, a 
problem that is particularly acute in the construction 
industry, which employs many migrant workers.\161\ Some 
employers make only minimal wage payments through the year in 
addition to providing room and board. Others withhold payments 
over the New Year holiday as a means of compelling workers to 
return.\162\ A State Council report estimates that employers do 
not pay about half of migrant workers on time.\163\
    Despite central government pledges beginning in 2003 to 
clear up wage arrearages for migrant workers in the 
construction sector, the problem persists. In some cases where 
the government has reported success in clearing arrearages, the 
workers have, in fact, accepted less than full pay in order to 
get any cash at all. Many wage arrearages also go unreported, 
and new arrearages continue to accumulate, despite the creation 
of programs to discourage them.\164\
    Some local governments have taken steps to help workers 
recover wages. In February 2006, the Shenzhen Labor and Social 
Security Bureau sanctioned 1,300 companies and imposed 47 
million yuan (US$5.8 million) in fines for not paying wages 
owed to workers. The Bureau reclaimed about 70 million yuan 
(US$8.6 million) in unpaid wages.\165\ Since July 2006, 
employers in Shaanxi province who have not met time limits set 
by the provincial government for paying back wages have been 
subject to fines totaling 50 to 100 percent of the 
arrearages.\166\ In 2005, the Guangdong Provincial Labor and 
Social Security Bureau began posting the names of companies 
that continued to default on wages after ``repeated education, 
warnings, or even heavy punishments.'' \167\ Although these 
programs are positive developments, they have not been highly 
successful.\168\
            Benefits
    Employers in China rarely comply with laws and regulations 
on benefits.\169\ In one 2004 study, a Western auditing firm 
found that only 5 of 80 Chinese factories surveyed were in 
compliance with benefits laws.\170\ Compliance problems 
included failure to grant workers paid vacations and failure to 
enroll workers in the social security system (including 
pensions).\171\ Companies also have failed to provide workers 
with medical benefits, including treatment for workplace 
injuries and maternity benefits.\172\ Some employers circumvent 
their obligation to provide benefits by refusing to sign labor 
contracts.\173\
    The State Council adopted a decision on basic old-age 
insurance in December 2005 with the stated goal of shifting 
Chinese pensions from an enterprise-based system to a market-
oriented system with personal accounts.\174\ The decision also 
seeks to address the underfunding of personal accounts, 
guarantee the short-term availability of pension funds, and 
expand coverage of the funds.\175\ One U.S. expert said, ``For 
this patchwork [of pensions], covering perhaps a sixth of the 
total Chinese workforce, the net present value of unfunded 
liabilities is estimated to exceed current GDP--perhaps 
substantially.'' \176\ Problems in the pension system spurred 
large-scale worker protests in 2005 and 2006.\177\
    The government announced plans in 2006 to expand coverage 
of on-the-job injury insurance to 140 million people by 
2010\178\ and said it would take compulsory measures to promote 
employer participation.\179\ As of April 2006, 87 million 
workers were covered, the government reported.\180\ In June, 
the Shanxi province government announced that all employers 
must provide injury insurance to migrant workers.\181\ By the 
end of July 2006, 18.7 million migrant workers nationwide had 
such insurance, according to government figures.\182\
U.S.-China Bilateral Programs
    The U.S. Department of Labor (DOL) and two Chinese 
government agencies continued to conduct cooperative activities 
during 2006 on wage and hour laws, occupational safety and 
health, mine safety and health, and pension program 
oversight.\183\ The DOL-sponsored mine safety program provided 
training to 55 Chinese mine managers and over 400 miners. Under 
the Labor Law Cooperation Project, four legislative drafters 
participated in internship programs in the United States to 
learn about legislative and labor law systems and enforcement 
practices. The project also produced information, education, 
and communication materials on labor law that were distributed 
to tens of thousands of Chinese workers. Under the project, 
2,437 migrant workers received labor law training, 380 workers 
received counseling services, and 24 were provided with legal 
assistance.\184\
    The DOL, in cooperation with central and local Chinese 
government agencies, completed five baseline surveys on labor 
dispute resolution that served as references for drafting a new 
Dispute Resolution Law, scheduled for consideration in August 
2006. In addition, the Project selected 15 diverse enterprises 
(including joint venture, foreign-owned, state-owned, small, 
medium, and large enterprises) to participate in a pilot 
project to improve labor relations. Training for some 80 
individuals began in April 2006 to establish and operate in-
plant labor-management committees. Trainees 
include officials from district labor dispute tribunals, 
company human resource directors, and workers from the 
enterprises.\185\
Migrant Workers
    Official statistics suggest 120 million rural migrants 
worked in China's urban cities in 2005.\186\ These migrant 
workers often face discrimination and violations of their legal 
rights. Over 81 percent of rural migrant workers currently work 
outside of their place of residence for more than six months 
out of the year, an increase of 6.4 percent compared to 2002, 
according to a State Council research report.\187\ Since many 
local regulations limit the ability of poor migrants to obtain 
local hukou (household registration) in the urban areas where 
they live and work, migrant workers are often unable to obtain 
public services such as health insurance and education for 
their children on an equal basis with urban residents [see 
Section V(i)--Freedom of Residence and Travel].
    Migrant workers also frequently have difficulties 
protecting their legal rights under China's labor laws. Fewer 
than 54 percent of rural migrant workers have signed labor 
contracts with their 
employers. Excessive work hours and unpaid wages are common 
problems.\188\ Over 35 percent of rural migrant workers report 
``sometimes'' having difficulty being paid on time, while 
nearly 16 percent say they ``frequently'' have problems being 
paid.\189\ Seventy-six percent of migrant workers report that 
they have not received overtime pay owed to them.\190\
    Chinese authorities have attempted to address the problems 
of migrant workers. The Ministry of Health announced a plan in 
May 2006 to improve the health of rural migrant workers. The 
plan includes goals for preventing and controlling the spread 
of HIV/AIDS among rural migrants, improving infectious disease 
monitoring capabilities in large urban areas with migrant 
workers, as well as improving workplace health and safety 
conditions for migrant workers.\191\ The central government has 
also included in its 2006 rural development campaign for a 
``new socialist countryside'' such components as reform of the 
hukou system, protection of the legal rights of migrant 
workers, and the elimination of discriminatory regulations that 
restrict urban job opportunities for migrants.\192\ In 2005, 
both Beijing municipal authorities and national Ministry of 
Labor and Social Security officials eliminated rules that limit 
employment in cities for migrants.\193\ Chinese authorities 
also have called for creating better mechanisms for addressing 
workers' claims for unpaid wages and for expanding workers' 
compensation insurance programs to cover migrants.\194\ The 
State Council's research report on migrant workers notes that 
despite central government policies regarding the abolition of 
discriminatory permits and fees for rural migrant workers, 
``the phenomenon of illegal charges continues to exist'' in 
some areas.\195\

                        V(d) Freedom of Religion


                                findings


        <bullet> Chinese government restrictions on the 
        practice of religion violate international human rights 
        standards. Freedom of religious belief is protected by 
        the Chinese Constitution and laws, but government 
        implementation of Communist Party policy on religion, 
        and restrictions elsewhere in domestic law, violate 
        these guarantees. The Chinese government tolerates some 
        aspects of religious belief and practice, but only 
        under a strict regulatory framework that represses 
        religious and spiritual activities falling outside the 
        scope of Party-sanctioned practice. Religious 
        organizations are required to register with the 
        government and submit to the leadership of ``patriotic 
        religious associations'' created by the Party to lead 
        each of China's five recognized religions: Buddhism, 
        Catholicism, Daoism, Islam, and Protestantism. Those 
        who choose not to register with the government, or 
        groups that the government refuses to register, operate 
        outside the zone of protected religious activity and 
        risk harassment, detention, imprisonment, and other 
        abuses. Registered communities also risk such abuse if 
        they engage in religious activities that authorities 
        deem a threat to Party authority or legitimacy.
        <bullet> The 2004 Regulation on Religious Affairs (RRA) 
        has not afforded greater religious freedom to Chinese 
        citizens, despite government claims that it represented 
        a ``paradigm shift'' by limiting state control over 
        religion. Like earlier local and national regulations 
        on religion, the RRA emphasizes government control and 
        restrictions on religion. The RRA articulates general 
        protection only for freedom of ``religious belief,'' 
        but not for expressions of religious belief. Like 
        earlier regulations, it also protects only those 
        religious activities deemed ``normal,'' without 
        defining this term. Although the RRA includes 
        provisions that permit registered religious 
        organizations to select leaders, publish materials, and 
        engage in other affairs, many provisions are 
        conditioned on government approval and oversight of 
        religious activities.
        <bullet> Chinese government enforcement of Party policy 
        on religion creates a repressive environment for the 
        practice of Tibetan Buddhism. Party policies toward the 
        Dalai Lama and Panchen Lama, the second-ranking Tibetan 
        spiritual leader, seek to control the fundamental 
        religious convictions of Tibetan Buddhists. Government 
        actions to implement Party policies caused further 
        deterioration in some aspects of religious freedom for 
        Tibetan Buddhists in the past year. Officials began a 
        patriotic education campaign in Lhasa-area monasteries 
        and nunneries in April 2005. Expressions of resentment 
        by Tibetan monks and nuns against the continuing 
        campaign resulted in detentions, expulsions, and an 
        apparent suicide. Chinese officials continue to hold 
        Gedun Choekyi Nyima, the boy the Dalai Lama recognized 
        as the Panchen Lama in May 1995, in incommunicado 
        custody along with his parents.
        <bullet> Tibetan Buddhist monks and nuns constituted 21 
        of the 24 known political detentions of Tibetans by 
        Chinese authorities in 2005, compared to 8 of the 15 
        such known detentions in 2004, based on data available 
        in the Commission's Political Prisoner Database. None 
        of the known detentions of monks and nuns in 2005 took 
        place in Sichuan province, a shift from the previous 
        three years, but known detentions of monks and nuns in 
        Qinghai and Gansu provinces increased during the same 
        period. Based on data available for 50 currently 
        imprisoned Tibetan monks and nuns, their average 
        sentence length is approximately nine years and six 
        months. In one positive development, the government 
        permitted the resumption of a centuries-old Tibetan 
        Buddhist tradition of advanced study that leads to the 
        highest level of scholarly attainment in the Gelug 
        tradition.
        <bullet> Government repression of unregistered Catholic 
        clerics increased in the past year. Based on NGO 
        reports, officials in Hebei and Zhejiang provinces 
        detained a total of 38 unregistered clerics in 13 
        incidents in the last year, while in the previous year 
        officials detained 11 clerics in 5 incidents. The 
        government targets Catholic bishops who lead large 
        unregistered communities for the most severe 
        punishment. Bishop Jia Zhiguo, the unregistered bishop 
        of Zhengding diocese in Hebei province, has spent most 
        of the past year in detention. Bishop Jia has been 
        detained at least eight times since 2004.
        <bullet> Government harassment and abuse of registered 
        Catholic clerics also increased in the past year. In 
        November and December 2005, three incidents were 
        reported in which officials or unidentified assailants 
        beat registered Catholic nuns or priests after they 
        demanded the return of church property. In April and 
        May 2006, officials began a campaign to increase 
        control over registered Catholic bishops. Officials 
        detained, sequestered, threatened, or exerted pressure 
        on dozens of registered Catholic clerics to coerce them 
        into participating in the consecration of bishops 
        selected by the state-controlled Catholic Patriotic 
        Association but not approved by the Holy See.
        <bullet> Government authorities also restricted contact 
        between registered clergy and the Holy See, denying 
        bishops permission to travel to Rome in September 2005 
        to participate in a meeting of Catholic bishops. 
        Authorities continued to permit some registered priests 
        and nuns to study abroad.
        <bullet> The Chinese government strictly controls the 
        practice of Islam. The state-controlled Islamic 
        Association of China aligns Islamic practice to Party 
        goals by directing the training and confirmation of 
        religious leaders, the publication of religious 
        materials, the content of sermons, and the organization 
        of Hajj pilgrimages, as well as by indoctrinating 
        religious leaders and adherents in Party ideology and 
        government policy.
        <bullet> The government severely represses Islamic 
        practice in the Xinjiang Uighur Autonomous Region 
        (XUAR), especially among the Uighur ethnic group. Local 
        regulations in the XUAR impose restrictions on religion 
        that are not found in other parts of China. The 
        government's religious repression in the XUAR is part 
        of a broader policy aimed at diluting expressions of 
        Uighur identity and tightening government control in 
        the region. The government continues to imprison 
        Uighurs who engage in peaceful expressions of dissent 
        and other non-violent activities. Writer Nurmemet Yasin 
        and historian Tohti Tunyaz remain in prison for writing 
        a short story and conducting research on the XUAR.
        <bullet> The Chinese government continues to repress 
        Chinese Protestants who worship in house churches. From 
        May 2005 to May 2006, the government detained nearly 
        2,000 house church members, according to one U.S. NGO. 
        Almost 50 percent of the reported detentions of 
        Protestant house church members and leaders took place 
        in Henan province, where the house church movement is 
        particularly strong. In June 2006, Pastor Zhang 
        Rongliang, the leader of one of China's largest house 
        churches, was sentenced to seven years and six months 
        in prison for 
        ``illegally crossing the national border'' and 
        ``fraudulently obtaining a passport.'' Authorities have 
        detained or imprisoned Pastor Zhang multiple times 
        since 1976. Pastor Gong Shengliang is serving a life 
        sentence in declining health, and was beaten in prison 
        during the past year.
        <bullet> The Chinese government continues to maintain 
        strict control over the registered Protestant church. 
        The RRA requires that all Protestants worship at 
        registered churches, regardless of their differences in 
        doctrine and liturgy. The state-controlled Three-Self 
        Patriotic Movement, which leads the registered 
        Protestant church in China, continues to impose a 
        Party-defined theology, called ``theological 
        construction,'' on registered seminaries that is 
        intended to ``weaken those aspects within Christian 
        faith that do not conform with the socialist society.'' 
        In the past year, authorities detained a registered 
        Protestant pastor in Henan province for conducting a 
        Bible study meeting at a registered Protestant church 
        outside his designated geographic area.
        <bullet> The Chinese government continues to disrupt 
        the relationships that many house churches maintain 
        with co-religionists outside China, including raiding 
        meetings between house church leaders and overseas 
        Protestants, and preventing foreign travel by house 
        church leaders. The Chinese government also continues 
        to restrict and monitor the ties of the registered 
        Protestant Church with foreign denominations.
        <bullet> Government persecution of the Falun Gong 
        spiritual movement continued during the past year. 
        Authorities use both criminal and administrative 
        punishments to punish Falun Gong practitioners for 
        peacefully exercising their spiritual beliefs. The 
        state-controlled press has reported on at least 149 
        cases of Falun Gong practitioners currently in prison, 
        but Falun Gong sources estimate that up to 100,000 
        practitioners have been detained since 1999. Manfred 
        Nowak, UN Special Rapporteur on Torture, reported after 
        his November 2005 visit to China that Falun Gong 
        practitioners account for two-thirds of victims of 
        alleged torture by Chinese law enforcement officers. 
        Tsinghua University student Wang Xin was sentenced to 
        nine years' imprisonment in 2001 for downloading Falun 
        Gong materials from the Internet and printing leaflets.
        <bullet> Despite strict government controls on the 
        practice of religion, Chinese authorities accommodate 
        the social programs of Buddhist, Daoist, Catholic, 
        Muslim, and Protestant communities when these programs 
        support Party goals. For example, domestic Muslim civil 
        society organizations carry out social welfare 
        projects, and international Muslim charities have 
        supported projects in Gansu and Shaanxi provinces, as 
        well as in the XUAR. The Amity Foundation, affiliated 
        with the registered Protestant Church, sponsors 
        projects in social services and development aid, 
        including education, healthcare, and care for the 
        elderly.
Introduction
    Chinese government restrictions on the practice of religion 
violate international human rights standards.\1\ Freedom of 
religious belief is protected by the Chinese Constitution\2\ 
and laws,\3\ but government implementation of Communist Party 
policy on religion, and restrictions elsewhere in domestic law, 
violate these guarantees. Although Party doctrine acknowledges 
the presence of religion in Chinese society, the Party's 
central tenets remain at odds with religion.\4\ The Party 
promotes atheism among Chinese citizens, and has continued 
efforts to dismiss religious believers from its ranks.\5\
    The government acknowledges only five belief systems as 
religions entitled to legal protection: Buddhism, Catholicism, 
Daoism, Islam, and Protestantism. While the State 
Administration for Religious Affairs (SARA) has established an 
office to oversee religions and folk beliefs other than these 
five,\6\ legal protections are restricted to these five in 
practice,\7\ with only limited exceptions.\8\ Some local 
regulations also restrict legal protections to these five 
religions.\9\ Religious organizations affiliated with 
recognized religions must register with the government and 
apply for government approval to establish churches, mosques, 
temples, or other religious venues. The government claims that 
citizens do not need official approval to conduct worship 
services in private homes ``mainly 
attended by relatives and friends for religious activities such 
as praying and Bible reading,'' \10\ but no national law or 
regulation specifically protects worship at home,\11\ and 
authorities have shut down services held in private homes.\12\
    The Chinese government tolerates some aspects of religious 
belief and practice, but only under a strict regulatory 
framework that represses religious and spiritual activities 
falling outside the scope of Party-sanctioned practice. The 
government's policies create a hierarchy of religious 
communities subject to different forms of government control. 
The government and Party exercise control over registered 
religious communities through the ``patriotic religious 
associations'' created by the Party to lead each recognized 
religion.\13\ The patriotic associations ensure that religious 
doctrine conforms to state policy by controlling such matters 
as the training of religious leaders, contacts with religious 
groups outside China, the 
interpretation of religious texts, the content of sermons, and 
the publication of religious materials.\14\ Despite such 
controls, a visiting delegation from the U.S. Commission on 
International Religious Freedom found that the government 
nonetheless provides a ``zone of toleration'' for registered 
religious communities acting within the parameters set by the 
government.\15\ Religious adherents also have reported being 
able to worship in authorized venues without direct government 
interference.\16\ Those who choose not to register with the 
government, or groups that the government refuses to register, 
operate outside the zone of protected religious activity and 
risk harassment, detention, imprisonment, and other abuses. 
Members of approved organizations also risk harassment, 
detention, imprisonment, and other abuses if they engage in 
religious activities that authorities deem a threat to Party 
authority or legitimacy.
    Legal protections for freedom of religion are narrow. By 
stating only that ``religious belief'' is under constitutional 
protection,\17\ the Constitution does not broadly protect the 
exercise of religion, including public expressions of belief. 
Instead, the Constitution and Chinese laws and regulations 
provide protection only for ``normal religious activity.'' Laws 
and regulations do not clearly define what constitutes ``normal 
religious activity,'' and this vague term is subject to 
arbitrary interpretation by implementing officials.\18\
    Officials interpret and implement domestic laws and 
policies on religion inconsistently, resulting in uncertainty 
among religious believers about potential government actions. 
Such inconsistencies have led to additional restrictions in 
practice beyond those specified in law. In some cases, regional 
variations in implementation have resulted in more official 
tolerance for religion, and in unregistered groups being 
allowed to operate.\19\ In a few cases, local authorities have 
registered groups affiliated with a religion not recognized by 
the central government, as well as groups that are part of a 
recognized religion but have not affiliated with a patriotic 
religious association.\20\ In other cases, however, variations 
in implementation have resulted in official abuses and 
repression of religious activities.
    Although the SARA acknowledges and manages some ``folk'' 
beliefs, the government does not give them the same protections 
as recognized religions, despite widespread practice throughout 
China. The government tolerates some practices associated with 
``folk'' religions,\21\ but also designates some other popular 
practices as ``feudal superstitions,'' which it denounces and 
in some cases penalizes.\22\
    The government does not recognize spiritual movements as 
belief systems protected under the law, and in some cases, the 
government persecutes practitioners. The government designates 
some spiritual movements, such as the Falun Gong, as ``cults'' 
and applies criminal and administrative punishments against 
them.\23\ In 2006, the government continued its campaign of 
persecution against Falun Gong members.
    Foreign residents or visitors may conduct worship services 
for foreign members of their own religious communities,\24\ and 
foreign faith-based NGOs operate in China.\25\ National rules 
governing 
foreigners' religious activities forbid them, however, from 
``cultivating followers from among Chinese citizens,'' 
distributing ``religious propaganda materials,'' and carrying 
out other missionary 
activities.\26\
Regulation on Religious Affairs
    The 2004 Regulation on Religious Affairs (RRA)\27\ has not 
afforded greater religious freedom to Chinese citizens, despite 
government claims that it represented a ``paradigm shift'' by 
limiting state control over religion.\28\ Like earlier local 
and national regulations on religion,\29\ the RRA emphasizes 
government control and restrictions on religion. The RRA 
articulates general protection only for freedom of ``religious 
belief,'' \30\ but not for expressions of belief. Like earlier 
regulations, it also protects only those religious activities 
deemed ``normal,'' \31\ without defining this term. Although 
the RRA includes provisions that permit registered religious 
organizations to select leaders, publish materials, and engage 
in other affairs, many provisions are conditioned on government 
approval and oversight of religious activities.\32\
    Party doctrine guides implementation of the RRA. The 
Party's United Front Work Department continues to administer 
religious matters alongside the government's religious affairs 
bureaus,\33\ and in doing so, ensures that the RRA is 
implemented in line with Party directives. During 2006, local 
authorities cited Party policy as a guiding influence when 
addressing religious issues and implementing the RRA.\34\
    The RRA and related regulations\35\ subject religious 
communities to onerous and arbitrary registration requirements 
that give the government discretion to deny recognition to 
religious communities. Like earlier regulations,\36\ the RRA 
requires religious groups to apply for approval from the 
government to operate as an organization or to establish a 
venue for religious activities.\37\ Among other requirements, a 
group must have 50 or more members to apply for recognition as 
an official organization.\38\ Once recognized, religious 
organizations must fulfill conditions such as demonstrating a 
``necessity to frequently carry out collective religious 
activities'' to gain permission to build a venue for religious 
activities.\39\
    The RRA's protections for religious activities are limited. 
Although the RRA states that it protects the ``lawful rights 
and interests'' of religious believers, it does not 
specifically protect individual public displays of religious 
belief, which is a protected component of religious freedom 
under international human rights standards.\40\ In addition, it 
requires collective religious activities ``in general'' to be 
conducted at registered venues\41\ and does not specify that 
religious believers or religious members of a family may 
practice a 
religion within their own homes, although some local 
regulations appear to permit this practice.\42\
    International human rights standards define freedom of 
religion to include the ``freedom to prepare and distribute 
religious texts or publications.'' \43\ While the RRA provides 
that authorized religious organizations and venues may compile 
and print materials for internal and public distribution, the 
RRA requires such publications to be prepared in accordance 
with national regulations.\44\ The Chinese government imposes 
strict prior restraints on religious literature in national 
regulations that go beyond restrictions on other types of 
publications\45\ [see Section V(a)--Special Focus for 2006: 
Freedom of Expression].
    The RRA provides for government oversight of the 
appointment of religious personnel. Although the RRA permits 
authorized religious organizations to select religious 
personnel, it requires them, in most cases, to report this 
selection to the local religious affairs bureau.\46\ In 
addition, the RRA singles out the appointment of reincarnated 
Tibetan Buddhist lamas and Catholic bishops for reporting to 
higher levels of government, and in the case of reincarnated 
Tibetan Buddhist lamas, appointments require government 
approval.\47\
    The RRA provides administrative penalties, ranging from 
fines to the possibility of administrative detention, for 
violations of its provisions.\48\ While it sanctions government 
officials who abuse their authority when administering 
religious policy,\49\ it is unclear whether this provision 
protects unregistered organizations and venues that lack legal 
standing. The RRA directs most of its provisions on legal 
liability at ordinary citizens, religious organizations, or 
venues that violate its provisions.\50\ Some of the RRA's 
penalties are absent in earlier regulations. For example, the 
RRA for the first time proscribes Hajj pilgrimages that are 
organized without government authorization and subjects 
violators to fines.\51\
    The RRA also represents a codification, and in some cases 
expansion, of limited protections for authorized religion found 
in older regulations on religion. For example, the RRA permits 
registered religious organizations and venues to engage in 
social welfare activities, as earlier local regulations have 
allowed.\52\ It also permits registered religious organizations 
and venues to accept contributions from abroad,\53\ while 
previous regulations have not granted this permission in such 
explicit terms.\54\ The RRA specifies time limits for 
decisionmaking by government agencies, and permits 
administrative appeal of actions and decisions by religious 
affairs 
bureaus.\55\
    At the same time, the RRA lacks some of the restrictions 
found in earlier regulations. For example, the RRA does not 
specify that only the five recognized religions are protected, 
and does not reinforce the authority of patriotic religious 
associations by naming them, as in the case of some local 
regulations.\56\ Some observers suggest that the omission of 
previous controls, coupled with vague language within the RRA, 
may signify more tolerance toward religion.\57\ Without further 
clarification, however, such omissions and wording do not grant 
new rights. Moreover, the RRA's vague 
language, including the lack of a definition of ``normal 
religious activity,'' generates inconsistent interpretations 
not only in the implementation of the RRA itself but also in 
the drafting of new local regulations.
    The RRA does not mention the status of local 
regulations.\58\ Since the RRA entered into force, however, at 
least six provincial-level governments have issued new or 
amended comprehensive regulations on religion. These 
regulations are generally consistent with the RRA with respect 
to provisions on establishing religious organizations and 
venues,\59\ but differ in other areas. For example, a new 
regulation from Henan province restricts the term ``religion'' 
to Buddhism, Daoism, Islam, Catholicism, and Protestantism.\60\ 
In April 2005, the Shanghai municipal government amended its 
1995 regulation on religious affairs to remove a previous 
reference to the five recognized religions.\61\ All of the new 
and amended regulations appear to provide citizens with a 
degree of permission to practice an authorized religion at 
home, but the wording of each regulation on this issue 
varies.\62\ The amended Shanghai regulation expands its 
previous section on legal liability, increasing both penalties 
and protections for religious believers;\63\ the Henan 
regulation contains the most detailed provision on the 
liability of government officials.\64\
Other Developments
    In December 2005, the government announced the 
establishment of the China Religious Culture Communication 
Association (CRCCA), which it described as a non-profit social 
organization designed to promote religious exchanges, 
cooperation with other countries, and the dissemination of 
information about religion in China. Ye Xiaowen, Director of 
the State Administration for Religious Affairs (SARA), leads 
the association. CRCCA honorary chairman Bishop Fu Tieshan, 
Vice Chairman of the Standing Committee of the National 
People's Congress and Chairman of the Catholic Patriotic 
Association, called the association's establishment 
``beneficial for accurately publicizing China's policies on 
freedom of religious belief and the real state of affairs for 
religious belief.'' \65\
    The government adopted measures during 2005 that provide 
freer access to information on religious regulations and to 
religious sites that charge admission. The SARA launched a Web 
site on December 1, 2005, that posts religion-related news and 
regulations, bringing greater transparency to the 
administration of religious affairs.\66\ The government also 
issued a circular in December 2005 requiring that religious 
sites charging admission to tourists must provide free entrance 
to religious adherents, although Chinese journalists 
investigating the circular in January 2006 found that 
implementation was inconsistent.\67\
Religious Freedom for Tibetan Buddhists
    Chinese government enforcement of Communist Party policy on 
religion creates a repressive environment for the practice of 
Tibetan Buddhism. The Party tolerates religious activity only 
within the strict requirements of the Chinese Constitution, 
laws, regulations, and policies.\68\ The government interprets 
and enforces these requirements in a manner that interferes 
with the Tibetan Buddhist monastic education system and 
discourages devotion to the Dalai Lama and other important 
Tibetan Buddhist teachers who live in exile.\69\
    Party polices toward the Dalai Lama and Panchen Lama, the 
second-ranking Tibetan spiritual leader, seek to control the 
fundamental religious convictions of Tibetan Buddhists. 
Government actions to implement Party policies caused further 
deterioration in some aspects of religious freedom for Tibetan 
Buddhists during the past year. Officials began a patriotic 
education campaign in Lhasa-area monasteries and nunneries in 
April 2005.\70\ The Chinese government and the Party mandate 
patriotic education as a recurrent feature of religious 
education to indoctrinate Tibetans on the relationship between 
religion and patriotism toward China, and to end the Dalai 
Lama's influence among Tibetans. Monks and nuns must pass 
examinations on political texts,\71\ agree that Tibet is 
historically a part of China, accept the legitimacy of the 
Panchen Lama installed by the Chinese government, and denounce 
the Dalai Lama.
    In May 2006, Zhang Qingli,\72\ Secretary of the Tibet 
Autonomous Region (TAR) Party Committee, called on senior 
government and Party officials to widen the patriotic education 
campaign to include a broader population, and to intensify the 
``rectification'' and 
restructuring of each monastery and nunnery's Democratic 
Management Committee (DMC),\73\ according to the TAR Party 
newspaper.\74\ Zhang told the officials that the Party is 
engaged in a ``fight to the death struggle'' against the Dalai 
Lama and his supporters, and that the Dalai Lama is ``the 
biggest obstacle hindering Tibetan Buddhism from establishing 
normal order.'' Comprehensive implementation of the Regulation 
on Religious Affairs (RRA)\75\ will lead to the ``normalization 
of religious order'' and the ``standardization of religious 
activity,'' Zhang said. Li Guangwen, Executive Vice Chairman of 
the TAR People's Congress Standing Committee, stressed ``the 
need to step up legislative work in the area of the anti-
separatism struggle and the management of religious affairs'' 
\76\ at a meeting of Standing Committee members, probably in 
early June. In August, Zhang confirmed the Party's plans to 
broaden patriotic education in an interview with Western media: 
``We are organizing patriotic education everywhere, not just in 
monasteries. Those who do not love their country are not 
qualified to be human beings.'' \77\
    Expressions of resentment by Tibetan monks and nuns against 
the continuing campaign resulted in detentions, expulsions, and 
an apparent suicide. At Sera Monastery, when monks were to be 
tested on patriotic education in July 2005, officials 
reportedly expelled 18 monks, of whom police detained 8.\78\ At 
about the same time, public security officials detained monk 
Tsering Dondrub and subjected Jangchub Gyaltsen, a Sera 
``disciplinarian,'' \79\ to one year of surveillance\80\ for 
their roles in arranging an oral reading of a prayer that 
mentioned the Dalai Lama.\81\ Drepung Monastery monk Ngawang 
Jangchub apparently committed suicide in October 2005, after he 
argued with patriotic education instructors.\82\ Public 
security officials detained five Drepung monks (Abbot Ngawang 
Phelgyal, Ngawang Namdrol, Ngawang Nyingpo, Ngawang Thubten, 
and Phuntsog Thubwang) on November 23 after they refused 
instructions from patriotic education instructors to sign a 
document denouncing the Dalai Lama as a splittist, pledging 
loyalty to the Chinese government, and agreeing that Tibet is 
part of China.\83\ On November 25, some 400 monks gathered in 
Drepung's main courtyard and protested together silently 
against the patriotic education campaign and the accompanying 
crackdown.\84\ Authorities threatened to remove them by force 
and sealed the monastery for two days.\85\ Officials conducting 
patriotic education at Gyabdrag Nunnery in June 2005 expelled 
more than 40 nuns, and authorities expelled 13 nuns from 
Shugsib Nunnery.\86\
    In December 2005, the government and Party stepped up a 
campaign to challenge the Dalai Lama's role as the spiritual 
leader of Tibetan Buddhists by increasing the prominence of 
Gyaltsen Norbu, the boy the State Council installed in 1995 as 
the 11th Panchen Lama.\87\ An official Chinese report on the 
10th anniversary of Gyaltsen Norbu's installation referred to 
him as ``the highest ranking figure in Tibetan Buddhism'' and 
``the leader of Tibetan Buddhism.'' \88\ Chinese news media 
reports that rank Gyaltsen Norbu above the Dalai Lama, however, 
contradict previous official statements about the relationship 
between the Dalai Lama and Panchen Lama. In November 1995, Li 
Ruihuan, then a senior Politburo member, described the late 
10th Panchen Lama\89\ as ``a prominent leader of China's 
Tibetan Buddhism,'' \90\ and a 1992 Chinese government White 
Paper described the 10th Panchen Lama as the ``co-leader of 
Tibetan Buddhism with the Dalai Lama.'' \91\
    Gyaltsen Norbu demonstrated support of the Party's 
policy\92\ to merge Tibetan Buddhism with patriotism toward 
China when he pledged at a December 2005 ceremony to be ``a 
good living Buddha who loves his motherland, his religion, and 
serves his country and its people.'' \93\ A week later, he 
concluded a Buddhist ritual at the tombs of his predecessors by 
saying that he would ``live up to the expectations of the 
Chinese Communist Party and the central government.'' \94\ 
Gyaltsen Norbu made his first appearance before an 
international gathering at the First World Buddhist Forum in 
Hangzhou city, Zhejiang province, on April 13, 2006.\95\ He 
told some 1,000 monks, nuns, and scholars from more than 30 
countries that, ``Defending the nation and working for the 
people is a solemn commitment Buddhism has made to the nation 
and society.'' \96\ The forum's organizers\97\ did not allow 
the Dalai Lama, Tibetan Buddhism's foremost representative, to 
attend. Qi Xiaofei, Deputy Director of the State Administration 
of Religious Affairs (SARA) told reporters on April 12 that the 
Dalai Lama is a stubborn secessionist who would ``surely pose a 
really disharmonious note'' if he had been invited.\98\
    Chinese officials continue to hold Gedun Choekyi Nyima, the 
boy the Dalai Lama recognized as the Panchen Lama in May 1995, 
in incommunicado custody along with his parents.\99\ After the 
Dalai Lama announced his recognition of Gedun Choekyi Nyima, 
Chinese officials took the then six-year-old boy and his 
parents into custody. The State Council declared the Dalai 
Lama's announcement ``illegal and invalid'' \100\ and installed 
Gyaltsen Norbu, whose appointment continues to stir widespread 
resentment among Tibetans. The UN Committee on the Rights of 
the Child recommended in September 2005 that the Chinese 
government ``allow an independent expert to visit and confirm 
the well-being'' of Gedun Choekyi Nyima.\101\ In an official 
response to the UN Special Rapporteur on Freedom of Religion or 
Belief in September 2005, Chinese officials claimed that Gedun 
Choekyi Nyima is leading a ``normal, happy life and receiving a 
good cultural education.'' \102\
    The Party intends to strengthen its authority over Tibetan 
Buddhism by controlling the selection of the religion's most 
important leaders, including the Dalai Lama. Party officials 
assert that the next Dalai Lama will be selected in the same 
manner as Gyaltsen Norbu: by drawing a name from a golden urn. 
In July 2005, Jampa Phuntsog (Xiangba Pingcuo), Chairman of the 
TAR government, referred to the Dalai Lama's advancing age and 
told reporters that the next Dalai Lama will be identified by 
``the traditional rules of Tibetan Buddhism since the Qing 
dynasty.'' \103\ He denied that the Party interferes in the 
process.\104\ In 1995, however, Party Central Committee member 
and State Councilor Luo Gan, who is now a Politburo Standing 
Committee member, presided when Gyalsten Norbu's name was 
pulled from a golden urn.\105\ Jampa Phuntsog's comment about 
``the traditional rules of Tibetan Buddhism'' refers to a 1792 
Qing Dynasty edict demanding that the Tibetan government in 
Lhasa reform religious, administrative, economic, and military 
practices to suit the Qing court.\106\ The first of the edict's 
29 articles directed that the Dalai Lama and Panchen Lama be 
selected by drawing lots from a golden urn, and that a high-
ranking Chinese official must be present to confirm the result. 
Tibetans used their own methods, however, to identify the 
current Dalai Lama and his predecessor.\107\ Article 27 of the 
Regulation on Religious Affairs issued in 2004 includes the 
principle of the Qing directive by requiring that the 
identification of reincarnated lamas be performed in accordance 
with ``religious ritual and historic conventions'' and be 
subject to government approval.\108\
    Tibetan Buddhist monks and nuns constituted 21 of the 24 
known political detentions of Tibetans by Chinese authorities 
in 2005, compared to 8 of the 15 such known detentions in 2004, 
based on data available in the Commission's Political Prisoner 
Database (PPD) as of August 2006. This increased proportion in 
part reflects monks imprisoned for expressing their resentment 
of the patriotic education campaign. None of the known 
detentions of monks and nuns in 2005 took place in Sichuan 
province, a shift from the previous three years,\109\ but known 
detentions of monks and nuns in Qinghai and Gansu provinces in 
2005 increased during the same period.\110\ Tibetan monks and 
nuns make up about 70 percent of the 103 currently detained or 
imprisoned Tibetan political prisoners, according to PPD data. 
Thirty-two of the monks and nuns were detained or imprisoned in 
the TAR, 22 in Sichuan province, 12 in Qinghai province, and 6 
in Gansu province. Based on data available for 50 currently 
imprisoned Tibetan monks and nuns, their average sentence 
length is approximately nine years and three months. Several 
monks reportedly detained during patriotic education in Lhasa 
in 2005 remain unidentified and these figures do not reflect 
their cases.\111\
    In one positive development, the government permitted the 
resumption in July 2004\112\ of a centuries-old Tibetan 
Buddhist tradition of advanced study that leads to the highest 
level\113\ of scholarly attainment in the Gelug tradition.\114\ 
A small number of lamas successfully completed the program in 
2005 and 2006.\115\ Tibetan human rights monitors pointed out 
that even advanced lamas are required to study political texts 
promoting patriotism toward China,\116\ but also noted that the 
resumption of the program is a ``welcome gesture.'' \117\ 
Chinese authorities shut the program down in 1966 at the start 
of the Cultural Revolution, and did not allow it to resume 
until 1986.\118\ Officials closed it again in March 1988 after 
Tibetan monks staged a peaceful pro-independence protest march 
in central Lhasa.\119\
Religious Freedom for China's Catholics and China-Holy See Relations
    Government repression of unregistered Catholics increased 
in the past year.\120\ Based on NGO reports, officials in Hebei 
and Zhejiang provinces detained a total of 38 unregistered 
clerics and 90 unregistered laypersons in 13 incidents during 
the past year, while the preceding year officials detained 11 
clerics in 5 incidents.\121\ Twelve of the 13 detention 
incidents reported since October 2005 occurred in Hebei 
province, where the unregistered Catholic community is 
particularly strong.\122\ The other reported detention incident 
occurred in Zhejiang province.\123\ Officials in Fujian 
province demolished an unregistered Catholic church in 
September.\124\
    The government targets Catholic bishops who lead large 
unregistered communities for the most severe punishment. The 
government has detained Bishop Jia Zhiguo, the unregistered 
bishop of Zhengding diocese in Hebei province, at least eight 
times since 2004.\125\ Bishop Jia has spent most of the past 
year in detention. The government detained Bishop Jia from 
November 2005 to April 2006, when officials released him into 
residential surveillance.\126\ In May 2006, officials admitted 
Bishop Jia to the hospital for medical treatment, releasing him 
the following month into detention at an unknown location.\127\ 
Su Zhimin, the unregistered bishop of Baoding diocese in Hebei 
province, was detained in October 1997, and the government has 
refused to provide any information about his health or 
location.\128\ Su's auxiliary bishop, An Shuxin, was released 
after 10 years' detention in August 2006. An reportedly agreed 
to register with the government but not with the state-
controlled Catholic Patriotic Association (CPA).\129\
    Government harassment and abuse of registered Catholic 
clerics also increased in the past year. In November and 
December 2005, three incidents were reported in which officials 
or unidentified 
assailants beat registered Catholic nuns or priests after they 
had demanded that local governments return church property. In 
November 2005, officials beat a group of registered Catholic 
nuns in Tongyuan village, Shaanxi province.\130\ Also in 
November, unidentified assailants beat a group of registered 
Catholic nuns in Xi'an city, Shaanxi province.\131\ In December 
2005, unidentified assailants beat a group of registered 
Catholic priests in Tianjin municipality.\132\ A Catholic news 
service reported additional incidents in which officials beat 
registered priests in Hebei province, but supplied no 
details.\133\ The recent increase in reports of violence toward 
registered clergy contrasts sharply with the situation between 
2000 and 2004, during which there were no such reports. The 
same period was marked by a relative relaxation of control over 
registered bishops.\134\
    In the beating incidents in Tongyuan, Xi'an, and Tianjin, 
the nuns or priests sought to recover property that had once 
belonged to Catholic dioceses or religious orders and that 
local governments had confiscated during the 1950s and 
1960s.\135\ In violation of a 1980 State Council directive, 
local officials had refused to return the properties.\136\ One 
NGO reported that local governments in Xi'an and Tianjin have 
rented or sold church properties to third parties and retained 
the income.\137\ Incidents like these have 
occurred elsewhere in China.\138\
    In April and May 2006, officials began a campaign to 
increase control over registered Catholic bishops, coercing 
bishops and priests to participate in episcopal consecrations 
not approved by the Holy See, and demanding that registered 
bishops uphold the government's authority to select bishops. 
Since the 1950s, the government has insisted that the Holy See 
lacks the authority to 
select Chinese bishops, and the state-controlled Catholic 
Patriotic Association (CPA) has selected bishops for the 
registered Church.\139\ Nevertheless, the registered Catholic 
community has increasingly acknowledged the spiritual 
leadership of the Holy See, and Catholic bishops and news 
agencies outside China have reported that, in recent years, the 
CPA has accepted the Holy See's discreet involvement in the 
selection process. Most or all recently consecrated registered 
bishops had been approved by the Holy See before their 
consecration.\140\
    In April 2006, however, officials detained, sequestered, 
threatened, or otherwise exerted pressure on dozens of 
registered Catholic clerics to coerce them into participating 
in the consecration of bishops selected by the CPA but not 
approved by the Holy See. On April 30 and May 3, a group of 
registered bishops consecrated two new bishops who had not been 
approved by the Holy See.\141\ The CPA installed the new 
bishops in episcopal sees in Kunming city, Yunnan province, and 
Wuhu city, Anhui province. The CPA also installed a bishop, who 
was consecrated in 2000 without the approval of the Holy See, 
in the see of Mindong diocese in Fujian province.\142\ On May 
19, the CPA convened a meeting of 18 registered bishops 
involved in recent episcopal consecrations and demanded they 
uphold the CPA's authority to select bishops without seeking 
approval from the Holy See.\143\ On May 27, CPA officials 
announced their refusal to recognize a bishop in Shaanxi 
province, a former registered priest who was consecrated by a 
registered bishop without the approval of the CPA, but with the 
approval of the Holy See. Officials forbade him to act as a 
bishop, harassed him for several months, and on September 11 
detained him at an unknown location.\144\
    Although a generation of elderly bishops has been passing 
away, the CPA has been slow to approve candidates for the 
registered sees. Over 40 registered dioceses had no bishops in 
April 2006.\145\ Because no priests were ordained during the 
Cultural Revolution period in the 1960s and 1970s, new bishops 
must be selected from priests in their thirties and early 
forties.\146\ Government officials and the Holy See are 
competing for the loyalty of the new bishops, since many who 
will be selected in the next few years are likely to be young 
men who will govern the Church into the distant 
future.\147\
    The Holy See has not approved the consecration of new 
bishops for the unregistered community since 1999.\148\ In 
October 2005, an authoritative Vatican periodical recommended 
that the Holy See should unite the unregistered and registered 
communities by continuing its policy of approving the 
consecration of bishops only for the registered community.\149\ 
According to the proposal, as the unregistered bishops pass 
away, Holy See-approved registered bishops would become the 
sole point of reference for both communities. As a result of 
reports from authoritative Catholic sources abroad that most 
registered bishops have been legitimated or approved by the 
Holy See, unregistered Catholics increasingly have accepted 
Catholics practicing in the registered church.\150\
    Government authorities restricted contact between 
registered clergy and the Holy See over the past year. In 
September 2005, the CPA denied bishops permission to travel to 
Rome to participate in a meeting of Catholic bishops.\151\ 
Since 2005, authorities have required registered clergy to 
report on their activities on a weekly basis.\152\ Authorities 
continued to permit some registered priests and nuns to study 
abroad, including in the United States. Authorities also 
permitted the continued development of the registered 
community's Catholic social service agencies, and new 
charitable groups have reportedly been founded.\153\
    The Chinese government has not altered its longstanding 
public position that the Holy See must break relations with 
Taiwan and renounce its role in the selection of Chinese 
bishops before the 
government will open formal talks on establishing diplomatic 
relations.\154\ After the election of Pope Benedict XVI, the 
Chinese government reiterated its desire for diplomatic 
relations with the Holy See, but the tone of these public 
statements became progressively cooler during late 2005.\155\ 
In February 2006, the government responded to the elevation to 
the College of Cardinals of Bishop Zen Ze-kiun of Hong Kong by 
warning him to stay out of politics.\156\ In April 2006, Ye 
Xiaowen, Director of the State Administration for Religious 
Affairs, said that the issue of whether the CPA or the Holy See 
has the authority to select Catholic bishops ``may be open to 
consultation.'' \157\ Church figures, however, interpreted the 
government's coerced consecration of bishops without Holy See 
approval in April and May as a diplomatic rebuff to the Holy 
See.\158\ In June, Chinese government officials met with Holy 
See representatives in Beijing, although the meeting reportedly 
yielded few concrete results.\159\
Religious Freedom for China's Muslims
    The Chinese government strictly controls the practice of 
Islam. The state-controlled Islamic Association of China\160\ 
aligns Islamic practice to Communist Party goals by directing 
the training and confirmation of religious leaders, the 
publication of religious materials, and the content of sermons, 
as well as by indoctrinating religious leaders and adherents in 
Party ideology and government policy.\161\ The Regulation on 
Religious Affairs acknowledges that Muslims may make 
pilgrimages abroad but limits such trips to those organized by 
the Islamic Association of China\162\ and penalizes those 
organizing pilgrimages without authorization.\163\ In May 2006, 
the Islamic Association of China announced it would establish 
an office to manage pilgrimages to Mecca.\164\ In 2005, the 
Association's Islamic Affairs Steering Committee, which 
controls the content of religious publications, announced that 
it was compiling a fourth edition of its ``new collected 
sermons,'' noting that messages on patriotism and unity within 
the text contribute to building a ``socialist harmonious 
society.'' \165\ In May 2006, the China Islamic Congress, which 
met to define the goals of the Islamic Association for the 
coming five years, passed a measure on confirming religious 
personnel that requires knowledge of the sermons.\166\
    Official policy toward Islam reflects government and Party 
concern about maintaining control over, and stability within, 
China's Muslim population, which includes 10 ethnic groups 
under the government's classification system.\167\ In November 
2005, the government said it was formulating national 
legislation to regulate halal foods, in part because of 
concerns that misuse of the halal label could ``influence 
ethnic unity and social stability, and harm ethnic relations.'' 
\168\ After Muslims protested the publication of materials that 
they found offensive to Islam, the government issued a national 
circular in 1993 requiring strict examination of publications 
that ``touch upon the Islamic religion'' in order to ``uphold 
social stability'' and avoid ``hurting the feelings of 
religious believers.'' \169\ A 1995 national circular on 
pilgrimages abroad requires provincial-level authorities to 
instruct pilgrims before departure on patriotism, socialism, 
``defending the unity of the motherland,'' and ethnic 
unity.\170\
    The government accommodates Muslim communities in certain 
respects. Outside the Xinjiang Uighur Autonomous Region (XUAR), 
some Muslim communities and mosques have openly set up schools 
to provide children and adults with secular and religious 
education.\171\ Domestic Muslim NGOs carry out social welfare 
projects,\172\ and international Muslim charities have 
supported projects in Gansu and Shaanxi provinces, as well as 
in the XUAR.\173\
Islam in the Xinjiang Uighur Autonomous Region
    The Chinese government severely represses Islamic practice 
in the Xinjiang Uighur Autonomous Region (XUAR), especially 
among the Uighur ethnic group.\174\ Some restrictions on 
religion in the XUAR are not found elsewhere in China. The 
XUAR's 1993 Implementing Measures for the Law on the Protection 
of Minors forbid parents and guardians to allow minors to 
engage in religious activity.\175\ No other provincial-level or 
national regulation on minors or religion contains this 
restriction.\176\ Amendments\177\ in 2001 to the XUAR's 1994 
Regulation on the Management of Religious Affairs eliminated a 
clause that protected ``normal religious activities,'' and 
limited the publication of religious materials to provincial-
level religious organizations.\178\ Internal policy directives 
and handbooks also control the practice of religion in the 
region.\179\ One Chinese official said, ``Xinjiang is different 
from other places in China. Islam is administered much more 
strictly there than elsewhere.'' \180\
    In addition to these formal legal strictures, the 
government also implements harsh policies in practice. 
Authorities have detained Muslims for unauthorized possession 
and study of religious materials,\181\ forbidden students and 
discouraged adults from fasting during Ramadan,\182\ barred 
university students from conducting prayers in dormitory 
rooms,\183\ posted signs forbidding children from entering 
mosques,\184\ and revoked the credentials of imams deemed not 
to uphold Communist Party policy.\185\ The government limits 
the ability of Muslim communities in the XUAR to support social 
welfare programs.\186\ A visiting U.S. delegation in 2005 was 
told that the government has not authorized Uighurs to build 
new mosques since 1999.\187\
    The government continued severe repression of religious 
practice in the XUAR during 2006, including a reported new 
restriction on who may enter mosques. According to one report, 
authorities now have included women in restrictions on mosque 
entry already 
enforced against children, Party members, and government 
workers, including retirees.\188\ Another report stated in 
January that authorities were conducting a month-long 
investigation aimed at ``the masterminds of religious extremist 
forces'' and other groups.\189\ In February, authorities raided 
a minority-language publishing market and confiscated 350 
``illegally printed'' religious posters.\190\ During the same 
month, official news media reported that XUAR authorities had 
confiscated 9,860 illegal publications involving religion, 
Falun Gong, or ``feudal superstitions'' during 2005.\191\ In 
April, Wang Lequan, XUAR Party Secretary, said that the XUAR 
government would intensify its work on religion and called for 
``resolutely curb[ing] illegal religious activities'' and 
strengthening the ``ideological and political consciousness'' 
of religious figures.\192\
    The government uses counterterrorism policies as a pretext 
for severely repressing religion in the XUAR.\193\ The 
government describes security conditions in the XUAR in a 
manner that suggests terrorist attacks continue in the 
region,\194\ even as official sources indicate that no 
terrorist attacks have taken place in the XUAR since 1999.\195\ 
Authorities continue to detain and arrest XUAR residents 
engaged in religious activities deemed unauthorized and have 
charged them with a range of offenses, including state security 
crimes.\196\ The government targets ``religious extremism,'' 
splittism, and terrorism in anti-crime campaigns, calling them 
the ``three evil forces.'' \197\ The government began 
tightening control over religious practice in the region in the 
early 1990s, following unrest in the region, but intensified 
its crackdown after September 11, 2001.\198\ Official sources 
published in 2001 recorded an increase in the number of Uighurs 
sent to prison or reeducation through labor centers since the 
mid-1990s because of religious 
activity.\199\
    The government's religious repression in the XUAR is part 
of a broader policy aimed at diluting expressions of Uighur 
identity and tightening government control of the region. The 
government promotes Han migration to the XUAR, claiming it is 
necessary to foster ``social stability,'' ``ethnic unity,'' and 
the ``unity of the state,'' \200\ and has staffed top 
government and Party positions with high numbers of ethnic Han 
Chinese [see Section V(c)--Protection of Internationally 
Recognized Labor Rights--Non-discrimination in Employment and 
Occupation].\201\ In January and February 2006, the XUAR 
government acknowledged that migrants contribute to the 
region's high population growth rate, even as it announced 
plans to direct its population planning measures at controlling 
birth rates in impoverished ethnic minority regions.\202\ The 
government also announced plans throughout the year to promote 
language programs that decrease the use of ethnic minority 
languages in XUAR schools and preschools.\203\ The government 
continues to imprison Uighurs who engage in peaceful 
expressions of dissent and other non-violent activities. 
Foreign news media reported in November 2005 that Korash 
Huseyin, editor of the Kashgar Literature Journal, received a 
three-year sentence for publishing writer Nurmemet Yasin's 
story ``Wild Pigeon.'' \204\ Yasin received a 10-year sentence 
in February 2005 for ``inciting splittism.'' Other Uighurs 
engaged in peaceful activities, including Tohti Tunyaz, 
Abdulghani Memetemin, and Abduhelil Zunun, remain in 
prison.\205\ In addition, since Uighur activist Rebiya Kadeer's 
2005 release into exile in the United States, the government 
has continued to harass her relatives in the XUAR.\206\ In June 
2006, authorities charged Alim, Ablikim, and Qahar Abdurehim, 
three of Kadeer's sons, with state security and economic 
crimes.\207\ Authorities beat Alim and Ablikim, and in early 
July, Alim confessed to the charges against him after 
reportedly being tortured.\208\ The local procuratorate 
indicted Alim and Qahar on July 10.\209\ Authorities also have 
placed other family members under house arrest and 
surveillance.\210\
Religious Freedom for China's Orthodox Christians
    The Chinese government has not officially recognized its 
small and slowly reawakening Orthodox Christian community, nor 
has it accommodated its need for priests and bishops.\211\ In 
recent years, Chinese officials have met with representatives 
of the Russian Orthodox Church to discuss these issues.\212\ 
The central government has not recognized Orthodoxy as a 
religion, as many had hoped after the 2004 Regulation on 
Religious Affairs omitted mention of the government's five 
recognized religions. The provincial regulations of 
Heilongjiang and Inner Mongolia, however, have recognized 
Orthodoxy, and some other localities have published documents 
that appear to recognize Orthodoxy while including it under the 
category of Protestantism.\213\ Local authorities have not 
accepted the registration of any Orthodox parishes other than 
the four that were registered before 2005 in Harbin city, 
Heilongjiang province, Labdarin city, in the Inner Mongolia 
Autonomous Region, and Ghulja and Urumqi cities, in the 
Xinjiang Uighur Autonomous Region (XUAR).\214\ In the XUAR, 
authorities have reportedly advised Orthodox Christians not to 
communicate with foreigners.\215\ The Chinese government has 
not permitted Chinese Orthodox priests trained in Russia to 
minister to Chinese Orthodox, who still have no priests to 
conduct divine liturgy and administer sacraments.\216\
Religious Freedom for China's Protestants
    The Chinese government continues to repress Chinese 
Protestants who worship in house churches. According to reports 
from a U.S. NGO that monitors religious freedom in China, 
officials raided house church services or meetings, and 
detained and questioned leaders and members.\217\ Although 
public security officials held most of those whom they detained 
in such raids for short periods, they held house church leaders 
for more extended periods, sometimes for weeks or months.\218\ 
Officials also reportedly tortured or physically abused some of 
the house church detainees.\219\ Officials confiscated personal 
property belonging to house church leaders and members, and 
officials also detained foreign missionaries who provided 
training to house church leaders.\220\
    From May 2005 to May 2006, the government detained nearly 
2,000 house church members, according to the same U.S. 
NGO.\221\ Almost 50 percent of the reported detentions of 
Protestant house church members and leaders took place in Henan 
province, where the Protestant house church movement is 
particularly strong.\222\ Detentions were also reported in 
Beijing municipality and in Anhui, Hubei, Jiangsu, Jilin, 
Shandong, Shanxi, Sichuan, Yunnan, and Zhejiang provinces, and 
in the Xinjiang Uighur Autonomous Region (XUAR).\223\ In 
addition, officials demolished a large house church in Hangzhou 
city, Zhejiang province, and beat hundreds of house church 
members. Municipal officials had denied repeated requests for 
permission to build a church.\224\
    The government targets house church leaders for the most 
severe punishment. In November 2005, officials convicted Cai 
Zhuohua, a house church pastor in Beijing, of ``illegal 
operation of a business'' for printing and giving away Bibles 
without government authorization\225\ [see Section V(a)--
Special Focus for 2006: Freedom of Expression]. The court 
sentenced Cai to three years' imprisonment. Xiao Yunfei and 
Xiao Gaowen, his wife and brother-in-law, were sentenced to 
shorter terms.\226\ House church pastors Liu Yuhua and Wang 
Zaiqing also reportedly printed Bibles without permission, and 
in 2006 officials detained the former and formally arrested the 
latter.\227\ In December 2004, officials arrested Zhang 
Rongliang, a leader of the China for Christ house church 
network in Henan province, and several months later charged him 
with ``illegally crossing the national border'' and 
``fraudulently obtaining a passport.'' \228\ In June 2006, 
Pastor Zhang was sentenced to seven years and six months in 
prison.\229\ Officials convicted Gong Shengliang, founder of 
the South China Church in Hubei province, of premeditated 
assault and rape in 2001. Gong continues to serve a sentence of 
life in prison in Hubei province, although nine of the 
government's witnesses against him have recanted their 
testimony, alleging that their testimony was extracted under 
torture [see Section V(b)--Rights of Criminal Suspects and 
Defendants--Torture and Abuse in Custody]. In 2006, Gong's 
daughters reported that he is in poor health, and that another 
inmate beat Gong in prison. His lawyers have applied for his 
release on medical parole.\230\
    Chinese authorities have banned some house churches as 
``cults,'' and harassment and repression of unregistered 
Protestants for involvement in ``cults'' became more prominent 
in mid-2006. Religious practitioners involved in what the 
government classifies as a ``cult'' are subject to prosecution 
under Article 300 of the Criminal Law. On five occasions in 
June and July 2006, officials reportedly accused or 
investigated house church members for involvement in ``cults'' 
(xiejiao).\231\ In July 2006, Xu Shuangfu and 15 additional 
leaders of the Three Grades of Servants house church, which was 
banned as a ``cult'' in 1999, were convicted on charges of 
murder and fraud.\232\
    The Chinese government continues to maintain strict control 
over the registered Protestant church. The Regulation on 
Religious Affairs (RRA) requires that all Protestants worship 
at registered churches,\233\ regardless of their differences in 
doctrine and liturgy. The state-controlled Three-Self Patriotic 
Movement (TSPM), which leads the registered Protestant church 
in China, does not allow Protestants to express these 
differences freely.\234\ The TSPM continues to impose a 
Communist Party-defined theology, called ``theological 
construction,'' on registered seminaries that, according to 
TSPM leader Ding Guangxun, will ``weaken those aspects within 
Christian faith that do not conform with the socialist 
society.'' \235\ TSPM publications indicate that the aspects to 
be weakened include fundamental Protestant beliefs, such as 
justification by faith alone.\236\ TSPM publications also 
contain indications that some Chinese Protestants resist 
``theological construction,'' and that this resistance may be 
gaining in strength.\237\ In the past year, one instance was 
reported in which officials detained a 
registered Protestant pastor in Henan province, when the pastor 
conducted a Bible study meeting at a registered Protestant 
church outside his designated geographic area.\238\ The Henan 
provincial Regulation on Religious Affairs requires visiting 
registered 
religious personnel to secure permission from both the 
religious 
organization in their designated geographic area and the 
religious organization in the area they propose to visit.\239\ 
A TSPM official in the XUAR, where Protestantism is spreading 
rapidly among the Han Chinese population, has reportedly said 
that, although several years ago children used to attend 
church, authorities now have forbidden this throughout the 
region.\240\ A foreign expert who has done extensive research 
on the TSPM has said that authorities have been ``siphoning off 
the church's main source of revenue--rental income.'' \241\
    The Chinese government continues to restrict the 
relationships of unregistered Chinese Protestants with their 
co-religionists abroad, in contravention of international human 
rights standards.\242\ House church Protestants reported that 
authorities raided meetings 
between house church leaders and Protestants visiting China to 
conduct theological or organizational training.\243\ Officials 
have prevented some house church leaders from traveling abroad, 
and imprisoned others upon their return.\244\ Senior government 
officials continue to incite suspicion of overseas Christians 
by accusing them of ``religious infiltration'' intended to 
weaken China. Press reports have associated Protestantism with 
``foreign imperialism'' and warn that Protestantism must be 
``patriotic'' and not harm China.\245\ Despite these 
restrictions, Chinese house churches have become increasingly 
interested in theological and denominational issues,\246\ and 
major house church networks continued to have regular contacts 
with each other and with Protestants abroad.\247\
    The government also restricts and monitors the foreign 
relationships of the registered Protestant church. Although the 
government permits the TSPM to maintain contact with foreign 
denominations and educational institutions, and to conduct 
exchanges with interdenominational Protestant organizations 
abroad, it strictly regulates these contacts and limits them to 
the TSPM's top leadership.\248\ Registered churches, however, 
continue to receive financial support from abroad, a right 
protected by Article 35 of the RRA.\249\
    The number of reported house church and registered 
Protestants in China continued to increase in the past 
year.\250\ Foreign estimates of the total number of Protestants 
range from 30 million to 100 million. Official Chinese 
estimates exclude those who worship in unregistered house 
churches.\251\ In response to the rapid growth in the numbers 
of unregistered house churches, the government has instructed 
registered churches to hold home services.\252\ According to 
some reports, Protestants constitute a significant proportion 
of the religious practitioners within the Communist Party.\253\ 
An internal Party study found that of some 60 million Party 
members, 20 million engage in religious activities (9 million 
do so regularly), and that a majority of them are 
Christians.\254\ In October 2005, Party leaders concluded that 
this high level of religious practice will ``change the 
ideology of Party members and lead to the disintegration of 
their political belief . . . and this will create all kinds of 
social and political crises in the Party and in the country.'' 
The same leaders also called for all religious adherents to be 
expelled from the Party.\255\ Party members in Liaoning 
province and certain members of the Party Central Committee in 
Beijing reportedly expressed their disagreement with this 
policy, and said that it is time to permit Party members to be 
believe in and practice a religion.\256\
    The government continues to welcome some of the effects and 

influences of Protestantism, specifically those that support 
the 
Party's societal goals. Chinese Protestants report that many 
local officials believe that religious influence reduces 
criminality and contributes to social welfare.\257\ The 
government continues to welcome social service projects 
undertaken by the Amity Foundation, a Protestant foundation 
that recently sponsored projects in social services and 
development aid, including education, healthcare, and care for 
the elderly.\258\ A U.S.-based NGO plans to open the first 
private university with an openly Christian mission in China 
since 1949.\259\ A growing number of urban entrepreneurs who 
have become Protestants use their influence to protect and 
promote their religious communities.\260\ Likewise, a growing 
number of urban intellectuals who have joined the house church 
movement advocate for political and legal reform in China.\261\
Government Persecution of Falun Gong
    Government persecution of Falun Gong practitioners, which 
began in 1999 after thousands of practitioners demonstrated 
peacefully outside the senior leadership compound in 
Beijing,\262\ continued during the past year. Falun Gong and 
other sources reported cases of arrest, abuse, detention, 
torture, and execution of practitioners in 2005 and 2006.\263\ 
Based on official Chinese government information, at least 202 
Falun Gong practitioners are currently in prison.\264\ Falun 
Gong sources estimate that since 1999, at least 6,000 
practitioners have been sentenced to prison, over 100,000 
practitioners have been sentenced to reeducation through labor 
(RTL), and almost 3,000 Falun Gong practitioners have died from 
torture while in custody.\265\ Manfred Nowak, UN Special 
Rapporteur on Torture, reported after his November 2005 visit 
to China that Falun Gong practitioners account for 66 percent 
of victims of alleged torture while in government custody.\266\ 
Multiple allegations of government-sanctioned organ harvesting 
from Falun Gong prisoners surfaced in 2006. The U.S. State 
Department investigated one set of charges, but was unable to 
confirm them.\267\ A former senior Canadian government official 
provided transcripts of telephone calls to detention facilities 
and transplant centers in China, where officials there 
confirmed the availability of organs from Falun Gong 
prisoners.\268\ [See Section V(b)--Rights of Criminal Suspects 
and Defendants--Harvesting of Organs from Executed Prisoners.]
    Chinese government persecution of Falun Gong practitioners 
contravenes the standards in Article 18 of the International 
Covenant on Civil and Political Rights (ICCPR).\269\ Article 
18(1) of the ICCPR guarantees everyone ``the right to freedom 
of thought, conscience, and religion . . . [and] to manifest 
his religion or belief in teaching, practice, worship, and 
observance.'' Article 18(3) specifies that ``freedom to 
manifest one's religion or beliefs may be subject only to such 
limitations as are prescribed by law and are necessary to 
protect public safety, order, health, or morals or the 
fundamental rights or freedoms of others.'' \270\ The Chinese 
government justifies its persecution of Falun Gong on the 
grounds that it is necessary to protect public safety, order, 
and morals, an argument based on Article 36 of the 
Constitution.\271\ The UN Working Group on Arbitrary Detention 
(UNWGAD), however, has rejected this argument. In 2004, the 
UNWGAD found the detention of Falun Gong practitioner Qiu 
Minghua arbitrary, and added that the Chinese government had 
``failed to adduce any argument explaining why and how Ms. 
Qiu's affiliation with, or profession of, the ideas or 
principles of Falun Gong was or could have been detrimental to 
the society as a whole, or to other individuals.'' \272\
    Article 300 of the Criminal Law\273\ and Article 27 of the 
newly enacted Public Security Administration Punishment 
Law\274\ provide the legal pretext for penalizing Falun Gong 
activities. Public security officials punish the majority of 
detained Falun Gong practitioners administratively, including 
by detaining them in RTL centers.\275\ [See Section V(b)--
Rights of Criminal Suspects and 
Defendants--Administrative Detention.] According to a 1999 
joint Supreme People's Court and Supreme People's Procuratorate 
interpretation, ``cult'' activities that merit punishment under 
the Criminal Law include publishing sect-related materials and 
inciting others to disturb public order.\276\ Individuals 
sentenced under Article 300 of the Criminal Law for organizing 
the April 1999 demonstration in Beijing, and who remain in 
prison today, include Li Chang, Wang Zhiwen, Ji Liewu, and Yao 
Jie. In 2001, officials sentenced Chongqing practitioners Chen 
Qi, He Haiou, Li Zongyu, and Xu Linfen to sentences from 8 to 
12 years in prison for using the Internet to create and 
distribute information about Falun Gong. In December 2001, a 
Beijing court sentenced Wang Xin, Dong Yanhong, Meng Jun, Yao 
Yue, and Liu Wenyu, five practitioners associated with Tsinghua 
University, and Wang Xuefei, a university student from 
Shanghai, to sentences ranging from 3 to 12 years. The 
practitioners were convicted of using the Internet to download 
materials from foreign Falun Gong Web sites and printing 
leaflets for posting and distribution on Beijing streets.\277\
    Officials harass and punish Chinese rights defenders and 
lawyers who defend Falun Gong practitioners against government 
persecution. [See Section V(b)--Rights of Criminal Suspects and 

Defendants--Access to Counsel and Right to Present a Defense.] 
In November 2005, authorities suspended the operating license 
of the Beijing Shengzhi Law Firm and its director Gao Zhisheng 
after he wrote an open letter to President Hu Jintao and 
Premier Wen Jiabao criticizing official abuses against Falun 
Gong practitioners.\278\ In January 2006, a Guangxi law firm 
dismissed lawyer Yang Zaixin after he represented three Falun 
Gong practitioners.\279\
    The Chinese government continues its propaganda campaign 
against Falun Gong and other qigong disciplines that it has 
designated as ``cults.'' The government alleges that ``Falun 
Gong is not only a cult but also an anti-China political 
organization with base political intentions.'' \280\ The 
government reports that ``in some places, the illegal 
activities of Falun Gong and other cults are not completely 
contained,'' and has maintained a campaign to distribute 
posters illustrating the ``nature and danger'' of these 
organizations throughout the country.\281\ The government 
campaign against Falun Gong extends to all written materials 
that practitioners use. In 2005, the government confiscated 
4.62 million ``illegal'' Falun Gong and ``other cult propaganda 
materials.'' \282\ One email provider in China blocked almost 
20,000 emails relating to Falun Gong and other ``reactionary'' 
topics in 2005.\283\

                          V(e) Status of Women


                                findings


        <bullet> The Chinese Constitution and national laws 
        provide that men and women should enjoy equal rights 
        and list protections for the economic and social rights 
        of women, but vague language and inadequate 
        implementation hinder the effectiveness of these legal 
        protections. Some provincial and municipal governments 
        have passed regulations to strengthen the 
        implementation of national laws. A 2005 amendment to 
        the Law on the Protection of Rights and Interests of 
        Women prohibits sexual harassment and domestic 
        violence, promotes a greater voice for women in the 
        government, and charges several government 
        organizations with responsibility for preventing human 
        trafficking and rehabilitating victims.
        <bullet> Civil society groups in China advocate on 
        behalf of women's rights within the confines of 
        government and Communist Party policy. The All-China 
        Women's Federation, a Party-led mass organization, 
        works with the Chinese government to support women's 
        rights, implement programs for disadvantaged women, and 
        provide a limited measure of legal counseling and 
        training for women. Women, however, have limited 
        earning power compared to men, despite government 
        policies that guarantee women non-discrimination in 
        employment and occupation.
        <bullet> Human trafficking remains pervasive in China 
        despite 
        efforts by government agencies to combat trafficking, a 
        framework of domestic laws to address the problem, and 
        ongoing cooperation with international anti-trafficking 
        programs. The government's population planning policy 
        has created a severe imbalance in the male-female birth 
        ratio, and this imbalance exacerbates trafficking of 
        women and girls for sale as brides. Between 10,000 and 
        20,000 men, women, and children are victims of 
        trafficking within China each year, and NGOs estimate 
        that 90 percent of those victims are women and children 
        trafficked for sexual exploitation. Authorities are 
        working with the International Labor Organization to 
        build anti-trafficking capacity and raise domestic 
        awareness of the problem.
Laws and Institutions
    The Chinese Constitution and national laws provide that men 
and women should enjoy equal rights and list protections for 
the economic and social rights of women.\1\ A 2005 amendment to 
the Law on the Protection of Rights and Interests of Women 
(LPRIW) prohibits sexual harassment and domestic violence, 
promotes a greater voice for women in the government, and 
charges several government organizations with responsibility 
for preventing human trafficking and rehabilitating victims.\2\ 
Some provincial and municipal governments have passed 
regulations to strengthen the implementation of national laws. 
For example, 15 provinces and cities have passed anti-domestic 
violence regulations, and some localities have rules mandating 
that police respond to domestic abuse calls.\3\
    Vague language and inadequate implementation hinder the 
effectiveness of these legal protections. The editor of the 
Beijing newspaper Women's News points out that the LPRIW does 
not define sexual harassment and domestic violence.\4\ 
According to one expert, many women know that laws exist to 
protect their rights, but do not understand what these rights 
are.\5\ Moreover, judges lack training on the laws protecting 
women's rights. One Peking University Law School professor 
notes that case rulings in domestic violence cases are 
inconsistent because Chinese laws and judicial explanations 
lack clear standards.\6\ Under a 1978 State Council regulation, 
employers can require women workers to retire five years 
before men.\7\ Courts have used this regulation to rule against 
women in employment cases, even though the practice contravenes 
the LPRIW.\8\ [See Section V(c)--Protection of Internationally 
Recognized Labor Rights--Non-discrimination in Employment and 
Occupation.] When determining who is eligible to receive shares 
of collectively owned village assets, village committees have 
made decisions that legitimize discrimination against women who 
have moved to their husband's village, or who have remained in 
the village in contravention of traditional marriage 
arrangements.\9\ The Law of the PRC on Land Contract in Rural 
Areas and the Marriage Law guarantee women the same land rights 
as men, including land contracts and compensation for 
requisitioned land, and since August 2005, judges have ruled in 
favor of women in four lawsuits concerning land rights.\10\
    The All-China Women's Federation (ACWF), a Communist Party-
led mass organization, works with the Chinese government to 
support women's rights, implement programs for disadvantaged 
women, and provide a limited measure of legal counseling and 
training for women. The ACWF's close ties to the government 
allow it to secure funding for innovative methods to deal with 
women's problems.\11\ According to one Chinese official, ACWF 
loans have helped increase education and employment 
opportunities for rural women living in poverty.\12\ Urban 
district-level ACWFs are cooperating with judicial and law 
enforcement agencies to combat domestic violence by ensuring 
police intervention and improving evidence collection in 
domestic violence cases.\13\ The ACWF does not promote women's 
interests, however, when such interests conflict with Party 
policies that limit women's rights. For example, an ACWF 
representative in Yunnan refused to allow a leading women's 
rights activist to represent over 500 women in Yunnan who were 
seeking redress for lost land, on the grounds that such 
interference could ``influence stability.'' \14\ In addition, 
the ACWF has been silent about the abuses of the government 
population planning policy and is complicit in coercive 
enforcement of birth limits\15\ [see Section V(h)--Population 
Planning].
    Civil society groups in China advocate for women's rights 
within the confines of government and Party policy. Working 
with the ACWF, the Chinese Legal Aid Foundation has set up a 
fund to encourage volunteers to provide expert legal advice for 
economically disadvantaged women.\16\ Women lawyers represent 
women in lawsuits involving sexual harassment, domestic 
violence, and compensation for land seizures, and newspapers 
such as Women's News publicize the cases.\17\ In October 2005, 
six domestic Chinese women's organizations attended a symposium 
to share best practices,\18\ and women lawyers, entrepreneurs, 
mayors, and reporters have also begun to form associations to 
raise the profile of women in these professions.\19\
Gender Disparities
    Women have limited earning power compared to men, despite 
government policies that guarantee women non-discrimination in 
employment and occupation. [See Section V(c)--Protection of 
Internationally Recognized Labor Rights--Nondiscrimination in 
Employment and Occupation.] Women have fewer opportunities for 
promotion than men\20\ and have lower rates of employment at 
high-paying jobs than men.\21\ Employers demand that women have 
higher education levels than men to be hired for equivalent 
white-collar positions.\22\ Middle-aged women have lost their 
jobs more quickly than men as the state-owned manufacturing 
sector has undergone economic restructuring.\23\ Some local 
governments have established programs to provide loans and 
training to women who have lost their jobs.\24\
    In rural areas, women have fewer economic opportunities 
than men and have less access to education. Men have more 
opportunities to engage in non-agricultural employment, and 
women are increasingly taking up uncompensated farming 
responsibilities.\25\ Women now account for 60 percent of total 
rural laborers.\26\ Some families emphasize the education of 
male children over female children.\27\ According to statistics 
in a 2006 Chinese Academy of Social Sciences report, 61 percent 
of boys and 43 percent of girls in rural areas have completed 
education higher than lower middle school.\28\ Young women 
migrate to urban areas to find work, leaving them vulnerable to 
trafficking, forced labor, and other abuses.\29\ According to a 
2005 survey conducted in Hunan province, 74.8 percent of 
migrant women respondents in Changsha, the capital of Hunan 
province, had experienced sexual harassment while working.\30\
    Chinese health statistics reflect women's disadvantaged 
status. Chinese women have a higher overall rate of infectious 
disease and disability than men.\31\ A lack of gender-sensitive 
anti-HIV/AIDS policies has led to a growing risk of infection 
for women\32\ [see Section V(g)--Public Health--HIV/AIDS]. 
According to one Chinese 
report, since the late 1990s, the proportion of female HIV/AIDS 
patients has risen. In the late 1990s, the ratio of infected 
men to women was 9:1. In 2006, the ratio was reported to be 
3:1.\33\ China is the only country in the world where the rate 
of suicide is higher among women than among men.\34\ In rural 
areas, the instance of suicide among women is three to four 
times higher than the rate among men.\35\
Human Trafficking
    Human trafficking remains pervasive in China despite 
efforts by government agencies to combat trafficking, a 
framework of domestic laws to address the problem, and ongoing 
cooperation with international anti-trafficking programs. 
Traffickers are often linked to organized crime and specialize 
in abducting infants and young children for adoption and 
household service.\36\ They also abduct girls and women for the 
bridal market in China's poorest areas and for sale as 
prostitutes.\37\ According to the U.S. State Department's 
Office to Monitor and Combat Trafficking in Persons, between 
10,000 and 20,000 men, women, and children are victims of 
trafficking within China each year, and NGOs estimate that 90 
percent of those victims are women and children trafficked for 
sexual 
exploitation.\38\ The government's population planning policy 
has created a severe imbalance in the male-female sex ratio, 
and the imbalance exacerbates trafficking of women for sale as 
brides [see Section V(h)--Population Planning]. The Chinese 
official media reported that employees at state-run welfare 
organizations in Hunan province and the Inner Mongolia 
Autonomous Region engaged in infant trafficking in 2005.\39\
    Article 240 of the Criminal Law provides for severe 
punishment, including the death penalty, for abducting and 
trafficking women and children, and Article 416 contains 
provisions to punish officials who fail to rescue women and 
children who are abducted and trafficked.\40\ Efforts by the 
Ministry of Public Security (MPS), however, have not kept pace 
with increased trafficking. The number of victims of child 
trafficking increased by 15 percent over a two-year period 
beginning in 2003, according to unofficial government sources 
cited by foreign news media,\41\ but the number of trafficking-
related arrests has declined since reaching a peak during an 
MPS enforcement campaign that began in 2000.\42\ China is a 
signatory to the UN Convention against Transnational Organized 
Crime, but not to its two protocols that address human 
trafficking and smuggling of migrants.\43\ China's Criminal Law 
does not specifically address the issue of human trafficking as 
it relates to forced labor, and although the Labor Law outlaws 
forced labor practices in the workplace, it only provides light 
penalties for violators.\44\ [For more information on forced 
labor, see Section V(c)--Protection of Internationally 
Recognized Labor Rights--Elimination of Forced Labor.]
    State Council ministries, as well as employers' and 
workers' organizations, are cooperating with the International 
Labor Organization (ILO) to build anti-trafficking capacity and 
raise domestic awareness of the problem.\45\ For example, an 
ILO pilot program begun in 2000 to reduce the vulnerability of 
women and children to trafficking in Yunnan province has 
coordinated the resources of the All-China Women's Federation 
and other local agencies to raise awareness and rehabilitate 
victims of trafficking. The program has been expanded to five 
other provinces.\46\

                          V(f) The Environment


                                findings


        <bullet> The Chinese government acknowledges the 
        severity of China's environmental problems and has 
        taken steps to curb pollution and environmental 
        degradation. Since 2001, it has 
        formulated or revised environmental protection laws, 
        administrative regulations, and standards, and has 
        worked to strengthen enforcement of anti-pollution 
        rules. The Chinese government has also welcomed 
        international technical assistance to combat 
        environmental degradation, and has increased 
        cooperation with the U.S. government on environmental 
        protection over the past year.
        <bullet> Despite these initiatives, local enforcement 
        of environmental laws and regulations is poor, and 
        underfunding of environmental protection activities 
        continues to hinder official efforts to prevent 
        environmental degradation. A lack of transparency 
        hampers the Chinese government's ability to respond to 
        civil emergencies, including environmental disasters. 
        Government efforts to impose greater control over 
        environmental civil society groups during the past year 
        have stifled citizen activism.
Government Response to Environmental Degradation
    The Chinese government acknowledges the severity of China's 
environmental problems. The State Council's White Paper on 
``Environmental Protection (1996-2005),'' issued in June 2006, 
notes that ``the contradiction between economic growth and 
environmental protection is particularly prominent'' as the 
``relative shortage of resources, a fragile ecological 
environment and insufficient environmental capacity are 
becoming critical problems hindering China's development.'' \1\ 
Senior government officials also acknowledge the possible 
threat to social stability posed by severe environmental 
degradation.\2\ A U.S. expert has observed that environmental 
degradation and pollution ``constrain economic growth, 
contribute to large-scale migration, harm public health, and 
engender social unrest.'' \3\ According to official Chinese 
estimates, environmental degradation and pollution cost China 
an estimated 8 to 12 percent of annual GDP,\4\ and the number 
of mass protests over pollution has increased by 29 percent per 
year since 2000.\5\
    The Chinese government has taken steps to curb pollution 
and environmental degradation. In both its 10th (2001-2005) and 
11th (2006-2010) Five-Year Programs, the government formulated 
or revised environmental protection laws, administrative 
regulations, and standards,\6\ and has worked to strengthen 
enforcement of anti-pollution rules.\7\ The State Environmental 
Protection Administration (SEPA) announced in October 2005 that 
city governments will be penalized if they fail to attain 
national air quality standards.\8\ SEPA has also continued to 
close factories and halt construction projects that violate the 
Environmental Impact Assessment Law and other environmental 
protection laws.\9\ In September 2005, a Sichuan court found 
environmental protection officials and commercial enterprise 
officers criminally liable for severely polluting the Tuojiang 
(Tuo River). This case is the first in which environmental 
protection authorities investigated officials and company 
officers at the same time for an environmental crime.\10\
    Despite these initiatives, local enforcement of 
environmental laws and regulations is poor, and underfunding of 
environmental protection activities continues to hinder 
official efforts to prevent environmental degradation.\11\ 
Officials often seek to protect enterprises that pollute 
because local governments derive income from these enterprises 
and job evaluations for officials are based on local economic 
performance, not improvements in health or safety.\12\ Local 
officials have also pressured local environmental protection 
bureaus (EPBs) to overlook pollution and take no action against 
polluters. Moreover, EPB officials sometimes allow polluting 
enterprises to continue operation, because their often 
underfunded bureaus derive additional funds by collecting fines 
from polluters.\13\ In late 2005, poor local enforcement of 
environmental laws and corruption triggered mass protests by 
villagers in Zhejiang province.\14\
Government Transparency and Environmental Protection
    A lack of transparency hampers the Chinese government's 
ability to respond to civil emergencies, including 
environmental disasters. An explosion in November 2005 at a 
petrochemical plant in Jilin province released over 100 tons of 
benzene and other toxic chemicals into the Songhua River.\15\ 
The Songhua flows into neighboring Heilongjiang province and is 
the main water source for Harbin, the provincial capital, and 
surrounding areas.\16\ Jilin officials and plant managers 
initially denied that the explosion caused any pollution and 
tried to dilute the spill by discharging water from a 
reservoir.\17\ Jilin officials also waited approximately five 
days to inform Heilongjiang provincial officials and the State 
Environmental Protection Administration (SEPA) about the 
spill.\18\ Once informed, Harbin officials announced that the 
water supply system would be shut down for ``routine 
maintenance.'' Harbin officials revised the announcement amid 
rumors of a chemical spill, and informed the public 10 days 
after the spill that the water system would be unavailable for 
4 days due to ``possible'' contamination.\19\ This delayed 
local government response impeded central government efforts to 
manage the crisis, led to panic among the citizens of Harbin 
city, and created a diplomatic incident with Russia.\20\ 
According to a U.S. expert, ``there are few incentives for 
local officials in China to be bearers of bad news within the 
system, because they believe they will likely be penalized for 
it politically from the higher-ups.'' \21\
    After the Songhua spill, the central government dismissed 
some officials and passed rules to discourage provincial and 
local officials from concealing information from the central 
government.\22\ These reforms were not intended to relax the 
government's control over the media or over the free flow of 
information to the general public. Rather, the goal was to 
increase the flow of information to central authorities in 
Beijing. In January 2006, the State Council issued a general 
plan on emergency response, stipulating that Class I (``most 
serious'') or Class II (``serious'') incidents must be reported 
to the State Council within four hours, and that the public 
should be provided with accurate information in a timely 
manner.\23\ In February 2006, SEPA issued a notice stating that 
serious incidents must be reported to SEPA within an hour of 
being discovered.\24\ Despite these steps to improve local 
reporting to higher authorities, the central government did not 
address the larger issue of government control over the news 
media,\25\ which led to a nearly two-week press blackout on the 
Songhua spill. Moreover, the National People's Congress is 
considering a new draft law that would fine news media 
organizations that report on sudden incidents, such as 
environmental disasters, without prior government 
authorization.\26\
Public Participation in Environmental Protection
    The State Environmental Protection Administration (SEPA) 
has continued efforts to expand public participation in 
environmental protection work. In February 2006, SEPA released 
two provisional measures on public participation in 
Environmental Impact Assessment (EIA) procedures. These 
measures are the first to contain specific arrangements and 
procedures for public involvement in environmental issues.\27\ 
The measures allow a limited role for the public in the EIA 
process through attendance at symposiums or public hearings, 
answering questionnaires, and consulting experts. In July 2006, 
a SEPA official announced that public hearings may be held on 
important, complex, or difficult environmental matters.\28\ In 
addition, before contractors launch a project, they are 
required to provide the public with details on how construction 
could affect the environment and what preventive measures will 
be taken.\29\
    The Chinese government has altered or delayed some 
development projects in response to environmental concerns from 
civil society groups, but a continued lack of transparency 
limits public 
involvement and violates the government's own environmental 
protection laws. In February 2004, the government responded to 
citizen environmental concerns and agreed to suspend all 13 
proposed hydroelectric dam projects on the Nujiang (Nu River) 
in Yunnan province, pending further review.\30\ In 2005, 
Chinese officials reversed this decision after a closed 
internal review, said that four of the proposed dams would be 
built, and banned further news media coverage of the topic.\31\ 
Officials released information regarding the proposed dam 
project under public pressure. In September 2005, environmental 
activists posted an open letter to the State Council on the 
Internet, pointing out violations of the EIA law and demanding 
that officials organize a public hearing on the dam 
project.\32\ Provincial authorities subsequently released the 
government's order approving the EIA report, after refusing to 
do so for two years.\33\
    Despite these positive steps, government efforts to impose 
greater control over environmental civil society groups during 
the past year have stifled citizen activism. In June 2006, an 
unidentified assailant assaulted Three Gorges resettlement 
activist Fu Xiancai, leaving him paralyzed from the shoulders 
down, after he met with a public security official to discuss 
his interview with a German television station in May. Fu had 
been harassed and threatened for more than a year as a result 
of his petitioning efforts.\34\ The official investigation into 
the assault concluded in August that Fu's injuries were self-
inflicted, a finding that is disputed by observers and those 
close to him.\35\ This assault follows the detention of 
environmental activists in October 2005 and April 2006.\36\ Tan 
Kai, who was detained in October 2005 for his involvement in 
the environmental group ``Green Watch,'' went to trial in May 
on charges of illegally obtaining state secrets and was 
sentenced to 18 months' imprisonment in August.\37\ Authorities 
tried a villager from Zhejiang province in November 2005 for 
his role in a protest against air pollution.\38\ In August 
2005, senior officials announced that the All-China Environment 
Federation would conduct a survey of environmental 
organizations.\39\ Some analysts believe that the goal of the 
survey is to rein in the activities of civil society 
organizations.\40\
International Environmental Cooperation
    The Chinese government has welcomed international technical 
assistance to combat environmental degradation. The United 
States and China share a common interest in protecting the 
environment, and over the past year the two governments have 
increased bilateral cooperation on environmental protection, 
including:

        <bullet> In November 2005, the Joint Committee on 
        Environmental Cooperation (JCEC) met in the United 
        States for its inaugural session. The JCEC was formed 
        on the basis of a 2003 agreement between the U.S. 
        Environmental Protection Agency (EPA) and the China 
        State Environmental Protection Administration to 
        collaborate on environmental issues, beginning with air 
        pollution, water contamination, and the environmental 
        impact of toxic substances.\41\
        <bullet> The Asia-Pacific Partnership on Clean 
        Development and 
        Climate, a U.S. initiative to promote the development 
        and deployment of clean energy technologies to meet 
        pollution reduction, energy security, and climate 
        change concerns, was launched in January 2006. Member 
        countries include the United States, China, Australia, 
        India, Japan, and South Korea.\42\ One priority of the 
        Partnership is to strengthen U.S.-China cooperation on 
        environmental protection.\43\
        <bullet> In April 2006, EPA Administrator Stephen 
        Johnson met in China with his counterpart, Minister 
        Zhou Shengxian, to sign an agreement on hazardous-waste 
        management, including finding and disposing of 
        polychlorinated biphenyls (PCBs). Johnson also toured 
        an EPA-funded project to encourage the use of cleaner, 
        safer home cooking fuels in Lijiang city, Yunnan 
        province, and an EPA-supported project between the Port 
        of Los Angeles and the Shanghai Municipal Port 
        Administration to reduce air pollution.\44\
        <bullet> In May 2006, the U.S. Trade and Development 
        Agency awarded a grant to the Shandong Provincial 
        Environmental Protection Bureau (EPB) to develop 
        cleaner energy sources and another grant to the Shanxi 
        Provincial EPB to improve air quality.\45\

                           V(g) Public Health


                                findings


        <bullet> The central government strengthened its 
        commitment during the past year to address the severe 
        shortage of affordable health care in rural China. 
        Since the collapse of the rural public health 
        infrastructure in the 1980s, the disparity in the 
        availability and affordability of health care between 
        urban and rural areas has increased. As a result, the 
        medical needs of China's rural poor, including the 
        diagnosis and treatment of infectious diseases, often 
        go unaddressed. The government, however, has pledged to 
        accelerate the establishment of rural health 
        cooperatives and invest more than 20 billion yuan 
        (US$2.5 billion) over the next five years to modernize 
        hospitals, clinics, and medical equipment at the 
        village, township, and county levels.
        <bullet> The central government continued to take steps 
        over the past year to prevent and control the spread of 
        HIV/AIDS. Although the estimated number of HIV/AIDS 
        cases nationwide has decreased, health officials still 
        consider the disease to be a grave problem. Government 
        efforts to prevent and control the transmission of HIV/
        AIDS continue to face serious challenges, as local 
        implementation of national policy lags far behind 
        central government attention to the problem. Victims of 
        HIV/AIDS and other infectious diseases also continue to 
        face harassment and discrimination, despite legal 
        protections.
        <bullet> Chinese public health officials have shown 
        increased commitment and responsiveness in their 
        efforts to prevent and control the spread of avian flu, 
        and have taken steps to improve government transparency 
        following the mishandling of the SARS epidemic in 2003. 
        International health experts, however, still consider 
        China to be among the most likely incubators of a 
        potential human influenza pandemic. Central government 
        cooperation in sharing information and virus samples 
        with international health organizations has been 
        inconsistent, and international health organizations 
        and central government officials continue to express 
        concern about the speed and accuracy of local reporting 
        on outbreaks among both humans and poultry.
Rural Poverty and Public Health
    The central government strengthened its commitment during 
the past year to address the severe shortage of affordable 
healthcare in rural China. Premier Wen Jiabao announced the 
launching of a Plan for Establishing and Developing a Rural 
Healthcare Service System in a March 2006 work report to the 
annual plenary session of the National People's Congress. The 
Chinese leadership highlighted these goals in their December 
2005 Opinion Promoting the Construction of a New Socialist 
Countryside, a document that enumerated key policy goals 
related to rural development for 2006.\1\
    According to the plan, the government will invest more than 
20 billion yuan (US$2.5 billion) over the next five years to 
modernize hospitals, clinics, and medical equipment at the 
village, township, and county levels.\2\ In an effort to 
accelerate the establishment of rural health cooperatives, 
Premier Wen pledged to expand experimental health cooperative 
coverage from 671 counties to 1,145 counties (over 70 percent 
of the counties in China) by the end of 2006, and double the 
healthcare allowances paid to rural residents in the program 
from 20 yuan (US$2.5) to 40 yuan (US$5).\3\ Wen also said that 
central and local governments will build rural health 
cooperatives across the entire country by 2008.\4\
    Since 2002, the central government has encouraged the 
formation of rural health cooperatives, which receive local 
government subsidies to cover a portion of the medical expenses 
for farmers who pay an annual 10 yuan (US$1.25) premium. 
Despite these 
improvements, healthcare costs have become one of the greatest 
financial burdens for those living in rural areas.\5\ The 
poorest residents in rural areas frequently do not enroll in 
health cooperatives because of the modest annual fee.\6\ Even 
for participants, the cooperative plan covers only between 30 
and 40 percent of hospitalization costs, leaving many rural 
families in debt after a serious 
illness.\7\ Yang Lixiong, a social security expert at Renmin 
University in Beijing, found that since 2001, the per capita 
income of those living in rural areas increased 2.4 percent, 
while the per capita yearly expenditure on healthcare services 
among rural residents rose 11.8 percent.\8\
    Since the dissolution of the commune-based rural public 
health infrastructure in the 1980s, the disparity between urban 
and rural areas in the availability and affordability of 
healthcare has increased.\9\ China's healthcare system 
underwent privatization beginning in 1978, and by 1999 the 
central government's share of 
national healthcare spending fell from 32 percent to 15 
percent.\10\ From 1977 to 2002, the number of doctors in rural 
China decreased from 1.8 million to 800,000, and the number of 
rural healthcare workers decreased from 3.4 million to 
800,000.\11\ Eighty percent of medical resources are now 
concentrated in cities, and the new rural healthcare system 
covers less than 23 percent of rural residents.\12\ The rural-
urban disparity is also apparent in mortality statistics. 
Residents of large cities in China live 12 years longer than 
rural residents, and the infant mortality rate in some rural 
areas is nine times higher than in large cities.\13\
Infectious Diseases and Public Health
    Infectious diseases such as tuberculosis and hepatitis B 
continue to be a major challenge for China's public health 
system. According to the Ministry of Health (MOH), a total of 
4.42 million infectious disease cases were reported in 2005, an 
increase of 12.7 percent from 2004.\14\ Over 13,000 people died 
from infectious diseases in 2005, and the mortality rate 
increased more than 80 percent from 2004, according to a MOH 
report.\15\ Among the top killers were tuberculosis, rabies, 
AIDS, hepatitis B, and neonatal tetanus.\16\ Unofficial 
estimates place the number of hepatitis B carriers in China at 
120 million.\17\ In an attempt to reduce hepatitis B infection, 
the MOH issued the ``2006-2010 National Plan on Hepatitis B 
Prevention and Control.'' The plan's top priority is to 
strengthen vaccination programs, especially among young 
children.\18\ The plan sets the goal of lowering the infection 
rate to 1 percent among those five years old and younger, and 
to less than 7 percent nationwide by 2010. The MOH has 
acknowledged the limitations of the current public health 
system in addressing the growing medical needs of hepatitis 
carriers.\19\ A survey conducted by the China Foundation for 
Hepatitis Prevention and Control (CFHPC) found that a majority 
of Chinese physicians do not have adequate knowledge of 
hepatitis B or of ways to prevent and treat the disease.\20\
    Victims of infectious diseases, like hepatitis B, continue 
to face discrimination in schooling and employment, despite 
protections in the Law on the Prevention and Control of 
Infectious Diseases, as amended in 2004.\21\ The amended law 
prohibits discrimination against people with infectious 
diseases, people carrying the pathogen of an infectious 
disease, and people who are suspected of having an infectious 
disease. A 2005 CFHPC survey, covering 583 hepatitis patients 
in 18 provinces, found that 52 percent of the respondents had 
faced discrimination in employment and education.\22\ Some 
carriers, however, have become aware of their legal rights and 
have taken legal action against unfair treatment. In November 
2005, university authorities in the Xinjiang Uighur Autonomous 
Region ordered 156 students, diagnosed as hepatitis B positive 
in their matriculation health checks, to suspend their 
schooling ``for the sake of public health.'' Students formed an 
action group and circulated fliers to protest the unfair 
treatment, and one student started legal proceedings against 
university authorities.\23\ One student also filed a lawsuit 
against a university in Henan province alleging that the school 
denied him admission because he is a carrier of the hepatitis B 
virus. The university had denied the student admission, despite 
the fact that he scored above the cut-off point on the entrance 
examination. His application showed that he had tested positive 
for hepatitis B.\24\
HIV/AIDS
    The central government continued to take steps over the 
past year to prevent and control the spread of HIV/AIDS. In 
January 2006, the State Council issued its most comprehensive 
HIV/AIDS regulations since the government first adopted 
guidelines in 1987.\25\ The new regulations address the 
dominant modes of HIV/AIDS transmission in China: intravenous 
drug use and sexual contact. The regulations call for 
cooperative measures among health authorities to provide 
treatment for drug addicts, require that local governments 
organize HIV/AIDS prevention action plans and monitoring 
systems, and encourage local governments to post material about 
HIV/AIDS transmission in public places. The new regulations 
also require that governments at the county level and above 
provide free anti-HIV/AIDS drugs for rural and poor urban AIDS 
patients.\26\ A March 2006 UNAIDS report found that China was 
only half way to meeting its goal under the UN's ``3 by 5'' 
initiative of providing 30,000 HIV/AIDS carriers access to 
anti-HIV drugs by the end of 2005.\27\ The new regulations also 
address discrimination against HIV patients, mandating that 
``no work unit or individual shall discriminate against HIV 
carriers, AIDS patients, or their families.'' \28\ The 
regulations, however, do not specify legal redress for victims 
who face such discrimination.
    Health officials still consider HIV/AIDS in China to be a 
``grave'' problem.\29\ Although the World Health Organization 
and UNAIDS program decreased the estimated number of HIV/AIDS 
cases nationwide from 840,000 to 650,000, health officials 
calculate that there were on average 200 new cases of HIV/AIDS 
infection in China each day in 2005.\30\ Government efforts to 
prevent and control the transmission of HIV/AIDS continue to 
face serious challenges. Central government officials expressed 
frustration during 2005 and 2006 with local-level 
implementation of national HIV/AIDS policy. During a November 
29, 2005, meeting of the State Council Work Committee on AIDS 
Prevention and Treatment, Vice Premier Wu Yi criticized some 
local officials for failing to recognize the severity of the 
HIV/AIDS problem, and criticized others for neglecting and, at 
times, obstructing HIV/AIDS prevention and control efforts.\31\ 
Wang Longde, Vice Minister of Health, criticized local 
governments in November 2005 for only providing HIV/AIDS 
prevention services to urban residents with local residential 
registration, thus excluding migrant workers who are a high-
risk group for HIV/AIDS infection.\32\ To address this 
discrimination, the State Council and the Ministry of Health 
announced a new program in November 2005 that aims to provide 
more than 65 percent of migrant workers with access to HIV/AIDS 
prevention information by the end of 2006, and more than 85 
percent by 2010.\33\
    Reports of government harassment of HIV/AIDS carriers 
continued throughout the year, as some local officials 
retaliated against AIDS victims who expressed their 
grievances.\34\ Local government harassment of Chinese civil 
society organizations dealing with HIV/AIDS also continued, 
undermining efforts to combat the disease. Public security 
officials detained activist Hu Jia, co-founder of the Beijing 
Aizhixing Institute and of Loving Source, both HIV/AIDS 
advocacy groups, when he attempted to deliver a petition on 
behalf of more than 50 AIDS patients to Vice Premier Wu Yi at a 
November 2005 AIDS conference in Henan province.\35\ Citing 
government pressure, Hu subsequently resigned from Loving 
Source in February 2006.\36\ [See Section VII(a)--Development 
of Civil Society.]
Avian Flu
    Chinese public health officials have shown increased 
commitment and responsiveness in their efforts to prevent and 
control the spread of avian flu, and have taken steps to 
improve government transparency following the mishandling of 
the SARS epidemic in 2003.\37\ Since a series of outbreaks in 
poultry occurred in the fall of 2005, the central government 
has appropriated over 2 billion yuan (US$250 million) for the 
establishment of an avian flu prevention fund, and initiated 
avian flu emergency management and monitoring plans through the 
Ministry of Health and the Chinese Center for Disease Control 
and Prevention.\38\ Local officials have culled or vaccinated 
millions of poultry in affected areas.\39\ International health 
experts, however, still consider China to be among the most 
likely incubators of a potential human influenza pandemic.\40\ 
International health officials have continued to express 
concern about the effectiveness of animal disease surveillance 
methods at the local level, as the majority of reported human 
infections have occurred in regions in which no previous bird 
infections had been reported.\41\
    Central government cooperation in sharing avian flu 
information and virus samples with international health 
organizations has been inconsistent. Although the Ministry of 
Health has cooperated with international health organizations, 
the Ministry of Agriculture has been less forthcoming.\42\ 
Testifying before a Commission roundtable, one health expert 
said, ``Unfortunately, the lessons learned from SARS by the 
Ministry of Health do not seem to have translated as well to 
the Ministry of Agriculture.'' \43\ In an attempt to improve 
the transparency of official reporting on avian flu outbreaks, 
the State Council issued regulations in November 2005 requiring 
provincial governments to report ``major'' animal epidemics to 
the State Council within four hours of discovering them, and 
county and city governments to report cases to provincial 
authorities within two hours.\44\ Officials who are found 
negligent in reporting outbreaks face removal from office and 
potential prosecution.\45\ Despite these regulations, 
international health organizations and central government 
officials continue to express concern about the speed and 
accuracy of local reporting of outbreaks among both humans and 
poultry.\46\ The reporting of domestic outbreaks by Chinese 
news media sources also has frequently lagged behind that of 
international news media organizations.\47\ In an October 2005 
editorial discussing the government's response to avian flu, Hu 
Shuli, editor of Caijing, a government-sponsored magazine, 
wrote that, ``if one wants to do things even better, one should 
admit that announcements of avian influenza outbreaks to the 
domestic public are still obviously delayed and incomplete. 
This is inappropriate in every way.'' \48\

                        V(h) Population Planning


                                findings


        <bullet> The Chinese government strictly controls the 
        reproductive lives of Chinese women. Since the early 
        1980s, the government's population planning policy has 
        limited most women in urban areas to bearing one child, 
        while permitting many women in rural China to bear a 
        second child if their first child is female. Officials 
        have coerced compliance with the policy through a 
        system marked by pervasive propaganda, mandatory 
        monitoring of women's reproductive cycles, mandatory 
        contraception, mandatory birth permits, coercive fines 
        for failure to comply, and, in some cases, forced 
        sterilization and abortion.
        <bullet> The Chinese government's population planning 
        laws and regulations contravene international human 
        rights standards by limiting the number of children 
        that women may bear, by coercing compliance with 
        population targets through heavy fines, and by 
        discriminating against ``out-of-plan'' children. Local 
        officials have violated Chinese law by punishing 
        citizens, such as legal advocate Chen Guangcheng, who 
        have drawn attention to population planning abuses by 
        government officials.
Population Planning Policy
    The Chinese government strictly controls the reproductive 
lives of Chinese women, but population planning policy varies 
by locality. Since the early 1980s, the government's population 
planning policy has limited most women in urban areas to 
bearing one child, while permitting many women in rural China 
to bear a second child but generally restricting the additional 
birth to women whose first child is female.\1\ Officials have 
coerced compliance with the policy through a system marked by 
pervasive propaganda, mandatory monitoring of women's 
reproductive cycles, mandatory contraception, mandatory birth 
permits, coercive fines for failure to comply, and, in some 
cases, forced sterilization and abortion. Since the early 
1980s, population planners have frequently revised provincial 
and local rules and quotas as the result of evolving national 
population targets.\2\ Current policies concerning the 
circumstances under which women may bear two children vary at 
the provincial and local level, depending on changes in the 
national plan, on changes in provincial and local quotas, and 
on whether provinces or localities have met or exceeded 
previous quotas.\3\ Local regulations permit ethnic minorities 
to have additional children. Ethnic minorities in the Xinjiang 
Uighur Autonomous Region are permitted to have more than two 
children if they reside in rural areas, and the Communist 
Party's official journal, Seeking Truth, has claimed that in 
the Tibet Autonomous Region there are no restrictions on the 
number of children that farmers and herders may have.\4\
    The government coerces compliance with its restrictions on 
birth principally through a system of harshly coercive fines, 
which are termed ``social compensation fees.'' \5\ Provincial-
level governments determine the criteria for issuing these 
fines, their amounts, and the method for collecting them 
``based on local conditions.'' \6\ In Beijing municipality, 
officials file a case, investigate, and deliver a ``Social 
Compensation Fee Decision'' to parents when they suspect an 
illegal birth. The parents must pay in full within 30 days of 
receiving the ``Social Compensation Fee Decision'' or file an 
application to pay the fine in installments. The first payment 
must be 50 percent of the total fine, and the parents must make 
full payment within three years. Parents in Beijing who violate 
regulations on having a second child, or unmarried persons who 
violate regulations on having a child, are fined 3 to 10 times 
the area's average annual income. Parents who have a second 
child in accordance with regulations, but less than four years 
after the first child, or when the mother is less than 28 years 
old, are fined one-fifth of the area's average disposable 
annual income for urban residents, and one-fifth of the area's 
average gross annual income for rural residents. When the 
parents' actual income exceeds the area's average income, the 
regulations provide that the actual income should be the basis 
for computing the fine. If the parents ``practice deception,'' 
obstruct official processes, or ``exert negative social 
influence,'' fines can be doubled.\7\ Practices for assessing 
fees against parents who violate population planning 
regulations differ in Shandong province, where incomes are 
lower than in Beijing municipality. The fine is set at 30 
percent of a given area's average annual income.\8\ Families 
forced to pay these heavy fines can be financially devastated 
for years. When parents do not pay the fines, population 
planning officials can file legal cases, and one Chinese media 
report from 2006 described a local court acting ``vigorously'' 
to collect fees and to ``uphold the authority'' of population 
planning officials.\9\ Officials also have reportedly destroyed 
the homes of those who do not pay the fines.\10\
Violations of Chinese Law and International Human Rights 
        Standards
    The Chinese government's population planning laws and 
regulations contravene international human rights standards. 
For example, the Population and Family Planning Law, which 
became 
effective in 2002, contravenes the standards set by the 1995 
Beijing Declaration and the 1994 Programme of Action of the 
Cairo International Conference on Population and Development 
(1994 Programme) by limiting the number of children that 
married women may bear and by banning unmarried women from 
bearing any children.\11\ Population planning laws coerce 
compliance by penalizing women who bear an ``out-of-plan'' 
child with a ``social compensation fee'' that ranges from 
roughly one-half to 10 times an individual's average annual 
income, based on locality.\12\ Moreover, 7 provinces require 
``termination'' of pregnancies that violate provincial 
regulations, while 10 provinces require unspecified ``remedial 
measures.'' \13\ The government contravenes the standards set 
by the 
Universal Declaration of Human Rights and the International 
Covenant on Economic, Social, and Cultural Rights by 
discriminating against ``out-of-plan'' children in health care 
and education.\14\ The government also contravenes the 1994 
Programme by setting population targets.\15\
    Some local officials charged with implementing the national 
population planning policy violate Chinese law by physically 
coercing abortions and sterilizations. Although physical 
coercion violates Article 4 of the Population and Family 
Planning Law,\16\ local officials continue to use physical 
coercion, or the threat of physical coercion, to enforce 
compliance with population planning laws and regulations. In 
December 2005, Western media reported that officials in Hebei 
province forced a Falun Gong practitioner to have an abortion, 
and in 2006, officials in Chongqing municipality and in Fujian 
province forcibly sterilized women.\17\ In June 2006, Western 
media reported that a woman fell to her death while fleeing 
Anhui provincial officials who were attempting to force her to 
abort twins, since she had previously given birth to one 
child.\18\ Central government personnel policies encourage the 
coercive practices of local officials by making the local 
officials' promotions and bonuses dependent on meeting 
population targets.\19\ Little public evidence is available to 
show that officials who employ physical coercion against 
pregnant women have been punished for their illegal acts.\20\ 
Two committees of the U.S. House of Representatives heard 
testimony in 2004 and 2006 that some Chinese officials continue 
to physically coerce compliance with the population planning 
policy. Witnesses said that the means employed against pregnant 
women include forced abortion, sterilization, and implantation 
of contraceptive devices. Other forms of physical coercion are 
exercised against friends and relatives who try to assist 
them.\21\ The government uses group rewards and punishments, 
denying benefits or imposing penalties on entire villages, 
factories, or work units in the event of a single ``out-of-
plan'' birth. As a result, women with ``out-of-plan'' 
pregnancies are ostracized and placed under great pressure to 
have an abortion.\22\ These abuses have created an atmosphere 
of fear in which most Chinese women feel they have little 
choice but to comply with the population planning policy.\23\
    Officials charged with implementing these laws and 
regulations have also violated Chinese law by punishing 
citizens, such as legal advocate Chen Guangcheng, who have 
publicized population planning abuses by local authorities.\24\ 
In early 2005, authorities in Linyi city, Shandong province, 
directed a campaign against ``out-of-plan'' births in which 
local officials reportedly committed physical abuses, including 
forced abortions, forced sterilizations, and beatings. The 
authorities profited from their abuses by charging illegal fees 
to those detained.\25\ Although Article 41 of the Chinese 
Constitution guarantees Chinese citizens ``the right to 
criticize and make suggestions to any state organ or 
functionary,'' Chen was beaten, placed under house arrest, 
detained, arrested, tried, and sentenced to four years and 
three months in prison for peacefully drawing attention to the 
abuses in Linyi.\26\ A number of his relatives, supporters, and 
attorneys were also harassed, beaten, or 
detained [see Section V(b)--Rights of Criminal Suspects and 
Defendants--Arbitrary Detention in the Formal Criminal 
Process]. In September 2005, an official from the National 
Population and Family Planning Commission (NPFPC) responded to 
international news media attention by admitting that Linyi 
officials had committed unspecified ``practices that violated 
law'' and declaring that ``the 
responsible persons have been removed from their posts.'' \27\ 
In October 2005, however, foreign journalists reported that 
forced abortions continued in Linyi, and in February 2006, 
foreign journalists were unable to confirm that any Linyi 
officials had been punished for these acts.\28\
    Victims and activists have accused officials of other 
instances of corruption and abuse of power in implementing the 
population planning program. Article 4 of the Population and 
Family Planning Law requires officials to perform their 
administrative duties strictly in accordance with the law, and 
Article 39 provides that population planning officials may be 
subject to criminal punishment for ``abusing [their] power . . 
. demanding or accepting bribes. . . .'' \29\ In Hunan 
province, approximately 60 villagers claimed that population 
planning officials took 11 adopted and ``out-of-plan'' children 
away from their homes and demanded money for their return.\30\ 
Xinhua reported that government authorities punished 13 
officials in Shaanxi province after investigators found that a 
population planning official and a village head took bribes 
from a woman and her husband, supplied them with fraudulent 
documents, and forged the woman's contraception records.\31\ 
Some wealthy Chinese choose to pay the fines for ``out-of-
plan'' children to have a large family.\32\ The head of the 
NPFPC said in an interview that a minority of wealthy and 
famous people, as well as leading cadres, violate the birth 
restrictions and, although they ``should be legally punished . 
. . our supervision has not yet reached the desired level.'' 
\33\
Social Crises Resulting From the Population Planning Policy
    Chinese population planning policies, combined with a 
cultural preference for sons, produce sex ratio imbalances and, 
in some cases, lead families to abort female infants. The 
current male-female birth ratio for first births is 121:100 and 
152:100 for second births. Some foreign experts believe that 
the actual ratios are even more imbalanced,\34\ and some 
reports claim that the imbalance is worsening.\35\ Demographers 
and population experts consider a normal male-female birth 
ratio to be between 103 to 107:100.
    In June 2006, the National People's Congress (NPC) withdrew 
a proposed law that would have criminalized sex-selective 
abortion. Article 35 of the 2002 Population and Family Planning 
Law prohibits, but does not penalize, sex-selective abortion. 
The prohibition has been widely ignored by medical personnel 
and parents.\36\ In December 2005, the National Population and 
Family Planning Commission (NPFPC) reported that the government 
had submitted a draft Criminal Law amendment to the NPC under 
which parents or medical personnel involved in sex-selective 
abortions would face fines and up to three years in prison.\37\ 
In an April 2006 interview, Zhang Weiqing, Director of the 
NPFPC, emphasized the long-term nature of the sex-ratio 
imbalance and the need to support the draft amendment.\38\ 
Xinhua later reported that the proposed amendment had resulted 
in a ``controversial debate'' that left the NPC Standing 
Committee ``sharply divided.'' \39\ In June, the NPC decided to 
withdraw the proposed law.\40\ Some officials opposed the law 
on the grounds that a woman has the right to know the sex of 
her child, that harsh penalties would create a black market in 
fetal sex determination, and that prosecution of offenders 
under the proposed amendment would prove difficult.\41\ Yu 
Xuejun, Director of the NPFPC's Department of Policies and 
Regulations, told a foreign newspaper that he regretted that 
the amendment had been withdrawn and that he would continue 
lobbying for it.\42\ Subsequent 
reports in the state-run press have not disclosed whether the 
government plans to submit a similar amendment to the NPC in 
the future, but stated that curbing the sex ratio imbalance 
remained a ``top priority'' and that the imbalance could become 
a major obstacle to economic development. Other reports have 
also discussed the means by which the sex-ratio imbalance might 
be addressed. These included closing more clinics involved in 
sex-selective abortions; strengthening and geographically 
expanding implementation of the Care for Girls Program; raising 
the criteria for licensing medical institutes and 
practitioners; implementing preferential policies for girls and 
women in health care, education, and employment; and 
dispatching 60 teams to evaluate sex ratios, trends, and the 
efficiency of government policies.\43\ The government has also 
said that it plans to create a system to punish local officials 
who fail to control sex ratio imbalances.\44\
    The population planning policy has contributed to an 
increasing number of elderly Chinese citizens without children 
to support them financially. Director Zhang of the NPFPC has 
noted that ``[t]here is a definite relationship between the 
acceleration of the aging of the population and the strict 
birth control policy.'' \45\ During the past year, the 
government established a national program that grants a small 
sum of money to rural couples who have one child or two 
daughters.\46\ Some Chinese demographers predict that the aging 
of the Chinese population and the sex-ratio imbalance will 
create additional economic and social problems in the future, 
and therefore advocate moving toward a ``two-child policy.'' 
\47\ One Chinese demographer at a December 2005 forum contended 
that the Chinese population is aging faster than expected, 
while others predicted that the population will begin to 
decrease earlier and more sharply than expected.\48\ Others 
predict worsening labor shortages and insufficient numbers of 
working-age people to cover social insurance and pensions, and 
foresee economic stagnation or recession in the next 20 
years.\49\ Although many provinces have adopted policies that 
expand the number of people permitted to have two children, not 
all Chinese demographers agree with these forecasts or advocate 
a ``two-child policy.'' \50\ NPFPC officials maintain that the 
population planning policy will not change in the near future 
and that preventing overpopulation will remain the government's 
top priority for the foreseeable future.\51\ Director Zhang of 
the NPFPC said in April that the policy was open to change, but 
not in the short term. He claimed that China faces an impending 
``baby boom.'' \52\

                  V(i) Freedom of Residence and Travel


                                findings


        <bullet> Since its implementation in the 1950s, the 
        Chinese hukou (household registration) system has 
        limited the rights of ordinary Chinese citizens to 
        choose their permanent place of residence, receive 
        equal access to social services, and enjoy equal 
        protection of the law. Economic changes and relaxation 
        of some hukou controls have eroded previously strict 
        limits on citizens' freedom of movement, but these 
        changes have also exported a discriminatory urban-rural 
        social division to China's cities. Migrants who lack a 
        local hukou for their new city of residence face legal 
        discrimination in employment, education, and social 
        services.
        <bullet> Chinese leaders called for reforms to the 
        hukou system during the past year. Central government 
        interest in reform stems not only from concern over 
        migrant rights and economic inequality, but also from 
        concern over growing social instability and a desire 
        for stronger government control over China's internal 
        migrant population. New national goals for hukou 
        reform, like similar proposals implemented periodically 
        since the late 1990s, call for streamlined hukou 
        categories, elimination of discriminatory regulations 
        on employment, and improved migrant access to social 
        services.
        <bullet> Local governments and urban residents have 
        resisted reforms to the hukou system because of the 
        potential budgetary impact, fears of increasing 
        population pressure in cities, and discriminatory 
        attitudes toward migrants. Local opposition has limited 
        the ability of central government authorities to 
        achieve national reform goals.
The Hukou System
    Since its implementation in the 1950s, the Chinese hukou 
(household registration) system has limited the rights of 
ordinary Chinese citizens to choose their permanent place of 
residence, receive equal access to social services, and enjoy 
protection of the law. Urban residents received preferential 
employment opportunities, favorable educational quotas, and 
old-age pensions. Rural residents did not. Hukou status, and 
the accompanying right to receive these benefits, is inherited 
at birth. Only limited methods exist for citizens to change 
their hukou status.\1\ During the late 1970s, the system became 
so rigid that rural residents risked arrest for entering urban 
areas. These limits effectively blocked upward mobility for 
most rural citizens.\2\
    Economic changes and relaxation of some hukou controls have 
eroded previously strict limits on citizens' freedom of 
movement,\3\ but these changes have also exported a 
discriminatory urban-rural social division to China's cities. 
Official statistics suggest 120 million rural migrants worked 
in Chinese cities in 2005, about a quarter of China's total 
urban population.\4\ Official reforms undertaken since the late 
1990s have allowed migrants to obtain hukou in urban areas 
where they have a ``stable source of income'' and a ``stable 
place of residence.'' \5\ Local officials, however, often 
interpret these terms to exclude low-income rural migrants.\6\ 
As a result, poor rural migrants may live in Chinese cities for 
long periods, even from birth, but retain hukou registration 
inherited from their parents because they are unable to obtain 
a local hukou in their new city of residence.
    Migrants who lack a local hukou for their new city of 
residence face legal discrimination. They cannot receive social 
services such as healthcare or schooling for their children on 
the same basis as other residents.\7\ Local authorities also 
condition government employment, old-age benefits, and low-
interest housing loans on having a local hukou in the city of 
residence.\8\ The Supreme People's Court issued a judicial 
interpretation in 2003 regarding compensation for deaths in 
personal injury cases that mandates a lower rate of 
compensation for deceased rural hukou holders, even if they 
have been resident in urban areas for many years.\9\ 
Representation in local legislative bodies favors urban hukou 
holders; an individual rural local people's congress deputy 
represents four times as many citizens as his or her urban 
counterpart.\10\
    Chinese laws and regulations that condition citizen legal 
rights and social services on hereditary hukou status conflict 
with international human rights standards on non-discrimination 
and have generated criticism in China. Article 26 of the 
International Covenant on Civil and Political Rights guarantees 
equal protection of the law and non-discrimination based on 
``national or social origin . . . birth or other status.'' 
Article 2(2) of the International Covenant on Economic, Social, 
and Cultural Rights also prohibits discrimination on the same 
grounds in fields such as employment, education, health, and 
social security benefits. In early 2006, Chinese news media 
carried a series of critical reports on cases of long-term 
migrants in urban areas who held non-local rural hukou and who 
were killed in traffic accidents. Families of the deceased 
received substantially less in compensation than families of 
residents who held local urban hukou and who were killed in the 
same or similar accidents.\11\ The father of one deceased 
migrant student said, ``My daughter had lived in the city for 
10 years. She didn't pay less for her school fees because she 
had [a] rural hukou. Why was her life worth less than half of 
that of her classmates? '' \12\
Reform Efforts in 2005 and 2006
    Chinese leaders called for reforms to the hukou system 
during the past year. Communist Party scholars and government 
officials publicly raised the subject of hukou reform in 
October 2005, after the conclusion of the Party plenum.\13\ The 
joint opinion issued by the Party Central Committee and the 
State Council in December 2005 made hukou reform part of the 
Party's ``new socialist countryside'' campaign on rural reform, 
and a policy goal for 2006.\14\
    Central government interest in reform stems not only from 
concern over migrant rights and economic inequality, but also 
from concern over growing social instability and a desire for 
stronger government control over China's internal migrant 
population. The December joint opinion emphasized the need to 
protect the ``legitimate rights and interests of farmers who 
seek work.'' \15\ Accompanying press statements noted a large 
and increasing gap 
between urban and rural incomes, with the former totaling 3.22 
times the latter in 2005.\16\ An earlier October 2005 joint 
Party and State Council opinion on public security and social 
stability also highlighted the need to better protect migrant 
rights, but also called for ``new techniques to manage China's 
migrant population.'' \17\ In December 2004, Chen Jiping, 
Director of the General Office of the Party's Committee for 
Comprehensive Management of Public Security, the office that 
drafted the October joint opinion, called for improving systems 
used to keep track of temporary residents, including better 
monitoring of migrant housing rentals.\18\
    New national goals for hukou reform, like similar proposals 
implemented periodically since the late 1990s, call for 
streamlined hukou categories, elimination of discriminatory 
regulations on employment, and improved migrant access to 
social services.\19\ Public Security Vice Minister Liu Jinguo 
said in October 2005 that the government was considering 
elimination of the distinction between ``agricultural'' and 
``non-agricultural'' hukous nationwide, a reform already 
adopted in 11 provinces.\20\ Chinese academics noted that this 
reform ``has not involved substantive content,'' since it does 
not affect the requirement that migrants must obtain a hukou in 
a particular city in order to receive equal access to social 
services.\21\ Liu also said that Chinese authorities will 
continue to require a ``stable place of residence'' to 
determine which migrants may obtain hukou in larger cities.\22\
    Both Liu's speech and the December joint opinion also 
called for elimination of discriminatory regulations that limit 
the ability of rural migrants to work in urban areas.\23\ The 
State Council issued a similar directive in December 2004.\24\ 
Some ministries and local authorities have taken steps to 
implement these directives. In late 2005, the Ministry of Labor 
and Social Services (MOLSS) issued a migrant rights handbook 
that says that MOLSS officials will not require migrants to 
obtain a work registration card from their place of origin 
before they seek jobs in urban areas.\25\ In early 2005, 
Beijing municipal authorities abolished regulations that 
prohibited renting apartments to migrants and that allowed 
labor officials to exclude migrants from certain 
occupations.\26\
    Finally, central government authorities have called for 
improving migrant access to urban social services as a national 
reform goal. Public Security Vice Minister Liu said that local 
governments should make serious efforts to address migrant 
housing, education, and healthcare needs.\27\ The December 
joint opinion calls for ``gradually constructing a social 
security network for migrants,'' ``exploring the provision of 
medical insurance for serious illnesses to migrants,'' and 
``solving the problem of educating migrant children'' \28\ [see 
Section IV--Introduction]. Draft amendments to the Law on 
Compulsory Education would charge local governments with 
providing equal educational opportunities to the children of 
migrants.\29\ The Ministry of Health has announced projects to 
educate migrant workers about HIV/AIDS, provide occupational 
healthcare, and vaccinate migrant children against infectious 
diseases.\30\
    Local governments and urban residents have resisted reforms 
to the hukou system because of the potential budgetary impact, 
fears of increasing population pressure in cities, and 
discriminatory attitudes toward migrants. Ministry of Public 
Security (MPS) officials said in November 2005 that national 
hukou reform efforts had encountered resistance from local 
authorities who would bear responsibility for funding the 
additional services to migrants.\31\ In the fall of 2005, 
Shenzhen authorities announced tighter rules for migrants in an 
effort to control the growth rate of the temporary resident 
population. The new Shenzhen measures temporarily suspend 
processing of local hukou applications for the dependent 
children of current Shenzhen migrant residents, limit the 
growth of private schools for migrant children, and require 
migrant parents to pay additional fees to enroll their children 
in public schools.\32\ Some urban residents oppose improved 
treatment for migrants, expressing concern about urban 
population growth and the influx of poor, less educated 
migrants. Citizens invited to comment on Beijing's municipal 
development plans in August 2005 demanded tighter restrictions 
on rural migrants, including strict hukou policies and strict 
controls on providing housing and employment to migrants.\33\
    Local opposition has limited the ability of central 
government authorities to achieve national reform goals. Lu 
Hongyan, Deputy Director of the MPS General Office, said that 
hukou reform ``is not entirely within the power or 
responsibility of the MPS,'' but that the MPS would attempt to 
coordinate with local governments and other ministries to 
present a hukou reform program by late December 2005 or early 
2006.\34\ Neither official sources nor the state-controlled 
news media have reported the completion of work on such a 
program. Chen Xiwen, Deputy Director of the General Office of 
the Central Leading Group for Finance and Economics, remarked 
at a press conference accompanying the issuance of the December 
2005 joint opinion that the ``attached benefits'' linked to 
hukou identification, such as education or healthcare, hinder 
reform efforts. Chen said that the central government will not 
press for a single plan for hukou reform, but will instead 
allow localities to adopt their own reforms.\35\
    Some provincial governments have made efforts to address 
discrimination against migrants. For example, Henan provincial 
authorities announced that starting in October 2005 they would 
include several urban medical facilities in the local rural 
health cooperative system. The plan allows migrants and rural 
residents to receive health services at the designated 
facilities, and forbids health providers from discriminating 
between urban and non-urban residents in assessing fees.\36\ In 
June 2006, the Henan High People's Court (HPC) issued an 
opinion setting death or injury compensation awards for some 
rural migrants at the same level as long-term urban residents. 
The opinion requires that rural migrants have a ``regular place 
of residence in the city'' and that their ``main source of 
income be earned in the city.'' \37\ The Anhui HPC has issued 
rules stipulating that injury or death compensation for minors 
who hold a rural hukou but attend school and live in urban 
areas shall be computed using the urban standard.\38\ Other 
courts and legislative bodies are considering issuing similar 
directives.\39\
    Other local reforms have been limited, or have reversed 
previous efforts to relax hukou controls. In January 2006, the 
Shanghai local people's congress (LPC) for the first time 
allowed two migrant workers from Jiangsu province to attend a 
session of the Shanghai LPC as observers. The China Economic 
Times, a State Council-sponsored publication, criticized the 
Shanghai LPC, however, for not allowing the two migrants to 
serve as full representatives. It noted that hukou restrictions 
bar migrants from standing for election, and that none of the 
1,000 LPC delegates attending the session represented 
Shanghai's 4 million migrant workers.\40\ Shenyang municipal 
authorities announced in December 2005 that they would resume 
requiring temporary residence permits for migrants. Authorities 
had abolished these permits in July 2003, 
requiring only that migrants sign in with local public security 
officials upon arrival in the city. Shenyang authorities noted 
that they reinstated the temporary residence permits to comply 
with provincial and national guidelines on hukou reform.\41\
International Travel
    The National People's Congress Standing Committee passed a 
new Law on Passports in April 2006 that will take effect in 
January 2007. The law narrows the legal authority of Chinese 
officials to deny passports to Chinese citizens.\42\ Article 13 
of the new law specifies the conditions under which Chinese 
authorities may deny a citizen's passport application, 
including document falsification, failure to prove citizenship, 
pending fulfillment of a criminal sentence or other criminal 
punishment, or a court order not to leave the country as a 
result of an ongoing civil case.\43\ Authorities may also deny 
a passport application if they determine that the applicant's 
activities abroad would harm national security or state 
interests.\44\ This language is narrower than that of the 
previous 1980 Regulations on Passports and Visas, which set no 
limits on the government's authority to deny passport 
applications.\45\ Article 12 of the International Covenant on 
Civil and Political Rights provides both that ``[e]veryone 
shall be free to leave any country, including his own,'' and 
that ``[n]o one shall be arbitrarily deprived of the right to 
enter his own country.'' Chinese authorities have denied 
passports to Chinese citizens who express views they find 
objectionable. In May 2006, Chinese authorities refused to 
issue passports to two Chinese lawyers who applied for 
permission to travel to the United States to assist a Falun 
Gong practitioner who faced criminal charges.\46\ Chinese 
authorities have also prevented Protestant house church leaders 
from traveling abroad [see Section V(d)--Freedom of Religion--
Religious Freedom for China's Protestants]. Yang Jianli, a 
Chinese citizen and democracy activist, is currently serving a 
five-year prison sentence in China on charges of illegal entry 
and espionage after entering the country on another person's 
passport. Throughout the 1990s, Yang was unable to secure a 
passport from Chinese consular officials in the United 
States.\47\ The UN Working Group on Arbitrary Detention has 
found his detention to be arbitrary.\48\

                    VI. Political Prisoner Database

    The Commission made the CECC Political Prisoner Database 
(PPD) globally accessible via the Internet in November 2004. 
The PPD serves as a unique and powerful resource for 
individuals, educational institutions, NGOs, and governments 
that wish to research political and religious imprisonment in 
China or advocate on behalf of prisoners. The Commission 
routinely uses the database for its own advocacy work, and to 
prepare summaries of information about political and religious 
prisoners for Members of Congress and senior Administration 
officials. The Commission uses the database to alert the public 
about upcoming dates of parole eligibility, and about dates 
when sentences expire and prisoners are due for release. The 
PPD received approximately 150,000 online requests for prisoner 
information since last October.
    The PPD is designed to allow anyone with Internet access to 
query the database and download prisoner data without providing 
personal information. Users also have the option to create a 
user account, which allows them to save, edit, or reuse 
queries. A user-specified ID and password is the only 
information required to set up a user account. The PPD does not 
download or install any software or Web cookies to a user's 
computer.
    The PPD currently allows users to conduct queries on 19 
categories of prisoner information.\1\ The Commission intends 
to upgrade the PPD software and interface to make it possible 
to search and retrieve more categories of prisoner information, 
such as the names and locations of the courts that convicted 
political and religious prisoners, and the dates of key events 
in the legal process such as sentencing and decision upon 
appeal. The Commission also plans future upgrades that will 
make it possible for users to navigate between reports on 
political imprisonment in the CECC Virtual Academy and records 
of political and religious prisoners in the PPD. The Virtual 
Academy is accessible on the Commission's Web site.
    Each prisoner's record describes the type of human rights 
violation by Chinese authorities that led to his or her 
detention. These include violations of the right to peaceful 
assembly, freedom of religion, freedom of association, freedom 
of expression, including the freedom to advocate peaceful 
social or political change, and to criticize government policy 
or government officials. Many records feature a short summary 
of the case that includes basic details about the political or 
religious imprisonment and the legal process leading to 
imprisonment. Users may download information about prisoners 
from the PPD as Adobe Acrobat files or Microsoft Excel 
spreadsheets.
    As of September 2006, the PPD contained more than 3,900 
individual case records of political and religious imprisonment 
in China. The Dui Hua Foundation, based in San Francisco, and 
the Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database.\2\ The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by NGOs and 
other groups that specialize in promoting human rights and 
opposing political and religious imprisonment.
    The PPD is accessible on the Internet at http://
ppd.cecc.gov. The Commission Web site contains instructions on 
how to use the PPD.

  VII. Development of the Rule of Law and Institutions of Democratic 
                               Governance

                  VII(a) Development of Civil Society


                                findings


        <bullet> The number of civil society organizations in 
        China is growing, with many organizations undertaking 
        projects such as poverty alleviation, faith-based 
        social work, and legal efforts to protect citizen 
        rights. These organizations include national mass 
        organizations that the Communist Party created and 
        funds, smaller citizen associations registered under 
        national regulations, and loose networks of 
        unregistered grassroots 
        organizations. In February 2006, the China Foundation 
        for Poverty Alleviation selected six groups as the 
        first civil society organizations to receive Chinese 
        government funding to run experimental anti-poverty 
        programs, including the China office of a U.S.-based 
        rural development organization.
        <bullet> Central authorities seek to maintain control 
        over civil society groups, halt the emergence of 
        independent organizations, and prevent what they have 
        called the ``Westernization'' of China. While 
        recognizing the utility of civil society organizations 
        to address social problems, Chinese authorities use 
        strict regulations to limit the growth of an 
        independent civil society. Some Chinese citizens who 
        attempt to organize groups outside of state control 
        have been imprisoned. These include individuals who 
        have attempted to establish independent labor unions 
        and political associations, such as China Free Trade 
        Union Preparatory Committee member Hu Shigen and China 
        Democracy Party member Qin Yongmin; or young 
        intellectuals who organize informal discussion groups, 
        such as New Youth Study Group members Jin Haike, Xu 
        Wei, Yang Zili, and Zhang Honghai.
        <bullet> Chinese officials have taken additional steps 
        to curtail civil society organizations in the past 
        year, but authorities are undecided on how to proceed. 
        Since early 2005, Ministry of Civil Affairs (MOCA) 
        officials have been researching a new administrative 
        system to monitor and control civil society 
        organizations. Many details of the new system are 
        undetermined, such as who will conduct the required 
        evaluations of civil society groups, how the evaluation 
        results will be used, and who will fund the 
        evaluations. At the same time, Chinese authorities have 
        supported limited reforms to the status of civil 
        society organizations. MOCA officials are advocating 
        changes to the tax code to encourage private donations 
        to civil society organizations. Central Party officials 
        have expressed support for the creation of rural farmer 
        cooperatives in annual policy guidelines issued each 
        year since 2004.
Civil Society and Government Controls
    The number of civil society organizations in China is 
growing, with many organizations undertaking projects such as 
poverty alleviation, faith-based social work, and legal efforts 
to protect citizen rights.\1\ These organizations include 
national mass organizations that the Communist Party created 
and funds, smaller citizen associations registered under 
national regulations, and loose networks of unregistered 
grassroots organizations.\2\ According to official Chinese 
statistics, the number of registered civil society 
organizations increased from 288,936 in 2004 to 317,000 in 
2006, but one Chinese source estimates the number of 
unregistered organizations to be as high as 3 million.\3\ 
Chinese authorities support the growth of civil society 
organizations to help address social problems such as poverty 
and AIDS.\4\ Ministry of Civil Affairs (MOCA) officials 
acknowledge that these organizations have ``exerted [a] 
positive influence in boosting China's economic growth and 
helping maintain social stability.'' \5\ In February 2006, the 
China Foundation for Poverty Alleviation selected six groups to 
be the first civil society organizations to receive Chinese 
government funding to run experimental anti-poverty programs, 
including the China office of a U.S.-based rural development 
organization.\6\
    While recognizing the utility of civil society 
organizations to address social problems, Chinese authorities 
use strict regulations to limit the growth of an independent 
civil society. National regulations issued in 1998 require that 
civil society organizations have a government-approved sponsor 
organization to register and obtain legal status.\7\ The 
government limits sponsor organizations to designated 
government and Party bureaus.\8\ This requirement contravenes 
Article 22 of the International Covenant on Civil and Political 
Rights, which provides that:

          [N]o restrictions shall be placed on the exercise of 
        [the freedom of association] other than those which are 
        prescribed by law and which are necessary in a 
        democratic society in the interests of national 
        security or public safety. . . .\9\

    Chinese regulations that require a government sponsor 
organization for registration, and that consider all groups 
that do not register to be illegal, differ from legal standards 
in many countries and regions, including India, South Korea, 
the European Union, and the United States.\10\ Other countries, 
such as Moldova, Singapore, Tajikistan, and Uzbekistan, have 
legal requirements similar to those in China.\11\
    Chinese civil society organizations also have difficulty 
raising funds, which limits their ability to act independently. 
The majority of funds raised by environmental civil society 
organizations is monopolized by a small group of organizations 
with close official ties, according to a 2005 survey by the 
All-China Environment Federation (ACEF).\12\ As a result, these 
groups avoid direct confrontation with the government. Almost 
65 percent of environmental organizations say that they would 
prefer to cooperate with authorities, while 32.1 percent said 
they would neither cooperate with nor oppose the 
government.\13\ As one officer of a Chinese civil society 
organization noted, ``[we] all recognize that keeping in line 
with government policies and receiving government approval are 
indispensable prerequisites for successful action.'' \14\ These 
pressures are heightened by legal rules that hamper the ability 
of civil society organizations to raise funds from private 
domestic donors.\15\ Current law provides that Chinese 
corporations may only deduct charitable donations for tax 
purposes that are made to a few specified groups, and limits 
tax exemptions to 3 percent of income.\16\
    Central authorities seek to maintain control over civil 
society groups, halt the emergence of truly independent 
organizations, and prevent what they have called the 
``Westernization'' of China. Top government and Party officials 
have stopped citizen efforts to 
register groups that they perceive as a threat, such as qigong 
associations and organizations of veterans, laborers, and the 
unemployed.\17\ Party officials have ordered the establishment 
of Party cells within civil society organizations.\18\ Chinese 
authorities periodically issue warnings against the use of 
civil society organizations by ``hostile Western forces'' to 
``combat'' or ``infiltrate'' China\19\ [see Section V(a)--
Special Focus for 2006: Freedom of Expression and Section 
V(d)--Freedom of Religion]. Some Chinese citizens who attempt 
to organize groups outside of state control have been 
imprisoned. These individuals include those who have attempted 
to establish independent labor unions and political 
associations, such as China Free Trade Union Preparatory 
Committee member Hu Shigen and China Democracy Party member Qin 
Yongmin, and young intellectuals who organize informal 
discussion groups, such as New Youth Study Group members Jin 
Haike, Yang Zili, Xu Wei, and Zhang Honghai.\20\
    Official reluctance to permit independent citizen 
associations limits the options of Chinese citizens seeking to 
protect their interests. According to the 2005 ACEF survey, 
only 23.3 percent of Chinese environmental civil society groups 
are registered.\21\ The absence of applicable national legal 
standards hampers the development of the approximately 140,000 
rural farmer cooperatives established as of 2003. Farmers use 
these cooperatives to pool resources, increase their 
competitiveness, and undertake limited collective action 
against government authorities. National law does not provide 
clear legal standards for the registration of these 
organizations. Without legal status, they cannot borrow money 
from institutional lenders or sign legally binding contracts. 
Their tax obligations are also unclear. Some have registered 
with MOCA, others with the Ministry of Industry and Commerce, 
and others choose not to 
register.\22\
Developments During 2005 and 2006
    Chinese officials have taken additional steps to curtail 
civil society organizations in the past year, but recent 
developments indicate that authorities are undecided on how to 
proceed with additional controls. In early 2005, an article in 
an academic journal sponsored by the State Council pressed 
officials to prevent Western ``infiltration and sabotage of 
China through political NGOs.'' \23\ International NGOs with 
U.S. ties operating in China subsequently have reported Chinese 
partners cancelling or withdrawing from projects under 
government pressure.\24\ Since 2005, Chinese public security 
officials have investigated the operations of domestic and 
international civil society organizations and questioned their 
staff.\25\ In February 2006, prominent Chinese AIDS activist Hu 
Jia resigned from Loving Source, an organization that he helped 
establish to assist the orphans of AIDS victims, citing 
pressure on the organization's international donors. Hu said 
that the Chinese government ``is using soft methods to narrow 
the space NGOs can exist in. The authorities are worried a 
civil society would bring about a strong force that challenges 
its rule.'' \26\ In August 2006, one Western expert on Chinese 
civil society said that there has been a ``virtual paralysis'' 
of official registration by civil society organizations in 
China, contrasted this with a more permissive climate two years 
ago, and also noted an increase in self-censorship on the part 
of civil society organizations that seek to avoid antagonizing 
the government.\27\
    Since early 2005, Ministry of Civil Affairs (MOCA) 
officials have been researching a new administrative system to 
supervise and control civil society organizations. In March 
2005, MOCA established a leading group to develop this system. 
During the summer of 2005, MOCA sponsored research on the new 
system in Jinan and Qingdao municipalities in Shandong 
province, and participated in international conferences 
regarding new management techniques for civil society 
organizations in the fall of 2005.\28\ News media reports and 
official statements say that the system will be designed to 
``evaluate'' and ``rate'' civil society organizations.\29\ Many 
details of the new system have not been determined, such as who 
will conduct the evaluations, how the evaluation results will 
be used, and who will fund the evaluations.\30\ Provincial 
efforts to implement the new system suggest that it will 
augment rather than replace existing controls. For example, 
Jiangxi provincial officials called for the implementation of 
the new administrative system in March 2006, and said that it 
should operate in addition to existing registration authorities 
and official sponsor organizations.\31\ A MOCA official said 
these efforts seek to improve the ``quality'' of civil society 
organizations,\32\ while MOCA-sponsored conferences have linked 
these efforts to the elimination of ``illegal organizations.'' 
\33\
    Central government officials continue to consider draft 
revisions to the 1998 regulations that govern civil society 
organizations. Although MOCA officials have suggested that the 
sponsor organization requirement be abolished,\34\ other 
central government officials have rejected this option. State 
publications note that ``there are no fundamental changes in 
the draft revision[s]'' and that the sponsor organization 
requirement will remain unchanged.\35\ News reports suggest 
that the planned revisions contain a degree of liberalization, 
allowing authorities discretion to register multiple civil 
organizations of the same type in the same administrative area, 
and 
removing high capital requirements for registration.\36\ 
Reports also indicate that the revisions will allow 
international organizations that operate in China to register, 
but will also require them to have approved sponsor 
organizations.\37\ Existing regulations do not specify a 
procedure for most foreign NGOs to register, and therefore 
their status is unclear.\38\ The reported content of the 
revisions corresponds to the approach taken in 2004 national 
regulations on foundations, which replaced a prior set of rules 
on the same 
subject.\39\
    Chinese authorities have supported limited reforms to the 
status of civil society organizations. MOCA officials are 
advocating changes to the tax code to encourage private 
donations to civil society organizations.\40\ Central Communist 
Party officials have expressed support for the creation of 
rural farmer cooperatives in annual policy guidelines issued 
each year since 2004.\41\ Zhejiang provincial officials have 
experimented with granting legal status to these cooperatives, 
passing the first set of provincial regulations in 2004, and 
registering the first group of associations under these rules 
in 2005.\42\ In 2006, Chinese leaders voiced support for 
national legislation to reform lending, tax, and registration 
treatment of rural farmer cooperatives.\43\ The National 
People's Congress (NPC) has placed relevant proposals on the 
2006 legislative calendar. Nonetheless, NPC delegates say that 
the central government's attitude toward these organizations 
remains ``cautious'' and that central officials only support 
these reforms because they have concluded that these 
cooperatives are economic in nature, and will not become 
involved in political issues.\44\

  VII(b) Institutions of Democratic Governance and Legislative Reform


                                findings


        <bullet> China has an authoritarian political system 
        controlled by the Communist Party. Party committees 
        formulate all major state policies before the 
        government implements them. The Party dominates Chinese 
        legislative bodies such as the National People's 
        Congress (NPC), and fills all important government 
        positions in executive and judicial institutions 
        through an internal selection process. Party control 
        extends throughout institutions of local government.
        <bullet> In 2005, the central leadership called for 
        strengthened 
        controls over society to address mounting social unrest 
        and to suppress dissent. Chinese authorities have ruled 
        out building representative democratic institutions to 
        address citizen complaints about corruption and abuse 
        of power, and instead are recentralizing government 
        posts into the hands of individual Party secretaries.
        <bullet> The absence of popular and legal constraints 
        to check the behavior of Party officials has led to 
        widespread corruption and citizen anger. The Party has 
        strengthened the role of internal responsibility 
        systems to moderate official behavior, but these 
        systems have provided some local Party officials with 
        new incentives to conceal information and abuse their 
        power.
        <bullet> Since the 1980s, officials have introduced 
        limited reforms to allow citizens to vote in village 
        elections. While these reforms are a step forward in 
        permitting citizen participation at the local level, 
        the reforms are designed to strengthen Party governance 
        and do not represent Party acceptance of representative 
        government.
        <bullet> Since the late 1990s, the Party has 
        experimented with reforms that allow a limited degree 
        of citizen participation in the selection of local 
        Party cadres, but the Party retains tight control over 
        the candidate pool and the selection process. Since 
        2000, Chinese authorities have experimented with the 
        use of legislative hearings to solicit public views on 
        pending legislation, and the NPC held its first 
        controlled public hearing in September 2005.
        <bullet> Since 2000, the central government has 
        announced new transparency requirements for local 
        governments. In March 2005, central authorities 
        specifically required county and provincial governments 
        to increase transparency and popular participation in 
        government decisionmaking. Implementation of these 
        ``open government'' requirements varies, but some local 
        governments have taken steps toward greater 
        transparency.
Introduction
    China has an authoritarian political system controlled by 
the Communist Party. Party committees formulate all major state 
policies before the government implements them. The Party 
dominates Chinese legislative bodies such as the National 
People's Congress (NPC), and fills all important government 
positions in executive and judicial institutions by an internal 
selection process. The State Council's White Paper on 
``Building Political Democracy in China,'' issued in October 
2005, says that:

          Party committees serve as the leadership core over 
        all [government and mass] organizations at the same 
        level . . . and through Party committees and cadres in 
        these organizations, ensure that the Party's policies 
        are carried out. . . . Through legal procedures and 
        democratic discussion, Party committees ensure that 
        Party proposals become the will of the state and that 
        candidates recommended by Party organizations become 
        leaders in the institutions of state power.\1\

    Party control extends throughout institutions of local 
government. Party institutions control the selection of judges, 
and local Party committees influence which judges are posted to 
their localities.\2\ Many local Party secretaries serve 
concurrently as head of the local people's congress (LPC).\3\ 
County and township Party secretaries also control LPC and 
village elections through the election leadership groups which 
they often head.\4\ The Party constitution charges delegates to 
Party congresses with selecting and controlling local Party 
committees,\5\ but, as a U.S. expert noted at a Commission 
roundtable, delegates ``are generally uninformed as to the 
content of the Party congress or who they are to vote for until 
just before the congress meets.'' \6\
    China's authoritarian one-party system does not comply with 
international human rights standards contained in the 
International Covenant on Civil and Political Rights 
(ICCPR).\7\ Article 25 of the ICCPR requires that citizens be 
allowed to ``take part in the conduct of political affairs'' 
and ``to vote and to be elected at genuine periodic 
elections.'' Under General Comment 25 to the ICCPR, this 
language requires that:

        <bullet> The right of persons to stand for election 
        should not be limited unreasonably by requiring 
        candidates to be members of parties or of specific 
        parties;
        <bullet> Party membership should not be a condition of 
        eligibility to vote;
        <bullet> It is implicit in Article 25 that [elected] 
        representatives do in fact exercise governmental power 
        and that they are accountable through the electoral 
        process for their exercise of that power;
        <bullet> An independent electoral authority should be 
        established to supervise the electoral process and to 
        ensure that it is conducted fairly, impartially, and in 
        accordance with established laws which are compatible 
        with the ICCPR;
        <bullet> Freedom of expression, assembly, and 
        association are essential conditions for the effective 
        exercise of the right to vote and must be fully 
        protected.

    The absence of popular and legal constraints to check the 
behavior of Party officials has led to widespread corruption 
and citizen anger. Although Party policy documents assert that 
one-party control is necessary for social stability,\8\ senior 
Chinese officials have acknowledged that the inability of local 
Party cadres to respond to citizen grievances is contributing 
to rising social unrest.\9\ As one U.S. expert noted, ``the 
power concentrated in the hands of the Party secretary and 
standing committee has led to corruption and other abuses of 
power that have fed social protests and a general decline in 
the legitimacy of the Party in recent years.'' \10\ For 
example, thousands of local Chinese officials have used their 
positions to acquire financial interests in local mines, 
hampering efforts to improve their safety [see Section V(c)--
Protection of Internationally Recognized Labor Rights]. In some 
localities, police collude with criminal forces\11\ [see 
Section V(b)--Rights of Criminal Suspects and Defendants--
Public Security and Coercive Use of Police Power]. In June 
2005, local officials hired armed thugs to break up a protest 
by farmers in Shengyou village, Hebei province, killing six 
villagers and wounding more than 100. Villagers had opposed 
local government efforts to seize their land and claimed that 
local officials had embezzled money that should have gone to 
the villagers.\12\ Ministry of Public Security statistics show 
that incidents of ``mass gatherings to disturb social order'' 
rose by 13 percent from 2004 to 2005.\13\ Weak protection of 
labor rights and worker discontent over unpaid wages and 
benefits resulted in an increase in mass labor disputes from 
1,482 in 1994 to 11,000 in 2003.\14\ Both collective and 
individual citizen petitions seeking official redress have 
increased steadily from 1993 to 2004.\15\
    Party secretaries can block access to local information 
sources that might challenge their control,\16\ which stifles 
the role of the media as a check on the abuse of government 
power. In November 2005, Jilin provincial officials prevented 
the news media from reporting on an industrial accident and 
massive benzene leak on the Songhua River for more than a week. 
The delayed local government response impeded central 
government efforts to manage the crisis, caused panic among the 
citizens of Harbin city, and created a diplomatic incident with 
Russia\17\ [see Section V(f)--The Environment]. In June 2005, 
Hong Kong news media reported that Party propaganda officials 
issued a directive limiting publication of critical 
investigative reports by local news media through a requirement 
that state-run news media first clear the articles with the 
local Party committee.\18\ [See Section V(a)--Special Focus for 
2006: Freedom of Expression.]
    Chinese authorities have ruled out building representative 
democratic institutions to address citizen complaints about 
corruption and abuse of power,\19\ and are recentralizing 
government posts into the hands of individual Party 
secretaries. Officials are also relying on top-down personnel 
controls to address local governance problems,\20\ but these 
measures have increased incentives for some local Party 
secretaries to conceal problems from their superiors, and thus 
risk compounding the issue.\21\ One Commission roundtable 
witness noted that ``rural governance can only be improved 
within the current framework by strengthening the measures to 
monitor government by the local congress[es] and farmers' 
organizations,'' but that ``Chinese rural governments have no 
impetus to initiate their own reform. . . .'' \22\
Stronger Party Controls
    In 2005, Communist Party officials called for strengthened 
controls over society to address mounting social problems and 
suppress dissent. In October 2005, the Party Central Committee 
and State Council issued an opinion calling for strengthened 
controls over society, and the accompanying press statement set 
a 2006 goal to reduce the number of ``mass incidents'' that 
disturb public order, including strikes, marches, 
demonstrations, and collective petitions to government 
authorities.\23\ In January 2005, Party leaders launched an 
``advanced education'' campaign to strengthen Party 
organizations and to conduct political education for Party 
cadres. Officials expanded the campaign to rural areas in 
November 2005.\24\ Party officials assert that this propaganda 
campaign will help reduce social unrest.\25\ A December 2005 
Party and State Council joint opinion called for strengthening 
village autonomous institutions (such as elected village 
committees), but ``under village Party leadership.'' \26\ 
Government officials tightened controls over the press and 
imposed new restrictions on the Internet [see Section V(a)--
Special Focus for 2006: Freedom of Expression]. Authorities 
issued warnings about the activities of civil society 
organizations, and are preparing new measures to monitor and 
control them [see Section VII(a)--Development of Civil 
Society].
    Party officials say that the Chinese government ``will 
absolutely not imitate Western political models,'' and they are 
strengthening Communist consultative institutions instead of 
creating representative political bodies.\27\ At the March 2005 
meeting of the Chinese People's Political Consultative 
Conference (CPPCC), Central Party School Vice President Li 
Junru contrasted the Chinese system of ``elections plus 
consultation'' with ``discredited'' Western liberal democratic 
models.\28\ The CPPCC is a Party-led organization that includes 
Party members, representatives of Party mass organizations, and 
non-Party members that closely align themselves with Party 
goals, including members of the eight minor ``democratic'' 
parties permitted under Chinese law.\29\ Li said, ``[i]n order 
to 
address foreign and domestic challenges regarding the issue of 
democracy, particularly the challenge of the `color 
revolutions,' the advantages of the CPPCC need to be brought 
into play more effectively.'' \30\ In February 2006, Party 
authorities issued an opinion on strengthening the CPPCC.\31\ 
It described ``Chinese socialist democracy'' as including not 
only elections but also ``political consultation'' between 
CPPCC and Party officials before important policy decisions are 
made.\32\ It emphasized the role of the CPPCC in reflecting 
popular opinion and providing government and Party leaders with 
suggestions.\33\ It also called for stronger guarantees that 
non-Party members may participate in consultations about 
government policies.\34\ Foreign and Chinese news media have 
noted that Chinese government and Party officials see the CPPCC 
as a means to address mounting social unrest and popular 
grievances.\35\
    Party officials are recentralizing government posts into 
the hands of Party secretaries, reversing reforms from the late 
1980s in which Party leaders took some steps toward separating 
government and Party roles.\36\ Chinese authorities now 
encourage local Party secretaries to serve as the heads of 
local people's congresses (LPCs), and also encourage the same 
person to be village Party secretary and village committee 
head.\37\ The Party's September 2004 ``Decision on 
Strengthening the Party's Ruling Capacity'' instructed 
officials to increase the number of dual Party-government 
appointments.\38\ In 2005, Anhui provincial authorities 
expanded to 17 counties an experimental program that implements 
the 2004 Decision.\39\ The Anhui program promotes having 
township Party secretaries serve concurrently as the head of 
township governments.\40\ Reforms in individual townships 
require other government positions to be held by lower-ranking 
Party committee members.\41\ Local officials say that the 
reforms seek to reduce overlapping responsibilities between 
government and Party officials, thereby decreasing the size of 
government and the local tax burden. Chinese domestic media has 
raised concerns about the wisdom of concentrating power in the 
hands of a single Party official.\42\
    Chinese authorities increasingly use responsibility systems 
that, in the absence of popular and legal constraints on their 
power, provide incentives for local Party officials to conceal 
information and engage in illegal behavior. Responsibility 
systems link career rewards and sanctions to the success of 
local officials in meeting government and policy goals for 
social order, population planning, and other issues.\43\ 
Because no meaningful popular participation constrains the 
behavior of local officials, responsibility systems create 
incentives for abuse of authority, as officials try to fulfill 
the goals set by their superiors. Such abuses include covering 
up mining 
accidents to meet safety goals [see Section V(c)--Protection of 
Internationally Recognized Labor Rights], coercing women to 
have abortions to meet population planning targets [see Section 
V(h)--Population Planning], and illegally detaining petitioners 
to meet social order objectives [see Section VII(c)--Access to 
Justice]. In July 2005, the State Council issued an opinion 
promoting the use of these top-down personnel systems.\44\ 
Since that time, authorities have ordered responsibility 
systems to be implemented widely for officials in charge of 
enforcing intellectual property rights,\45\ prohibiting illegal 
mining,\46\ protecting the environment,\47\ and supervising the 
judiciary [see Section VII(c)--Access to Justice]. In 
December 2005, central Party officials said that government and 
Party leaders at all levels should bear personal responsibility 
for maintaining social order.\48\
Limited Public Participation Reforms
    Since the 1980s, officials have introduced limited reforms 
to allow citizens to vote in village elections. While these 
reforms are a step forward in permitting citizen participation 
at the local level, the reforms are designed to strengthen 
Party governance and do not represent Party acceptance of 
representative government.\49\ Since the 1990s, Chinese 
authorities have pursued other reforms to increase citizen 
political participation, including the use of public hearings, 
greater government transparency requirements, and citizen 
participation in Party elections.\50\ As one U.S. expert noted 
at a Commission roundtable, Chinese leaders have introduced 
these reforms to

          allay local discontent, to respond to growing demands 
        for greater participation in politics, and to better 
        monitor local agents of the state. . . . [They intend 
        to] improve Party responsiveness both to reduce 
        societal discontent and to preserve the Party's ruling 
        position.\51\

    These reforms attempt to ``gain the sort of input that 
elections normally provide, but without introducing electoral 
democracy.'' \52\ In an October 2005 joint opinion, Party and 
State Council officials specified that they want to create a 
system in which ``the Party leads, the government bears 
responsibility, society assists, and the people participate.'' 
\53\
    Since the late 1990s, the Party has experimented with 
reforms that allow a limited degree of citizen participation in 
the selection of local Party cadres, but the Party retains 
tight control over the candidate pool and the selection 
process. Party regulations adopted in 1995 and 2002 granted 
officials the discretion to permit public participation in 
nominations of government and Party leaders.\54\ But the 
regulations warned that Party selection of nominees should not 
depend solely on the total number of votes received in the 
nomination process.\55\ ``Public nomination, direct election'' 
experiments are currently under way in 217 counties in 13 
provinces.\56\ These experiments, however, grant citizens only 
a small role in the nomination of potential candidates, while 
allowing Party committees to strike names from the nominee 
lists, and giving Party members the final authority to choose 
officials.\57\ For example, in February 2006 elections for the 
township Party committee in Longtoupu, Hunan province, Party 
members and non-Party citizen delegates first selected 
candidates from 16 nominees. The system weighted the selection 
process in favor of Party members, however, by restricting the 
proportion of citizen delegates to 30 percent (136) of the 
number of Party members (433). Party members then participated 
in a Party-only election to choose seven township committee 
members from the nine remaining candidates.\58\
    Since 2000, Chinese authorities have experimented with the 
use of hearings to solicit public views on pending 
legislation.\59\ The National People's Congress held its first 
controlled public hearing in September 2005. It chose 20 
people, including academics and migrant workers, from among 
nearly 5,000 applicants to offer opinions on a proposal to 
raise the minimum taxable income.\60\ The 2002 Environmental 
Impact Assessment (EIA) Law generally requires authorities and 
developers to hold public hearings or use other means to 
solicit public and expert input when projects may have a 
significant environmental impact.\61\ The 2003 Administrative 
Licensing Law places similar requirements on government 
efforts to create administrative licensing schemes.\62\ 
National authorities at the State Environmental Protection 
Administration (SEPA) and local authorities in cities such as 
Shenyang city in Liaoning province have adopted implementing 
measures for holding hearings under these two laws.\63\ 
Environmental authorities and activists used public hearings in 
2004 and 2005 to challenge some development projects.\64\
    Citizen efforts to use hearings to advocate for change have 
been hampered both by the opposition of some central government 
officials and by rules that do not require hearings until late 
in the 
regulatory drafting process. SEPA sponsored two environmental 
hearings in Beijing that received wide news media coverage and 
allowed the public to air concerns about the projects, but the 
hearings had limited impact on the projects. Some Western 
experts have noted that the hearings occurred well after the 
projects were under way.\65\ Government authorities responded 
to public opposition to government plans to dam the Nujiang (Nu 
River) by temporarily halting the project, conducting a closed 
internal review, and banning further news media coverage of the 
topic\66\ [see Section V(f)--The Environment--Public 
Participation in Environmental Protection]. Chinese officials 
have taken steps to curb SEPA's activism in the field of 
environmental protection. Soon after SEPA ordered the closure 
of 30 construction projects in early 2005 for failure to comply 
with EIA procedures, other central government officials 
overruled the decision.\67\
    The central government has also announced transparency 
requirements for local governments. In 2000, the Party and 
State Council issued a joint opinion directing township 
authorities to make information available to the public on 
government administration and local finances. The joint opinion 
also encouraged authorities at the county level and above to 
experiment with such policies.\68\ A March 2005 opinion 
expanded these requirements, announced the principle that 
government information generally should be made public, placed 
specific requirements on county and provincial governments, and 
linked these steps to efforts to increase popular participation 
in supervising government decisions.\69\ Neither opinion 
requires officials to make Party information public. 
Implementation of these ``open government'' requirements 
varies, but some local governments, including the cities of 
Shanghai and Guangzhou, have taken steps toward greater 
openness.\70\
    Local experiments with governance reform can result in 
positive changes when they are linked to substantive and 
independent citizen oversight. Officials in Wuyi county in 
Zhejiang province have allowed the creation of ``village 
affairs supervision committees'' with veto power over the 
financial decisions of the local Party branch and the village 
committee.\71\ Villagers select supervision committee members 
through direct election, and the committee may not include 
Party branch or village committee members. The reforms have 
helped check official corruption and have provided limited 
space for citizen political participation.\72\ Nonetheless, 
supervision committees in Wuyi remain dependent on the support 
of individual reform-minded Party cadres, and officials 
threatened by these reforms have resisted such efforts.\73\
    In December 2005, the government placed reform of laws 
governing village and residents' committees (VCs, RCs) on the 
national 2006 legislative plan.\74\ In October 2005, provincial 
Ministry of Civil Affairs officials prepared draft proposals 
for reform of the Organic Law on Village Committees. The 
proposed changes would regularize and clarify campaign rules, 
allow village representative assemblies to choose the village 
election committee, and require townships to organize village 
recall elections if a village assembly fails to handle a 
recall.\75\ These changes do not address issues such as 
township government and local Party control over VCs. Party 
regulations and directives require local Party branches to 
direct VC election work.\76\ One local Party organization 
bureau official explained that this mandate requires the local 
Party secretary to head the election committee that is charged 
with supervising the elections; to organize Party members to 
serve on the election committee; to encourage Party members to 
run for the position of VC head; and to bar the registration of 
candidates who belong to unregistered religious groups, oppose 
population planning policies, or organize mass petitions.\77\
    Local Party and township government control over local 
elections undermines the protections granted to citizens by 
national law. In July 2005, residents of Taishi village, 
Guangdong province, launched a recall campaign pursuant to the 
provisions of Article 16 of the Organic Law on Village 
Committees that authorize such efforts.\78\ The recall sought 
to remove the official serving as both local Party branch 
secretary and village committee head, whom they accused of 
misusing village revenue from land sales.\79\ In September 
2005, township and village officials suppressed the recall 
effort. They removed village financial documents from 
government offices, forced popularly elected members of the 
recall committee to resign, arrested and beat dozens of 
residents and activists, and barred reporters from entering the 
village.\80\ In March 2006, a leader of the Taishi recall 
effort lost a township local people's congress election bid 
against a rival candidate supported by local officials. The 
defeated candidate and his supporters alleged that the rival 
candidate bought votes and that the election committee and 
local officials tampered with the ballots.\81\

                        VII(c) Access to Justice


                                findings


        <bullet> International human rights standards require 
        effective remedies for official violations of citizen 
        rights. Despite these guarantees, Chinese citizens face 
        formidable obstacles in seeking remedies to government 
        actions that violate their legal rights and 
        constitutionally protected freedoms. External 
        government and Communist Party controls continue to 
        limit the independence of the Chinese judiciary. Party 
        officials control the selection of top judicial 
        personnel in all courts, including the Supreme People's 
        Court, China's highest judicial authority. Since 2005, 
        the government has restricted the efforts of private 
        lawyers and human rights defenders who challenge 
        government abuses. The All China Lawyers Association 
        issued a guiding opinion that restricts the ability of 
        lawyers to handle cases involving large groups of 
        people. Local Chinese authorities have imposed 
        additional restrictions on lawyer advocacy efforts.
        <bullet> The constitutional and administrative 
        mechanisms in Chinese law that allow citizens to 
        challenge government actions do not provide effective 
        legal remedies, and Chinese citizens seldom use them. 
        Chinese citizens rarely submit proposals to the 
        National People's Congress for constitutional and legal 
        review because the review process lacks transparency 
        and citizens cannot compel review. Administrative court 
        challenges to government actions have not increased 
        since 1998. Provincial authorities report an overall 
        decline between 2003 and 2005 in applications for 
        administrative reconsideration, and the total numbers 
        of such applications in major Chinese municipalities is 
        a few hundred per year.
        <bullet> Chinese law also permits citizens to petition 
        government officials directly to redress their 
        grievances through the xinfang (``letters and visits'') 
        system. Official news media report that Chinese 
        citizens presented 12.7 million petitions to county-
        level and higher xinfang bureaus during 2005, in 
        contrast to the 8 million total court cases handled by 
        the Chinese judiciary during the same period. Local 
        officials are disciplined more severely for high 
        incidences of petitioning. Absent alternative political 
        or legal channels to check the power of local officials 
        and obtain redress, this punishment structure provides 
        an incentive for Chinese citizens to take their 
        grievances to the streets in order to force local 
        officials to act. But this punishment structure also 
        gives local authorities an interest in suppressing mass 
        petitions and preventing petitioners from approaching 
        higher authorities. A December 2005 study of the 
        xinfang system by a U.S. NGO found that some local 
        authorities have 
        resorted to ``rampant violence and intimidation'' to 
        abduct or detain petitioners in Beijing and force them 
        to return home.
        <bullet> The Supreme People's Court 2004-2008 court 
        reform program imposes stronger external and internal 
        controls that may further weaken the independence of 
        courts and judges. The court reform program, however, 
        also sets some positive long-term goals for judicial 
        reform in the areas of court financing, adjudication, 
        retrial procedures, and juvenile justice. Party efforts 
        to address growing social unrest have resulted in new 
        government programs to strengthen institutions that 
        assist citizens with legal claims and disputes. 
        Official Chinese statistics show that the number of 
        government legal aid centers rose from 2,774 in 2003 to 
        3,081 in 2005. The total number of cases handled by 
        these centers rose from about 166,000 in 2003 to an 
        estimated 250,000 in 2005, or roughly 3 percent of all 
        cases handled by the Chinese courts in 2005.
Access to Justice and International Human Rights Standards
    Chinese citizens face formidable obstacles in seeking 
remedies to government actions that violate their legal rights 
and constitutionally protected freedoms. Party and government 
controls limit the independence of Chinese courts and weaken 
the ability of individual judges to decide cases fairly. The 
government restricts lawyer advocacy efforts, particularly in 
politically sensitive cases. 
Although Chinese law provides citizens with Constitutional, 
judicial, and administrative mechanisms to challenge official 
violations of their rights, these mechanisms do not provide 
effective legal remedies.
    International human rights standards require effective 
remedies for official violations of citizen rights. Article 8 
of the Universal Declaration of Human Rights states that 
``Everyone has the right to an effective remedy by the 
competent national tribunals for acts violating the fundamental 
rights granted him by the constitution or by law.'' Article 2 
of the International Covenant on Civil and Political Rights 
(ICCPR) requires that all parties to the ICCPR ensure that 
persons whose rights or freedoms are violated ``have an 
effective remedy, notwithstanding that the violation has been 
committed by persons acting in an official capacity.'' \1\
The Chinese Judicial System
    External government and Communist Party controls continue 
to limit the independence of the Chinese judiciary. Party 
officials control the selection of top judicial personnel in 
all courts, including the Supreme People's Court (SPC), China's 
highest judicial authority. Party interests guide judicial 
reform efforts. SPC President Xiao Yang has linked official 
efforts to improve the funding and professionalization of rural 
Chinese courts to the core Party goals of establishing a 
``harmonious society'' and ``increasing the Party's governance 
capacity.'' \2\ In January 2006, the Party's Political and 
Legislative Affairs Committee issued a circular directing 
courts to improve enforcement efforts ``under the leadership of 
local Party committees,'' apparently in response to the Party's 
broader effort to address mounting social unrest.\3\
    The SPC's 2004-2008 reform program imposes stronger 
external controls on courts.\4\ The program directs courts to 
permit officials from local procuratorates to participate in 
adjudication committees, the highest authorities within Chinese 
courts. Since the procuratorate represents the government in 
cases pending before the courts, this directive raises issues 
of judicial independence and conflict of interest.\5\ The 
program also directs local officials to strengthen court 
mechanisms for receiving criticism and recommendations from 
local people's congresses (LPCs). The Chinese Constitution 
grants the standing committees of LPCs the authority to 
supervise local courts,\6\ and court procedures facilitate the 
intervention of LPC delegates in individual cases.\7\
    The SPC also announced stronger internal controls over 
Chinese courts that may weaken the independence of individual 
judges to decide cases fairly. The SPC's 2004-2008 program 
requires that Chinese courts implement responsibility systems 
for individual judges and judicial panels.\8\ These systems 
discipline judges for a range of errors, including reversals by 
a higher court for legal errors.\9\ Chen Youxi, Vice President 
of the Constitutional and Human Rights Committee of the All 
China Lawyers Association, noted that because such systems 
``have a direct impact on personal interests such as bonuses 
and benefits of those trial judges with high rates of 
overturned cases,'' trial judges ``commonly resort to seeking 
advance guidance from higher courts before making a decision, 
and run to appeals courts to convince them not to overturn 
their verdicts.'' \10\ Such systems encourage judges to violate 
the principles of openness and transparency in judicial 
decisionmaking.\11\ In November 2005, Chi Qiang, the president 
of the Beijing No. 1 Intermediate People's Court, announced the 
abolition of his court's 
responsibility system, and said that his court will attempt to 
move toward a disciplinary system that sanctions judges for 
illegal behavior rather than ``incorrect'' outcomes.\12\ The 
wider adoption of such innovative local reforms remains in 
doubt, however, given the SPC's requirement that courts 
implement responsibility systems.
    Some local Party officials have called for a degree of 
judicial independence, even as they press for strengthened 
controls over courts.\13\ State-controlled news media announced 
in January that Jiangxi provincial Party officials had issued a 
decision pressing local Party committees to strengthen their 
controls over the selection of court personnel. The decision, 
however, also called on local Party officials to support 
judicial independence and guard against local protectionism. 
The decision warned local Party committees against organizing 
court personnel to participate in campaigns to enforce 
administrative decisions or to attract investment in the local 
economy.\14\
    The SPC's 2004-2008 court reform program sets some positive 
long-term goals for judicial reform. The SPC announced that it 
will consolidate and reclaim the death penalty review power 
from provincial-level high courts, and will require court 
hearings to resolve death penalty appeals [see Section III(b)--
Rights of Criminal Defendants and Suspects]. The program also 
proposes steps to implement other positive reforms,\15\ 
including:

        <bullet> Court financing. Local governments influence 
        courts through their control over judicial funding and 
        appointments, and use this influence to protect local 
        interests. The program directs court officials to 
        explore national financing for court operations.
        <bullet> Court adjudication committee system. 
        Adjudication committees include court presidents and 
        other administrative personnel and are the highest 
        authorities in Chinese courts. They are often the 
        vehicle for outside pressure to reverse individual 
        decisions. The program directs committees to adopt more 
        open decisionmaking procedures and to guarantee that 
        experienced judges are able to serve on adjudication 
        committees.
        <bullet> Retrial procedures. Chinese court decisions 
        often lack finality, as the result of extensive use of 
        retrial procedures with vague rules and few 
        limitations. [See Section V(b)--Rights of Criminal 
        Suspects and Defendants--Fairness of Criminal Trials 
        and Appeals for the impact that this has had on 
        criminal trials.] The program directs officials to 
        clarify the criteria, limits, jurisdiction, and 
        procedures for granting retrial. Officials have drafted 
        two proposed judicial interpretations that seek to 
        address some of these questions.\16\
        <bullet> Advisory opinion system. Lower courts often 
        rely on advisory opinions from higher courts for 
        specific guidance on how to decide pending cases. This 
        system undermines judicial fairness by separating 
        actual court decisions from trials and by making 
        subsequent appeals (to the same entity that responded 
        to the request for review) no more than a formality. 
        The program directs courts to limit use of advisory 
        opinions to general questions of law rather than 
        determinations of fact.
        <bullet> Use of official authentication conclusions and 
        expert testimony. The program directs court officials 
        to implement a 2005 National People's Congress decision 
        that forbids courts from establishing for-profit 
        authentication centers to provide expert testimony. The 
        Ministry of Justice issued relevant implementing 
        measures in September 2005.\17\
        <bullet> Juvenile justice system. China currently has 
        2,400 juvenile tribunals.\18\ The program directs 
        courts to improve their work in handling criminal, 
        civil, and administrative cases affecting the rights of 
        juveniles. It also provides for the establishment of 
        experimental juvenile courts.
Access to Legal Representation
    Communist Party efforts to address growing social unrest 
have resulted in government programs to strengthen institutions 
that assist citizens with legal claims and disputes. To help 
reduce the number of citizen protests and mass petitions, 
provincial and municipal Party committees have directed local 
officials to improve legal aid and mediation efforts.\19\ 
Minister of Justice Wu Aiying said in February that:

          [We must] bring into play the professional strengths 
        of lawyers in resolving disputes. [We must] take 
        further steps to organize and guide lawyers, basic 
        legal service workers, and legal aid personnel to 
        actively participate in the work of handling mass 
        incidents and citizen petitions involving legal issues. 
        [We must] actively explore methods and measures that 
        press parties to settle out-of-court and in non-
        litigation forums, in order to better resolve disputes 
        and prevent them from escalating.\20\

    Central government officials also are strengthening the 
Ministry of Justice (MOJ) presence at the local level, 
particularly in western China and at the level of township 
governments. MOJ offices guide the work of local mediation 
committees, run government legal aid programs that provide pro 
bono legal representation to citizens who meet designated 
criteria, and supervise and license Chinese lawyers.\21\ In 
2005, Chinese authorities set the goal of ensuring that 91 
percent of Chinese townships had a MOJ office by the end of 
2006.\22\ Chinese authorities designated 7.4 billion yuan 
(US$920 million) to improve housing and work conditions for 
township court, justice, and public security bureaus in western 
China from 2004 to 2008.\23\ The MOJ has made the strengthening 
of township mediation and legal aid programs part of its effort 
to implement the Party's ``new socialist countryside'' 
campaign.\24\
    Chinese authorities have expanded the scope of government 
legal aid efforts. Official Chinese statistics show that the 
number of government legal aid centers rose from 2,774 in 2003 
to 3,081 in 2005. The total number of cases handled by these 
centers rose from about 166,000 in 2003 to an estimated 250,000 
in 2005, or roughly 3 percent of all cases handled by the 
Chinese courts in 2005.\25\ In July 2005, the All-China 
Environment Federation and the State Environmental Protection 
Administration announced the creation of a joint legal aid 
program for the victims of environmental pollution.\26\ In 
September 2005, the Shanghai People's Congress issued a 
decision clarifying the eligibility of migrant workers for 
legal aid in cases of labor disputes, occupational injuries, 
and domestic violence.\27\ In May, the All-China Federation of 
Trade Unions (ACFTU) announced that 669 of its legal staff 
would be permitted to acquire bar licenses and provide 
increased legal services to workers [see Section V(c)--
Protection of Internationally Recognized Labor Rights].
    At the same time that it has promoted efforts to expand 
legal assistance to citizens, the government also has 
restricted the efforts of private lawyers and human rights 
defenders who challenge government abuses [see Section IV--
Introduction; Section V(b) --Rights of Criminal Suspects and 
Defendants--Access to Counsel and Right to Present a Defense]. 
The MOJ's ``2006 Report on the Policy for Development of 
China's Legal Profession'' emphasized its role in ``guiding'' 
the legal profession and the need for all lawyers to ``serve 
the harmony and stability of society.'' \28\ The All China 
Lawyers Association (ACLA) issued a guiding opinion that went 
into effect on March 20 and restricts the ability of lawyers to 
handle cases involving representative or joint litigation by 10 
or more litigants, or cases involving both litigation and non-
litigation efforts.\29\ The guiding opinion further instructs 
law firms to assign only ``politically qualified'' lawyers to 
conduct the initial intake of these cases, and to obtain the 
approval of at least three law firm partners before taking them 
on.\30\ Lawyers who handle mass cases must accept supervision 
and guidance by judicial administration departments, attempt to 
mitigate conflict, and propose mediation as the method for 
conflict resolution.\31\ Local lawyers' associations may 
sanction any lawyer or law firm that fails to follow these 
guidelines and causes a ``negative impact.'' \32\
    Local Chinese authorities have imposed additional 
restrictions on lawyer advocacy efforts. The Henan Provincial 
Justice Bureau has issued an opinion that forbids lawyers from 
using the news media and engaging in various other activities 
when handling ``major, sensitive, mass'' cases.\33\ The opinion 
says that lawyers in Henan province cannot ``use the media to 
stir things up or create a negative impact on domestic or 
international public opinion.'' It prohibits lawyers and law 
firms from publishing commentary to affect the outcome of a 
case or the mood of the public, and warns them not to establish 
contact with foreign organizations or news media in violation 
of disciplinary rules. The Shenyang Municipal Justice Bureau 
has also issued an opinion that requires lawyers to seek 
instruction from the Justice Bureau before they handle ``major, 
difficult, and sensitive'' cases.\34\
Constitutional Review
    The National People's Congress (NPC) wields exclusive power 
to amend the Constitution and to enact and amend national laws, 
particularly through its Standing Committee (NPCSC). The NPC is 
the only governmental body with the power to interpret the 
Constitution and supervise its enforcement. Chinese courts do 
not have the power either to apply constitutional provisions in 
the absence of concrete implementing legislation or to strike 
down laws or regulations that are inconsistent with the Chinese 
Constitution.\35\ In December 2005, the NPCSC enacted new 
procedures that require the Supreme People's Court (SPC) and 
the Supreme People's Procuratorate to submit judicial 
interpretations to the NPCSC within 30 days of 
promulgation.\36\ At least one Chinese scholar has said that 
these new procedures represent an NPC move to rein in the SPC 
and to ensure that the SPC does not erode the NPC's power as 
China's sole legislator and interpreter of the 
Constitution.\37\ The NPC supervises both the SPC, China's 
highest judicial authority, and the State Council, China's 
executive authority, but the NPC remains subject to tight Party 
control [see Section VII--Development of the Rule of Law and 
the Institutions of Democratic Governance].
    Some scholars have suggested removing the power of 
constitutional review from the NPC and vesting it in a 
``dedicated judicial agency,'' \38\ but the government has 
ruled out establishing a specialized court to review the 
constitutionality of laws and administrative regulations.\39\ 
Senior government and Party leaders have warned officials to 
guard against the promotion of ``Western-style constitutional 
reform.'' \40\ They also reject adopting a ``Western separation 
of powers,'' \41\ and insist that any restraint on the central 
government's power must not diminish the leadership of the 
Communist Party.\42\
    Under Article 90 of the Legislation Law, Chinese citizens 
may propose NPCSC review of whether or not a State Council 
regulation violates the Constitution or any national law.\43\ 
The Chinese government has taken some limited steps to 
formalize the constitutional and legal review system. For 
example, the NPCSC announced in 2004 the formation of a new 
Legislation Review and Filing Office (LRFO) to assist its 
Legislative Affairs Commission in reviewing regulations that 
may conflict with the Constitution and national laws.\44\ In 
December 2005, the NPCSC amended the ``Working Procedures for 
the Filing and Review of Administrative Rules, Local Rules, 
Autonomous Region and Special Purpose Regulations, and Special 
Economic Zone Rules'' (Legislation Procedures).\45\ The 
Legislation Procedures stipulate three phases for 
constitutional and legal review: consultation between the NPCSC 
and the formulating agency; NPCSC submission of a written 
request to the formulating agency that it revise or rescind the 
legislation; and, if the formulating agency does not accept the 
request, consultation within the NPCSC to determine whether or 
not to rescind the legislation. The amendments include a new 
provision authorizing the special committees of the NPC to 
review laws and regulations on their own initiative, with a 
deadline of two months for formulating agencies to respond to 
NPCSC special committee requests that a regulation be revised 
or rescinded.
    Chinese citizens rarely submit proposals to the NPCSC for 
constitutional and legal review because the review process 
lacks transparency and citizens cannot compel review.\46\ 
During the run-up to the annual plenary sessions of the NPC and 
the Chinese People's Political Consultative Conference, Chinese 
authorities shut down the Aegean Sea (Aiqinhai) Web site, as 
well as four other sites that had complained on behalf of local 
workers.\47\ The Web site operators sought relief through the 
constitutional and legal review system in April 2006.\48\ As of 
September 2006, the NPCSC had not yet responded to the request 
for review. To address these problems, some Chinese legal 
experts have called for requiring the LRFO to notify those 
seeking review whether or not it will accept their proposal, 
and to provide explanations to those whose proposals it 
rejects.\49\ Others have suggested that the NPCSC report each 
year to the full NPC, describing the previous year's 
constitutional review work.\50\ Some legal experts in China 
also have advocated that the NPCSC establish a dedicated 
Constitutional Commission staffed by scholars, judges, and 
lawyers.\51\
    NPC special committees and other central government 
agencies have the power to compel the NPCSC to act on their 
applications,\52\ but they have an interest in maintaining the 
national status quo and not creating conflicts among 
themselves.\53\ Thus, they have little incentive to request 
review of national laws, State Council regulations, or other 
central government agencies' rules on major issues relating to 
civil or human rights.\54\ Citizens may only offer proposals to 
the LRFO, which stands between them and the NPCSC and lacks the 
power to issue binding decisions that would resolve 
disputes.\55\ In addition, unlike other laws that compel State 
Council departments, courts, and local governments to act on 
citizens' applications and lawsuits,\56\ the Legislation Law 
merely provides that the NPCSC may react to citizens' proposals 
``if necessary.'' Finally, the government is not required to 
inform citizens whether or not it will act on a proposal, and 
the 2005 amendments to the Legislation Procedures revised the 
provision concerning government notification to a citizen that 
a review is complete, making such notification voluntary.\57\
    The NPCSC has enacted and amended laws and regulations that 
protect citizens from government abuses in response to public 
pressure\58\ and new legislative mandates,\59\ but it has never 
rescinded a law or administrative regulation in direct response 
to a citizen proposal.\60\ The primary purpose of the 
constitutional and legal review system is to safeguard the 
unity of China's legal system rather than to give citizens an 
effective remedy by a competent national tribunal.\61\ The 
system is based on the constitutional and legal 
presumption that the NPC and its Standing Committee are 
paramount,\62\ and therefore not subject to checks, balances, 
or oversight.\63\ The China Law Society's Democracy and Law 
Times summarized the situation as follows:

          As a system, constitutional review comprises 
        proposal, acceptance, review, determination, and 
        resolution. If it lacks any one of these, then the 
        constitutional review system is not complete. Although 
        the meaning of citizens having been granted the right 
        to submit proposals for constitutional review is very 
        important, if all they have is the right of proposal, 
        and do not have the right of acceptance, review, 
        determination, and resolution, then the right of 
        proposal exists in name only. This also explains the 
        reason why so few citizens propose constitutional 
        review.\64\
Judicial and Administrative Review of State Action
    Chinese law provides methods for citizens to seek a remedy 
when they believe the government has violated their rights. 
These methods allow Chinese citizens limited legal recourse 
against individual officials or local governments that exceed 
their authority.\65\ Under the Administrative Reconsideration 
Law (ARL), Chinese citizens may submit an application to State 
Council departments for administrative review of specific 
government actions that violate their legal rights and 
interests.\66\ Under the Administrative Procedure Law (APL), 
citizens may file a lawsuit in a people's court to challenge 
government actions.\67\ Under the State Compensation Law, 
citizens may request compensation for illegal government acts 
along with an ARL or APL action, or present them directly to 
the relevant government bureau.\68\ Some local Party 
disciplinary committees are also experimenting with procedural 
changes that grant cadres in specific cases the ability to 
mount a defense, present evidence, and receive a hearing on the 
charges against them.\69\
    These methods, however, do not allow Chinese citizens to 
challenge administrative regulations that violate 
constitutional or legal rights. Article 12 of the APL forbids 
courts from accepting citizen challenges of administrative 
rules and regulations that have ``general binding force.'' 
Article 7 of the ARL allows citizens to apply to administrative 
agencies for review of the legality of decrees\70\ of State 
Council departments and local people's governments at or above 
the county level, and any provisions enacted by town or 
township people's governments.\71\ The ARL does not, however, 
allow reconsideration of State Council rules or 
regulations.\72\
    Citizens are making only limited use of laws that protect 
their rights by granting judicial and administrative review of 
government actions. For example, Hubei provincial authorities 
report an overall decline between 2003 and 2005 in applications 
for administrative reconsideration, from 3,468 to 3,336.\73\ 
Total numbers of such applications in major Chinese 
municipalities is a few hundred per year.\74\ Administrative 
court challenges to government actions have not increased since 
1998. In 2005, first-instance administrative law cases totaled 
95,707, nearly twice the 52,596 reported in 1995, but a decline 
from the 101,921 recorded in 2001. This decline parallels a 
similar stagnation in citizens using the judiciary generally. 
In 2005, the Chinese judiciary handled 4.3 million first-
instance civil cases, down from 4.73 million reported in 2001, 
and only slightly higher than the 4 million recorded in 
1995.\75\
    Chinese laws that grant judicial and administrative action 
to citizens to protect their rights do not provide mechanisms 
to compel effective judicial or government review. When the 
government shut down the Aegean Sea Web site, along with four 
other Web sites, in March 2006, authorities cited Article 5 of 
the Provisions on the Administration of Internet News 
Information Services (Provisions),\76\ which grant the State 
Council Information Office (SCIO) the authority to license Web 
sites that report and comment on politics, economics, fast-
breaking social events, and military, foreign, social, and 
public affairs. The operators of the closed Web sites believed 
that the Provisions violated their constitutional and legal 
rights,\77\ but they had no way to compel judicial or other 
government review of the Provisions. Government authorities 
were acting under the authority of the Provisions when they 
shut down the Web sites, and so the issue was whether the 
Provisions violated the Constitution, a national law, or a 
State Council regulation. Administrative review under the ARL 
could not provide the Web site operators an effective remedy 
because the Provisions are ``department rules,'' and a 2005 
State Council decision (Decision) explicitly provides for the 
licensing authority granted to the SCIO.\78\ Because citizens 
may not use the administrative reconsideration system to 
question the constitutionality or legality of State Council 
regulations (such as the Decision) or State Council department 
rules (such as the Provisions), the Web site operators would be 
unlikely to obtain effective relief based on an application for 
administrative reconsideration attacking the Provisions 
directly.
    The ARL provides that citizens who do not accept an 
administrative reconsideration decision may file a lawsuit with 
a people's court under the APL.\79\ Like the ARL, however, the 
APL explicitly prohibits constitutional or legal review of 
State Council departments' rules.\80\ A court could refuse to 
enforce the Provisions if they conflicted with a national law 
or a State Council regulation,\81\ but since the SCIO's 
licensing authority is derived from the Decision, a court would 
lack the authority to declare the Provisions unconstitutional 
or illegal.\82\
Citizen Petitioning
    Since the 1950s, xinfang (``letters and visits'') offices 
have provided a channel outside court challenges for citizens 
to appeal government decisions and present their 
grievances.\83\ Under the new national Regulations on Letters 
and Visits (RLV) issued in January 2005, citizens may ``give 
information, make comments or suggestions, or lodge 
complaints'' to xinfang bureaus of local governments and their 
departments.\84\ Individual petitioning may be as simple as one 
dissatisfied citizen visiting multiple xinfang bureaus within 
government agencies. Collective or mass petitioning may involve 
organized demonstrations, speeches, or marches of hundreds or 
thousands of people seeking to present their grievances, 
despite an official prohibition on such activities.\85\ 
Official news media report that Chinese citizens presented 12.7 
million petitions to county-level and higher xinfang bureaus 
during 2005,\86\ in contrast to the 8 million total court cases 
handled by the Chinese judiciary during the same period.\87\ 
The total number of petitions increased each year from 1993 to 
2004.\88\ Petitioning is common even within the judiciary. 
Chinese courts handled four million petitions in 2005, a number 
roughly equal to the total number of civil court cases for the 
year.\89\
    Authorities launched an implementation campaign for the RLV 
in 2005 aimed at reducing the number of citizen petitions. The 
government tasked the Ministry of Public Security (MPS) with 
coordinating official responses to citizen petitions, required 
local MPS heads to meet personally with petitioners in a May-
to-September campaign, and increased propaganda efforts 
pressing local officials to resolve citizen petitions.\90\ 
Chinese authorities have ordered the nationwide adoption of 
responsibility systems that discipline local officials who fail 
to prevent mass petitions.\91\ Concerned about the rising 
number of mass petitions, central Party officials have set a 
goal to decrease the number during 2006.\92\ Party and 
government officials have called for strengthening xinfang 
institutions in conjunction with stronger efforts to maintain 
social order.\93\
    Chinese authorities and state-run news media report that 
official measures to address citizen petitions in 2005 were a 
major policy success,\94\ but official statistics provide 
conflicting support for this claim. Official statistics show 
total citizen petitions declined for the first time in 12 
years, from 13.7 million in 2004 to 12.7 million in 2005.\95\ 
Although officials reported a 90 percent success rate in 
resolving petitions,\96\ scholars commissioned by the 
government to study the issue say that only 0.2 percent of 
petitions filed receive a response.\97\ Official news media 
report that government and Party xinfang bureaus at the county 
level and above have handled some 917,000 petitions since the 
beginning of the campaign, but this represents less than a 
tenth of the total number of petitions received in 2005 by 
xinfang bureaus. Since MPS rules issued in August 2005 provide 
for disciplining local MPS officials who fail to prevent 
collective petitions, MPS officials may be suppressing 
petitioners or misreporting their numbers rather than resolving 
the underlying problems.\98\
    The 2005 RLV requires local governments to adopt official 
xinfang responsibility systems, and some local governments have 
done so.\99\ These systems punish local officials more harshly 
for mass petitions that reach higher-level authorities, 
depending on the numbers of petitioners involved and the level 
of government that they reach.\100\ Absent alternative 
political or legal channels to check the power of local 
officials and obtain redress, this punishment structure 
provides an incentive for Chinese citizens to take their 
grievances to the streets in order to force local officials to 
act.\101\ But this punishment structure also gives local 
authorities an interest in suppressing mass petitions and 
preventing petitioners from approaching higher authorities. A 
December 2005 NGO study of these systems found that some local 
authorities have resorted to ``rampant violence and 
intimidation'' to abduct or detain petitioners in Beijing and 
force them to return home.\102\ The report alleges that Beijing 
police often ignore such abductions or detentions and sometimes 
assist with abductions.\103\
    The government uses harsh measures to repress petitioners 
during high-profile national events. In March 2006, a senior 
MPS official confirmed that MPS officials would engage in mass 
roundups to ``strongly encourage'' those ``people without 
proper professions, fixed places of residence, or stable 
incomes who have been hanging around Beijing for a long time'' 
to leave the capital before the annual plenary session of the 
National People's Congress (NPC).\104\ Other repressive 
measures include:

        <bullet> During the annual NPC plenary session in March 
        2006, authorities detained AIDS activist Hu Jia for 41 
        days without legal formalities and without notifying 
        his family [see Section V(b)--Rights of Criminal 
        Suspects and Defendants--Arbitrary Detention]. Hu had 
        attempted to submit petitions on behalf of AIDS victims 
        to central government officials during high-profile 
        conferences [see Section V(g)--Public Health--HIV/
        AIDS].
        <bullet> In December 2005, Beijing police arrested 
        several hundred petitioners who gathered outside the 
        offices of China Central Television to present their 
        grievances on ``Popularize Law Day.''
        <bullet> In December 2005, Shanghai police arrested 
        over 200 petitioners who sought to present their 
        grievances to municipal Party officials and were 
        gathered outside a building in which the local Party 
        branch was holding a conference.
        <bullet> In November 2005, police in a number of cities 
        arrested or detained dozens of petitioners before an 
        official visit by U.S. President George W. Bush.\105\

    Chinese court officials are pursuing reforms to the process 
of handling citizen petitions that may weaken the ability of 
individual judges to decide cases according to law. The Supreme 
People's Court (SPC) announced in November 2005 that it will 
require Chinese courts to establish procedures to resolve 
citizen petitions about judicial decisions. Trial judges will 
be responsible for responding to parties who visit the court 
and raise complaints about judgments, and their record for 
handling such complaints will be made part of their performance 
reviews.\106\ Similarities between the SPC announcement and the 
RLV suggest that the central government seeks to implement a 
common set of reforms for addressing citizen petitions to both 
the courts and local governments.\107\ The SPC reforms may 
encourage Chinese litigants to resort to post-decision 
petitioning rather than appeals to reverse verdicts, increase 
pressure on Chinese trial judges to alter verdicts to satisfy 
persistent petitioners, and weaken the finality of 
judgments.\108\

        VII(d) Commercial Rule of Law and the Impact of the WTO


                                findings


        <bullet> The Chinese government has made progress in 
        bringing its laws and regulations into compliance with 
        its World Trade 
        Organization (WTO) commitments. Although significant 
        flaws remain, the new body of commercial laws has 
        improved the business climate for foreign companies in 
        China. With new, more transparent rules, the Chinese 
        trade bureaucracy has reduced regulatory and licensing 
        delays in many sectors.
        <bullet> The Chinese commercial regulatory regime 
        remains, however, largely opaque to both domestic and 
        foreign businesses. When China joined the WTO in 
        December 2001, the government committed to establishing 
        an official journal that would publish drafts of trade-
        related measures for notice and comment, and to 
        publishing trade-related measures no later than 90 days 
        after they become effective. Although the government 
        has acted to improve transparency, some central 
        government agencies and many local governments are not 
        consistent in publishing trade-related measures in the 
        official journal.
        <bullet> The Chinese government tolerates intellectual 
        property rights (IPR) infringement rates that are among 
        the highest in the world. The Chinese government has 
        not introduced criminal penalties sufficient to deter 
        IPR infringement, and steps taken by Chinese government 
        agencies to improve the protection of foreign 
        intellectual property have not produced any 
        significant decrease in infringement activity. The 
        Chinese government's failure to provide effective 
        criminal enforcement of IPR has led foreign companies 
        to turn to civil litigation to obtain monetary damages 
        or injunctive relief. Civil litigants continue to find, 
        however, that most judges lack the necessary training 
        and experience to handle IPR cases, and damage awards 
        are too low to be an effective deterrent.
        <bullet> Since acceding to the WTO, the Chinese 
        government has used technical, regulatory, and 
        industrial policies, some of which appear to conflict 
        with its WTO commitments, to discriminate against 
        foreign producers and investors and limit their access 
        to the domestic market. U.S. rights holders and 
        industry groups have complained that the government's 
        censorship regime serves as a barrier to entry and 
        encourages IPR violations. In 2005, the American 
        Chamber of Commerce in China wrote that censorship 
        clearance procedures severely restrict the ability to 
        distribute CD, VCD, and DVD products in China and 
        provide an ``unfair and unnecessary advantage to pirate 
        producers who bring their products to market long 
        before legitimate copies are available for sale.''
Introduction
    On December 11, 2001, China formally became a member of the 
World Trade Organization (WTO). In doing so, the Chinese 
government agreed to abide by the rules governing trade 
relations among most of the nations in the world, and voiced 
its willingness to make fundamental changes to its trade regime 
to conform with the WTO's rules-based system, affecting China's 
system of governance at all levels. The WTO agreements and 
China's accession documents contain many core elements of the 
rule of law. When China joined the WTO, the Chinese government 
committed to ensuring that all trade-related measures be 
administered in a non-discriminatory manner. The WTO also 
imposes transparency on its members by requiring that all laws, 
regulations, judicial decisions, and administrative rulings 
relating to trade be published promptly.
    The government's implementation of its WTO non-
discrimination and transparency obligations is a useful measure 
of the overall development of the rule of law in China, 
including the extent to which the government treats individuals 
equally under the law and makes laws and administrative 
regulations accessible to the public. The Chinese government 
has made progress in bringing its laws and regulations into 
compliance with its WTO commitments. The new body of commercial 
laws has improved the business climate for foreign companies in 
China. With new, more transparent rules, the Chinese trade 
bureaucracy has reduced regulatory and licensing delays in many 
sectors. Nevertheless, serious problems remain in such areas as 
regulatory transparency, the enforcement of intellectual 
property rights (IPR), and discrimination against goods and 
services of foreign origin. Most of China's WTO commitments 
were to have been phased in by December 2004, and the past year 
therefore provides an indication of what Chinese citizens and 
foreign investors can expect of China as a WTO member with its 
full range of WTO commitments in place.
    The U.S. and Chinese governments established the U.S.-China 
Joint Commission on Commerce and Trade (JCCT) in 1983 as a 
government-to-government mechanism to develop and facilitate 
the bilateral commercial relationship. The two governments held 
the 17th plenary session of the JCCT on April 11, 2006, in 
Washington, D.C. The Chinese delegation made a number of 
commitments on trade issues of priority concern to the United 
States, such as fighting piracy of U.S. intellectual property; 
increasing transparency in China's domestic regulatory process; 
ending duplicative testing of U.S. medical products entering 
the Chinese market; resuming sales of U.S. beef; and making 
progress toward accession to the WTO Agreement on Government 
Procurement. The U.S. Department of Commerce is the lead U.S. 
government agency in the JCCT process, and engages the Chinese 
government to ensure compliance with commitments made at JCCT 
meetings.
Transparency
    The Chinese commercial regulatory regime continues to 
exhibit what the United States Trade Representative (USTR) 
describes as ``systemic opacity.'' \1\ China's Protocol of 
Accession to the WTO requires that the Chinese government 
translate all trade-related laws, regulations or other measures 
into one or more of the WTO's official languages.\2\ In 
addition, to the maximum extent possible, it must make these 
laws, regulations and other measures available before they are 
implemented or enforced, but in no case later than 90 days 
after the date of implementation or enforcement.\3\ Moreover, 
the government committed to designating an official journal to 
regularly publish trade-related laws, regulations, and other 
measures, and to provide additional relevant information, such 
as the effective date for a particular measure and the identity 
of the governmental and non-governmental authorities 
responsible for authorizing, approving, or regulating services 
activities.\4\ Before implementing or enforcing trade-related 
laws, regulations, and other measures, the Chinese government 
has committed to publishing them in an official journal and to 
providing a reasonable period for public comment to the 
appropriate government authorities, except in extraordinary 
circumstances.\5\
    The government, in particular the Ministry of Commerce 
(MOFCOM), has taken steps toward improving transparency, but 
still does not consistently publish trade-related measures\6\ 
and does not always translate those measures that it 
publishes.\7\ Some government agencies do not circulate drafts 
of trade-related measures to outside groups or individuals, 
domestic or foreign, or do so only on the condition that the 
outside party promises not to share the draft more widely.\8\
    In March 2006, the State Council issued a circular 
providing that the ``Chinese Foreign Economic Trade Gazette'' 
would be the government's official journal for the publication 
and registration of ``all laws, regulations, or other measures 
pertaining to or affecting trade in goods, services, trade-
related aspects of intellectual property rights (TRIPs), or the 
control of foreign exchange.'' \9\ The 
circular reiterated that all local governments and government 
agencies are required to forward to MOFCOM any trade-related 
regulations that they promulgate or make available in draft 
form for public comment. MOFCOM is then responsible for 
publishing the regulations. MOFCOM began making the Gazette 
available on its Web site in 2003.\10\ A Commission review of 
the Gazette indicates, however, that few trade-related measures 
below the central government level have been published there.
    Poor transparency has made it difficult for the U.S. 
government to obtain accurate information on the Chinese 
government's subsidy programs.\11\ The WTO Agreement on 
Subsidies and Countervailing Measures requires each WTO member 
to submit an annual notification of all the subsidies that it 
maintains, and provides that members shall respond to requests 
for information regarding practices that appear to constitute 
subsidies ``as quickly as possible and in a comprehensive 
manner.'' \12\ To date, however, the Chinese government has not 
met its annual notification commitment. The United States 
submitted a request to the Chinese government in October 2004 
regarding a number of subsidy programs.\13\ The Chinese 
government did not respond until April 2006,\14\ and that 
response was limited to subsidies that existed between 2001 and 
2004.
    Chinese officials credit China's accession to the WTO as 
having increased the government's attention to transparency. 
Zhou Hanhua, the head of the State Council-designated drafting 
team on open government measures [see Section VII(b)--
Institutions of Democratic Governance and Legislative Reform], 
said WTO accession has raised awareness about citizen rights 
and the importance of openness and transparency.\15\ Some local 
governments also have cited the WTO transparency principle as 
support for their own reforms. For example, officials in 
Changzhou city, Jiangsu province, announced in November 2005 
that the city government would no longer enforce regulatory 
documents that have not been published first in the local 
newspaper, the government's gazette, or other publications 
specified by the city government. In the circular announcing 
this requirement, the Changzhou government said that, 
``[A]ccording to the WTO `principle of openness and 
transparency,' there is generally one month between the time 
that regulatory documents and other policies and proceedings 
are promulgated and the time that they are implemented.'' \16\ 
The new procedures provided that the public could ``inspect and 
review'' any such draft measure before the government makes it 
effective if it has been published in one of the three approved 
media.
Intellectual Property Rights Protection and Enforcement
    Intellectual property counterfeiting and piracy in China 
are rampant, according to Chinese\17\ and U.S. government 
sources.\18\ Industry reports indicate that infringement levels 
in China range from 85 to 95 percent for all copyrighted 
works.\19\ In 2005, the value of copyrighted works that were 
pirated exceeded US$2.3 billion.\20\ China is now the second-
largest legal music market in Asia, with sales worth US$212 
million in 2004. Sales of pirated discs were, however, worth 
approximately US$400 million.\21\ Ninety percent of the 
software used in China is pirated,\22\ and business software 
losses were estimated at US$1.27 billion in 2005.\23\ A study 
commissioned by the Motion Picture Association of America found 
that 93 percent of the Chinese film market is lost to 
piracy,\24\ costing U.S. rights holders nearly US$300 million 
per year, according to industry estimates.\25\ According to 
U.S. customs statistics, 69 percent of all counterfeit products 
seized at the U.S. border in 2005 were of Chinese origin,\26\ 
and the volume of seized Chinese goods continues to rise.\27\ 
U.S. industry reports of piracy levels in China ranged from an 
assessment that ``no significant reduction in IPR infringement 
levels'' had taken place in 2005,\28\ to a more positive 
assessment that there had been sharp improvement in some 
regions.\29\
    Some Chinese officials have characterized their 
government's IPR enforcement efforts as effective, or 
downplayed the seriousness of IPR issues.\30\ In November 2005, 
the head of China's WTO delegation responded to simultaneous 
requests under Article 63 of the WTO Agreement on Trade Related 
Aspects of Intellectual Property Rights from the United States, 
Japan, and Switzerland for information on the Chinese 
government's IPR enforcement, by saying that the blame laid on 
China for being one of the top producers and exporters of 
counterfeit and infringing automotive parts was groundless.\31\ 
One report in the state-run Chinese news media cited the United 
States and other developed countries as being the source of 
intellectual property piracy.\32\ A Ministry of Commerce 
(MOFCOM) analyst said that the U.S. government exaggerates IPR 
issues because it fears China's surging exports.\33\ According 
to one senior Chinese customs official, IPR infringement in 
China is ``not that serious'' when compared with international 
standards and when viewed in proportion to China's total 
exports to the United States.\34\
    Chinese officials cite enforcement statistics and 
legislative activities to demonstrate a strong respect for 
IPR.\35\ In the weeks before the April 2006 meeting of the 
bilateral Joint Commission on Commerce and Trade (JCCT), 
Chinese officials made several announcements regarding 
administrative IPR enforcement measures that the government had 
recently undertaken.\36\ The State Council and its agencies 
continue to issue new regulations regarding intellectual 
property rights.\37\ In March 2006, the MOFCOM National IPR 
Protection Working Group Office issued an ``Action Plan on IPR 
Protection 2006'' outlining how 11 government ministries and 
agencies will coordinate in nine areas to work on the 
protection of trademarks, copyrights, and patents, and 
formulate and revise IPR-related laws and regulations.\38\ In 
July 2006, a new regulation on Internet copyright protection 
went into effect.\39\ Chinese officials said this regulation 
would form the basis of China's ratification of the World 
Intellectual Property Organization Internet treaties in the 
second half of 2006.\40\ In November 2005, the Supreme People's 
Court published four draft interpretations for comment 
regarding unfair competition, plant patents, civil IPR 
disputes, and civil disputes regarding music television 
broadcasting rights.\41\
    Ongoing enforcement and legislative activity, however, has 
not translated into decreased IPR infringement. At the 
conclusion of a review conducted under Special 301 provisions 
of U.S. trade law in April 2005, the United States elevated 
China to the ``Priority Watch'' list. In its report, the USTR 
noted that ``[i]nadequate IPR enforcement is one of China's 
greatest shortcomings as a trading partner,'' and that ``China 
suffers from chronic over reliance on toothless administrative 
enforcement and underutilization of criminal remedies.'' \42\
    At the 2005 JCCT Plenary, the Chinese government committed 
to completing its legalization program to ensure that all 
central, provincial, and local governments offices would use 
only licensed software, and would extend that program to 
enterprises in 2006.\43\ In March 2006, the National Copyright 
Administration, Ministry of Information Industry, Ministry of 
Finance, and State Council jointly reiterated requirements set 
forth in previous regulations that 
ordered Chinese government agencies to use legitimate copies of 
software. According to Chinese officials, all government 
departments had complied with this mandate.\44\ The software 
industry 
reports, however, that the level of new government purchases 
does not support this claim.\45\
    Current provisions in the Criminal Law are inadequate to 
deter infringement.\46\ While China has said that the absolute 
number of criminal IPR infringement cases rose from 2004 to 
2005,\47\ the number remains small in comparison to the volume 
and value of IPR violations that occur in China each year. The 
Agreement on Trade-Related Aspects of Intellectual Property 
Rights (TRIPs) 
requires WTO members to maintain criminal IPR infringement 
penalties, including monetary fines ``sufficient to provide a 
deterrent.'' \48\ China's state-run media, however, cites 
``experts'' to support the position that, because intellectual 
property is a private right, the government should prosecute 
IPR violations only in those cases that ``negatively influence 
the public interest,'' and that if the government were to focus 
on assisting foreign companies in protecting their IPR, ``it 
would be an infringement on the rights of Chinese individuals 
and companies.'' \49\
    High thresholds for criminal liability make it difficult 
for the Chinese government to prosecute illegal commercial 
operations.\50\ Although some high-profile prosecutions have 
been undertaken,\51\ because the government calculates criminal 
thresholds using the retail value of the illegal goods rather 
than the value of genuine products, the current procedure 
creates a ``safe harbor'' for commercial infringers. In 
addition, because a government agency that successfully 
prosecutes an IPR case is eligible to receive a portion of any 
fines assessed, current rules create a disincentive to transfer 
cases to law enforcement officials.\52\ The Supreme People's 
Court and Supreme People's Procuratorate issued an 
interpretation in 2004 on transferring IPR infringement cases 
from administrative to criminal enforcement,\53\ but the U.S. 
government subsequently determined that the revisions did not 
go far enough,\54\ and less than 25 percent of respondents in 
one survey of U.S. businesses believed the interpretation would 
aid IPR protection to a moderate or great extent.\55\ In 
response to expressions of concern from the United States 
regarding the availability of remedies to address commercial-
scale counterfeiting and piracy, as well as reliance on non-
deterrent administrative penalties rather than transferring 
cases for criminal prosecution,\56\ China's WTO delegation said 
that the National People's Congress had no plans to amend 
China's Criminal Law or other intellectual property laws.\57\
    A lack of interagency cooperation is at least partly to 
blame for the government's continued failure to impose criminal 
sanctions on IPR infringers, according to Zhu Xiaoqing, Deputy 
Procurator General of the Supreme People's Procuratorate.\58\ 
The government has begun, however, to address this problem. In 
January and March 2006, the Ministry of Public Security and 
several other government agencies enacted rules intended to 
improve interagency coordination in handling criminal trademark 
and copyright infringement cases.\59\
    The Chinese government's failure to provide effective 
administrative and criminal enforcement of IPR has led foreign 
companies to turn to civil litigation to obtain monetary 
damages or injunctive relief.\60\ Civil litigants continue to 
find, however, that most judges lack the necessary training and 
experience to handle IPR cases. In addition, the evidentiary 
and other rules governing civil lawsuits are generally vague or 
ineffective, and damage awards are too low to be an effective 
deterrent.\61\ Despite these challenges, some high-profile 
lawsuits have been filed in which foreign IPR holders have 
succeeded in suing infringers as well as the Chinese 
government. For example, in December 2005, the Shanghai No. 2 
Intermediate People's Court ordered a Chinese coffee retailer 
to pay Starbucks Corporation 500,000 yuan (US$62,000), saying 
the Chinese retailer had engaged in unfair competition by using 
Starbucks's Chinese name and imitating the design of its 
cafes.\62\ In June 2006, the Beijing No. 1 Intermediate 
People's Court ordered the State Intellectual Property Office 
to withdraw its decision to invalidate Pfizer, Inc.'s patent on 
the active ingredient in the drug Viagra.\63\
    The central government has begun to make policy statements 
emphasizing the importance of IPR protection, specifically 
about how this protection will benefit domestic Chinese IPR 
holders. At its October 2005 plenum, the Communist Party 
included ``innovation'' in the 11th Five-Year Plan (2006-2010), 
and since then Chinese officials\64\ and the state-run 
media\65\ have called for increasing IPR protection to further 
the innovation of Chinese companies and increase China's 
international trade. In 2004, China overtook the United States 
to become the world's largest exporter of information and 
communication technology goods.\66\ Although the majority of 
these goods are made by foreign-invested enterprises,\67\ some 
high-technology Chinese manufacturers, such as Huawei and 
Lenovo, are garnering global name recognition and market share. 
In 2005, the first Chinese company with independently developed 
intellectual property was listed on the NASDAQ.\68\
    The Chinese government possesses the resources necessary to 
enforce IPR, but appears to lack the resolve to do so with 
respect to foreign rights holders. The government's position is 
that its failure to enforce IPR is a result of China's current 
stage of economic development.\69\ According to Chinese and 
U.S. experts, however, the problem is that local police 
generally resist efforts to shut down commercial infringers 
because large-scale pirating efforts support local economies 
and have the financial support of key local officials.\70\ In 
2002, the State Council enacted regulations specifically 
addressing protection of the 2008 Beijing Olympic Games' 
trademark symbol from counterfeiting.\71\ Western news media 
reports indicate that vendors who otherwise sell counterfeit 
goods are avoiding the new Olympic symbol out of fear of 
government reprisals.\72\
Financial Services
    In 2004, the United States recorded a US$145 million 
financial services surplus with China, according to the U.S. 
International Trade Commission.\73\ Exports of U.S. banking and 
securities services to China were down, however, from 2003.\74\ 
Although the 
Chinese government has acknowledged the value that foreign 
investment and exchanges can bring to its financial services 
sector,\75\ it continues to impose strict limits and high 
barriers to entry on foreign investment in its banking, 
insurance, and securities sectors.
            Banking
    The Chinese government has committed to eliminating all 
non-prudential measures that restrict ownership, operation, and 
juridical form of foreign financial institutions, including 
measures on 
internal branching and licenses, before 2007.\76\ The 
government currently imposes tighter limitations and higher 
barriers to entry on foreign banks than on Chinese banks.
    In its WTO accession agreement, the government also set 
different restrictions and schedules on foreign banks based on 
whether they conduct business in domestic or foreign currency. 
With respect to business in domestic currency, the government 
has met its WTO commitment regarding lifting geographic 
restrictions. The Chinese WTO accession agreement provides 
that, immediately upon joining the WTO, the government would 
allow foreign banks to conduct domestic currency business with 
foreign-invested enterprises and foreign individuals, subject 
to certain geographic restrictions. Within two years after 
accession, foreign banks were also to be able to conduct 
domestic currency business with Chinese enterprises, subject to 
certain geographic restrictions, which were to be lifted 
gradually over the following three years.\77\ The Chinese 
government met these commitments, and opened several cities 
ahead of schedule.\78\ In addition, in December 2005, the China 
Banking Regulatory Commission (CBRC) announced that it was 
lowering the minimum operating capital requirement to conduct 
domestic currency businesses from 500 million yuan to 400 
million yuan for a foreign bank branch, and from 300 million 
yuan to 200 million yuan for a wholly foreign-owned or a joint 
venture bank.\79\
    With respect to foreign currency business, the Chinese 
government agreed as part of its WTO accession agreement that, 
immediately upon joining the WTO, it would allow foreign banks 
to 
conduct foreign currency business without any geographic or 
client restrictions. According to the U.S. Trade 
Representative, although the Chinese government has permitted 
licensed foreign banks to freely engage in foreign currency 
business with any customer, only a limited number of banks are 
allowed to enter into forward foreign exchange contracts.\80\ 
In addition, according to one industry group, measures issued 
in May 2004 limit the foreign currency financing of foreign 
banks in China and, although identical restrictions are 
applicable to domestic banks, their effects on foreign banks 
are disproportionately negative.\81\
    Market entry requirements for foreign banks are higher than 
those for domestic banks. For example, domestic banks need only 
100 million yuan in registered capital to establish an urban 
commercial bank.\82\ Foreign banks seeking to establish a 
market presence through a wholly foreign-owned or joint venture 
bank must have at least 300 million yuan in registered 
capital.\83\ In addition, Chinese regulations, consistent with 
China's WTO services schedule, provide that these banks must 
have total assets of at least US$10 billion.\84\ Finally, a 
wholly foreign-owned bank must have had a representative office 
in China for at least two years.\85\ Even if a foreign bank 
meets these requirements, it is restricted to conducting 
foreign currency business with a limited category of clients, 
unless it meets higher registered capital requirements.\86\
    The prudential thresholds to establish a branch are much 
higher for wholly foreign-funded banks or joint venture banks 
than for domestic commercial banks.\87\ A wholly foreign-funded 
bank or joint venture applying to establish a branch must have 
three years of business operation experience in China, and have 
been profitable for two consecutive years before applying.\88\ 
In addition, Chinese law, consistent with its WTO services 
schedule, provides that a foreign bank applying to establish a 
branch in China must have at least US$20 billion in total 
assets.\89\ In its accession agreement, the Chinese government 
agreed that qualified foreign financial institutions could 
establish joint venture banks immediately after accession. The 
government currently caps total foreign investment in any 
single Chinese bank at 25 percent, however, with no single 
foreign investor allowed to hold more than 20 percent.\90\
    In December 2005, it was reported that a group of investors 
led by Citigroup had successfully bid for the right to 
negotiate to purchase an 85 percent stake in the Guangdong 
Development Bank, with Citigroup taking a 40 percent stake.\91\ 
This led to speculation and conflicting reports that Chinese 
authorities might be considering raising limits on foreign 
investment in Chinese banks.\92\ In April 2006, however, 
China's state-run media reported that, ``It is certain that the 
banking regulatory agency will not let the ceiling be broken in 
this case.'' \93\ The same month, the CBRC sent a letter to the 
Guangdong provincial government saying: ``The case of Guangdong 
Development Bank has been looked into many times by the CBRC 
and other related administrations, and it is hard to break the 
present restrictions on foreign strategic investor issues.'' 
\94\ In July, Chinese-language news media in Hong Kong reported 
that Citigroup would lower its offer to below 20 percent.\95\
            Insurance
    According to the USTR's 2005 report on China's WTO 
compliance, opaque regulatory processes and overly burdensome 
licensing and operating requirements continue to hinder U.S. 
insurance companies' access to China's insurance market.\96\ In 
its accession agreement, the Chinese government agreed that it 
would phase out geographic restrictions on all types of 
insurance operations by 2004.\97\ The China Insurance 
Regulatory Commission (CIRC) approved life insurance operations 
for U.S. insurers in Beijing municipality, Suzhou city, and 
Tianjin municipality two years ahead of schedule, in Chongqing 
municipality one year ahead of schedule,\98\ and removed all 
geographic restrictions in 2004.\99\
    Foreign insurance companies may enter the Chinese market as 
wholly foreign-owned subsidiaries selling insurance policies 
other than life insurance, but foreign investment in domestic 
life insurance providers is capped at 51 percent,\100\ and the 
Chinese government does not plan to lift this restriction.\101\ 
To obtain a license, foreign insurance companies must have at 
least 30 years of experience in the insurance business, have 
had a representative office in China for no less than two 
years, and have no less than US$5 billion in total assets.\102\
    According to the USTR, every U.S. insurer that has applied 
to enter the China market has received a license.\103\ At the 
end of 2005, the CIRC had approved 40 overseas insurers, which 
operated 99 offices and held a combined market share of almost 
7 percent.\104\ In May 2006, the CIRC authorized subsidiaries 
of American International Group, Inc. to expand their 
businesses in Guangdong and Jiangsu provinces and to issue 
group contracts throughout China covering life insurance, 
personal accident and health insurance, and other 
products.\105\
    U.S. companies have complained, however, that while 
domestic insurers can obtain multiple branch licenses at once, 
the government requires foreign companies to apply for them one 
at a time.\106\ According to a report from the U.S. Embassy in 
Beijing, while the CIRC claims it does not have any 
restrictions on opening multiple branch offices, it has denied 
several U.S. insurance companies' applications to open multiple 
branch offices, and instead granted approval to open only one 
branch office.\107\
            Securities
    The Chinese government currently limits foreign 
participation to minority stakes in securities joint ventures 
(49 percent for fund management and 33 percent for securities 
trading).\108\ Joint ventures are permitted to underwrite and 
trade B-shares and H-shares, as well as government and 
corporate debt.\109\ The Chinese government has allowed foreign 
institutions to trade in A-shares since December 2002, but only 
those that have met strict criteria, and then only to a limited 
extent.\110\ ``A-shares'' refers to shares of companies 
incorporated in mainland China that are traded in Chinese stock 
markets and are denominated in local currency. ``B-shares'' 
refers to shares of companies incorporated in China that are 
traded in Chinese stock markets and are denominated in 
foreign currencies. ``H-shares'' refers to shares of companies 
incorporated in China that are listed on the Hong Kong Stock 
Exchange and foreign stock exchanges.
    In its accession agreement, the government agreed that 
immediately upon WTO accession it would allow foreign 
securities institutions to engage directly (without a Chinese 
intermediary) in 
B-share business. In addition, representative offices in China 
of foreign securities institutions could become special members 
of all Chinese stock exchanges. Finally, foreign service 
providers were permitted to establish joint ventures with 
foreign investment up to 33 percent to conduct domestic 
securities investment fund management business, increasing to 
49 percent in 2004. Also by 2004, foreign securities 
institutions were to be permitted to establish joint ventures 
with up to one-third foreign ownership. These institutions were 
to be allowed to engage (without a Chinese intermediary) in 
underwriting A-shares, underwriting and trading of B- and H- 
shares, government and corporate debts, and launching 
funds.\111\
    The U.S. Securities and Exchange Commission (SEC) and the 
China Securities Regulatory Commission (CSRC) announced they 
had established a framework for a dialogue between the two 
agencies.\112\ The objectives of the dialogue included 
improving cooperation and the exchange of information in cross-
border securities 
enforcement matters, and expanding upon the existing program of 
training and technical assistance that the SEC provides to the 
CSRC.
            China's Financial Services Environment
    Money laundering, embezzlement, bribery, and financial 
fraud are major problems in China. The International Monetary 
Fund has estimated that money laundering in China may total as 
much as US$24 billion annually, while the Asian Development 
Bank estimates that more than 2 percent of China's gross 
domestic product is laundered in mainland China each year. 
Transparency International, an anti-corruption NGO based in 
Germany, ranked China 78 out of 158 in its 2005 Corruption 
Perceptions Index,\113\ and reports in Chinese state-run news 
media indicate that government corruption in China is 
widespread.\114\
    The Chinese government is taking steps to address these 
issues. In January 2005, China became an observer to the 
Financial Action Task Force.\115\ In October 2005, the National 
People's Congress ratified the UN Anti-Corruption 
Convention.\116\ In April 2006, the People's Bank of China 
issued a series of draft regulations for public comment aimed 
at ``beefing up efforts to rein in money laundering across its 
banking, securities, and insurance sectors.'' \117\ In 
addition, in February 2006, the China Banking Regulatory 
Commission issued rules requiring newly established joint stock 
commercial banks, which have equity owners and are typically 
smaller institutions, to have at least one foreign 
shareholder.\118\
Information and Entertainment
    The Chinese government made limited commitments in its WTO 
accession agreements regarding foreign participation in the 
domestic information and entertainment sectors.\119\ The 
government agreed to permit foreign investors to enter the 
retail market for books, newspapers, and magazines within one 
year after accession, and to permit them to import and engage 
in wholesale distribution of these products within three years 
of accession. The government also committed to implementing a 
system in which the relevant regulatory authority for the 
provision and transfer of financial information would be 
separate from, and not accountable to, any service suppliers 
that it regulated.\120\
    Although the government initially allowed foreign 
enterprises to obtain the right to distribute books, 
newspapers, and magazines,\121\ it has recently enacted 
regulations that appear to restrict this right.\122\ In January 
2005, the State Council issued a revised Sectoral Guidelines 
Catalogue for Foreign Investment that, like the version issued 
in March 2002, placed the importation of books, magazines, and 
newspapers in the ``prohibited'' category.\123\ The Chinese 
government maintains that it may impose this restriction based 
on the general exception for the protection of the public 
morals in Article XX of the General Agreement on Tariffs and 
Trade 1994.\124\
    The government has not established an independent regulator 
for financial information service providers, despite its WTO 
commitment to do so. In 2004, the State Council issued a 
decision designating the Xinhua News Agency, a government 
agency directly under the control ofthe State Council, as the 
regulator of foreign financial information service providers in 
China.\125\ Foreign companies have complained that Xinhua has 
been using its regulatory authority to increase control over 
the distribution of content, and has been expanding the 
definition of a wire service so as to establish a monopoly on 
the dissemination of sports and financial news.\126\ In 
September 2006, Xinhua issued new measures prohibiting 
international financial information companies from providing 
news and information directly to Chinese customers.\127\ 
Instead, under the new measures, foreign media outlets such as 
Reuters and Bloomberg may only sell their products through an 
agency appointed by Xinhua.\128\
    U.S. rights holders and industry groups have complained 
that the government's censorship regime serves as a barrier to 
entry and encourages IPR violations. In 2005, the American 
Chamber of Commerce in China wrote that censorship clearance 
procedures severely restricted the ability to distribute CD, 
VCD, and DVD products in China and provide an ``unfair and 
unnecessary advantage to pirate producers who bring their 
products to market long before legitimate copies are available 
for sale.'' \129\ In its 2006 Special 301 Report, the USTR 
cited delays created by the Chinese censorship process as a 
market access restriction. This restriction adversely affects 
U.S. IPR holders by artificially limiting the availability of 
foreign content and thereby leading consumers to resort to 
pirated goods. In addition, U.S. officials noted that rights 
holders have complained that the government's censorship 
standards and procedures for video and television broadcasting 
products are unclear. The U.S. delegation to the WTO's TRIPs 
Council asked Chinese officials to explain their government's 
standards and procedures, how WTO members can obtain copies of 
them, and the inquiry process when a delay in approval occurs. 
U.S. delegates made similar inquiries about how Chinese 
authorities screen and censor entertainment software.\130\ The 
Chinese government told the U.S. delegation to ``convey these 
TRIPs non-relevant concerns to the competent committees or 
councils in the WTO, for example the Committee on Market 
Access.'' \131\
    Chinese government censorship also makes it difficult for 
foreign Internet and media companies to operate in China. In 
February 2006, in testimony before the Subcommittee on Asia and 
the Pacific and the Subcommittee on Africa, Global Human 
Rights, and International Operations of the Committee on 
International Relations of the U.S. House of Representatives, a 
Google representative said that Chinese government censorship 
was one of the factors that forced the company to launch a new, 
self-censoring service.\132\ Microsoft has said that Chinese 
government regulations allow authorities to restrict content on 
``the kinds of Internet-based services provided by Microsoft's 
MSN division.'' \133\ Yahoo! no longer owns the Yahoo! China 
business.\134\ In September 2005, the chief executive of Time 
Warner, Inc., said that his company had withdrawn from a US$50 
million Internet venture in January 2004 because the Chinese 
government insisted that it had the right to monitor all 
traffic on the service.\135\ [See Section V(b)--Special Focus 
for 2006: Freedom of Expression.]
    The government's restrictions on foreign participation in 
China's media industry reflect growing Party concern that its 
monopoly is weakening over what Chinese citizens view, read, 
and listen to. The government has effectively banned all 
foreign news media from distributing their products in 
China.\136\ When the State Administration of Radio, Film, and 
Television increased restrictions on 
foreign participation in China's domestic television and film 
production in March 2005, it issued a circular saying that 
regulators must ``control the contents of all products of joint 
ventures in a practical manner, understand the political 
inclinations and background of foreign joint venture parties, 
and in this way prevent harmful foreign ideology and culture 
from entering the domain of television program production 
through joint ventures.'' \137\ In August 2005, Chinese 
government regulators blocked News Corp.'s plan to operate a 
television channel in China.\138\ In June 2006, when News Corp. 
announced it would sell part of its stake in Phoenix Satellite 
Television, a channel that the Chinese government permitted to 
have limited broadcast rights in China, Western news media 
cited analysts as saying that the deal ``underscored Beijing's 
apparent attempt to limit foreign firms' operations in the 
sensitive media industry and News Corp.'s efforts to circumvent 
that.'' \139\ The action coincided with the government's 
promulgation of several regulations that limit foreign access 
to China's media industry.\140\
Government Procurement
    When China acceded to the WTO, the government made several 
commitments related to non-discrimination in government 
procurement. These commitments include providing all foreign 
suppliers an equal opportunity to participate in procurements 
that are opened to any foreign suppliers, conducting 
procurement in a transparent manner, and ensuring procurements 
would be subject only to regulations of general application and 
procedures that had been published and made available to the 
public.\141\ In addition, the Chinese government committed to 
beginning negotiations for membership in the Government 
Procurement Agreement (GPA) ``as soon as possible.'' \142\ 
China became an observer to the WTO Committee on Government 
Procurement in February 2002, but has yet to join the GPA. At 
the April 2006 Joint Commission on Commerce and Trade (JCCT), 
Chinese officials committed to starting formal negotiations to 
join the GPA, and to submitting a list of government entities 
to be subject to GPA coverage no later than December 2007.\143\ 
The government has acknowledged the potential benefits to the 
domestic commercial environment that joining the GPA 
represents.\144\ Nevertheless, at least one Chinese expert has 
said that China's government procurement market may remain 
closed to foreign companies for another four years.\145\
    Little government procurement in China is currently open to 
competitive bidding, and decentralized and individual agency 
procurement expenditures are growing much more rapidly than 
centralized government procurement expenditures.\146\ According 
to the state-run media, the current government procurement 
system suffers from several problems, including officials 
making procurements without prior authorization and government 
agencies charged with oversight of procurement not imposing 
sanctions for violations of existing regulations.\147\ These 
practices in turn hinder the government's ability to make 
appropriate budget forecasts for procurement.\148\ Corruption 
also continues to be a problem. In April 2006, the Ministry of 
Finance launched a four-stage program, scheduled to be 
completed by the end of 2006, to address bribery in government 
procurement.\149\ In April 2006, the Ministry of Finance also 
established a task force on commercial bribery and launched a 
hotline for reporting bribery in government procurement.\150\
Agriculture
    Agricultural trade with China is ``among the least 
transparent and predictable of the world's major markets,'' 
according to Deputy U.S. Trade Representative Karan K. 
Bhatia.\151\ The government's inspection and quarantine system 
continues to implement discriminatory sanitary and 
phytosanitary (SPS) measures with questionable scientific 
bases. The WTO, the United States, and other WTO members have 
expressed concerns over how the Chinese government handles 
restrictions on foreign agricultural imports. According to the 
WTO, the Chinese government's SPS regime and inspection 
procedures for imports are complex and unclear.\152\ The 
Chinese government maintained bans on Florida citrus and U.S. 
cherries entering the Chinese market through late 2004, despite 
the lack of a scientific basis for the decisions.\153\ The 
General Administration of Quality Supervision, Inspection and 
Quarantine (AQSIQ) has also set a limit for selenium in U.S. 
wheat that is lower than the international standard. The 
requirement, if enforced, could result in a significant 
decrease in exports of U.S. wheat to China.\154\ WTO members 
have also raised concerns that the Chinese government is 
apparently using SPS measures to ban imports of affected 
products from countries rather than just the affected regions 
within countries.\155\ The Chinese government has said however, 
that its SPS standards are fully compliant with international 
standards and were based on risk assessment.\156\
    According to the USTR, ``capricious practices by Chinese 
customs and quarantine officials can delay or halt shipments of 
agricultural products into China.'' \157\ In August 2005, the 
United States expressed concern to the WTO Committee on Import 
Licensing about requirements that importers must obtain an 
import inspection 
permit\158\ and quarantine inspection permit\159\ prior to 
signing an import contract.\160\ These regulations allow port 
quarantine authorities to return or destroy any cargoes without 
a prior import inspection permit. In addition, according to the 
USTR, AQSIQ uses its discretion to slow down and suspend 
issuance of quarantine inspection permits, and uses unofficial 
quantity requirements to reject shipments that are too large, 
and to limit imports during peak harvest periods.\161\ 
Furthermore, exporters are forced to ship commodities to 
Chinese ports without quarantine inspection permits because of 
delays in the issuance of the permits and the limited time 
purchasers have under the permits to purchase, transport, and 
discharge cargoes.\162\ The inefficiencies lead to demurrage 
bills for Chinese purchasers.
    The Chinese government employs food safety standards for 
imported commodities in a manner that lacks transparency,\163\ 
and in some cases appears intended as a way to limit imports. 
With respect to genetically modified agricultural products, 
international practice is that, once a trait is approved for a 
product it need not be approved for use in other products, 
whether singly or combined with other approved traits.\164\ The 
Chinese government, however, not only requires that a trait be 
reviewed each time it is used in a new product, but also 
requires combinations of approved traits to be separately 
approved.\165\
    The end result of the Chinese government's implementation 
of its SPS, import inspection permit, quarantine inspection 
permit, and food safety systems has been, according to the U.S. 
government and the American Chamber of Commerce in China, a 
source of both significant commercial uncertainty for U.S. 
exporters as well as higher prices for Chinese importers and 
consumers.\166\ The U.S. government has asked the Chinese 
government to explain why 
import inspection permits do not constitute import licenses, 
but instead fall under the umbrella of SPS measures, as the 
Chinese government has claimed.\167\
    While the soybean industry has not experienced significant 
problems in these areas in the past two years,\168\ U.S. beef 
exporters continue to be hard hit. At the April 2006 Joint 
Commission on Commerce and Trade (JCCT), the Chinese government 
agreed to reopen the Chinese market to U.S. beef, subject to 
the completion of a technical protocol.\169\ China had joined 
several countries in banning U.S. beef following the discovery 
of bovine spongiform encephalopathy (BSE) in a cow imported 
into the United States from Canada in December 2003. Even 
though the United States repeatedly provided China with 
extensive technical information on all aspects of its BSE-
related surveillance and mitigation measures, China maintained 
its ban for over two years without providing any scientific 
justification for the decision or identifying the regulatory 
steps that the U.S. government needed to pursue to have the ban 
lifted.\170\
    The Chinese government announced in June 2006 that it was 
lifting the ban on U.S. beef.\171\ U.S. government officials 
and industry sources have said that this will not lead to a 
resumption of beef exports, because the Chinese government has 
yet to agree to a technical protocol.\172\ Moreover, China's 
June announcement, even if implemented, would only open the 
Chinese market to a narrow segment of imports (boneless beef 
under 30 months of age) rather than all beef, consistent with 
Organization for Animal Health (OIE) standards. The Chinese 
government made similar commitments in 2004 and 2005 with 
respect to bovine semen and embryos, but the U.S. government 
and industry analysts have noted little or no progress in 
getting the relevant Chinese agencies to allow 
imports of those items to resume, as regulatory authorities 
impose information requirements that are not consistent with 
OIE standards.\173\
    When it acceded to the WTO, the Chinese government 
committed to establish a transparent tariff-rate quota (TRQ) 
system that included large and increasing TRQs for imports of 
wheat, corn, rice, cotton, wool, sugar, vegetable oils, and 
fertilizer, a portion of which was to be reserved for 
importation through non-state trading entities.\174\ After 
China joined the WTO, complaints arose that its TRQ system 
lacked transparency and included burdensome licensing 
procedures.\175\ While the Chinese government eliminated 
certain unnecessary licensing requirements in 2004,\176\ 
problems with a lack of transparency continue, and there is no 
publicly available list of quota holders.\177\
    Certain aspects of China's value-added tax (VAT) system 
continue to generate concerns about a lack of national 
treatment as they relate to agriculture. In October 2005, the 
United States and China notified the WTO that they had resolved 
a longstanding 
dispute over the Chinese government's preferential rebate of a 
substantial portion of VAT for domestically designed and 
produced 
integrated circuits. Problems remain, however, with respect to 
fertilizers and agricultural products, as U.S. industry reports 
state that Chinese producers are able to avoid payment of the 
VAT on their products, either as a result of poor collection 
procedures, special deals or even fraud, while the full VAT 
must be paid on competing imports.\178\
    In April 2006, AQSIQ Minister Li Changjiang signed a 
memorandum of understanding with U.S. Agriculture Secretary 
Mike Johanns. The signatories agreed to exchange information on 
food regulations and standards, inspection and quarantine 
procedures, and other issues such as pests and diseases, 
harmful residues, and food certification.\179\ The same month, 
the American Soybean Association signed a three-year agreement 
with China's Chamber of Commerce for Import and Export of 
Foodstuffs, Native Produce 
and Animal By-products that included measures on information 
exchange and training programs.\180\
Automobiles
    In March 2006, the United States filed a WTO request for 
consultations with China, saying that the Chinese government's 
industrial policy for automobiles discriminates against foreign 
auto parts in a manner which appears inconsistent with China's 
WTO commitments.\181\ Canada and the European Union also filed 
similar requests.\182\ The U.S. request expressed the 
understanding that, if imported parts in a vehicle exceed a 
specified threshold, the Chinese government would assess a 
charge on the imported auto parts equal to the tariff on 
complete vehicles, rather than the lower charge otherwise 
applied to auto parts. The U.S. request says that these 
measures appear to constitute a charge in excess of rates that 
the Chinese government committed to in its accession agreement, 
as well as a subsidy contingent upon the use of domestic rather 
than imported goods.\183\
    Even as it agreed to consultations with the United States, 
Canada, and the European Union,\184\ the Chinese government, 
speaking through state-run media, said that China should 
``promulgate a regulation on imports of auto parts in an 
attempt to prompt foreign partners to produce core auto parts 
in China, thus reducing the country's dependence on imported 
components.'' \185\ Consultations were held in May, which were 
joined by Japan, Mexico, and Australia, but no resolution was 
reached.\186\ In June, the European Union said it would seek 
another round of consultations. In September, several 
countries, including the United States, requested the WTO 
establish a dispute resolution panel to address this 
issue.\187\
Steel
    The National Development and Reform Commission (NDRC) 
issued a new steel industrial policy in July 2005\188\ that, 
according to the USTR, provides for state management of 
``nearly every major aspect of China's steel industry.'' \189\ 
The USTR reports that the policy includes provisions that 
appear to raise barriers to foreign participation, discriminate 
against foreign equipment and technology imports, and encourage 
the use of domestically produced equipment.\190\ The USTR has 
said that the policy imposes a high degree of government 
direction and decisionmaking about the allocation of resources 
into and out of China's steel industry. The USTR reports that 
this policy is inconsistent with the spirit of 
China's general WTO obligations, and raises concerns regarding 
China's WTO commitment not to influence, directly or 
indirectly, commercial decisions on the part of state-owned or 
state-invested enterprises.\191\ The U.S. and Chinese 
governments held the first Steel Dialogue meeting in March 
2006. During this meeting, U.S. officials stressed U.S. steel 
industry concerns that government direction, not market 
mechanisms, is driving much of the capacity expansion in 
China's steel industry.\192\
    The policy's requirement that foreign investors possess 
proprietary technology or intellectual property in the 
processing of steel also raises concerns. The USTR has said 
that, because foreign investors are not allowed to have a 
controlling share in Chinese steel and iron enterprises, this 
requirement would seem to constitute a de facto technology 
transfer requirement, in conflict with China's WTO commitments 
not to condition investment on the transfer of technology.\193\
    In May 2005, without prior notification to the WTO, the 
Chinese government imposed new import licensing procedures for 
iron ore.\194\ In August 2005, the United States submitted 
questions to the WTO Committee on Import Licensing noting that 
qualification rules reportedly restrict licenses to 48 traders 
and 70 steel producers, but that no list of criteria or list of 
qualified companies had been published.\195\ The United States 
raised the issue of the operation of the import licensing 
procedures applicable to iron ore during the transitional 
reviews before the Committee on Import 
Licensing in September 2005,\196\ and before the Committee on 
Trade-Related Investment Measures in October 2005.\197\ The 
Chinese delegates maintained that the government did not impose 
any qualifying criteria, but it also acknowledged that two 
organizations affiliated with the Chinese government had been 
discussing whether it was necessary to impose industry rules 
regarding the qualification criteria for enterprises applying 
for automatic import licenses.\198\
Distribution Services and Trading Rights
    When it acceded to the WTO, the Chinese government 
committed to phase out restrictions on the right of foreign 
investors to import and export products in and out of China 
(``trading rights'') and to sell products within China 
(``distribution services'') for most sectors by December 
2004.\199\ While it implemented its trading rights commitments 
nearly six months ahead of schedule,\200\ the government's 
efforts to implement the distribution services commitments were 
characterized by ``delay and confusion.'' \201\ Although the 
Ministry of Commerce (MOFCOM) issued regulations on foreign 
distribution services in April 2004,\202\ the Ministry 
subsequently found it necessary to issue several circulars to 
clarify issues relating to sales away from a fixed location 
(``direct sales''),\203\ the ability of foreign-invested 
enterprises in bonded zones to apply for distribution 
rights,\204\ and the procedures for foreign-invested 
enterprises to expand their business scope to include 
distribution.\205\ The government did not issue formal 
regulations on direct sales until August 2005.\206\ According 
to U.S. government and industry sources, however, these 
regulations contained several problematic provisions.\207\ In 
February 2006, however, MOFCOM issued the first direct selling 
license to Avon Products, Inc.,\208\ and in April 2006, the 
government agreed to establish a public-private dialogue 
designed to 
facilitate direct sales.\209\
Standards
    As part of its WTO accession commitments, the Chinese 
government became obligated under the WTO Technical Barriers to 
Trade Agreement to use international standards as the basis for 
domestic standards except when ineffective or inappropriate, 
and to refrain from adopting more trade-restrictive standards 
than necessary.\210\ In November 2005, a Chinese representative 
told the WTO Committee on Technical Barriers to Trade that as 
the result of an ``overhaul'' of national standards to ensure 
their consistency with WTO commitments, the General 
Administration of Quality Supervision, Inspection and 
Quarantine and the Standards Administration of China reported 
that a total of 1,416 national standards had been nullified, 
among which 114 were mandatory.\211\ Nevertheless, according to 
the WTO, the percentage of China's national standards that are 
equivalent to international standards has remained unchanged 
since 2000, at around 32 percent.\212\ In May 2006, the U.S. 
Trade and Development Agency awarded the American Chamber of 
Commerce in China a US$500,000 technical assistance grant to 
promote increased cooperation between the United States and 
China in the development of commercial and industrial standards 
and regulatory policy.\213\
    Despite these positive steps, according to the USTR, the 
Chinese government continues to pursue ``unique national 
standards in many areas of high technology that could lead to 
the extraction of technology or intellectual property from 
foreign rights holders.'' \214\ For example, in May 2003, the 
Chinese government issued two standards that incorporated the 
WLAN Authentication and Privacy Infrastructure (WAPI) 
encryption.\215\ WAPI differs from, and cannot function with, 
the 802.11 standard approved by the International Standards 
Organization (ISO). In addition, the government was prepared to 
enforce the standard by providing the algorithms only to a 
limited number of Chinese companies, requiring foreign 
competitors to provide specifications of their products if they 
wished to produce WLAN equipment for the Chinese market.\216\ 
At the April 2004 Joint Commission on Commerce and Trade (JCCT) 
meeting, Chinese officials agreed to delay WAPI implementation, 
and submitted a voluntary WAPI standard to the ISO.\217\
    In March 2006, the ISO rejected China's proposed WAPI 
standard.\218\ The Chinese government said that the decision 
had been influenced by ``the diplomatic relationship between 
the United States and other nations,'' and that ``nothing would 
affect WAPI's domestic application.'' \219\ The Chinese 
government filed appeals with the ISO in April and May asking 
it to overturn the vote and accusing the Institute of 
Electrical and Electronics Engineers (IEEE) of ``organizing a 
conspiracy against the China-developed WAPI, insulting China 
and other national bodies, and intimidation and threats.'' 
\220\ In June, the Chinese delegation walked out of an ISO-
organized meeting, saying that only 7 of the 17 countries 
opposing the WAPI standard had attended the meeting, and that 
the ``monopoly force from the American standard maker IEEE 
poisoned the voting process and created an unfair atmosphere at 
the Prague meeting.''\221\
Bilateral Cooperation on Commercial Issues
    The U.S. Department of Commerce (DOC) promotes bilateral 
cooperation with relevant Chinese government departments and 
agencies on market access issues and ensuring compliance with 
trade agreements. Past DOC programs have offered training to 
Chinese officials on protection of intellectual property 
rights, adoption standards, promotion of the rule of law, and 
improving domestic health care. To improve transparency in the 
Chinese commercial legal regime, DOC officials, in cooperation 
with the National People's Congress, held roundtables in three 
major Chinese cities during 2005 that focused on legislative 
and regulatory transparency. As the Chinese government works to 
adopt its first anti-monopoly law, DOC also hosted a Chinese 
delegation to the United States in November 2005 to discuss the 
principles of U.S. antitrust law. In July 2006, DOC officials 
organized a program focusing on the U.S. Federal Register 
system and regulatory transparency for a delegation from the 
China Foreign Economic and Trade Gazette. In August 2006, DOC 
and the Legislative Affairs Commission of China's National 
People's Congress Standing Committee (NPCSC) jointly organized 
a seminar on the revision of China's Partnership Enterprise 
Law. The revisions adopted by the NPCSC later in the month 
incorporated a number of suggestions made by the U.S. side, 
thus bringing the Chinese regulatory regime, important to 
professional services and venture capital firms, closer to 
international practices. A bilateral Standards and Intellectual 
Property program held in September 2006 focused on the 
relationship between standards and intellectual property as 
well as their impact on innovation and competitiveness.

                              VIII. Tibet


                                findings


        <bullet> In 2005, the Dalai Lama increased his efforts 
        to explain that he does not seek Tibetan independence 
        from China. The Dalai Lama's envoys traveled to China 
        for a fifth round of dialogue with Chinese officials in 
        February 2006, relaying a request to Chinese leaders to 
        permit the Dalai Lama to visit China. Tibetans could 
        benefit from full implementation of the Regional Ethnic 
        Autonomy Law, but the lack of local self-government in 
        Tibetan autonomous areas of China creates mistrust in 
        the dialogue and demonstrates that authorities are not 
        implementing this law.
        <bullet> The Chinese government favors accelerating 
        implementation of development initiatives, especially 
        the Great Western Development program, that already 
        erode Tibetan culture and heritage. The Qinghai-Tibet 
        railway began passenger service in July 2006, 
        increasing Tibetan concerns about the railway's 
        potential effects on Tibetan culture and the 
        environment. Education levels among Tibetans are much 
        lower than those of 
        ethnic Han Chinese, undermining the ability of Tibetans 
        to compete for employment and other economic advantages 
        in an emerging market economy that attracts an 
        increasing number of Han.
        <bullet> The Chinese government strictly limits the 
        rights of Tibetans to exercise the constitutionally 
        guaranteed freedoms of 
        religion, speech, and assembly. Communist Party 
        political campaigns promote atheism and strengthen 
        government efforts to discourage Tibetan aspirations to 
        foster their unique culture and religion. Chinese 
        authorities have punished Tibetans, such as Jigme 
        Gyatso, a former monk imprisoned in 1996 who is serving 
        a 17-year sentence and Choeying Khedrub, a monk serving 
        a life sentence since 2000, for peaceful expressions 
        and non-violent actions that officials believe could 
        undermine Party rule. The Commission's Political 
        Prisoner Database listed 103 known cases of current 
        Tibetan political detention or imprisonment as of 
        August 2006, a figure that is likely to be lower than 
        the actual number of Tibetan political prisoners. Based 
        on sentence information available for 70 of the current 
        prisoners, the average sentence is approximately 10 
        years and 11 months.
Introduction
    The Chinese government and the Communist Party give 
economic development in Tibetan areas of China a higher 
priority than protecting basic human rights such as the 
freedoms of religion, speech, and assembly. Chinese officials 
provide economic statistics\1\ to demonstrate Tibetan progress, 
but Tibetans continue to struggle with poverty, suffer from 
inadequate education, and face a growing number of better-
educated ethnic Han who travel to Tibetan areas and compete for 
jobs and other economic benefits. The government can strengthen 
China's ethnic and national unity by improving the 
implementation of the Regional Ethnic Autonomy Law, and by 
ensuring that Tibetans can manage their affairs, become equal 
competitors with their neighbors, and preserve their unique 
cultural, religious, and linguistic heritage.\2\
The Status of Discussion Between China and the Dalai Lama
    U.S. government policy on Tibet recognizes the Tibet 
Autonomous Region (TAR) and Tibetan autonomous prefectures and 
counties\3\ in other provinces to be a part of China.\4\ The 
State Department's annual Report on Tibet Negotiations detailed 
the U.S. government's steps to encourage Chinese officials to 
``enter into a dialogue with the Dalai Lama or his 
representatives leading to a negotiated agreement on Tibet.'' 
\5\ The Report described the Dalai Lama as someone who 
``represents the views of the vast majority of Tibetans,'' and 
expressed encouragement that Chinese officials invited the 
Dalai Lama's envoys to visit China in February 2006 (2005 
visits also cited). The Report states, ``The Administration 
believes that dialogue between China and the Dalai Lama or his 
representatives will alleviate tensions in Tibetan areas and 
contribute to the overall stability of China.'' The Report 
notes, however, that ``the lack of resolution of these problems 
leads to greater tensions inside China and will be a stumbling 
block to fuller political and economic engagement with the 
United States and other nations.'' \6\
    In 2005, the Dalai Lama increased his efforts to explain 
that he does not seek Tibetan independence from China. During a 
religious teaching in India in January 2006, the Dalai Lama 
spoke to some 9,000 Tibetans who traveled from Tibetan areas of 
China to be among the estimated 90,000 attendees.\7\ In his 
closing remarks, the Dalai Lama told them that he does not seek 
Tibetan independence, and that he is working for a solution 
based on the Middle Way Approach\8\ and within the existing 
Chinese constitutional framework.\9\ He urged Tibetans 
returning to China to tell other Tibetans about the importance 
of his approach for ensuring genuine autonomy for Tibetans.\10\
    The Dalai Lama's envoys traveled to China for a fifth round 
of dialogue with Chinese officials in February 2006.\11\ 
Special Envoy Lodi Gyari\12\ and Envoy Kelsang Gyaltsen did not 
travel to the TAR or one of the Tibetan Autonomous Prefectures 
(TAPs) in other provinces, as they did during previous trips to 
China.\13\ Instead, they visited the Guangxi Zhuang Autonomous 
Region to observe ``the situation'' in one of the other five 
provincial-level ethnic autonomous regions, and to meet with 
Zhu Weiqun, the deputy head of the Communist Party's United 
Front Work Department (UFWD). Gyari explained that as a result 
of the visit, ``today there is a better and deeper 
understanding of each other's position and the fundamental 
differences that continue to exist in the position held by the 
two parties.'' A Tibetan government-in-exile representative 
told reporters in July 2005 that the most fundamental 
difference is over ``the definition of Tibet,'' and explained, 
``While China sees Tibet as the area included under the Tibet 
Autonomous Region, Tibetans claim a much larger area\14\ where 
the culture and language are 
Tibetan.'' \15\
    After the envoys returned to India, the Dalai Lama focused 
his annual March 10 statement\16\ entirely on the dialogue, 
emphasizing his commitment to the dialogue process and 
expressing his wish to visit China. He summarized his position 
by saying, ``I have only one demand: self-rule and genuine 
autonomy for all Tibetans, i.e., the Tibetan nationality in its 
entirety. This demand is in keeping with the provisions of the 
Chinese Constitution, which means it can be met.'' \17\ The 
Dalai Lama stated that his envoys relayed a request to Chinese 
leaders to permit him to visit China as a religious pilgrim. 
``As well as visiting the pilgrim sites, I hope to be able to 
see for myself the changes and developments in the People's 
Republic of China,'' he said.\18\
    Tashi Wangdi, the Dalai Lama's representative to the 
Americas, told a Commission roundtable in March 2006 that the 
Chinese government's basic concern is the ``unity, territorial 
integrity, and economic health of the country.'' A resolution 
of the Tibetan issue would contribute to China's national 
interests, he said, and if the Dalai Lama were to visit China, 
it would be a ``win-win situation'' for the Chinese leadership:

          The Middle Way Approach adopted by His Holiness will 
        in fact reinforce and strengthen all this. . . . One of 
        the most effective ways of creating the right 
        atmosphere is through personal contact and face-to-face 
        meetings. It is with this in mind His Holiness the 
        Dalai Lama had conveyed to the Chinese government 
        through his envoys his wish to visit some of the holy 
        Buddhist pilgrimage sites in China.\19\

    The Tibetan government-in-exile's March 10, 2006, statement 
declared support for the Dalai Lama's policy, and described 
Tibetans as ``one of China's 55 minority nationalities.'' \20\ 
The statement noted that ``before 1951 [Tibetans] all lived 
together in small, compact groups in a contiguous chain,'' and 
argued that administrative unity of that territory is necessary 
to protect Tibetan culture:

          In essence, we have always said that the need to have 
        genuine autonomy for the three provinces of Tibet or 
        the entire Tibetan people is the basic principle. We 
        cannot compromise on this principle. . . . Because of 
        these reasons,\21\ we have proposed the need to have 
        unification of all the Tibetans, with the status of 
        genuine autonomy. This demand is in accordance with 
        Marxist and Leninist principles and the provisions of 
        the Chinese Constitution.

    Chinese officials say that the Dalai Lama's proposal to 
combine existing areas of Tibetan autonomy\22\ and implement 
genuine autonomy is not consistent with the Chinese 
Constitution and laws. Lhagpa Phuntsog (Laba Pingcuo), 
Secretary General of the China Tibetology Research Center and 
former Vice Chairman of the TAR, told reporters in May 2006 
that the Dalai Lama had raised two principal issues, ``greater 
Tibet'' and ``real autonomy.'' He said that the Dalai Lama's 
demands ``don't match the history of Tibet,'' and that changing 
the status quo would not accord with the Chinese Constitution 
or the Regional Ethnic Autonomy Law (REAL).\23\ Sun Yuxi, the 
Chinese Ambassador to India, told reporters in October 2005 
that the Dalai Lama's request for a legal system ``something 
like that of Hong Kong,'' is not possible, and that a ``larger 
Tibet, [that would] include part of four more Chinese 
provinces,'' is ``technically not acceptable.'' \24\ In July 
2006, Wu Yingjie, the Vice Chairman of the TAR government, 
rejected the Dalai Lama's objective that a Tibetan autonomous 
area should have a democratically elected government, according 
to a Hong Kong news media report.\25\ According to Wu, the 
Dalai Lama has said\26\ that if he returns to China, the 
Chinese government should create a greater Tibet and allow 
democracy within it. Wu said that it is not possible for the 
Chinese government to accept the Dalai Lama's conditions, and 
that Tibetans enjoy prosperity under Party leadership and are 
reluctant to see the Dalai Lama return.\27\
    Chinese government officials express interest in continuing 
the dialogue, but blame the Dalai Lama for the lack of 
substantive progress, claiming that he is attempting to ``split 
the motherland.'' \28\ China's Ministry of Foreign Affairs 
accused the U.S. Congress on September 14, 2006, of sending a 
``severely wrong signal to the `Tibet-independence' forces'' 
\29\ after the U.S. House of Representatives passed a bill the 
previous day authorizing the Dalai Lama to receive the 
Congressional Gold Medal.\30\ After the Dalai Lama's envoys 
visited China in February, Foreign Ministry spokesperson Qin 
Gang told reporters that the Dalai Lama ``steals his way to 
this or that corner of the world'' in order to ``split our 
motherland.'' \31\ Jampa Phuntsog (Xiangba Pingcuo), Chairman 
of the TAR government, however, recognized the envoys' visit in 
frank remarks to reporters in Beijing on March 6: ``We cannot 
call the talks negotiations now. They are just dialogue, or 
contact, but the channels for communication have always been 
smooth. . . . We will have further discussions in [the] future. 
But we haven't yet reached the stage of substantive 
negotiations.'' \32\
    Tibetans could benefit from full implementation of the 
REAL, but the lack of local self-government in Tibetan 
autonomous areas of China creates mistrust in the dialogue and 
demonstrates that authorities are not implementing this law. 
The REAL asserts in its Preamble that the practice of autonomy 
``reflects the state's full respect for and guarantee of ethnic 
minorities' right to administer their internal affairs.'' \33\ 
Article 7 of the REAL, however, requires that local autonomous 
governments ``place the interests of the state as a whole above 
all else and actively fulfill the tasks assigned by state 
organs at higher levels.'' \34\ A 2004 Harvard University study 
of autonomy in Tibetan areas of China considered a compilation 
of 161 laws and regulations, and found that poor implementation 
negates the value of autonomy legislation and erodes the rule 
of law.\35\ A University of Hong Kong professor pointed out in 
March 2006 that regional ethnic autonomy is ``very restricted'' 
because ``Beijing can override it through either legislation or 
administrative decisions.'' \36\ ``Today, the concept is valued 
primarily for speeding up economic and industrial development, 
which itself threatens the cultures and languages of 
minorities,'' according to the professor's article.
    The central government and Party defend the regional ethnic 
autonomy system, asserting that it is successful. A February 
2005 State Council White Paper declared that regional ethnic 
autonomy is ``a correct solution to the issue of ethnic 
groups,'' and that more than 50 years of implementation prove 
that the system is ``immensely successful.'' \37\ At a meeting 
chaired by President and Party General Secretary Hu Jintao in 
August 2005, the Politburo considered ``Tibet work in the new 
century'' and declared that ``the ethnic regional autonomy 
system has been continually consolidated and perfected, and the 
people of all ethnic groups fully enjoy their rights as masters 
of the country.'' \38\
    Some Tibetans reject the Dalai Lama's offer to resolve the 
issue within the framework of the Chinese Constitution and 
autonomy, and their willingness to speak out is increasing. For 
example, the chairman of the oldest Tibetan advocacy group in 
the United States told a Commission roundtable in March 2006 
that the dialogue has not resulted in ``any tangible 
progress.'' \39\ He said that he believes most Tibetans want 
independence, but they support the Middle Way Approach because 
of their high regard for the Dalai Lama. He warned that Chinese 
leaders may be mistaken if they expect the Tibet issue to fade 
away after the Dalai Lama passes away:

          Rather than the issue dying away, there is a greater 
        likelihood that the issue will destabilize, with future 
        generations of very frustrated Tibetans resorting to 
        other means to bring freedom to Tibet. The role and the 
        position of the Dalai Lama has been a great stabilizer 
        for the Tibetan community, the Free Tibet Movement, and 
        even the world.\40\

    The Chinese government portrays as terrorists some Tibetans 
living outside of China who call for independence,\41\ but has 
not provided evidence for this designation. In February 2004, a 
Chinese public security journal described the Tibetan Youth 
Congress (TYC), a pro-independence NGO based in India that 
claims 20,000 members worldwide,\42\ as ``the extremists among 
the new generation of the Dalai Lama group.'' \43\ The article 
claimed, ``It can be said that every violent terrorist activity 
that took place in the Tibetan regions was intricately 
connected with extremist organizations such as the TYC.'' \44\ 
An August 2005 article in China's Tibet magazine charged that 
``[TYC] diehards stick to `Tibetan independence,' stand for 
violence, and work hand-in-glove with international terrorists 
to form terrorist organizations in India.'' \45\
    Some Tibetans, especially the younger generation, are 
questioning the non-violent message of Buddhist philosophy. TYC 
President Kalsang Phuntsok acknowledged in December 2005 that 
``a huge section of the Tibetan youth community'' believes that 
the Tibetan independence movement ``is like any other 
movement:''

          There is no reason for us to restrain ourselves just 
        because we are Buddhist or just because we have a 
        leader of His Holiness's stature. . . . [We] have a 
        youth section which is not so much influenced by the 
        Buddhist philosophy. They are very much attracted by 
        the movements which are going on all over the world, 
        mostly violence-infested movements, and people see they 
        are achieving results. They look around everywhere, 
        whether it's Israel or Palestine or the Middle East--
        these give them every reason to believe in every 
        [violent] movement that is being waged on this 
        Earth.\46\

    A senior broadcaster for the Voice of America summarized 
the complexities of the outlook for dialogue at a March 2006 
Commission roundtable:

          Cumulatively, these disparate variables have had the 
        effect of creating conditions more favorable to a 
        strategy of engagement for Beijing. But while it seems 
        likely that China will, for the time being, continue to 
        pursue talks with the Dalai Lama, it seems equally 
        unlikely that the two parties can expect to begin 
        discussing matters of substance under present 
        circumstances. . . . [T]he question now for Beijing is 
        whether its deferral of substantive negotiations risks 
        forgoing an historic opportunity to reach a lasting 
        solution on the dispute over Tibet.\47\
Culture, Development, and Demography
    The Chinese government favors accelerating implementation 
of development initiatives, especially the Great Western 
Development program (GWD),\48\ that already erode Tibetan 
culture and heritage. Minister Li Dezhu of the State Ethnic 
Affairs Commission (SEAC) described GWD in 2000, the first year 
of implementation, as ``the necessary choice for solving 
China's nationality problems under the new historical 
conditions.'' \49\ He pointed out that GWD will integrate 
ethnic minorities into the mainstream of ``marketization and 
socialization,'' saying, ``[E]ach nationality will become more 
strongly unified with each day under the centripetal force . . 
. of the large family of the Chinese nation.'' Implementation 
of programs such as GWD encourages Han migration into Tibetan 
and other ethnic areas, a movement that Li described as a 
westward flow of ``human talent'' that would result in 
``clashes and conflicts'' between ethnic groups. Li warned that 
clashes must be ``handled well,'' or there would be a 
detrimental effect on national unity and social stability.\50\
    The Regional Ethnic Autonomy Law (REAL) provides local 
autonomous governments the right to modify or cancel the 
implementation of higher-level laws and regulations,\51\ but 
the central government overrides the rights of local 
governments by passing laws that ensure implementation of 
central government policies such as GWD. Li said in 2000 that 
the state ``must use legal methods to provide legal guarantees 
for the implementation of these policies, and safeguard 
implementation [of GWD] with laws and regulations.'' \52\ A 
March 2004 State Council paper called on the government to 
``speed up the pace of law-making as it pertains to the 
development of the West, to provide a legislative guarantee for 
the development of the West.'' \53\ In March 2006, Wang 
Jinxiang, Vice Minister of the National Development and Reform 
Commission and Deputy Director of the State Council Office of 
the Leading Group for Western Region Development, said that the 
National People's Congress is preparing a draft law that ``aims 
to create a favorable legal environment and support for a 
smooth implementation of the western region development 
program.'' \54\ If enacted, this law would be the first 
national law created solely for the development of a single 
region, according to Wang.
    Senior government and Party officials emphasized the 
importance of hastening the implementation of development 
policies when they attended a September 2005 ceremony in Lhasa 
marking the 40th anniversary of the establishment of the 
TAR.\55\ Jia Qinglin, a Politburo Standing Committee member, 
led the delegation and told an assembly of Party cadres in 
Lhasa that the pace of change in the TAR must be quickened from 
``accelerated development'' to ``development by leaps and 
bounds.'' \56\ Jia listed priorities that include boosting 
rural Tibetan living standards and income, increasing 
infrastructure construction, and consolidating the TAR's ties 
with China's populous east, along with the political objective 
of cracking down on expression and activity that the Party 
characterizes as ``separatist and sabotaging activities.'' \57\ 
The latter descriptions can apply to peaceful expressions of 
devotion to the Dalai Lama, and Tibetan complaints about 
Chinese policies. Authorities in Lhasa tightened security 
before the anniversary and detained as many as 10 Tibetans,\58\ 
including Sonam,\59\ a monk employed at the Potala Palace, and 
Sonam Gyalpo,\60\ a Lhasa tailor who had video and printed 
material in his home featuring the Dalai Lama.
    The Qinghai-Tibet railway, officially designated as a key 
GWD project,\61\ began passenger service in July 2006, ahead of 
scheduled completion in 2007,\62\ increasing Tibetan concerns 
about the railway's potential effects on the Tibetan culture 
and environment.\63\ President Hu Jintao inaugurated the 
railway at a ceremony in Golmud city, Qinghai province. Hu 
described the railway's completion as ``an important expression 
of the constant increase in the comprehensive national strength 
of our country,'' and of ``very great significance'' to 
speeding up regional economic and social development and 
``enhancing ethnic solidarity and consolidating the 
motherland's frontier defense.'' \64\ Ragdi (Raidi), an ethnic 
Tibetan who is a Vice Chairman of the National People's 
Congress Standing Committee (NPCSC) and former Chairman of the 
TAR People's Congress, described the railway during its first 
week of operation\65\ as the Tibetan people's ``road to 
heaven,'' and predicted that it would ``have a profound and 
far-reaching historical significance.'' \66\ In August, an 
official announced that the government plans to extend the 
railway westward from Lhasa to Rikaze, the TAR's second largest 
city, within three years.\67\
    State-run news media reports about the railway's startup 
rejected assertions that operating the railway will result in 
increased Han migration into the TAR, or threaten the Tibetan 
culture and environment. A Xinhua editorial published on July 1 
dismissed claims that ``an influx of the Han people'' would 
lead to Tibetan ``cultural genocide,'' \68\ countering that the 
railway will benefit Tibetans by providing them access to 
``modern civilization.'' \69\ Lhasa mayor Norbu Dondrub said 
the same day, ``Tibetan culture will not disappear when there 
is market demand for it. The Tibetan culture will not have 
fundamental changes with the opening of the Qinghai-Tibet 
Railway. On the contrary, it has a bright future.'' \70\ Wu 
Yingjie, Vice Chairman of the TAR government and head of the 
provincial Propaganda Bureau,\71\ told foreign reporters in 
July that, ``Tibet's unique natural conditions make it 
impossible for the Han people and other ethnic groups to settle 
down here,'' \72\ a statement that is inconsistent with Chinese 
census statistics that document the increasing Han population 
in the TAR.\73\ Chinese news reports described the passengers 
expected to use the new railway as tourists, visitors, or 
travelers. Chairman of the TAR government Jampa Phuntsog 
(Xiangba Pingcuo) acknowledged on July 4 that the railway will 
bring ``a lot of travelers'' to the TAR and build the tourism 
industry, but the railway would not have ``a great impact'' on 
the Tibetan environment.\74\ A TAR tourism official announced 
in May that 4,000 ``tourists'' \75\ will arrive in Lhasa every 
day after the railway is operating, and that the railway would 
bring an additional 400,000 visitors to the TAR during the 
remainder of 2006.\76\ Official estimates are not available of 
the number of persons the government expects to arrive by train 
in Lhasa who will seek employment, conduct business, engage in 
a professional practice, or remain in the area for other 
reasons.
    As the inauguration date of the 33 billion yuan (US$4.12 
billion)\77\ railway approached, Chinese officials and experts 
disclosed that thawing permafrost on the Qinghai-Tibet Plateau 
could adversely affect operation of the railway, but officials 
did not warn of any immediate risks. Professor Wu Ziwang, an 
expert at the Chinese Academy of Sciences frozen soil 
engineering laboratory,\78\ said in January 2006 that the 
permafrost layer on the Qinghai-Tibet Plateau is melting and 
will continue to deteriorate due to global warming.\79\ ``I am 
worried that after ten years the railroad will be unsafe,'' he 
said. In February, Wu observed that faster thawing of the 
permafrost ``might greatly increase the instability of the 
ground . . . where major projects such as highways or railways 
run through.'' \80\ La Youyu, the Deputy Director General of 
the railway's construction headquarters, disclosed in August 
2005 that about 340 miles of track crosses frozen earth that 
``is vulnerable to climate change'' and ``will thaw in summer 
and distend the railway base in winter.'' \81\
    Supreme People's Court (SPC) and Party officials opened a 
conference on June 15 that considered the role the judiciary 
should play in maintaining social stability following the 
opening of the Qinghai-Tibet railway in July.\82\ SPC Vice 
President Zhang Jun said that the railway has an important role 
in the GWD program, and that the inauguration of the rail 
service would create ``new demands regarding the work of the 
courts.'' He stressed that courts along the rail line, the 
principal terminals of which are Lhasa and Xining, the capital 
of Qinghai province, must strengthen their ``communication and 
cooperation'' to coordinate efforts to ``resolve problems.'' 
The courts of both the TAR and Qinghai province must be active 
participants in the ``comprehensive management of public 
security'' to ``assure the harmony and stability of the 
Qinghai-Tibet area, particularly the safe operation of the 
railroad,'' Zhang said.\83\ Wang Yibin, a TAR Communist Party 
Standing Committee member and the head of the TAR Public 
Security Bureau, also spoke at the conference and provided 
specific judicial ``requirements'' linked to the TAR's 
``current anti-splittist struggle and public security 
situation.'' \84\ The requirements included: increasing the 
force of ``strikes against all categories of criminal 
activity;'' establishing a legal environment that is 
``favorable to the safety of the railroad;'' and protecting the 
legal rights and interests of workers while ``preventing and 
appropriately handling mass incident work.'' \85\
    Chinese law, government and Party policies, and official 
statements increase Tibetan concerns that programs such as 
GWD\86\ and projects such as the Qinghai-Tibet railway will 
lead to large increases in Han migration. In an unusual 
statement, a China Daily report in October 2005 described the 
government's expectation that the railway will ``attract 
tourists, traders, and ethnic Chinese settlers'' to the 
region.\87\ The implementation provisions of the REAL issued in 
May 2005 instruct the state to encourage and support ``talents 
of all categories and classes to develop and pioneer in ethnic 
autonomous areas.'' \88\ The Provisions require local 
governments to provide newly arriving ``talent'' with 
``preferential and convenient working and living conditions,'' 
and to ensure that their dependents and children ``enjoy 
special treatment in employment and schooling.'' \89\ An 
opinion paper circulated by the Party Central Committee and the 
government in July 2005 called for ``a large number of trained 
personnel, especially graduates of schools of higher learning, 
to go to [grassroots areas, especially the western region] to 
render meritorious service and make a distinguished career.'' 
\90\ The paper advises the state to offer incentives, such as 
full repayment of academic loans, to graduates who work for an 
unspecified number of years in ``harsh areas.'' \91\
    The Chinese government hampers objective study of regional 
social and economic issues by providing inadequate or 
misleading information about the number of ethnic Han who live, 
work, and trade in Tibetan autonomous areas. The Commission's 
2005 Annual Report showed that official Chinese census data 
portray ethnic Han population as decreasing in 10 of 13 Tibetan 
autonomous areas between 1990 and 2000,\92\ a decline that 
contradicts the visible changes evident in many Tibetan towns 
and cities, and raises questions about the reliability of the 
data.\93\ Comparing national census data with population data 
from provincial statistical yearbooks demonstrates that the 
yearbooks sometimes report even fewer Han in Tibetan areas than 
the census.\94\ Census data for 2000 reports 158,570 Han in the 
TAR,\95\ for example, but a TAR annual statistical yearbook 
reports only 72,122 Han in the TAR in 2000 (less than half the 
census figure).\96\
    A Chinese academic study conducted in Lhasa in 2005 
observed that GWD promotes the flow of ``a large number of 
temporary migrants'' into the TAR, and leads to increased 
competition between a ``low quality'' local Tibetan workforce 
and incoming (mostly Han) migrant workers.\97\ The authors, 
Professors Ma Rong and Tanzen Lhundup, examine the migrant 
population in Lhasa (Tibetan and non-Tibetan), and the role of 
local authorities in registering and managing the migrant 
population. The paper concludes that it is difficult to study 
temporary migrants in the TAR, and that the actual number of 
temporary migrants is much larger than official records 
reveal.\98\ The authors explain that temporary migrants keep 
moving seasonally, and usually try to avoid registering with 
local authorities in order to escape payment of fees and 
charges. Local governments are understaffed with inexperienced 
personnel and cannot keep track of the migrants.\99\
    Education levels among Tibetans are much lower than those 
of ethnic Han,\100\ undermining the ability of Tibetans to 
compete for employment and other economic advantages in an 
emerging market economy that attracts an increasing number of 
Han. Based on 2000 census data, the Tibetan rate of illiteracy 
(47.55 percent) is more than five times higher than for Han 
(8.60 percent), while Han reach senior middle school at more 
than five times the rate of Tibetans (8.83 percent compared to 
1.70 percent).\101\ Ma and Lhundup found similar patterns in 
their study of migrants in Lhasa: the rate of illiteracy among 
Tibetan migrants (32.3 percent) was almost 10 times higher than 
for Han migrants (3.3 percent),\102\ and Han migrants were 
better prepared to secure jobs that require skills learned in 
junior or senior middle school. Of the migrants surveyed, Han 
reached junior or senior middle school at about twice the rate 
of Tibetans: 53.7 percent of Han compared to 26 percent of 
Tibetans reached junior middle school, and 19.4 percent of Han 
compared to 9 percent of Tibetans reached senior middle 
school.\103\ The survey's population sample shows that the 
advantage Han migrants enjoy in the Lhasa job market is 
qualitative, based on their education levels, and also 
quantitative--there were at least four times as many Han 
migrants in Lhasa as Tibetan migrants.\104\
    The difference in education levels heightens the barrier 
that rural Tibetans face, even compared to urban Tibetans, when 
they seek employment or commercial opportunities in urban 
centers.\105\ Tibetans living in towns and cities reached 
senior middle school at about 12 times the rate of Tibetans 
living in rural areas, according to official 2000 census 
data.\106\ Based on the same data, Tibetans with the least 
access to education--rural Tibetans--outnumbered Tibetan 
residents of towns and cities by more than five-to-one.\107\ 
The average income of TAR rural residents remains a fraction of 
urban income, but according to official data the gap has 
narrowed slightly. In 2000, the average TAR urban per capita 
income (6,448 yuan) was 4.84 times more than the average rural 
per capita income (1,331 yuan).\108\ In 2005, the average TAR 
urban per capita income (8,411 yuan) was 4.05 times higher than 
the average rural per capita income (2,075 yuan).\109\
    The Chinese government implements policies intended to 
improve educational and economic opportunities for rural 
Tibetans,\110\ especially nomadic herders, but programs require 
Tibetans to participate on the government's terms. In the first 
three years of a pasture construction and nomadic settlement 
program launched in 2001, authorities in the TAR relocated 
48,000 nomadic herders and settled them in fixed 
communities.\111\ A government program to settle nomadic 
herders, including Tibetans, in Qinghai province placed about 
10,000 families in fixed communities by 2005.\112\ In Gansu 
province, a program started in the late 1990s to settle nomadic 
herders in Tibetan autonomous areas settled 7,000 families by 
2004 and is expected to be complete in 2009.\113\ A U.S. Agency 
for International Development rangeland expert told a 
Commission roundtable in March 2004 that in his opinion, 
despite good government intentions,\114\ most Tibetan farmers 
and herders have not been able to participate fully in 
assessing, planning, and implementing the programs that affect 
their lives.\115\
Tibetan Culture and Human Rights
    The Chinese government strictly limits the rights of 
Tibetans to exercise the constitutionally guaranteed freedoms 
of religion, speech, and assembly. Communist Party political 
campaigns promote atheism and strengthen government efforts to 
discourage 
Tibetan aspirations to foster their unique culture and 
religion. Chinese authorities have punished Tibetans for 
peaceful expressions and non-violent actions that officials 
believe could undermine Party rule. The downward trend in the 
number of known Tibetan political prisoners,\116\ compared to 
an upward trend that peaked in the mid-1990s,\117\ suggests 
that Tibetans are avoiding the risks of direct protest against 
government policies, and turning to other, sometimes 
innovative, ways to express and protect their culture.\118\
    An example of Tibetan cultural expression, and of the Dalai 
Lama's influence on Tibetans, emerged after the Dalai Lama told 
thousands of Tibetans gathered in January 2006 at a religious 
teaching in India,\119\ ``I am ashamed and don't feel like 
living when I see all those pictures of people decorating 
themselves with skins and furs.'' \120\ He specifically 
referred to fur trim from rare and 
endangered animal species that some Tibetans use to decorate 
traditional garments. ``Neither use, sell, or buy wild animals, 
their products or derivatives,'' he instructed the attendees. 
In February and March 2006, Tibetans in Tibetan autonomous 
prefectures in Qinghai, Gansu, and Sichuan provinces responded 
by conducting campaigns to collect and burn fur stripped from 
garments.\121\ Security officials detained and questioned the 
Tibetan organizers of at least two events and then released 
them, apparently without charge.\122\ At an event in March, the 
organizers took care to avoid provoking authorities,\123\ but 
participants openly displayed their devotion to the Dalai 
Lama.\124\ Police monitored the scene, but did not detain or 
question any participants, or prevent the Tibetans from burning 
the fur.\125\
    Chinese authorities carried out 24 known political 
detentions of Tibetans in 2005, an increase compared to the 15 
such detentions in 2004, according to information available in 
the Commission's Political Prisoner Database (PPD) as of August 
2006. Of the political detentions in 2005, 10 took place in the 
Tibetan Autonomous Region (TAR), 8 in Qinghai province, and 6 
in Gansu province. None of the known political detentions of 
Tibetans in 2005 took place in Sichuan province, although 
Sichuan was the location of the largest number of new cases 
from 2001-2004.\126\ In January 2006, a court in Gannan Tibetan 
Autonomous Prefecture in Gansu province sentenced Tibetan monks 
Dargyal Gyatso and Jamyang Samdrub, and nuns Choekyi Drolma, 
Tamdrin Tsomo, and Yonten Drolma to up to three years' 
imprisonment for displaying and distributing letter-sized 
posters critical of the Chinese government.\127\ The nuns are 
the first nuns known to be imprisoned in Gansu province since 
this period of Tibetan political activism began in 1987.\128\
    The PPD listed 103 known cases of current Tibetan political 
detention or imprisonment as of August 2006, a figure that is 
likely to be lower than the actual number of Tibetan political 
prisoners. Reports of Tibetan political imprisonment often do 
not reach monitoring groups until at least one or two years 
after the detentions occur. Approximately 55 of the Tibetans 
are believed to be detained or imprisoned in the TAR, 
approximately 25 in Sichuan province, fewer than 15 in Qinghai 
province, and 6 in Gansu province. Based on sentence 
information available for 70 of the current prisoners, the 
average sentence is approximately 10 years and 11 months.
    The Commission welcomed the decision by Chinese authorities 
to permit nun Phuntsog Nyidron to travel to the United States 
in March 2006 to receive medical treatment.\129\ Lhasa 
authorities imprisoned her for more than 14 years for 
participating in a peaceful political demonstration, and then 
for secretly recording songs that criticized the Chinese 
government's rule of Tibetans while she was in prison.\130\ In 
another development, the Lhasa Intermediate People's Court 
commuted Bangri Chogtrul's sentence from life imprisonment for 
``splittism'' \131\ to a fixed term of 19 years in July 2003, 
and then reduced his sentence by an additional year in November 
2005, according to a February 2006 NGO report.\132\ The same 
court sentenced Nyima Choedron, Bangri Chogtrul's wife, to 10 
years' imprisonment on the same charge in September 2000, and 
subsequently reduced her sentence twice, by 18 months in 2002 
and 1 year in 2004. Officials released her on February 26, 
2006, after commuting the final year of her sentence.\133\ No 
new developments were reported in the cases of prisoners 
Ngawang Phuljung (a monk serving a 19-year sentence since 
1989), Choeying Khedrub (a monk serving a life sentence since 
2000), or Tenzin Deleg (a lama imprisoned in 2002, serving a 
life sentence). (See Section VI--Tibet of the CECC 2005 Annual 
Report for more information about these cases.)
    Manfred Nowak, UN Special Rapporteur on Torture, reported 
after his visit to China in late 2005 that TAR authorities 
opened Qushui Prison, near Lhasa, in April 2005 for male 
prisoners serving sentences longer than 15 years, as well as 
prisoners sentenced as a ``principal'' criminal when more than 
one person commits a ``joint crime.'' \134\ NGO reports of 
Tibetan political prisoners in Qushui Prison have confirmed few 
by name, although according to a Commission staff analysis 
about 25 political prisoners, most of them transferred from 
Lhasa's TAR Prison (Drapchi), are likely to be imprisoned in 
Qushui Prison.\135\
    Nowak interviewed three Tibetan political prisoners at 
Qushui Prison: Jigme Gyatso\136\ (a former monk imprisoned in 
1996 who is serving a 17-year sentence), Bangri Chogtrul,\137\ 
and Lobsang Tsultrim\138\ (a monk serving a 14-year sentence 
since 1995). Each prisoner recounted his personal experience of 
beating, torture, or other abuse during imprisonment. Jigme 
Gyatso reported that authorities extended his 15-year sentence 
by an additional 2 years after he shouted slogans in March 2004 
calling for the Dalai Lama's long life.\139\ The prisoners told 
Nowak that conditions in Qushui Prison are harsher than those 
in TAR Prison, and they said that imprisoned monks are 
forbidden to pray.\140\

                   IX. North Korean Refugees in China


                                findings


        <bullet> The Chinese government forcibly repatriates 
        North Korean refugees facing starvation and political 
        and religious persecution in their homeland, 
        contravening its obligations under the 1951 Convention 
        relating to the Status of Refugees and its 1967 
        Protocol. Chinese authorities detained and returned to 
        the Democratic People's Republic of Korea (DPRK) 
        thousands of North Koreans in 2005. The government 
        classifies all North Koreans who enter China without 
        documents as illegal economic migrants and claims it 
        must return them to the DPRK, even though North Korean 
        defectors meet the definition of refugees under 
        international law. Repatriated North Koreans face long 
        prison sentences, torture, and execution.
        <bullet> Without legal status, North Korean refugees in 
        China are vulnerable to abuse and exploitation. There 
        are an estimated 20,000 to 50,000 North Koreans 
        currently hiding in northeastern China, and some NGOs 
        estimate that the number of refugees is much higher. 
        The government refuses the UN High Commissioner for 
        Refugees (UNHCR) access to North Korean refugees, and 
        fines and imprisons humanitarian workers who assist 
        North Koreans in China. Officials in Beijing met with 
        UNHCR Antonio Guterres in March 2006 during the first 
        UNHCR visit to China since 1997. In July 2006, the 
        Chinese government for the first time allowed three 
        North Korean refugees to travel directly from the U.S. 
        Consulate in Shenyang, Liaoning province, to the United 
        States to seek asylum.

    The Chinese government forcibly repatriates North Korean 
refugees fleeing starvation and political and religious 
persecution in their homeland.\1\ The U.S. State Department and 
NGO sources 
report that Chinese authorities detained and returned to the 
Democratic People's Republic of Korea (DPRK) thousands of North 
Koreans in 2005.\2\ The government provides financial rewards 
to security 
officials who detain North Koreans and to citizens who reveal 
the locations of refugees.\3\
    The government's repatriation of North Korean refugees 
contravenes its obligations under the 1951 Convention relating 
to the Status of Refugees (1951 Convention) and its 1967 
Protocol. The 1951 Convention and its Protocol mandate that 
``no Contracting State shall expel or return (`refouler') a 
refugee in any manner whatsoever to the frontiers of 
territories where his life or freedom would be threatened on 
account of his race, religion, nationality, membership of a 
particular social group or political opinion.'' \4\ The 
government bases its policy of repatriating North Koreans on a 
1961 treaty with the DPRK and a subsequent 1986 border 
protocol,\5\ but international law concerning refugees 
supersedes any such bilateral commitments.\6\
    The government classifies all North Koreans who enter China 
without documents as illegal economic migrants and claims it 
must return them to the DPRK, even though North Korean 
defectors meet the definition of refugees under international 
law. In March, a Ministry of Foreign Affairs (MFA) spokesperson 
reiterated the government's position that undocumented North 
Koreans in China are ``illegal migrants and not refugees.'' \7\ 
The 1951 Convention and its Protocol, however, define a refugee 
as someone who, ``owing to well-founded fear of being 
persecuted for reasons of race, religion, 
nationality, membership of a particular social group or 
political opinion, is outside the country of his nationality 
and is unable or, owing to such fear, is unwilling to avail 
himself of the protection of that country.'' \8\ The UN Special 
Rapporteur on Human Rights in North Korea also recognized in a 
2005 report that North Koreans who have crossed the border into 
other countries for reasons of livelihood are refugees sur 
place, or those ``who did not leave their country of origin for 
fear of persecution, but who fear persecution upon return.'' 
\9\
    Repatriated North Koreans face long prison sentences, 
torture, and execution. Article 233 of the amended North Korean 
Penal Code states that any citizen ``who crosses a frontier of 
the Republic without permission shall be committed to a 
detention labor facility for up to two years,'' and Article 62 
says that any citizen ``who defects to a foreign country or to 
the enemy in betrayal of the country and the people shall be 
committed to a reform institution for not less than five years. 
In cases where the person commits an extremely grave offense, 
he or she shall be given life imprisonment in a reform 
institution, the death penalty or have their property 
confiscated.'' \10\ According to international NGO sources, the 
``grave offenses'' include leaving the DPRK multiple times,\11\ 
meeting with foreigners, and returning to the DPRK with the 
intention of becoming Christian missionaries.\12\ Testifying 
before a Commission hearing, an international humanitarian 
worker said that North Korean officials summarily executed one 
refugee's repatriated sister and son for converting to 
Christianity and interacting with Chinese Christians while in 
China.\13\ Conditions in North Korean labor camps and prisons 
are harsh, and defector testimonies ``document cases of 
beatings, forced labor, degrading treatment, torture, and 
execution.'' \14\
    Without legal status, North Korean refugees in China are 
vulnerable to abuse and exploitation. Jay Lefkowitz, U.S. 
Special Envoy for Human Rights in North Korea, estimates that 
at least 20,000 to 50,000 North Koreans currently are hiding in 
northeastern China.\15\ Some NGOs estimate that the number of 
refugees is much higher.\16\ Trafficking in North Korean women, 
who make up two-thirds of the refugees,\17\ is widespread,\18\ 
and the Chinese government has done little to combat the 
network of traffickers along the North Korean border.\19\ 
International NGOs estimate that traffickers intercept 70 to 80 
percent of all North Korean women entering China.\20\ 
Traffickers sell the majority of women into marriage and a 
smaller number into prostitution\21\ [see Section V(e)--Status 
of Women--Trafficking of Women and Girls]. Few North Korean 
children and children born in China from Chinese-Korean 
marriages have access to education,\22\ and traffickers have 
sold babies born to North Korean women in China.\23\
    Officials in Beijing met with Antonio Guterres, the UN High 
Commissioner for Refugees (UNHCR), in March 2006 during the 
first UNHCR visit to China since 1997. State Councilor Tang 
Jiaxuan told Guterres that ``the Chinese government attaches 
great importance to the protection of refugees.'' \24\ During 
Guterres' visit, an MFA spokesperson said that the Chinese 
government was ``considering how to improve and perfect the . . 
. legal system'' 
pertaining to refugees.\25\ The State Council is considering 
new Regulations on the Administration of Refugees, according to 
its 2006 Legislative Plan.\26\ Guterres said the UNHCR would be 
``fully engaged in supporting the Chinese authorities to make 
sure that this legislation is in full compliance with 
international law.'' \27\
    The government refuses the UNHCR access to North Korean 
refugees, and Chinese guards outside the UNHCR office in 
Beijing block access to North Korean and other refugees. This 
policy contravenes a 1995 agreement between the UN and the 
Chinese government which provides that ``UNHCR personnel may at 
all times have unimpeded access to refugees and to the sites of 
UNHCR projects in order to monitor all phases of their 
implementation.'' \28\ Chinese security forces that guard the 
UNHCR office\29\ and foreign embassies\30\ in Beijing drive 
away North Koreans who try to present refugee petitions or seek 
asylum. In a March 30 statement, the White House expressed 
``grave concern'' over China's repatriation of refugee Kim 
Chun-hee and called upon the Chinese government ``not to return 
North Korean asylum seekers without 
allowing UNHCR access to these vulnerable individuals.'' \31\ 
In July 2006, the Chinese government for the first time allowed 
three North Korean refugees to travel directly from the U.S. 
Consulate in Shenyang, Liaoning province, to the United States 
to seek 
asylum.\32\
    The government fines and imprisons international 
humanitarian workers who assist North Koreans in China. Chinese 
authorities sentenced South Korean citizen Choi Yong-hun to 
five years in prison and fined him 30,000 yuan (US$3,750) in 
May 2003 for assisting North Koreans in China.\33\ Authorities 
in Yanji city in the Yanbian Korean Autonomous Prefecture 
detained U.S. citizen Philip J. Buck in May 2005 for his role 
in assisting North Koreans in China to seek asylum in a third 
country.\34\ In August 2006, authorities convicted Reverend 
Buck of human smuggling, and sentenced him to deportation and 
prohibition from returning to China.\35\ A South Korean 
Ministry of Foreign Affairs and Trade report released in 
September 2005 said that, of the 64 South Koreans detained by 
Chinese authorities since 2001 for helping North Koreans in 
China, 15 are still in detention.\36\ The government imposes 
fines of 1,000 yuan (US$125) on Chinese citizens who shelter 
North Korean refugees\37\ and offers financial rewards to 
citizens who turn in those assisting North Koreans.\38\

                      X. Developments in Hong Kong

    The United States supports a stable, autonomous Hong Kong 
under the ``one country, two systems'' formula articulated in 
the Sino-U.K. Joint Declaration and the Basic Law.\1\ The 
people of Hong Kong enjoy the benefits of an independent 
judiciary\2\ and an open society in which the freedoms of 
religion, speech, and assembly are respected. The Commission 
notes, however, that during the past year no steps were taken 
that would move Hong Kong closer to the ``ultimate aim'' of 
universal suffrage as specified in the Basic Law. The 
Commission strongly supports the provisions of the Basic Law 
that provide for the election of the chief executive and the 
entire Legislative Council through universal suffrage, and 
highlights the importance of the central government's 
obligation to give Hong Kong the ``high degree of autonomy'' 
promised in the Basic Law.
Constitutional Reform and Steps to Universal Suffrage
    The National People's Congress Standing Committee (NPCSC) 
issued a decision in April 2004 prohibiting the people of Hong 
Kong from electing both the chief executive in 2007 and the 
members of the Legislative Council (LegCo) in 2008 through 
universal suffrage.\3\ Universal suffrage is described in 
Articles 45 and 68 of the Basic Law as the ``ultimate aim.'' 
\4\ Currently, the chief executive is selected by the 800-
member Election Committee chosen from Hong Kong's 28 functional 
constituencies, and only half of the 60 legislators in the 
LegCo are chosen by direct election. In July 2004, hundreds of 
thousands of Hong Kong citizens staged a demonstration to 
demand greater democracy, conveying the clear message that most 
people in Hong Kong want universal suffrage.\5\
    The Hong Kong Special Administrative Region's (HKSAR) 
Constitutional Development Task Force issued its fifth report 
on October 19, 2005, which proposed modest measures to expand 
citizen participation in selecting the chief executive in 2007 
and forming the LegCo in 2008. The report called for adding 10 
new seats to the 60-member LegCo, although the public would 
directly elect only 5 of the new members. District Councilors 
elected by the current group of 529 elected and appointed 
Councilors would fill the other five new seats.\6\ The report 
also called for doubling the size of the Election Committee 
(EC) that chooses Hong Kong's chief executive from 800 to 1,600 
members, and increasing the number of EC members that are 
professionals in industry, commerce, finance, labor, and social 
services from 600 to 900.\7\ EC members from these functional 
constituencies are elected by Hong Kong citizens from their 
respective professional and industrial sectors. In addition, 
the report proposed increasing the number of EC members from 
the LegCo, District Councils, Heung Yee Kuk (a statutory 
advisory body representing the New Territories), Hong Kong 
deputies to the National People's Congress, and Hong Kong 
members of the Chinese People's Political Consultative 
Conference from 200 to 700.\8\ These members either serve in an 
ex officio capacity, or are selected by members of their 
constituency.
    Hong Kong government leaders pointed to the challenge of 
meeting citizen demands for universal suffrage, while facing 
the 
constraints on policymaking imposed by the April 2004 NPCSC 
decision. Chief Executive Donald Tsang described the proposals 
as ``a significant step forward in our democratic 
development,'' according to the transcript of a press 
conference posted on the Hong Kong government Web site 
following the release of the fifth report.\9\ Tsang also said 
that the HKSAR government formulated a package that embodied 
``democracy and openness to the highest extent possible,'' but 
was still consistent with the Basic Law and the decision of the 
NPCSC.\10\ Rafael Hui, Chief Secretary for Administration, who 
led the Constitutional Development Task Force, explained that 
``although constitutional development in 2007-2008 will not 
take us immediately to the ultimate goal of universal suffrage, 
it is a substantive and significant step toward that goal.'' 
\11\
    A vigorous public debate on the merits of the Task Force 
proposals, and their lack of a timetable for universal 
suffrage, culminated in a December 2005 march by tens of 
thousands to protest the slow pace of democratization.\12\ 
According to polls at the time, public support for the 
proposals had fallen to just above 45 percent, down from an 
initial approval rating of nearly 60 percent following the 
proposals' release in October.\13\ Polling also showed that 60 
percent of respondents were in favor of introducing a timetable 
for universal suffrage.\14\ Twenty-four LegCo members voted 
against the Task Force report on December 21, 2005, blocking 
its passage.\15\ A last-minute package of adjustments offered 
by the government did not meet the lawmakers' demand for a 
specific timetable to realize universal suffrage.\16\
Compliance with the International Covenant on Civil and Political 
        Rights
    A March 2006 report by the UN Human Rights Committee, which 
is responsible for reviewing compliance with the International 
Covenant on Civil and Political Rights (ICCPR), expressed 
concern about the absence of universal suffrage in Hong Kong, 
as well as with the implementation of the procedure for 
interpretation of the Basic Law, a reference, in part, to the 
April 2004 NPCSC decision to prohibit universal suffrage in the 
2007 chief executive and 2008 Legislative Council 
elections.\17\ The report questioned the HKSAR government's 
compliance with Article 25 of the ICCPR in both situations. 
Article 25 states that every citizen should have the right and 
the opportunity, without unreasonable restrictions, to 
participate in public affairs, either by himself or through a 
directly elected representative, and to express his political 
will through universal suffrage.\18\ The report concluded that, 
``All necessary measures should be taken whereby the 
Legislative Council is elected by universal and equal suffrage. 
It should be ensured that all interpretations of the Basic Law, 
including on electoral and public affairs issues, are in 
compliance with the Covenant.'' \19\

          XI. Appendix: Commission Activities in 2005 and 2006

Hearings

September 20, 2006 Human Rights and Rule of Law in China

                                                Jerome A. Cohen, 
                                                Professor of Law, New 
                                                York University School 
                                                of Law
                                                John Kamm, Executive 
                                                Director, The Dui Hua 
                                                Foundation
                                                Minxin Pei, Director, 
                                                China Program, Carnegie 
                                                Endowment for 
                                                International Peace
                                                Xiao Qiang, Director, 
                                                China Internet Project, 
                                                University of 
                                                California at Berkeley

March 6, 2006     Combating Human Trafficking in China:
                                        Domestic and 
                                        International Efforts

                                                The Honorable 
                                                Christopher H. Smith, 
                                                Vice Chairman, 
                                                Committee on 
                                                International 
                                                Relations, U.S. House 
                                                of Representatives
                                                The Honorable John R. 
                                                Miller, Ambassador-at-
                                                Large and Director, 
                                                Office to Monitor and 
                                                Combat Trafficking in 
                                                Persons, Department of 
                                                State
                                                Roger Plant, Head, 
                                                Special Action Program 
                                                to Combat Forced Labor, 
                                                International Labor 
                                                Organization
                                                Wenchi Yu Perkins, 
                                                Director, Anti-
                                                Trafficking and Human 
                                                Rights Program, Vital 
                                                Voices
                                                Abraham Lee, Director 
                                                of Public Relations, 
                                                Crossing Borders
Roundtables

May 15, 2006      Political Change in China? Public 
Participation
                                        and Local Governance 
                                        Reforms

                                                Merle Goldman, 
                                                Professor Emerita of 
                                                Chinese History, Boston 
                                                University, and 
                                                Executive Committee 
                                                Member, Fairbank Center 
                                                for East Asian 
                                                Research, Harvard 
                                                University
                                                Joseph Fewsmith, 
                                                Director of East Asian 
                                                Studies Program and 
                                                Professor of 
                                                International Relations 
                                                and Political Science, 
                                                Boston University
                                                Xie Gang, Former Senior 
                                                Program Officer, Law 
                                                and Governance 
                                                Programs, Asia 
                                                Foundation

April 11, 2006      The Lot of Chinese Workers: Do China's 
Labor
                                        Laws Work?

                                                Han Dongfang, Director, 
                                                China Labour Bulletin
                                                Robin Munro, Director 
                                                of Research, China 
                                                Labour Bulletin

March 13, 2006    The China-Dalai Lama Dialogue: Prospects for
                                        Progress

                                                Tashi Wangdi, 
                                                Representative of His 
                                                Holiness the Dalai Lama 
                                                to the Americas, Office 
                                                of Tibet, New York
                                                Sonam Wangdu, Chairman, 
                                                United States Tibet 
                                                Committee
                                                Tseten Wangchuk, Senior 
                                                Broadcaster, Voice of 
                                                America, Tibetan 
                                                language service

February 24, 2006 China's Response to Avian Flu: Steps Taken,
                                        Challenges Remaining

                                                Dr. John R. Clifford, 
                                                Deputy Administrator 
                                                for the Veterinary 
                                                Services Program, 
                                                Animal and Plant Health 
                                                Inspection Services' 
                                                Veterinary Services 
                                                program, U.S. 
                                                Department of 
                                                Agriculture
                                                Erika Elvander, Office 
                                                of Asia and the 
                                                Pacific, Office of 
                                                Global Health Affairs, 
                                                U.S. Department of 
                                                Health and Human 
                                                Services
                                                Dr. Bates Gill, Freeman 
                                                Chair of China Studies, 
                                                Center for Strategic 
                                                and International 
                                                Studies
November 16, 2005  China's Changing Strategic Concerns: The Im-
                                        pact on Human Rights in 
                                        Xinjiang

                                                James A. Millward, 
                                                Associate Professor of 
                                                History, School of 
                                                Foreign Service, 
                                                Georgetown University
                                                Daniel Southerland, 
                                                Vice President of 
                                                Programming/Executive 
                                                Editor, Radio Free Asia
                                                S. Frederick Starr, 
                                                Chairman of the Central 
                                                Asia-Caucasus 
                                                Institute, School of 
                                                Advanced International 
                                                Studies, Johns Hopkins 
                                                University

November 3, 2005  Working Conditions in China: Just and Favor-
                                        able?

                                                Judy Gearhart, Program 
                                                Director, Social 
                                                Accountability 
                                                International
                                                Dr. Ruth Rosenbaum, 
                                                Executive Director, 
                                                Center for Reflection, 
                                                Education and Action, 
                                                Inc.
                                                Dan Viederman, 
                                                Executive Director, 
                                                Verite

                             XII. Endnotes

    <dagger>Voted to approve: Senators Hagel, Smith, DeMint, Martinez, 
Baucus, Levin, Feinstein, Dorgan; Representatives Leach, Dreier, Wolf, 
Pitts, Aderholt, Levin, Kaptur, Brown, and Honda; Deputy Secretary Law, 
Under Secretary Dobriansky, Under Secretary Lavin, Assistant Secretary 
Hill, and Assistant Secretary Lowenkron.
    Voted not to approve: Senator Brownback.

    Notes to Section V(a)--Special Focus for 2006: Freedom of 
Expression
    \1\ Article 35 of China's Constitution states: ``Citizens of the 
People's Republic of China enjoy freedom of speech, of the press, of 
assembly, of association, of procession and of demonstration.''
    \2\ ``Open Letter From `Freezing Point' Writers to National 
People's Congress Standing Committee'' [Bingdian zhoukan bufen zuozhe 
zhi zhengzhiju changwei de gongkaixin], Boxun (Online), 18 Feb 06. The 
signatories included Cui Weiping, a professor at the Beijing Film 
Academy; He Weifang, a law professor at Peking University; and Qin Hui, 
a history professor at Tsinghua University.
    \3\ ``Joint Declaration Concerning the `Freezing Point' Incident'' 
[Guanyu bingdian shijian de lianhe shengming], Epoch Times (Online), 14 
February 06. The signatories included Zhu Houze, former head of the 
Central Propaganda Department; Li Rui, former secretary to Mao Zedong; 
Li Pu, former Deputy Director of the Xinhua News Agency; Zhang Sizhi, 
former Vice Chair of the Beijing Lawyers Association; Hu Jiwei, former 
editor-in-chief of the People's Daily; and Zhong Peizhang, former head 
of the China Youth Daily Group.
    \4\ Liu Yunshan, ``In Accordance With the Requirements of Building 
a Socialist and Harmonious Society: Deepen, Broaden, and Innovate 
Propaganda Ideological Work'' [Anzhao goujian shehuizhuyi hexie shehui 
yaoqiu shenhua tuozhan chuangxin xuanchuan sixiang gongzuo], Seeking 
Truth (Online), 1 October 05.
    \5\ Liu Yunshan, ``Earnestly Study and Implement the Spirit of the 
Fourth Plenary Session of the 16th Chinese Communist Party Central 
Committee, Strive to Increase the Party's Ability to Lead Ideological 
Work'' [Renzhen xuexi guanche shiliu jie si zhong quanhui jingshen nuli 
tigao dang lingdao yishi xingtai gongzuo de nengli], Seeking Truth 
(Online), 16 October 04.
    \6\ ``Long Xinmin: Forcefully Promote the Glorious Development of 
the News Publishing Industry'' [Long Xinmin: dali cujin xinwen chubanye 
fanrong fazhan], People's Daily (Online), 31 December 05; ``Censorship 
Agency Gets New Director, Calls for `Uniformity' of Political 
Ideology,'' CECC China Human Rights and Rule of Law Update, March 2006, 
14.
    \7\ Liu Yuzhu, ``Actively Responding to the Challenge of the 
Internet Era'' [Jiji yingdui wangluo shidai de tiaozhan], Seeking Truth 
(Online), 1 January 05.
    \8\ Antoaneta Bezlova, ``Big Brother's Book Ban Blues,'' The Hong 
Kong Standard (Online), 28 May 05; ``Piracy: A Page Hard to Turn for 
Regulators,'' Xinhua (Online), 23 May 05.
    \9\ ``Senior Chinese Government, Party, and Business Leaders Deny 
Internet Censorship,'' CECC China Human Rights and Rule of Law Update, 
April 2006, 10; ``Wen Jiabao: It Is Necessary to Learn How to Handle 
the Social Contradictions of the New Age'' [Wen Jiabao: yao xuehui 
chuli xinshiqi de shehui maodun], Xinhua (Online), 14 March 06; Zhao 
Huanxin, ``Regulation of Internet In Line With World Norms,'' China 
Daily (Online), 15 February 06; ``SCIO--China's Regulation of the 
Internet Complies With International Standards'' [Guo Xinban: Zhongguo 
guanli hulianwang fuhe guoji tongxing zuofa], Xinhua (Online), 15 
February 06; ``China Denies Arrest of Any Individual for Releasing 
Online Comment,'' Xinhua, reprinted in People's Daily (Online), 15 
February 06; ``China Denies Harsh Internet Censorship,'' Xinhua 
(Online), 14 February 06; ``CPPCC Delegate Zhou Jinfeng Calls for 
Greater Regulation of the Internet'' [Zhengxie weiyuan Zhou Jinfeng: 
Hulianwang youxiao guanli xu youpoyouli], Beijing News, reprinted in 
People's Daily (Online), 8 March 06. See also ``Liu Binjie: China Is 
One of the World's Countries Richest in Freedom of Expression and 
Freedom of the Press,'' People's Daily (Online), 2 November 03, which 
states: ``Currently China is one of the world's countries richest in 
freedom of speech and freedom of publication. Those outside of China 
who make claims about China's news, expression, and press are 
completely without support.'' See also State Council Information 
Office, White Paper on China's Progress in Human Rights in 2004, 
People's Daily (Online), 13 April 05, which states: ``Citizens' freedom 
of information, of speech and of the press is protected by law.''
    \10\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217A(III) of 10 December 48 [hereinafter 
UDHR]. Article 19 of the UDHR states: ``Everyone has the right to 
freedom of opinion and expression; this right includes freedom to hold 
opinions without interference and to seek, receive and impart 
information and ideas through any media and regardless of frontiers.''
    \11\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76 [hereinafter ICCPR]. China has signed, but has not 
yet ratified, the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR 
and reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly.
    Article 19 of the ICCPR states: ``1. Everyone shall have the right 
to hold opinions without interference. 2. Everyone shall have the right 
to freedom of expression; this right shall include freedom to seek, 
receive and impart information and ideas of all kinds, regardless of 
frontiers, either orally, in writing or in print, in the form of art, 
or through any other media of his choice.''
    \12\ Before the Chinese Communist Party came to power, Party 
officials, and earlier, Karl Marx and Frederick Engels, wrote that 
requiring the news media to obtain government permission to publish is 
inconsistent with freedom of the press. See, e.g., ``Smash Fascist 
Publishing Laws'' [Dasui faxisi de chubanfa], Xinhua Daily, 29 June 46, 
reprinted in Comment-cn.net (Online), 20 February 06, which states: 
``Modern democratic countries like England and the United States simply 
have nothing like publishing laws formulated to gag freedom of the 
press. In a publishing law, to adopt requirements that newspapers and 
periodicals must not only apply and register, but must also obtain 
permission in order to engage in distribution under a so-called special 
permit system; only fascist countries have this sort of evil.'' See 
also Mao Zedong's Government Work Report to the Seventh National 
People's Congress--Discussion of United Government [Mao Zedong zuo qi 
da zhengzhi baogao--lun lianhe zhengfu], 24 April 45, reprinted in 
People's Daily (Online), 26 April 01, which states: ``We believe that 
the following demands are appropriate, and furthermore represent the 
very minimum. . . . We demand the elimination of all reactionary laws 
that suppress the rights of the people to expression, the press, 
assembly, association, ideology, belief and personhood, and allowing 
the people to obtain full freedoms and rights.'' See also Karl Marx, 
``Debates on Freedom of the Press and Publication of the Proceedings of 
the Assembly of the Estates,'' Rheinische Zeitung, Nos. 135, 139, May 
1842, which states: ``It is the censored press that has a demoralizing 
effect. . . . The government hears only its own voice, it knows that it 
hears only its own voice, yet it harbors the illusion that it hears the 
voice of the people, and it demands that the people, too, should itself 
harbor this illusion. Freedom of the press will certainly not be 
achieved by a crowd of official writers being recruited by you from 
your ranks.'' See also, ``The Condition of England: II The English 
Constitution,'' Frederick Engels, written March 1844, first published 
in Vorworts!, No. 80, 5 October 1844, wherein Engels defines freedom of 
the press as ``the right that any man may publish his opinion without 
hindrance and without the previous permission of the government.''
    \13\ Jiao Hongchang and Yao Guojian (professors at China University 
of Politics and Law), ``Freedom of Expression,'' in A Study on the 
Issues of Ratifying and Implementing of the International Covenant on 
Civil and Political Rights [``Gongmin quanli he zhengzhi quanli guoji 
gongyue'' pizhun yu shishi wenti yanjiu], ed. Chen Guangzhong (Beijing, 
China Legal System Publishing, 2002), 388.
    \14\ UN Press Release, UN Special Rapporteur on Freedom of Opinion 
and Expression, the Organization for Security and Cooperation in Europe 
Representative on Freedom of the Media, and the Organization of 
American States Special Rapporteur on Freedom of Expression, 
``International Experts Condemn Curbs on Freedom of Expression and 
Control Over Media and Journalists,'' 18 December 03. See also UN 
Special Rapporteur on the Promotion and Protection of the Right to 
Freedom of Opinion and Expression, ``Report on the Mission to the 
Republic of Korea,'' E/CN.4/1996/39/Add.1 (1995), 8: ``The Special 
Rapporteur considers that any system of prior restraint on freedom of 
expression carries with it a heavy presumption of invalidity under 
international human rights law. Any institutionalization of such 
restraint adds further weight to this presumption.''
    \15\ Constitutions of Brazil, art. 5(IX), South Korea, art. 21(2). 
See also the constitutions of: Austria, art. 13(2), The Netherlands, 
art. 7(1), and Norway, art. 100.
    \16\ The First Amendment of the U.S. Constitution provides that 
``Congress shall make no law . . . abridging the freedom of speech, or 
of the press . . .,'' and the U.S. Supreme Court has held that: 
``[L]iberty of the press, historically considered and taken up by the 
Federal Constitution, has meant, principally although not exclusively, 
immunity from previous restraints or censorship.'' Near v. State of 
Minnesota Ex Rel. Olson, 283 U.S. 697 (1931). See also Talley v. 
California, 362 U.S. 60 (1960); Lakewood v. Plain Dealer Publishing 
Co., 486 U.S. 750 (1988); and Lovell v. City of Griffin, GA., 303 U.S. 
444 (1938). Similarly, Article 19(1)(a) of India's Constitution states 
that all citizens are guaranteed the right to freedom of speech and 
expression, and India's Supreme Court has stated that, ``It follows 
that a citizen for propagation of his or her ideas has a right to 
publish for circulation his views in periodicals, magazines and 
journals or through the electronic media . . . .'' Supreme Court of 
India, L.I.C. vs. Professor Manubhai D. Shah, (1992) 3 S.C.C. 637.
    \17\ In Sweden, for example, prior restraints on publications are 
forbidden by Article 2 of Chapter 1 of the Freedom of the Press Act, 
which states in part that ``no publication shall be subject to scrutiny 
before printing, nor shall the printing thereof be prohibited.'' 
Article 5 of Chapter 5 of the Act requires publishers of periodicals to 
provide the title and place of printing of the periodical, and its 
publishing schedule, but the government may only refuse registration if 
the title of the periodical so closely resembles the title of a 
periodical for which a publishing license has already been issued that 
the two may easily be confused. The United Kingdom's Newspaper Libel 
and Registration Act 1881 requires registration, but under the 
Companies Act of 1985, registration under the Act is not necessary if 
the publication is owned by a company that is incorporated under 
corporate law, if the publication is distributed free of charge, and if 
it is published at intervals exceeding 26 days.
    \18\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Ethiopia, 8 
March 06.
    \19\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Iran, 8 March 
06.
    \20\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Jordan, 8 
March 06.
    \21\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Syria, 8 
March 06.
    \22\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Uzbekistan, 8 
March 06.
    \23\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2005, Yemen, 8 
March 06.
    \24\ Regulations on the Administration of Publishing [Chuban guanli 
tiaoli], issued 25 December 01, ch. 2 (Establishment and Administration 
of Publishing Units).
    \25\ Notice Regarding Prohibiting the Transmission of Harmful 
Information and Further Regulating Publishing Order [Guanyu jinzhi 
zhuanbo youhai xinxi jinyibu guifan chuban zhixu de tongzhi], issued 5 
November 01: ``No one may establish an entity whose primary purpose is 
to transmit news information and engage in other news publishing 
activities without permission from the press and publication 
administration agency.''
    \26\ Regulations on the Administration of Publishing, art. 29.
    \27\ Guangdong Press and Publication Administration (Online), 
``Responsible Person at the General Administration of Press and 
Publication Book Office Reports on the Previous Year's National Book 
Publishing Administration Work'' [Zongshu tushusi fuzeren tongbao 
qunian quanguo tushuchuban guanli gongzuo], 24 February 05 (saying that 
authorities should use the opinions provided when screening the 
selection of topics to determine the distribution of book numbers, 
because this ``reduces the risks relating to orientation'').
    \28\ Article 11(2) of the Regulations on the Administration of 
Publishing states that publishing work units must have a sponsoring 
work unit and a managing work unit recognized by the State Council's 
publishing administration agency. The ``sponsoring work unit'' must be 
a government agency of a relatively high level, and the publishing work 
unit must answer to its sponsoring work unit and managing work unit. 
Circular Regarding Issuance of the ``Temporary Provisions on the 
Functions of the Sponsoring Work Unit and the Managing Work Unit for 
Publishing Work Units'' [Guanyu fabu ``Guanyu chuban danwei de zhuban 
danwei he zhuguan danwei zhize de zanxing guiding'' de tongzhi], issued 
29 June 93, arts. 5-6.
    \29\ Cary Huang, ``Incomes Up Over 10pc In Urban, Rural Areas,'' 
South China Morning Post (Online), 28 Apr 06.
    \30\ Regulations on the Administration of Publishing, art. 11(4).
    \31\ ``China Banning Illegal Publications for Overhauling 
Publications Market, Official Says,'' Xinhua (Online), 14 May 05.
    \32\ Communication No. 780/1997, UN Human Rights Committee, UN Doc. 
CCPR/C/68/D/780/1997 (2000): ``In the absence of any explanation 
justifying the registration requirements [that prior to publishing and 
disseminating a leaflet with a print run of 200, the publisher must 
register the publication with the administrative authorities to obtain 
index and registration numbers] and the measures taken, it is the view 
of the Committee that these cannot be deemed necessary for the 
protection of public order (ordre public) or for respect of the rights 
or reputations of others. The Committee therefore finds that Article 
19, paragraph 2, has been violated in the present case.''
    \33\ ``Officials Ban Dozens of Papers, Seize Thousands of Political 
Publications, in 2005,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 6; Sweep Away Pornography and Strike Down 
Illegal Publications Task Force (Online), ``Inner Mongolia Wuhai City 
Government Suppression of Unauthorized Political Publications, Firm 
All-Round Line of Defense'' [Neimenggu Wuhaishi jinghua chubanwu 
shichang si dao fangxian zhu de lao], 11 August 05.
    \34\ ``People's Daily Publishes 2005 Censorship Numbers,'' CECC 
China Human Rights and Rule of Law Update, May 2006, 4; Sui Xiaofei and 
Qu Zhihong, ``China's Publishing Sector's Glorious Development Must 
Move From Being a Big Country to a Great Country'' [Woguo chubanye 
fanrong fazhan; yao cong chuban daguo zouxiang qiangguo], People's 
Daily (Online), 25 March 06.
    \35\ Sweep Away Pornography and Strike Down Illegal Publications 
Task Force (Online), ``Luliang City, Shandong Province Bans an Illegal 
Newspaper [Shandongsheng Luliangshi qudi yi feifa baozhi], 9 August 05.
    \36\ Hunan Provincial Government (Online), ``Hunan Province Bans 
Three Illegal News Organizations and Two Illegal Periodicals'' [Hunan 
sheng qudi san ge feifa xinwen jigou yiji liang jia feifa baokan], 9 
September 05.
    \37\ Sweep Away Pornography and Strike Down Illegal Publications 
Task Force, ``Inner Mongolia Wuhai City Government Suppression of 
Unauthorized Political Publications, Firm All-Round Line of Defense.''
    \38\ Article 225 of China's Criminal Law makes it a crime for 
anyone to commit ``illegal acts in business operation and thus disrupt 
market order.''
    \39\ ``Writing Their Own Poems and Self-Publishing Them, Two 
`Poets' Are Convicted'' [Ziji xieshi ziji chuban ``shiren'' bei 
panxing], People's Daily (Online), 17 January 04.
    \40\ ``Farming Woman Imprisoned for Illegally Publishing and 
Printing Books'' [Yinzhi feifa tushu huo xing chufajin], China Court 
Net (Online), 13 September 04.
    \41\ ``Printing and Publishing an Illegal Periodical: Media Group's 
Chief Representative Sentenced to Three Years' Imprisonment'' [Yinshua 
chuban feifa qikan chuanmei jituan shouxi daibiao huo xing 3 nian], 
Legal Evening Report, reprinted in Xinhua (Online), 11 August 05.
    \42\ ``New Regulations on Newspapers and Magazines Go Into Effect 
December 1,'' CECC China Human Rights and Rule of Law Update, January 
2006, 10; Provisions on the Administration of Newspaper Publishing 
[Baozhi chuban guanli guiding], issued 30 September 05; Provisions on 
the Administration of Periodical Publishing [Qikan chuban guanli 
guiding], issued 30 September 05.
    \43\ ``Guangdong Weekly Reports on How Chinese Authorities Have 
`United to Purify the Internet','' CECC China Human Rights and Rule of 
Law Update, September 2005, 9; Li Liang and Yu Li, ``14 Government and 
Party Agencies Unite to `Purify' the Internet'' [14 buwei lianhe 
``jinghua'' hulianwang], Southern Weekend (Online), 18 August 05.
    \44\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00. All non-
commercial Web site operators must register. Registration 
Administration Measures for Non-Commercial Internet Information 
Services [Fei jingyingxing hulianwang xinxi fuwu bei'an guanli banfa], 
issued 28 January 05. Because the MII's registration system gives the 
government discretion to reject an application based on content (i.e., 
whether the Web site operator intends to post ``news,'' and if so, 
whether it is authorized to do so), it is qualitatively different from 
registration which all Web site operators must undertake with a domain 
registrar, and constitutes a de facto licensing scheme.
    \45\ ``MII Reports China's Government Has Met its Goals in Private 
Web Site Crackdown,'' CECC Human Rights and Rule of Law Update, 
September 2005, 5; ``Ministry of Information Industry: Web Sites That 
Fail to Register May Be Shut Down,'' CECC Human Rights and Rule of Law 
Update, June 2005, 3. According to China's state-run media, the 
crackdown actually began in July 2004, when authorities launched a 
``special project'' to shut down pornographic Web sites. In November 
2004, after the Party issued a document calling for ``increasing work 
on the administration of the Internet,'' the 14 departments ``carried 
out a large-scale clean up and reorganization of the Internet, and this 
activity has continued until today.'' Li Liang and Yu Li, ``14 
Government and Party Agencies Unite to `Purify' the Internet.'' The MII 
said in a May 30, 2005, announcement posted on its Web site that its 
authority to launch the campaign was based on the Measures for the 
Administration of Internet Information Services [Hulianwang xinxi fuwu 
guanli banfa], issued 20 September 00; Ministry of Information Industry 
(Online), ``Ministry of Information Industry Organizes and Launches 
Work on Web Site Collective Registration'' [Xinxi chanyebu zuzhi 
kaizhan wangzhan jizhong bei'an gongzuo], 30 May 05. These measures 
became effective in 2000, however, and the MII did not explain what 
prompted it to issue the Registration Administration Measures for Non-
Commercial Internet Information Services in February 2005 or specify 
how the measures should be enforced.
    \46\ OpenNet Initiative (Online), ``OpenNet Initiative: Bulletin 
011--Analysis of China's Non-Commercial Web Site Registration 
Regulation,'' 22 February 06.
    \47\ Ibid. The Opennet Initiative comprises researchers at the 
Citizen Lab at the Munk Centre for International Studies, University of 
Toronto, Berkman Center for Internet & Society at Harvard Law School, 
the Advanced Network Research Group at the Cambridge Security 
Programme, University of Cambridge, and the Oxford Internet Institute, 
Oxford University.
    \48\ ``MII to Monitor Online Content, Sanction Web Sites That Fail 
to Register,'' CECC China Human Rights and Rule of Law Update, March 
2006, 2; ``700,000 Web Sites Already Registered: Three Difficulties in 
Spotting Illegal Web Sites'' [Zhongguo yi you 70 wan jia wangzhan 
bei'an faxian weifa wangzhan you san nandian], Xinhua (Online), 29 
December 05.
    \49\ ``Authorities Begin to Sanction, Permanently Shut Down Web 
Sites That Failed to Register With the Government,'' CECC China Human 
Rights and Rule of Law Update, August 2005, 1; Li Liang and Yu Li, ``14 
Government and Party Agencies Unite to Purify the Internet.''
    \50\ ``Call for Unregistered Web Sites to Be Shut Down'' [Yaoqiu 
guanbi reng wei bei'an de wangzhan], Boxun (Online), 13 December 05. 
Xinhua reported that Shanghai registered over 150,000 Web sites by 
October, and that ``many'' Web sites were shut down for failing to 
register. ``Shanghai Shuts Down 150,000 Illegal Web Sites that Fail to 
Register'' [Shanghai wangzhan yu 15 wan feifa wangzhan bei zanting 
jieru], Xinhua (Online), 29 December 05. The report also stated that an 
audit by the Shanghai Communications Administration (SCA) had found 
that the number of Web sites had increased by 22,000 by December 2005, 
and a ``significant proportion'' had not undertaken registration. In 
response, the SCA contacted the main Internet service providers 
(defined as anyone who provides ``public, shared information to 
Internet users'') in Shanghai, and demanded that they shut down the 
unregistered Web sites. ``MII to Monitor Online Content, Sanction Web 
Sites That Fail to Register,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 2.
    \51\ ``Government Agencies Issue New Regulations Restricting News 
Reporting on the Internet,'' CECC China Human Rights and Rule of Law 
Update, November 2005, 4; Provisions on the Administration of Internet 
News Information Services [Hulianwang xinwen xinxi fuwu guanli 
guiding], issued 25 September 05.
    \52\ These were: ``Aegean Sea'' [Aiqinhai], ``China Worker Net'' 
[Zhongguo gongren wang], ``Worker, Farmer, Soldier BBS'' [Gong, nong, 
bing BBS], and ``Communist Party People Net'' [Gongchandang ren wang]. 
``Groups Petition Government to Review Constitutionality of Internet 
News Rules,'' CECC China Human Rights and Rule of Law Update, July 
2006, 6; ``Petition on Behalf of `the Aegean Sea Web Site Et. Al. to 
Repeal Rules on the Administration of Internet News Information 
Services' '' [Yaoqiu chedi feichu ``hulianwang xinwen xinxi fuwu guanli 
guiding''], Signature Net (Online), 28 March 06.
    \53\ The cities included Qingdao, Guangzhou, and Beijing. ``Qingdao 
Internet Police: 30 Percent of Web Sites in the City Are Illegal'' [Shi 
gonganju wang jian zhidui: quanshi wangzhan sancheng shi heihu ewang 
pingan], Qingdao News (Online), 7 July 05; ``Guangzhou Requires Private 
Web Sites to Register with Police, Receive Government Permission to 
Post News'' [Guangzhou: geren wangzhan xu dao jingfang bei'an kanzai 
xinwen xu pizhun], Xinhua (Online), 29 April 05; ``Beijing Requiring 
Small and Medium Web Sites to Register with Public Security Office'' 
[Beijing gonganju yaoqiu bingdu wangzhan ji zhongxiao wangzhan dao 
shudi bei'an], Xinhua (Online), 2 June 05. Officials cited provisions 
of the Measures for the Administration of Security Protection of 
Computer Information Networks with International Interconnections 
[Jisuanji xinxi wangluo guoji lianwang anquan baohu guanli banfa], 
issued 30 December 97, as authorizing this registration requirement, 
but did not explain why the government had chosen to begin enforcing 
those provisions at that time, when the Measures were enacted in 1997. 
Circular Regarding Centralized Handling of Internet Web Site 
Registration [Guanyu jizhong banli hulian wangzhan anquan bei'an de 
tongzhi], issued 28 April 05, art. 1.
    \54\ Provisions on Internet Security Protection Technology Measures 
went into effect on March 1, 2006. ``New Rules to Increase Government 
Surveillance of Internet News Go Into Effect,'' CECC China Human Rights 
and Rule of Law Update, April 2006, 16; Provisions on Internet Security 
Protection Technology Measures [Hulian wang anquan baohu jishu cuoshi 
guiding], issued 28 December 05.
    \55\ Measures for the Administration of Journalist Accreditation 
Cards [Xinwen jizhezheng guanli banfa], issued 10 January 05; Measures 
for the Administration of News Bureaus [Baoshejizhezhan guanli banfa], 
issued 10 January 05; Interim Provisions for the Administration of 
Those Employed as News Reporters and Editors [Guanyu xinwen caibian 
renyuan congye guanli de guiding (shixing)], issued 22 March 05; 
Interim Implementation Rules for the Administration of Those Employed 
as Radio and Television News Reporters and Editors [Guangdianzongju 
yinfa ``guangbo yingshi xinwen caipian renyuan congye guanli de shishi 
fangan (shixing) de tongzhi''], issued 1 April 05; ``China Begins To 
Implement Trial Internet News Editor Qualification Test Areas'' 
[Zhongguo kaishi shixing wangluo bianji renyuan zige kaoshi shidian], 
Xinhua (Online), 22 October 05; ``Internet Editors Can Apply For 
Professional Certification'' [Wangluo bianji ke kao zhiye zigezheng], 
Beijing News (Online), 13 February 06.
    \56\ ``International Experts Condemn Curbs on Freedom of Expression 
and Control Over Media and Journalists,'' UN Press Release, UN Special 
Rapporteur on Freedom of Opinion and Expression, the Organization for 
Security and Cooperation in Europe Representative on Freedom of the 
Media, and the Organization of American States Special Rapporteur on 
Freedom of Expression, 18 December 03, stating, inter alia: 
``Individual journalists should not be required to be licensed or to 
register. Accreditation schemes for journalists are appropriate only 
where necessary to provide them with privileged access to certain 
places and/or events; such schemes should be overseen by an independent 
body and accreditation decisions should be taken pursuant to a fair and 
transparent process, based on clear and non discriminatory criteria 
published in advance.''
    \57\ Measures for the Administration of Journalist Accreditation 
Cards, arts. 7, 13.
    \58\ Interim Provisions for the Administration of Those Employed as 
News Reporters and Editors.
    \59\ Lang is a Taiwan-born professor of finance at the Chinese 
University of Hong Kong. According to one press account, ``Lang's 
tirades against the sale of state assets struck a nerve in a country 
increasingly concerned about the corruption involved in the rapid 
accumulation of wealth by some entrepreneurs in recent years.'' ``SARFT 
Uses Accreditation Authority to Silence Critical Television Host,'' 
CECC China Human Rights and Rule of Law Update, April 2006, 15; 
``Should We Cautiously Execute Corrupt High Officials? '' [Gai bu gai 
shen sha ju tan gaoguan], Defense Lawyer Net (Online), 17 May 06; 
Richard McGregor, ``Chat Show Economist Forced Off China TV,'' 
Financial Times (Online), 14 March 06.
    \60\ UDHR, art. 29; ICCPR, art. 19(3).
    \61\ Regulations on the Administration of Publishing, art. 26.
    \62\ Provisions on the Administration of Internet News Information 
Services, art. 19.
    \63\ Measures for the Administration of Security Protection of 
Computer Information Networks with International Interconnections, art. 
5.
    \64\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 105.
    \65\ See, e.g., Provisions on the Protection of Secrets in News 
Publishing: [Xinwen chuban baomi guiding], art. 14: ``Anyone wishing to 
provide a foreign news publishing organization a report or publication 
with contents that relate to the nation's government, economy, 
diplomacy, technology or military shall first apply to this agency or 
their supervising organ or unit for examination and approval.'' See 
also PRC Law on the Protection of State Secrets [Zhonghua renmin 
gongheguo baoshou guojia mimi fa], issued 5 September 88, art. 8; 
Measures for the Implementation of the Law on the Protection of State 
Secrets [Zhonghua renmin gongheguo baoshou guojia mimi fa shishi 
banfa], issued 25 April 20, art. 4; and Article 1 of the Explanation of 
Certain Issues Regarding the Specific Laws to be Used in Adjudicating 
Cases of Stealing or Spying to Obtain, or Illegally Supplying, State 
Secrets or Intelligence for Foreigners [Guanyu shenli wei jingwai 
qiequ, citan, shoumai, feifa tigong guojia mimi, qingbao anjian juti 
yingyong falu ruogan wenti de jieshi], issued 20 November 00, which 
states: ``The term `intelligence' in Article 111 of the Criminal Law 
refers to items which involve the security and interests of the nation, 
but which are not public or which, according to relevant regulations, 
should not be made public.'' See also ``Secrets Protection Knowledge'' 
[Baomi zhishi], posted on the Administration for the Protection of 
State Secrets of Guangdong province Web site, which states: `` 
`Relating to the security and interests of the nation,' means that, if 
a secret matter were known by people who do not currently know it, it 
would result in various kinds of harm to the security and interests of 
the nation.'' In September 2003, the Guangzhou Daily published a 
warning to readers that everyone from Internet users to garbage 
collectors can run afoul of China's state secrets legislation. ``If a 
Nanny Can Disclose State Secrets, Then Average Citizens Should Raise 
Their Awareness of Preserving Secrets'' [Baomu jingran xielou guojia 
jimi baixing yexu tigao baomi yishi], People's Daily (Online), 5 
September 03.
    \66\ The Supreme People's Court has extended liability for 
disclosing state secrets negligently. Explanation of Certain Issues 
Regarding the Specific Laws to be Used in Adjudicating Cases of 
Stealing or Spying to Obtain, or Illegally Supplying, State Secrets or 
Intelligence for Foreigners, art. 5, which states: ``Any person who 
knows, or should know, that an item which is not marked secret relates 
to the security and interests of the nation and steals, acquires 
through spying or buys it for, or illegally supplies it to, a 
foreigner, shall be prosecuted and punished under the provisions of 
Article 111 of the Criminal Law for stealing, acquiring through spying 
or buying state secrets for, or illegally supplying state secrets to, a 
foreigner.''
    \67\ Such a standard exists in many representative democracies. 
See, e.g., Supreme Court of India, Secretary, Ministry of Information 
and Broadcasting vs. Cricket Association of Bengal and Others, (1995) 2 
S.C.C. 161 (stating ``the burden is on the authority to justify the 
restrictions [on freedom of expression]''). The Chinese government 
appears to have begun to recognize the importance of such a 
requirement. Compare the statutory language discussed above with that 
of Article 291(a), which was added to China's Criminal Law in December 
2001, which makes dissemination of ``terrorist information'' a crime, 
but which requires both that the accused knew the information was 
fabricated and that the dissemination actually resulted in a 
disturbance of public order. Third Amendment to the Criminal Law of the 
People's Republic of China [Zhonghua renmin gonghe guo xingfa xiuzheng 
an (san)], issued 29 December 01.
    \68\ ``It is Possible to Accidentally Disclose State Secrets Over 
Your Cell Phone'' [Shouji bu kai ye neng xie ``tianji'' wuyi xiemi 
keneng panxing], Xinhua (Online), 1 May 05.
    \69\ The Chinese government formed an interagency group called the 
National Sweep Away Pornography and Strike Down Illegal Publications 
Task Force (sometimes translated as the ``Office for Eliminating 
Pornography and Illegal Publications,'' or the ``Office of the National 
Anti-Piracy and Pornography Working Committee''). It is responsible for 
investigating and prosecuting illegal publishing, and has 17 members, 
including the Communist Party Central Propaganda Department, Political 
and Legislative Affairs Commission under the Central Committee of the 
Communist Party of China, Ministry of Information Industry, Ministry of 
Culture, SARFT, GAPP, and the People's Liberation Army General 
Political Department's Propaganda Department.
    \70\ ``2004 News Publishing Industry Development Report'' [2004 
nian xinwen chubanye fazhan baogao], People's Daily (Online), 1 
February 05.
    \71\ According to the editor of a major Chinese magazine noted for 
publishing critical articles without being shut down, ``We go up to the 
line--we might even push it. But we never cross it.'' David Barboza, 
``Pushing (and Toeing) the Line in China,'' New York Times (Online), 18 
April 05.
    \72\ ``Also, defense counsel takes the standpoint that Huang Qi has 
freedom of speech, and may freely express his opinion on a given 
matter. This court believes that freedom of speech is a political right 
of the citizens of China, but when exercising this right, no one may 
harm the interests or security of the nation, and may not use rumor 
mongering or defamation to incite subversion of the national regime. 
Therefore, the court takes note that the defense counsel takes a 
standpoint that only stresses the right of the accused, and ignores his 
duties.'' Sichuan, Chengdu Intermediate People's Court Criminal 
Judgment (2001), Chengdu Criminal First Instance Document No. 49 
[Sichuan sheng Chengdu shi zhongji renmin fayuan xingshi panjue shu 
(2001) cheng xing chu zi di 49 hao], issued 22 February 03.
    \73\ Shanghai No. 2 Intermediate People's Court Criminal Judgment 
(2003), Shanghai Second Intermediate Document No. 136 [Shanghai shi di 
er zhongji renmin fayuan xingshi panjue shu (2003) hu er zhong xing chu 
zi di 136 hao], issued 5 November 03.
    \74\ PRC Law on the Protection of State Secrets [Zhonghua renmin 
gongheguo baoshou guojia mimi fa], issued 5 September 88, art. 11. In 
addition, Chinese regulations require all news outlets to have 
personnel and procedures in place to determine whether information 
intended for public reporting contains state secrets. See, e.g., Notice 
Regarding Preventing State Secrets from Being Divulged in Publications 
[Guanyu fangzhi zai chubanwu zhong xielu guojia mimi de tongzhi], 
issued 12 March 94; Provisions on the Protection of Secrets in News 
Publishing [Xinwen chuban baomi guiding], issued 13 June 92.
    \75\ Shanghai High People's Court Criminal Judgment (2003), 
Shanghai High Document No. 181 [Shanghai shi gaoji renmin fayuan 
xingshi panjue shu (2003) hu gao xing chu zi di 181 hao], issued 23 
August 03.
    \76\ CECC Staff Testing.
    \77\ After holding Zhao in custody for almost two years, a Chinese 
court acquitted him of disclosing state secrets on August 25, 2006, but 
sentenced him to three years' imprisonment on an unrelated fraud 
charge, fined him 2,000 yuan (US$250), and ordered him to pay back 
20,000 yuan (US$2,500) that it ruled he had acquired through fraud. 
``China Gives Times Researcher 3 Years,'' New York Times (Online), 25 
August 06; ``Journalist Imprisoned For Fraud,'' China Daily (Online), 
26 August 06.
    \78\ ``GAPP: Indoctrination, Prior Restraints, Political Censorship 
`Highlights' of '05,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 16; ``Looking Back on 2005: Focusing on Ten Bright Spots on 
the Press Battle Lines'' [Hui mou 2005: xinwen chuban zhanxian shi da 
liang dian zhumu], General Administration for Press and Publication 
(Online), 4 January 06.
    \79\ ``The `Three Studies Education' Results Are Clear: News 
Personnel Develop in a Healthy Way'' [``San xiang xuexi jiaoyu'' 
chengguo xianzhu xinwen duiwu jiankang fazhan], Xinhua (Online), 1 May 
06.
    \80\ ``News Industry Clarifies the Specific Ideology Underlying 
Propaganda and the `Eight Glories and Eight Shames' '' [Xinwenjie 
mingque xuanchuan he jianxing ``ba rong ba chi'' juti silu], Xinhua 
(Online), 12 April 06.
    \81\ Ibid.
    \82\ ``Internet Operators in China Agree to Support Hu Jintao, 
Marxism, and the Party,'' CECC China Human Rights and Rule of Law 
Update, May 2006, 9; Philip P. Pan, ``The Click That Broke a 
Government's Grip,'' Washington Post, 19 February 06, A1.
    \83\ CECC Staff Interview.
    \84\ ``Chinese Authorities Crack Down on Progressive Newspaper 
Publisher,'' CECC China Human Rights and Rule of Law Update, February 
2006, 13.
    \85\ ``Pressure on the Press,'' Newsweek (International Edition), 
reprinted on MSNBC (Online), 27 June 05.
    \86\ Extra-territorial (yidi) reporting refers to the practice in 
which a newspaper from one area publishes critical investigative 
reports about another area, about matters that officials in the 
investigated area are preventing their local news media from reporting. 
For additional background, see ``Chinese Government Increases 
Censorship by Restricting `Extra-Territorial' Reporting,'' CECC China 
Human Rights and Rule of Law Update, July 2005, 2.
    \87\ ``Beijing News Reporters Walk Out Over Top Editor's Removal,'' 
Reuters, reprinted in China Post (Online), 31 December 05.
    \88\ Decision Regarding the Handling of the China Youth Daily 
``Freezing Point Weekly'' Mistake in Publishing Modernism and History 
Text Books [Zhongguo gongqingtuan zhongyang xuanchuanbu ``guanyu dui 
zhongguo qingnianbao `bingdian zhoukan' cuowu kanfa xiandaihua yu lishi 
jiaokeshu de chuli jueding''], issued 24 January 06.
    \89\ ``Yuan Weishi Welcomes Freezing Point's Resumption of 
Publication, Hopes He Can Respond to Criticism'' [Yuan Weishi huanying 
bingdian fukan xi neng huiying piping], Voice of America (Online), 17 
February 06.
    \90\ Decision of the Communist Party Youth League Publishing House 
Communist Party Committee Regarding Handling the Rectification and 
Expeditious Relaunch of the ``Freezing Point'' Weekly [Zhongguo 
qingnian baoshe dangzu guanyu dui bingdian zhoukan zhengdun he zhengqu 
zaori fukan de chuli jueding], issued 16 February 06.
    The Freezing Point incident also exposed the role of the CPD's 
Critical Review Committee, which operates under the Central Propaganda 
Department's News Office, and comprises about 10 officials. The 
Committee issues on average 800 reports each year, about half of which 
are negative, that bypass standard reporting channels, and can go 
directly to senior Party officials or the propaganda offices at 
provincial and local news media organizations. When the Critical Review 
Committee celebrated its 10th anniversary in 2004, two senior Central 
Propaganda Department officials issued a congratulatory statement on 
behalf of Politburo member Li Changchun and Liu Yunshan, a Communist 
Party Central Committee member who also serves as Secretary of the 
Party Secretariat and Director of the Central Propaganda Department. Ji 
Bingxuan, one of the officials, emphasized that, ``Establishing a news 
critique system was an innovation in news supervision in this new 
era.'' ``Calls Within the Party To Relax Media Restrictions, The News 
Reading and Criticizing Group Is Exposed'' [Zhonggong dangnei huyu 
xinwen songbang, xinwen yupingzu baoguang], Asia Weekly (Online), 4 
March 06. In their open letter regarding the Freezing Point incident, 
the 13 former senior government, Party, and news media officials 
singled out the Critical Review Committee for criticism, saying: ``They 
have not only engaged in stigmatizing and criticizing, but have even 
gone so far as to manufacture all sorts of ``blacklists,'' carry out 
secret investigations, waiting for an opportunity to pounce, sometimes 
carrying out the process of an ``execution'' with instruction on a 
single phone call, leaving the target without any right to plead their 
case. Their methods are incredibly crude, and are not subject to any 
legal restraints whatsoever.'' ``Joint Declaration Concerning the 
`Freezing Point' Incident'' [Guanyu bingdian shijian de lianhe 
shengming], Epoch Times (Online), 14 February 06.
    \91\ Charles Hutzler, ``China Finds New Ways To Restrict Access to 
the Internet,'' Wall Street Journal, 1 September 04; Xiao Qiang, ``The 
Words You Never See in Chinese Cyberspace,'' China Digital Times 
(Online), 30 August 04.
    \92\ The Internet in China--A Tool of Freedom or Suppression?, 
Hearing of the Subcommittee on Africa, Global Human Rights, and 
International Operations, Committee on International Relations, U.S. 
House of Representatives, 15 February 06, Written Statement Submitted 
by Elliot Schrage, Vice President, Global Communications and Public 
Affairs, Google, Inc.
    \93\ Ibid.
    \94\ ``Internet Operators in China Agree to Support Hu Jintao, 
Marxism, and the Party,'' CECC China Human Rights and Rule of Law 
Update, May 2006, 9; ``14 Web Sites Sign Letter Jointly Calling on 
Internet to Be Operated in a Civilized Manner'' [Beijing 14 jia 
wangzhan lianhe xiang hulianwangjie fachu wenming ban wang changyishu], 
People's Daily (Online), 10 April 06. The former phrase refers to 
President Hu Jintao's ``Eight Glories and Eight Shames'' propaganda 
slogan, and the latter phrase means, according to Liu Yunshan, head of 
the Central Propaganda Department, to: ``carry forward a nationalist 
spirit whose core is patriotism . . . carry forward collectivist and 
socialist ideology and allow it to become the main stream of modern 
times and the prevailing fashion of the entire society . . . require 
the coordination of the lines of propaganda of ideological warfare . . 
. and pluck the people's heart strings to bring about their sympathetic 
response. . . .'' Liu Yunshan, ``Earnestly Study and Implement the 
Spirit of the Fourth Plenary Session of the 16th Chinese Communist 
Party Central Committee; Strive to Increase the Party's Ability to Lead 
Ideological Work.''
    \95\ ``GAPP Head Long Xinmin: Reform Does Not Mean Fragmentation'' 
[Xinwen chuban zongshu shuzhang Long Xinmin: gaige budengyu jituanhua], 
People's Daily (Online), 6 April 06.
    \96\ Circular on ``Self Discipline Agreement for Chinese Radio and 
Television Announcers and Hosts'' [Guangdianzongju guanyu pizhuan 
zhongguo guangbo dianshi xiehui ``Zhongguo guangbo dianshi boyinyuan 
zhuchiren zilu gongyue'' de tongzhi], issued 10 September 05.
    \97\ As noted above, the UDHR and ICCPR protect the right of 
citizens to impart information and ideas of all kinds. For examples of 
how this right is protected by other jurisdictions, see, e.g., 
Baumgartner v. U.S., 322 U.S. 665 (1944): ``One of the prerogatives of 
American citizenship is the right to criticize public men and 
measures--and that means not only informed and responsible criticism 
but the freedom to speak foolishly and without moderation.'' See also 
Mills v. Alabama, 384 U.S. 214 (1966): ``Thus the press serves and was 
designed to serve as a powerful antidote to any abuses of power by 
governmental officials and as a constitutionally chosen means for 
keeping officials elected by the people responsible to all the people 
whom they were selected to serve. Suppression of the right of the press 
to praise or criticize governmental agents and to clamor and contend 
for or against change . . . muzzles one of the very agencies the 
Framers of our Constitution thoughtfully and deliberately selected to 
improve our society and keep it free.'' See also European Court of 
Human Rights, Ekin Association v. France--39288/98 [2001] ECHR 473 (17 
July 2001): ``Freedom of expression constitutes one of the essential 
foundations of a democratic society. Subject to paragraph 2 of Article 
10, it is applicable not only to `information' or `ideas' that are 
favourably received or regarded as inoffensive or as a matter of 
indifference, but also to those that offend, shock or disturb. Such are 
the demands of that pluralism, tolerance and broadmindedness without 
which there is no `democratic society.' '' See also European Court of 
Human Rights, Castells v. Spain--11798/85 [1992] ECHR 48 (23 April 
1992): ``Freedom of the press affords the public one of the best means 
of discovering and forming an opinion of the ideas and attitudes of 
their political leaders. In particular, it gives politicians the 
opportunity to reflect and comment on the preoccupations of public 
opinion; it thus enables everyone to participate in the free political 
debate which is at the very core of the concept of a `democratic 
society.' '' See also Supreme Court of India, Secretary, Ministry of 
Information and Broadcasting vs. Cricket Association of Bengal and 
Others, (1995) 2 S.C.C. 161: ``In a democracy, people govern themselves 
and they cannot govern themselves properly unless they are aware--aware 
of social, political, economic and other issues confronting them. To 
enable them to make a proper judgment on those issues, they must have 
the benefit of a range of opinions on those issues. Right to receive 
and impart information is implicit in free speech. This plurality of 
opinions, views and ideas is indispensable for enabling them to make an 
informed judgment on those issues to know what is their true interest, 
to make them responsible citizens, to safeguard their rights as also 
the interests of society and State.'' See also Supreme Court of India, 
L.I.C. vs. Professor Manubhai D. Shah, (1992) 3 S.C.C. 637: ``Merely 
because it is critical of the State Government is no reason to deny 
selection and exhibition of the film.''
    \98\ ``Inter-Agency Task Force Cracks Down on Political 
Publications,'' CECC China Human Rights and Rule of Law Update, April 
2006, 13. Ji Yanan, ``Increase the Force of the `Sweep Away Pornography 
and Strike Down Illegal Publications' Campaign'' [Jiada 
``saohuangdafei'' lidu], Guangming Daily (Online), 23 Feb 06.
    \99\ ``Senior Censorship Agency Official Says Communist Party Must 
Control News Media,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 16; ``Shi Feng: Create a Public Opinion Environment 
Conducive to a Harmonious Society'' [Shi feng: wei hexie shehui jianshe 
yingzao lianghao yulun huanjing], People's Daily (Online), 15 October 
05.
    \100\ Ji Yanan, ``Increase the Force of the `Sweep Away Pornography 
and Strike Down Illegal Publications'' [Jiada ``saohuangdafei'' lidu], 
Guangming Daily (Online), 23 February 06.
    \101\ Radio, Film, and Television Propaganda Priorities for 2005 
[2005 nian guangbo yingshi xuanchuan gongzuo yaodian], issued 22 
February 05.
    \102\ Circular Regarding the Printing and Promulgation of the 
``Measures on the Recording of Important Topics of Books, Periodicals, 
Audio/Visual Productions and Electronic Publications'' [Guanyu yinfa 
``tushu, qikan, yinxiang zhipin, dianzi chubanwu zhongda xuanti beian 
banfa'' de tongzhi], issued 10 October 97.
    \103\ Sui Xiaofei and Qu Zhihong, ``China's Publishing Sector's 
Glorious Development Must Move From Being a Big Country to a Great 
Country.''
    \104\ Regulations on the Administration of Publishing, art. 3; 
Circular Regarding Further Strengthening the Administration of 
Periodicals Relating to Current Affairs and Politics, General 
Lifestyle, Information Tabloids, and Scientific Theory [Guanyu jinyibu 
jiaqiang shishi zhengzhi lei, zonghe wenhua shenghuo lei, xinxi wenzhai 
lei hei xueshu lilun lei qikan guanli de tongzhi], issued 28 June 00.
    \105\ Circular Regarding Further Strengthening the Administration 
of Periodicals Relating to Current Affairs and Politics, General 
Lifestyle, Information Tabloids, and Scientific Theory.
    \106\ Circular Regarding Further Strengthening the Administration 
of Selection of Articles for Newspapers and Periodicals [Xinwen chuban 
zongshu guanyu jiaqiang baokan zhaizhuan gaojian guanli de tongzhi], 
issued 25 February 05. See also Circular Regarding Certain Problems 
with Recent Publishing of Periodicals [Guanyu muqian qikan chuban 
youguan wenti de tongzhi], issued 16 October 98.
    \107\ Provisions Regarding Strengthening the Administration of 
Publications Describing Major Party and National Leaders [Guanyu dui 
miaoxie dang he guojia zhuyao lingdaoren de chubanwu jiaqiang guanli de 
guiding], issued 5 May 90, art. 2.
    \108\ Circular Regarding the Printing and Promulgation of the 
``Measures on the Recording of Important Topics of Books, Periodicals, 
Audio/Visual Productions and Electronic Publications'' [Guanyu yinfa 
``tushu, qikan, yinxiang zhipin, dianzi chubanwu zhongda xuanti beian 
banfa'' de tongzhi], issued 10 October 97. Circular Regarding 
Strengthening and Improving the Work of Recording Important Topics 
[Guanyu jiaqiang he gaijin zhongda xuanti beian gongzuo de tongzhi], 
issued 9 March 99. Examples of ``important topic selections'' include 
the work and life of Party and the government leaders, the history of 
the PRC, the history of the People's Liberation Army, and foreign 
relations, and religion. Circular Regarding Further Strengthening the 
Administration of Relevant Publications [Guanyu jin yi bu jiaqiang dui 
youguan chubanwu guanli de tongzhi], issued 24 August 98.
    \109\ Circular Regarding Further Strengthening the Administration 
of Relevant Publications, art. 1; Provisions Regarding Strengthening 
the Administration of Publications Describing Major Party and National 
Leaders, art. 3; Urgent Circular Regarding Reaffirming the 
Strengthening of the Administration of Books Reflecting the Work and 
Life Circumstances of the Major Leaders of the Party and the Nation 
[Guanyu chongshen dui chuban fanying he guojia zhuyao lingdaoren 
gongzuo he shenghuo qingkuang tushu jiaqiang guanli de jinji tongzhi], 
issued 24 January 97, art. 3.
    \110\ Guangdong Press and Publication Administration (Online), 
``Responsible Person at the General Administration of Press and 
Publication Book Office Reports on the Previous Year's National Book 
Publishing Administration Work'' [Zongshu tushusi fuzeren tongbao 
qunian quanguo tushuchuban guanli gongzuo], 24 February 05.
    \111\ Provisions on the Administration of Newspaper Publishing; 
Provisions on the Administration of Periodical Publishing.
    \112\ Circular Regarding Restructuring Inspection and Examination 
Measures for Important Revolution and Historical Material Movie and 
Television Projects and Completed Films [Guanyu tiaozheng zhongda 
geming he lishi ticai dianying, dianshiju lixiang ji wancheng pian 
shencha banfa de tongzhi], issued 28 July 03.
    \113\ Circular Regarding Publication of the ``Interim Measures on 
the Administration of the Recording and Notification of Television 
Program Film Production'' [Guangdianzongju guanyu yinfa ``dianshiju 
paishe zhizuo bei'an gongshi guanli zanxing banfa'' de tongzhi], issued 
6 April 06.
    \114\ Provisions on the Administration of Television Dramas 
[Dianshiju guanli guiding], issued 15 June 00, art. 39.
    \115\ Ding Yang, `` `Sweep Away Pornography and Strike Down Illegal 
Publications' Adopts Measures to Escort the Ship of the Two Holidays 
and Two Meetings'' [``Sahuang dafei'' caiqu cuoshi huhang liangjie 
lianghui], Guangming Daily (Online), 19 January 06; ``Authorities 
Increase News and Political Censorship in Run-Up to NPC, CPPCC 
Sessions,'' CECC China Human Rights and Rule of Law Update, May 2006, 
13.
    \116\ Circular Regarding Rectifying the Publishing Market and 
Cultural Entertainment Market to Create a Good Atmosphere for New 
Year's, Spring Festival, and the ``Two Meetings'' [Guanyu jinghua 
chubanwu shichang ji wenhua yule shichang wei yuandan, chunjie he 
quanguo ``liang hui'' zhaokai chuangzao lianghao wenhua huanjing de 
tongzhi], issued 4 January 06.
    \117\ Yuan Haizhen, ``Increase Supervision of Publications Market, 
Create a Good Atmosphere for the Two Meetings'' [Jiaqiang chubanwu 
shichang jianguan wei ``liang hui'' yingzao lianghao huanjing], Henan 
Daily, reprinted in Xinhua (Online) 23 February 06.
    \118\ ``Court Rejects Writer Zhang Lin's Appeal of Conviction For 
Subversive Writings,'' CECC Human Rights and Rule of Law Update, 
November, 2005, 3.
    \119\ ``Authorities Arrest and Imprison Writers for Online Essays 
Criticizing Government,'' CECC China Human Rights and Rule of Law 
Update, September 2006, 2-3; ``Journalist Arrested For Posting Reports 
About Crackdown On Christians,'' Reporters Without Borders (Online), 11 
August 06.
    \120\ ``Groups Petition Government to Review Constitutionality Of 
Internet News Rules,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 6.
    \121\ ``Two Mainland Web Portals Blocked,'' South China Morning 
Post (Online), 20 June 06.
    \122\ ``Government Shuts Down Web Site; Chinese Scholars and 
Activists Respond,'' CECC Human Rights and Rule of Law Update, 
September 2006, 12-13.
    \123\ ``Authorities Close Polls Website for Third Time in Three 
Months,'' Reporters Without Borders (Online), 3 August 06.
    \124\ UDHR, art. 18 (guaranteeing ``freedom of thought, conscience 
and religion''), ICCPR, art. 22, and ICCPR General Comment No. 22: The 
Right to Freedom of Thought, Conscience and Religion (Art. 18), 30 July 
93, item 4 of which defines freedom of religion and belief to include 
``the freedom to prepare and distribute religious texts or 
publications.''
    \125\ State Council Information Office, White Paper on Freedom of 
Religious Belief in China [Zhongguo de zongjiao xinyang ziyou 
zhuangkuang], October 97.
    \126\ Regulations on the Administration of Printing Enterprises 
[Yinshuaye guanli tiaoli], issued 2 August 01, art. 31.
    \127\ Ibid, art. 18.
    \128\ Ibid.
    \129\ See, e.g., Provisions on the Administration of Newspaper 
Publication, art. 27 (requiring all newspapers to strictly abide by 
``relevant regulations'' when publishing or reprinting articles 
relating to ethnic religious affairs); Circular Regarding the Printing 
and Promulgation of the ``Measures on the Recording of Important Topics 
of Books, Periodicals, Audio/Visual Productions and Electronic 
Publications,'' art. 3(v) (requiring that anyone seeking to publish on 
``topics which deal with ethnic issues or religious issues'' must 
register their intent to do so in advance with government authorities).
    \130\ Sui Xiaofei and Qu Zhihong, ``China's Publishing Sector's 
Glorious Development Must Move From Being a Big Country to a Great 
Country,'' People's Daily (Online), 25 March 06.
    \131\ ``Xinjiang Cracks Down on `Illegal' Religious Publications,'' 
CECC China Human Rights and Rule of Law Update, April 2006, 9; Wang 
Lei, ``Xinjiang Uighur Autonomous Region Destroys 29 Tons of Illegal 
Books'' [Xinjiang weiwu'er zizhiqu xiaohui 29 dun feifa tushu], 
Tianshan Net (Online), 6 March 06.
    \132\ ``Tibet `Sweep Away Pornography and Strike Down Illegal 
Publications' Campaign Has Clear Results'' [Xizang ``saohuang dafei'' 
gongzuo chengxiao xianzhu], Xinhua (Online), 18 January 06.
    \133\ ``Church Leaders Arrested, Laypeople Forced to Join Patriotic 
Group,'' Union of Catholic Asian News (Online), 24 January 00.
    \134\ ``Suppression of Wenzhou Underground Church Continues During 
Holy Week and Easter,'' Union of Catholic Asian News (Online), 4 May 
00.
    \135\ ``Two Underground Priests Arrested,'' Asia News (Online), 28 
October 05. UN Commission on Human Rights, Report of the Special 
Rapporteur on Religious Intolerance, 13 February 01.
    \136\ ``Beijing Court Jails House Church Minister for Giving Away 
Bibles,'' CECC China Human Rights and Rule of Law Update, December 
2005, 1.
    \137\ ``Chinese Authorities Release House Church Filmmaker After 
140 Days in Custody,'' CECC Human Rights and Rule of Law Update, 
September 2006, 9.
    \138\ ``Court Imprisons One Tibetan Writer, Party Officials Shut 
Down Another's Blogs,'' CECC Human Rights and Rule of Law Update, 
September 2006, 9.
    \139\ ``Journalist Arrested for Posting Reports About Crackdown on 
Christians,'' Reporters Without Borders (Online), 11 August 06; 
``Urgent Announcement Regarding Independent Chinese Pen Center Member 
Zan Aizong's Administrative Detention By Hangzhou PSB'' [Duli zhongwen 
bihui jiu huiyuan zan aizong bei Hangzhou gonganju xingzheng kouliu de 
jiji shengming], Independent Chinese PEN Center (Online), 11 August 06.
    \140\ UDHR, art. 29; ICCPR art. 19(3).
    \141\ ``State Council Appoints Long Xinmin as New Head of the 
General Administration of Press and Publication'' [Guowuyuan renmian: 
Long Xinmin wei xinwen chuban zongshu shuzhang tu], Xinhua (Online), 27 
December 05.
    \142\ Liu Yunshan, ``In Accordance With the Requirements of 
Building a Socialist and Harmonious Society: Deepen, Broaden, and 
Innovate Propaganda Ideological Work'' [Anzhao goujian shehuizhuyi 
hexie shehui yaoqiu shenhua tuozhan chuangxin xuanchuan sixiang 
gongzuo], Seeking Truth (Online), 1 October 05.
    \143\ ``Shi Feng: Create a Public Opinion Environment Conducive to 
a Harmonious Society'' [Shi feng: wei hexie shehui jianshe yingzao 
lianghao yulun huanjing], People's Daily (Online), 15 October 05.
    \144\ Chi Gangyi, Yu Xianting, and Li Hui, ``Comprehensively 
Strengthen the Establishment of University Networks and Firmly Grasp 
the Initiative in Online Political Ideological Education'' [Quanmian 
jiaqiang gaoxiao xiaoyuanwang jianshe laolao zhangwo wangshang sixiang 
zhengzhi jiaoyu zhudongquan], Guangming Daily (Online), 12 September 
05.
    \145\ See, e.g., ``Strengthen Public Sentiment Work, Safeguard the 
Security of the Ruling Party's Governance'' [Jiaqiang yuqing xinxi 
gongzuo, weihu dangde zhizheng anquan], Guangming Daily, 26 May 05, B4 
(calling on Party cadres to ``strengthen the supervision and monitoring 
of the Internet, cellular phones, and other new forms of media''); 
``Party Propaganda Chief Calls for Increased Control Over the Media,'' 
CECC China Human Rights and Rule of Law Update, December 2005, 14; Liu 
Yunshan, ``In Accordance With the Requirements of Building a Socialist 
and Harmonious Society: Deepen, Broaden, and Innovate Propaganda 
Ideological Work'' (noting that, while it remains necessary to continue 
to conduct ``ideological education'' of workers, farmers, 
intellectuals, soldiers, and cadres, Party propagandists must also 
``expand the targets of propaganda ideology work'' to new groups).
    \146\ Liu Yunshan, ``In Accordance With the Requirements of 
Building a Socialist and Harmonious Society: Deepen, Broaden, and 
Innovate Propaganda Ideological Work.''
    \147\ Ibid.
    \148\ Shi Fengyan, Xu Ying, and Zhou Honglei, ``College Student 
Groups: An Effective Vehicle for Ideological and Political Education'' 
[Daxuesheng shetuan: sixiang zhengzhi jiaoyu de youxiao zaiti], Seeking 
Truth (Online), 1 December 05.
    \149\ Chi Gangyi, Yu Xianting, and Li Hui, ``Firmly Grasp the 
Initiative in Online Political Ideological Education.'' For an example 
of how this program was implemented, see Deng Wei, ``Tsinghua 
University Sets Up `Red Web Site' '' [Daxuesheng hongse wangzhan: 
chuanbo makesizhuyi de zhongyao zhendi], Seeking Truth (Online), 16 
February 06.
    \150\ ``As Chinese Students Go Online, Little Sister Is Watching,'' 
New York Times (Online), 9 May 06.
    \151\ Professional Ethical Standards for China Radio and Television 
Announcers and Hosts [Zhongguo guangbo dianshi boyinyuan zhuchiren 
zhiye daode zhunze], issued 2 December 04; Professional Ethical 
Standards for China Radio and Television Editors and Reporters 
[Zhongguo guangbo dianshi bianji jizhe zhiye daode zhunze], issued 2 
December 04.
    \152\ Notice Regarding Strengthening the Supervision of Radio and 
Television Discussion Programs [Guanyu jiaqiang guangbo dianshi 
tanhualei jiemu guanlide tongzhi], issued 10 December 04.
    \153\ Interim Provisions on the Administration of Those Employed as 
News Reporters and Editors; ``Regulating News Reporting and Editorial 
Personnel: Implementing a Real Name System When Publishing Articles'' 
[Xinwen caibian renyuan congye guifan: baodao kanfa shi yao shishi 
shimingzhi], China News Net, reprinted in Xinhua (Online), 22 March 05; 
``Xinhua Editorial: The Importance of Regulating the Behavior of Those 
Engaged in News Reporting And Editing'' [Xinhua shiping: guifan xinwen 
caibian renyuan xingweide zhongyao zhidu], Xinhua (Online), 22 March 
05.
    \154\ ``Government and Communist Party Move To Increase Regulation 
of Reporters and Editors,'' CECC China Human Rights and Rule of Law 
Update, June 2005, 7; Interim Implementation Rules for the 
Administration of Those Employed as Radio and Television News Reporters 
and Editors.
    \155\ State Administration of Radio, Film, and Television, Circular 
Regarding Authorizing the China Radio and Television Association's 
``Self Discipline Agreement for Chinese Radio and Television Announcers 
and Hosts'' [Guangdianzongju guanyu pizhuan Zhongguo guangbo dianshi 
xiehui ``Zhongguo guangbo dianshi boyinyuan zhuchiren zilu gongyue'' de 
tongzhi], issued 10 September 05.
    \156\ Notice Regarding Correctly Administering Radio and Television 
Live Broadcast Reports [Guangdianzongju guanyu qieshi zuo hao guangbo 
dianshi xianchang zhibo baodao guanli de tongzhi], issued 10 September 
05.
    \157\ Liu Yunshan, ``In Accordance With the Requirements of 
Building a Socialist and Harmonious Society: Deepen, Broaden, and 
Innovate Propaganda Ideological Work.''
    \158\ ``Shi Feng: Create a Public Opinion Environment Conducive to 
a Harmonious Society'' [Shi feng: wei hexie shehui jianshe yingzao 
lianghao yulun huanjing], People's Daily (Online), 15 October 05.
    \159\ Supreme People's Court Interpretation Regarding Certain 
Questions About the Specific Laws to be Used in Adjudicating Criminal 
Cases of Illegal Publications [Zui gao renmin fayuan guanyu shenli 
feifa chubanwu xingshi anjian juti yingyong falu ruogan wenti de 
jieshi], issued 17 November 98.
    \160\ Supreme People's Court Circular Regarding Striking Hard at 
Illegal Publishing Activities [Zuigao renmin fayuan guanyu yanli daji 
youguan feifa chubanwu fanzui huodong de tongzhi], issued 27 March 98.
    \161\ ``Senior Official Claims Foreign Newspapers Raise Threat of 
Color Revolution in China,'' CECC China Human Rights and Rule of Law 
Update, May 2006, 13; Mure Dickie, ``Beijing Blocks Foreign 
Newspapers,'' Financial Times (Online), 16 November 05.
    \162\ The rules were known to a number of major publishers, but 
never published. Western media outlets reported their existence in 
April 2006, citing an unnamed GAPP official as their source. See, e.g., 
``GAPP Tightens Restrictions on Foreign Publications,'' CECC China 
Human Rights and Rule of Law Update, May 2006, 13; ``China Curbs on 
Foreign Magazines Take Quiet Effect,'' Reuters (Online), 7 April 06; 
Geoffrey A. Fowler and Juying Qin, ``China Curbs Magazines from Foreign 
Publishers,'' Wall Street Journal (Online), 7 April 06.
    \163\ Interim Provisions on the Administration of Sino-Foreign 
Joint and Cooperative Ventures in Radio and Television Program 
Production Operating Enterprises [Zhongwai hezi, hezuo guangbo dianshi 
jiemu zhizuo jingying qiye guanlin zanxing guiding], issued 28 October 
05, art. 12.
    \164\ ``New Regulations Surfaced: Foreign Invested Movie, 
Television, and Media Corporations Can Only Participate in Joint 
Ventures'' [Xin guiding chutai: waizi yingshi chuanmei zhineng kai 
yijia hezi gongsi], Shanghai Morning Post, reprinted in People's Daily 
(Online), 7 March 05; Circular Regarding Matters Relating to the 
Implementation of the ``Interim Provisions on the Administration of 
Sino-Foreign Investment and Cooperative Joint Venture Television 
Program Production Enterprises'' Regulations [Guanyu shishi ``zhongwai 
hezi, hezuo guangbo dianshi jiemu zhizuo jingying qiye guanli zanxing 
guiding'' youguan shiyi de tongzhi], issued 25 February 05; Measures on 
the Administration of Foreign Satellite Television Channel Reception 
[Jingwai weixing dianshi pindao luodi guanli banfa], issued 18 June 04, 
art. 12.
    \165\ Measures for Administering the Release of News and 
Information in China by Foreign News Agencies [Waiguo tongxunshe zai 
Zhongguo jingnei fabu xinwen xinxi guanli banfa], issued 10 September 
06, art. 4.
    \166\ Ibid. The new rules repeal rules issued in 1996 allowing 
licensed foreign news agencies to distribute financial information 
directly to licensed customers. Ibid., art. 22; Methods for the 
Exercise of Administration Over Publication in China of Economic 
Information by Foreign News Agencies and Their Information Subsidiaries 
[Waiguo tongxunshe jiqi suoshu xinxi jigou zai Zhongguo jingnei fabu 
jingji xinxi de guanli banfa], issued 15 April 96.
    \167\ Measures for Administering the Release of News and 
Information in China by Foreign News Agencies, arts. 11, 12. Article 1 
of the Measures say that the rules are intended ``to promote the 
dissemination of news and information in a sound and orderly manner'' 
and a GAPP official has defended the new rules saying that they would 
not affect the activities of foreign journalists in China. Ibid., art. 
1; ``Xinhua's Measures Won't Lead to Monopoly,'' Xinhua (Online), 14 
September 06.
    \168\ Provisions for the Administration of Ground Satellite 
Television Broadcast Reception Facilities [Weixing dianshi guangbo 
dimian jieshou sheshi guanli guiding], issued 5 October 93; Measures 
for the Administration of Foreign Satellite Television Channel 
Reception, issued 18 June 04.
    \169\ ``Government Regulators Block Foreign Access to China's Media 
Market,'' CECC China Human Rights and Rule of Law Update, October 2005, 
9; ``Six Departments Issue Regulations Restricting Imports of Cultural 
Products'' [Liu bumen xiafa ``guanyu jiaqiang wenhua chanpin jinkou 
guanli de banfa''], People's Daily (Online), 2 August 05 (discussing 
the Measures Regarding Strengthening the Administration of the 
Importation of Cultural Products, which froze approvals for new foreign 
satellite television channels, and will ``increase control over content 
censorship'' of imported television programs). See also ``Government 
Regulators Block Foreign Access to China's Media Market,'' CECC China 
Human Rights and Rule of Law Update, October 2005, 12. ``Five 
Government Agencies Formulate `Certain Opinions Regarding the 
Introduction of Foreign Investment into the Cultural Domain' '' [5 
buwei zhiding ``guanyu wenhua lingyu yinjin waizi de ruogan yijian''], 
Xinhua (Online), 4 August 05 (prohibiting foreign companies from 
investing in news organizations or Web sites, radio or television 
stations, and companies that produce or show films or radio or 
television programs); State Administration of Radio, Film, and 
Television Notice Regarding Further Strengthening the Administration of 
Radio and Television Channels [Guangdianzongju guanyu jin yi bu 
jiaqiang guangbo pindao guanli de tongzhi], issued 4 August 05 
(stipulating that to preserve the government's ability ``to make final 
decisions regarding the contents of propaganda,'' a controlling share 
in radio and television stations must be in the hands of the 
government, and non-government investors may not participate in 
editorial decisions).
    \170\ Circular Regarding Reiterating Rules on the Administration of 
Television International News [Guangdianzongju guanyu chongshen dianshi 
guojin xinwen guanli guiding de tongzhi], issued 11 April 06; ``SARFT 
Relaxes Censorship of Fiction, Retains it for History, Politics, and 
News,'' CECC China Human Rights and Rule of Law Update, May 2006, 9.
    \171\ State Administration of Radio, Film, and Television, Circular 
Regarding Further Regulating the Administration of Television 
International News [Guojia guangbo dianying dianshi zongju guanyu jin 
yi bu guifan dianshi guoji xinwen guanli de tongzhi], issued 3 April 
02.
    \172\ Zhao Huanxin, ``Regulation of Internet in Line with World 
Norms,'' China Daily (Online), 15 February 06.
    \173\ ``Internet Filtering in China in 2004--2005: A Country 
Study,'' OpenNet Initiative (Online), 14 April 05.

    Notes to Section V(b)--Rights of Criminal Suspects and Defendants
    \1\ In December 2005, the Communist Party Central Committee and 
State Council ordered stronger controls over society and called on 
officials to both prevent and promptly ``strike'' against crime [see 
Section VII(d)--Democratic Governance and Legislative Reform; 
``Communist Party, State Council Order Stronger Controls Over 
Society,'' CECC China Human Rights and Rule of Law Update, January 
2006, 14-16; Sun Chunying and Zhang Xuefeng, ``Committee for 
Comprehensive Management of Public Security Spokesman Answers Questions 
From Press on Opinion Carrying Out Stable and Secure Development'' 
[Zhongyang zongzhiban fuzeren jiu guanyu kaizhan pingan jianshe de 
yijian da jizhe], Legal Daily, reprinted in National People's Congress 
(Online), 5 December 05]. Politburo member and State Councilor Luo Gan 
spoke at a national conference on December 5 and 6, 2005, and called 
for a ``harsh crackdown'' on criminal activities to create a sound 
social environment for implementing the 11th Five-Year Program and 
building a ``harmonious society.'' ``Senior official Calls for Harsh 
Crackdown on All Crimes,'' People's Daily (Online), 7 December 05. 
Since early 2006, the Supreme People's Court and Ministry of Public 
Security have also repeatedly called for application of ``Strike Hard'' 
campaigns as a measure to guard against certain categories of crime and 
to safeguard public order. ``People's Courts Will Continue to Uphold 
`Strike Hard' Policy in Accordance With Law'' [Renmin fayuan jiang jixu 
jianchi yifa ``yanda'' fangzhen], Xinhua (Online), 5 January 06; 
``Ministry of Public Security Emphasizes Need to `Strike Hard' Against 
Terrorist Criminal Activities, Protect State Security'' [Gonganbu 
qiangdiao yao yanda kongbu fanzui huodong weihu guojia anquan], Xinhua 
(Online), 26 January 06; ``Ministry of Public Security Urges Use of 
`Strike Hard' to Counter Social Unrest,'' CECC China Human Rights and 
Rule of Law Update, March 2006, 5-6; Supreme People's Court Work Report 
[Zuigao renmin fayuan gongzuo baogao], 20 March 06 [hereinafter SPC 
Work Report]; Ministry of Public Security (Online), ``Ministry of 
Public Security Announces First Quarter 2006 Nationwide Public Security 
Situation (Direct Feed Transcript)'' [Gonganbu tongbao 2006 nian di yi 
jidu shehui zhi'an xingshi (tuwen zhibo)], 11 April 06.
    \2\ ``Officials Ban Dozens of Papers, Seize Thousands of Political 
Publications, in 2005,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 6-7; ``Inter-Agency Task Force Cracks Down on 
Political Publications,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 13-14; ``Censorship Task Force Meets to Discuss 
2006 Spring Campaign,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 13.
    \3\ ``Xinjiang Continues Crackdown on Separatism, Terrorism, and 
Religious Extremism,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 15; Han Xiaoyi, ``An Iron Fist to Strike Hard Against 
`Three Forces' of Splittist Activity'' [Tiewan yanda ``san gu shili'' 
fenlie huodong], Tianshan Net (Online), 26 June 06.
    \4\ ``Lhasa Conference Considers Judicial Role in Protecting 
Qinghai-Tibet Railway,'' CECC China Human Rights and Rule of Law 
Update, July 2006, 12-13.
    \5\ One scholar has written that the Communist Party rules by 
force, and that ``police play a critical role in maintaining social 
order and political stability under the [Party's] rule.'' Fu Hualing, 
``Zhou Yongkang and the Recent Police Reform in China,'' 38 Australian 
and New Zealand Journal of Criminology 242 (2005). Furthermore, 
``[w]henever the [Party] perceives that crime and disorder are posing 
threats to social stability and challenging the Party's legitimacy, it 
will mobilize the police to act swiftly and harshly to combat these 
challenges, disregarding most of the legal requirements developed by 
the routine system.'' Ibid., 243.
    \6\ ``Power Plant Construction Continues After Government 
Suppresses Villager Protests in Shanwei,'' CECC China Human Rights and 
Rule of Law Update, January 2006, 4-5.
    \7\ Ibid. Chinese legal advocates Gao Zhisheng and Guo Feixiong 
expressed outrage over proposals to allow further PAP intervention in 
mass incidents. Gao Zhisheng and Guo Feixiong, ``Proposal to Establish 
a `Shanwei Shooting Incident Civilian Fact-Finding Committee' '' 
[Jianyi chengli ``Shanwei kaiqiang shijian zhenxiang minjian diaocha 
weiyuanhui''], Boxun (Online), 11 January 06. International media and 
NGO sources that reported on the December 6 incident provided a higher 
death count than the official one and criticized the government's use 
of violence. Both Human Rights Watch and Amnesty International have 
called for an independent investigation into the December 6 incident. 
Human Rights Watch (Online), ``China: Dongzhou Killings Need 
Independent Investigation,'' 15 December 05; Amnesty International 
(Online), ``China: Police fire on crowd, killing four,'' 7 December 05. 
On December 20, 2005, a UN spokesperson reported that Philip Alston, 
the UN Special Rapporteur on Extrajudicial, Summary or Arbitrary 
Executions, had written to the Chinese government to request additional 
information about the Shanwei land dispute and the government's 
response. Stephanie Nebehay, ``U.N. Sleuth Asks China About Protest 
Shootings,'' Reuters (Online), 20 December 05.
    \8\ ``9 Villagers in the Honghai Bay Incident in Shanwei Are 
Arrested'' [Shanwei Honghai wan shijian 9 cunmin bei bu], Ta Kung Pao 
(Online), 13 December 05. Responsibility for administrative management 
and command of PAP troops is shared by local public security bureaus 
and the Central Military Commission. In addition, each director of a 
local public security bureau simultaneously serves as first political 
commissar of the PAP troops at the same level. State Council, Central 
Military Commission Decision on Adjusting the Leadership and Management 
Systems of China's People's Armed Police [Guowuyuan, zhongyang junwei 
guanyu tiaozheng Zhongguo renmin wuzhuang jingcha budui lingdao guanli 
tizhi de jueding], issued 3 May 95, para. 1.
    \9\ ``Gov't calls for more contribution by armed police,'' Xinhua 
(Online), 5 January 06; Wu Shuangzhan and Sui Mingtai, ``Working Hard 
to Construct a Politically Reliable, Mighty, and Civilized Army'' [Nuli 
jianshe zhengzhi kekao de weiwu zhishi wenming zhishi], Seeking Truth 
(Online), 1 January 06. PAP Commander Wu Shuangzhan and Political 
Commissar Sui Mingtai wrote that: ``The reality of the complex struggle 
against enemies requires that in resolutely striking at the destructive 
activities of enemy forces, [the PAP] bring into full play our function 
as a tool of state dictatorship.'' Ibid. Wu and Sui further emphasized 
that ``Taiwan independence,'' ``Tibetan independence,'' ``East 
Turkistan,'' ``democracy movement,'' and ``Falun Gong'' enemy forces 
have ``continually varied their techniques of carrying out disturbances 
and destruction, directly threatening our nation's security and social 
stability.'' Ibid.
    \10\ Wang Pan, ``Individuals Responsible for Serious Violation of 
Law in the Honghai Bay Development Zone, Shanwei Incident are Dealt 
With'' [Shanwei Honghai wan kaifaqu yanzhong weifa shijian zeren ren 
shoudao chuli], Xinhua (Online), 24 May 06.
    \11\ Ibid.; ``Relevant Individuals Responsible for Honghai Bay, 
Shanwei Incident in Guangdong Sentenced'' [Guangdong Shanwei Honghai 
wan shijian zhong youguan zeren ren bei panxing], Xinhua (Online), 25 
May 06.
    \12\ Maintaining public order is one major objective of the 
Criminal Law, and actions that ``disturb public order'' are criminally 
punishable under numerous provisions. PRC Criminal Law, enacted 1 July 
79, amended 14 March 97, 25 December 99, 31 August 01, 29 December 01, 
28 December 02, 28 February 05, 29 June 06, art. 2; ibid., part 2, ch. 
6, sec. 1.
    \13\ ``Wen Jiabao Airs Views on China's Rural Issues,'' Xinhua, 19 
January 06 (Open Source Center, 20 January 06); Wei Ran, ``Wen Jiabao 
Cautions Mistakes Cannot be Made in Land Issues'' [Wen Jiabao jinggao 
tudi shang bu neng fan cuowu], Voice of America (Online), 21 January 
06; ``Chinese PM warns on rural unrest,'' BBC (Online), 20 January 06.
    \14\ Ministry of Public Security, ``Ministry of Public Security 
Announces First Quarter 2006 Nationwide Public Security Situation 
(Direct Feed Transcript).''
    \15\ ``Ministry of Public Security Emphasizes Need to `Strike Hard' 
Against Terrorist Criminal Activities,'' Xinhua.
    \16\ Ministry of Public Security (Online), ``Ministry of Public 
Security Convenes a News Conference to Announce 2005 Nationwide Status 
of Public Security and Fires'' [Gonganbu zhaokai xinwen fabuhui tongbao 
2005 nian quanguo shehui zhi'an xingshi ji huozai xingshi], 20 January 
06.
    \17\ CECC, 2005 Annual Report, 11 October 05, sec. II.
    \18\ ``Beijing Officials Report Increase in Fines and Detentions 
Under New Public Security Law,'' CECC China Human Rights and Rule of 
Law Update, May 2006, 7-8. See also infra, ``Administrative 
Detention,'' and accompanying notes.
    \19\ Ministry of Public Security (Online), ``Ministry of Public 
Security Convenes Press Conference to Announce the Status of 
Preparations for Implementing the `Public Security Administration 
Punishment Law' '' [Gongan bu zhaokai xinwen fabuhui tongbao ``zhi'an 
guanli chufa fa'' shishi zhunbei qingkuang], 28 February 06.
    \20\ Fu, ``Zhou Yongkang and the Recent Police Reform in China,'' 
242 (stating that the procuratorates and the courts exercise only 
``limited supervisory powers'' over the police).
    \21\ PRC People's Police Law, enacted 28 February 95, arts. 42-44.
    \22\ Ibid., art. 47; Regulations on Public Security Agency 
Supervision [Gongan jiguan ducha tiaoli], issued 4 June 97, art. 2.
    \23\ ``Police affairs supervision examines and corrects 330,000 
cases of unjust enforcement of law over five years'' [Jingwu ducha wu 
nian chajiu zhifa bugong wenti 33 wan jian], Legal Daily (Online), 28 
February 06.
    \24\ Ibid.
    \25\ Wang Shu, ``During Nine-Year Span, Over 10,000 People's Police 
Who Breached Discipline Were Suspended'' [9 nian nei yu wan weiji 
minjing bei chu tingzhi], Beijing News (Online), 15 February 06.
    \26\ Chen Peng and Liu Yihui, ``3 Hunan Public Security Cadres Who 
Served as `Cover' for Criminal Forces are Sentenced'' [Hunan 3 ming 
gongan ganbu chongdang hei e shili ``baohu san'' bei panxing], Xinhua, 
reprinted in People's Daily (Online), 16 April 06.
    \27\ ``Supreme People's Procuratorate Recognizes Continuing Problem 
of Extended Detention,'' CECC China Human Rights and Rule of Law 
Update, July 2006, 11-12; Lin Shiyu, ``Consolidated Work of Correcting 
Extended Detention Has Been Effective; 96.2 Percent Drop in New Cases 
of Extended Detention Throughout the Nation Last Year'' [Jiuzheng 
chaoqi jiya gonggu gongzuo you chengxiao; quanguo qunian xin fasheng 
chaoqi jiya xiajiang 96.2%], Procuratorial Daily (Online), 21 May 06; 
``Suspects' Questioning to Be Taped,'' Xinhua (Online), 18 January 06. 
See also infra, ``Arbitrary Detention in the Formal Criminal Process,'' 
``Torture and Abuse in Custody,'' and accompanying notes.
    \28\ ``China Details New Laws of Official Abuse, Torture,'' Xinhua 
(Online), 26 July 06; Supreme People's Procuratorate Provisions on the 
Criteria for Filing Dereliction of Duty and Rights Infringement Cases 
[Zuigao renmin jianchayuan guanyu duzhi qinquan fanzui anjian li'an 
biaozhun de guiding], issued 29 December 05, sec. 2.
    \29\ ``Provincial Procuratorates Investigate Job-Related Crimes, 
Retrieve Over 21 Million in Economic Losses'' [Sheng jiancha jiguan 
zhencha zhiwu fanzui wanhui jingji sunshi 2,100 duo wan], Hainan News 
Network, reprinted in Hainan Provincial Government (Online), 24 January 
06; Lan Jian, ``Respectable Sichuan Woman Accused of Prostitution and 
Beaten to Death; Husband Receives 270,000 in Compensation'' [Sichuan 
liangjia funu bei zhi maiyin zao ousi zhangfu ling 27 wan peichang], 
China Court Net (Online), 8 June 06; ``Reeducation Through Labor 
Prisoner Executed for Abusing to Death Fellow Inmate'' [Laojiao renyuan 
nue si tongban bei zhixing sixing], Beijing News (Online), 7 July 06.
    \30\ Lan Jian, ``Respectable Sichuan Woman Accused of Prostitution 
and Beaten to Death.''
    \31\ ``Case of Respectable Sichuan Woman [Accused of] Prostitution 
Goes to Trial'' [Sichuan liangjia funu maiyin an kaiting], Xinhua 
(Online), 29 April 04.
    \32\ Gao Yifei, ``Prime Culprit in Prison Abuse Sentenced to Death, 
Reflecting Sanctity of Laws'' [Nue yin zhufan bei pan sixing tixian le 
falu zunyan], Guangming Daily Observer (Online), 7 July 06.
    \33\ Guo Hongping, ``Fighting Dereliction of Duty and Rights 
Infringement: How Many Case Leads are Waiting to be Unearthed? '' [Fan 
duzhi qinquan: duoshao anjian xiansuo dai fajue?], Procuratorial Daily 
(Online), 11 July 06.
    \34\ China has signed, but has not yet ratified, the ICCPR. The 
Chinese government has committed itself to ratifying, and thus bringing 
its laws into conformity with, the ICCPR and reaffirmed its commitment 
as recently as April 13, 2006, in its application for membership in the 
UN Human Rights Council. China's top leaders have previously stated on 
three separate occasions that they are preparing for ratification of 
the ICCPR, including in a September 6, 2005, statement by Politburo 
member and State Councilor Luo Gan at the 22nd World Congress on Law, 
in statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \35\ UDHR, adopted and proclaimed by General Assembly resolution 
217 A (III) of 10 December 48, arts. 9-10; ICCPR, adopted by General 
Assembly resolution 2200A (XXI) of 16 December 66, entry into force 23 
March 76, art. 9; infra, ``Arbitrary Detention,'' and accompanying 
notes.
    \36\ ``Chinese Authorities Crack Down on Activists Before U.S. 
President's Visit,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 3; ``UN Special Rapporteur on Torture Concludes Two-Week 
Visit to China,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 12-13; Manfred Nowak, Report of the Special Rapporteur on 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
Mission to China, Advance Edited Version, 10 March 06, para. 10 
[hereinafter Nowak Report].
    \37\ ``Li Jinping Detained Twice for Attempting to Commemorate Zhao 
Ziyang's Death,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 15; ``Authorities Control Commemorations for Zhao Ziyang 
and Hu Yaobang,'' CECC China Human Rights and Rule of Law Update, March 
2006, 15-16.
    \38\ ``Official Discloses Use of Mass Roundups During NPC, CPPCC 
Sessions,'' CECC China Human Rights and Rule of Law Update, April 2006, 
5.
    \39\ ``Ministry of Public Security Announces the Status of 
Preventing Major Public Security Disasters and Accidents, Ensuring 
Public Security Supervision'' [Gonganbu tongbao yufang zhongda zhi'an 
zaihai shigu, baozhang gonggong anquan ducha qingkuang], China News Net 
(Online), 2 March 06.
    \40\ Crimes that ``endanger state security'' are listed in Part 2, 
Chapter 1, and those that ``disturb public order'' are listed in Part 
2, Chapter 6, Section 1 of the Criminal Law.
    \41\ UN Working Group on Arbitrary Detention, Report of the Working 
Group on Arbitrary Detention, Mission to China, Addendum, 29 December 
04, para. 23 [hereinafter UNWGAD Report].
    \42\ Nowak Report, para. 35.
    \43\ Ibid., para. 34.
    \44\ ``China State Security Trials `Find 99 Pct Guilty,' '' Reuters 
(Online), 21 February 06.
    \45\ PRC Criminal Law, art. 103.
    \46\ Ibid., art. 105.
    \47\ In an article published in June 2006, Politburo member and 
State Councilor Luo Gan called for forceful measures against those who 
``get involved and take advantage of conflicts among the people to 
manufacture disturbances'' or who ``engage in sabotage activities under 
the pretense of `rights defense.' '' Luo Gan, ``Deeply Launch Education 
in the Notion of Socialist Rule of Law; Conscientiously Strengthen the 
Ideology of Political and Legal Ranks and Political Construction'' 
[Shenru kaizhan shehui zhuyi fazhi linian jiaoyu qieshi jiaqiang 
zhengfa duiwu sixiang zhengzhi jianshe], Seeking Truth (Online), 16 
June 06.
    \48\ PRC Criminal Law, art. 290.
    \49\ Ibid., arts. 290, 291. Article 290 makes it a crime to gather 
people to ``assault a State organ, making it impossible for the State 
organ to conduct its work.'' Article 291 makes it a crime to gather 
people to ``resist or obstruct public security administrators of the 
State from carrying out their duties according to law.''
    \50\ Ibid., art. 292.
    \51\ Ibid., art. 293.
    \52\ Ministry of Public Security, ``Ministry of Public Security 
Convenes a News Conference to Announce 2005 Nationwide Status of Public 
Security and Fires.''
    \53\ ``Court Sentences Shaanxi Investor Feng Bingxian to Three 
Years Imprisonment,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 16-17.
    \54\ ``Procuratorate Indicts Feng Bingxian and Three Other Shaanxi 
Oil Investors,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 11.
    \55\ Ibid.
    \56\ Ibid.; ``Draft Property Law Enters Fourth Deliberation 
Process'' [Wuquanfa cao'an jinru si shen chengxu], Legal Daily 
(Online), 24 October 05.
    \57\ PRC Constitution, art. 13 (``the lawful private property of 
citizens is not to be violated'').
    \58\ See supra, ``Social Unrest and Coercive Use of the Police 
Power,'' and accompanying notes.
    \59\  ``Local Officials Suppress Citizen Effort to Remove Village 
Committee Head in Guangdong Province,'' CECC China Human Rights and 
Rule of Law Update, November 2005, 11.
    \60\ ``Guangzhou Officials Formally Arrest Peasant Rights Activist 
Guo Feixiong,'' CECC China Human Rights and Rule of Law Update, 
November 2005, 6-7; Freedom in China, Staff Roundtable of the 
Congressional Human Rights Caucus, 3 May 06, Statement of Guo Feixiong. 
Guo was released in late December 2005, but authorities took him from 
his home in Guangzhou on September 14, 2006, and have placed him in 
criminal detention based on accusations of illegal operation of a 
publishing business. ``Guangzhou Police Achieve Results in Launching 
`Anti-Piracy Operation' '' [Guangzhou jingfang kaizhan ``fan daoban 
xingdong'' qude chengxiao], Guangzhou Daily (Online), 15 September 06; 
``China Detains Top Guangdong Rights Lawyer,'' Radio Free Asia 
(Online), 15 September 06.
    \61\ ``Guangdong Public Security Bureau Blames Mass Incidents on 
Rights Defender Activities,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 7-8; ``Guangdong Clamps Down on Outside Forces 
Getting Involved in Rights Protection and Rejects Politicizing of 
Issues, Inciting Mass Disturbances'' [Yue yanfang jingwai shili chashou 
weiquan chi jiang wenti zhengzhihua shandong qunzhong saoluan], Ming 
Pao Daily (Online), 24 February 06.
    \62\ The Commission's Political Prisoner Database includes profiles 
on more than 500 current and 3,000 past political prisoners based on 
available information. See infra, ``Political Prisoner Database,'' and 
accompanying notes. Thousands of political prisoners are detained in 
China's reeducation through labor system. See infra, ``Administrative 
Punishment,'' and accompanying notes.
    \63\ A Global Review of Human Rights: Examining the State 
Department's 2004 Annual Report, Hearing of the Subcommittee on Africa, 
Global Human Rights, and International Operations, Committee on 
International Relations, U.S. House of Representatives, 17 March 05, 
Written Statement Submitted by Michael Kozak, Assistant Secretary of 
State for Democracy, Human Rights, and Labor, U.S. Department of State, 
41, 54.
    \64\ ``China State Security Trials `Find 99 Pct Guilty,' '' 
Reuters; John Kamm, Remarks on Crimes Without Victims, Prisoners 
Without Names, Foreign Correspondents' Club of Hong Kong, 21 February 
06 (reporting early release or parole for 30 percent of China's 1.2 
million prisoners, including only three known prisoners convicted of 
state security crimes).
    \65\ Human Rights Watch (Online), ``China: Political Prisoner 
Exposes Brutality in Police-Run Mental Hospital,'' 2 November 05; 
``Shenzhen Public Security Authorities Release Activist and Journalist 
Liu Shui,'' CECC China Human Rights and Rule of Law Update, December 
2005, 13; ``Guangzhou Officials Release Activist Guo Feixiong,'' CECC 
China Human Rights and Rule of Law Update, February 2006, 12; ``Anti-
Corruption Reporter Jiang Weiping Released from Prison One Year 
Early,'' CECC China Human Rights and Rule of Law Update, February 2006, 
18; ``Falun Gong Practitioner Charles Lee Released, Expelled to the 
United States,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 14; ``Liaoyang Labor Activist Xiao Yunliang Released 
From Prison 24 Days Early,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 4; ``Authorities Release One 1989 Tiananmen 
Democracy Protester, Detain Another,'' CECC China Human Rights and Rule 
of Law Update, March 2006, 6; ``Cai Lujun, Imprisoned for Posting 
Internet Articles, Released at End of Sentence,'' CECC China Human 
Rights and Rule of Law Update, April 2006, 17; ``China Democracy Party 
Member Tong Shidong Released,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 14; ``Internet Writer Luo Changfu Released After 
Serving Three Years for Subversion,'' CECC China Human Rights and Rule 
of Law Update, April 2006, 18; ``Authorities Release Shanghai Lawyer 
Zheng Enchong, Restrict His Speech and Movement,'' CECC China Human 
Rights and Rule of Law Update, July 2006, 2-3; Dui Hua (Online), ``Last 
Known Female Political Prisoner in TAR Released Early,'' 28 June 06; 
Cardinal Kung Foundation (Online), ``An Underground Catholic Bishop 
Released After More Than 10 Years in Prison,'' 25 August 06.
    \66\ A Global Review of Human Rights, Written Statement Submitted 
by Michael Kozak, 40, 54.
    \67\ Nowak Report, para. 60; Bureau of Democracy, Human Rights, and 
Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (includes Tibet, Hong Kong, and Macau), 8 March 
06, sec. 1.e.
    \68\ UN Commissioner for Human Rights, Fact Sheet #26, the Working 
Group on Arbitrary Detention. Examples of the first category include 
individuals who are kept in detention after the completion of their 
prison sentences or despite an amnesty law applicable to them, or in 
violation of domestic law or relevant international instruments. The 
rights and freedoms protected under the second category include those 
in Articles 7, 10, 13, 14, 18, 19, and 21 of the UDHR, and in Articles 
12, 18, 19, 21, 22, 25, 26, and 27 of the ICCPR. Ibid.
    \69\ The U.S. State Department characterized house arrest as 
``complete isolation in one's own home or another location under lock 
and guard'' and noted that ``[n]o publicly available laws or 
regulations governed conditions for house arrest.'' U.S. Department of 
State, Country Reports on Human Rights Practices--2005, China, sec. 
1.d.
    \70\ ``Population Planning Official Confirms Abuses in Linyi City, 
Shandong Province,'' CECC China Human Rights and Rule of Law Update, 
October 2005, 2; Philip P. Pan, ``Rural Activist Seized in Beijing,'' 
Washington Post (Online), 7 September 05.
    \71\ PRC Criminal Procedure Law [hereinafter CPL], enacted 1 
January 79, amended 17 March 96, art. 58; Chinese Human Rights 
Defenders (Online), ``Activist Chen Guangcheng's House Arrest Exceeds 
Legal Limits, with Domestic Remedies Ineffective, CRD Submits Case to 
UN,'' 9 March 06.
    \72\ Chinese Human Rights Defenders, ``Activist Chen Guangcheng's 
House Arrest Exceeds Legal Limits.''
    \73\ Linyi authorities formally arrested Chen on June 21, tried him 
on August 18, and sentenced him to four years and three months' 
imprisonment on August 24. ``Authorities Sentence Chen Guangcheng After 
Taking His Defense Team Into Custody,'' CECC China Human Rights and 
Rule of Law Update, September 2006, 4-5; ``Authorities Formally Arrest 
Legal Advocate Chen Guangcheng,'' CECC China Human Rights and Rule of 
Law Update, July 2006, 2; Maureen Fan, ``Chinese Rights Activist Stands 
Trial After Police Detain Defense Team,'' Washington Post (Online), 19 
August 06.
    \74\ ``Authorities Postpone Trial, Target Relatives and Neighbors 
of Chen Guangcheng,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 1-2; ``Authorities Obstruct Publicity and Legal Defense 
Efforts in Chen Guangcheng Case,'' CECC China Human Rights and Rule of 
Law Update, August 2006, 4-5; Steven Ertelt, ``China Police Take Chen 
Guangcheng's Wife, Allow Thugs to Beat Supporter,'' LifeNews (Online), 
11 July 06; ``China Formally Arrests Blind Shandong Activist,'' Radio 
Free Asia (Online), 21 June 06; Yi Ming, ``Central Government Should 
Guarantee That the Human Rights of Chen Guangcheng and His Lawyers are 
Safeguarded'' [Zhongyang zhengfu ying quebao Chen Guangcheng ji qi 
lushi de renquan dedao baozhang], Empowerment and Rights Institute, 
reprinted in Chinese Human Rights Defenders (Online), 24 June 06; 
Chinese Human Rights Defenders (Online), ``AIDS Activist Released, 
Blind Activist under Illegal Detention, and More,'' 30 March 06; 
Josephine Ma, ``Family of Blind Activist Detained Ahead of Press 
Conference in Beijing,'' South China Morning Post, 20 June 06 (Open 
Source Center, 20 June 06); Gillian Wong, ``Stay Home, Friends of 
Activist Told,'' Associated Press (Online), 20 June 06.
    \75\ CPL, art. 64 (establishing an exception to this requirement 
``in circumstances where such notification would hinder the 
investigation or there is no way of notifying them''). The maximum 
period of detention prior to approval of a formal arrest is 37 days 
after taking into account extensions permitted by law. Ibid., art. 69.
    \76\ Chris Buckley and Benjamin Kang Lim, ``Released Chinese 
Dissident Plans to Sue,'' Reuters (Online), 29 March 06.
    \77\ Alexa Olesen, ``U.N. Appeals to China Over AIDS Activist,'' 
Associated Press (Online), 28 February 06.
    \78\ Nowak Report, note 34.
    \79\ Ibid.
    \80\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year,'' Procuratorial Daily.
    \81\ In June 2005, Beijing police claimed that they found new 
evidence of fraud against Zhao, so that they could hold him beyond the 
seven-month time limit on investigative detention. ``Supreme People's 
Procuratorate Recognizes Continuing Problem of Extended Detention,'' 
CECC China Human Rights and Rule of Law Update, July 2006, 11-12; 
``Beijing Court Schedules Trial of New York Times Researcher Zhao Yan 
for June 8,'' CECC China Human Rights and Rule of Law Update, June 
2006, 2-3. In practice, with no limit on the number of ``new crimes'' 
that police can assert under Article 128 of the CPL, suspects can be 
held in pretrial detention for years. Under a variety of legal 
exceptions and detention extension provisions such as Articles 69, 124, 
126, 127, and 140 of the CPL, a suspect's pretrial detention can be 
extended for more than seven months even without evidence of new 
crimes.
    \82\ ``Beijing Court Schedules Trial of New York Times Researcher 
Zhao Yan for June 8,'' CECC China Human Rights and Rule of Law Update, 
June 2006, 2-3; Jim Yardley, ``China Moves to Put Jailed Times 
Researcher on Trial,'' New York Times (Online), 23 December 05. A 
Beijing court acquitted Zhao of disclosing state secrets on August 25, 
2006, but sentenced him to three years' imprisonment for fraud. 
``Beijing Court Sentences Journalist Zhao Yan to 3 Years' 
Imprisonment,'' CECC Human Rights and Rule of Law Update, September 
2006, 1-2.
    \83\ ``Beijing Court Schedules Trial of New York Times Researcher 
Zhao Yan for June 8,'' CECC China Human Rights and Rule of Law Update, 
June 2006, 2-3; Jim Yardley, ``Lawyers for Jailed Aide for the Times 
Press China for His Release,'' New York Times (Online), 22 March 06.
    \84\ ``Beijing Court Schedules Trial of New York Times Researcher 
Zhao Yan for June 8,'' CECC China Human Rights and Rule of Law Update, 
June 2006, 2-3; ``A Dark Signal From China,'' New York Times (Online), 
21 May 06.
    \85\ Shen Hua, ``Beijing Procuratorate Resumes Prosecution Against 
Zhao Yan'' [Beijing jianchayuan dui Zhao Yan huifu qisu], Radio Free 
Asia (Online), 15 May 06.
    \86\ UN Commission on Human Rights, Opinions Adopted by the Working 
Group on Arbitrary Detention, Opinion No. 33/2005, 19 October 05, 88-
90; ``Supreme People's Procuratorate Recognizes Continuing Problem of 
Extended Detention,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 11-12.
    \87\ ICCPR, arts. 9(3) and 9(4).
    \88\ UNWGAD Report, para. 32.
    \89\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year,'' Procuratorial Daily; ``Supreme 
People's Procuratorate Recognizes Continuing Problem of Extended 
Detention,'' CECC China Human Rights and Rule of Law Update, July 2006, 
11-12.
    \90\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year,'' Procuratorial Daily; ``Supreme 
People's Procuratorate Recognizes Continuing Problem of Extended 
Detention,'' CECC China Human Rights and Rule of Law Update, July 2006, 
11-12. In 2003, the SPP passed regulations that prohibit the abuse of 
legal procedures to disguise the extended detention of a criminal 
suspect. Several Provisions from the Supreme People's Procuratorate 
Regarding the Prevention and Correction of Extended Detention in 
Procuratorial Work [Zuigao renmin jianchayuan guanyu zai jiancha 
gongzuo zhong fangzhi he jiuzheng chaoqi jiya de ruogan gui-ding], 
issued 24 September 03, para. 1.
    \91\ UDHR, arts. 10, 11(1), ICCPR, arts. 9(4), 14.
    \92\ Ministry of Public Security, ``Ministry of Public Security 
Convenes a News Conference to Announce 2005 Nationwide Status of Public 
Security and Fires;'' Ministry of Public Security (Online), ``Ministry 
of Public Security Announces 2004 Status of Nation's Public Security 
Agencies' Strike Against Crime and Safeguarding of Public Order'' 
[Gonganbu tongbao 2004 nian quanguo gongan jiguan daji xingshi fanzui 
weihu zhehui zhi'an qingkuang], 7 February 05.
    \93\ See, e.g., the broad-ranging and vaguely worded lists of 
offenses in the Trial Measures on Reeducation Through Labor [Laodong 
jiaoyang shixing banfa], issued 21 January 82, art. 10; Provisions on 
Public Security Agencies' Handling of Reeducation Through Labor Cases 
[Gongan jiguan banli laodong jiaoyang anjian guiding], issued 12 April 
02, art. 9; PRC Public Security Administration Punishment Law, enacted 
28 August 05, chs. 2-3.
    \94\ Wu Yihuo and Hong Jun, ``Too Few Administrative Law 
Enforcement Cases Transferred to Judicial Organs--Relevant Anhui 
Research Reveals Information: Three Major Factors Influence Effective 
Links Between Administrative Law Enforcement and Criminal Law 
Enforcement'' [Xingzheng zhifa anjian yisong sifa jiguan taishao, Anhui 
youguan yanjiuban touchu xinxi: san da yinsu yingxiang xingzheng zhifa 
yu xingshi zhifa youxiao xianjie], Procuratorial Daily (Online), 31 
January 05.
    \95\ Various analysts estimate that between 2 percent and 10 
percent of those sentenced to reeducation through labor are political 
detainees. Veron Mei-Ying Hung, ``Reassessing Reeducation Through 
Labor,'' 2 China Rights Forum 35 (2003); Randall Peerenboom, ``Out of 
the Frying Pan and Into the Fire,'' 98 Northwestern University Law 
Review 991, 1000-01 and accompanying notes (2004); Jim Yardley, ``Issue 
in China: Many in Jails Without Trial,'' New York Times (Online), 9 May 
05.
    \96\ Trial Measures on Reeducation Through Labor, art. 10; 
Provisions on Public Security Agencies' Handling of Reeducation Through 
Labor Cases, art. 9; PRC Public Security Administration Punishment Law, 
chs. 2-3.
    \97\ PRC Criminal Law, ch. 3, sec. 1-3.
    \98\ Nowak Report, para. 64. Article 10.3 of the ICCPR provides 
that, ``The penitentiary system shall comprise treatment of prisoners 
the essential aim of which shall be their reformation and social 
rehabilitation.'' In response to characterization of forced reeducation 
as a form of inhuman or degrading treatment, Chinese authorities have 
maintained that RTL helps transition detainees back into society.
    \99\ UNWGAD Report, paras. 40, 41. As of March 1, 2006, the Public 
Security Administration Punishment Law has replaced the Regulations on 
Public Security Administration Punishment mentioned in the UNWGAD 
Report.
    \100\U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China, sec. 1.d.
    \101\ Ibid.
    \102\ Nowak Report, para. 63; State Council Decision on the 
Question of Reeducation Through Labor [Guowuyuan guanyu laodong 
jiaoyang wenti de jueding], issued 3 Aug 57, para. 2; ``Last year's 
rate of resettling those released from prison or reeducation through 
labor near 90 percent'' [Xingshi jiejiao renyuan qunian anzhilu jin 
jiucheng], China Legal Publicity (Online), 3 March 06; Yardley, ``Issue 
in China: Many in Jails Without Trial.''
    \103\ Nowak Report, para. 62.
    \104\ ``Security Laws Tackle Most Sensitive Issues,'' China Daily 
(Online), 2 March 06.
    \105\ PRC Public Security Administration Punishment Law, art. 27.
    \106\ Ibid., art. 55.
    \107\ Ministry of Public Security, ``Ministry of Public Security 
Convenes Press Conference to Announce the Status of Preparations for 
Implementing the `Public Security Administration Punishment Law.' ''
    \108\ PRC Public Security Administration Punishment Law, art. 116.
    \109\ Under Chinese law, punishments that involve a restriction on 
personal liberty may only be established by national law. PRC 
Legislation Law, enacted 15 March 00, art. 8(v); PRC Administrative 
Punishment Law, enacted 17 March 96, arts. 9, 10.
    \110\ CPL, art. 12.
    \111\ PRC Constitution, art. 37.
    \112\ Freedom House (Online), 2005 China Country Report. In its 
December 2004 report, the UNWGAD found, ``The operation of the laws 
governing decision-making on placement in a [reeducation] through 
[labor] camp is, however, highly problematic. From reliable sources, 
including interviews with persons affected, it is clear that in the 
overwhelming majority of cases, a decision on placement in a 
[reeducation] center is not taken within a formal procedure provided by 
law. The commission vested with power to take this decision in practice 
never or seldom meets, the person affected does not appear before it 
and is not heard, no public and adversarial procedure is conducted, no 
formal and reasoned decision on placement is taken (or issued for the 
person affected). Thus, the decision-making process completely lacks 
transparency. In addition, recourse against decisions are [sic] often 
considered after the term in a center has been served.'' UNWGAD Report, 
para. 58.
    \113\ UNWGAD Report, paras. 16, 45; ICCPR, arts. 9, 14.
    \114\ In 2003, 127 NPC delegates raised the issue of reforming RTL. 
At the 2004 NPC plenary session, this number increased to 420, or 
approximately one-tenth of the entire NPC body. NPC delegates at the 
2005 plenary session submitted six motions to expedite RTL reform, and 
in January 2006, the NPC Standing Committee added the draft law for 
reforming RTL to its legislative plan for 2006. Gao Yifei, ``Why NPC 
Delegates Propose Reforming the Reeducation Through Labor System'' 
[Renmin daibiao weihe tiyi gaige laojiao zhidu], Boxun (Online), 29 
April 06.
    \115\ Liao Weihua, ``Reeducation Through Labor System Faces Change; 
Law on Correction of Unlawful Acts To Be Formulated'' [Laojiaozhi 
mianlin biangai jiang zhiding weifa xingwei jiaozhifa], Beijing News, 
reprinted in Xinhua (Online), 2 March 05.
    \116\ Ibid.
    \117\ ``Reeducation Through Labor `Changes Names' '' [Laojiao 
``gengming''], China Business View (Online), 4 March 05.
    \118\ Nowak Report, para. 33; U.S. Department of State, Country 
Reports on Human Rights Practices--2005, China, sec. 1.d.
    \119\ Gao, ``Why NPC Delegates Propose Reforming the Reeducation 
Through Labor System.''
    \120\ UNWGAD Report, paras. 56, 73. Individuals can appeal under 
the APL for a reduction in, or suspension of, a RTL sentence, but these 
appeals are rarely successful. U.S. Department of State, Country 
Reports on Human Rights Practices--2005, China, sec. 1.d; Hung, 
``Reassessing Reeducation Through Labor,'' 37-38.
    \121\ UNWGAD Report, para. 64.
    \122\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China, sec. 1.d.
    \123\ Human Rights in China (Online), ``Petitioner Liu Xinjuan Sent 
to Psychiatric Hospital, Petitioner Xu Zhengqing Loses Appeal on 3-Year 
Sentence,'' 20 January 06; Shanghai Places Petitioners Under House 
Arrest and Detention, Even Sends Them to Psychiatric Hospitals'' 
[Shanghai jiang shangfangzhe ruanjin juliu shenzhi songjin jingshen 
bing yuan], Radio Free Asia (Online), 28 February 06; Human Rights in 
China (Online), ``Petitioner Liu Xinjuan Forcibly Admitted to Mental 
Hospital for the Fifth Time,'' 22 June 06.
    \124\ Robin Munro, A Question of Criminal Madness: Judicial 
Psychiatry and Political Dissent in the People's Republic of China, 13, 
322-43, September 2004 (doctoral thesis on file with the Commission); 
Human Rights Watch, ``China: Political Prisoner Exposes Brutality in 
Police-Run Mental Hospital.''
    \125\ Robin Munro, A Question of Criminal Madness; Georg Blume, 
``Electroshocks Against the Freedom Virus'' [Elektroschocks gegen das 
Virus Freiheit], Die Zeit (Online), 3 November 05.
    \126\ For a description of sometimes arbitrary and brutal treatment 
in these institutions, see Robin Munro, A Question of Criminal Madness.
    \127\ Ya Wei, ``Confined to Psychiatric Institute for Many Years, 
Chinese Dissident Wang Wanxing is Released'' [Duo nian bei guan 
jingshen bing yuan Zhongguo yijianzhe huoshi], Voice of America 
(Online), 2 November 05.
    \128\ Blume, ``Electroshocks Against the Freedom Virus.''
    \129\ Nowak Report, para. 45; Office of the UN High Commissioner 
for Human Rights (Online), ``Special Rapporteur on Torture Highlights 
Challenges at End of Visit to China,'' 2 December 05; ``UN Special 
Rapporteur on Torture Concludes Two-Week Visit to China,'' CECC China 
Human Rights and Rule of Law Update, January 2006, 12-13.
    \130\ Nowak Report, para. 42.
    \131\ Ibid., paras. 43-44.
    \132\ Ibid., para. 45.
    \133\ Shanghai businessman Du Ronglin, an active petitioner against 
forced eviction, died two days after his release from detention on 
March 17, 2006. According to a medical report from the hospital that 
notified Du's family of his death, the cause of death was internal 
bleeding in his brain and abdomen, resulting from external impact. Du 
previously wrote in a letter that he had been beaten in the head and 
stomach. ``Man Dies After Torture in Custody: Rights Group,'' South 
China Morning Post (Online), 12 April 06; Chinese Human Rights 
Defenders (Online), ``Internet Writer Trial Set to Open, Disappeared 
Hunger Striker Resurfaces,'' 9 April 06.
    \134\ PRC Criminal Law, arts. 247, 248. A ``judicial officer'' is 
defined as one who ``exercises the functions of investigation, 
prosecution, adjudication, and supervision and control.'' Ibid., art. 
94. The Special Rapporteur on Torture notes that the Supreme People's 
Procuratorate, which directly handles all investigations of torture, 
restricts application of both Articles 247 and 248 so that law 
enforcement officials are prohibited from acting or punishable for 
abuses in just a small number of enumerated cases. Nowak Report, para. 
16. New regulations effective July 2006 expand the number of punishable 
scenarios from five to eight (in cases of coercing a confession under 
torture) and from five to seven (in cases of acquiring evidence through 
the use of force and prisoner maltreatment). Supreme People's 
Procuratorate Provisions on the Criteria for Filing Dereliction of Duty 
and Rights Infringement Criminal Cases, sec. II, paras. 3-5.
    \135\ The Chinese government ratified the CAT in 1988. In addition, 
Article 5 of the UDHR states: ``No one shall be subjected to cruel, 
inhuman or degrading treatment or punishment.''
    \136\ Nowak Report, para. 17.
    \137\ Office of the UN High Commissioner for Human Rights (Online), 
Declaration and Reservations to the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment, 23 April 04. 
By contrast, the United States has declared that it recognizes the 
competence of the Committee against Torture.
    \138\ Nowak Report, paras. 53-57.
    \139\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2005, China (includes 
Tibet, Hong Kong, and Macau), 8 November 05, sec. 2; China Aid 
Association (Online), ``An Open Letter to President Bush from South 
China Church,'' 18 November 05; ``Videotaped Testimony of Three 
Tortured Sisters of the South China Church'' [San wei shou kuxing de 
Huanan jiaohui jiemei luxiang jianzheng], Boxun (Online), 8 April 06.
    \140\ U.S. Department of State, International Religious Freedom 
Report--2005, China, sec. 2; ``Videotaped Testimony of Three Tortured 
Sisters of the South China Church,'' Boxun. See also China Aid 
Association, ``An Open Letter to President Bush from South China 
Church.''
    \141\ Christian Solidarity Worldwide (Online), ``China: Current 
Developments and Cases of Concern,'' 9 November 05; ``An Open Letter to 
President Bush from South China Church.''
    \142\ ``Foreign Ministry Spokesman Qin Gang's Press Conference on 6 
December 2005,'' Ministry of Foreign Affairs (Online), 7 December 05.
    \143\ In March 2006, the All China Lawyers Association Defense 
Lawyer Web site included the wrongful convictions of Nie Shubin and She 
Xianglin among its list of 2005's top criminal cases. ``Of Interest: 
2005's Major Criminal Cases'' [Guanzhu: 2005 zhongda xingshi anjian], 
Defense Lawyer Net (Online), 28 March 06. For an analysis of the Nie 
and She cases, see CECC, 2005 Annual Report, sec. III(b).
    \144\ Liu Dehua, ``Statements That Have Been Coerced Cannot Serve 
as Evidence,'' [Bi chu lai de kougong bu neng zuowei zhengju], 
Procuratorial Daily (Online), 13 April 05; ``Sichuan High People's 
Court, Procuratorate, and Public Security Bureau Issue Joint Document 
Strictly Prohibiting Coerced Confessions Under Torture'' [Sichuan 
gaoyuan jiancha gonganting lianhe fawen yanjin xingxun bigong], Chengdu 
Economic Daily, reprinted in Defense Lawyer Net (Online), 21 April 05.
    \145\ Under current Chinese law and judicial interpretations, 
judges have the discretion to exclude illegally obtained evidence, and 
such evidence may not form the basis for a judgment. However, they are 
not required to exclude such evidence. Supreme People's Court 
Interpretation on Several Issues Regarding Implementation of the PRC 
Criminal Procedure Law [Zuigao renmin fayuan guanyu zhixing ``Zhonghua 
renmin gongheguo xingshi susong fa'' ruogan wenti de jieshi], issued 29 
June 98; Nowak Report, para. 37.
    In December 2005, Hebei province mandated punishment for officials 
who use illegal means to acquire evidence and prohibited the use of 
such evidence as a basis for arrests, prosecutions, or criminal 
verdicts in that province. ``Hebei Provincial Government Issues Opinion 
Prohibiting Torture to Obtain Evidence,'' CECC China Human Rights and 
Rule of Law Update, February 2006, 3. Liu Ruichuan, president of the 
Hebei provincial high court, acknowledged that the opinion comes in the 
wake of law enforcement abuses that led to wrongful conviction cases 
such as Nie Shubin's in Hebei. ``Concern and Progress: 2005 Inventory 
of `Hebei Progress on Rule of Law' '' [Guanghuai yu jinbu--2005 ``Hebei 
fazhi jincheng'' niandu jingdian pandian], Yanzhao Metropolis Daily 
(Online), 27 December 05. The Hebei opinion does not require the 
exclusion of illegally acquired evidence at trial.
    \146\ ``Suspects' Questioning to Be Taped,'' Xinhua; Xiao We, 
``Dividing Into Three Steps Implementation of Synchronized Audio and 
Video Taping During Interrogation'' [Fen san bu tuixing xunwen 
quancheng tongbu luyin luxiang], Procuratorial Daily (Online), 18 
January 06.
    \147\ ``Chinese Legislator Proposes Taping Police Interrogations to 
Prevent Torture,'' Xinhua (Online), 6 March 06.
    \148\ ``MPS Supports Taping Interrogations, But Has No Plans for 
Nationwide Implementation,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 7; Ministry of Public Security, ``Ministry of Public 
Security Announces First Quarter 2006 Nationwide Public Security 
Situation (Direct Feed Transcript).''
    \149\ ``Ministry of Justice Issues Prohibitions to Restrain Prison 
and RETL Police Abuses,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 4.
    \150\ ``Beijing Prison Police Will Implement Six Prohibitions Next 
Year'' [Beijing jianyu jingcha mingnian shishi liu tiao jinling], 
Xinhua (Online), 15 December 05.
    \151\ Mo Shaoping, Remarks on Legislative and Implementation 
Problems in China's Criminal Law, George Washington University Law 
School, 13 October 05; Qin Xudong, ``Who Will Protect the Lawyers? '' 
[Shei lai baohu lushi], 21st Century Business Herald (Online), 18 April 
06.
    \152\ CPL, arts. 33, 34; Regulations on Legal Aid [Falu yuanzhu 
tiaoli], issued 16 July 03, art. 12.
    \153\ CPL, art. 34; Regulations on Legal Aid, arts. 11-13. The SPC 
reported that it appointed pro bono legal defense to 117,407 criminal 
suspects meeting conditions for legal aid in 2005. SPC Work Report, 20 
March 06.
    \154\ ``Central Government Expands Provision of Legal Aid in 
Criminal Cases,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 5-6; Provisions on Legal Aid Work in Criminal Litigation 
[Guanyu xingshi susong falu yuanzhu gongzuo de guiding], issued 28 
September 05, art. 4.
    \155\ Ibid. Article 151(2) of the CPL previously required 
appointment of pro bono legal defense only at the indictment stage, 
after receipt of a bill of prosecution from the procuratorate.
    \156\ ``NPC Delegate Zhang Yan Proposes Elimination of Criminal Law 
Article 306'' [Zhang Yan daibiao jianyi feichu xingfa di san bai ling 
liu tiao], Legal Daily (Online), 9 March 06; Mo Shaoping, Remarks on 
Legislative and Implementation Problems in China's Criminal Law.
    \157\ CPL, art. 96.
    \158\ CECC Staff Interviews; UNWGAD Report, paras. 35-38; Xu Zhusi, 
``It Is Difficult to Be a Chinese Criminal Lawyer; Mo Shaoping Analyzes 
Reasons'' [Zhongguo xingshi lushi nan zuo Mo Shaoping pouxi yuanyin], 
Epoch Times (Online), 13 October 05.
    \159\ UNWGAD Report, para. 36. Article 96 of the CPL provides: ``If 
a case involves [s]tate secrets, the criminal suspect shall have to 
obtain the approval of the investigation organ for appointing a 
lawyer.''
    \160\ ``Court Sentences Xu Wanping to 12 Years Imprisonment for 
Inciting Subversion,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 17-18.
    \161\ ``Authorities in Jiangsu Arrest Writer Yang Tianshui on 
Suspicion of Subversion,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 19-20.
    \162\ Ibid. Yang's lawyer stated: ``Public security typically uses 
[the excuse of state secrets]. Actually, in many cases the issue 
doesn't exist, but under present conditions it is not even possible to 
verify whether a case involves state secrets.'' ``Special Interview: 
Defense Lawyer Li Jianqiang Discusses Case of Yang Tianshui'' 
[Zhuanfang: bianhu lushi Li Jianqiang tan Yang Tianshui an], Epoch 
Times (Online), 11 February 06. See also ``Defending Political Cases Is 
Too Difficult,'' Deutsche Welle (Online), 21 April 06.
    \163\ ``Scholars Complete Working Draft of Revised Criminal 
Procedure Law,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 17-18; ``Behind the Criminal Procedure Law's Two 
Revisions Over 10 Years: Witnesses Must Appear to Testify in Court'' 
[Xingshi susong fa shi nian liang ci xiugai beihou: zhengren bixu 
chuting zuo zheng], CRI (Online), 11 October 05.
    \164\ Under Article 36 of the CPL, the defense may not examine and 
duplicate official materials related to the case until after the case 
is transferred to the procuratorate for prosecution.
    \165\ CECC Staff Interview; Xu Zhusi, ``It Is Difficult to Be a 
Chinese Criminal Lawyer.'' See also, e.g., UNWGAD Report, para. 35.
    \166\ CPL, art. 37.
    \167\ ``Authorities Obstruct Publicity and Legal Defense Efforts in 
Chen Guangcheng Case,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 4-5.
    \168\ Josephine Ma, ``Activist's Lawyer Attacked in Village,'' 
South China Morning Post (Online), 28 June 06; Ding Xiao, ``Lawyers 
Take Risks to Videotape in Linyi, Expose Official and Police 
Persecution of Chen Guangcheng'' [Lushi Linyi maoxian luxiang jie guan 
jing pohai Chen Guangcheng], Radio Free Asia (Online), 28 June 06.
    \169\ CPL, art. 37.
    \170\ Xu Zhusi, ``It Is Difficult to Be a Chinese Criminal 
Lawyer;'' Liang Shubin and Cao Jiyang, ``What Does a Witness' 
Unwillingness to Testify Demonstrate? '' [``Zhengren bu yuan zuo 
zheng'' shuoming le shenme?], Legal Daily (Online), 6 April 06. At 
least one Supreme People's Court judge has suggested legislative reform 
that will provide economic compensation and witness protection to 
witnesses appearing in court. Wu Jing, ``In Some Basic People's Courts, 
Less Than 1 Percent of Witnesses Appear in Court'' [Yi xie jiceng 
fayuan zhengren chuting lu bu zu 1 percent], People's Daily (Online), 1 
June 06.
    \171\ Under the CPL, ``the testimony of a witness may be used as 
the basis in deciding a case only after the witness has been questioned 
and cross-examined in the courtroom by both sides.'' CPL, art. 47.
    \172\ ``Scholars Complete Working Draft of Revised Criminal 
Procedure Law,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 17-18; ``Behind the Criminal Procedure Law's Two 
Revisions Over 10 Years,'' CRI.
    \173\ CECC Staff Interviews.
    \174\ ``Henan Justice Bureau Bans Lawyers From Using Media in 
Sensitive Cases,'' CECC China Human Rights and Rule of Law Update, June 
2006, 5-6; ``ACLA, Justice Bureau Opinions Restrict Lawyer Involvement 
in Sensitive, Mass Cases,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 4-5.
    \175\ Huo Shiming, ``Shenyang Lawyers Must Seek Advisory Opinions 
When Taking on Sensitive Cases,'' [Shenyang lushi chengban mingan 
anjian xu qingshi], Legal Daily (Online), 20 April 06.
    \176\ UNWGAD Report, para. 38. Over 300 lawyers are currently 
estimated to be in custody under Article 306. ``Defending Political 
Cases Is Too Difficult,'' Deutsche Welle.
    \177\ According to one prominent Beijing lawyer, over 80 percent of 
the 500 lawyers taken into custody between 1997 and 2002 have been 
cleared of wrongdoing. Mo Shaoping, Remarks on Legislative and 
Implementation Problems in China's Criminal Law.
    \178\ ``NPC Delegate Zhang Yan Proposes Elimination of Criminal Law 
Article 306,'' Legal Daily.
    \179\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4. See also supra, ``Political Crimes,'' and accompanying notes; 
``Lawyer Fighting for Oil Investors Gets 1-Year Bail,'' South China 
Morning Post (Online), 23 September 05; ``Lawyers Pushed Out of 
Oilfield Struggle in Shaanxi,'' South China Morning Post (Online), 25 
September 05; Philip P. Pan, ``China Shutters Prominent Lawyer's 
Firm,'' Washington Post (Online), 6 November 05; Joseph Kahn, ``Rebel 
Lawyer Takes China's `Unwinnable' Cases,'' New York Times (Online), 12 
December 05; ``China Fires Lawyers Linked With Taishi Village 
Standoff,'' Radio Free Asia (Online), 14 December 05.
    \180\ See supra, ``Arbitrary Detention in the Formal Criminal 
Process,'' and accompanying notes.
    \181\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4; ``Three Rights Defenders Not Allowed to Participate in U.S. 
Forum'' [San wei weiquan renshi bei ju fu Mei canjia luntan], Radio 
Free Asia (Online), 2 May 06 (discussing Fan Yafeng, Gao Zhisheng, and 
Zhang Xingshui).
    \182\ ``Beijing Officials Order Gao Zhisheng to Shut Down His Law 
Firm,'' CECC China Human Rights and Rule of Law Update, December, 2005, 
11-12; ``Human Rights Defenders Launch Hunger Strike to Protest 
Government Oppression,'' CECC China Human Rights and Rule of Law 
Update, March, 2006, 3-4; ``Hong Kong Newspaper Highlights Government 
Repression of Lawyers,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 3-4; ``Three Rights Defenders Not Allowed to 
Participate in U.S. Forum,'' Radio Free Asia; Pan, ``China Shutters 
Prominent Lawyer's Firm;'' Kahn, ``Rebel Lawyer Takes China's 
`Unwinnable' Cases.''
    \183\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4. See also supra, ``Political Crimes,'' and accompanying notes.
    \184\ ``Chinese Defense Lawyer Guo Guoting Arrives in Canada,'' 
CECC China Human Rights and Rule of Law Update, June 2005, 4-5; ``Hong 
Kong Newspaper Highlights Government Repression of Lawyers,'' CECC 
China Human Rights and Rule of Law Update, June 2006, 3-4; Bill 
Savadove, ``Justice Remains Shanghaied in City's Law Courts,'' South 
China Morning Post (Online), 7 February 06 (reporting Guo's flight to 
Canada); ``Radio France Internationale: Guo Guoting, a Renowned Chinese 
Lawyer, Published his Resignation from the Chinese Communist Party,'' 
Clear Harmony (Online), 16 June 05 (reporting Guo's house arrest and 
arrival in Canada); ``Lawyer for Several Journalists and 
Cyberdissidents Banned from Practicing for One Year,'' Reporters 
Without Borders (Online), 4 March 05 (reporting suspension of Guo's law 
license).
    \185\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4; Gao Zhisheng, ``Following Last Week's Raid, Police of Beijing 
Again Illegally Raided Church of Ark Today,'' China Aid Association 
(Online), 15 January 06 (detailing raid of house church and physical 
attack on Li Baiguang).
    \186\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4; Jiang Tianyong, ``When Lawyer Li Heping and I Met With Gao 
Zhisheng, We Were Illegally Obstructed by Plainclothes Officers'' 
[Jiang Tianyong: wo yu Li Heping lushi huijian Gao Zhisheng bei bianyi 
jingcha feifa zunao], Boxun (Online), 10 March 06.
    \187\ ``Human Rights Defenders Launch Hunger Strike to Protest 
Government Oppression,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 3-4; ``Hong Kong Newspaper Highlights Government 
Repression of Lawyers,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 3-4; Xu Zhiyong, ``Encountering the Linyi 
Government's Thuggish Criminal Syndicate'' [Xu Zhiyong: zaoyu Linyi 
zhengfu liumang heishehui], Boxun (Online), 7 October 05.
    \188\ ``Hong Kong Newspaper Highlights Government Repression of 
Lawyers,'' CECC China Human Rights and Rule of Law Update, June 2006, 
3-4; ``Three Rights Defenders Not Allowed to Participate in U.S. 
Forum,'' Radio Free Asia.
    \189\ ``Authorities Impose Special Procedures on Release of 
Shanghai Lawyer Zheng Enchong,'' CECC China Human Rights and Rule of 
Law Update, June 2006, 7-8; ``Authorities Release Shanghai Lawyer Zheng 
Enchong, Restrict His Speech and Movement,'' CECC China Human Rights 
and Rule of Law Update, July 2006, 2-3; ``Hong Kong Newspaper 
Highlights Government Repression of Lawyers,'' CECC China Human Rights 
and Rule of Law Update, June 2006, 3-4; Amnesty International (Online), 
``China: Jailed Lawyer Beaten After Asking for Piece of Paper,'' 20 
December 05.
    \190\ ``Prominent Chinese Lawyers Call on Lawyers Association to 
Investigate the Detention of Zhu Jiuhu,'' CECC China Human Rights and 
Rule of Law Update, September 2005, 7-8; ``Hong Kong Newspaper 
Highlights Government Repression of Lawyers,'' CECC China Human Rights 
and Rule of Law Update, June 2006, 3-4; ``Zhu Jiuhu Has Returned to 
Beijing, Suspected of Receiving Pressure, Journalists Await His Landing 
in Vain'' [Zhu Jiuhu yi hui Beijing, yi shoudao yali, jiejizhe pukong], 
Radio Free Asia (Online), 20 September 05; ``Open Appeal Concerning the 
Case of Lawyer Zhu Jiuhu [Guanzhu Zhu Jiuhu lushi an de gongkai 
huyushu], Epoch Times (Online), 22 August 05; Mure Dickie, ``Shaanxi 
Arrests Highlight Doubts Over the Rule of Law in China,'' Financial 
Times (Online), 20 August 05; Chinese Human Rights Defenders (Online), 
``Urgent Appeal to the National People's Congress Standing Committee, 
Et Al. Regarding the Rights Defense Case of Private Investors in Yulin, 
Shaanxi'' [Jiu Shaanxi Yulin minying touzizhe weiquan an quanguo renda 
changweihui (deng) jinji huyushu], 14 July 05.
    \191\ ``China's Rights Defense Lawyers, Rule of Law Pioneers,'' 
Asia Weekly (Online), 25 December 05; ``Hong Kong Newspaper Highlights 
Government Repression of Lawyers,'' CECC China Human Rights and Rule of 
Law Update, June 2006, 3-4.
    \192\ See supra, ``Political Crimes,'' and accompanying text.
    \193\ Criminal courts of first instance found 844,717 suspects 
guilty of crimes in 2005 and found only 2,162 defendants not guilty. 
SPC Work Report, 20 March 06. Findings of guilt rose about 10 percent 
from the 767,951 figure in 2004, while findings of not guilty dropped 
about 28 percent from the 2,996 figure. Supreme People's Court Work 
Report [Zuigao renmin fayuan gongzuo baogao], 8 March 05.
    \194\ ``Tracking Miscarriage of Justice in the She Xianglin Wife 
Murder Case: Court Vice President Provides New Explanations for the 
Reasons Behind Miscarriage of Justice'' [She Xianglin sha qi yuanan 
zhuizong: fayuan fu yuanzhang xin jie yuanan chengyin], Shanghai Daily 
(Online), 9 April 05.
    \195\ ``Public Security Bureau Compensates She Xianglin for 
Wrongful Imprisonment,'' CECC China Human Rights and Rule of Law 
Update, December 2005, 16.
    \196\ ``Nie Shubin Miscarriage of Justice Murder Case Unresolved; 
Public Calls for External Investigation to Guard Against `Compromising 
[the Case]' '' [``Nie Shubin yuan sha an'' xuan erweijue fang ``gou 
dui'' gongzhong yu yidi diaocha], Southern Weekend (Online), 29 March 
05; ``Why Not Compensate Eight Years of Wrongful Imprisonment? '' [Ba 
nian yuan yu weihe bu peichang], Legal Daily (Online), 18 April 05; 
Joseph Kahn, ``Deep Flaws, and Little Justice, in China's Court 
System,'' New York Times (Online), 20 September 05; ``14-Year 
Miscarriage of Justice: Wife Murderer and `Liaoning's She Xianglin' Li 
Huwei Receives State Compensation'' [14 nian sha qi yuanan ``Liaoning 
She Xianglin'' Li Huwei huo guojia peichang], People's Daily (Online), 
15 April 05; Mure Dickie, ``Miscarriage of Justice Puts Chinese Police 
in Dock,'' Financial Times (Online), 10 June 05.
    \197\ See, e.g., Zhang Guanghua, ``She Xianglin's Lawyer Says That 
Lessons Should Be Drawn From Unjust Case'' [She Xianglin lushi cheng 
ying cong yuanan xiqu jiaoxun], Voice of America (Online), 16 February 
06.
    \198\ Responses provided during interrogation may later be used as 
evidence at trial, but a court cannot convict and sentence a defendant 
``if there is only his statement but no evidence.'' CPL, arts. 46, 93.
    \199\ ``Chongqing Court Exonerates Man Who Retracted Coerced 
Confession,'' CECC China Human Rights and Rule of Law Update, April 
2006, 13; Qin Liwen, ``After Two Years, Cao Hongbing Verdict Ultimately 
Overturned and Not Guilty'' [Lishi liang nian Cao Hongbing zhong bei 
gai pan wuzui], Legal Daily (Online), 2 March 06.
    \200\ ``Coercion of Confessions by Torture Not Convenient to Use? 
Beijing Handling of Cases Will Weaken Oral Statements, Strengthen 
Evidence'' [Xingxun bigong bu hao shi le? Beijing ban an jiang ruo 
kougong qiang zhengju], Beijing Youth Daily, reprinted in Xinhua 
(Online), 14 February 06.
    \201\ ``Defending Political Cases Is Too Difficult,'' Deutsche 
Welle.
    \202\ Ibid.; CECC Staff Interviews; Veron Mei-Ying Hung, ``Judicial 
Reform in China: Lessons from Shanghai,'' 58 Carnegie Papers 10-11 
(April 2005).
    \203\ CPL, arts. 181, 185-86.
    \204\ Under Chinese law, procuratorates may be required to pay 
criminal compensation for wrongful arrest and prosecution if defendants 
are found not guilty. PRC State Compensation Law, enacted 12 May 94, 
art. 15. Procuratorates appealed 10,107 acquittals in 2005. Of these, 
2,677 resulted in a change in the original judgment. SPC Work Report, 
20 March 06.
    \205\ In late 2005, Pastor Cai decided not to appeal his conviction 
after Beijing court officials reportedly threatened him with an 
increased prison term if he exercised that right. China Aid Association 
(Online), ``Jailed Church Leader Forced to Withdraw Further Appeal; One 
Defendant Decides to Continue Appeal,'' 16 November 05.
    \206\ CPL, art. 180.
    \207\ Ibid., art. 189.
    \208\ ``Don't Allow the Wings of Justice to Break: Using Unjust 
Cases to Look at Confessions Extorted Through Torture'' [Bie rang 
zhengyi zheduan le chibang: cong mianan kan xingxun bigong], Legal 
Daily (Online), 22 April 05; Liu Binglu, ``Misuse of Retrials Is a 
Major Reason for Unjust Cases'' [Lanyong fahui chongshen shi zhi yuanan 
zhuyin], Beijing News (Online), 4 April 05; Hung, ``Judicial Reform in 
China,'' 17.
    \209\ Leng Jilin, ``There Should Be Provisions on How Many Times a 
Second Instance Court Can Return for Remand'' [Ying guiding er shen 
fahui chongshen de cishu], Legal Daily, reprinted in Defense Lawyer Net 
(Online), 15 May 06; ``Don't Allow the Wings of Justice to Break,'' 
Legal Daily; Liu Binglu, ``Misuse of Retrials Is a Major Reason for 
Unjust Cases.''
    \210\ Chinese sources note that the number of crimes punishable by 
death increased from 28 under the 1979 Criminal Law to 68 
(approximately one-quarter of the total number of crimes) under the 
1997 Criminal Law. Xiong Qiuhong, ``Discussing the Defense of Death 
Penalty Cases'' [Lun sixing anjian zhong de bianhu], Justice of China 
(Online), 20 July 04; Lin Tao, ``Study on the Issues in Hearing and 
Reviewing Death Penalty Cases'' [``Sixing'' anjian de shenli yiji fuhe 
zhong de wenti yanjiu], China Legal Publicity (Online), 10 January 06. 
At least one scholar has characterized 44 (approximately 65 percent) of 
the crimes punishable by death as non-violent crimes. Jiang Anjie, 
``Compilation of Viewpoints from the First Period Forum `Concerning 
Death Penalty Reform' '' [``Guanzhu sixing gaige'' shouqi luntan 
guandian huicui], China Legal Publicity (Online), 29 December 05 
(quoting Professor Gao Mingxuan, Renmin University). See also Amnesty 
International (Online), ``Death Penalty Developments in 2005,'' 20 
April 06; ``China to Open More Death Penalty Cases to Public,'' 
Reuters, reprinted in China Daily (Online), 27 February 26.
    \211\ ``PRC Foreign Ministry Spokesman Defends Keeping PRC 
Execution Statistics Secret,'' Agence France-Presse, 5 February 04 
(Open Source Center, 5 February 04).
    \212\ Liu Renwen, a scholar at the Law Institute of the Chinese 
Academy of Social Sciences, estimates that China carried out about 
8,000 executions in 2005. Geoffrey York, ``China's Secret Execution 
Rate Revealed,'' The Globe and Mail (Online), 28 February 06; Antoaneta 
Bezlova, ``China to `Kill Fewer, Kill Carefully,' '' Asia Times 
(Online), 31 March 06. In March 2004, an NPC delegate suggested that 
Chinese courts issue death sentences for immediate execution in 
``nearly 10,000 cases per year.'' ``41 Representatives Jointly Sign 
Proposal for the Supreme People's Court to Take Back the Power of Death 
Penalty Approval'' [41 daibiao lianming jianyi, zuigao renmin fayuan 
shouhui sixing hezhun quan], China Youth Daily, reprinted in People's 
Daily (Online), 10 March 04.
    \213\ ``China's Supreme Court to Reclaim Death Penalty Review Right 
from Lower Tribunals,'' Xinhua, reprinted in People's Daily (Online), 
26 October 05. See also supra, ``Fairness of Criminal Trials and 
Appeals,'' and accompanying notes.
    \214\ ``Supreme People's Court Maps Future Judicial Reforms in 
Five-Year Reform Program,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 7-9; ``SPC Incorporates Reform of Death Penalty 
Review into New Five Year Program,'' CECC China Human Rights and Rule 
of Law Update, December 2005, 2-3; Second Five-Year Reform Program for 
the People's Courts (2004-2008) [Renmin fayuan di er ge wu nian gaige 
gangyao (2004-2008)], issued 26 October 05, para. I.2; ``China's 
Supreme Court to Reclaim Death Penalty Review Right from Lower 
Tribunals,'' Xinhua. Although Articles 48 of the Criminal Law and 199 
of the Criminal Procedure Law unequivocally require that all death 
sentences must be approved by the SPC, authority for approving certain 
death sentences shifted to provincial-level high courts beginning in 
1980. For more information, see ``The Execution of Lobsang Dondrub and 
the Case Against Tenzin Deleg: The Law, the Courts, and the Debate on 
Legality,'' Congressional-Executive Commission on China, 10 February 
03.
    \215\ ``Death Penalty Review Power Will Be Consolidated and 
Returned for Exercise by the Supreme People's Court'' [Sixing fuhe quan 
jiang tongyi shougui zuigao fayuan xingshi], Xinhua (Online), 26 
October 05; ``China's Supreme Court to Reclaim Death Penalty Review 
Right From Lower Tribunals,'' Xinhua. A review of death penalty cases 
in Beijing, Tianjin, and Hebei revealed a high rate of error among 
lower courts. High courts found that in 90 percent of death penalty 
cases that they remanded and overturned, the trial court's conclusions 
on significant facts and evidence raised reviewable questions. 
Conclusions on significant facts and evidence posed a problem in 50 
percent of the cases that the SPC remanded or overturned. Liao Weihua, 
``Hearings to be Conducted for All Second Instance Death Penalty Next 
Year'' [Sixing an ershen mingnian xiabannian quan xu kaiting shen], 
Beijing News (Online), 8 December 05.
    \216\ ``Supreme People's Court Calls for Hearings in Death Penalty 
Appeals,'' CECC China Human Rights and Rule of Law Update, December 
2005, 2-3; Supreme People's Court Circular Regarding Further Improving 
Open Court Session Work in Second Instance Death Penalty Cases [Zuigao 
renmin fayuan guanyu jin yi bu zuo hao sixing ershen anjian kaiting 
shenli gongzuo de tongzhi], issued 7 December 05, para. 2; Second Five-
Year Reform Program for the People's Courts (2004-2008), para. I.1.
    \217\ Supreme People's Court Circular Regarding Further Improving 
Open Court Session Work in Second Instance Death Penalty Cases, paras. 
3-5.
    \218\ ``Provincial High Courts Implement SPC Circular on Death 
Penalty Hearings,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 6; Wu Chunping, ``Hainan High Court Conducts Hearings in 
All Second Instance Death Penalty Cases'' [Hainan gaoyuan ershen sixing 
anjian quanbu kaiting shenli], China Court Net (Online), 26 January 06; 
Zong Bian, ``Since 1979, Beijing High Court Has Conducted Hearings in 
All Second Instance Death Penalty Cases'' [Beijing gao yuan zi 1979 
nian yilai sixing di ershen anjian quanbu kaiting shenli], China Court 
Net (Online), 20 January 06.
    \219\ ``Discussion Forum Convenes on `Supreme People's Court 
Measures for Reclaiming the Power Over Death Penalty Review' '' 
[``Zuigao renmin fayuan shouhui sixing fuhequan zhi duice'' yantaohui 
zhaokai], 21st Century Business Herald (Online), 1 June 05.
    \220\ ``SPC Takes Additional Steps to Reclaim Authority Over Death 
Penalty Review,'' CECC China Human Rights and Rule of Law Update, 
November 2005, 2; Xie Xiaodong, ``Supreme People's Court Expands the 
Ranks to Prepare for War in Death Penalty Reviews'' [Zuigaofa kuo bian 
beizhan sixing fuhe], Beijing News (Online), 3 November 05; Guo 
Hengzhong, ``Two Expert-Level Grand Justices Wield the Seal of Death 
Penalty Review Powers'' [Zhizhang sixing fuhequan shuaiyin de liang wei 
zhuanjia xing dafaguan], Legal Daily (Online), 28 September 05.
    \221\ He Chunzhong, ``Supreme People's Court Will Add 3 Criminal 
Tribunals to Deal With Reclaiming the Death Penalty Review Power'' 
[Zuigao renmin fayuan jiang zengshe 3 ge xingting yingdui sixing 
fuhequan shouhui], China Youth Daily (Online), 27 September 05.
    \222\ Wu Chunping, ``Hainan High Court Conducts Hearings in All 
Second Instance Death Penalty Cases;'' Zong Bian, ``Since 1979, Beijing 
High Court Has Conducted Hearings in All Second Instance Death Penalty 
Cases;'' ``Tianjin High Court Implements Hearings for Second Instance 
Death Penalty Review Cases'' [Tianjin gaoyuan luoshi sixing di ershen 
anjian kaiting gongzuo], China Court Net (Online), 23 January 06; Ni 
Xiao, ``Shanghai High Court Conducts Hearings in All Second Instance 
Death Penalty Cases'' [Shanghai gaoyuan sixing ershen an quan kaiting 
shenli], Legal Daily (Online), 23 January 06.
    \223\ Wang Doudou, ``Death Penalty Appeals Hearings Enter Their 
Fortification Stage'' [Sixing ershen anjian kaiting jinru gongjian 
jieduan], Legal Daily (Online), 29 May 06; ``China's Supreme Court to 
Review All Death Penalty Cases,'' Xinhua, reprinted in China Daily 
(Online), 3 April 06.
    \224\ ``Organ Transplants: A Zone of Accelerated Regulation'' 
[Qiguan yizhi: jiakuai guizhi de didai], Caijing Magazine (Online), 28 
November 05. The magazine reports that over 95 percent of organs 
transplanted in China come from executed prisoners.
    \225\ ``Health Official Denies Random Transplant of Organs From 
Executed Criminals,'' Xinhua, reprinted in People's Daily (Online), 11 
April 06; ``Organs Taken `With Consent of Prisoners,' '' Agence France-
Presse, reprinted in South China Morning Post (Online), 29 March 06.
    \226\ ``British Transplantation Society Criticizes the Alleged Use 
of Organs Without Consent from Prisoners Executed in the People's 
Republic of China,'' The British Transplantation Society (Online), 19 
April 06; David Matas and David Kilgour, Report into Allegations of 
Organ Harvesting of Falun Gong Practitioners in China, 6 July 06.
    \227\ World Health Organization, Guiding Principle 3, ``Guiding 
Principles on Human Organ Transplantation,'' adopted May 1987.
    \228\ ``Provisions Issued on Organ Transplants, Fail to Address 
Executed Prisoners,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 10-11; Temporary Provisions on Human Organ Transplant 
Clinical Practice Management [Renti qiguan yizhi jishu linchuang ying 
yong guanli zanxing guiding], issued 27 March 06.
    \229\ Temporary Provisions Regarding the Use of Corpses or Organs 
from Executed Prisoners [Guanyu liyong sixing zuifan shiti qiguan de 
zanxing guiding], issued 9 October 84, para. 3.
    \230\ ``China Vows to Deepen Int'l Co-op in Fight Against 
Corruption,'' Xinhua (Online), 14 June 06; ``Mekong Governments Taking 
Concrete Actions Against Human Trafficking,'' Xinhua, reprinted in 
People's Daily (Online), 13 May 06.
    \231\ Zhou Yongkang Holds Talks With US Homeland Security Secretary 
Michael Chertoff,'' Xinhua, 4 April 06 (Open Source Center, 4 April 
06); ``China, US Release Statement on Anti-Corruption Issues,'' Xinhua 
(Online), 29 June 06.
    \232\ CECC Staff Interviews and Correspondence. For news reports on 
some of these programs, see, e.g., ``China--Canada New Cooperation 
Programme,'' International Centre for Criminal Law Reform and Criminal 
Justice Policy (Online); ``The Present Situation and Prosperous Future 
of China Clinical Legal Education,'' Global Alliance for Justice 
Education (Online), 1 August 05; ``World Law Conference Convenes in 
Beijing,'' China Daily, reprinted in China Internet Information Center 
(Online), 5 September 05; ``Highlights of the 22nd World Congress on 
Law'' [Er shi er jie shijie falu dahui jingcai liangdian], Legal Daily 
(Online), 5 September 05; Jiang Anjie, ``How to Improve Procedures for 
Death Penalty Review'' [Sixing fuhe chengxu ruhe wanshan], Legal Daily 
(Online), 1 December 05; ``Third Session of Program Between Nanjing 
Normal University Law School and University of Maryland to Cooperate in 
Developing a Masters Degree in Criminal Justice (MCJ)'' [Nanjing shifan 
daxue yu meiguo malilan daxue hezuo peiyang xingshi sifa xue shuoshi 
(MCJ) xiangmu di san qi], Nanjing Normal University Law School 
(Online), May 2006.
    \233\ CECC Staff Interviews and Correspondence.
    \234\ UN High Commissioner for Human Rights, ``Special Rapporteur 
on Torture Highlights Challenges at End of Visit to China;'' ``UN 
Special Rapporteur on Torture Concludes Two-Week Visit to China,'' CECC 
China Human Rights and Rule of Law Update, January 2006, 12-13. See 
also supra, ``Torture and Abuse in Custody,'' and accompanying notes.
    \235\ UN High Commissioner for Refugees (Online), ``Statement to 
Media by United Nations High Commissioner for Refugees Antonio 
Guterres, on Conclusion of His Mission to the People's Republic of 
China,'' 23 March 06; ``High Commissioner for Refugees Visits China, 
Object to North Korean Repatriation,'' CECC China Human Rights and Rule 
of Law Update, May 2006, 2-3.
    \236\ ``China `More Aware' of Torture Use,'' BBC (Online), 22 
November 05; ``Statement to Media by UN High Commissioner for Refugees 
Antonio Guterres.''
    \237\ UN High Commissioner for Human Rights, ``Special Rapporteur 
on Torture Highlights Challenges at End of Visit to China;'' ``UN 
Special Rapporteur on Torture Concludes Two-Week Visit to China,'' CECC 
China Human Rights and Rule of Law Update, January 2006, 12-13. The 
Ministry of Foreign Affairs ``denied Nowak's allegations that public 
security officers had monitored his activities and tried to stop 
torture victims from meeting with him.'' Louisa Lim, ``China Denies UN 
Torture Findings,'' BBC (Online), 6 December 05.
    \238\ United Nations (Online), ``General Assembly Elects 47 Members 
of New Human Rights Council,'' 9 May 06.
    \239\ These include the International Covenant on Economic, Social 
and Cultural Rights; the Convention on the Elimination of All Forms of 
Racial Discrimination; the Convention on the Elimination of All Forms 
of Discrimination Against Women; the Convention on the Rights of the 
Child; and the CAT. PRC Aide Memoire, reprinted in United Nations 
(Online), 13 April 06.
    \240\ Ibid.
    \241\ ``China Vows to Further Contribute to Human Rights Course,'' 
Xinhua (Online), 10 May 06.
    \242\ United Nations, ``General Assembly Elects 47 Members of New 
Human Rights Council;'' Warren Hoge, ``New U.N. Rights Group Includes 
Six Nations With Poor Records,'' New York Times (Online), 10 May 06; 
Chen Xulong, ``Reforming Rights Protection,'' Beijing Review (Online), 
11 May 06.

    Notes to Section V(c)--Protection of Internationally Recognized 
Labor Standards
    \1\ ILO Declaration on Fundamental Principles and Rights at Work, 
18 June 98, International Labour Organization, art. 2 [hereinafter ILO 
Declaration].
    \2\ CECC, 2005 Annual Report, 11 October 05, 37.
    \3\ ``Fundamental ILO Conventions,'' International Labour 
Organization (Online), 20 October 00.
    \4\ 122 countries have ratified all of the fundamental conventions, 
while 57 countries have not. Ratifications of the ILO Fundamental 
Conventions, International Labour Organization (Online), 23 August 06. 
The United States has ratified two of the eight ILO core conventions, 
but even without ratification, the conventions already are largely 
incorporated into U.S. law. The ILO Declaration ``[d]eclares that all 
Members, even if they have not ratified the Conventions in question, 
have an obligation arising from the very fact of membership in the 
Organization to respect, to promote and to realize, in good faith and 
in accordance with the Constitution, the principles concerning the 
fundamental rights which are the subject of those Conventions, namely: 
(a) freedom of association and the effective recognition of the right 
to collective bargaining . . . .''
    \5\ Ratifications of the ILO Fundamental Conventions, International 
Labour Organization.
    \6\ ``China: Forced Labor and Trafficking: the Role of Labour 
Institution in Law Enforcement and International Cooperation,'' 
International Labour Organization (Online), August 2005.
    \7\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], enacted 5 
July 94, amended 10 October 01.
    \8\ Trial Measures on Reeducation Through Labor [Laodong jiaoyang 
shixing banfa], issued 21 January 82; Provisions on Public Security 
Agencies' Handling of Reeducation Through Labor Cases [Gongan jiguan 
banli laodong jiaoyang anjian guiding], issued 12 April 02; PRC Public 
Security Administration Punishment Law, enacted 28 August 05.
    \9\ ILO Convention (No. 105) Concerning the Abolition of Forced 
Labour, 25 June 57, 320 U.N.T.S. 291; ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, 39 U.N.T.S. 55.
    \10\ China has signed, but has not yet ratified, the ICCPR. The 
Chinese government has committed itself to ratifying, and thus bringing 
its laws into conformity with, the ICCPR and reaffirmed its commitment 
as recently as April 13, 2006, in its application for membership in the 
UN Human Rights Council. China's top leaders have previously stated on 
three separate occasions that they are preparing for ratification of 
the ICCPR, including in a September 6, 2005, statement by Politburo 
member and State Councilor Luo Gan at the 22nd World Congress on Law, 
in statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \11\ Statement Made By China Upon Ratification of the ICESCR, 
Office of the UN High Commissioner for Human Rights (Online), 27 March 
01. Article 10 of China's Trade Union Law establishes the All-China 
Federation of Trade Unions as the ``unified national organization,'' 
and Article 11 mandates that all unions must be approved by the next 
higher-level union body, giving the ACFTU an absolute veto over the 
establishment of any local union and the legal authority to block 
independent labor associations. PRC Trade Union Law, enacted 3 April 
92, amended 27 October 01, arts. 10, 11.
    \12\ Trini Leung, ``ACFTU and Union Organizing,'' China Labour 
Bulletin (Online), 26 April 02.
    \13\ PRC Trade Union Law, art. 4.
    \14\ ``Wang Zhaoguo Speaks at Presidium Meeting of All-China 
Federation of Trade Unions,'' Xinhua, 4 July 05 (Open Source Center, 4 
July 05); PRC Trade Union Law, art. 11.
    \15\ PRC Trade Union Law, arts. 10, 11.
    \16\ Constitution of the Trade Unions of the People's Republic of 
China, adopted 24 October 98, art. 15.
    \17\ Leung, ``ACFTU and Union Organizing.''
    \18\ Hong Kong Liaison Office of International Free Labor Trade 
Unions (Online), ``ACFTU and Trade Unions,'' March 2006.
    \19\ Ibid.
    \20\ Ibid.; ``Total Grassroots Union in China Total 1,174,000'' [Wo 
guo jiceng gonghui shuliang da 117.4 wan], Xinhua (Online), 5 July 06.
    \21\ ``China Plans to Unionize 60% of Foreign Firms,'' Asia Times 
(Online), 1 April 06; Hai Tao, ``Chinese Government Plans to Pressure 
Foreign Enterprises to Establish Unions'' [Zhongguo zhengfu jihua cu 
waizi qiye sheli gonghui], Voice of America (Online), 25 July 06.
    \22\ Hai Tao, ``Chinese Government Plans To Pressure Foreign 
Enterprises To Establish Unions.''
    \23\ ``Total Grassroots Union in China Total 1,174,000,'' Xinhua.
    \24\ ``Foreign Firms Should Be Compelled to Unionize,'' China Daily 
(Online), 6 July 06.
    \25\ China Labor Bulletin (Online), ``Wal-Mart Unionisation Drive 
Ordered by Hu Jintao in March--A Total of 17 Union Branches Now Set 
Up,'' 15 August 06.
    \26\ Ibid.
    \27\ ``ACFTU and Trade Unions,'' Hong Kong Liaison Office of 
International Free Labor Trade Unions (Online), March 06.
    \28\ Alison Mailland, ``Reebok in China: Worker Elections in Two 
Supplier Factories,'' Financial Times (Online), 12 December 02.
    \29\ Nie Chunlin, ``New Political Atmosphere in Hubei, Direct 
Election of 50,000 Union Heads by 2009,'' 21st Century Business Herald 
(Online), 5 January 06.
    \30\ Notice on Issuance of ``Opinion on Strengthening the Direct 
Election Work of Grassroots Unions'' and ``Hubei Trial Measures on 
Direct Elections of Union Heads'' [Guanyu yinfa ``Guanyu jiaqiang 
jiceng gonghui zhuxi zhijie xuanju gongzuo de yijian'' he ``Hubei sheng 
jiceng gonghui zhuxi zhijie xuanju shixing banfa'' de tongzhi], issued 
7 July 05, art. 11(1), (3).
    \31\ For additional information on Li's case, see the CECC 
Political Prisoner Database, at http://ppd.cecc.gov.
    \32\ Ibid.
    \33\ Human Rights in China (Online), ``Jailed Labor Activists 
Refused Medical Parole,'' 19 December 03; China Labour Bulletin 
(Online), ``Chronology of Cases of Yao Fuxin and Xiao Yunliang,'' 2 
November 05.
    \34\ Labor Rights and Conditions in China, Staff Roundtable of the 
Congressional-Executive Commission on China, 18 March 02, Testimony of 
Mark Hankin, Coordinator for Program Development, the American Center 
for International Labor Solidarity, AFL-CIO.
    \35\ Simon Clarke, Chang-Hee Lee, and Qi Li, ``Collective 
Consultation and Industrial Relations in China,'' 42 Brit. J. 
Industrial Relations 235, 242 (2004).
    \36\ PRC Trade Union Law, art. 20.
    \37\ Provisions on Collective Contracts [Jiti hetong guiding], 
issued 20 January 04.
    \38\ Ronald C. Brown, ``China's Collective Contract Provisions: Can 
Collective Negotiations Embody Collective Bargaining? '' 16 Duke J. 
Comp. & Int'l L. 35, 36 (2006).
    \39\ Clarke, ``Collective Consultation and Industrial Relations in 
China,'' 242 (2004).
    \40\ State Council Information Office, White Paper on China's 
Employment Situation and Policies, April 2004; All-China Federation of 
Trade Unions, 2005 ACFTU Blue Book on Upholding the Legal Rights and 
Interests of Workers, 2 June 06; Interpreting the 2005 ACFTU Blue Book 
on Upholding the Legal Rights and Interests of Workers'' [2005 Zhongguo 
gonghui weihu zhigong hefa quanyi lanpishu shuju jiedu], Workers Daily, 
reprinted in People's Daily (Online), 2 June 06; State Council 
Information Office (Online), China Facts and Figures, 2004.
    \41\ Information provided by U.S. Embassy Beijing.
    \42\ Ibid.
    \43\ PRC Labor Law, arts. 77-84; PRC Trade Union Law, arts. 20, 21.
    \44\ PRC Labor Law, art. 80.
    \45\ Ibid., art. 79.
    \46\ ``Xinjiang People's Congress Representative Appeals for 
Abolition of Labor Arbitration Procedure'' [Xinjiang renda daibiao huyu 
quxiao laodong zhongcai qianzhi de falu chengxu], Xinhua (Online), 20 
January 06.
    \47\ PRC Labor Law, art. 81.
    \48\ In some cases, the trade union officials have taken the side 
of the employer rather than the employee. China Labour Bulletin 
(Online), ``Courtroom Episode: Trade Union Official vs. Worker,'' 28 
October 05.
    \49\ SPC Judicial Interpretation on Several Questions Regarding the 
Use of Law in Labor Dispute Cases [Zui gao fayuan guanyu shenli laodong 
zhengyi anjian shiyong ruogan wenti de jieshi], issued 14 August 06, 
art. 3.
    \50\ ``Labor Arbitration Becomes More Professionalized'' [Laodong 
zhongcai shitihua laodong zhengyi hao tiaojie], Xinhua (Online), 31 
August 05.
    \51\ Ibid.
    \52\ Ministry of Labor and Social Security, reprinted by the PRC 
Central Government (Online), ``Ministry of Labor and Social Security 
Holds Press Conference on First Quarter of 2006 Work'' [Laodong he 
shehui baozhang bu zhaokai 2006 nian di yi jidu xinwen fabuhui], 5 May 
06.
    \53\ Anhui Province Department of Labor and Social Security 
(Online), ``Introduction to Anhui Arbitration Tribunals'' [Anhui sheng 
laodong zhengyi zhongcaiyuan jieshao], 22 June 06.
    \54\ PRC Labor Law, art. 83.
    \55\ China Labour Bulletin (Online), ``Over 300,000 Labour Lawsuits 
Filed in 2005, ACFTU Survey Says,'' 12 May 06; Information provided by 
U.S. Embassy Beijing.
    \56\ Ibid.
    \57\ Ibid.
    \58\ Ibid.
    \59\ PRC Labor Contract Draft Law, issued 21 March 06; ``Draft Law 
on Labor Contracts Made Public--Views Sought,'' Xinhua (Online), 21 
March 06.
    \60\ ``China's Legislature Receives 4,769 Suggestions on Draft 
Labor Contract Law,'' Xinhua (Online), 27 March 06; Wang Ye, 
``Contracts of Workers Covered by New Law,'' China Daily, 21 March 06 
(Open Source Center, 21 March 06). The draft labor law includes 65 
articles in seven chapters addressing: (1) general principles; (2) 
agreement on a labor contract; (3) implementation and modification of a 
labor contract; (4) cancellation and termination of a labor contract; 
(5) legal responsibilities; and (6) supplementary materials. ``Draft of 
the Labor Contract Law,'' Legal Daily; ``The Problem of Being Lax on 
Workers, Strict on Employers Does Not Exist in Draft of Labor Contract 
Law'' [Laodong hetong fa cao'an bu cunzai dui gongren kuan dui guzhu 
yan de wenti], Procuratorial Daily (Online), 21 April 06.
    \61\ ``Chinese Public Makes Over 190,000 Suggestions on Draft Labor 
Contract Law,'' Xinhua, 21 April 06 (Open Source Center, 21 April 06).
    \62\ Article 16 of the Labor Law states, ``A labor contract shall 
be concluded where a labor relationship is to be established.'' Article 
19 specifies that labor contracts ``shall be concluded in written 
form.'' PRC Labor Law, arts. 16, 19.
    \63\ ``China's Top Legislature Debates Contract Bill Protecting 
Worker's Rights,'' Xinhua (Online), 28 December 05.
    \64\ ``State Council Research Center Issues Report: China's Rural 
Workers Are Experiencing Three Big Changes'' [Guowuyuan yanjiushi fabu 
baogao: woguo nongmingong zheng fasheng san da bianhua], Xinhua, 
reprinted by the PRC Central Government (Online), 16 April 06.
    \65\ Information provided by U.S. Embassy Beijing.
    \66\ ``Draft of the Labor Contract Law,'' Legal Daily (Online), 21 
March 06.
    \67\ Wang Ye, ``Contracts of Workers Covered by New Law.''
    \68\ ``Compulsory Labor Contracts To Be Imposed on All Firms,'' 
Xinhua (Online), 20 January 06.
    \69\ ``Firms Face Higher Costs Under New China Labour Law,'' 
Reuters (Online), 6 July 06; Meg Utterback, ``China's New Draft Labor 
Contract Law: Help or Hindrance?,'' Thelen Reid & Priest LLP China 
Watch (Online), 15 May 06.
    \70\ Bill Savadove, ``Firms Say New Labour Law Is a Step 
Backwards,'' South China Morning Post (Online), 21 March 06.
    \71\ Utterback, ``China's New Draft Labor Contract Law: Help or 
Hindrance?;'' PRC Labor Contract Draft Law, art.16.
    \72\ Wang Weiming, ``Three Deficiencies with the Draft Labor 
Contracting Law'' [Laodong hetong fa cao'an de san dian quehan], China 
Youth Daily (Online), 31 March 06.
    \73\ Leung, ``ACFTU and Union Organizing.''
    \74\ PRC Trade Union Law, art. 6.
    \75\ CECC Staff Interview.
    \76\ ``ACFTU Works To Improve Legal Aid System,'' China Corporate 
Social Responsibility (Online), 12 May 06; ``China Daily: Unions Launch 
Campaign to Safeguard Migrant Workers,'' China Daily, 14 June 06 (Open 
Source Center, 14 June 06); ``Communist Party, State Council Order 
Stronger Controls Over Society,'' CECC China Human Rights and Rule of 
Law Update, June 2006, 14-16.
    \77\ ``ACFTU Works To Improve Legal Aid System,'' China Corporate 
Social Responsibility.
    \78\ CECC Staff Interview.
    \79\ ``China's Legislature Receives 4,769 Suggestions on Draft 
Labor Contract Law,'' Xinhua; ``ACFTU Collaborates with Government to 
Launch Campaign to Promote Safety and Health for Migrant Workers'' 
[Quanzong deng lianhe tuichu ``Guanai nongmingong shengming anquan yu 
jiankang tebie xingdong''], People's Daily (Online), 13 June 06; 
``Workers Have the Right to Refuse to Work in Dangerous Environments'' 
[Qiye qiangling maoxian zuoye gongren you quan jujue], China Youth 
Daily (Online), 14 June 06; ``Right to Refuse Dangerous Work,'' China 
Daily (Online), 21 June 06.
    \80\ Forced Labor in China, Staff Roundtable of the Congressional-
Executive Commission on China, 22 June 05, Testimony and Written 
Statement Submitted by Harry Wu, Executive Director, Laogai Research 
Foundation; Forced Labor in China, Testimony and Written Statement 
Submitted by Gregory Xu, Falun Gong practitioner and researcher on the 
treatment of Falun Gong practitioners in China. Mr. Wu described 
conditions he saw in forced labor camps including prisoners working 12-
hour shifts and working in dangerous conditions. Mr. Xu described the 
cases of several Falun Gong practitioners who were tortured while in 
detention.
    \81\ Ibid. Mr. Xu stated that Falun Gong practitioners were forced 
to work at highly intensive jobs for far longer than eight hours a day, 
and on occasion, continuously overnight.
    \82\ PRC Labor Law, art. 96.
    \83\ Ibid.
    \84\ Ibid.
    \85\ ``30 Forced Laborers `Fall' Into Yuncheng Brick Kiln'' 
[Qiangzhi laodong 30 duo ren ``diao'' jin Yuncheng zhuanyao moku], 
Xinhua (Online), 29 March 06; ``78 Year-Old Mother Searches for Son, 
Rescues 30 Migrant Workers in Illegal Brick Kiln'' [78 sui lao mu qian 
li xun er, jiejiu hei zhuanyao 30 nongmingong], Tengxun Net (Online), 
30 April 06; Ping Yunfei and Yang Shengquan, ``Migrant Workers from 
Chongqing Reduced to `Indentured Laborers' in Shandong'' [Chongqing 
mingong Shandong lun wei ``bao shen gong''], Chongqing Business Daily, 
reprinted in Xinhua (Online), 15 May 06; ``Worker Reports Dingzhou 
Indentured Labor Phenomenon, Goes Missing After Meeting with Local 
Officials'' [Mingong jubao dingzhou baoshen gong xianxiang yu dangdi 
guanyuan hou shi zong], Net Ease (Online), 5 July 05.
    \86\ Combating Human Trafficking in China: Domestic and 
International Efforts, Hearing of the Congressional-Executive 
Commission on China, 6 March 06, Testimony and Written Statement 
Submitted by Roger Plant, Head of Special Action Program to Combat 
Forced Labor, International Labour Organization.
    \87\ ``China: Forced Labor and Trafficking,'' International Labour 
Organization.
    \88\ 19 U.S.C. 1307 (1930).
    \89\ Government Accountability Office (Online), ``Implementation of 
the 1992 Prison Labor Memorandum of Understanding,'' 3 April 95, 16-18.
    \90\ 22 U.S.C. 6961-6965 (2000).
    \91\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06.
    \92\ Harry Wu, Remarks on the Soviet Gulag and the Chinese Laogai: 
Comparing the Two Systems of Oppression Conference, Freedom House 
Conference, 5 May 06; Philip P. Pan, ``China's Prison Laborers Pay 
Price for Market Reforms,'' Washington Post (Online), 14 June 01.
    \93\ Ibid.
    \94\ Forced Labor in China, Testimony and Written Statement 
Submitted by Harry Wu; Pan, ``China's Prison Laborers Pay Price for 
Market Reforms.''
    \95\ CECC, 2005 Annual Report, 42.
    \96\ China Labour Bulletin (Online), ``Survey Report on Child 
Labour in China'' [Guanyu zhongguo tonggong xianxiang de shidi kaocha 
baogao], 30 May 06; Dennis Cheung and Richard Welford, ``Is Child 
Labour on the Increase in China?,'' CSR Asia Weekly (Online), 11 
September 05.
    \97\ ``Police Cracks Down on Child Kidnapping,'' Xinhua (Online), 1 
June 06.
    \98\ PRC Labor Law, arts. 15, 94.
    \99\ Ibid, arts. 64-65.
    \100\ Rules Banning the Use of Child Labor [Jinzhi shiyong tonggong 
guiding], issued 1 October 02, arts. 4, 6.
    \101\ Regulations on the Specific Scope of State Secrets and the 
Level of Secrecy in Labor and Social Security Work [Laodong he shehui 
baozhang gongzuo zhong guojia mimi ji juti fanwei de guiding], issued 
17 January 00, art. 3.
    \102\ China Labour Bulletin (Online), ``Survey Report on Child 
Labour in China;'' Cheung and Welford, ``Is Child Labour on the 
Increase in China? ''
    \103\ ``600 Shaanxi Students Cheated Into Child Labor'' [Shaan xiao 
pian 600 xuesheng fu yue zuo tonggong], Ta Kung Pao (Online), 12 April 
06.
    \104\ Stephen Frost, ``China View,'' CSR Asia Weekly (Online), 26 
April 06.
    \105\ China Labour Bulletin, ``Survey Report on Child Labour in 
China.''
    \106\ Ibid.
    \107\ Cheung, ``Is Child Labour on the Increase in China? ''
    \108\ PRC Constitution, art. 48; PRC Labor Law, art. 13; PRC Law on 
the Protection of Interests and Rights of Women, enacted 3 April 92, 
amended 28 August 05, arts. 24-25.
    \109\ Rules on Collective Contracts, art. 14; Hong Kong Trade 
Development Council (Online), ``New Regulations on Collective Contracts 
Give Special Protection to Female Workers,'' 1 May 04.
    \110\ State Council Information Office, ``China's Employment 
Situation and Policies,'' Xinhua (Online), 26 April 04.
    \111\ Wang Meiyan, ``Analysis of Gender Differences in Employment 
Opportunities and Wages in China's Urban Labor Markets'' [Zhongguo 
chengshi laodongli shichang nannu liang xing jiuye jihui he gongzi 
chaju fenxi], China Net (Online), 16 March 06.
    \112\ ``Chongqing District Employment Service: Redundant Women 
Workers are Reemployed at the `Family Door' '' [Chongqing shequ jiuye 
fuwu xiagang nugong ``jia menkou'' shixian zaijiuye], Xinhua (Online), 
9 May 06; ``Jimunai County Provides Favorable Loans Amounting to 1.4 
Million Yuan To Help 70 Redundant Woman Workers Find New Jobs'' 
[Jimunai xian wei 70 ming xiagang funu fafang zaijiuye daikuan 140 wan 
yuan], Tianshan Net (Online), 31 May 06.
    \113\ ``Revisions to Retirement Regulations Requiring Women To 
Retire Before Men Suggested to NPC Standing Committee'' [Nannu tuixiu 
butong nianling guiding xiang quanguo renda changweihui tiqi weixian 
shencha jianyi shu], Women Watch-China (Online), 10 March 06; Temporary 
Measures on Workers' Retirement and Resignation [Guowuyuan guanyu 
gongren tuixiu tuizhi de zanxing banfa], issued 24 May 78.
    \114\ ``Revisions to Retirement Regulations Requiring Women To 
Retire Before Men Suggested to NPC Standing Committee,'' Women Watch-
China.
    \115\ CECC Staff Interview.
    \116\ PRC Constitution, art. 4.
    \117\ PRC Labor Law, art. 12.
    \118\ See, e.g., Mette Halskov Hansen, ``The Challenge of Sipsong 
Panna in the Southwest,'' in Governing China's Multiethnic Frontiers, 
ed. Morris Rossabi (Seattle: University of Washington Press, 2004), 61-
62.
    \119\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China.
    \120\ Edward Cody, ``Train 27, Now Arriving Tibet, in a `Great Leap 
West,' '' Washington Post (Online), 4 July 06.
    \121\ CECC Staff Interview.
    \122\ ``Xinjiang Will Recruit Through Examination 700 Civil 
Servants To Enrich Cadre Ranks in Southern Xinjiang'' [Xinjiang jiang 
mianxiang shehui zhaokao 700 ming gongwuyuan chongshi nanjiang ganbu 
duiwu], Xinjiang Daily, reprinted in Tianshan Net (Online), 7 April 05.
    \123\ ``Civil Servant Recruitment in Xinjiang Favors Han Chinese,'' 
CECC China Human Rights and Rule of Law Update, August 2006, 6-7.
    \124\ China Labour Bulletin (Online), ``Over 300,000 Labour 
Lawsuits Filed in 2005, ACFTU Survey Says,'' 12 May 06; Information 
provided by U.S. Embassy Beijing.
    \125\ Qiao Jian and Jiang Ying, ``An Analysis of Labor Disputes and 
Mass Incidents During Marketization,'' 297-314; ``Rise in Collective 
Disputes Attributed to Weak Protections of Worker Rights,'' CECC China 
Human Rights and Rule of Law Update, December 2005, 13-14.
    \126\ Qiao Jian and Jiang Ying, ``An Analysis of Labor Disputes and 
Mass Incidents During Marketization,'' 297-314.
    \127\ Tim Johnson, ``Millions of Workers in China Aren't Getting 
Paid,'' San Jose Mercury News (Online), 23 January 06.
    \128\ Jiang Zhuqing, ``China to Shut Down 4,000 Mines by Dec. 31,'' 
China Daily (Online), 13 December 05; Fu Jing, ``Unions Launch Campaign 
to Safeguard Migrant Workers,'' China Daily (Online), 14 June 06.
    \129\ ``35,800 Firms Ordered to Close Over Safety Concerns,'' 
Xinhua (Online), 16 February 06.
    \130\ ``Leaders Face Punishment Over Fatal Accidents,'' People's 
Daily (Online), 16 February 06.
    \131\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, arts. 134, 135, 139.
    \132\ ``China Issues Safety in Production Plan for the 11th Five-
Year Program, Rigorously Investigates Malfeasance and Corrupt 
Behavior'' [Zhongguo fabu anquan shengchan shiyi wu guihua yancha duzhi 
fubai xingwei], Xinhua (Online), 27 August 06; ``More Needed To Be 
Spent on Work Safety: State Councilor,'' Xinhua (Online), 7 July 06.
    \133\ ``US$60B Fund To Reduce Workplace Accidents,'' China Daily, 
30 August 06 (Open Source Center, 30 August 06).
    \134\ Ministry of Health Circular on Implementing the ``State 
Council Opinion on Resolving Rural Worker Problems'' [Weishengbu guanyu 
guancheluoshi ``Guowuyuan guanyu jiejue nongminggong wenti de ruogan 
yijian'' de tongzhi], issued 16 May 06.
    \135\ ``Migrant Workers To Get Basic Healthcare,'' Xinhua (Online), 
24 April 06.
    \136\ ``Occupational Diseases Injure 200 Million Workers,'' Beijing 
News (Online), 23 February 06.
    \137\ Ibid.
    \138\ ``China To Close Another 7,000 Mines Before '08,'' China 
Daily (Online), 15 June 06; China Labour Bulletin (Online), ``63 Killed 
and 26 Trapped in Three Separate Coal Mine Accidents,'' 17 July 06.
    \139\ Experts have reported that the annual death rate in Chinese 
mines may be as high as 20,000. China Labor Bulletin (Online), ``More 
than 4,500 Officials Report Shares in Coal Mines With a Total 
Investment of 650 Million Yuan,'' 11 March 05; China Labour Bulletin, 
``63 Killed and 26 Trapped in Three Separate Coal Mine Accidents.''
    \140\ ``Beijing Demands Mine-Safety Push,'' South China Morning 
Post (Online), 15 January 06.
    \141\ ``Nightmare for Safety Troubleshooter,'' South China Morning 
Post (Online), 9 December 05.
    \142\ ``Coal Mine Blast in the North Kills 23, Sickens 53,'' South 
China Morning Post (Online), 2 February 06.
    \143\ ``China Sets a Modest Goal in Cutting Coal Mine Deaths,'' 
Reuters, reprinted in China Daily (Online), 7 February 06.
    \144\ ``Government Program to Shut Dangerous Coal Mines Proceeds 
Slowly, Results Mixed,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 3-4.
    \145\ ``China to Trim Down 10,000 Small Coal Mines By 2010,'' 
Xinhua (Online), 26 May 06.
    \146\ ``China to Close All Small Coal Mines,'' Xinhua, reprinted in 
China Daily (Online), 4 April 06.
    \147\ Ibid.
    \148\ ``7,000 Officials Retract Stakes from Mines,'' Xinhua 
(Online), 20 January 06.
    \149\ Joint Circular of the State Administration for Work Safety 
and the State Administration for Coal Mine Safety on the Reissuance of 
the ``State Council General Office Emergency Circular Regarding Firmly 
Reorganizing and Closing Illegal Coal Mines and Those With Insufficient 
Safe Production Conditions'' [Guojia anquan shengchan jiandu guanli ju 
guojia meikuang anquan jiancha ju zhuanfa ``guowuyuan bangongting 
guanyu jianjue zhengdun guanbi bu jubei anquan shengchan tiaojian he 
feifa meikuang de jinji tongzhi''], issued 24 August 05, art. 3.
    \150\ ``7,000 Officials Retract Stakes from Mines,'' Xinhua 
(Online).
    \151\ ``222 People Dealt With According to Law for Coal Mine 
Accidents,'' Xinhua (Online), 23 December 05.
    \152\ Provisions on Minimum Wage [Zui di gongzi guiding], issued 20 
January 04.
    \153\ Chow Chung-yan, ``Minimum Wages Up 17 Percent in Shenzhen to 
Ease Social Unrest,'' South China Morning Post (Online), 1 June 06.
    \154\ ``Guangdong Increases Minimum Salary Levels,'' People's Daily 
(Online), 13 July 06; ``Shenzhen Raises Minimum Wage,'' China Daily, 
reprinted in PRC Central People's Government (Online), 1 June 05.
    \155\ Ministry of Labor and Social Security (Online), ``2005 
Minimum Wage Standards for Each Province, Autonomous Region, and 
Directly-Administered Municipality'' [2005 Nian ge sheng, zizhiqu, 
zhixiashi, yue zui di gongzi biaozhun], 1 March 06.
    \156\ ``Pay Workers Decent Wages,'' China Daily, reprinted in 
Xinhua (Online), 9 May 06; Provisions on Minimum Wage, art. 10.
    \157\ Ministry of Labor and Social Security, ``2005 Minimum Wage 
Standards for Each Province, Autonomous Region, and Directly-
Administered Municipality.''
    \158\ ``Pay Workers Decent Wages,'' China Daily.
    \159\ ``Provinces Fail to Meet Minimum Pay Rules,'' South China 
Morning Post (Online), 9 May 06.
    \160\ Johnson, ``Millions of Workers in China Aren't Getting 
Paid.''
    \161\ Ibid.
    \162\ Ibid.
    \163\ ``State Council Report: Workers' Monthly Salary Mostly 500-
800 Yuan; Half of Rural Workers Do Not Get Paid on Time'' [Guowuyuan 
baogao: Mingong yue xin duo zai 500-800 yuan ban shu nongmingong bu 
neng anshi ling dao gongzi], Southern Metropolitan Daily (Online), 17 
April 06.
    \164\ Information provided by U.S. Embassy Beijing.
    \165\ ``Government Helps Migrant Workers Get Unpaid Wages,'' 
People's Daily (Online), 27 January 06.
    \166\ ``Shaanxi Employers Ordered to Pay Compensation for Delaying 
Minimum Wage Payments,'' Legal Daily, reprinted in China Labour 
Bulletin (Online), 13 June 06.
    \167\ ``30 Firms Blacklisted for Defaulting Wages,'' Xinhua 
(Online), 26 June 06.
    \168\ Information provided by U.S. Embassy Beijing.
    \169\ Working Conditions in China: Just and Favorable?, Staff 
Roundtable of the Congressional-Executive Commission on China, 3 
November 05, Testimony of Dan Viederman, Executive Director, Verite.
    \170\ Ibid.
    \171\ Ibid.
    \172\ See, e.g., ``80 Percent of Private Firms Violate Employee 
Rights,'' China Daily, 29 December 05 (Open Source Center, 29 December 
05); Juliette Li, ``Maternity Insurance and Leave in China,'' CSR Asia 
Weekly (Online), 3 May 06, 11.
    \173\ ``80 Percent of Private Firms Violate Employee Rights,'' 
China Daily.
    \174\ ``PRC Media Hail Pension Reform, Note Remaining Challenges,'' 
Open Source Center, 30 January 06 (Open Source Center, 30 January 06).
    \175\ Ibid.
    \176\ Nicholas Eberstadt, ``Growing Old the Hard Way,'' American 
Enterprise Institute (Online), 18 April 06.
    \177\``OSC Analysis 30 Jan: PRC Media Hail Pension Reform, Note 
Remaining Challenges,'' Opens Source Center, 30 January 06.
    \178\ ``Our Country's On-the-Job Injury Insurance Aims To Cover 140 
Million People by 2010'' [Woguo gongshang baoxian lizheng 2010 nian 
fugai 1.4 yi ren], Legal Daily (Online), 23 June 06.
    \179\ ``State Will Take Compulsory Measures To Supervise and Urge 
Enterprise Participation in On-the-Job Injury Insurance'' [Guojia jiang 
caiqu qiangzhi shouduan ducu qiye canjia gongshang baoxian], China 
Youth Daily (Online), 9 September 06.
    \180\ ``Our Country's On-the-Job Injury Insurance Aims to Cover 140 
Million People by 2010,'' Legal Daily.
    \181\ ``Shanxi: Employing Units Must Provide Migrant Workers With 
On-the-Job Injury Insurance'' [Shanxi: yongren danwei bixu ji 
nongmingong jiaona gongshang baoxian], Xinhua (Online), 29 June 06.
    \182\ ``State Will Take Compulsory Measures To Supervise and Urge 
Enterprise Participation in On-the-Job Injury Insurance,'' China Youth 
Daily.
    \183\ CECC, 2005 Annual Report, 11 October 05, 41.
    \184\ Information provided by the International Labor Bureau, U.S. 
Department of Labor.
    \185\ Ibid.
    \186\ ``State Council Research Center Issues Report: China's Rural 
Workers Are Experiencing Three Big Changes'' [Guowuyuan yanjiushi fabu 
baogao: woguo nongmingong zheng fasheng san da zhuanbian], Xinhua, 
reprinted by the PRC Central Government (Online), 16 April 06; `` 
`Report on Rural Migrant Workers:' The Average Age of Migrant Workers 
is 28.6 Years Old'' [Zhongguo nongmingong diaoyan baogao: nongmingong 
pingjun nianling wei 28.6 sui], Xinhua, reprinted in China.org, 16 
April 06. Between 50 and 80 million workers are also employed in rural 
township and village enterprises. `` `Report on Rural Migrant Workers:' 
The Average Age of Migrant Workers is 28.6 Years Old,'' Xinhua; 
Information provided by U.S. Embassy Beijing.
    \187\ ``State Council Research Center Issues Report: China's Rural 
Workers Are Experiencing Three Big Changes,'' Xinhua.
    \188\ Ibid.
    \189\ Ibid.
    \190\ ``70 Percent of Migrant Workers Receive No Compensation for 
Overtime,'' Beijing News (Online), 2 May 06.
    \191\ Ministry of Health Circular on Implementing the ``State 
Council Opinion on Resolving Rural Worker Problems.''
    \192\ ``Communist Party, State Council Set Rural Reform Goals for 
2006,'' CECC China Human Rights and Rule of Law Update, April 2006, 8.
    \193\ ``Beijing Scraps Regulation on Managing Migrants'' [Beijing 
feizhi wailai renyuan guanli tiaoli], Beijing News (Online), 26 March 
05; ``Labor Ministry Officials Remove Regulatory Barrier to Migrants 
Seeking Work in Cities,'' CECC China Human Rights and Rule of Law 
Update, November 2005, 3.
    \194\ ``Allowing Rural Workers To Participate in Worker 
Compensation Programs Becomes an Issue of Concern'' [Canjia gongshang 
baoxian nongmingong cheng zhongdian], Beijing News (Online), 8 April 
06; ``Communist Party, State Council Order Stronger Controls Over 
Society,'' CECC China Human Rights and Rule of Law Update, June 2006, 
14-16.
    \195\ ``State Council Research Center Issues Report: China's Rural 
Workers Are Experiencing Three Big Changes,'' Xinhua.

    Notes to Section V(d)--Freedom of Religion
    \1\ See, e.g., the Universal Declaration of Human Rights, adopted 
and proclaimed by General Assembly resolution 217 A (III) of 10 
December 48, art. 18; International Covenant on Civil and Political 
Rights (ICCPR), adopted by General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, art. 18. China has 
signed, but has not yet ratified, the ICCPR. The Chinese government has 
committed itself to ratifying, and thus bringing its laws into 
conformity with, the ICCPR and reaffirmed its commitment as recently as 
April 13, 2006, in its application for membership in the UN Human 
Rights Council. China's top leaders have previously stated on three 
separate occasions that they are preparing for ratification of the 
ICCPR, including in a September 6, 2005 statement by Politburo member 
and State Councilor Luo Gan at the 22nd World Congress on Law, in 
statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \2\ PRC Constitution, art. 36.
    \3\ For examples of protections in Chinese law, see, e.g., the PRC 
Regional Ethnic Autonomy Law, enacted 31 May 84, amended 28 February 
01, art. 11, the PRC Education Law, enacted 18 March 95, art. 9, and 
the PRC Labor Law, enacted 5 July 94, art. 12. Article 251 of the PRC 
Criminal Law penalizes state officials who infringe on citizens' right 
to freedom of religious belief. PRC Criminal Law, enacted 1 July 79, 
amended 14 March 97, 25 December 99, 31 August 01, 29 December 01, 28 
December 02, 28 February 05, 29 June 05.
    \4\ See, e.g., Chinese Communist Party Central Committee, 
Concerning Our Country's Basic Viewpoints and Policies on the Religion 
Question During Its Socialist Period [Guanyu woguo shehuizhuyi shiqi 
zongjiao wenti de jiben guandian he jiben zhengce], issued 31 March 82 
(Document 19). This document recognized the ``complex'' nature of the 
religious situation in China and stated that the Party's policy toward 
religion is to ``respect and protect freedom of religious belief'' as a 
long-term policy until religion extinguishes itself. For overviews of 
this document and subsequent party policy, see, e.g., Beatrice Leung, 
``China's Religious Freedom Policy: The Art of Managing Religious 
Activity,'' 184 The China Quarterly 894, 903-13 (2005); Pitman B. 
Potter, ``Belief in Control: Regulation of Religion in China,'' 174 
China Quarterly 317, 319-24 (2003); Kim-Kwong Chan and Eric R. Carlson, 
Religious Freedom in China: Policy, Administration, and Regulation 
(Santa Barbara, CA: Institute for the Study of American Religion, 
2005), 2-3, 18-19, 42-57.
    \5\ See, e.g., Cheng Ming, ``One-Third of CPC Members Attend 
Religious Activities,'' 1 November 05, 8-9 (Open Source Center, 24 May 
06); Communist Party Committee Handan City People's Government State 
Property Supervision Board of Management (Online), ``Communist Party 
Members Cannot Believe in Religion'' [Gongchangdangyuan buneng xinyang 
zongjiao], 13 March 06. While Party membership is not mandatory in 
China, it can further career opportunities and social advancement. 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
International Religious Freedom Report--2005, China (includes Tibet, 
Hong Kong, and Macau), 8 November 05.
    \6\ State Administration for Religious Affairs (Online), ``Fourth 
Operation Office'' [Yewu sisi], last visited 5 September 06.
    \7\ Some government documents have referred to the five religions 
as China's ``main'' religions. In practice, the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection, even though neither the Constitution 
nor national Chinese law restricts the definition of religion to these 
five belief systems. See, e.g., State Council Information Office, White 
Paper on Freedom of Religious Belief in China, 16 October 97 (stating 
that China's ``main religions'' are Buddhism, Daoism, Islam, 
Catholicism, and Protestantism). Officials told a visiting U.S. 
delegation in August 2005 that they were considering at the national 
level whether to allow some other religious communities to register to 
establish organizations or religious activity venues, but no decisions 
in this area have been reported. U.S. Commission on International 
Religious Freedom (USCIRF), ``Policy Focus: China,'' 9 November 05, 4. 
See also Human Rights Watch (Online), ``A Year After New Regulations, 
Religious Rights Still Restricted, Arrests, Closures, Crackdowns 
Continue,'' 1 March 06.
    \8\ There is some limited tolerance outside this framework for some 
ethnic minority and ``folk'' religious practices, as well as some 
regional variation in the recognition of other religious groups. See, 
e.g., discussions on regional variations in implementation of religious 
policy and government policy toward folk religions, infra; ``Religious 
Freedom for China's Orthodox Christians,'' infra; Kim-Kwong Chan, 
``Religion in China in the Twenty-first Century: Some Scenarios,'' 33 
Religion, State & Society, No. 2, 87, 92; and Putian City Licheng 
District Ethnic and Religious Affairs Bureau (Online), ``Putian 
Patriotic Religious Organizations'' [Putian zongjiao aiguo tuanti], 
last visited 14 September 06.
    \9\ See, e.g., Hebei Province Regulation on Religious Affairs 
[Hebeisheng zongjiao shiwu tiaoli], issued 18 July 03, art. 2.
    \10\ State Council Information Office, White Paper on Freedom of 
Religious Belief in China.
    \11\ Local religious regulations have specified that individuals 
(and in some cases ``members of a family'') may carry out religious 
activities at home or ``live a religious life'' at home, but none have 
extended this to relatives and friends. See, e.g., Shanxi Province 
Regulation on Religious Affairs [Shanxisheng zongjiao shiwu tiaoli], 
issued 29 July 05, art. 22. One local regulation allows some limited 
religious activity at home for participation by relatives and friends, 
but it appears to limit activities to rites related to illness, 
funerals, and memorials. Guangxi Zhuang Autonomous Region Temporary 
Provisions on the Administrative Management of Religious Work [Guangxi 
zhuangzu zizhiqu zongjiao shiwu xingzheng guanli zanxing guiding], 
issued 22 March 94.
    \12\ Local authorities' actions toward such ``house churches'' have 
varied. In some places, local authorities have tolerated such services, 
while in other places have shut them down. U.S. Department of State, 
International Religious Freedom Report--2005, China. The government 
reportedly has instructed registered Protestant organizations to hold 
services at home, in response to the growth of such services by 
unregistered groups. See ``Religious Freedom for China's Protestants,'' 
infra.
    \13\ Leung, ``China's Religious Freedom Policy,'' 897. The 
patriotic religious associations are ``mass organizations'' established 
under the Communist Party.
    \14\ See, e.g., ``Clear Tasks, Carrying Out Our Functions: Thoughts 
on the Issue of Completely Bringing into Play the Functions of the 
Islamic Associations'' [Mingque renwu luxing zhineng--guanyu chongfen 
fahui yixie zuoyong wenti de sikao], 2 China Muslim, 25-27 (2005); 
``Catholic Patriotic Association Leaders Deny Bishops Permission to 
Attend Synod in Rome,'' CECC China Human Rights and Rule of Law Update, 
October 2005, 7.
    \15\ U.S. Commission on International Religious Freedom, ``Policy 
Focus: China,'' 9 November 05, 4.
    \16\ U.S. Department of State, International Religious Freedom 
Report--2005, China.
    \17\ PRC Constitution, art. 36.
    \18\ Chinese laws and regulations have not provided an explicit 
definition of this term. Article 36 of the Constitution does not 
clearly define the scope of ``normal religious activity.'' It notes 
only, ``No one may make use of religion to engage in activities that 
disrupt public order, impair the health of citizens or interfere with 
the educational system of the state.'' Some local regulations have 
indicated what activities constitute ``religious activities'' but not 
explicitly ``normal'' religious activities. See, e.g., Shanxi Province 
Regulation on Religious Affairs, art. 20. It is unclear whether such 
lists, which describe activities including Buddhist worship, Ramadan 
observance, and baptism, are exclusive. While such an exclusive list 
would at least provide citizens with more notice of what activities are 
protected under law, this would also contravene international human 
rights standards, which define religion to include a broad range of 
practices beyond specific acts (like Ramadan or Buddhist worship). 
General Comment No. 22: The Right to Freedom of Thought, Conscience and 
Religion (Art. 18), 30 July 93, para. 4.
    \19\ U.S. Department of State, International Religious Freedom 
Report--2005, China.
    \20\ Ibid. See also, ``Religious Freedom for China's Orthodox 
Christians,'' infra.
    \21\ The State Department reports that such folk practices ``are 
tolerated to varying degrees as loose affiliates of Taoism, Buddhism, 
or ethnic minority cultural practices.'' U.S. Department of State, 
International Religious Freedom Report--2005, China.
    \22\ It also refers to such activities simply as ``superstitions.'' 
Some activities related to ``superstitions'' or ``feudal 
superstitions'' are penalized under the Criminal Law and administrative 
regulations. See, e.g., PRC Criminal Law, art. 300; PRC Public Security 
Administration Punishment Law, enacted 28 August 05, art. 27(1).
    \23\ See, ``Government Persecution of Falun Gong,'' infra, for more 
information. The government also has labeled some unregistered 
religious groups as cults. See, e.g., ``UN Petition Submitted for 
Jailed Ailing Church Leader; Medical Parole Appeal Filed by Family 
Members,'' China Aid Association (Online), 6 March 06 (describing the 
case of Pastor Gong Shengliang, whom authorities sentenced in a first-
instance trial for crimes including cult-related activities).
    \24\ Provisions on the Management of the Religious Activities of 
Foreigners within the PRC [Zhonghua renmin gongheguo jingnei waiguoren 
zongjiao huodong guanli guiding], issued 31 January 94, art. 4.
    \25\ See, e.g., China Development Brief (Online), ``NGOs: the 
Diverse Origins, Changing Nature and Growing Internationalisation of 
the Species,'' 31 December 04; China Development Brief (Online), 
``Muslim Hands Reach Out to Gansu,'' 6 May 05.
    \26\ Detailed Implementing Rules for the Provisions on the 
Management of the Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, art. 17.
    \27\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04.
    \28\ Nailene Chou Wiest, ``Religious Groups Get More Room to 
Move,'' South China Morning Post (Online), 20 October 04, (quoting 
Zhang Xunmou, Policy and Law Department of SARA).
    \29\ For a listing of national and local regulations as of 2005, 
see Chan and Carlson, Religious Freedom in China, 27-42.
    \30\ RRA, art. 2.
    \31\ Ibid., art. 3.
    \32\ See, e.g., RRA, arts. 8, 13-15, 27. Some provisions permit 
certain acts in accordance with other regulations, such as Article 7, 
which permits religious organizations to publish religious materials in 
accordance with relevant national regulations. The relevant regulations 
referred to require approval to publish religious materials. See, e.g., 
Regulation on the Administration of Printing Enterprises, arts. 7, 15, 
18, 30-31; Provisions Regarding the Administration of Contracts to 
Print Bible Texts [Guanyu chengjie ``shengjing'' yinshua de guanli 
guiding], issued 22 November 94.
    \33\ See, e.g., Hubei Province United Front Department (Online), 
``Xiangfan City Makes Great Efforts in Study Sessions for the 
Regulation on Religious Affairs'' [Xiangfanshi zhashi zhuahao zongjiao 
shiwu tiaoli de xuexi peixun], 25 February 05; Shenzhen Luohu District 
E-Government Affairs (Online), ``Luohu District Party Committee and 
Government Adopt Multiple Steps to Practically Strengthen Religious 
Work Under Their Jurisdiction'' [Luohuquwei, quzhengfu caiqu duoxiang 
cuoshi qieshi jiaqiang xiaqu zongjiao gongzuo], 9 June 05.
    \34\ See, e.g., Jilin Province Ethnic Affairs Commission and 
Religious Affairs Bureau (Online), ``Provincial Religious Affairs 
Bureau Launches a Circuit Study Tour at the Grassroots Level'' [Sheng 
zongjiaoju shenru jiceng kaizhan xunhui jiaoxue], 18 April 06; Henan 
Province Ethnic Affairs Commission and Religious Affairs Bureau 
(Online), ``Zhengzhou Launches `Religious Work Enters the Community' 
Activity'' [Zhengzhoushi kaizhan ``zongjiao gongzuo jinshequ'' 
huodong], 21 March 06.
    \35\ Under Article 6 of the RRA, religious organizations must 
register in accordance with the rules established under the Regulations 
on the Registration and Management of Social Organizations [Shehui 
tuanti dengji guanli tiaoli], issued 25 October 1998. In addition to 
provisions within the RRA on the registration of venues for religious 
activity, new Measures on the Examination, Approval, and Registration 
of Venues for Religious Activity [Zongjiao huodong changsuo sheli 
shenpi he dengji banfa], issued 21 April 05, also govern this process.
    \36\ Management of Venues for Religious Activity [Zongjiao huodong 
changsuo guanli tiaoli], issued 31 January 94 (repealed); Measures on 
the Registration of Venues for Religious Activity [Zongjiao huodong 
changsuo dengji banfa], issued 13 April 94 (repealed); Implementing 
Measures on the Management of the Registration of Religious Social 
Organizations [Zongjiao shehui tuanti dengji guanli shishi banfa], 
issued 6 May 91. For registration requirements in local regulations, 
see, e.g., Beijing Municipality Regulation on Religious Affairs 
[Beijingshi zongjiao shiwu tiaoli], issued 18 July 02, amended 28 July 
06, arts. 6, 18.
    \37\ RRA, arts. 6, 12-15.
    \38\ Regulations on the Registration and Management of Social 
Organizations, art. 10.
    \39\ RRA, art. 14(2).
    \40\ General Comment No. 22: The Right to Freedom of Thought, 
Conscience and Religion (Art. 18), para. 4.
    \41\ RRA, art. 12.
    \42\ See, e.g., Shanxi Province Regulation on Religious Affairs, 
art. 22.
    \43\ General Comment No. 22: The Right to Freedom of Thought, 
Conscience and Religion (Art. 18), para. 4.
    \44\ RRA, arts. 7, 21.
    \45\ See, e.g., Regulations on the Administration of Printing 
Enterprises, arts. 18, 30-31; Provisions Regarding the Administration 
of Contracts to Print Bible Texts.
    \46\ RRA, art. 27.
    \47\ Ibid.
    \48\ Ibid., arts. 38-46.
    \49\ Ibid., art. 38. In addition to providing disciplinary 
sanctions, this provision also states that where a crime has been 
committed, criminal liability shall be investigated.
    \50\ See, e.g., Ibid., arts. 40-45.
    \51\ Ibid., art. 43. Article 1 of an earlier Circular of Provisions 
on Self-Funded Pilgrimages [Guanyu zifei chaojin ruogan guiding de 
tongzhi], issued 28 January 01 (partly annulled) states only that no 
organization other than those authorized by the circular may organize 
pilgrimages. Local regulations on religion do not mention restrictions 
on pilgrimages or penalties for their organization, except for a 2001 
amendment (not yet made public in China) to the 1994 Xinjiang Uighur 
Autonomous Region Regulation on the Management of Religious Affairs, 
which states that no organization or individual other than authorized 
government organizations may organize pilgrimages. Human Rights Watch 
and Human Rights in China (Online), ``Devastating Blows: Religious 
Repression of Uighurs in Xinjiang,'' April 2005, 39, 87. Although the 
RRA's articulation of which specific acts constitute violations of the 
regulation promotes more transparency, it also may indicate new 
national restrictions.
    \52\ RRA, art. 34. See, e.g., Beijing Municipality Regulation on 
Religious Affairs, art. 8.
    \53\ RRA, art. 35.
    \54\ Earlier local regulations have not stated this provision in 
such clear terms. See, e.g., Jiangsu Province Regulation on Religious 
Affairs [Jiangsusheng zongjiao shiwu tiaoli], issued 5 February 02, 
art. 34 (stating only that donations received from abroad be handled in 
accordance with national regulations); Beijing Municipality Regulation 
on Religious Affairs, arts. 36, 39 (allowing organizations and venues 
to receive contributions but not specifying that they may come from 
overseas, and stating that donations received from abroad be handled in 
accordance with national regulations).
    \55\ RRA, art. 46.
    \56\ See, e.g., Hebei Province Regulation on Religious Affairs, 
arts. 2, 8. In some cases, the RRA refers to the national-level 
association of a particular religion but does not use the patriotic 
association's precise name or make reference to all the associations. 
See, e.g., RRA, arts. 11, 27.
    \57\ For example, some observers have suggested that the lack of 
mention of five religions within the RRA may indicate that the 
government will recognize more religious groups. See, e.g., Lauren 
Homer, ``The New Regulation on Religious Affairs in China: A Legal 
Analysis,'' presented at the Christian Leadership Exchange and Fuller 
Theological Seminary Forum on China's Religious Regulations 2005 
(Online), March 2005.
    \58\ The RRA states only that the 1994 national Regulation on the 
Management of Venues for Religious Activity is annulled. RRA, art. 48. 
On April 21, 2005, the State Administration for Religious Affairs 
issued new Measures on the Examination, Approval, and Registration of 
Venues for Religious Activity.
    \59\ RRA, arts. 6, 13-15. The wording of the local regulations 
varies, but the requirements imposed generally track those in the 
national regulation. Shanghai Municipality Regulation on Religious 
Affairs [Shanghaishi zongjiao shiwu tiaoli], issued 30 November 95, 
amended 21 April 05, arts. 7, 17; Henan Province Regulation on 
Religious Affairs [Henansheng zongjiao shiwu tiaoli], arts. 7, 8, 16-
18; Zhejiang Province Regulation on Religious Affairs [Zhejiangsheng 
zongjiao shiwu tiaoli], issued 6 December 97, amended 29 March 06, 
arts. 9, 22-23; Shanxi Province Regulation on Religious Affairs, arts. 
8-9, 12-13; Beijing Municipality Regulation on Religious Affairs, arts. 
6, 18; Anhui Province Regulation on Religious Affairs [Anhuisheng 
zongjiao shiwu tiaoli], issued 15 October 99, amended 29 June 06, art. 
9. But see Anhui Province Regulation on Religious Affairs, art. 19. 
Amendments to the Anhui regulation change only two provisions in the 
original 1999 regulation. According to Article 19, which was unchanged 
by the amendments, the establishment of a religious venue must be done 
in accordance with the Regulation on the Management of Venues for 
Religious Activity, which was annulled by the RRA. For an overview of 
four of the new or amended regulations, see ``Zhejiang and Other 
Provincial Governments Issue New Religious Regulations,'' CECC China 
Human Rights and Rule of Law Update, June 2006, 9-10.
    \60\ Henan Province Regulation on Religious Affairs, art. 2.
    \61\ Compare the amended Shanghai Municipality Regulation on 
Religious Affairs and the original Shanghai Municipality Regulation on 
Religious Affairs, issued 30 November 95, art. 3.
    \62\ Shanghai Municipality Regulation on Religious Affairs, amended 
21 April 05, art. 27; Henan Province Regulation on Religious Affairs, 
art. 21; Zhejiang Province Regulation on Religious Affairs, amended 29 
March 06, art. 36; Shanxi Province Regulation on Religious Affairs, 
art. 22; Beijing Municipality Regulation on Religious Affairs, art. 23; 
Anhui Province Regulation on Religious Affairs, art. 28. The Zhejiang, 
Henan, Beijing, and Anhui regulations permit citizens to ``live a 
religious life'' (guo zongjiao shenghuo) within their homes, and the 
Shanghai Municipality Regulation specifies that religious members of a 
family may do so. In contrast, the Shanxi regulation uses different 
language, stipulating in Article 22 that religious citizens may ``carry 
out normal religious activities (jinxing . . . zhengchang zongjiao 
huodong) within their own residence that are participated in by 
religious members of a family.'' See also ``Zhejiang and Other 
Provincial Governments Issue New Religious Regulations,'' 9-10.
    \63\ See the amended Shanghai Municipality Regulation on Religious 
Affairs, arts. 51-61 and the original Shanghai Municipality Regulation 
on Religious Affairs, arts. 54-59.
    \64\ Henan Province Regulation on Religious Affairs, art. 26. 
Compare to the Shanghai Municipality Regulation on Religious Affairs, 
amended 21 April 05, art. 60; Zhejiang Province Regulation on Religious 
Affairs, amended 29 March 06, art. 49; Shanxi Province Regulation on 
Religious Affairs, art. 34; Beijing Municipality Regulation on 
Religious Affairs, art. 49; and Anhui Province Regulation on Religious 
Affairs, art. 53. Article 51 of the original Zhejiang regulation 
contained a similar provision to the one in the amended Zhejiang 
regulation, but it applied only to state officials from religious 
affairs bureaus, whereas Article 49 in the amended version applies to 
all state officials acting in the course of religious work. See the 
original Zhejiang Province Regulation on Religious Affairs, issued 6 
December 97, art. 51.
    \65\ State Administration for Religious Affairs (Online), ``China 
Religious Culture Communication Association Established in Beijing'' 
[Zhonghua zongjiao wenhua jiaoliu xiehui zai jing chengli], 30 December 
05; ``New Religious Exchange Association Disseminates Government Views 
of Religion,'' China Human Rights and Rule of Law Update, February 
2005, 11.
    \66\ See the SARA Web site at www.sara.gov.cn. Although the Web 
site provides citizens with another forum for access to religious 
information, its content is limited. The Web site does not provide a 
comprehensive posting of all local regulations on religion and provides 
only select news. Web sites from local religious affairs bureaus are 
often more thorough.
    \67\ ``Why Are Religious People Still Buying Tickets To Enter Their 
Own Places of Worship? '' [Zongjiao renshi jin ben zongjiao changsuo 
weihe hai maipiao?], China Ethnicities News (Online), 7 February 06.
    \68\ For example, Article 36 of the Constitution protects religious 
activities that the state considers ``normal,'' that do not 
``interfere'' with the state's educational system, and that are not 
subject to ``foreign domination.'' Article 3 of the Regulation on 
Religious Affairs requires religious citizens to ``abide by the 
Constitution, laws, regulations and rules, and safeguard unification of 
the country, unity of all nationalities and stability of society,'' and 
not to engage in ``activities that harm State or public interests.''
    \69\ Additional information about the Chinese government's and 
Party's application of the Constitution and law is available in CECC 
Annual Reports 2002-2005.
    \70\ Tibetan Centre for Human Rights and Democracy (Online), 
``China Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions,'' 13 October 05. Teams of officials began conducting 
patriotic education classes at Sera Monastery in April, at Taglung 
Monastery and Gyabdrag Nunnery in June, at Drepung Monastery in 
October, and at Shugsib Nunnery at an unspecified time. (Although the 
patriotic education campaign began in April 2005, public reports were 
not available until October. Unpublished information referred to 
patriotic education activity at Gaden Monastery and Garu Nunnery. 
Information is not available on whether or not the patriotic education 
campaign affected all Lhasa area monastic institutions, or if the 
campaign extended beyond the Lhasa area.)
    \71\ Ibid. During the session at Sera, officials required the monks 
to study six texts in preparation for examinations: ``Handbook of 
History of Tibet,'' ``Handbook on Crushing the Separatists,'' 
``Handbook of Policies on Religion,'' ``Handbook on Law,'' ``Handbook 
of Contemporary Policies,'' and ``Handbook on Ethics for the Masses.''
    \72\ ``Zhang Qingli Becomes New Party Chief of Tibet,'' Xinhua 
(Online), 29 May 06. The Party Central Committee appointed Zhang Qingli 
Secretary of the TAR Party Committee on May 29, 2006, after appointing 
him acting TAR Party secretary in November 2005. Between October 1999 
and March 2005, Zhang held (at different times) senior positions in the 
Xinjiang Uighur Autonomous Region (XUAR) that included deputy secretary 
of XUAR Party Committee, Vice Chairman of the XUAR government, and 
commander of the Xinjiang Production and Construction Corps (also known 
as the Bingtuan).
    \73\ Monks or nuns who administer a monastery or nunnery form the 
Democratic Management Committee (DMC). DMC members must implement Party 
policies on religion and ensure that monks and nuns obey government 
regulations on religious practice.
    \74\ ``Zhang Qingli Delivers Major Address at Opening of Party 
Conference in Tibet,'' Tibet Daily, reprinted in Xinhua (Online), 16 
May 06. (Some of the Party officials attending the meeting also hold 
senior positions in the provincial government or people's congress. For 
example, Party executive deputy secretary Jampa Phuntsog (Xiangba 
Pingcuo) is Chairman of the TAR government, and Legchog (Lieque) is 
Chairman of the TAR People's Congress.)
    \75\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04.
    \76\ ``Standing Committee of Tibet Autonomous Regional People's 
Congress Holds Special Meeting to `Expose and Criticize Dalai Lama's 
Separatist Group,' Calls for Steadfastness in Fighting Separatism,'' 
Sing Tao Daily, 10 June 06 (Open Source Center, 11 June 06). The 
meeting took place ``a few days'' before Sing Tao published the 
article.
    \77\ ``Spiegel Interview With Tibet's Communist Party Chief: Dalai 
Lama `Deceived His Motherland,' '' Spiegel Magazine (Online), 16 August 
06.
    \78\ Tibetan Centre for Human Rights and Democracy, ``China 
Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions.'' (No additional information about the reported 
expulsions and detentions of the Sera monks in July 2005 is available.)
    \79\ In Tibetan Buddhist monasteries and nunneries, a 
``disciplinarian'' supervises monks and nuns who participate in 
religious ceremonies or attend monastic assemblies.
    \80\ ``Tibetan Monk Detained, Another Expelled, Amid Chinese 
Crackdown,'' Radio Free Asia (Online), 18 November 05. (The report does 
not specify whether the period of surveillance is ``residential 
surveillance'' or ``public surveillance.'' The maximum period of 
residential surveillance is six months (Criminal Procedure Law, Article 
58), compared to a maximum period of two years of public surveillance 
(PRC Criminal Law, Article 38).
    \81\ Ibid. Tsering Dondrub ``disappeared'' immediately after the 
prayer request, according to RFA, but police later detained him and 
held him in the Lhasa PSB Detention Center (Gutsa). Tibetan Centre for 
Human Rights and Democracy (Online), ``Human Rights Situation in Tibet, 
Annual Report 2005,'' 21 February 06, 24. According to Tibetan Centre 
for Human Rights and Democracy, police detained Tsering Dondrub because 
they suspected him of putting up pro-independence posters. (No further 
information about his case is available.)
    \82\ Tibetan Centre for Human Rights and Democracy (Online), ``Monk 
Dies Following Dispute with Patriotic Education Instructors,'' 8 
November 05. Monks who discovered Ngawang Jangchub's body speculated 
that he committed suicide. He apparently refused to comply with a 
requirement to denounce the Dalai Lama as a ``splittist'' and pledge 
loyalty to the Chinese government, and defended the Dalai Lama's role 
as a Buddhist leader. In addition, he said that Tibet is not a 
historical part of China.
    \83\ Tibetan Centre for Human Rights and Democracy (Online), ``Five 
Monks from Drepung Monastery in Lhasa Arrested After Conduct of 
`Patriotic Reeducation' Campaign,'' 30 November 05.
    \84\ Tibetan Centre for Human Rights and Democracy (Online), ``Mass 
Silent Protest in Tibet's Drepung Monastery Following China's Continued 
Implementation of `Patriotic Education,' '' 29 November 05. TCHRD 
reported that ``more than four hundred monks sat on a peaceful 
solidarity protest.'' ``Tibetan Monks Arrested, Monastery Closed Amid 
Protests,'' Radio Free Asia (Online), 29 November 05. RFA reported that 
``an unknown number of monks from Drepung monastery staged a rare 
protest in which they gathered at the monastery cathedral courtyard and 
sat in silence.''
    \85\ ``Tibetan Monks Arrested, Monastery Closed Amid Protests,'' 
Radio Free Asia. A Drepung official confirmed that the monastery was 
closed for two days, and said security officials, regular PSB officers, 
and People's Armed Police ``conducted fire drills and completed the 
annual inspection of cultural items'' in the monastery.
    \86\ Tibetan Centre for Human Rights and Democracy, ``China 
Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions.'' According to the report, more than 40 of the 50 nuns at 
Gyabdrag Nunnery (in Linzhou county) refused to pose for photographs 
that they believed would be used for propaganda. Officials canceled 
their enrollment permits and demanded that nunnery officials expel 
them. (No additional information is available about the alleged 13 
expulsions at Shugsib Nunnery, located in Qushui county.)
    \87\ ``New Panchen Lama Enthroned at Ceremony, 8 December Events 
Summarized,'' Xinhua, 8 December 95 (Open Source Center, 8 December 
95). The enthronement ceremony in Rikaze (Shigatse) was on December 8, 
1995. ``The ceremony was jointly presided over and monitored by Li 
Tieying, the representative of the State Council and a State Councilor, 
Gyalcan Norbu [Gyaltsen Norbu], special commissioner and chairman of 
the Tibet Autonomous Regional People's Government, and Ye Xiaowen, 
special commissioner and director of the State Council's Religious 
Affairs Bureau.''
    \88\ ``Tibet Marks Panchen Lama's Enthronement Anniversary,'' 
Xinhua (Online), 8 December 05. The report on the tenth anniversary of 
the December 8, 1995, enthronement states that Gyaltsen Norbu ``became 
the highest ranking figure in Tibetan Buddhism'' when he was enthroned 
at age six, and that the past decade has seen him change from ``grow-up 
[sic] from a child to the leader of Tibetan Buddhism.''
    \89\ Tibetan Government-in-Exile, ``Chronology of Events 
Surrounding Recognition of 11th Panchen Lama,'' 2002. The 10th Panchen 
Lama (Lobsang Trinley Choekyi Gyaltsen, or Qoigyi Gyaincan) died on 
January 28, 1989.
    \90\ `` `Excerpts' of Li Ruihuan's Speech at the Third Meeting of 
the Leading Group for Locating the Panchen Lama's Child Reincarnation 
in Beijing on 10 November,'' Xinhua, 12 November 95 (Open Source 
Center, 12 November 95).
    \91\ State Council Information Office, ``Tibet--Its Ownership and 
Human Rights Situation,'' People's Daily (Online), September 1992.
    \92\ ``An Historical Study of the Communist Party of China's Theory 
and Policy Concerning Religion,'' People's Daily, 14 November 03 (Open 
Source Center, 14 November 03). The article cites a 1990 Party Central 
Committee Circular on Enhancing United Front Work that said, ``We must 
guide patriotic religious groups and persons to integrate love of 
religion and love of country, to bring religious activities within the 
scope of the constitution and law, and adapt to the socialist system.''
    \93\ ``Tibet Marks Panchen Lama's Enthronement Anniversary,'' 
Xinhua.
    \94\ ``11th Panchen Lama Vows to Serve Motherland,'' Xinhua 
(Online), 15 December 05.
    \95\ ``Panchen Lama Makes Rare Public Appearance,'' Associated 
Press, reprinted in Yahoo! (Online), 13 April 06.
    \96\ ``Panchen Lama Calls for Self-cultivation for World's 
Harmony,'' Xinhua (Online), 13 April 06.
    \97\ ``Harmony With the Environment Through Buddhism,'' Xinhua 
(Online), 14 April 06. The Buddhist Association of China and the China 
Religious Culture Communication Association jointly organized the 
forum.
    \98\ ``Dalai Lama's Presence at Buddhist Forum Disharmonious: 
Official,'' Xinhua (Online), 12 April 06. Qi Xiaofei is the Vice 
President of the China Religious Culture Communication Association, 
according to the report.
    \99\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06. ``The government 
continued to refuse to allow access to Gendun Choekyi Nyima . . . and 
his whereabouts were unknown. . . . All requests from the international 
community to access the boy, in order to confirm his well-being, have 
been refused.''
    \100\ ``It Is Both Illegal and Invalid for the Dalai Lama to 
Universally Identify the Reincarnated Soul Boy of the Panchen Lama,'' 
People's Daily, 1 December 95 (Open Source Center, 1 December 95).
    \101\ UN Office of the High Commissioner for Human Rights, 
Committee on the Rights of the Child (Online), ``Consideration of 
Reports Submitted by States Parties Under Article 44 of the Convention: 
Concluding Observations,'' 30 September 05.
    \102\ UN Commission on Human Rights (Online), ``Summary of Cases 
Transmitted to Governments and Replies Received,'' 27 March 06, 24-25. 
The Special Rapporteur on Freedom of Religion or Belief sent a request 
to the Chinese government for information about Gedun Choekyi Nyima on 
June 9, 2005. The Chinese government provided a response on September 
7, 2005.
    \103\ ``Beijing Pledge on Next Dalai Lama,'' South China Morning 
Post (Online), 19 July 05. Jampa Phuntsog, the deputy Party secretary 
of the TAR, told reporters in Hong Kong, ``The choice [of reincarnated 
lamas] has never been arranged by the Chinese Communist Party.''
    \104\ Ibid.
    \105\ ``Selection of 10th Panchen Lama Announced,'' Xinhua, 29 
November 95 (Open Source Center, 29 November 95).
    \106\ Ministry of Foreign Affairs (Online), ``Did Tibet Become an 
Independent Country after the Revolution of 1911?,'' 15 November 00. 
``In 1792 the Twenty-Nine Article Imperial Ordinance was issued. It 
stipulated in explicit terms for the reincarnation of the Living 
Buddhas in Tibet as well as the administrative, military and foreign 
affairs.'' (The edict sought to impose Qing control over religious, 
administrative, military, fiscal, commercial, and foreign affairs. The 
edict demanded that the Amban, the ``Resident Official'' representing 
the imperial court, would have equal status to the Dalai and Panchen 
Lamas, and function as the supervisor of the Tibetan administration.)
    \107\ Tibet Information Network, ``Search Party Abbot and Assistant 
`Held Incommunicado' for 12 Days,'' 31 May 95. ``The ferocity of 
Chinese anger at the Dalai Lama's pre-emptive announcement has taken 
observers by surprise, but much of Beijing's claim to rule Tibet rests 
on its right to appoint the Dalai Lama and the Panchen Lama. China had 
no involvement in the selection of the 13th Dalai Lama, and its claim 
to have had a hand in the selection of the current, 14th, Dalai Lama 
was rubbished by Ngawang Ngapo Jigme, then the seniormost Tibetan 
official in China, in a newspaper article in China in 1991.''
    \108\ RRA, art. 27, translated on the Web site of China Elections 
and Governance. ``The succession of living Buddhas in Tibetan Buddhism 
shall be conducted under the guidance of Buddhism bodies and in 
accordance with the religious rites and rituals and historical 
conventions, and be reported for approval to the religious affairs 
department of the people's government . . . .'' (At the December 1995 
installation of Gyaltsen Norbu, his parents reportedly expressed 
support for the policy of drawing lots from a golden urn to select the 
Panchen Lama. They used wording similar to that which appears in 
Article 27: ``We resolutely support the drawing of lots from the golden 
urn in front of the statue of the Buddhist patriarch, who will choose 
the soul boy. This conforms to religious ritual and historic 
convention.'') ``Panchen Soul Boy Comes From Ordinary Family,'' Ta Kung 
Pao, 11 December 95 (Open Source Center, 12 December 95).
    \109\ The CECC Annual Report for 2005 referred to the period 2002-
2004 saying, ``About two-thirds of the Tibetan political prisoners 
detained from 2002 onward are in Sichuan province, according to the 
PPD. Half of them are monks.''
    \110\ Based on PPD information current in August 2006, there were a 
total of 14 cases of known political detentions of Tibetan monks and 
nuns in Gansu and Qinghai provinces in 2005. In comparison, the largest 
total for any of the years 2000-2004 was six.
    \111\ Tibetan Centre for Human Rights and Democracy, ``China 
Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions.'' For example, as many as eight Sera monastery monks 
reportedly detained in July 2005 remain unidentified. (In addition, 
reports about disagreements between monks and nuns and patriotic 
education officials at other Lhasa area monasteries and nunneries 
remain vague.)
    \112\ ``Buddhism Exam in Tibet,'' People's Daily (Online), 29 July 
04. Preliminary examinations for the Geshe degree resumed on July 28, 
2004.
    \113\ Tibetan Government-in-Exile (Online), ``The Geshe Degree,'' 
last visited 30 August 06. The Geshe degree was established by the 5th 
Dalai Lama in the 17th century. Of the four levels of Geshe, Lharampa 
is the highest.
    \114\ The Gelug tradition, established in the late 14th century, is 
the largest of several traditions of Tibetan Buddhism that are 
currently practiced. The Dalai Lama and Panchen Lama are the most 
revered spiritual teachers of the Gelug.
    \115\ China Tibet Information Center (Online), ``Six Tibetan Monks 
Receive Geshe Lharampa,'' 28 June 05. Six monks received the Geshe 
Lharampa degree on June 27, 2005. (The examinations apparently took 
place during June, not during the traditional Monlam Chenmo period that 
spans several days during the first lunar month.) ``China Exclusive: 
Lamas Honored Highest Tibetan Buddhism Degree,'' Xinhua, 22 March 06 
(Open Source Center, 22 March 06). Seven monks received the Geshe 
Lharampa degree on March 22, 2006. (The monks reportedly passed 
examinations during the Monlam Chenmo, the traditional period when the 
examinations take place. Monlam Chenmo was March 11-15 in 2006.)
    \116\ Tibetan Centre for Human Rights and Democracy (Online), 
``Human Rights Situation in Tibet, Annual Report 2005,'' 21 February 
06, 104. ``Due to a policy introduced by Chinese authorities, 
applicants for the degree have to study six books on political thoughts 
known as `Love Your Country, Love Your Religion' which are taught in 
the `patriotic reeducation' campaign.''
    \117\ The Gu-Chu-Sum Movement of Tibet, ``Tibetan Envoy 
Newsletter,'' September 2004.
    \118\ Ibid.
    \119\ ``Buddhism Exam in Tibet,'' People's Daily. ``The exam has 
been suspended for 16 years after a separatist group headed by Dalai 
Lama took advantage of this religious event in 1988 to start a riot.'' 
(According to eyewitness accounts, the ``riot'' was a large, peaceful 
pro-independence demonstration that developed during a religious 
procession led by Jokhang Temple monks on March 5, 1988. People's Armed 
Police suppressed the resulting confrontation with overwhelming force.)
    \120\ The Catholic Church in China is divided into unregistered and 
registered communities. This division resulted from the government's 
formation of a ``patriotic'' Catholic community independent from the 
Catholic Church in the rest of the world. In the late 1950s the Chinese 
government established the Catholic Patriotic Association (CPA), a mass 
organization under Party control, gave it control of all Church 
property, and convinced a small group of bishops to register with and 
subordinate themselves to the CPA. Since that time, the government has 
worked to persuade and coerce Catholic clergy and laity to do the same. 
The majority of the Catholic clergy refused to register with the CPA 
and went ``underground.'' Yet it should be noted that in recent years 
the Chinese government has permitted three ``underground'' bishops to 
register with the SARA without registering with the CPA. Roman Malek, 
``Normalization `de Jure' and `de Facto': Remarks on Sino-Vatican 
Relations,'' Tripod (Online), Vol. 26, No. 141, Summer 2006. On the 
situation of the Catholic Church in China today, see Betty Ann Maheu, 
``The Catholic Church in China: Journey of Faith. An Update on the 
Catholic Church in China: 2005,'' paper presented at the 21st National 
Catholic China Conference, Seattle, Washington, 24 June 05 (available 
at the Web site of the U.S. Catholic China Bureau).
    The Hong Kong diocese's Holy Spirit Study Centre estimates that 
there are 12 million Catholics in China. ``Estimated Statistics for 
China's Catholic Church (October 2005),'' Tripod (Online), Vol. 25, No. 
139, Winter 2005. Other foreign analysts give higher estimates. Sandro 
Magister, ``The Bishop of Xi'an's Long March to Rome,'' L'espresso 
(Online), 15 March 04 (12-15 million); ``China's Christians Suffer for 
Their Faith,'' BBC (Online), 9 November 04 (15-20 million). The Chinese 
government says there are slightly more than 5 million Catholics, but 
excludes the unregistered community. ``Chinese Catholics Mourn for 
Pope, Better Ties With Vatican Hoped,'' People's Daily (Online), 4 
April 05.
    \121\ Most detention reports for Catholic clerics originate from 
the Cardinal Kung Foundation, a U.S. NGO which monitors religious 
freedom for unregistered Chinese Catholics. In the past year two 
detention reports have originated from AsiaNews, an Italian Catholic 
news agency. ``Two Underground Priests Arrested,'' AsiaNews (Online), 
28 October 05 (two priests detained in Zhejiang province); 
``Underground Roman Catholic Bishop Jia Zhiguo Arrested Again in China; 
Two Other Underground Priests of the Same Diocese Also Arrested,'' 
Cardinal Kung Foundation (Online), 9 November 05 (one bishop and two 
priests detained in Hebei province); ``Underground Roman Catholic 
Priest and Ten Seminarians Arrested,'' Cardinal Kung Foundation 
(Online), 17 November 05 (one priest and ten seminarians detained in 
Hebei province); ``Six Underground Roman Catholic Priests Arrested,'' 
Cardinal Kung Foundation (Online), 28 November 05 (six priests detained 
in Hebei province); ``Underground Catholic Priest and Seven Deacons 
Abducted,'' AsiaNews (Online), 7 December 05 (one priest and seven 
deacons detained in Hebei province); ``An Underground Roman Catholic 
Priest Arrested in Hebei; Another Underground Bishop Has Disappeared,'' 
Cardinal Kung Foundation (Online), 4 January 06 (one priest detained in 
Hebei province--missing bishop was already in detention); ``Two 
Underground Roman Catholic Priests Arrested in Hebei; Bishop Jia Zhiguo 
is Still in Detention,'' Cardinal Kung Foundation (Online), 23 February 
06 (two priests detained in Hebei province); ``Underground Bishop Jia 
Zhiguo is Arrested Again,'' Cardinal Kung Foundation, 6 July 06 (one 
bishop detained in Hebei province); ``Underground Catholic Bishop Yao 
Liang is Arrested Again in China; Another Priest and Some 90 Catholics 
Are Also Arrested,'' Cardinal Kung Foundation, 2 August 06 (one bishop, 
one priest, 90 Catholic laypersons detained in Hebei province); ``Hebei 
Priest Tortured and Bishop Arrested To Stop Pilgrimage,'' AsiaNews, 11 
August 06 (one priest missing in Hebei province).
    \122\ In October, there was one incident in Zhejiang; in November, 
five incidents in Hebei; in December, one incident in Hebei; and in 
February, one incident in Hebei. Regarding Hebei, see Xing Guofang, ``A 
New Wave of Persecution Against Hebei Catholics,'' AsiaNews (Online), 
27 September 05; Han Li, ``Persecution Strengthens Underground Church 
in Hebei Province,'' AsiaNews (Online), 29 November 05.
    \123\ ``Two Underground Priests Arrested,'' AsiaNews.
    \124\ ``Church Destroyed in Fujian, Another To Follow Shortly,'' 
AsiaNews (Online), 4 September 06.
    \125\ ``Underground Roman Catholic Bishop Jia Zhiguo Arrested Again 
in China,'' Cardinal Kung Foundation.
    \126\ Ibid; ``Bishop Jia of Zhengding Reportedly Released After 
Five-Month Detention,'' Union of Catholic Asian News (Online), 25 April 
06.
    \127\ Bernardo Cervellera, ``A Vatican Delegation Goes to 
Beijing,'' AsiaNews (Online), 27 June 06; ``Underground Bishop Jia 
Zhiguo is Arrested Again,'' Cardinal Kung Foundation.
    \128\ ``Re-Arrest of Bishop Su Zhimin, Underground Catholic Bishop 
of Baoding, in Hebei Province, China,'' Cardinal Kung Foundation 
(Online), 11 October 97.
    \129\ ``An Underground Catholic Bishop Released After More Than 10 
Years of Detention,'' Cardinal Kung Foundation (Online), 25 August 06; 
``Monsignor Francis An Shuxin Released After 10 Years,'' AsiaNews 
(Online), 26 August 06.
    \130\ ``Uberfall auf Ordensschwestern in Xi'an und andere 
`Harmoniebruche' '' [Attack on Nuns in Xi'an and Other ``Breaches of 
Peace''], China heute. Informationen uber Religion und Christentum im 
chinesischen, Vol. 24, No. 142, 2005, 198-200.
    \131\ ``Xi'an: 16 Nuns Brutally Beaten for Having Defended a School 
of the Diocese,'' AsiaNews (Online), 28 November 05. ``Nuns Beaten in 
Xi'an: the Government Asks the Diocese to Pay for the School That It 
Already Owns,'' AsiaNews (Online), 30 November 05; Philip P. Pan, 
``Five Chinese Nuns Hospitalized After Land Dispute,'' Washington Post 
(Online), 2 December 05; ``Nuns Beaten in Xi'an: 11 of 40 `Thugs' Under 
Police Detention,'' AsiaNews (Online), 12 December 05. A government-
controlled Xi'an newspaper also reported the incident. ``November 23 
Wuxing Jie Catholic Church: The Case of the Beaten Nun Has Been Broken 
Open,'' Xi'an Evening News (Online), 8 December 05. In recent years, 
some local Chinese officials have resorted to hiring ``thugs'' to 
intimidate or beat activists, critics, lawyers, journalists, or 
citizens who challenge corrupt practices. Paul Wiseman, ``Young Chinese 
Make a Living Through Fists,'' USA Today (Online), 22 November 05.
    \132\ ``Chinese Priests Brutally Beaten in Tianjin: Like the Nuns 
of Xi'an,'' AsiaNews (Online), 19 December 05; ``The Priests of Taiyuan 
Call for Justice After Attack,'' AsiaNews (Online), 19 December 05; 
``Shanxi Catholics Appeal to Beijing to Get Church Property Back,'' 
AsiaNews (Online), 20 December 05; ``Priests Return to Shanxi; 
Government Promises to Defend Church's Property Rights,'' AsiaNews 
(Online), 2 January 06. A government-controlled Shanghai newspaper also 
reported the incident. ``Church Land Dispute Solved,'' Shanghai Daily 
(Online), 24 December 05.
    \133\ Cervellera, ``Vatican Delegation Goes to Beijing.''
    \134\ The relaxation of control is evident in the authorities 
permitting the consecration of bishops who had, prior to their 
consecration, secured Holy See approval. Carol Glatz, ``Hong Kong 
Bishop Calls Ordinations `Breakthrough' in Chinese Affairs,'' Catholic 
News Service (Online), 21 October 05; ``New Bishop of Suzhou First of 
Several Ordinations Expected This Year,'' Union of Catholic Asian News 
(Online), 21 April 06.
    \135\ Anthony Lam, ``A Review of Catholic Real Estate Issues in 
China,'' Tripod (Online), Vol. 26, No. 140, Spring 2006.
    \136\ State Council Authorization of the Report by the Religious 
Affairs Office, National Basic Construction Committee, and Other 
Agencies Regarding Carrying Out Religious Groups' Real Property 
Policies and Other Issues [Guowuyuan pizhuan zongjiao shiwuju, guojia 
jiben jianshe weiyuanhui deng danwei guanyu luoshi zongjiao tuanti 
fangchan zhengce deng wenti de baogao], issued 16 July 80.
    \137\ Forum 18 (Online), ``The Economics of Religious Freedom,'' 16 
August 06. See also the analyses in the reports of the news agency 
AsiaNews (Online).
    \138\ Lam, ``Review of Catholic Real Estate Issues in China;'' 
``Elderly Bishop Spends Birthday Attending to Church Property Duties,'' 
UCAN (Online), 26 June 06. ``Church Endures Economic Persecution as 
Patriotic Association Tries to Seize Church Property,'' AsiaNews 
(Online), 1 September 06.
    \139\ ``Bishop With Papal Blessing,'' Beijing Review (Online), 11 
May 06; ``Independent Ordination of Bishops Right Path for China,'' 
Xinhua (Online), 16 May 06. See also ``China Defends Ordination of 
Catholic Bishops,'' Xinhua (Online), 6 May 06; ``Criticism on Bishops 
Ordination Unfounded: FM,'' Xinhua (Online), 7 May 06; ``Ordination of 
Bishops in Line With Rules: Chinese Catholics,'' Xinhua (Online), 12 
May 06. For an account of official intimidation and manipulation in the 
process of selecting bishops, see Zhen Yan, ``New Challenges Facing the 
Catholic Church in Mainland China,'' Tripod (Online), Vol. 26, No. 141, 
Summer 2006. CPA domination of the registered Catholic community has 
extended beyond the selection of Catholic bishops and priests to 
altering Catholic moral teaching. In 1995, the registered bishops 
issued a pastoral letter approving the government's population planning 
policy. ``Dignity and Responsibility of Women,'' Catholic 
International, Vol. 7, No. 1, January 1996, 24-27. Insisting that the 
Holy See lacks the authority to select bishops, the government does not 
permit unregistered bishops to be buried as priests. ``No Solemn 
Funeral Service for Mgr. Guo Wenzhi, Underground Bishop of Qiqihar,'' 
AsiaNews (Online), 30 June 06.
    \140\ Ren Yanli, ``China and the Vatican Will Create a Win-Win 
Situation by Improving Bilateral Ties,'' Ming Pao, 22 June 06 (Open 
Source Center, 22 June 06) (authored by a Chinese academic); ``A New 
Chinese Bishop Consecrated With Vatican Approval,'' AsiaNews (Online), 
19 October 05; ``Government Approves New Bishop After Six Year Wait,'' 
Hong Kong Sunday Examiner (Online), 30 April 06.
    \141\ ``Chinese Government Selects Catholic Bishops Over Holy See 
Objections,'' CECC China Human Rights and Rule of Law Update, May 2006, 
2; Anthony Lam, ``Unauthorized Ordinations An Obstacle to Sino-Vatican 
Relations,'' Tripod (Online), Vol. 26, No. 141, Summer 2006.
    \142\ ``Nine Bishops Take Part in Episcopal Ordination Lacking 
Papal Mandate,'' Union of Catholic Asian News (Online), 1 May 06; ``New 
Bishop Ordained in Anhui Without Pope's Permission,'' AsiaNews 
(Online), 3 May 06; ``Zhan Silu, a Bishop Against Everything and 
Against Everyone,'' AsiaNews (Online), 15 May 06.
    \143\ ``Young Bishops Arrive in Beijing to Attend Government-
Organized Meeting,'' Union of Catholic Asian News (Online), 20 May 06; 
``State Officials Say China Will Ordain More of Its Own Bishops,'' 
Union of Catholic Asian News (Online), 24 May 06.
    \144\ ``Clandestinely Ordained Bishop Taken Away by Force,'' Union 
of Catholic Asian News (Online), 14 September 06. ``Rome-Approved 
Bishop Defies Ban,'' South China Morning Post (Online), 29 May 06; 
Bernardo Cervellera, ``Beijing Has to Free Itself of the Ridiculous 
Politics of the Patriotic Association,'' AsiaNews (Online), 29 May 06.
    \145\ Betty Ann Maheu, ``The Catholic Church in China,'' America 
(Online), 7 November 05; ``Estimated Statistics for China's Catholic 
Church,'' Tripod (138 dioceses and 103 bishops, 64 registered, 39 
unregistered); Jeroom Heyndrickx, ``Confrontation and Lack of Dialogue 
Cause a New China-Vatican Conflict,'' Union of Catholic Asian News 
(Online), 8 May 06; ``China to Defy Rome, Ordain Second Bishop in 
Days,'' Reuters (Online), 2 May 06.
    \146\ Maheu, ``Catholic Church in China.''
    \147\ CECC Staff Interviews; Ibid.
    \148\ CECC Staff Interview.
    \149\ Hans Waldenfels, S.J., ``La Cina sta aprendo: Impressioni di 
un viaggio'' [China Is Opening Up: Impressions from a Journey], La 
Civilta Cattolica, No. 3278, 15 October 05, 186-196.
    \150\ CECC Staff Interviews. In March 2004, a Vatican journal 
stated that 49 of 79 registered bishops had been approved by the Holy 
See. ``C'e un Risveglio Religioso in Cina? '' [Is There a Religious 
Reawakening in China?], La Civilta Cattolica Vol. 155, No. 3689, 6 
March 04. See also, Maheu, ``Catholic Church in China.''
    \151\ ``Catholics Regret Over Vatican Decision,'' China Daily 
(Online), 12 September 05; Bernardo Cervellera, ``Chinese Bishops 
Invited to Rome: Government Has the Last Word,'' AsiaNews (Online), 12 
September 05; ``Negotiations Still On for Chinese Bishops' Rome 
Visit,'' AsiaNews (Online), 16 September 05.
    \152\ CECC Staff Interview. Dorian Malovic, Le Pape Jaune: Mgr. Jin 
Luxian, Soldat de Dieu en Chine Communiste [The Yellow Pope: Monsignor 
Jin Luxian, Soldier of God in Communist China], (Paris, 2006), 255.
    \153\ CECC Staff Interviews; China Church Quarterly (Online), nos. 
64 (Fall 2005), 65 (Winter 2006). Verbiest Koerier/ Christenen en China 
(Online), March 2006; China heute. ``First Catholic-Run Non-Profit 
Organization Registered With Government,'' UCAN (Online), 3 August 06; 
``La Riconciliazione Non e un'Utopia'' [Reconciliation Is Not a 
Utopia], Mondo e Missione (Online), August-September 06 (Caritas groups 
established in Beijing parishes).
    \154\ Malek, ``Normalization `de Jure' and `de Facto': Remarks on 
Sino-Vatican Relations.''
    \155\ One analyst has pointed out that signs indicating that the 
Chinese government was hardening its attitude toward the Holy See began 
to accumulate in July and August of 2005. Cervellera, ``Beijing Has to 
Free Itself of the Ridiculous Politics of the Patriotic Association.''
    \156\ Ambrose Leung, ``Stay Out of Politics, Beijing Warns Cardinal 
Zen,'' South China Morning Post (Online), 24 February 06; Ambrose 
Leung, ``Cardinal Unfazed by Beijing Warning,'' South China Morning 
Post (Online), 25 February 06. The government's warning led to an 
exchange between CPA head Liu Bainian and Cardinal Zen; Ambrose Leung, 
`` `Scaremonger' Is Denounced by Zen: Cardinal Says `Self-Proclaimed' 
Catholic Spokesman Is Fearful of Sino-Vatican Ties,'' South China 
Morning Post (Online), 10 March 06; ``Chinese Catholic Official Says 
Hong Kong's Zen Bad for Ties With Vatican,'' Apple Daily (Online), 13 
March 06; ``Joy in the Church, Fears in Beijing Over Msgr. Zen's 
Nomination as Cardinal,'' AsiaNews (Online), 24 March 06; ``Gentle 
Cleric's Stature Grows As He Risks Ire of China,'' New York Times 
(Online), 8 July 06.
    \157\ ``China, Vatican in Contact for Restoring Ties,'' People's 
Daily (Online), 3 April 06.
    \158\ ``Beijing's Bishop Is a Slap in the Vatican's Face,'' South 
China Morning Post (Online), 1 May 06. ``Dichiarazione del Direttore 
della Sala Stampa della Santa Sede, Dr. Joaquin Navarro-Valls, circa le 
Ordinazioni Episcopali nella Cina Continentale'' [Declaration of the 
Director of the Press Office of the Holy See, Dr. Joaquin Navarro-
Valls, Regarding the Episcopal Ordinations in Mainland China], Press 
Office of the Holy See, 4 May 06; ``Usurping Proper Authority,'' Hong 
Kong Sunday Examiner (Online), 14 May 06.
    \159\ Bernardo Cervellera, ``A Vatican Delegation Goes to 
Beijing,'' AsiaNews (Online), 27 June 06; Ambrose Leung, ``No Consensus 
in Secret Beijing-Vatican Talks,'' South China Morning Post (Online), 
21 July 06.
    \160\ The Islamic Association encompasses a national-level 
association and local associations at the provincial level and lower.
    \161\ See, e.g., ``Clear Tasks, Carrying Out Our Functions: 
Thoughts on the Issue of Completely Bringing into Play the Functions of 
the Islamic Associations'' [Mingque renwu luxing zhineng--guanyu 
chongfen fahui yixie zuoyong wenti de sikao], China Muslim, Vol. 2, 
2005, 25-27; ``Strengthen Quality on the Inside, Cultivate Good Form on 
the Outside, Lead Muslims of All Ethnicities to Establish a Socialist 
Harmonious Society--Work Report from the 7th Session of the 3rd 
Standing Committee of the Islamic Association of China'' [Nei qiang 
suzhi wai shu xingxiang dailing gezu musilin gongjian shehuizhuyi he 
hexie shehui--zai Zhongguo yixie qijie sanci changweihui huiyishang de 
gongzuo baogao], China Muslim, Vol. 6, 2005, 7-11; ``Committee to 
Spread True Koran,'' China Daily (Online), 24 April 01; ``Islamic 
Association of China Islamic Affairs Steering Committee Holds Second 
Meeting in Beijing'' [Zhongguo yisilanjiao jiaowuzhidao weiyuanhui 
dierjie huiyi zai jing juxing], China Muslim, Vol. 6, 2005, 12.
    \162\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04, art. 11.
    \163\ RRA, art. 43.
    \164\ ``China Exclusive: Chinese Muslims to Get Mecca Service,'' 
Xinhua, 13 May 06 (Open Source Center, 13 May 06).
    \165\ ``Islamic Association of China Islamic Affairs Steering 
Committee Holds Second Meeting in Beijing,'' China Muslim.
    \166\ ``The Management Science of Chinese Mosques: Employing Mosque 
Personnel'' [Zhongguo qingzhensi de guanli kexue: qingzhensi jiaozhi 
renyuan pinren shanggang], China News Agency (Online), 12 May 06. See 
also ``Islamic Congress Establishes Hajj Office, Issues New Rules,'' 
CECC China Human Rights and Rule of Law Update, June 2006, 12-13.
    \167\ These groups are the Hui, Uighur, Kazak, Dongxiang, Kirgiz, 
Salar, Tajik, Bonan, Uzbek, and Tatar.
    \168\ State Ethnic Affairs Commission (Online), ``State Ethnic 
Affairs Commission Opens First Consulting Work Group Meeting of the 
Leading Group for Drafting `State Council Regulation on Managing Halal 
Foods' '' [Guojia minwei zhaokai ``Guowuyuan qingzhen shipin guanli 
tiaoli'' qizao gongzuo lingdao xiaozu diyici guwen gongzuo huiyi], 15 
November 05.
    \169\ Circular on Comprehensively Examining Publications Regarding 
Islam [Guanyu quanmian jiancha sheji yisilanjiao de chubanwu de 
tongzhi], issued 15 October 93; Dru Gladney, ``Islam in China: 
Accommodation or Separatism,'' 174 China Quarterly 451, 461 (2003).
    \170\ Circular of Provisions on Self-Funded Pilgrimages [Guanyu 
zifei chaojin ruogan guiding de tongzhi], issued 28 January 01 (partly 
annulled), art. 5.
    \171\ Elisabeth Alles, ``Muslim Religious Education in China,'' 45 
Perspectives Chinoises (Online) (January-February 2003); Will Religion 
Flourish Under China's New Leadership? Staff Roundtable of the 
Congressional-Executive Commission on China, 24 July 03, Testimony of 
Dr. Jacqueline M. Armijo-Hussein, Assistant Professor, Department of 
Religious Studies, Stanford University; Jackie Armijo, ``Islamic 
Education in China,'' 9 Harvard Asia Quarterly (Online), (Winter 2006). 
Armijo reports that, according to some of her informants, authorities 
have not permitted independent Islamic colleges to be established in 
recent years.
    \172\ China Development Brief (Online), ``Local Resources, 
Government, Are Keys to Sustainability for Muslim NGOs,'' 21 March 06.
    \173\ One charity organization has established an office in Gansu. 
Another organization, which supports projects in the XUAR, does not 
have a direct presence there and works with local Chinese charity 
organizations. See China Development Brief, ``Muslim Hands Reach Out to 
Gansu'' (Online), 6 May 05; ``MH in China: 70 Kids have Cleft Lip 
Correction,'' Muslim Hands Feedback 2004 (Online); CECC Staff 
Correspondence.
    \174\ The government's 2000 census listed Uighurs as 45.21 percent 
of the XUAR population and the Han population as 40.57 percent, out of 
a total population of 18.46 million. Statistics cited in Stanley Toops, 
``Demographics and Development in Xinjiang after 1949,'' East-West 
Center Washington Working Papers No. 1, May 2004, 1.
    \175\ Xinjiang Uighur Autonomous Region Implementing Measures for 
the Law on the Protection of Minors [Xinjiang weiwuer zizhiqu shishi 
``weichengnianren baohufa'' banfa], issued 25 September 93, art. 14.
    \176\ The national law on the protection of minors includes no such 
provision. PRC Law on the Protection of Minors, enacted 4 September 91. 
Other provincial-level regulations have dealt with aspects of religious 
practice among minors but are not as restrictive as the XUAR measures. 
See, e.g., Fujian Province Implementing Measures on the Law on the 
Protection of Minors [Fujiansheng shishi ``Zhonghua renmin gongheguo 
weichengnianren baohufa'' banfa], issued 21 November 94, amended 25 
October 97, art. 33. See also Human Rights Watch and Human Rights in 
China, ``Devastating Blows: Religious Repression of Uighurs in 
Xinjiang,'' April 2005, 58.
    \177\ The 2001 amendments, obtained by Human Rights Watch and Human 
Rights in China, have not been made public. Human Rights Watch, 
``Devastating Blows,'' 33-34.
    \178\ Ibid., 33-42. This protection for normal religious activities 
is stated in Article 36 of China's Constitution, as well as in national 
and regional regulations on religion. See, e.g., RRA, art. 3.
    \179\ Human Rights Watch, ``Devastating Blows,'' 31-32, 42-47.
    \180\ Cited in Graham E. Fuller and Jonathan N. Lipman, ``Islam in 
Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. S. Frederick 
Starr (Armonk, NY: M.E. Sharpe, 2004), 331.
    \181\ ``Teacher and 37 Students Detained for Reading Koran in 
China,'' Agence-France Presse (Online), 15 August 05; Uyghur Human 
Rights Project (Online), ``Three Detained in East Turkistan for 
`Illegal' Religious Text,'' 3 August 05.
    \182\ Human Rights Watch, ``Devastating Blows,'' 62-63; ``China 
Cracks Down on Its Muslims,'' Agence France-Presse, reprinted in the 
Washington Times and posted on the East Turkistan Information Center 
Web site, 23 November 01; ``China Steps Up Religious Controls Over 
Muslim Uyghurs,'' Radio Free Asia (Online), 17 November 04.
    \183\ Authorities expelled a university student in 2001 after they 
found her praying in her dorm room. ``China Cracks Down on Its 
Muslims,'' Agence France-Presse.
    \184\ ``China Bans Officials, State Employees, Children from 
Mosques,'' Radio Free Asia (Online), 6 February 06. Will Religion 
Flourish Under China's New Leadership?, Testimony of Dr. Jacqueline M. 
Armijo-Hussein.
    \185\ Human Rights Watch, ``Devastating Blows,'' 52, 55-57.
    \186\ While the authorities permit authorized religious leaders and 
some groups to take part in social programs, they ban meshrep, which 
are small informal social gatherings with religious overtones that 
traditionally discuss and address social issues such as drug abuse. 
See, e.g., Jay Dautcher, ``Public Health and Social Pathologies in 
Xinjiang,'' in Xinjiang: China's Muslim Borderland, 285-86; U.S. 
Commission on International Religious Freedom (USCIRF), Policy Focus: 
China, 9 November 05, 7.
    \187\ USCIRF, Policy Focus: China, 6.
    \188\ ``China Bans Officials, State Employees, Children from 
Mosques,'' Radio Free Asia.
    \189\ ``Chinese Communist Party Takes Strict Precautions Against 
Separatist Activities at Mosques During Kurban'' [Zhonggong yanfang 
xinjiang qingzhensi zai ku'erbangjie gao fenlie huodong], Central News 
Agency, reprinted in Epoch Times (Online), 9 January 06.
    \190\ ``Urumqi Strikes Against Illegal Activities in Minority 
Language Publishing Market'' [Wulumuqishi daji minzu yuyan chubanwu 
shichang feifa huodong], Tianshan Net (Online), 15 February 06.
    \191\ ``Xinjiang Uighur Autonomous Region Destroys 29 Tons of 
Illegal Books'' [Xinjiang weiwuer zizhiqu xiaohui 29 dun feifa tushu], 
Tianshan Net (Online), 16 March 06.
    \192\ ``Wang Lequan Points Out, Resolutely Resist the Use of 
Religion to Carry Out Infiltration from Outside,'' Xinjiang Daily, 3 
April 06 (Open Source Center, 3 April 06).
    \193\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China.
    \194\ ``Uighurs Face Extreme Security Measures; Official Statements 
on Terrorism Conflict,'' CECC China Human Rights and Rule of Law 
Update, May 2005, 12.
    \195\ Ibid. See also U.S. Department of State, Country Reports on 
Human Rights Practices--2005, China.
    \196\ Human Rights Watch, ``Devastating Blows,'' 71-75.
    \197\ The term is also referred to as the ``three forces.'' Chinese 
sources list ``extremism'' as one of the three forces and use the term 
to mean religious extremism. See, e.g., ``Establishing a Harmonious 
Society Cannot Be Separated From an Environment of Good Social Order'' 
[Goujian hexie shehui libukai lianghao de shehui zhi'an huanjing], 
Xinjiang Daily, reprinted in Tianshan Net (Online), 13 January 06.
    \198\ See, e.g., Human Rights Watch, ``Devastating Blows,'' 14-21; 
Nicolas Becquelin, ``Xinjiang in the Nineties,'' No. 44, The China 
Journal, (July 2000), 65, 69. Becquelin and Human Rights Watch and 
Human Rights in China pinpoint the 1990 Baren uprising as the ``turning 
point'' for government policies in the XUAR. Becquelin notes unrest 
also took place throughout the 1980s, although these are less 
documented.
    \199\ Human Rights Watch, ``Devastating Blows,'' 73.
    \200\ State Administration for Ethnic Affairs (Online), ``Important 
Meaning'' [Zhongyao yiyi], 13 July 04. See also Gardner Bovingdon, 
``Autonomy in Xinjiang: Han Nationalist Imperatives and Uyghur 
Discontent,'' East-West Center Washington 2004, Policy Studies 11, 44; 
Becquelin, ``Xinjiang in the Nineties,'' 74-76; Stanley W. Toops, ``The 
Demography of Xinjiang,'' in Xinjiang: China's Muslim Borderland, 247; 
``Some Suggestions of the State Council on Continuing to Press Ahead 
with the Development of the Western Region,'' Xinhua, 22 March 04 (Open 
Source Center, 22 March 04).
    \201\ See, e.g., Bovingdon, ``Autonomy in Xinjiang,'' 11, 29-30, 
44; ``Xinjiang Will Recruit Through Examination 700 Civil Servants to 
Enrich Cadre Ranks in Southern Xinjiang'' [Xinjiang jiang mianxiang 
shehui zhaokao 700 ming gongwuyuan chongshi nanjiang ganbu duiwu], 
Xinjiang Daily, reprinted in Tianshan Net (Online), 7 April 05; ``947 
`Assist Xinjiang' Cadres Leave for North and South of the Tianshan'' 
[947 ming yuanjiang ganbu fenfu tianshan nanbei], Xinjiang Daily, 
reprinted in Tianshan Net (Online), 1 September 05.
    \202\ ``Xinjiang Focuses on Reducing Births in Minority Areas to 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 15-16; ``Xinjiang Reports High Rate of Population 
Increase,'' CECC China Human Rights and Rule of Law Update, March 2006, 
16-17. The government did not acknowledge Han migration as the primary 
cause of the region's population growth, but demographer Stanley Toops 
has noted that Han migration since the 1950s is responsible for the 
``bulk'' of the XUAR's high population growth in the past half-century. 
Toops, ``Demographics and Development in Xinjiang after 1949,'' 1.
    \203\ The government's language program, which it calls ``bilingual 
education,'' focuses on transitioning students away from using minority 
languages in school. See, e.g., ``Xinjiang Government Promotes Mandarin 
Chinese Use Through Bilingual Education,'' CECC China Human Rights and 
Rule of Law Update, January 2006, 17-18; ``Xinjiang Official Describes 
Plan to Expand Use of Mandarin in Minority Schools,'' CECC China Human 
Rights and Rule of Law Update, March 2006, 13; ``Craze for Studying 
Mandarin on Rise in Artush'' [Atushi xingqi xue hanyu re], Xinjiang 
Daily, 11 July 06.
    \204\ ``Chinese Court Jails Uyghur Editor for Publishing Veiled 
Dissent,'' Radio Free Asia (Online), 10 November 05.
    \205\ See the CECC Political Prisoner Database for more information 
on these cases.
    \206\ ``Xinjiang Authorities Question Rebiya Kadeer's Son, Name Him 
A Criminal Suspect,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 5-6; ``Rebiya Kadeer's Children Held in Custody, Beaten,'' 
CECC China Human Rights and Rule of Law Update, June 2006, 2.
    \207\ ``Rebiya Kadeer's Sons Charged with State Security and 
Economic Crimes,'' CECC China Human Rights and Rule of Law Update, July 
2006, 3-4.
    \208\ ``Rebiya Kadeer's Children Held in Custody, Beaten,'' CECC 
China Human Rights and Rule of Law Update, June 2006, 2; Uyghur Human 
Rights Project (Online), ``Rebiya Kadeer's Youngest Son `Confesses' to 
Crimes under Torture,'' 6 July 06.
    \209\  Uyghur Human Rights Project (Online), ``Two of Rebiya 
Kadeer's Sons Arraigned, Trial Imminent,'' 12 July 06.
    \210\ ``Rebiya Kadeer's Sons Charged with State Security and 
Economic Crimes,'' CECC China Human Rights and Rule of Law Update, July 
2006, 3.
    \211\ Russian Orthodox Church claims that there are about 12,000 
Chinese Orthodox, most of them Chinese citizens of Russian or mixed-
Russian descent. Most of them are located in northern China, Beijing, 
or Shanghai. ``The Revival of the Orthodox Church in China Is in the 
Hands of Our Lord,'' No. 15, Sobornost (Online), (April 2006); 
``Keeping the Faith,'' South China Morning Post (Online), 28 March 05; 
``About Orthodoxy in China: Interview with Archpriest Nikolai 
Balashov,'' RIA Novosti (Online), 13 October 04.
    \212\ In December 2005, Father Dionisy Pozdnyaev, a Russian 
Orthodox priest in Hong Kong, met with SARA officials in Beijing. ``A 
Priest of the Russian Orthodox Church Visited the Religious Affairs 
Bureau of the People's Republic of China,'' Orthodoxy in China 
(Online), 19 December 05. In May 2006, a senior SARA official met with 
Russian Orthodox clerics in Moscow. ``Metropolitan Kyrill Met with 
Delegation of PRC's Religious Affairs Bureau,'' Orthodoxy in China 
(Online), 26 May 06. In July 2006, on the occasion of the World Summit 
of Religious Leaders, Ye Xiaowen, Director of the SARA, met with 
Russian Orthodox clerics in Moscow. According to the South China 
Morning Post, ``Ye Xiaowen pledged to `resolve issues of concern' '' 
but made it clear that a re-established Orthodox Church in China would 
have to be self-governing, self-supporting, and self-propagating.
    \213\ ``Zhejiang and Other Provincial Governments Issue New 
Religious Regulations,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 9-10. The South China Morning Post reported that 
SARA has established an office of Orthodox affairs, headed by Wang 
Yanming. ``Visit Points to Revival of Orthodox Church,'' South China 
Morning Post (Online), 7 July 06.
    \214\ AsiaNews reported that the Russian Orthodox Church will build 
a chapel in Beijing within the perimeter of the Russian Embassy, and 
Northeast reported that a Russian Orthodox church will be rebuilt in 
Harbin city, Heilongjiang province to house an exhibition of Russian 
arts and crafts. ``Russian Orthodox Church To Be Set Up in Beijing 
Shortly,'' AsiaNews (Online), 6 July 06; `` `Saint Nicholas Church' To 
Be Recreated in Bingcheng'' [``Sheng nigula jiaotang'' jiang zaixian 
bingcheng], Northeast (Online), 6 July 06.
    \215\ ``China's Isolated Xinjiang Religious Minorities,'' Forum 18 
(Online), 15 August 06.
    \216\ CECC Staff Interview; ``Visit Points to Revival of Orthodox 
Church,'' South China Morning Post; ``Russian Orthodox Church To Be Set 
Up in Beijing Shortly,'' AsiaNews.
    \217\ The China Aid Association, which monitors official treatment 
of house church members, reported on June 25, 2006 that between May 
2005 and May 2006, officials detained 1,958 house church members and 
leaders. ``Persecution Report by Province in China Released Today,'' 
China Aid Association (Online), 25 June 06. For reports of torture and 
abuse in 2005, see, ``China Torture and Abuse Report Released Today; 
Attention on Religious Freedom in China Urged by US Rights 
Organizations,'' China Aid Association (Online), 18 April 06. Regarding 
the campaign against house church Protestants and others which began in 
2002, see, David Murphy, ``Mass Appeal,'' Far Eastern Economic Review 
(Online), 27 December 01; Sandro Magister, ``Lo Strano Ritiro 
Spirituale di Jiang Zemin e Compagni'' [The Strange Spiritual Retreat 
of Jiang Zemin and His Companions], L'espresso (Online), 15 January 02. 
For earlier documents dating from 1999-2001, see, ``Report Analyzing 
Seven Secret Chinese Government Documents,'' Freedom House (Online), 11 
February 02; CECC, 2002 Annual Report, 2 October 2002.
    \218\ ``24 House Church Leaders Missing After Police Raid; CAA 
Releases the Defense Statement of Religious Group Leader Xu Shuangfu by 
His Lawyers,'' China Aid Association (Online), 17 March 06.
    \219\ ``House Church Pastor Detained in Hubei for Religious Study; 
15 House Church Leaders Still Detained After Brutal Police Raid in 
Henan; Prominent Rights Lawyers Intervene,'' China Aid Association 
(Online), 21 March 06; ``5 Christians Receive Formal Arrest 
Notifications from Xiaoshan Zhejiang Police, 3 Christians Suffer Broken 
Ribs in Prison, Christian Reporter Fired,'' China Aid Association 
(Online), 9 August 06.
    \220\ ``Massive Arrest of Church Leaders including Americans in 
Yunnan Province; CAA Issues Heartbreaking True Stories on Persecution 
inside China,'' China Aid Association (Online), 19 April 06.
    \221\ ``Persecution Report by Province in China Released Today,'' 
China Aid Association.
    \222\ Ibid. 823 of 1,958 detentions between July 2005 and May 2006. 
CECC Staff Interview; ``Six House Church Leaders Arrested in Henan; 
Arrested Church Leaders in Hunan Drugged for Information,'' China Aid 
Association (Online), 7 November 05; ``Registered Church Raided in 
Henan; Prominent Musician in Beijing under House Arrest over Christian 
Fears; Multiple Arrests of House Church Leaders Occurred in Xinjiang 
and Shanxi,'' China Aid Association (Online), 10 March 06.
    \223\ ``Nearly 50 House Church Leaders Arrested in Hebei; Some 
Beaten,'' China Aid Association (Online), 20 October 05; ``Lawyer for 
House Church Pastor Asked to Leave Beijing Before U.S. Presidential 
Visit; One Well-Known House Church Leader Kidnapped in Beijing; Eight 
More House Church Pastors and Believers Arrested,'' China Aid 
Association (Online), 18 November 05; ``On Christmas Day, Christmas 
Services Stopped in Xinjiang; House Church Leaders Arrested; 
Persecution Against Beaten Christian Businessman Intensified,'' China 
Aid Association (Online), 27 December 05; ``House Churches in Beijing 
and Jilin Raided; Public Security Denied Jailed Beijing Pastor to Meet 
with His Mother; Five Detained Church Leaders in Xinjiang Released,'' 
China Aid Association (Online), 16 January 06; ``Chinese Public 
Security Bureau Close School with Mass Arrests in Anhui Province; 
Government Crack Down on Independent House Church Movement 
Intensified,'' China Aid Association (Online), 1 March 06.
    \224\ ``Large House Church Destroyed in Zhejiang; Hundreds of 
Christians Wounded and Arrested,'' China Aid Association (Online), 31 
July 06; ``Zhejiang Officials Demolish House Churches, Beat and Detain 
House Church Members,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 6.
    \225\ ``Jailed Church Leader Sentenced to Three Years for Printing 
Christian Literature,'' China Aid Association (Online), 8 November 05.
    \226\ ``Beijing Pastor Forced to Withdraw Further Appeal; Only One 
Defendant Decides to Appeal,'' China Aid Association (Online), 16 
November 05.
    \227\ ``Officials Arrest Third House Church Pastor for Giving Away 
Bibles,'' CECC China Human Rights and Rule of Law Update, July 2006, 9.
    \228\ ``Senior Chinese House Church Leader Arrested; More Churches 
Raided Before Christmas,'' China Aid Association (Online), 10 December 
04.
    \229\ Timothy Chow, ``Chinese House Church Pastor Sentenced to 7.5 
Years,'' Compass Direct (Online), 6 July 06; ``Prominent House Church 
Leader Zhang Rongliang Sentenced to Seven and a Half Years in Prison; 
Family Members Concerned About His Health; CAA Released Prosecution 
Paper,'' China Aid Association (Online), 8 July 06.
    \230\ ``Message from Pastor Gong Shengliang's Daughters Regarding 
His Health,'' China Aid Association (Online), 27 March 06; ``Petition 
for Medical Parole for Pastor Gong by Family Members,'' China Aid 
Association (Online), 6 April 06; ``South China Church Senior Leader 
Abused Again in Prison,'' China Aid Association (Online), 2 June 06.
    \231\ ``House Church Members in Henan, Inner Mongolia, Jilin, and 
Sichuan Accused of Cult Activities,'' CECC China Human Rights and Rule 
of Law Update, September 2006, 7.
    \232\ ``Three Controversial Religious Leaders Sentenced to Death; 
One More House Church Leader Arrested in Sichuan,'' China Aid 
Association (Online), 6 July 06; ``China Sentences Sect Members to 
Death for Murders,'' Reuters (Online), 7 July 06.
    \233\ Regulation on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, art.12.
    \234\ For discussion of discouraged practices (including praying 
for the sick), discouraged sermon subjects (including the redemptive 
value of suffering, heavenly life, and the return of Christ at the end 
of time), as well as of the occasional accommodation of denominational 
differences within the TSPM, see, ``Three Self Patriotic Movement 
Churches,'' OMF International (Online), undated. For discussion of the 
theological directions in which the TSPM has applied pressure on its 
members, see, Li Xihyuan, Theological Construction--or Destruction, An 
Analysis of the Theology of Bishop K.H. Ting (Ding Guangxun) 
(Streamwood, Illinois: Christian Life Press, 2003).
    \235\ Ding Guangxun, ``A Call for Adjustment of Religious Ideas,'' 
Chinese People's Political Consultative News, 4 September 98, reprinted 
in Li Xinyuan, Theological Construction--or Destruction, 109-111. For 
further indications of the pressure to make Protestant theology conform 
to state ideology, see Chinese Theological Review 19 (2005); ``Voices 
in the Dark: Quotes from the Suffering Church,'' Compass Direct 
(Online), 29 August 05.
    \236\ Other aspects which ``theological construction'' would weaken 
include belief in the centrality of salvation, the importance of faith, 
and the divinity of Jesus. Chinese Theological Review 17-19 (2003-
2005).
    \237\ Articles collected in the 2005 edition of Chinese Theological 
Review do not propound ``theological construction'' as directly as 
those in the 2004 and 2003 editions. The 2005 edition of Chinese 
Theological Review acknowledges the opposition to the official 
theological approach and asks for ``tolerance,'' in effect, for 
``theological construction.''
    \238\ ``Registered Church Raided in Henan; Prominent Musician in 
Beijing Under House Arrest Over Christian Fears; Multiple Arrests of 
House Church Leaders Occurred in Xinjiang and Shanxi,'' China Aid 
Association.
    \239\ Henan Regulation on Religious Affairs [Henan zongjiao shiwu 
tiaoli], issued 30 July 05, art. 15. See also, ``Three Self Patriotic 
Movement Churches,'' OMF International (Online), undated.
    \240\ ``China's Isolated Xinjiang Religious Minorities,'' Forum 18 
(Online), 15 August 06; ``Authorities Raid House Churches, Arrest 80,'' 
Compass Direct (Online), 28 July 06.
    \241\ ``The Economics of Religious Freedom,'' Forum 18 (Online), 16 
August 06.
    \242\ Declaration on the Elimination of All Forms of Intolerance 
and of Discrimination Based on Religion or Belief, art. 6(i).
    \243\ ``Massive Arrest of Church Leaders Including Americans in 
Yunnan Province; CAA Issues Heartbreaking True Stories on Persecution 
inside China,'' China Aid Association (Online), 19 April 06; ``Multiple 
Arrests Occurred in Shandong and Jiangsu; One South Korea Missionary 
Expelled from China; Prominent Chinese Legal Scholar Banned to Go 
Abroad,'' China Aid Association (Online), 16 May 06 (one Korean 
expelled).
    \244\ CECC Staff Interviews. ``Multiple Arrests Occurred in 
Shandong and Jiangsu; One South Korea Missionary Expelled from China; 
Prominent Chinese Legal Scholar Banned to Go Abroad,'' China Aid 
Association. Regarding Zhang Rongliang's alleged travel and punishment, 
see Chow, ``Chinese House Church Pastor Sentenced to 7.5 Years.''
    \245\ See, e.g., ``Becoming a Believer,'' Beijing Review (Online), 
1 June 06. Some observers consider that the Party fears Christianity 
more than other religions. Gerolamo Fazzini, ``Cina. Se il Partito Teme 
la Fede'' [China: If the Party Fears the Faith], Mondo e Missione 
(Online), February 2006.
    \246\ As an example of a theological statement produced by the 
house church movement, see the ``Confession of Faith of the China House 
Church Alliance,'' China Aid Association (Online), 10 February 06. 
There are early signs of an emerging denominational consciousness, 
sometimes developing over disagreements as to religious practices, and 
the growing theological sophistication of the unregistered house 
churches. CECC Staff Interviews. ``Threat of Denominationalism Requires 
Vigilance,'' Amity News Service (Online), August 2004. On 
evangelicalism and Pentecostalism in China, see David Aikman, Jesus in 
Beijing: How Christianity Is Transforming China and Changing the Global 
Balance of Power (Washington, D.C.: Regnery, 2003); Samuel Pearson, 
``Jesus in Beijing: A Review Essay,'' Encounter LXV (Autumn 2004), 393-
402.
    \247\ Jason Kindopp and Carol Lee Hamrin, eds., God and Caesar in 
China: Policy Implications of Church-State Tensions (Washington, D.C.: 
Brookings Institution, 2004), 137-139.
    \248\ ``China Exclusive: China Launches Association to Promote 
Outbound Religious Exchanges,'' Xinhua (Online), 30 December 05. Some 
of the most prominent contacts in the last year were made in connection 
with the Bible Ministry Exhibition which toured the United States in 
the first six months of 2006. TSPM leaders spoke at a number of events 
promoting the exhibit. ``Bible Ministry Exhibition of Church in China 
to Be Held in US,'' Xinhua (Online), 18 April 06; ``Chinese Central 
Government Launched Religious Propaganda Campaign in the US,'' China 
Aid Association (Online), 20 May 06.
    \249\ Regulation on Religious Affairs, arts. 35-37.
    \250\ ``China's Prosperity Inspires Rising Spirituality,'' 
Christian Science Monitor (Online), 9 March 06.
    \251\ Paul Hattaway, Brother Yun, Peter Xu Yongze, and Enoch Wang, 
Back to Jerusalem: Three Chinese House Church Leaders Share Their 
Vision to Complete the Great Commission (Carlisle, UK: Piquant, 2003), 
13 (80-100 million); Gianni Criveller, ``Pechino nuova Antiochia? '' 
[Beijing, the New Antioch?], Mondo e Missione (Online), July-August 
2005 (less than 30 million); ``Millions All Over China Convert to 
Christianity,'' Telegraph (Online), 3 August 05; ``Just How Many 
Christians and Communists Are There in China? '' Ecumenical News 
International (Online), 14 September 05; Caroline Fielder, ``The Growth 
of the Protestant Church in China,'' paper presented at the 21st 
National Catholic China Conference, Seattle, Washington, 27 June 05 
(available at the Web site of the U.S. Catholic China Bureau). As to 
estimates in official Chinese sources, see Ni Yanshuo, ``Religious 
Training Remains Challenge in China,'' Beijing Review (Online), 2 June 
06 (16 million Protestants in China).
    \252\ ``China to Try New Maneuver to Wrestle with House Churches,'' 
China Information Center (Online), 9 March 06.
    \253\ Fazzini, ``Cina. Se il Partito Teme la Fede'' [China: If the 
Party Fears the Faith]; Wang Zhicheng, ``Communist Party in Crisis: 20 
million Members Go to Church or Temple,'' AsiaNews (Online), 28 
February 06; Gerolamo Fazzini, ``Non c'e Societa Senza Religione'' 
[There Is No Society Without Religion], Mondo e Missione (Online), 
February 2006.
    \254\ Fazzini, ``Cina. Se il Partito Teme la Fede'' [China: If the 
Party Fears the Faith]; Magister, ``Twenty Million Communists at 
Prayer.''
    \255\ Ibid.
    \256\ Angelo Lazzarotto, ``Religione Censurata a Meta'' [Religion 
Censored Halfway], Mondo e Missione (Online), April 2006.
    \257\ CECC Staff Interviews; You Bin, Wang Aiguo, and Gong Yukuan, 
``Christianity in a Culture of Ethnic Pluralism: Report on Christianity 
Among the Minorities of Yunnan,'' 19 Chinese Theological Review 100-124 
(2005).
    \258\ See the Web site of the Amity Foundation at 
www.amityfoundation.org. The TSPM also encourages the church in 
``participating in important social tasks to eliminate poverty.'' Wang 
Peng, ``Koinonia and Ethical Thought in Paul's Epistles,'' 19 Chinese 
Theological Review 81 (2005).
    \259\ CECC Staff Interview.
    \260\ ``The Economics of Religious Freedom,'' Forum 18 (Online), 16 
August 06.
    \261\ ``House Church Lawyers Promote Religious Freedom Through the 
Rule of Law,'' CECC China Human Rights and Rule of Law Update, July 
2006, 3; ``Yu Jie: Author Who Fights for Those Who Fear to Speak Out,'' 
AsiaNews (Online), 15 July 06; ``Christian Activists Visit 
`Petitioners' Village in Beijing,'' AsiaNews (Online), 19 July 06; 
``More Civic Activists Are Becoming Christian and Finding Support for 
Their Causes in the Bible,'' Newsweek (Online), 24 July 06; 
``Intellectuals and Religious Freedom,'' Forum 18 (Online), 2 August 
06; David Aikman, ``A More Practical Approach,'' Christianity Today 
(Online), 16 August 06.
    \262\ Eric Eckholm, ``China Enacts Tough Law to Undercut Banned 
Cult,'' New York Times (Online), 30 October 99.
    \263\ ``Harbin Police Kill [Falun Gong Practitioner], Destroy 
Corpse; Zhang Yanchao's Remains are Too Horrible to Look At'' [Ha'erbin 
jing sha ren mieshi; Zhang Yanchao yiti canburenmu], Epoch Times 
(Online), 25 April 06; ``20 Practitioners Kidnapped and Given 
Injections; Xinjiang Falun Gong Calls for Investigation'' [20 wei 
xueyuan zao banjia dazhen; Xinjiang falun gong huyu checha], Epoch 
Times (Online), 24 April 06; ``Letter to the Media: With My Own Eyes I 
Saw Two Female Falun Gong Practitioners Beaten to Death'' [Toushu: wo 
qinyan kandao liang ming falun gong nu xueyuan bei guan si], Epoch 
Times (Online), 24 April 06; Amnesty International, Report 2006: The 
State of the World's Human Rights, 25 May 06; David Matas and David 
Kilgour, Report into Allegations of Organ Harvesting of Falun Gong 
Practitioners in China, 6 July 06; ``Mentally Ill Falun Gong 
Practitioner Sentenced to 2.5 Years, Second Trial Upholds Original 
Sentence,'' [Huan jingshenbing de Falun Gong renshi bei panxing liang 
nian ban; ershen weichi yuanpan], Radio Free Asia (Online), 3 July 06.
    \264\ Based on data in the CECC Political Prisoner Database.
    \265\ ``List and Case Description of the 2932 Falun Gong 
Practitioners Who Have Been Killed in the Persecution,'' Clear Wisdom 
(Online), 3 June 06.
    \266\ Manfred Nowak, Report of the Special Rapporteur on Torture 
and Other Cruel, Inhuman, or Degrading Treatment or Punishment, Mission 
to China, Advance Edited Version, 10 March 06.
    \267\ ``China Lashes Falun Gong Followers' Lies on Sujiatun 
`Concentration Camp,' '' People's Daily (Online), 12 April 06; ``No One 
Will Believe Falun Gong Followers' Lies: FM,'' Xinhua (Online), 29 
March 06; U.S. Department of State (Online), Daily Press Briefing, 31 
March 06.
    \268\ Matas and Kilgour, ``Report into Allegations of Organ 
Harvesting of Falun Gong Practitioners in China,'' 41: ``Based on what 
we now know, we have come to the regrettable conclusion that the 
allegations are true.''
    \269\ China has signed, but not yet ratified, the ICCPR. The 
Chinese government has committed itself to ratifying, and thus bringing 
its laws into conformity with, the ICCPR and reaffirmed its commitment 
as recently as April 13, 2006, in its application for membership in the 
UN Human Rights Council. China's top leaders have previously stated on 
three separate occasions that they are preparing for ratification of 
the ICCPR, including in a September 6, 2005 statement by Politburo 
member and State Councilor Luo Gan at the 22nd World Congress on Law, 
in statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \270\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76 [hereinafter ICCPR], art. 18. The official General 
Comment 22 to Article 18 states, ``The right to freedom of thought, 
conscience, and religion (which includes the freedom to hold beliefs) 
in article 18(1) is far-reaching and profound; it encompasses freedom 
of thought on all matters, personal conviction and the commitment to 
religion or belief, whether manifested individually or in community 
with others.''
    \271\ UN Commission on Human Rights, Opinions Adopted by the 
Working Group on Arbitrary Detention, Opinion No. 32/2005, 2 September 
05 [hereinafter UNWGAD Opinions]; ``Student Imprisoned for Falun Gong 
Activities Becomes Eligible for Parole,'' CECC China Human Rights and 
Rule of Law Update, July 2006, 5; PRC Constitution, art. 36.
    \272\ UNWGAD Opinions, Opinion No. 32/2005.
    \273\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 300. After Falun Gong practitioners staged a 
demonstration involving 10,000 people outside the central government 
leadership compound in Beijing, the National People's Congress Standing 
Committee (NPCSC) issued Article 300 of the Criminal Law, which outlaws 
organizing or using a cult to undermine implementation of the law. This 
charge carries a penalty from three to seven years in prison, or, in 
``serious'' cases, over seven years. Supreme People's Court Circular on 
Thoroughly Implementing NPC ``Decision on Banning Cults, Guarding 
Against and Punishing Cult Activities'' and ``Supreme People's Court/
Supreme People's Procuratorate Judicial Interpretation,'' [Zuigao 
renmin fayuan guanyu guanche quanguo renda changweihui ``guanyu qudi 
xiejiao zuzhi, fangfan he chengzhi xiejiao huodong de jueding'' he 
``liang yuan'' sifa jieshi de tongzhi], issued 30 Oct 99. The Supreme 
People's Court issued this circular to clarify that Article 300 would 
be used against ``cults, especially Falun Gong.'' The NPCSC issued a 
decision to articulate a need to separate the small number of 
``criminal offenders'' who organize and use heretical sects to engage 
in illegal activities from the majority of practitioners who are 
``cheated'' into following the sect. The former should be punished 
according to the Criminal Law, whereas the latter should receive 
education, which is provided for under the administrative punishment 
system. ``Student Imprisoned for Falun Gong Activities Becomes Eligible 
for Parole,'' CECC China Human Rights and Rule of Law Update, July 
2006, 5. National People's Congress Standing Committee Decision on 
Banning Heretical Sects, Guarding Against and Punishing the Activities 
of Heretical Sects [Quanguo renmin daibiao dahui changwu weiyuanhui 
guanyu qudi xiejiao zuzhi, fangfan he chengzhi xiejiao huodong de 
jueding], issued 30 October 99.
    \274\ PRC Public Security Administration Punishment Law (PSAPL), 
enacted 28 August 05, art. 27. At a February 2006 press conference, 
public security officials asserted that Falun Gong practitioners are 
subject to punishment under the PSAPL. Ministry of Public Security 
(Online), ``Ministry of Public Security Convenes Press Conference to 
Announce the Status of Preparations for Implementing the `Public 
Security Administration Punishment Law' '' [Gongan bu zhaokai xinwen 
fabuhui tongbao ``zhi'an guanli chufei fa'' shishi zhunbei qingkuang], 
28 February 06. Article 27 of the PSAPL stipulates punishment for those 
who organize heretical sects or secret societies or use superstitious 
cults or qigong activities to disrupt public order or harm the health 
of another. Those who violate this article are subject to 5 to 15 days 
of detention and a fine of up to 1,000 yuan (US$125). ``Falun Gong 
Practitioners to be Punished under New Administration Punishment Law,'' 
CECC China Human Rights and Rule of Law Update, May 2006, 6.
    \275\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China; Human Rights Watch, ``China Uses `Rule of Law' 
to Justify Falun Gong Crackdown,'' 9 November 99.
    \276\ Supreme People's Court, Supreme People's Procuratorate 
Interpretation on Some Questions of Which Concrete Laws to Use when 
Dealing With the Crimes of Organizing and Using a Cult to Undermine 
Implementation of the Law [Zuigao renmin fayuan zuigao renmin 
jianchayuan guanyu banli zuzhi he liyong xiejiao zuzhi fanzui anjian 
juti yingyong falu ruogan wenti de jieshi], issued 9 October 99.
    \277\ ``Student Imprisoned for Falun Gong Activities Becomes 
Eligible for Parole,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 5. Based on data available in the CECC Political Prisoner 
Database.
    \278\ Philip P. Pan, ``China Shutters Prominent Lawyer's Firm; 
Rights Activist Had Refused To Disavow Letter Defending Religion, Falun 
Gong,'' Washington Post (Online), 6 November 06.
    \279\ Xin Fei, ``Exclusive Interview with Attorney Yang Zaixin--
Walk Along with Attorney Gao,'' Epoch Times (Online), 30 January 06.
    \280\ ``China Condemns Falun Gong but Spares U.S. Criticism,'' 
Reuters (Online), 25 April 06.
    \281\ ``Hebei Province To Distribute Free Anti-Cult Illustrated 
Posters to Villages and City Districts [Hebei sheng jiang xiang nongcun 
he chengshi shequ mianfei fafang fan xiejiao manhua guatu], China Anti-
Cult Net (Online), 2 March 06.
    \282\ ``People's Daily Publishes 2005 Censorship Numbers,'' CECC 
China Human Rights and Rule of Law Update, May 2006, 5.
    \283\ 873 ``Information Network Security Has Aroused Worldwide 
Concern,'' PLA Daily, 21 February 06 (Open Source Center, 21 February 
06).

    Notes to Section V(e)--Status of Women
    \1\ PRC Constitution, art. 48.
    \2\ PRC Law on the Protection of the Rights and Interests of Women, 
enacted 3 April 92, amended 28 August 05, arts. 11, 39, 40, 46, 58, 
respectively [hereinafter LPRIW]. Article 58 gives victims of sexual 
harassment and domestic violence the right to seek redress under 
administrative punishment regulations and also to bring a civil suit 
against the harassers for damages.
    \3\ ``Henan To Introduce Anti-Domestic Violence Regulation'' [Henan 
jiang chutai fan jiating baoli fagui chengzhi shibao zhe], China Youth 
Daily, reprinted in Xinhua (Online), 30 March 06. In March 2006, the 
Henan province Local People's Congress proposed a regulation mandating 
police response to domestic violence calls. ``Henan Has New Regulation: 
Police Must Respond Quickly to Complaints of Domestic Violence'' [Henan 
xin fagui: Jia-bao shouzhe qiujiu; jingcha xu xunsu chujing], China 
Youth Daily (Online), 31 March 06. Shaanxi, Hainan, Chongqing, 
Shenzhen, and Shanghai also have domestic violence regulations in 
various stages of the legislative process. ``Xinjiang Three-Year Old 
Girl Suffers Physical Abuse From Parents and has Both Feet Amputated--
Thoughts on Laws Difficult To Bring Into Operation; Suffering Caused by 
Domestic Violence Won't Go Away'' [Xinjiang 3 sui nutong canzao fumu 
nuedai zhi shuangzu jiezhi; fagui nan caozuo; jiating baoli tong nan 
xiao], Legal Daily (Online), 19 January 06.
    \4\ ``Xinjiang Three-Year Old Girl Suffers Physical Abuse From 
Parents,'' Legal Daily; ``How Can Chinese Women Defend Their Own Rights 
and Interests'' [Zhongguo funu ruhe weihu zishen quanyi], Radio Free 
Asia (Online), 25 March 06 (quoting Song Meiya, editor of ``Women's 
News''); ``Domestic Violence Cases Still a Thorny Issue for Courts To 
Get Involved With'' [Sifa jieru jiating baoli yiran jishou], Legal 
Daily (Online), 24 November 05. According to lawyer Chen Mei at China 
Law School, there is no provision on domestic violence under the 
criminal law, so if a woman wishes to bring a domestic violence case, 
she must prove ``abuse'' (nuedai zui).
    \5\ ``How Can Chinese Women Defend Their Own Rights and 
Interests,'' Radio Free Asia (quoting Wu Qing, retired professor at 
Beijing Foreign Language Institute).
    \6\ ``Same Domestic Violence Accusation, Different Results in 
Shanghai and Baotou Court Cases; Expert Calls for Unified Standard'' 
[Tongshi shou nuesha fu Shanghai Baotou pan butong zhuanjia: tongyi 
biaozhun], Legal Daily (Online), 30 March 06.
    \7\ ``Revisions to Retirement Regulations Requiring Women to Retire 
Before Men Suggested to NPC Standing Committee'' [Nannu tuixiu butong 
nian guiding quanguo renda changweihui tiqi weixian shencha jianyi 
shu], Women Watch--China (Online), 10 March 06.
    \8\ ``Revisions to Retirement Regulations Requiring Women to Retire 
Before Men Suggested to NPC Standing Committee,'' Women Watch--China; 
``Gender Retirement Issue to Go Before NPC'' [Nannu gongwuyuan tongling 
tuixiu de tiaojian yijing jubei], China Woman (Online), 13 March 06. 
Due to a 1978 regulation that contravenes the LPRIW, employers can 
mandate that women retire five years before men, limiting their 
opportunities for promotion and better pensions. The Center for Women's 
Law and Legal Services of Peking University has consulted 118 women on 
this issue since 1995, raised the issue before the NPC, and is awaiting 
a response.
    \9\ ``Women Sue Village Committees for Denying Them Land Rights,'' 
CECC China Human Rights and Rule of Law Update, July 2006, 8.
    \10\ Ibid.; ``Seeking Equal Treatment with Men: 28 Hohhot Women Who 
Married Out of Their Village Sue the Village Committee'' [Qiu yu 
nanxing cunmin tong daiyu hu shi 28 wei chujia nu gao cunweihui], 
Xinhua (Online), 15 May 06; ``Half the Sky Doesn't Mean Half the 
Earth'' [Banbian tian debudao banbian di], China Youth Daily (Online), 
22 May 06. Village regulations based on traditional social structures 
that favor men trump national laws that protect women's property rights 
in theory, but lack systematic implementing measures. ``Implement 
Village Land Rights Equally for Men and Women: It Is the Responsibility 
of Society'' [Shixian nongcun tudiquan nannu pingdeng shi quan shehui 
de gongtong zeren], Women Watch--China (Online), 30 April 06.
    \11\ Liaoning province increased 2006 funding for the Double 
Learning, Double Emulation (shuangxue shuangbi) program, a successful 
women's microfinance program. ``Liaoning Invests Heavily in Program to 
Economically Empower Rural Women'' [Liaoning zheng toufang baiwan 
bangzhu nongcun funu yinjin zhifu xiangmu], China Woman Paper (Online), 
last visited 24 March 06. Provincial and city ACWF branches fund 
shelters for victims of domestic violence. ``Domestic Violence and 
Public Discussions: Why Do Many Shelters Not Help Enough? '' [Jiating 
baoli nan yu renyan funu bihusuo weihe duo zao lengyu], Xinhua 
(Online), 19 December 06.
    \12\ ``Number of Rural Chinese Women in Abject Poverty Down to 12 
Million,'' Xinhua, 11 April 06 (Open Source Center, 12 April 06).
    \13\ ``Seventy Percent of Injured Women Don't Understand How To 
Defend Their Rights; Related Departments Open Passageways'' [Qi cheng 
shou shanghai funu bu dong weiquan youguan bumen pi tongdao], Yangzi 
Wanbao (Online), 26 February 06. Police in Beijing have agreed to work 
with district-level Women's Federations to ensure police response to 
domestic violence complaints and gather evidence to convict offenders. 
``Beijing Police to Interfere in Domestic Violence Cases: Police to 
Respond to 100 Percent of Wife-Beating Cases'' [Beijing jingfang ganyu 
jiating baoli da laopo shijian 100 percent chu jing], China Times 
(Online), reprinted in Women Watch--China (Online), 22 February 06.
    \14\ The women's rights activist is Guo Jianmei of the Center for 
Women's Law and Legal Services of Peking University. ``A Lawsuit That 
Overturned the `Home Village Regulations' on Women's Property Rights'' 
[Yi chang yinfa dianfu ``xiangtu guize'' de nongcun funu tudi quanyi 
guansi], China Philanthropy Times, reprinted in Women Watch--China 
(Online), 23 November 05.
    \15\ CECC, 2005 Annual Report, 11 October 05, Section V(f)--Status 
of Women.
    \16\ ``First Women's Legal Aid Foundation Established'' [Shou xiang 
funu falu yuanzhu jijin sheli], Beijing News, reprinted in Women 
Watch--China (Online), 10 March 06.
    \17\ ``Same Domestic Violence Accusation,'' Legal Daily (citing to 
Peking University Law School professor Chen Xingliang). The expert is 
China Law School domestic violence expert, lawyer Chen Mei. ``Domestic 
Violence Cases Still a Thorny Issue for Courts To Get Involved With,'' 
Legal Daily (Online); ``Beijing Sexual Harassment Case Settled Out of 
Court; Defendant Pays Plaintiff 6000 Yuan'' [Beijing xingsaorao diyi an 
tingwai hexie beigao xiang mote peichang 6000 yuan], Beijing Morning 
Times, reprinted in Women Watch--China (Online), 4 November 05; ``First 
Sexual Harassment Lawsuit Since Amendment to Women's Law,'' CECC China 
Human Rights and Rule of Law Update, December 2005, 16; ``Domestic 
Violence and Public Discussions: Why Do Many Shelters Not Help Enough? 
'' Xinhua (Online); ``A Lawsuit that Overturned the `Home Village 
Regulations' on Women's Property Rights,'' China Philanthropy Times.
    \18\ Center for Women's Law and Legal Services of Peking University 
(Online), ``October 21-24, Center Participated in Chinese Women's NGO 
Capacity Building Conference'' [10 yue 21 ri-24 ri, Zhongxin canjia 
Zhongguo funu NGO nengli jianshe yantaohui], last visited 7 November 
05. Participants included: Center for Women's Law and Legal Services of 
Peking University, Shaanxi Research Association for Women and Family, 
Henan District Education and Research Center, Rural Women, Maple 
Women's Psychological Counseling Center, and Yunnan Xishuangbanna Women 
and Children's Law and Health Counseling Center.
    \19\ China Gender Equality and Women's Development Report [Zhongguo 
xingbie pingdeng yu funu fazhan baogao], ed. Tan Lin (Beijing: Social 
Sciences Academic Press, 2006), reprinted in China Net (Online).
    \20\ Ibid.
    \21\ Ibid. Employers prefer to hire men and women in a ratio of 
7:3; college students graduate in a sex ratio of 5:5. ``Does `Gender 
Ratio' Tolerance Have Limits Too? 7:3 Grips Women College Graduates'' 
[``Xingbiebi rongren'' ye you jixian? 7:3 qiazhu nu daxuesheng], Xinhua 
(Online), 19 May 06. Epoch Times report suggests women increasingly 
dominate higher education due to difficulties they have finding 
employment. ``Employment Difficulties--Chinese Women Dominate Masters 
and Ph.D. Programs'' [Jiuye kunnan Zhongguo nuxing chengba shuo-bo 
qunti], Epoch Times (Online), 12 April 06.
    \22\ China Gender Equality and Women's Development Report, ed. Tan 
Lin. Women need higher education levels than men before they are 
considered for white collar jobs.
    \23\ Ibid.
    \24\ ``Chongqing District Employment Service: Redundant Women 
Workers Are Reemployed at the `Family Door' '' [Chongqing shequ jiuye 
fuwu xiagang nugong ``jia menkou'' shixian zaijiuye], Xinhua (Online), 
9 May 06; ``Jimunai County Provides Favorable Loans to Help Redundant 
Woman Workers Find New Jobs'' [Jimunai xian wei 70 ming xiagang funu 
fafang zaijiuye daikuan 140 wan yuan], Tianshan Net (Online), 31 May 
06.
    \25\ ``Poverty Alleviation Targets Gender Inequality,'' China Daily 
(Online), 12 April 06.
    \26\ ``55 Million Chinese Women Are Illiterate,'' South China 
Morning Post (Online), 19 July 06.
    \27\ Reasons parents keep girls out of school include high school 
fees; a desire to keep girls at home to do household work; employment 
opportunities as domestic workers; a sense that girl children are not 
obligated to care for elderly parents and thus not worth educating; 
remote household locations; and concerns over their daughters' safety. 
World Bank, East Asia Environment and Social Development Unit, China 
Country Gender Review, June 2002. On dangers that girls face from 
teachers, see ``Fixing the Price of a Girl's Hymen'' [Wei shouhai younu 
chunumo dingjia], Southern Metropolitan Daily (Online), 19 October 05.
    \28\ China Gender Equality and Women's Development Report, ed. Tan 
Lin.
    \29\ ``Verite's China Labor Center: Providing Women Workers with 
the Skills They Need.'' Date unknown. Cited in Human Trafficking in 
China: Domestic and International Efforts, Hearing of the 
Congressional-Executive Commission on China, 6 March 06, Testimony of 
Wenchi Yu Perkins, Director, Anti-Trafficking and Human Rights Program, 
Vital Voices.
    \30\ ``Survey of Young Female Migrant Workers Reveals 70 Percent 
Have Been Sexually Harassed'' [Hunan nianqing nuxing nongmingong 
diaocha 7 cheng dagongmei zaoguo xingsaorao], Xinhua (Online), 15 May 
06.
    \31\ 86.72 percent of women are healthy; 7.69 percent have an 
infectious disease, and 5.56 percent are handicapped. For men, the 
statistics are 89.27 percent, 5.55 percent, and 5.16 percent, 
respectively. China Gender Equality and Women's Development Report, ed. 
Tan Lin.
    \32\ ``Chinese Women's Health Situation.''
    \33\ ``AIDS Is Most Severe in Yunnan; Women's Infection Rate 
Increases'' [Yunnan aizibing yiqing zui yanzhong nuxing ganran zhe bili 
dafu shangsheng], Eastday Net (Online), 16 February 06.
    \34\ China Gender Equality and Women's Development Report, ed. Tan 
Lin; ``Traditions Weigh on China's Women,'' BBC (Online), 19 June 06; 
``Suicide Rampant Among China's Rural Women, City High-Flyers,'' Radio 
Free Asia (Online), 30 August 06.
    \35\ China Gender Equality and Women's Development Report, ed. Tan 
Lin.
    \36\ ``Last Year Public Security Saved 9,000 Abducted Women and 
Children'' [Gongan jiguan qunian jiejiu bei guaimai funu ertong jin 
9000 ren], Xinhua, reprinted in Procuratorate Daily (Online), 15 
February 05.
    \37\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 5 June 06, 
91.
    \38\ Ibid.
    \39\ ``Hengyang, Hunan Welfare Organization Officials Involved in 
Trafficking Case, Judgment Announced'' [Hunan Hengyang bufen fuli jigou 
shoumai bei guaimai ertong an yishen xuanpan], Xinhua (Online), 24 
February 06; ``Main Defendant in 5/11 Inner Mongolia Baby Trafficking 
Case Sentenced to Life Imprisonment'' [Nei Menggu ``5-11'' teda fanying 
an zhufan bei pan wuqi tuxing], Xinhua (Online), 22 November 05. See 
also ``Orphanage Probed Over Baby Charges Claim,'' China Daily 
(Online), 19 April 06, for a case that involves a state welfare 
organization official requiring large donations in return for illegal 
adoptions.
    \40\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 1 
October 97, 25 December 99, 31 August 01, 29 December 01, 28 December 
02, arts. 240, 416. See also PRC Adoption Law, enacted 29 December 91, 
art. 19 (forbids the sale of children for adoption); PRC Law on the 
Protection of the Rights and Interests of Women, art. 39 (prohibits the 
trafficking of women and children). Neither stipulates criminal 
punishment for these crimes.
    \41\ ``AFP Report Says Baby Trafficking in PRC's Rural Areas 
`Widespread,' '' Agence France-Presse, 10 February 05 (Open Source 
Center, 10 February 05).
    \42\ Government reports state that the police handled nearly 2,000 
cases of trafficking in the first 10 months of 2005, resulting in over 
3,000 women rescued. Combating Human Trafficking in China, Testimony of 
Ambassador John R. Miller, Director, Office to Monitor and Combat 
Trafficking in Persons, U.S. Department of State; Trafficking in 
Persons Report 2006, 92. According to Ministry of Public Security (MPS) 
statistics, in 2005, the MPS docketed 2,884 cases of trafficking in 
women and children. ``China to Set National Anti-Trafficking Action 
Plan'' [Zhongguo jiang zhiding guojia fan renkou guaimai xingdong 
jihua], Xinhua (Online), 12 July 06. In the first 10 months of 2004, 
almost 9,000 women and children were rescued. U.S. Department of State, 
Country Reports on Human Rights Practices--2005, China. China lacks 
reliable information, however, on trafficking numbers and anti-
trafficking efforts.
    \43\ UN Convention against Transnational Organized Crime, 8 January 
01; Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children (commonly known as Palermo Protocol); 
Protocol against the Smuggling of Migrants by Land, Sea, and Air.
    \44\ PRC Labor Law. ``[C]urrent penal legislation on trafficking 
covers only the trafficking of women and children. Article 240 of the 
Penal Code provides for a heavy prison sentence, plus a fine, for those 
persons abducting and trafficking women and children. The implication 
is that several of the offenses covered by the definitional articles of 
the Palermo `Trafficking Protocol' to the United Nations Convention 
against Transnational Organized Crime (including forced labor or 
services, slavery or practices similar to slavery) are not covered by 
existing Chinese legislation.'' Combating Human Trafficking in China, 
Testimony of Roger Plant, Head of Special Action Program to Combat 
Forced Labor, International Labor Organization.
    \45\ International Labor Organization (Online), Forced Labor and 
Trafficking: the Role of Labor Institutions in Law Enforcement and 
International Cooperation. The ILO Special Action Program to Combat 
Forced Labor addresses law enforcement and capacity building among 
different Chinese government departments.
    \46\ International Labor Organization (Online), ``The Mekong Sub-
Region Project, Yunnan Province,'' 19 March 04.

    Notes to Section V(f)--The Environment
    \1\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005), People's Daily (Online), 5 June 06.
    \2\ ``Analysis: Stability Concerns Drive China's Environmental 
Initiatives,'' Open Source Center, 28 June 06; Ching-Ching Ni, ``China 
Toughens Stance on Environmental Protection,'' Los Angeles Times 
(Online), 22 February 06.
    \3\ Elizabeth C. Economy, The River Runs Black: The Environmental 
Challenge to China's Future (Ithaca, New York: Cornell University 
Press, 2004), 24.
    \4\ Ibid., 25.
    \5\ ``Zhou Shengxian: If You Want To Be a Good Official, Don't 
Cause Pollution'' [Zhou Shengxian: yao dang hao guan jiu bie gao 
wuran], Beijing News (Online), 20 April 06.
    \6\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005).
    \7\ Andrew Baston, ``China Takes on Pollution,'' Wall Street 
Journal, 6 June 06, A8.
    \8\ ``China To Blacklist, Penalize Polluting Cities,'' Reuters, 
reprinted in China Daily (Online), 25 October 05; ``China To Blacklist 
Cities With Substandard Air Quality,'' Xinhua (Online), 24 October 05.
    \9\ ``4 Projects Suspended for Violating Environmental Laws,'' 
Xinhua (Online), 25 October 05; ``Punishment Urged in Child Lead-
Poisoning Factory Case,'' Xinhua (Online), 19 October 05.
    \10\ ``Let Criminal Law Have Free Reign in Environmental 
Protection'' [Rang xingfa zai baohu huanjing zhong fahui geng da 
zuoyong], China Court Net (Online), 15 September 05.
    \11\ According to experts, ``China has some of the best 
environmental laws in the world, but the sheer scale of development, 
inadequate planning, corruption and poor enforcement often result in 
uncontrolled pollution.'' David Lague, ``Toxic Flow Reaches Chinese 
City; Oil Company Blamed,'' New York Times (Online), 24 November 05.
    \12\ To help SEPA in its work, the central government plans to base 
local officials' performance ratings on their ability to promote not 
only economic development but also environmental protection. Ching-
Ching Ni, ``China Toughens Stance on Environmental Protection.''
    \13\ Deng Weihua, Lin Wei, and Li Zebing, ``A Strange Circle of 
Pollution Control--the Worse the Pollution, the Wealthier the 
Environmental Protection Units'' [Zhiwu guaiquan: wuran yue zhong 
huanbao bumen yue fu], Xinhua, reprinted in Legal Daily (Online), 12 
July 05; Economy, The River Runs Black, 20-21.
    \14\ Audra Ang, ``Chinese Clash With Police in Protest Over 
Pollution,'' Associated Press, reprinted in Washington Post (Online), 
22 August 05; Didi Kirsten Tatlow and Kristine Kwok, ``Police Break Up 
Massive Riot in Zhejiang Province, Two Reportedly Killed,'' South China 
Morning Post (Online), 12 April 05 (Open Source Center, 12 April 05); 
Didi Kirsten Tatlow, ``The Government is on the Run in Village Where 
Anti-Pollution Riot Occurred,'' South China Morning Post (Online), 13 
April 05; ``Tensions Simmer Following `Bloody Riot' by Thousands in 
China's Zhejiang,'' Agence France-Presse, 13 April 05 (Open Source 
Center, 13 April 05).
    \15\ Philip P. Pan, ``In Visit to Harbin, Chinese Leader Silent on 
Spill Coverup,'' Washington Post (Online), 27 November 05; ``More on 
Heilongjiang Province To Suspend Water Supply Due To Possible River 
Contamination,'' Xinhua, 22 November 05 (Open Source Center, 22 
November 05); Jennifer Turner and Kenji Otsuka, ``Reaching Across the 
Water: International Cooperation Promoting Sustainable River Basin 
Governance in China,'' Woodrow Wilson Center, May 2006, 17.
    \16\ Jim Yardley, ``Spill in China Brings Danger, and Cover-Up,'' 
New York Times (Online), 26 November 05; Turner and Otsuka, ``Reaching 
Across the Water,'' 17.
    \17\ Yardley, ``Spill in China Brings Danger, and Cover-Up;'' Guo 
Shipeng and Benjamin Kang Lim, ``China Officials Tried to Hush Up Toxic 
Spill,'' Reuters (Online), 25 November 05.
    \18\ Yardley, ``Spill in China Brings Danger, and Cover-Up.''
    \19\ ``More on Heilongjiang Province To Suspend Water Supply Due to 
Possible River Contamination,'' Xinhua, 22 November 05 (Open Source 
Center, 22 November 05); ``Response to China Toxic Spill Shows `Lack of 
Good Governance,' Expert Says,'' Radio Free Asia, 7 December 05, 
reprinted in Broadcast Interview Source (Online), 14 December 05; Joe 
McDonald, ``China Tries to Ease Anger at Toxic Spill,'' Associated 
Press, reprinted in Lexis-Nexis (Online), 7 December 05; State 
Environmental Protection Administration Circular on the Songhua Water 
Pollution Incident [Huanbao zongju tongbao songhua jiang shuiwuran 
qingkuang], issued 23 November 05; ``China's Environment Watchdog 
Confirms `Major' Pollution in Songhua River,'' Xinhua, 23 November 05 
(Open Source Center, 23 November 05); Turner and Otsuka, ``Reaching 
Across the Water,'' 17.
    \20\ Kim Hunter Gordon, ``Ssh, Don't Mention it to the Emperor,'' 
The Observer (Online), 4 December 05.
    \21\ ``Response to China Toxic Spill Shows `Lack of Good 
Governance,' Expert Says,'' Radio Free Asia (Online), 7 December 05, 
reprinted in Broadcast Interview Source (Online), 14 December 05.
    \22\ The central government vowed to discipline officials who 
participated in the cover-up of the spill. For example, Xie Zhenhua, 
the Minister of SEPA, was asked to resign due to what was perceived as 
an ``inadequate initial response'' from SEPA. Turner and Otsuka, 
``Reaching Across the Water,'' 17. In addition, the government issued 
rules stating that officials would be punished in the future for 
covering up accidents, failing to shut down polluting projects, or 
canceling or reducing fees imposed on polluters. Potential punishments 
range from disciplinary warnings to dismissal, although the penalty for 
each offense was not stated. Ching-Ching Ni, ``China Toughens Stance on 
Environmental Protection;'' Elaine Kurtenbach, ``Environmental Agency 
Says Disasters Must Be Reported Within One Hour,'' Associated Press, 
reprinted in South China Morning Post (Online), 7 February 06.
    \23\ ``Xinhua: Emergency Response Plan To Increase PRC Ability To 
Cope With Incidents,'' Xinhua, 8 January 06 (Open Source Center, 8 
January 06).
    \24\ Kurtenbach, ``Environmental Agency Says Disasters Must Be 
Reported Within One Hour.''
    \25\ ``Jilin City Has Yet to Publicly Announce News of Water 
Pollution'' [Jilin shi wei gong kai fabu shuiwuran xiaoxi], China Youth 
Daily (Online), 25 November 05.
    \26\ Jason Dean, Geoffrey A. Fowler, and Juying Qin, ``China Media-
Law Draft Spurs Debate,'' Wall Street Journal (Online), 5 July 06; 
Gillian Wong, ``China Defends Proposed Law To Fine Media for 
Unauthorized Disaster Reporting,'' Associated Press (Online), 3 July 
06; ``China Says Draft Law To Make Media `Responsible,' '' Reuters 
(Online), 3 July 06; Jonathan Watts, ``China's Media Faces Fines for 
Reporting Disasters,'' The Guardian (Online), 4 July 06; ``Draft Law 
Directed at Sudden Incidents: Foreign Media is Worried About 
Restrictions'' [Zhendui tufa shijian cao'an jingwai meiti you shou 
xianzhi], Ming Pao Daily (Online), 5 July 06; ``Chinese Government Says 
Objective Reporting on Disasters Not Affected by New Law,'' Xinhua 
(Online), 3 July 06.
    \27\ ``Public Can Help Environment,'' China Daily (Online), 27 
February 06. Public participation is currently limited to the 
assessment stage. Procedures for public input into environmental policy 
making or enforcement have not been considered.
    \28\ ``SEPA Chief: Emergency Environmental Incidents Can Be 
Directly Reported to the State Bureau For Letters and Calls'' [Huanbao 
zongju: tufa zhongda huanjing shixiang ke zhi bao guojia xinfang ju], 
People's Daily (Online), 6 July 06; ``SEPA Issues New Measures on 
Environmental Letters and Petitions,'' Legal Daily (Online), 6 July 06.
    \29\ ``Public To Help Assess Impact on Environment,'' China Daily 
(Online), 23 February 06.
    \30\ ``PRC Government, NGOs Work To Deal With Environmental 
Issues,'' Beijing Review, 20 January 06 (Open Source Center, 20 January 
06); International Rivers Network Fact Sheet (Online), ``China's Nu 
River: Dam Projects Threaten Magnificent World Heritage Site,'' 
Undated.
    \31\ ``Burma: China Revives Salween River Dam Projects Despite 
Protests,'' Shanland (Online), 6 October 05 (Open Source Center, 8 
October 05); Jim Yardley, ``Seeking a Public Voice on China's `Angry 
River,' '' New York Times (Online), 26 December 05.
    \32\ Yardley, ``Seeking a Public Voice on China's `Angry River;' '' 
``Call for Public Disclosure of Nujiang Hydropower Development's EIA 
Report in Accordance With the Law,'' Three Gorges Probe News Service 
(Online), 6 September 05.
    \33\ Allison Moore and Adria Warren, ``The Double Edge of Legal 
Advocacy in Environmental Public Participation in China: Raising the 
Stakes and Strengthening Stakeholders,'' China Environment Series, 
Issue 8, Woodrow Wilson Center, forthcoming 2006, 22-23.
    \34\ Human Rights in China Press Release (Online), ``Three Gorges 
Activist Faces Paralysis After Brutal Assault,'' 12 June 06; Human 
Rights in China Press Release (Online), ``HRIC Welcomes German 
Intervention in Case of Three Gorges Activist,'' 13 June 06; Alexa 
Olesen, ``Chinese Activist Said Paralyzed by Assault,'' Associated 
Press (Online), 14 June 06. ``Three Gorges Resettlement Activist 
Paralyzed After Assault,'' CECC China Human Rights and Rule of Law 
Update, July 2006, 10-11.
    \35\ Human Rights in China (Online), ``Officials Conclude Self-
Inflicted Injury in Fu Xiancai Case,'' 26 July 06; ``Officials Conclude 
Investigation, Increase Surveillance Over Activist Fu Xiancai,'' CECC 
China Human Rights and Rule of Law Update, September 2006, 12.
    \36\ Human Rights in China (Online), ``Environmental Activists 
Detained in Hangzhou,'' 25 October 05; Human Rights in China (Online), 
``Trial Date Set for Hangzhou Environmentalist,'' 11 May 06; Human 
Rights in China (Online), ``News Update: Hangzhou Environmentalist Tan 
Kai's Trial Granted Continuance,'' 22 June 06; Human Rights in China 
(Online), ``Environmental Activist Sun Xiaodi Detained Again,'' 7 April 
06; ``Activist Sun Xiaodi, Who Exposed Nuclear Pollution, Isolated From 
All Sides'' [Jielu hewuran wei quanrenshi Sun Xiaodi shoudao ge fang 
guli], Radio Free Asia (Online), 4 July 06.
    \37\ Human Rights in China (Online), ``News Update: Hangzhou 
Environmentalist Tan Kai's Trial Granted Continuance;'' 
``Environmentalist Tan Kai sentenced to 1.5-year term'' [Huanbao renshi 
Tan Kai bei pan yi nian ban xingqi], Radio Free Asia (Online), 11 
August 06.
    \38\ ``Villager Tortured and Put on Trial for Protesting Air 
Pollution,'' Chinese Rights Defenders Information Bulletin, 12 March 
06.
    \39\ Josephine Ma, ``Green Groups Fall Under Microscope,'' South 
China Morning Post (Online), 18 August 05; Jing Xiaolei, ``Beijing 
Review: PRC Government, NGOs Work To Deal With Environmental Issues,'' 
Beijing Review, 20 January 06 (Open Source Center, 20 January 06).
    \40\ Ma, ``Green Groups Fall Under Microscope;'' Yardley, ``Seeking 
a Public Voice on China's `Angry River.' ''
    \41\ EPA Newsroom, 8 November 05.
    \42\ ``Asia-Pacific Partnership on Clean Development and Climate,'' 
U.S. Department of State Press Release, 1 May 06; ``The Asia-Pacific 
Partnership on Clean Development and Climate: Implementation, Action, 
and Results,'' White House Press Release, 11 January 06.
    \43\ U.S. Department of State (Online), ``Development Grants 
Promote U.S.-China Environmental Cooperation,'' 25 May 06.
    \44\ U.S. Department of State (Online), ``U.S., China to Partner 
for Better Global Environment,'' 10 April 06.
    \45\ ``USTDA Initiatives Promote Clean Energy and Air Quality in 
China,'' United States Trade and Development Press Release, 24 May 06.

    Notes to Section V(g)--Public Health
    \1\ Government Work Report [Zhengfu gongzuo baogao], issued 15 
March 06. The State Council adopted the plan on March 1, 2006, and an 
outline of the plan was also published on December 31, 2005, in an 
``Opinion Promoting the Construction of a New Socialist Countryside.'' 
``State Council Standing Committee Issues `Plan for Construction and 
Development of Rural Health System' '' [Guowuyuan changwu hui shenyi 
nongcun weisheng guihua], Xinhua (Online), 2 March 06. The joint 
Opinion sets out key policy goals related to rural development for 
2006, including refocusing investment priorities on rural areas, 
addressing problems facing migrants, and advancing proposals for reform 
to the land requisition system. Central Party Committee, State Council 
Opinion on Promoting the Construction of a New Socialist Countryside 
[Zhonggong zhongyang guowuyuan guanyu tuijin shehui zhuyi xin nongcun 
jianshe de ruogan yijian], issued 31 December 05.
    \2\ Government Work Report.
    \3\ Ibid.; ``China Evaluates New Rural Medical Care System to 
Insure Farmer's Health,'' Xinhua (Online), 29 March 06.
    \4\ Government Work Report.
    \5\ ``Social Security Expert Yang Lixiong--Society's Urban Rural 
Disparity Stems From Social Security System'' [Shehui baozhang zhuanjia 
Yang Lixiong--cheng xiang eryuan baozhang tizhi shi shehui yuanyin], 
China Youth Daily (Online), 11 November 05.
    \6\ CECC, 2005 Annual Report, 11 October 05, 72.
    \7\ Ibid.
    \8\ ``Social Security Expert Yang Lixiong--Society's Urban Rural 
Disparity Stems From Social Security System,'' China Youth Daily.
    \9\ David Blumenthal and William Hsiao, ``Privatization and its 
Discontents--The Evolving Chinese Health Care System,'' New England 
Journal of Medicine, Vol. 353, No. 11, 1165, (2005).
    \10\ Ibid., 1166.
    \11\ ``Residents of Chinese Cities Live on Average 12 Years Longer 
than Those in Rural Areas--What Is the Cause? '' [Zhongguo da chengshi 
ren jun shouming bi nongcun gao 12 nian- shi he yuanyin?], Beijing News 
(Online), 18 November 05.
    \12\ ``Facts and Figures: Widening Gap Between China's Urban, Rural 
Areas,'' People's Daily (Online), 3 March 06.
    \13\ Dr. Zhao Zhongwei, a professor at the Australian National 
University, presented the results of a study entitled ``Establishing a 
Harmonious Social Environment: Reducing China's Mortality Rate, 
Successes and Challenges,'' at a November 16 forum in Beijing. 
``Residents of Chinese Cities Live on Average 12 Years Longer than 
Those in Rural Areas--What Is the Cause?,'' Beijing News.
    \14\ Ministry of Health (Online), ``Ministry of Health Publishes 
Statistics on Infectious Diseases in 2005'' [Weishengbu gongbu 2005 
nian quanguo fading baogao chuanranbing yiqing], 10 February 06.
    \15\ Ibid.
    \16\ Ibid.
    \17\ ``Doctors Not Up to Scratch on Hepatitis B,'' South China 
Morning Post (Online), 29 September 05.
    \18\ Ministry of Health (Online), ``Ministry of Health Publishes 
`2006-2010 Plan on Hepatitis B Prevention and Control' '' [``2006-2010 
nian quanguo yi xing bingduxing ganyan fangzhi guihua'' fabu], 13 
February 06.
    \19\ Ibid.; ``Government Issues Plan to Contain Hepatitis B,'' 
Xinhua (Online), 13 February 05.
    \20\ Of 290 doctors specializing in infectious diseases surveyed, 
only two-thirds were fully aware of proper hepatitis treatment 
procedures. Of 334 doctors not specializing in infectious diseases 
surveyed, four in five thought hepatitis B was congenital and could not 
be effectively prevented--both false assumptions. ``Survey Shows PRC 
Doctors Lack Knowledge on Hepatitis B,'' China Daily (Online), 29 
September 05.
    \21\ PRC Law on the Prevention and Control of Infectious Diseases, 
enacted 29 February 89, amended 28 August 04, art. 16.
    \22\ ``Survey Shows PRC Doctors Lack Knowledge on Hepatitis B,'' 
China Daily; ``Doctors Not Up to Scratch on Hepatitis B,'' South China 
Morning Post.
    \23\ ``Hepatitis Foundation Learns From AIDS Activism,'' China 
Development Brief (Online), 16 February 06.
    \24\ ``Student's Case of Alleged Hepatitis B Discrimination Goes on 
the Record in Zhengzhou'' [Gaokao zhaosheng yigan qishi an zai 
Zhengzhou lian], China Youth Daily (Online), 11 October 05.
    \25\ In December 1987, China issued its first national set of 
regulations on the prevention and control of HIV/AIDS. Ministry of 
Health, Regulations on AIDS Prevention and Control [Aizibing fangzhi 
tiaoli], issued 18 January 06.
    \26\ Ibid.
    \27\ The ``3 by 5'' initiative, launched by the UNAIDS program and 
the World Health Organization in 2003, had a global target of providing 
three million people living with HIV/AIDS in low- and middle-income 
countries with antiretroviral treatment by the end of 2005. China had 
set a goal of getting treatment to 30,000 HIV/AIDS carriers by the end 
of 2005, but as of June 2005, only 15,500 carriers were receiving the 
treatment. World Health Organization and UNAIDS, ``Progress on Global 
Access to HIV Antiretroviral Therapy: A Report on 3 by 5 and Beyond,'' 
28 March 06, 72.
    \28\ Regulations on AIDS Prevention and Control.
    \29\ ``New Estimate in China Finds Fewer AIDS Cases,'' New York 
Times (Online), 26 January 06.
    \30\ Ibid.; ``HIV/AIDS in China: From High-Risk Groups to General 
Population,'' People's Daily (Online), 27 January 06.
    \31\ National Population and Family Planning Commission (Online), 
``State Council Convenes Nationwide Teleconference on AIDS Prevention 
and Control'' [Guowuyuan zhaokai quanguo aizibing fangzhi gongzuo 
dianshi dianhua huiyi], 30 November 05; ``Local Officials Not Helping 
AIDS Crisis,'' South China Morning Post (Online), 29 November 05.
    \32\ ``Nation Vows To Protect Migrants Against HIV/AIDS,'' Xinhua 
(Online), 29 November 05.
    \33\ Ministry of Health (Online), ``Nationwide AIDS Education 
Project for Migrant Workers Announced'' [Quanguo nongmingong yufang 
aizibing xuanchuan jiaoyu gongcheng jiang qidong], 29 November 05. For 
more information on central government efforts to construct a social 
security network for migrants, see Section V(i)--Freedom of Residence 
and Travel.
    \34\ Beijing authorities forced two AIDS patients who had traveled 
to the capital to present grievances to return to their homes in Henan 
province. ``Local Officials Force AIDS Petitioners To Go Home,'' South 
China Morning Post (Online), 1 December 05. Police also beat several 
HIV carriers participating in a sit-in outside a hospital in Xingtai, 
Hebei province. ``Police Beat Up HIV Carriers in Xingtai, Hebei'' 
[Hebei Xingtai aizibingdu ganranzhe zao jingfang bao da], Radio Free 
Asia (Online), 15 November 05. Shanghai police locked down a hotel 
where a group of hemophiliacs seeking compensation for being infected 
with HIV by a tainted blood product were staying. Bill Savadove, 
``Police Lock Victims of HIV Blunder in Hotel,'' South China Morning 
Post (Online), 21 April 06.
    \35\ ``National AIDS Meeting Opens--Activist Hu Jia Detained While 
Presenting Petition'' [Quanguoxing aizibing huiyi bimen zhaokai--
zhuming huodongrenshi Hu Jia qingyuan beizhua], Radio Free Asia 
(Online), 7 November 05.
    \36\ Following his resignation, Hu stated that the Chinese 
government ``is using soft methods to narrow the space NGOs can exist 
in.'' ``China Activist Quits Amid Crackdown on NGOs,'' Reuters 
(Online), 7 February 06.
    \37\ China's Response to Avian Flu: Steps Taken, Challenges 
Remaining, Staff Roundtable of the Congressional-Executive Commission 
on China, 24 February 06, Written Statement Submitted by Dr. Bates 
Gill, Freeman Chair in China Studies, Center for Strategic and 
International Studies.
    \38\ Central government authorities have taken a number of steps 
since August 2005 to prevent the spread of avian flu. On August 19, the 
Chinese Center for Disease Control and Prevention announced a 
``National Plan for Monitoring Influenza and Human Avian Flu,'' which 
recommended, among other steps, the formation of a National Information 
Management System for Monitoring Influenza and Human Avian Flu. 
National Plan for Monitoring Influenza and Human Avian Flu [Quanguo 
liuganren qinliugan jiance shishi fangan], issued 19 August 05. On 
September 28, the Ministry of Health announced a ``Flu Emergency 
Preparedness Plan'' which recommended the establishment of an anti-
influenza leading working group, surveillance networks, laboratories, 
and a flu and bird-flu database to address the potential for human-to-
human transmission of a mutated bird-flu virus. Flu Emergency 
Preparedness Plan [Weishengbu yingdui liugan da liuxing zhunbei jihua 
yu yingji yu an], issued 28 September 05. On October 13, the Ministries 
of Health and Agriculture announced the establishment of a working 
group to strengthen coordination between the two ministries to prevent 
the transmission of diseases, such as avian flu and swine flu, from 
animals to humans. Ministry of Health (Online), ``Ministries of Health, 
Agriculture Form Working Group to Prevent Animal-Human Disease 
Transmission'' [Weishengbu, nongyebu jianli ren xu gong huan 
chuanranbing fangzhi hezuo jizhi], 13 October 05. On November 2, the 
State Council appropriated 2 billion yuan (US$250 million) for the 
establishment of an avian flu prevention fund, proposed the creation of 
a nationwide avian flu command center, and recommended the development 
of an epidemic information reporting system in order to strengthen 
public awareness. ``Central Authorities Disburse 2 Billion Yuan for 
Anti-Avian Flu Fund'' [Zhongyang bo 20 yi she qinliugan fangkong 
jijin], Beijing News (Online), 4 November 05.
    \39\ ``China Plans Billions of Poultry Vaccinations,'' New York 
Times (Online), 16 November 05.
    \40\ China's Response to Avian Flu, Written Statement Submitted by 
Dr. Bates Gill.
    \41\ In a June 15, 2006 article, the World Health Organization's 
representative in China expressed concern that 18 of 19 human cases 
reported on the mainland arose in places where no poultry outbreaks 
were detected. Mary Ann Benitez, ``Alarm Over Poor Poultry 
Surveillance,'' South China Morning Post (Online), 15 June 06; China's 
Response to Avian Flu, Written Statement Submitted by Erika Elvander, 
Office of Asia and the Pacific, Office of Global Health Affairs, U.S. 
Department of Health and Human Services.
    \42\ China's Response to Avian Flu, Written Statement Submitted by 
Dr. John R. Clifford, Deputy Administrator for the Animal and Plant 
Health Inspection Services' (APHIS) Veterinary Services program, U.S. 
Department of Agriculture. The Ministry of Agriculture has not shared 
any virus samples from infected poultry with the World Health 
Organization since 2004, despite agreeing to do so in March 2006. The 
genetic information contained in the samples could help develop a more 
effective vaccine. Shai Oster, ``China Acknowledges Delay in Sharing 
Bird-Flu Samples,'' Wall Street Journal (Online), 5 September 06; 
``Beijing to Give WHO Bird Flu Samples,'' South China Morning Post 
(Online), 23 March 06; ``Credit Dispute: How Academic Flap Hurt World 
Effort on Chinese Bird Flu,'' Wall Street Journal (Online), 24 February 
06.
    \43\ China's Response to Avian Flu, Written Statement Submitted by 
Erika Elvander.
    \44\ Emergency Response Regulations for Major Epidemics of Animal 
Diseases [Zhongda dongwu yiqing yingji tiaoli], issued 18 November 05, 
Ch. 3, art. 17.
    \45\ Ibid. Liaoning provincial officials arrested the head of 
veterinary services in Badaohao township in November 2005, for 
attempting to cover up the illnesses of chickens at local farms 
following avian flu outbreaks. Provincial authorities also disciplined 
seven other officials for dereliction of duty. Geoffrey York, ``Reforms 
Critical for China To Win Bird-Flu Fight,'' Toronto Globe and Mail 
(Online), 29 November 05. Five local officials in Dazhu county, Sichuan 
province were fired in May 2006 for mishandling a January outbreak of 
bird flu in poultry. ``Five Officials Fired for Mishandling Bird Flu 
Outbreak in Poultry,'' South China Morning Post (Online), 12 May 04.
    \46\ Ministry of Health (Online), April 25, 2006. The MOH issued a 
statement warning authorities that cover-ups or delays could risk 
spreading the disease. The statement said that some medical institutes 
had ``failed to quickly report on pneumonia cases with unknown causes, 
some local governments failed to urge their institutes to do their job 
in time; some health authorities failed to respond quickly to reports, 
and some pneumonia patients who had had contact with sick or dead 
poultry were moved to other hospitals without guidance, risking the 
spread of infectious diseases.'' Nicholas Zamiska, ``China Finds 
Possible Cases of Bird Flu Go Unreported,'' Wall Street Journal 
(Online), 26 April 06; ``Health Ministry Warns Against Cover Ups in 
Pneumonia Report,'' Xinhua (Online), 26 April 06. World Health 
Organization officials have also expressed concern about China's 
practice of reporting only confirmed cases of bird flu in humans, and 
have encouraged the Chinese government to act with greater 
transparency. Nicholas Zamiska, ``WHO Questions China's Policy on 
Reporting Bird-Flu Cases,'' Wall Street Journal (Online), 23 March 06.
    \47\ Chris Buckley, ``China Responds to Bird Flu Under Shadow of 
SARS,'' Reuters (Online), 10 November 05; Bill Savadove, ``Beijing 
Playing Down Situation at Home,'' South China Morning Post (Online), 28 
October 05; Josephine Ma, ``Beijing Tightens Control on Media 
Reports,'' South China Morning Post (Online), 2 November 05.
    \48\ Hu Shuli, ``Caijing Article Says Local Officials Not Open 
About Avian Influenza,'' Finance Magazine, 31 October 05 (Open Source 
Center, 15 November 05).

    Notes to Section V(h)--Population Planning
    \1\ ``Solving China's Population Problem by Focusing on People's 
Overall Development'' [Yi ren de quanmian fazhan tongchou jiejue woguo 
renkou wenti], Seeking Truth (Online), 28 April 06. The particular 
circumstances under which women may bear a second child are governed by 
provincial-level regulations. See PRC Population and Family Planning 
Law of the People's Republic of China, enacted 29 December 01, art. 17.
    \2\ John S. Aird, Slaughter of the Innocents: Coercive Birth 
Control in China (Lanham, Maryland: AEI Press, 1990).
    \3\ Human Rights in China: Improving or Deteriorating Conditions?, 
Hearing of the Subcommittee on Africa, Global Human Rights and 
International Operations, U.S. House of Representatives, 19 April 06.
    \4\ ``Solving China's Population Problem by Focusing on People's 
Overall Development,'' Seeking Truth.
    \5\ Chinese authorities have admitted to the coercive nature of the 
system of fines. Shanghai Municipal Government (Online), ``What are 
Social Compensation Fees? '' [Shenme shi shehui fuyangfei?], Undated.
    \6\ Measures for Collection of Social Compensation Fees [Shehui 
fuyangfei zhengshou guanli banfa], issued 2 September 02, arts. 3, 7, 
10, 14.
    \7\ Beijing Methods for Managing the Collection of Social 
Compensation Fees [Beijing shi shehui fuyangfei zhengshou guanli 
banfa], issued 5 November 02, arts. 5-7, 10-12.
    \8\ In Shandong, the fine is waived when the firstborn child is 
``identified as disabled'' and permission to have a second child is 
received. Shandong Province Methods for Managing the Collection of 
Birth Control Social Compensation Fees [Shandongsheng jihua shengyu 
shehui fuyangfei zhengshou guanli banfa], issued 1998, arts. 2-5, 8, 
10, 17. Since a disabled child will, in most cases, require more state 
assistance, this indicates that the primary purpose of the fine is 
coercive and not to compensate the state for ``the corresponding 
increase in social undertakings and public finances engendered by 
having more than one child.'' Shanghai Municipal Government, ``What are 
Social Compensation Fees? ''
    \9\ ``Wuyang Court Specially Assigns Case Concerning Social 
Compensation Fees Screening 15 Cases and Deciding on 10'' [Wuyang 
fayuan zhuanxing zhixing shehui fuyangfei anjian shaixuan 15 anjie 10 
an], China Court Net (Online), 29 May 06.
    \10\ CECC Staff Interview; Human Rights Violations under China's 
One-Child Policy, Hearing of the International Relations Committee, 
U.S. House of Representatives, Testimony of John S. Aird, former Chief 
of the China Branch and Senior Research Specialist on China at the 
Bureau of the Census, 14 December 04.
    \11\ Beijing Declaration and Platform for Action (1995), para. 17; 
Cairo International Conference on Population and Development (1994), 
Programme of Action of the International Conference on Population and 
Development, para. 7.2. On the concept of ``illegal pregnancy'' and its 
use in practice, see Elina Hemminki, et. al., ``Illegal Births and 
Legal Abortions--The Case of China,'' Reproductive Health 2, no. 5 
(2005).
    \12\ PRC Population and Family Planning Law, art. 41; ``Calls for 
Strict Birth Control Win Backup,'' Xinhua (Online), 8 March 06. 
According to the U.S. State Department, although Chinese law requires 
officials to get court approval to forcibly collect social compensation 
fees, this is not always followed. Bureau of Human Rights, Democracy, 
and Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (includes Tibet, Hong Kong, and Macau), 8 March 
06.
    \13\ U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (the 7 provincial-level governments that require 
``termination'' of pregnancies are Anhui, Hebei, Heilongjiang, Hubei, 
Hunan, Jilin, and Ningxia; the 10 that require unspecified ``remedial 
measures'' are Fujian, Guizhou, Guangdong, Gansu, Jiangxi, Qinghai, 
Sichuan, Shanxi, Shaanxi, and Yunnan).
    \14\ Universal Declaration of Human Rights, art. 25; International 
Covenant on Economic, Social, and Cultural Rights, arts. 10, 13. China 
denies out-of-plan children basic health care, education, and the right 
to marry, while it grants educational and financial privileges to the 
child of parents who could have had two children according to the 
policy but limited themselves to one, and a special pension to parents 
who have a daughter but no son. Human Rights in China: Improving or 
Deteriorating Conditions?, Testimony of Steven W. Mosher; ``Easing 
Family Planning Rules Leads to Fewer Abortions and More Baby Girls, 
Chinese Province Finds,'' UNFPA, 15 December 05 (discussing pensions 
for those who have no sons but have daughters); Steven W. Mosher, 
``China's One-Child Policy: Twenty-five Years Later,'' Human Life 
Review 32, no. 2 (Winter 2006), 77f; Hemminki, ``Illegal Births and 
Legal Abortions.'' In order to discourage the sex-selective abortion of 
girls, officials have reduced school fees for girls. ``China's Gender 
Imbalance Still Growing,'' CBS News (Online), 17 April 06.
    \15\ Cairo International Conference on Population and Development 
(1994), Programme of Action of the International Conference on 
Population and Development, para. 7.12. In 2006, the government 
announced national population targets of 1.37 billion for 2010 and 1.5 
billion for 2020. ``China Pledges To Keep Its Population Below 1.37 
Billion by 2010,'' Xinhua (Online), 6 January 06. The Chinese 
government has set population targets through the mid-21st century. 
State Council Information Office, White Paper on China's Population and 
Development in the 21st Century, December 00. The NPFPC has denied 
discrimination against ``out-of-plan'' children. ``Solving China's 
Population Problem by Focusing on People's Overall Development,'' 
Seeking Truth.
    \16\ PRC Population and Family Planning Law, art. 4 provides that 
offiicials ``shall perform their administrative duties strictly in 
accordance with law, and enforce the law in a civil manner, and they 
may not infringe upon legitimate rights and interests of citizens.''
    \17\ ``Hebei Falun Gong Practitioner Forced To Abort,'' Epoch Times 
(Online), 26 December 05; ``Chongqing Family Planning Office Forces 25-
Year-Old Man To Be Sterilized,'' Boxun (Online), 3 January 06 (events 
reported occurred in 2002); Heda Bayron, ``Experts: China's One-Child 
Population Policy Producing Socio-Economic Problems,'' Voice of America 
(Online), 7 March 06 (forced sterilization of a woman from Fujian).
    \18\ ``Chinese Woman Fleeing Forced Abortion Dies in Hospital 
Fall,'' Associated Press (Online), 1 July 06.
    \19\ The official communications of Chinese authorities to local 
family planning officials also allow the latter to understand that 
local officials will not be punished for coercive measures. ``Human 
Rights Violations under China's One-Child Policy,'' Testimony of John 
S. Aird; Women's Rights and China's New Family Planning Law, Staff 
Roundtable of the Congressional-Executive Commission on China, 
Testimony of John S. Aird, 23 September 02; Hemminki, ``Illegal Births 
and Legal Abortions;'' Hannah Beech, ``Enemies of the State?,'' Time 
(Online), 12 September 05 (Beijing legal activist reports: ``One set of 
bad population figures can stop an official from getting promoted'').
    \20\ In 2006, two welfare workers were sentenced to terms of 
probation and one welfare worker to a suspended jail sentence for 
ordering hysterectomies on two mentally challenged girls living in a 
girls' care home. The lawyer for one of the defendants argued that such 
operations were common in China. ``Light Penalties for Forced 
Hysterectomies in China,'' Reuters (Online), 6 July 06.
    \21\ Human Rights in China: Improving or Deteriorating Conditions?; 
China: Human Rights Violations and Coercion in One Child Policy 
Enforcement, Hearing of the Committee on International Relations, U.S. 
House of Representatives, 14 December 04.
    \22\ Mosher, ``China's One-Child Policy,'' 88f.
    \23\ Steven W. Mosher, ``The Passion and Mrs. Wong,'' Global Family 
Life News, March-May 05, 3, 9f.
    \24\ In recent years, authorities have subjected Mao Hengfeng, a 
woman who has protested against the government's population planning 
policy, to detention and torture. ``One-Child Policy Opponent 
Tortured,'' Human Rights in China (Online), 5 October 04. ``Violence 
Against Women,'' in 2005 Report, Amnesty International (Online) 
(covering events from January to December 2004).
    \25\ Officials detained over 100,000 people in ``population 
schools'' where forced sterilizations and abortions were performed. 
U.S. Department of State, Country Reports on Human Rights Practices--
2005, China. ``7,000 Forcibly Sterilised in Eastern China,'' Agence 
France-Presse (Online), 12 September 05; Beech, ``Enemies of the State? 
''
    \26\ ``Activist Who Exposed Birth Control Abuses Jailed,'' South 
China Morning Post (Online), 24 August 06 (officials convicted Chen on 
charges of ``willfully damaging property and organizing a mob to 
disturb traffic'').
    \27\ National Population and Family Planning Commission of China 
(Online), ``Comments of Yu Xuejun, spokesperson for NPFPC and Director 
General of the NPFPC Department of Policy and Legislation on the 
Preliminary Results of Investigating Family Planning Practices in Linyi 
City of Shandong Province,'' 19 September 05. In 2003, the State Family 
Planning Commission was renamed the National Population and Family 
Planning Commission and given enlarged responsibilities for research on 
population issues. Peng Xizhe, Director of the Institute of Population 
Research at Fudan University, claimed that the renaming demonstrated 
``the wider administrative and coordination functions assigned it by 
the State Council.'' Peng Xizhe, ``Is It Time To Change China's 
Population Policy? '' China: An International Journal 2, no.1 (2004), 
135-49.
    \28\ ``Forced Abortions in China,'' Telegraph (India) (Online), 24 
October 05 (reporter discovers evidence that coercive abortions 
continue in Linyi); Jonathan Watts, ``Under House Arrest: Blind 
Activist Who Exposed Forced Abortions,'' Guardian (Online), 3 February 
06.
    \29\ PRC Population and Family Planning Law, art. 39.
    \30\ Officials denied the accusations and said that some of the 
children had been illegally adopted. ``United in Grief, Farmers Lament 
Loss of Children `Stolen' by Officials,'' South China Morning Post 
(Online), 21 March 06; ``Forced Removal of Children Should Not Be 
Tolerated,'' South China Morning Post (Online), 22 March 06.
    \31\ ``13 Officials in Shaanxi Punished for Family Planning 
Failure,'' Xinhua (Online), 5 May 06.
    \32\ ``Rich Men Challenge Family Planning Policy,'' China Daily 
(Online), 16 December 05 (large families have become status symbols for 
those who can afford to pay fines); ``Calls for Strict Birth Control 
Win Backup,'' Xinhua (Online), 8 March 06.
    \33\ ``Solving China's Population Problem by Focusing on People's 
Overall Development,'' Seeking Truth.
    \34\ ``Abortion Law Amendment To Be Abolished,'' Xinhua (Online), 
26 June 06 (ratio 119:100); ``Over 1 Million Grassroot Organizations 
Provided Family Planning Services in China,'' Xinhua (Online), 9 
January 06 (male-female birth ratio of 119:100); U.S. Department of 
State, Country Reports on Human Rights Practices--2005, China (male-
female birth ratio for second births is 152:100); Qu Jian Ding, Therese 
Hesketh, ``Family Size, Fertility Preferences, and Sex Ratio in China 
in the Era of the One Child Family Policy: Results from National Family 
Planning and Reproductive Health Survey,'' British Medical Journal, 
333, 371-373 (2006) (finding a sex ratio at birth of 123:100 for 1996 
to 2001); Elaine Wu, ``Population Rises 3.2% over Past Five Years to 
1.306 Billion,'' South China Morning Post (Online), 17 March 06 
(experts believe the true population is tens of millions greater and 
the male-female birth ratio even more lopsided than is reported). 
China's population planning policy has also resulted in infanticide of 
female infants, though the rate at which female infants are killed or 
die of neglect is uncertain. U.S. Department of State, Trafficking in 
Persons Report--2005, China.
    \35\ In June and July 2006, the state-controlled Chinese press 
reported a male-female birth ratio of 119:100. ``Abortion Law Amendment 
To Be Abolished,'' Xinhua (Online). In August 2006, the Chinese Academy 
of Social Sciences said the ratio had reached 121.2:100. ``Alarm 
Sounded on Gender Imbalance,'' South China Morning Post (Online), 18 
August 06; ``Selective Abortion Still Legal,'' South China Morning Post 
(Online), 26 June 06 (the Chinese government had previously reported a 
male-female birth ratio of 117:100); ``China's Gender Imbalance Still 
Growing,'' CBS News (Online), 17 April 06 (Zhao Baige, Vice Minister of 
the NPFPC, tells Lesley Stahl that even with all the incentives and 
government programs, the sex ratio imbalance is getting worse); 
``Serious Birth Gender Imbalance Inflicts 9 Chinese Regions,'' People's 
Daily (Online), 25 August 04 (sex ratio imbalance is worsening in both 
rural and urban areas). The sex ratio at birth was 108.5:100 in 1982, 
110.9:100 in 1987, 111.3:100 in 1990, 115.6:100 in 1995, and 116.9:100 
in 2000. Peng Xizhe, ``Is It Time To Change China's Population Policy? 
'' China: An International Journal 2, no. 1 (2004). The state-run media 
have reported a study claiming that several ethnic minorities have 
male-female ratios ranging from 400:100 to 1,000:100, but attributes 
this to minority women marrying or being trafficked outside their 
ethnic groups. ``Poverty and Gender Imbalance Threaten Some Ethnic 
Minorities,'' China.org (Online), 10 May 06 (referring to the Lahu, Wa, 
Hani, and Lisu minorities).
    \36\ PRC Population and Family Planning Law.
    \37\ ``Criminal Law Amended for Gender Balance,'' China Daily 
(Online), 26 December 05.
    \38\ ``Solving China's Population Problem by Focusing on People's 
Overall Development,'' Seeking Truth.
    \39\ ``Lawmakers Resume Debate on Sex Identification,'' Xinhua 
(Online), 25 April 06.
    \40\ ``Abortion Law Amendment To Be Abolished,'' Xinhua (Online).
    \41\ Andrew Yeh, ``China Retreats on Selective Abortion Law Plan,'' 
Financial Times (Online), 25 June 06.
    \42\ ``Beijing Split Over Abortion Policy,'' Financial Times 
(Online), 11 July 06.
    \43\ ``North China Province Closes 201 Clinics Guilty of Gender 
Selection,'' Xinhua (Online), 31 May 06; ``More Efforts Urged To Curb 
Gender Imbalance,'' China Daily (Online), 11 July 06; ``Nation To 
Launch Monitoring of Birth Gender Ratios,'' Xinhua (Online), 12 July 
06; ``Hebei Worries Growing Gender Inequality,'' China Daily (Online), 
13 July 06; ``China Not To Relax Fight Against Selective Abortions,'' 
Xinhua (Online), 1 August 06; ``Health Ministry Warns Against Abortion 
Crimes,'' Xinhua (Online), 2 August 06; ``China's Rising Gender 
Imbalance May Leave Millions of Men With No Wives,'' People's Daily 
(Online), 12 August 06.
    \44\ ``Gender Imbalance May Leave Millions of Men With No Wives,'' 
Xinhua (Online), 11 August 06.
    \45\ ``Solving China's Population Problem by Focusing on People's 
Overall Development,'' Seeking Truth. Some Chinese demographers agree. 
Peng Xizhe, ``Is It Time To Change China's Population Policy? ''
    \46\ ``China Has Not Relaxed Family Planning: Official,'' Xinhua 
(Online), 1 May 06, which states: ``The government offers around 1,200 
yuan (US$150) a year to rural couples who have only one child or two 
daughters, as an acknowledgment of their contribution to the birth 
control drive.'' See also ``China Focus: China Adopts More Human-
Centered Way in Poverty Reduction,'' Xinhua (Online), 27 October 05, 
which states: ``Last year, the Chinese government began to adopt a new 
policy of offering more than 600 yuan to couples above 60 years old who 
have only one child or two daughters.'' See also ``More Rural Senior 
Couples To Be Awarded for Practicing Family Planning Policy,'' Xinhua 
(Online), 23 October 05, which states: ``A new family planning reward 
policy is to be introduced in 23 provinces, municipalities and 
autonomous regions across the country this year. According to the new 
policy, rural couples with only one child or two daughters will be 
eligible for a cash reward of no less than 600 yuan (US$72) each year 
when they are 60 years old. The reward will last for the rest of their 
lives.'' National Population and Family Planning Commission (Online), 
``W. China Combines Family Planning with Poverty Alleviation,'' 10 
November 05.
    \47\ Ibid.
    \48\ ``China Focus: Family Planning Policy--A Controversial Topic 
in China,'' Xinhua (Online), 29 December 05; ``One-Child Policy 
Questioned as Population Ages Rapidly,'' AsiaNews (Online), 2 January 
06.
    \49\ A senior official on the China National Committee on Aging has 
stated that social services cannot meet the rising demands for medical 
care and pensions for elderly people. ``China Focus: China Feels the 
Pressure of Growing Elderly Population,'' Xinhua (Online), 23 February 
06; National Population and Family Planning Commission (Online), 
``Coping With Aging Society,'' 21 January 06; ``China's Aging 
Population Will Create Losses for Existing Positive Economic 
Development'' [Laolinghua jiang shi zhongguo jingji fazhan shiqu 
xianyou youshi], China Youth Daily (Online), 21 August 06.
    \50\ See, for example, the regulations of Shanghai and Jiangsu 
provinces. Peng Xizhe, ``Is It Time To Change China's Population 
Policy? ''
    \51\ ``China Focus: Family Planning Policy--A Controversial Topic 
in China'' Xinhua (Online), 29 December 05; Zhang Feng, ``Minister Says 
One-Child Rule Will Remain in Coming Years,'' Beijing Daily (Online), 7 
January 06 (Open Source Center, 7 January 06); National Population and 
Family Planning Commission (Online), ``Coping With Aging Society;'' 
Larry Teo, ``China Is Worrying About Baby Shortage,'' Straits Times 
(Online), 2 March 06 (characterizing NPFPC Minister Yu Xuejun as saying 
``that two-children families are a more suitable option for China. But 
he hastened to add that a sudden switch is not advisable . . .,'' and 
characterizing a report by Chinese demographer Zeng Yi as suggesting 
the phasing-in of a two-child policy over an eight-year period); ``One-
Child Policy Questioned as Population Ages Rapidly,'' AsiaNews 
(Online), 2 January 06; ``China to Keep Family Planning Policy 
Stable,'' Xinhua (Online), 23 April 06.
    \52\ ``China to Keep Family Planning Policy Stable,'' Xinhua. The 
official apparently referred to the coming of age of the generation 
born after the 1984 permission for rural couples to have a second child 
if the first was female. ``China Prepares for Fourth Baby Boom,'' China 
Daily (Online), 3 May 06.

    Notes to Section V(i)--Freedom of Residence and Travel
    \1\ ``China's Household Registration System: Sustained Reform 
Needed To Protect China's Rural Migrants,'' Topic Paper of the 
Congressional Executive-Commission on China, 7 October 05, 1-3.
    \2\ Ibid., 3.
    \3\ Ibid., 2.
    \4\ `` `Report on Rural Migrant Workers:' The Average Age of 
Migrant Workers is 28.6 Years Old'' [Zhongguo nongmingong diaoyan 
baogao: nongmingong pingjun nianling wei 28.6 sui], Xinhua, reprinted 
in China Internet Information Center (Online), 16 April 06. Other 
statistics list the total number of migrants as high as 140 million. 
PRC Bureau of Statistics, 2004 National Statistical Report on Economic 
and Social Development [2004 Nian guomin jingji he shehui fazhan tongji 
gongbao], 28 February 05; ``Migrant Population Hits 140 Million,'' 
Associated Press (citing Xinhua), 6 January 05.
    \5\ ``China's Household Registration System: Sustained Reform 
Needed to Protect China's Rural Migrants,'' 4.
    \6\ Ibid., 4-5.
    \7\ Ibid., 7-10.
    \8\ Tang Yaoguo, ``Hukou Reform Blocked by Local Governments, 
Benefits Behind Hukou Are the Core of the Problem'' [Huji gaige shouzu 
defang zhengfu hukou beihou liyi shi wenti genben], Outlook Weekly, 
reprinted in Sohu (Online), 21 November 05; Zhao Jie, ``Opinion of 
Ministry of Public Security on Hukou Reform Will Be Clear, Expert: Need 
Large Hukou Reform'' [Gonganbu huji gaige yijian jiang mingliang zhuan 
jia: yao da huji gaige], China Economic Net, reprinted in Xinhua 
(Online), 24 November 05.
    \9\ Supreme People's Court's Judicial Interpretation Regarding 
Compensation Cases for Personal Injuries [Zui gao renmin fayuan guanyu 
shenli renshen sunhai peichang anjian shiyong falu ruogan wenti de 
jiejue], issued 4 December 03, art. 29.
    \10\ PRC Election Law of the National People's Congress and Local 
People's Congresses, [Zhonghua renmin gongheguo quanguo renmin daibiao 
dahui he difang geji renmin daibiao dahui xuanju fa], enacted 1 July 
79, amended 27 October 04, art. 12.
    \11\ ``Compensation 120,000 Less Only Because of Rural Hukou'' 
[Zhiyin nongcun hukou peichang shao 12 wan], Beijing News (Online), 14 
February 06; Guo Yuxiang and Lu Yilin, ``Migrant Worker Dies in City, 
Hai'an Court Decision Uses Urban Resident Standard for Compensation'' 
[Jin cheng nongmingong siwang hai'an fayuan panjue jie chengzhen jumin 
biaozhun peichang], China Court Net (Online), 16 February 06; Tang 
Zhongming, ``Three Young Girls Killed in Car Accident, Because Hukou 
`Same Fate, Different Price' [Compensation] Difference of 120,000'' 
[San shaonu zao chehuo yinwei hukou ``tongming butong jia'' xiangcha 12 
wan], Youth Daily, reprinted in Procuratorial Daily (Online), 24 Jan 
06.
    \12\ ``Hukou Blamed for Discriminatory Compensation,'' China Daily, 
reprinted in Xinhua (Online), 27 Jan 06.
    \13\ `` `11.5' Program Series Forum'' [Shiyi wu guihua zhuti xilie 
luntan], 21st Century Business Herald (Online), 17 October 05; Zhao 
Xiao and Wang Benjian, ``Break Up of Two-Tiered Structure of Chinese 
Real Estate Industry Needed for Healthy Development'' [Dapo eryuan 
jiegou Zhongguo fangdichanye cai neng jiankang fazhan], Southern 
Weekend (Online), 20 October 05; ``National Temporary Registered 
Population 86,730,000, Merger Planned For Rural-Urban Hukou 
Management'' [Quanguo dengji zanzhu renkou 8673 wan chengxiang huji 
guanli ni tongyi], Legal Daily, reprinted in Xinhua (Online), 26 
October 05.
    \14\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside [Zhonggong zhongyang 
guowuyuan guanyu tuijin shehui zhuyi xin nongcun jianshe de ruogan 
yijian], issued 31 December 05.
    \15\ Ibid.
    \16\ Press Conference on Building New Socialist Countryside, 
Xinhua, reprinted in PRC Central People's Government (Online), 23 
February 06.
    \17\ ``General Offices of the CCP Central Committee and State 
Council Reissuance of `Opinion on Deeply Carrying out Peaceful 
Construction,' '' [Zhong ban, Guo ban zhuanfa ``Guanyu shenru kaizhan 
ping'an jianshe de yijian], Xinhua, reprinted in PRC Central People's 
Government (Online), 4 December 05; ``Government Calls for Building 
Social Stability, Security,'' Xinhua (Online), 4 December 05.
    \18\ Ministry of Justice (Online), Sun Chunying, ``County (City, 
District) Key Points in Order to Establish Stability'' [Xian (shi, qu) 
wei chuangjian ping'an zhongdian], 6 December 05.
    \19\ For a detailed analysis of prior reform efforts, see the 
Commission's topic paper: ``China's Household Registration System: 
Sustained Reform Needed to Protect China's Rural Migrants.''
    \20\ ``National Temporary Registered Population 86,730,000, Merger 
Planned for Rural-Urban Hukou Management,'' Legal Daily; Wang Qiang, 
``11 Provinces Begin Integrating Urban and Rural Hukou, Beijing 
Temporarily Not Included'' [11 ge shengshi kaishi tongyi chengxiang 
hukou beijing zan wei lieru qizhong], Beijing Evening News, reprinted 
in Procuratorial Daily (Online), 28 October 05. For a partial list of 
such efforts through the end of 2004, see the Freedom of Residence and 
Travel page on the Commission's Web site.
    \21\ Zhao Jie, ``Opinion of Ministry of Public Security on Hukou 
Reform Will Be Clear, Expert: Need Large Hukou Reform.'' Some Chinese 
and U.S. media incorrectly characterized the provincial reforms as 
eliminating all legal distinctions between urban and rural residents. 
Zheng Caixiong, Wu Yong and Guo Nei, ``Rural Dwellers to be Granted 
Urban Rights,'' China Daily (Online), 2 November 05; Joseph Kahn, 
``China to Drop Urbanite-Peasant Legal Differences'' New York Times 
(Online), 3 November 2005.
    \22\ ``National Temporary Registered Population 86,730,000, Merger 
Planned for Rural-Urban Hukou Management,'' Legal Daily. Many provinces 
and municipalities that have adopted similar criteria have interpreted 
them strictly to exclude low-income migrant workers, even those that 
have been resident in urban areas for many years. ``China's Household 
Registration System: Sustained Reform Needed to Protect China's Rural 
Migrants,'' 4-5.
    \23\ ``National Temporary Registered Population 86,730,000, Merger 
Planned for Rural-Urban Hukou Management,'' Legal Daily; Central Party 
Committee, State Council Opinion on Promoting the Construction of a New 
Socialist Countryside.
    \24\ State Council Office Notice Regarding Improving Employment 
Prospects for Migrants in Urban Areas [Guowuyuan bangongting guanyu jin 
yi bu zuo hao gaishan nongmin jincheng jiuye huanjing gongzuo de 
tongzhi], issued 27 December 04.
    \25\ Ministry of Labor and Social Security (Online), Migrants 
Rights Handbook (2005 edition) [Nongmingong weiquan shouce (2005)], 
``Migrant Workers Need Not Obtain Work Registration Card'' [Nongmingong 
waichu wugong wuxu ban jiuye zhengka le], Xinhua (Online), 26 September 
05.
    \26\ ``Beijing Eliminates Regulations on the Management of 
Migrants'' [Beijing feizhi wailai renyuan guanli tiaoli], Beijing News 
(Online), 26 March 05.
    \27\ ``National Temporary Registered Population 86,730,000, Merger 
Planned for Rural-Urban Hukou Management,'' Legal Daily.
    \28\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside.
    \29\ ``Amended Compulsory Education Law Would Assure Migrant 
Children the Right to Attend School'' [``Yiwu jiaoyufa'' xiuding cao'an 
baozhang liudong renkou zinu shangxue], CCTV (Online), 1 May 06. Note 
that this is a codification of a prior State Council directive, rather 
than an entirely new policy. ``China's Household Registration System: 
Sustained Reform Needed to Protect China's Rural Migrants.''
    \30\ Ministry of Health (Online), ``Nationwide AIDS Education 
Project Announced for Rural Migrant Workers'' [Quanguo nongmingong 
yufang aizibing xuanchuan jiaoyu gongcheng jiang qidong], 29 November 
05; ``Migrant Workers to Get Basic Job Healthcare'' Xinhua, (Online), 
24 April 06; ``Health of Migrants Goes Under Microscope'' South China 
Morning Post (Online), 26 April 06; ``PRC: Health Official Says Migrant 
Children Due Same Inoculations as Urban Peers,'' Xinhua (Online), 10 
April 06; ``Migrant Children Eligible for Free Vacination: Province 
Health Department: Treat Migrant Children Equally Without 
Discrimination'' [Liudong ertong ye keyi mianfei mianyi jiezhong: sheng 
weisheng ting: dui wailai liudong ertong yi shi tong ren], Southern 
Daily (Online), 25 April 06.
    \31\ Tang Yaoguo, ``Hukou Reform Blocked by Local Governments, 
Benefits Behind Hukou Are the Core of the Problem;'' Zhao Jie, 
``Opinion of Ministry of Public Security on Hukou Reform Will Be Clear, 
Expert: Need Large Hukou Reform.''
    \32\ ``Population Approaching Limit, Shenzhen to Control Migrant 
Population'' [Renkou bijin jixian Shenzhen jiang kongzhi wailai 
renkou], Beijing News (Online), 31 July 05; Shenzhen Municipal 
Government (Online), ``Shenzhen Population Management `1+5' Document to 
be Published and Implemented in the Near Future'' [Wo shi renkou guanli 
``1+5'' wenjian jiang yu jinqi banbu shishi], 1 August 05.
    \33\ ``Looking at China's Urbanization from the Standpoint of 
Beijing Resident's Calls for Limiting Migrants,'' [Cong Beijing shimin 
huyu xianzhi wailai renkou kan woguo de chengshihua], Sina, reprinted 
in News.fiji.com, 15 August 05; ``The `Proposal on Reducing the Number 
of Migrants to Beijing' Leads to Controversy'' [`Jianshao waidiren ru 
jing jianyi' yin zhengyi], Southern Metropolitan Daily (Online), 10 
August 05.
    \34\ Zhao Jie, ``Opinion of Ministry of Public Security on Hukou 
Reform Will Be Clear, Expert: Need Large Hukou Reform.''
    \35\ ``No Uniform Standard To Be Required for Rural Hukou Reform'' 
[Nongcun huji gaige bu zuo tongyi guiding], Ta Kung Pao (Online), 23 
February 06.
    \36\ ``Farmers Who Enter Cities and See a Doctor Can Be 
Reimbursed'' [Nongmin jincheng kanbing ke xiangshou baoxiao], Beijing 
News (Online), 23 August 05.
    \37\ ``Henan High People's Court Leads Way In Declaring `The Same 
Price For The Same Fate' In Cases of Death Compensation'' [Henan 
gaoyuan shuaixian guiding chengxiang peichang biaozhun `tongming 
tongjia'], Xinhua (Online), 23 June 06.
    \38\ Yu Yiyong and Wen Sanqing ``The Phenomena of `Same Fate, 
Different Price' Tests Legal Fairness in Personal Injury Cases'' 
[Renshen sunhai peichang `tongming bu tong jia' kaowen falu gongping], 
Sichuan Daily, reprinted in Sichuan Online, 21 April 06.
    \39\ The Supreme People's Court is currently accepting suggestions 
for a new judicial interpretation on compensation for accidental injury 
and death. The Guangxi regional government's Legislative Affairs Office 
(LAO) is considering new legislation on accidental injury and death 
compensation. The Guangxi LAO is deliberating whether or not to apply 
urban compensation standards for all who are injured or killed in 
traffic accidents, or whether to limit urban compensation amounts to 
urban residents and rural residents who have lived in urban areas for 
one or more years and have a ``stable place of residence.'' The 
Chongqing High People's Court is currently soliciting comments on a 
draft guiding opinion that stipulates that rural hukou holders who are 
disabled or killed in a traffic accident may be compensated according 
to urban standards if they meet certain criteria on income, ownership 
of housing, or length of residence in an urban area. ``Henan To Use 
Same Compensation Standards for Urban Residents, Qualified Migrants,'' 
CECC China Human Rights and Rule of Law Update, September 2006, 16.
    \40\ Zhang Peiyan, ``China Economic Times: Hoping That Rural 
Migrant Workers Will Not Again Be `Observers' of Their Rights'' 
[Zhongguo jingji shibao: qidai nongmingong bu zai shi quanli 
pangtingsheng], China Economic Times, reprinted in People's Daily 
(Online), 17 January 06.
    \41\ ``Shenyang to Start Using New `Temporary Residence Permit' 
System, Resuming 29 Months After Cancelling It'' [Shenyang jiang qiyong 
xin ``zanzhuzheng'' quxiao zanzhuzheng 29 yue hou huifu], Xinhua, 
reprinted in Procuratorial Daily (Online), 14 December 05. Temporary 
residence requirements are the source of many migrant complaints 
regarding police corruption and abuse. ``Riot Erupts in Guiyang After 
Migrant is Beaten,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 3-4.
    \42\ PRC Law on Passports [Zhonghua renmin gongheguo huzhao fa], 
enacted 29 April 06, art. 26.
    \43\ Ibid., art. 13. Article 13(4) has been interpreted to mean 
that prisoners such as Tibetan nun Phuntsog Nyidron and journalist 
Jiang Weiping can be denied a passport after their release from prison, 
if they are additionally subject to deprivation of political rights. 
John Kamm, Remarks on Crimes Without Victims, Prisoners Without Names, 
Foreign Correspondents' Club of Hong Kong, 21 February 06. However, the 
Criminal Law does not include the right to travel or obtain passports 
as one of the enumerated ``political rights'' that can be deprived. PRC 
Criminal Law, enacted 1 July 79, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, art. 54.
    \44\ Ibid., art. 13(7).
    \45\ PRC Regulations on Passports and Visas [Zhonghua renmin 
gongheguo huzhao, qianzheng tiaoli], issued 13 May 80, art. 4.
    \46\ ``Two Rights Lawyers Denied Passports For Defense In Wang 
Wenyi Case'' [Wei Wang Wenyi an bianhu de liangwei weiquan lushi huzhao 
jujue], Radio Free Asia (Online), 21 June 06.
    \47\ Open Forum on Human Rights and the Rule of Law in China, Staff 
Roundtable of the Congressional-Executive Commission on China, 9 
December 02, Written Statement of Christina Fu, spouse of Yang Jianli; 
Jerome Cohen and Jared Genser, ``Tyranny in China: The Ongoing Quest to 
Free Yang Jianli,'' Washington Times (Online), 25 April 03.
    \48\ See CECC Political Prisoner Database.

    Notes to Section VI--Political Prisoner Database
    \1\ Users may search for prisoners by name, using either the Latin 
alphabet or Chinese characters. Users may construct queries to include 
personal information (ethnic group, sex, age, occupation, religion), or 
information about imprisonment (current status of detention, place of 
detention, prison name, length of sentence, legal process).
    \2\ The Tibet Information Network (TIN) ceased operations in 
September 2005.

    Notes to Section VII(a)--Development of Civil Society
    \1\ Building a ``Harmonious Society'' in China: Non-Governmental 
and Faith-Based Organizations as Agents of Social Change and Stability, 
26 September 05, Oral Statements of He Daofeng, Vice President and 
Executive Director of the China Foundation for Poverty Alleviation; Qiu 
Zhonghui, General Secretary, Amity Foundation; Chen Taiyong, China 
Director, Heifer International. According to Ministry of Civil Affairs 
(MOCA) statistics, the number of registered social organizations 
increased from 153,000 in 2004 to 169,533 in 2006, non-governmental, 
non-commercial enterprises (NGNCEs) increased from 135,000 to 146,432, 
and foundations from 936 to 1035. ``Ministry of Civil Affairs Releases 
2004 Statistical Report on the Development of Civil Affairs Work'' 
[Minzheng bu gongbu 2004 nian minzheng shiye fazhan tongji baogao], 
Xinhua (Online), 11 May 05; Ministry of Civil Affairs (Online), 
``Ministry of Civil Affairs Releases First Quarter 2006 Statistical 
Report on the Development of Civil Affairs Work'' [Minzheng bu gongbu 
2006 nian diyi jidu minzheng shiye fazhan tongji baogao], 21 April 06; 
``Inspiration From an `Alternative Form of Defending Rights','' 
Liaowang, 16 May 05, (Open Source Center, 19 Aug 05).
    \2\ CECC, 2005 Annual Report, 11 October 05, 81.
    \3\ ``Ministry of Civil Affairs Releases 2004 Statistical Report on 
the Development of Civil Affairs Work,'' Xinhua; Ministry of Civil 
Affairs, ``Ministry of Civil Affairs Releases First Quarter 2006 
Statistical Report on the Development of Civil Affairs Work;'' Zhao 
Ling and Dong Shuhua, ``New Regulations on Social Organizations to be 
Issued This Year: Civil Society Organizations to Receive Appropriate 
Encouragement'' [Xin shetuan tiaoli nian nei chutai: minjian zuzhi 
jiang huo shidu guli], Southern Weekend (Online), 18 May 05.
    \4\ ``China Encourages NGO's Participation in Fight Against AIDS,'' 
Xinhua (Online), 22 March 06; ``Six NGOs in China To Receive State 
Funding for Poverty Relief,'' China Daily, 22 February 06, (Open Source 
Center, 22 February 06).
    \5\ ``Chinese NGO's Wish to be Helpful to Government,'' Xinhua, 
reprinted in People's Daily (Online), 7 May 06.
    \6\ ``Government Changes Needed To Clarify NGO's Role in China,'' 
Beijing Review (Online), 31 March 06; ``Six NGOs in China To Receive 
State Funding for Poverty Relief,'' China Daily (Online), 22 February 
06.
    \7\ Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued 25 October 
98, art. 6; Temporary Regulations on the Registration and Management of 
Non-Governmental, Non-Commercial Enterprises [Mingong feiqiye danwei 
dengji guanli zanxing tiaoli], issued 25 September 98, art. 5.
    \8\ The 2004 annual MOCA review of approved national social 
organizations lists their corresponding sponsor organizations and 
illustrates the Party and government links with Chinese civil society 
organizations. Ministry of Civil Affairs (Online), Report on the 2004 
Annual Review of National Social Organizations [2004 niandu quanguoxing 
shehui tuanti nianjian jieguo gonggao], 3 May 05. See also Ministry of 
Civil Affairs Circular Regarding Who May Serve as a Sponsor 
Organization [Minzheng bu guanyu chongxin shehui tuanti yewu guanli 
danwei de tongzhi], issued February 00, art. 4.
    \9\ Article 20 of the UDHR and Article 5 of the Declaration on the 
Right and Responsibility of Individuals, Groups, and Organs of Society 
to Promote and Protect Universally Recognized Human Rights and 
Fundamental Freedoms also generally guarantee the freedom of 
association and assembly.
    \10\ Ministry of Civil Affairs Temporary Measures on the 
Suppression of Illegal Civil Society Organizations, issued 6 April 00, 
art. 2; The Societies Registration Act, issued 1860, arts. 1-3; The 
Johns Hopkins University Center for Civil Society Studies, ``Defining 
the Nonprofit Sector: South Korea,'' 2002, 6, 16. The European Court of 
Human Rights (ECHR) has interpreted language in Article 11 of the 
European Convention on the Protection of Human Rights and Fundamental 
Freedoms that is nearly identical to Article 22 of the ICCPR as 
endowing citizens with ``the right to form a legal entity in order to 
act collectively in a field of mutual interest.'' Sidiropolous v. 
Greece, ECHR (57/1997/841/1047) (Chamber decision, July 10, 1998), 19. 
It has barred states from refusing legal status to groups absent a 
specific showing that the association seeking registration would 
threaten territorial integrity, national security, or public order. 
Ibid, 20. It has also barred efforts by states to dissolve associations 
or political parties absent similar findings. See, e.g., The United 
Communist Party of Turkey v. Turkey--19392/92 [1998] ECHR 1 (30 January 
1998), which states that, in relation to the ``democratic society'' 
clause, ``there can be no democracy without pluralism.'' The U.S. 
Supreme Court has upheld against constitutional challenge government 
registration schemes imposing criminal penalties on Communist 
organizations that are found ``under the direction, domination, or 
control of certain foreign powers'' and fail to register. Unlike 
existing Chinese law, these registration schemes do not deny legal 
status to organizations. In addition, in upholding these schemes, the 
Supreme Court specifically noted that the relevant legislation required 
that government findings ``be made after full administrative hearing, 
subject to judicial review which opens the record for the reviewing 
court's determination whether the administrative findings as to fact 
are supported by the preponderance of the evidence.'' Communist Party 
of the United States v. Subversive Activities Control Board, 367 U.S. 
1, 86-7 (1961).
    \11\ Regulations on the Registration and Management of Social 
Organizations, arts. 11(2), 35; OSCE, ``Freedom of Association: The 
Question of NGO Registration (1998),'' 11; The Societies Act, enacted 
1966, arts 9(3), 14.
    \12\ Yang Shi, ``2768 Groups: Getting to the Bottom of 
Environmental NGOs'' [2768 jia: Mo di huanbao NGO], 21st Century 
Business Herald (Online), 25 April 06.
    \13\ Ibid.
    \14\ Ibid.
    \15\ ``Official: China to Further Support Charities by Tax 
Exemption Policies,'' Xinhua, 17 June 05 (Open Source Center, 17 June 
05); Jiang Yanxin, ``China May Legislate on Charitable Contributions'' 
[Shankuan zhipei youwang lifa], Beijing News (Online), 22 November 05.
    \16\ Trial Regulations on Enterprise Income Tax [Zhonghua renmin 
gongheguo qiye suodeshui zanxing tiaoli], issued 13 December 93, art. 
6(4) (specifying the 3 percent cap); Ministry of Finance Circular on 
Distributing the ``Implementation Details for the Trial Regulations on 
Enterprise Income Tax'' [Caizheng bu guanyu yinfa ``Zhonghua renmin 
gongheguo qiye suodeshui zanxing tiaoli shishi xize'' de tongzhi], 
issued 4 February 94, art. 12 (designating the Chinese Red Cross, All-
China Foundation for the Elderly, Project Hope, five other groups, and 
``other non-profit, public-interest organizations allowed to be 
established by the Ministry of Civil Affairs). Tax authorities have 
periodically approved other organizations as authorized recipients of 
tax-deductible contributions. See Ministry of Finance and State 
Administration of Taxation Circular on Tax Policy Regarding 
Contributions To China's Foundation for Work With the Elderly and Seven 
Other Work Units [Caizheng bu guojia shuiwu ju guanyu zhongguo laoling 
shiye fazhan jijinhui deng 8 jia danwei juanzeng suodeshui zhengce 
wenti de tongzhi], issued 6 June 06; State Tax Administration Circular 
Regarding Tax-Exempt Contributions to the Chinese Association For the 
Promotion of Ethnic Unity [Guojia shuiwu ju guanyu nashui ren tongguo 
zhonghua minzu tuanjie jinbu xiehui gongyi jiuji juanzeng shuiqian 
kouhe wenti de tongzhi], issued 21 May 04.
    \17\ Circular of the General Offices of the Communist Party Central 
Committee and State Council on Strengthening the Management of Civil 
Society Organizations [Zhonggong zhongyang bangongting guowuyuan 
bangongting guanyu jinyibu jiaqiang minjian zuzhi guanli gongzuo de 
tongzhi], issued 1 November 99, art. 2.
    \18\ Ibid., para. 7; Central Party Circular on Problems Related to 
the Creation of Party Organizations in Social Organizations [Zhonggong 
zhongyang zuzhi bu, minzheng bu guanyu zai shehui tuanti zhong jianli 
dang zuzhi you guan wenti de tongzhi], issued 1998, art. 1.
    \19\ Circular of the General Offices of the Communist Party Central 
Committee and State Council on Strengthening the Management of Civil 
Society Organizations; Circular of the General Offices of the Communist 
Party Central Committee and State Council on Strengthening the 
Management of Social Organizations and Non-Governmental, Non-Commercial 
Enterprises, issued 28 August 96; CECC, 2005 Annual Report, 83.
    \20\ See the Commission's Political Prisoner Database. Chinese 
authorities released Tong Shidong on March 9, 2006, at the expiration 
of his sentence. Qin Yongmin, Xu Wei, Jin Haike, Yang Zili, and Zhang 
Honghai remain imprisoned.
    \21\ Yang Shi, ``2768 Groups: Getting to the Bottom of 
Environmental NGOs.''
    \22\ ``Farmer Cooperatives: Urgently Awaiting Resolution of the 
Difficult Question of Their `Black Status' '' [Nongmin hezuo jidai 
pojie ``heihu'' nanti], Beijing News (Online), 8 March 06.
    \23\ Chen Xiangyang, ``PRC: Journal Views NGO Challenges to China, 
Warns of Western Infiltration Through NGOs,'' China Economic Daily, 26 
May 05 (Open Source Center, 27 May 05).
    \24\ CECC Staff Interview.
    \25\ ``Investigation Sends Chill Through Activist Groups,'' 
Associated Press, reprinted in South China Morning Post (Online), 31 
August 06.
    \26\ ``China Activist Quits Amid Crackdown on NGOs,'' Reuters 
(Online), 7 February 06.
    \27\ ``Investigation Sends Chill Through Activist Groups,'' 
Associated Press.
    \28\ Liao Hong, ``Speech at the Forum of Evaluating the Work of 
Some Provincial and Municipal Civil Society Organizations'' [Zai bufen 
shengshi minjian zuzhi pinggu gongzuo zuotanhui shangde jianghua], 
China NPO Network (Online), 28 March 06.
    \29\ ``Ministry of Civil Affairs To `Rate' Domestic NGOs'' 
[Minzhengbu jiang gei minjian zuzhi `dafen'], Beijing News (Online), 31 
August 05.
    \30\ Liao Hong, ``Speech at the Forum of Evaluating the Work of 
Some Provincial and Municipal Civil Society Organizations.''
    \31\ Ministry of Civil Affairs (Online), ``Jiangxi Provincial Civil 
Affairs Department Positively Guides and Helps Civil Society 
Organizations To Raise Their Overall Quality'' [Jiangxi sheng 
minzhengting jiji yindao bangzhu minjian zuzhi tigao zhengti suzhi], 15 
March 06.
    \32\ ``Ministry of Civil Affairs To `Rate' Domestic NGOs,'' Beijing 
News; Liao Hong, ``Speech at the Forum of Evaluating the Work of Some 
Provincial and Municipal Civil Society Organizations.''
    \33\ Ministry of Civil Affairs (Online), ``Number of Social 
Organizations Reaches 289,000, Regulating Their Development Has Become 
an Urgent Task'' [Minjian zuzhi dadao 28.9 wan guifan fazhan cheng 
poqie renwu], 31 August 05.
    \34\ Guo Xiaojun, ``NGOs May Not Require a Sponsor Organization In 
Order To Register'' [NGO zhuce you wang wu xu zhuguan danwei], Beijing 
News (Online), 18 October 04; ``Three Chinese Think Tanks Advise on 
Civil Society Legislation; Is the Spring for Grassroots NGOs Coming? '' 
[Sandazhiku jianyan shehui guanli lifa, caogen NGO de chuntian 
lailin?], 21st Century Business Herald (Online), 29 November 04.
    \35\ ``Beijing Review Profiles Development, Social Role of NGOs in 
China,'' Beijing Review, 1 July 05 (Open Source Center, 1 July 05).
    \36\ Ibid.; ``New Regulations on Social Organizations To Be 
Released This Year, Non-Governmental Groups to Receive Moderate 
Support'' [Xinshetuan tiaoli niannei chutai, minjian zuzhi jiang huo 
shidu guli], Southern Daily (Online), 19 May 05.
    \37\ Ibid.
    \38\ The 2004 Regulations on Foundations created a channel for 
foreign foundations to register representative offices in China. 
Regulations on the Management of Foundations [Jinjinhui guanli tiaoli], 
issued 8 March 04, art. 13. This contrasts with the corresponding 1998 
regulations governing social organizations and NGNCEs. Some foreign 
NGOs have registered as for-profit corporations, some have obtained 
specific individual approval for their activities, and others operate 
without any official registration. CECC Staff Interview.
    \39\ Carl Minzner, ``New Chinese Regulations on Foundations,'' 2 
International Journal of Civil Society Law 110 (April 2004).
    \40\ ``Farmer Cooperatives: Urgently Awaiting Resolution of the 
Difficult Question of Their `Black Status,' '' Beijing News; CECC Staff 
Interview, Karla Simon, Professor of Law, Catholic University of 
America.
    \41\ ``Farmer Cooperatives: Urgently Awaiting Resolution of the 
Difficult Question of Their `Black Status,' '' Beijing News.
    \42\ CECC, 2005 Annual Report, 82; ``Rural Cooperative 
Organizations Obtain Legal Status'' [Nongmin hezuo zuzhi shouhuo faren 
shenfen], Beijing News (Online), 10 May 05.
    \43\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside [Zhonggong zhongyang 
guowuyuan guanyu tuijin shehui zhuyi xin nongcun jianshe de ruogan 
yijian], issued 31 December 05.
    \44\ ``Farmer Cooperatives: Urgently Awaiting Resolution of the 
Difficult Question of Their `Black Status,' '' Beijing News.

    Notes to Section VII(b)--Institutions of Democratic Governance and 
Legislative Reform
    \1\ State Council Information Office, White Paper on Building of 
Political Democracy in China, Xinhua (Online), 19 October 05.
    \2\ ``Jiangxi Party Authorities Support Judicial Independence, But 
Under Party Control,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 12.
    \3\ Notice on Reissuance of Implementing Opinion on Zhejiang 
Province, City, County, and Township Organizational Reform [Guanyu 
yinfa `Zhejiang sheng shi xian xiang jigou gaige shishi yijian' de 
tongzhi], issued 2 March 01, art. 3(3); Standing Committee of Jinan 
People's Congress (Online), [Jinan] Report Regarding the Turnover 
Election Work Situation During 2002 for the City's Town and Township 
Local People's Congresses [Guanyu 2002 nian quan shi xiang zhen renda 
huanjie xuanju gongzuo anpai qingkuang de huibao], 27 November 01, art. 
4; Taizhou Government (Online), Taixing Launches Comprehensive Town and 
Township Reforms, Personnel of Public Institutions To Be Reduced by 502 
[Taixing qidong xiangzhen zonghe peitao gaige jiguan shiye danwei 
bianzhi jiang jianshao 502 ming], 17 October 05.
    \4\ CECC, 2005 Annual Report, 11 October 05, 93-94.
    \5\ PRC Constitution, art. 25. Party congresses meet only once 
every five years. Ibid., art. 24.
    \6\ Political Change in China? Public Participation and Local 
Governance Reforms, Staff Roundtable of the Congressional-Executive 
Commission on China, 15 May 06, Written Statement Submitted by Joseph 
Fewsmith, Director of East Asian Studies Program and Professor of 
International Relations and Political Science, Boston University.
    \7\ China has signed, but has not yet ratified, the ICCPR. The 
Chinese government has committed itself to ratifying, and thus bringing 
its laws into conformity with, the ICCPR and reaffirmed its commitment 
as recently as April 13, 2006, in its application for membership in the 
UN Human Rights Council. China's top leaders have previously stated on 
three separate occasions that they are preparing for ratification of 
the ICCPR, including in a September 6, 2005, statement by Politburo 
member and State Councilor Luo Gan at the 22nd World Congress on Law, 
in statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \8\ ``White Paper on Building of Political Democracy in China,'' 19 
October 05. ``The CPC's leadership and rule is an objective requirement 
of the country's development and progress. . . . The CPC's leadership 
and rule is needed for safeguarding China's unification and keeping 
Chinese society harmonious and stable. . . . The CPC's leadership and 
rule is needed for making the state power stable.'' Ibid.
    \9\ Shi Jiangtao, ``One Campaign `Won't End Protests','' South 
China Morning Post (Online), 8 July 05; ``Central Organization 
Department Introduces the Situation of the Advanced Education Campaign 
for Communist Party Members'' [Zhongzubu jieshao baochi gongchan 
dangyuan xianjinxing jiaoyu huodong qingkuang], Xinhua, reprinted in 
PRC Central People's Government (Online), 7 July 05.
    \10\ Political Change in China? Public Participation and Local 
Governance Reforms, Written Statement Submitted by Joseph Fewsmith. 
Party regulations vest Party committees with control over elections. 
Communist Party Regulations on the Work of Grassroots Rural 
Organizations [Zhongguo gongchang dang nongcun jiceng zuzhi gongzuo 
tiaoli], issued February 99, arts. 8, 9.
    \11\ Wang Mei, ``In Nine Years, Almost 10,000 Police Have Been 
Suspended For Disciplinary Violations'' [9 Nian nei yu wan wei ji 
minjing bei chu ting zhi], Beijing News (Online), 15 February 06.
    \12\ Philip Pan, ``Chinese Peasants Attacked in Land Dispute,'' 
Washington Post (Online), 15 June 05; ``Local Party Secretary Receives 
Life Sentence for Authorizing Villager Shootings,'' CECC China Human 
Rights and Rule of Law Update, March 2006, 12.
    \13\ Ministry of Public Security (Online), ``Public Order Stable 
Throughout China During 2005, Serious Violent Crimes Show Clear 
Decline'' [2005 nian quanguo shehui zhi'an wending yanzhong baoli 
fanzui mingxian xia jiang], 19 January 06.
    \14\ ``Rise in Collective Disputes Attributed to Weak Protections 
of Worker Rights,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 13.
    \15\ CECC, 2005 Annual Report, 97.
    \16\ ``State and Party-Run Web Sites Publish Op-Ed Critical of 
Local Censorship,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 17.
    \17\ Kim Hunter Gordon, ``Ssh, Don't Mention It to the Emperor,'' 
The Observer, 4 December 05; ``Wen Jiabao Writes to Russian Premier 
Regarding Songhua Incident'' [Wen Jiabao jiu songhua jiang shijian zhi 
xin e zongli], Beijing News (Online), 7 December 05.
    \18\ ``Chinese Government Increases Censorship by Restricting 
`Extra-Territorial' Reporting,'' CECC China Human Rights and Rule of 
Law Update, July 2005, 2.
    \19\ ``White Paper on Building of Political Democracy in China,'' 
19 October 05.
    \20\ See infra, (notes 24-29, 33-45) and accompanying text.
    \21\ Ibid.
    \22\ Political Change in China? Public Participation and Local 
Governance Reforms, Written Statement Submitted by Xie Gang, Former 
Senior Program Officer, Law and Governance Programs, Asia Foundation.
    \23\ ``Communist Party, State Council Order Stronger Controls Over 
Society,'' CECC China Human Rights and Rule of Law Update, January 
2006, 14; ``General Offices of the CCP Central Committee and State 
Council Reissuance of `Opinion on Deeply Carrying Out Peaceful 
Construction' '' [Zhong ban, Guo ban zhuanfa ``Guanyu shenru kaizhan 
pingan jianshe de yijian''], Xinhua, reprinted in PRC Central People's 
Government (Online), 4 December 05. Chen Jiping, general office 
director of the Committee for Comprehensive Management of Public 
Security, called for the implementation of similar social order 
measures in a December 27, 2004 interview. ``Central Committee for the 
Comprehensive Management of Public Security Responds to Journalists 
Questions Regarding Deepening Peaceful Construction'' [Zhongyang 
zongzhiban fuzeren jiu guanyu kaizhan pingan jianshe de yijian da 
jizhe], Legal Daily, reprinted in PRC Central People's Government 
(Online), 5 December 05.
    \24\ ``News Department Holds Press Conference on the Situation of 
Promoting Rural Advanced Education'' [Xinwen ban jiu tuijin nongcun 
xianjin jiaoyu huodong qingkuang juxing fabuhui], China Net, reprinted 
in PRC Central People's Government (Online), 1 March 06.
    \25\ Ibid.
    \26\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside [Zhonggong zhongyang 
guowuyuan guanyu tuijin shehui zhuyi xin nongcun jianshe de ruogan 
yijian], issued 31 December 05. Village committees (VCs) are the lowest 
level of governance in Chinese rural and urban areas, underneath 
township (xiang/zhen) or street committees (jiedaochu). VCs and RCs 
serve as tools of top-down social control. They keep tabs on local 
residents, provide information to local police, and monitor compliance 
with government policies such as birth control and taxation 
requirements. However, VCs and RCs also operate as community 
institutions addressing local needs. They provide basic social 
services, mediate civil disputes, and offer a forum for residents to 
address local problems. CECC, 2005 Annual Report, 91, endnote 15.
    \27\ Communist Party Central Committee Opinion on Strengthening the 
Work of the Chinese People's Political Consultative Conference 
[Zhonggong zhongyang guanyu jiaqiang renmin zhengxie gongzuo de 
yijian], issued 8 February 06; ``Party Calls for Stronger National 
Consultative Body To Enhance Party Governance,'' CECC China Human 
Rights and Rule of Law Update, May 2006, 8-9. ``White Paper on Building 
of Political Democracy in China,'' 19 October 05. Party directives 
issued in 2004 and 2005 also directed Party officials to strengthen the 
role of the CPPCC and the National People's Congress, to help the 
public participate more in the legislative process, to make it easier 
for delegates to comment on legislative issues, and to assist in the 
oversight of government operations.
    \28\ Pan Haitao, ``Li Junru: The Chinese People's Political 
Consultative Conference Offers Unique Advantages in Responding to the 
`Color Revolutions' '' [Li Junru: yingdui ``caise geming'' zhongguo 
zhengxie juyou dute youshi], China Net (Online), 10 March 06.
    \29\ ``Units the CPPCC is Composed of,'' China Net (Online), 20 May 
03.
    \30\ Pan Haitao, ``Li Junru: The Chinese People's Political 
Consultative Conference Offers Unique Advantages in Responding to the 
`Color Revolutions'.''
    \31\ Communist Party Central Committee Opinion on Strengthening the 
Work of the Chinese People's Political Consultative Conference.
    \32\ Ibid., art. 1.
    \33\ Ibid., art. 5.
    \34\ Ibid. The Opinion calls for Party members to respect the right 
of non-Party CPPCC members to participate in discussions and proposals 
about major government decisions, proposes a ``relatively larger'' 
number of non-Party members in the CPPCC, and recommends a ``certain 
number'' of non-Party members in CPPCC leadership positions.
    \35\ Audra Ang, ``Chinese Advisors May Tackle Rural Unrest,'' 
Associated Press, reprinted in Guardian (Online), 2 March 06; Luo 
Qiping, Wang Shengke, and Zhang Liwei, ``No. 5 Document and New Space 
for the CPPCC'' [Wu hao wenjian yu zhengxie xin kongjian], 21st Century 
Business Herald (Online), 6 March 06.
    \36\ National Policy Foundation [Guogai yanjiu baogao], Communist 
China Reform of Party-Government Relations [Zhonggong zhengfu dangzheng 
guanxi gaige], issued 31 March 03; China's State Control Mechanisms and 
Methods, Hearing of the U.S.-China Security and Economic Review 
Commission, 11 April 02, Written Statement Submitted by Richard Baum, 
Director, UCLA Center for Chinese Studies.
    \37\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06; Ministry of Civil 
Affairs Notice Regarding Carrying Out Election Work for the 2005 
Villager Committee Elections [Minzheng bu guanyu zuohao 2005 nian 
cunmin weiyuanhui huanjie xuanju gongzuo de tongzhi], issued 18 January 
05, art. 2.
    \38\ Central Party Committee Decision on Strengthening the Party's 
Ruling Capacity [Zhonggong zhongyang guanyu jiaqiang dang de zhizheng 
nengli jianshe de jueding], issued 19 September 04, art. 5(5). The 
Decision links this practice with the goal of reducing the numbers of 
government officials. Ibid.
    \39\ ``Anhui Province Expands Merger of Party and Government 
Posts,'' CECC China Human Rights and Rule of Law Update, November 2005, 
13.
    \40\ Media reports depict the program as requiring township Party 
secretaries to serve as township heads. Ibid.; Fan Lixiang, ``In Anhui 
Experiment, The Burden of the Township Head and Party Secretary Is 
Carried By the Same Person'' [Anhui shidian xiangzhenzhang dangwei 
shuji yi bang tiao], 21st Century Business Herald, 19 October 05. The 
text of the underlying Party and government directive uses the term 
``promotes.'' Opinion of the General Offices of the Anhui Provincial 
Party Committee and Anhui Provincial Government Regarding Deepening 
Comprehensive Rural Reform and Constructing New Experimental Grassroots 
Work Mechanisms [Zhonggong Anhui sheng wei bangongting Anhui sheng 
renmin zhengfu bangongting guanyu kaizhan nongcun zonghe gaige shidian 
jianli nongcun jiceng gongzuo xin jizhi de yijian], issued 27 June 05, 
art 2(2).
    \41\ Fan Lixiang, ``In Anhui Experiment, the Burden of the Township 
Head and Party Secretary Is Carried by the Same Person.''
    \42\ ``Anhui Province Expands Merger of Party and Government 
Posts,'' CECC China Human Rights and Rule of Law Update, November 2005, 
13. The Anhui program may represent an experiment that Chinese 
officials are considering expanding on a larger scale to handle the 
financial pressures on local government generated by the abolition of 
the agricultural tax. Authorities designated Anhui province as an 
experimental province for agricultural tax reform prior to the rest of 
the country. Anhui authorities abolished the agricultural tax in 2004, 
and began experimenting with government restructuring at the same time. 
Ibid. The 2005 Anhui efforts to reduce the numbers of government 
officials resemble calls made in 2006 by Chinese central authorities 
for a reduction in the number of township and town government personnel 
between 2006 and 2011 as part of rural reform goals, in conjunction 
with the central government's abolition of the agricultural tax in 
2006. Central Party Committee, State Council Opinion on Promoting the 
Construction of a New Socialist Countryside, art. 24.
    \43\ Maria Edin, ``State Capacity and Local Agent Control in China: 
CCP Cadre Management from a Township Perspective,'' 173 China Quarterly 
35, 38-40 (2003).
    \44\ Relevant Opinions of the General Office of the State Council 
on Promoting the Use of Administrative Enforcement Responsibility 
Systems [Guowuyuan bangongting guanyu tuixing xingzheng zhifa zerenzhi 
de ruogan yijian], issued 27 July 05.
    \45\ ``State Council Emphasizes Implementation of Responsibility 
Systems, Rooting Out Use of Intellectual Property To Carry Out Local 
Protectionism'' [Guowuyuan qiangdiao luoshi zerenzhi yanchu zhishi 
canquan gao difang baohu], China Court Net (Online), 26 April 06.
    \46\ Qie Jianrong, ``Nine Ministries Join Together To Halt Illegal 
Mines'' [Jiu bumen lianhe zhengdun weifa caikuang], Legal Daily 
(Online), 3 April 06.
    \47\ Shen Ying, ``To Serve As an Official, One Must Pass the 
Environmental Barrier'' [Dang guan yao guo huanbao guan], Southern 
Weekend (Online), 29 September 05.
    \48\ ``Central Committee for the Comprehensive Management of Public 
Security Responds to Journalists Questions Regarding Deepening Peaceful 
Construction'' [Zhongyang zongzhiban fuzeren jiu guanyu kaizhan pingan 
jianshe de yijian da jizhe], Legal Daily, reprinted in PRC Central 
People's Government (Online), 5 December 05. The language resembles a 
December 27, 2004 statement made by Chen Jiping, general office 
director of the Central Committee for the Comprehensive Management of 
Public Security, who asserted that all levels of the Chinese 
bureaucracy need to construct cadre responsibility systems that make 
the maintenance of public order a key component of their official 
performance evaluations. ``Communist Party, State Council Order 
Stronger Controls Over Society,'' CECC China Human Rights and Rule of 
Law Update, January 2006, 14.
    \49\ Electoral reforms began in the 1980s involving village and 
residents' committee (VC and RC) and local people's congress (LPC) 
elections. Party authorities have ensured that these reforms, as with 
those discussed in the text, have remained limited and do not challenge 
core principles of Party control. CECC, 2005 Annual Report, 91-94.
    \50\ Official efforts to allow a limited degree of public 
participation and transparency to improve governance have occurred in 
other fields as well. Regarding the use of open hearings in the 
criminal justice system, see Section V(b)--Rights of Criminal Suspects 
and Defendants. On the use of people's assessors in the regular 
judicial system, see CECC, 2005 Annual Report, 88.
    \51\ Political Change in China? Public Participation and Local 
Governance Reforms, 15 May 06, Written Statement Submitted by Joseph 
Fewsmith, Director of East Asian Studies Program and Professor of 
International Relations and Political Science, Boston University.
    \52\ Ibid.
    \53\ ``General Offices of the CCP Central Committee and State 
Council Reissuance of `Opinion on Deeply Carrying out Peaceful 
Construction.' ''
    \54\ Regulations on the Selection of Leading Party and Government 
Cadres (Tentative) [Dang zheng lingdao ganbu xuanba renyong gongzuo 
zanxing tiaoli], issued 9 February 95, arts. 10(6), 15; Regulations on 
the Selection of Leading Party and Government Cadres [Dang zheng 
lingdao ganbu xuanba renyong gongzuo tiaoli], issued 9 July 02, art. 
12(6).
    \55\ Regulations on the Selection of Leading Party and Government 
Cadres (Tentative), art. 9; Regulations on the Selection of Leading 
Party and Government Cadres, art. 17.
    \56\ ``News Department Holds Press Conference on the Situation of 
Promoting Rural Advanced Education'' [Xinwen ban jiu tuijin nongcun 
xianjin jiaoyu huodong qingkuang juxing fabuhui], China Net, reprinted 
in PRC Central People's Government (Online), 1 March 06.
    \57\ Regulations on the Selection of Leading Party and Government 
Cadres, arts. 13-17, 35-36.
    \58\ Wang Xingxia and Zhang Xi, ``Zhuzhou: First Case of Public 
Nomination, Direct Election for Township Party Leaders'' [Zhuzhou: 
shouci gongtui zhixuan xiangzhen dangwei banzi], Xiaochen Chenbao, 
reprinted in Xinhua (Online), 27 February 06.
    \59\ CECC, 2005 Annual Report, 92.
    \60\ Meng Nuo, ``China's Highest Legislative Authority Holds 
Hearing for the First Time'' [Zhongguo zui gao lifa jiguan shouci 
juxing tingzhenghui], Xinhua (Online), 27 September 06.
    \61\ PRC Environmental Impact Assessment Law [Huanjing yingxiang 
pingjia fa], issued 28 October 02, arts. 11 and 21.
    \62\ PRC Administrative Licensing Law [Xingzheng xuke fa], issued 
27 August 03, art. 19.
    \63\ Trial Measures on Public Participation in Environmental Impact 
Assessments [Huanjing yingxiang pingjia gongzhong canyu zanxing banfa], 
issued 14 February 06; Xu Yuanfeng, ``Shenyang Releases First 
Government Measures, Guarantees Public Participation in Environmental 
Protection'' [Shenyang shuaixian chutai zhengfu guizhang banfa, 
baozhang gongzhong canyu huanbao], People's Daily (Online), 22 December 
05.
    \64\ Allison Moore and Adria Warren, ``The Double Edge of Legal 
Advocacy in Environmental Public Participation in China: Raising the 
Stakes and Strengthening Stakeholders,'' China Environment Series, 
Issue 8, Woodrow Wilson Center, forthcoming 2006.
    \65\ Ibid.
    \66\ Jim Yardley, ``Seeking a Public Voice on China's `Angry 
River,' '' New York Times (Online), 26 December 05.
    \67\ ``Three Gorges Project Given Go Ahead for Construction,'' 
China Daily (Online), 18 April 05.
    \68\ Joint Notice of the General Offices of the Party Central 
Committee and State Council Regarding Promoting Systems of Openness of 
Political Affairs In All Town and Township Political Institutions 
[Zhonggong zhongyang bangongting, guowuyuan bangongting guanyu zai 
quanguo xiangzhan zhengquan jiguan quanmian tuixing zhengwu gongkai 
zhidu de tongzhi], issued 6 December 00.
    \69\ Opinion of the General Offices of the Central Committee and 
the State Council Regarding Taking Further Steps To Promote 
Transparency in Political Affairs [Zhonggong zhongyang bangongting, 
guowuyuan bangongting guanyu jinyibu tuixing zhengwu gongkai de 
yijian], issued 24 March 05.
    \70\ CECC Staff Interview. Xu Ming and Wei Yongzheng, ``Looking at 
Open Government Systems from the Perspective of New Regulations'' [Cong 
difang xin gui kan zhengfu xinxi gongkai zhidu de jianli], China Daily 
(Online), 15 February 06.
    \71\ ``Limited Political Reforms in One Zhejiang County Help Check 
Local Abuses,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 10. Wuyi officials cited a central policy document on 
increasing transparency in village affairs as giving them the authority 
to implement these policies. Ibid.; Joint Opinion of the General 
Offices of the Central Party Committee and the State Council on 
Perfecting Systems of Transparency and Democratic Governance [Zhonggong 
zhongyang bangongting guowuyuan ban gongting guanyu jianquan he wanshan 
cunwu gongkai he minzhu guanli zhidu de yijian], issued 22 June 04.
    \72\ ``Limited Political Reforms in One Zhejiang County Help Check 
Local Abuses,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 10.
    \73\ Ibid.; Li Liang, ``Zhejiang Wuyi: Separation of Powers to 
Govern a Village'' [Zhejiang wuyi: fen quan zhi cun], Southern Weekend 
(Online), 19 May 05.
    \74\ Zou Shengwen and Yang Weihan, ``National People's Congress 
Standing Committee Sets Legislative Plan For Next Year, Will Review 39 
Draft Laws'' [Quanguo renda changweihui queli mingnian lifa jihua jiang 
anpai shenyi 39 jian falu caoan], Xinhua, reprinted on the National 
People's Congress Web site (Online), 28 December 05.
    \75\ ``Ministry Proposes Revisions to the Laws on Villagers and 
Residents Committees,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 7.
    \76\ Communist Party Regulations on the Work of Grassroots Rural 
Organizations [Zhongguo gongchang dang nongcun jiceng zuzhi gongzuo 
tiaoli], issued February 99, arts. 8-9. Party control of VCs is also 
highlighted in the joint 2005 Party and State Council Opinion, which 
calls for strengthening village autonomous institutions (including 
elected VCs) that are ``brimming with vitality,'' but ``under village 
Party leadership.'' ``General Offices of the CCP Central Committee and 
State Council Reissuance of `Opinion on Deeply Carrying Out Peaceful 
Construction.' ''
    \77\ Li Lihua, ``The Party Branch Secretary Should Play a Core 
Leadership Role in Village Committee Elections'' [Dang zhibu yao zai 
cunweihui huanjie zhong zuo hexin], China Elections and Governance Web 
site (Online), 20 March 06.
    \78\ PRC Organic Law on Village Committees, enacted 4 November 98, 
art. 16.
    \79\ Local Officials Suppress Citizen Effort to Remove Village 
Committee Head in Guangdong Province, CECC China Human Rights and Rule 
of Law Update, November 2005, 11.
    \80\ Ibid.; Edward Cody, ``In Chinese Uprisings, Peasants Find New 
Allies,'' Washington Post (Online), 26 November 05.
    \81\ ``Activists, Lawyers Denounce Results of Taishi LPC 
Election,'' CECC China Human Rights and Rule of Law Update, June 2006, 
9; Leu Siew Ying, ``New Setback in Taishi's Struggle for Democracy,'' 
South China Morning Post (Online), 29 March 06.

    Notes to Section VII(c)--Access to Justice
    \1\ The accompanying general comment notes that this language does 
not necessarily require a judicial remedy, but that ``[i]n relation to 
civil and political rights, it is generally taken for granted that 
judicial remedies for violations are essential'' and ``[a]dministrative 
remedies should be accessible, affordable, timely, and effective. An 
ultimate right of judicial appeal from administrative remedies . . . 
would also often be appropriate.'' General Comment No. 9.
    China has signed, but has not yet ratified, the ICCPR. The Chinese 
government has committed itself to ratifying, and thus bringing its 
laws into conformity with, the ICCPR and reaffirmed its commitment as 
recently as April 13, 2006, in its application for membership in the UN 
Human Rights Council. China's top leaders have previously stated on 
three separate occasions that they are preparing for ratification of 
the ICCPR, including in a September 6, 2005, statement by Politburo 
member and State Councilor Luo Gan at the 22nd World Congress on Law, 
in statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004 speech by Chinese President Hu Jintao 
before the French National Assembly.
    \2\ ``Supreme People's Court Maps Future Judicial Reforms in Five 
Year Reform Program,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 7-9.
    \3\ Zong Bian, ``Central Political and Legal Affairs Committee 
Issues Circular Calling For Increased Attention To Resolving the 
Problem of Enforcement of Court Decisions'' [Zhongyang zhengfawei 
tongzhi yaoqiu jiada lidu qieshi jiejue zhixing nan], China Court Net 
(Online), 23 January 06. Similarities between the circular and an 
October joint Party and State Council opinion suggest that they are 
part of a coordinated effort. The circular also directs local Party 
committees for the comprehensive management of public security to 
coordinate efforts at enforcing court judgments and to include the 
quality of enforcement work in the responsibility systems used to 
evaluate the performance of local officials. The national Political and 
Legislative Affairs Committee and the Committee for Comprehensive 
Management of Public Security prepared a December 2005 Party and State 
Council joint opinion to stem social unrest and to reduce the number of 
``mass incidents'' such as riots, demonstrations, or collective 
petitions directed at government authorities. ``Communist Party, State 
Council Order Stronger Controls Over Society,'' CECC China Human Rights 
and Rule of Law Update, January 2006, 14-15. The Political and 
Legislative Affairs Committee circular directive to coordinate with the 
local CCMPS branches suggests that this enforcement campaign may be a 
specific effort to implement the earlier joint opinion.
    \4\ ``Supreme People's Court Maps Future Judicial Reforms in Five 
Year Reform Program,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 7-9.
    \5\ Ibid.
    \6\ PRC Constitution, art. 104.
    \7\ CECC, 2005 Annual Report, 11 October 05, 81.
    \8\ Second Five-Year Reform Program for the People's Courts (2004-
2008) [Renmin fayuan di er ge wu nian gaige gangyao (2004--2008)], 
issued 26 October 05.
    \9\ CECC, 2005 Annual Report, 81.
    \10\ ``Beijing No. 1 Intermediate People's Court Abolishes 
Responsibility System for Wrongly Decided Cases, Believes It Impedes 
Fairness'' [Beijing di yi zhongji fayuan quxiao cuo'an zhuijiu zhi 
renwei you'ai gongping], The First, reprinted in Xinhua (Online), 21 
November 05.
    \11\ Ibid.; ``Beijing Court Announces Reform of Judicial 
Disciplinary System,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 3.
    \12\ ``Beijing No. 1 Intermediate People's Court Abolishes 
Responsibility System for Wrongly Decided Cases, Believes It Impedes 
Fairness,'' The First.
    \13\ Decision of the Jiangsu Party Committee on Further 
Strengthening the Work of the Courts and Procuratorate [Guanyu jinyibu 
jiaqiang fayuan jianchayuan gongzuo jueding], issued 12 August 04; 
Decision of the Yancheng City Party Committee on Further Strengthening 
the Work of the Courts and Procuratorate [Guanyu jinyibu jiaqiang 
fayuan jianchayuan gongzuo jueding], issued 4 November 04.
    \14\ Jiangxi High People's Court (Online), ``Party Committee Issues 
`Decision on Taking Further Steps To Strengthen the Work of Courts and 
Procuratorates' '' [Sheng wei xia fa ``guanyu jin yi bu jiaqiang fayuan 
jianchayuan gongzuo de jueding'']; ``Jiangxi Party Authorities Support 
Judicial Independence, but Under Party Control,'' CECC China Human 
Rights and Rule of Law Update, February 2006, 12.
    \15\ ``Supreme People's Court Maps Future Judicial Reforms in Five 
Year Reform Program,'' CECC China Human Rights and Rule of Law Update, 
February 2006, 7-9; Second Five-Year Reform Program for the People's 
Courts (2004-2008). These reform plans parallel those announced in 
earlier SPC work reports and media analysis. See CECC, 2005 Annual 
Report, 87-88.
    \16\ ``Supreme People's Court Comes Out With Judicial 
Interpretation Promoting Reform of Adjudicatory Supervision'' [Zuigaofa 
ni chutai sifa jieshi tuidong shenpan gaige], Defense Lawyer (Online), 
28 November 05.
    \17\ ``Justice Ministry Takes Steps To Improve the Independence of 
Expert Factual Determinations,'' CECC China Human Rights and Rule of 
Law Update, November 2005, 12.
    \18\ ``The Rise In Youth Crime Is Startling'' [Weichengnianren 
fanzui sheng fu jingren wo guo yunniang jian shaonian fayuan ping], 
Xinhua (Online), 13 March 05.
    \19\ Ningbo City Party Committee Decision Regarding the 
Construction of a Ningbo Ruled By Law [Zhonggong Ningbo shiwei yu 
jianshe fazhi Ningbo de jueding], issued 27 April 06; Henan Provincial 
Party Committee and Henan Provincial Government Circular Regarding the 
``Program for the Construction of a Peaceful Henan'' [Henan shengwei 
shengzhengfu guanyu ``Pingan Henan jianshe gangyao'' de tongzhi], 
issued 26 April 06.
    \20\ Ministry of Justice (Online), Wu Aiying, ``Provide Strong and 
Effective Legal Guarantees to Build a Harmonious Socialist Society'' 
[Wei goujian shehuizhuyi hexie shehui tigong qiang you li de falu 
baozhang], 8 February 06.
    \21\ Ministry of Justice (Online), ``Introduction to Judicial 
Administration Work'' [Sifa xingzheng gongzuo jieshao], 24 March 03; 
CECC, 2005 Annual Report, 75-78.
    \22\ Li Qing and Huang Hun, ``Construction of Local Judicial 
Bureaus Moves Into High Tide, Every Level of Government and Every Area 
Experience Success'' [Sifa suo jianshe xian gaochao ge de ge ji jun you 
gaozhao], Legal Daily (Online), 16 May 05.
    \23\ ``Standing Committee of the State Council Reviews and Approves 
in Principle the `Construction Plan for West-Central China Area Basic-
Level Police Stations, Town and Township Judicial Offices and People's 
Courts' '' [Guowuyuan changwuhuiyi shenyi bing yuanze tongguo 
``zhongxibu diqu jiceng paichusuo, xiangzhen sifasuo, renmin fating 
jianshe guihua''], Department of Guiding Grassroots Work (Online), 7 
February 06.
    \24\ ``Ministry of Justice Sets `Four Targets' for Serving the 
Construction of the Socialist Countryside'' [Sifabu ding ``sixiang 
renwu'' fuwu shehui zhuyi xin noncun jianshe], Xinhua (Online), 5 May 
06.
    \25\ Consultations increased from 1.9 million in 2003 to 2.66 
million in 2005. ``In One Year Over 430,000 People Assisted by China's 
Legal Aid System'' [Yi nian yuanzhu 43 wan duoming qunzhong wo guo falu 
yuanzhu zhidu jiancheng tixi], Xinhua (Online), 1 January 06; CECC, 
2005 Annual Report, 76-77.
    \26\ Ministry of Justice (Online), ``All-China Environmental 
Federation to Provide Legal Aid to Pollution Victims'' [Zhonghua 
huanbao lianhehui biaoshi wei wuran shouhaizhe tigong falu yuanzhu], 24 
July 05.
    \27\ Shanghai Municipality Decisions on Legal Aid [Shanghai shi 
falu yuanzhu ruogan guiding], issued 9 May 06, art. 5. Article 6 
provides that applicants seeking legal aid may obtain a statement 
proving economic need either from authorities in their place of hukou 
registration or actual place of residence. This appears to allow 
migrant applicants greater access to legal assistance in their actual 
place of residence. Provincial regulations issued before the 2003 
National Regulations on Legal Aid had made access to legal aid 
conditional on local hukou status. CECC, 2004 Annual Report, 63.
    \28\ 2006 Report on the Policy for Development of China's Legal 
Profession [2006 nian Zhongguo lushi ye fazhan zhengce baogao], issued 
16 January 06; ``ACLA, Justice Bureau Opinions Restrict Lawyer 
Involvement in Sensitive, Mass Cases,'' CECC China Human Rights and 
Rule of Law Update, June 2006, 4-5.
    \29\ Guiding Opinion of the All China Lawyers Association Regarding 
Lawyers Handling Cases of a Mass Nature [Zhonghua quanguo lushi xiehui 
guanyu lushi banli qunti xing anjian zhidao yijian], issued 20 March 
06, sec. I(1); ``ACLA, Justice Bureau Opinions Restrict Lawyer 
Involvement in Sensitive, Mass Cases,'' CECC China Human Rights and 
Rule of Law Update, June 2006, 4-5.
    \30\ Guiding Opinion of the All China Lawyers Association Regarding 
Lawyers Handling Cases of a Mass Nature, sec. III(2)-(3).
    \31\ Ibid., sec. I(2)-(3).
    \32\ Ibid., sec. IV(8).
    \33\ ``ACLA, Justice Bureau Opinions Restrict Lawyer Involvement in 
Sensitive, Mass Cases,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 4-5; ``Henan Justice Bureau Bans Lawyers From Using 
Media in Sensitive Cases,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 5-6; ``Henan Justice Bureau Establishes a Rule for 
Lawyers: No Stirring Up of Sensitive Cases'' [Henan sifating wei lushi 
ding ``guiju'' mingan anjian jin chaozuo], Henan Daily, reprinted in 
Xinhua (Online), 10 April 06.
    \34\ ``ACLA, Justice Bureau Opinions Restrict Lawyer Involvement in 
Sensitive, Mass Cases,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 4-5; ``Shenyang Lawyers Must Seek Advisory Opinions 
When Handling Sensitive Cases'' [Shenyang lushi chengban mingan anjian 
xu qingshi], Legal Daily (Online), 19 April 06.
    \35\ PRC Constitution, arts. 62, 67, 128.
    \36\ Working Procedures for the Filing and Review of Judicial 
Interpretations [Sifa jieshi beian shencha gongzuo chengxu], issued 16 
December 05; ``NPC Standing Committee Establishes Constitutional Review 
System for Regulations and Judicial Explanations'' [Renda changweihui 
jianli fagui he sifa jieshi beian shencha zhidu], Xinhua (Online), 19 
December 05.
    \37\ CECC Staff Interview.
    \38\ ``The NPC Revises Constitutional Review Procedures, Review 
Processes Should Draw Lessons from Foreign Countries' Experiences'' 
[Renda xiuding weixian shencha chengxu shencha caozuo xu jiejia waiguo 
jingyan], Southern Metropolitan News (Online), 21 December 05; 
``Constitutional Review and the Strengthening of Judicial Power'' 
[Hexianxing shencha yu sifaquande qianghua], China Social Science, Vol. 
2, 2002; Zhu Xiaoqing, ``Legal Research Must Be Based on China's 
Situation'' [Faxue yanjiu ya lizu yu zhongguo shiji], Seeking Truth, 16 
March 06.
    \39\ ``NPC Explains Constitutional Review System, Any Citizen Can 
Petition for Constitutional Review'' [Renda jie weixian shenchazhi, 
renhe gongmin ke tiqing weixian shencha], Beijing News, reprinted in 
Xinhua (Online), 2 December 04; ``My Country Implements the 
Constitution by NPC Supervision, Constitution Still Cannot Be the Basis 
of Litigation'' [Wo guo you renda jiandu xianfa shishi, xianfa reng 
buneng chengwei susong genju], People's Daily (Online), 1 December 04.
    \40\ See Zhu Xiaoqing, ``Legal Research Must be Based on China's 
Situation,'' which states: ``We absolutely may not use `the 
Constitution may be studied and amended' as an excuse to wittingly or 
unwittingly take the constitutional systems of certain Western 
countries as our example, or to question or censure our country's 
constitutional system.''
    \41\ Ibid.; Cheng Xiangqing, ``A Discussion of Perfecting National 
People's Congress Supervision System'' [Lun wanshan renda jiandu 
zhidu], People's Daily (Online), 15 July 04.
    \42\ Zhu Xiaoqing, ``Legal Research Must be Based on China's 
Situation.''
    \43\ PRC Legislation Law, enacted 15 March 00, art. 90.
    \44\ ``New NPC Body to Address Law Conflicts,'' China Daily 
(Online), 21 June 04. China's state-run media has said this system is 
justified because ``the issues raised by the State Council and the 
other five types [of government agencies] are more important,'' and 
because the large number of proposals that could be submitted by 
average citizens necessitated a ``filtering procedure'' before they 
were forwarded to the NPCSC. ``National People's Congress Standing 
Committee Clarifies Constitutional Review Procedure'' [Quanguo renda 
mingque weixian shencha chengxu], Beijing News (Online), 20 December 
05. One Chinese scholar, however, has characterized this ``government 
first, citizens second'' approach as ``giving one the feeling that the 
state is above the people, more important than the people, and seems 
inconsistent with nature of a socialist country.'' Wang Zhenmin, 
``China's Constitutional Review System'' [Zhongguo weixian shencha 
zhidu] (Beijing: China Law and Politics University Publishing, 2004), 
130.
    \45\ Working Procedures for the Filing and Review of Administrative 
Rules, Local Rules, Autonomous Region and Special Purpose Regulations, 
and Special Economic Zone Rules [Xinzheng faqui, difangxing fagui, 
zizhi tiaoli he danxing tiaoli, jingji tequ fagu beian shencha gongzuo 
chengxu], issued 16 October 00.
    \46\ Ding Aiping and Fei Zhiming, ``Constitutional Review Takes a 
Big Step Forward'' [Weixian shencha you xiang qian mai chule yi bu], 
Democracy and Legal System Times (Online), 17 April 06. See also, Luo 
Jing, ``The Structure and Weaknesses of China's Press Legal System'' 
[Woguo xinwen lingyu falu tixide goucheng yu quexian], The Journalist 
Monthly (Online), 1 February 06, which says that the absence of means 
for redress is the reason no cases have been filed by ``people suing 
the government'' in the area of media control, and that even if someone 
wished to file such a law suit, there is no law on which such a suit 
could be based; ``Chinese Media, Scholars Criticize Lack of Legal 
Protections for Journalists,'' CECC China Human Rights and Rule of Law 
Update, March 2006, 15.
    \47\ ``Groups Petition Government To Review Constitutionality Of 
Internet News Rules,'' CECC China Human Rights and Rule of Law Update, 
July 2006, 6.
    \48\ See ``Legal Expert: Improve Legislative Filing and Review, 
Safeguard the Unity of the Nation's Legal System'' [Faxue zhuanjia: 
wanshan fagui beian shencha weihu guojia fazhi tongyi], China Youth 
Daily (Online), 22 December 05, which quotes Cai Dingjian as saying: 
``Currently our country's local protectionism and departmental 
protectionism commonly causes a lack of unity laws and regulations, and 
legislative conflicts lead to citizens' rights suffering harm.'' See 
also Tong Dahuan, ``How To Realize `Procedural Rule by Law' '' 
[``Chengxu fazhi'' ruhe shixian], China Economic Times (Online), 22 
December 05; ``Heilongjiang's Compulsory Marriage Examination is Not 
Illegal,'' [Heilongjiang qianzhi hun jian bing bu weifa], Procuratorate 
Daily (Online), 1 August 05, 5 (citing Tai Qianhong: ``Furthermore it 
is difficult bring about social groups and citizens submitting 
suggestions, and this is also significantly related to the fact that 
the current constitutional review mechanism is imperfect, and 
procedures are difficult to operate.''); Cheng Xiangqing, ``A 
Discussion of Perfecting National People's Congress Supervision 
System'' (``[O]ur nation's constitutional supervision duty has never 
been effectively exercised. One reason for this is that the 
constitutional review mechanisms and procedures continues to need 
improvement.''); ``Several Problems with the National People's 
Congress' Constitutional Review Procedures'' [Guanyu quanguo 
rendachangweiyuanhui fagui beian shencha gongzuode jige wenti], 
People's Daily (Online), 15 July 04.
    \49\ ``I think they should conclude each case with a formal written 
judgment supported by adequate reasons, instead of solving the problem 
behind close doors.' '' ``New NPC Body to Address Law Conflicts,'' 
China Daily (Online) (quoting Wang Zhenmin); Sun Ruizhuo, ``Three 
Suggestions Regarding the `Constitutional Review' Procedure'' [Dui 
``weixian shencha'' chengxu de san dian jianyi], Da He Bao, reprinted 
in People's Daily (Online), 21 December 05; ``Legal Expert: Improve 
Legislative Filing and Review, Safeguard the Unity of the Nation's 
Legal System'' (citing Cai Dingjian as suggesting that the government 
tell the citizens within a fixed time whether or not an application for 
review has been accepted, whether or not they are launching a review, 
the specific process of the review, or if it is rejected, the reason 
for not accepting it); Tong Dahuan, ``How to Realize `Procedural Rule 
by Law,' '' China Economic Times.
    \50\ ``National People's Congress Standing Committee Clarifies 
Constitutional Review Procedures,'' Beijing News (Online), (citing 
Jiang Mingan, director of the Beijing University Constitutional and 
Administrative Law Research Center).
    \51\ ``Constitutional Law Expert: Establishing a Constitutional 
Review Agency is an Important Step'' [Xianfa xue quanwei zhuanjia: 
chengli weixian shencha jigou shi zhongda jinbu], China Youth Daily 
(Online), reprinted in the People's Daily (Online), 22 June 04, quoting 
Han Dayuan, China People's University Law School Vice Dean, Chinese 
Academy of Social Sciences Constitutional Law Association Vice-
President:
    [T]he general consensus with our country's constitutional community 
is that the National People's Congress Standing Committee should 
establish a dedicated Constitutional Commission, with rank at least 
equal to that of the NPC's specialist commission, and appoint 
authoritative legal scholars, experienced judges, and experienced 
lawyers to the specialist committee to serve as review commissioners. 
It would then directly review whether laws and regulations were 
unconstitutional or illegal, and report directly to the NPC Standing 
Committee, after which review procedures would be launched, and this 
method is relatively more suited to our country's situation.See also, 
``Experts Suggest The National People's Congress Establish a 
Constitutional Commission'' [Zhuanjia jianyi quanguo renda zengshe 
xianfaweiyuanhui], China Youth Daily, reprinted in Xinhua (Online), 3 
December 05.
    \52\ PRC Legislation Law, arts. 90 and 91.
    \53\ ``Beneath the conflict of legislation lies the conflict of 
interests of different departments and local administrations and, in a 
word, power distribution.'' ``New NPC Body to Address Law Conflicts,'' 
(quoting Wang Zhenmin); Cai Dingjian, ``China Takes a Step Forward in 
Constitutional Review'' [Zhongguo xian weixian maijin], Southern 
Weekend (Online), 22 December 05 (saying China's legal system is 
characterized by local and departmental protectionism); 
``Heilongjiang's Compulsory Marriage Examination is Not Illegal,'' 
Procuratorate Daily (Online) (quoting Tai Qianhong: ``[S]tate agencies 
rarely submit suggestions for reviewing laws and regulations, and this 
is because a given state agency is often the law enforcement entity, 
and the law or regulation is often connected with their own 
interests.''); Fu Dalin, ``Using Openness and Gamesmanship to Prevent 
`Legislative Balkanization' '' [Yi gongkai he boyi fangzhi ``lifa 
geju''], Guangming Daily (Online), 28 March, 06:[S]ituations arise 
where there are fights between legal standards. Looking into the 
reason, it is basically because it is very easy for agencies to 
influence the legislative process, and when legislating some 
administrative agencies ``fight for what is in their interests, oppose 
what is against their interests, drag their feet in what is in others' 
interests, and refuse anything that divides their interests,'' this 
creates a situation of administrative legislation separatism that is 
unjust and unharmonious.
    \54\ ``Legal Expert: Improve Legislative Filing and Review, 
Safeguard the Unity of the Nation's Legal System,'' China Youth Daily 
(Online), quoting Cai Dingjian:[O]ur country's legislative filing and 
review system primarily reviews whether local regulations and 
administrative regulations conflict with the Constitution and laws. . . 
. It is related to a constitutional review system, but it has a major 
difference, as the core of modern constitutional review systems will 
resolve whether the laws formulated by national legislative bodies are 
unconstitutional, and it safeguards the authority of law and the rights 
of citizens. Legislative filing and review systems do not include 
reviewing problems of NPC formulated laws conflicting with the 
Constitution. . . .
    \55\ Zhang Qianfan, ``A Symbol of the Beginning of China's 
Constitutional Government Era'' [Zhongguo xianzheng shidai kaishi de 
biaozhi], Legal Daily (Online), 28 June 04; ``Constitutional Law 
Expert: Establishing a Constitutional Review Agency Is an Important 
Step,'' China Youth Daily (Online), (quoting Han Dayuan: ``the 
Legislation Review and Filing Office is an agency subordinate to the 
Legislative Affairs Commission, and does not have any practical 
authority to rescind unconstitutional or illegal laws and 
regulations.''); ``National People's Congress Standing Committee 
Clarifies Constitutional Review Procedures,'' Beijing News (Online) 
(citing Jiao Hongchang).
    \56\ PRC Administrative Reconsideration Law, enacted 29 April 99, 
art. 17; PRC Administrative Procedure Law, enacted 4 April 89, art. 11.
    \57\ Compare original Legislation Procedures article 13 (``After 
legislative review work has been completed, the NPCSC General Office 
shall be responsible for notifying in writing the work unit or 
individual who raised the review request or review proposal'') with 
amended Legislation Procedures article 14 (``After legislative review 
work has been completed, the NPCSC General Office may, as necessity 
dictates, notify in writing the government agencies or social 
organization, business enterprise, organization, or citizen who raised 
the review request or review proposal.'')
    \58\ Ding Aiping and Fei Zhiming, ``Constitutional Review Takes a 
Big Step Forward'' (``Even though unconstitutional and illegal laws and 
regulations are commonplace, the National People's Congress and its 
Standing Committee has yet to rescind a single law or regulation. Soon 
after three academics petitioned regarding the Sun Zhigang incident, 
the State Council abolished the custody and repatriation measures, but 
it did not begin constitutional review procedures, nor did it provide 
any feedback to the public or the petitioners regarding the 
situation.'').
    \59\ For example, officials have said that Chinese legislators 
replaced earlier regulations with the Public Order Administration 
Punishment Law to comply with the requirements of the Legislation Law. 
PRC Public Security Administration Punishment Law, issued 28 August 05; 
``National People's Congress Legislative Affairs Commission Report on 
the Results of the Consideration of the `Draft People's Republic of 
China Public Order Administration Punishment Law' '' [Quanguo renda 
faluweiyuanhui guanyu ``zhonghua renmin gongheguo zhi'an guanli chufa 
fa (cao'an)'' shenyi jieguode baogao], enacted 28 August 05.
    \60\ Liu Wuhou, ``Hoping That Constitutional Review Procedures Will 
Commence as Soon as Possible,'' [Qidai weixian shencha chengxu jinkuai 
qidong], Jiangnan Times, reprinted in People's Daily (Online), 23 
December 05; Liao Weihua, ``Experts Suggest Establishing a Special 
Constitutional Committee'' [Zhuanjia jianyi she xianfa zhuanmen 
weiyuanhui], Beijing News (Online), 21 September 04.
    \61\ The 2005 amendment to Legislative Procedures added the phrase 
`` . . . in order to safeguard the unity of the nation's legal 
system.'' See also, ``Legal Expert: Improve Legislative Filing and 
Review, Safeguard the Unity of the Nation's Legal System,'' China Youth 
Daily (Online) (quoting Cai Dingjian: ``[I]ts primary goal is to 
safeguard the unity of the nation's legal system.'').
    \62\ PRC Constitution, arts. 62, 67; PRC Legislation Law, arts. 90-
91; Cheng Xiangqing, ``A Discussion of Perfecting National People's 
Congress Supervision System'' (``Our country's system differs from the 
three powers separation implemented in Western countries, in that we 
implement a system whereby all power belongs to the people through the 
People's Congress. . . . Our country's Constitution stipulates that the 
sacred duty of supervising the implementation of the Constitution lies 
only with the National People's Congress and its Standing 
Committee.'').
    \63\ China's leaders have nevertheless acknowledged that 
unrestrained power leads to abuse and corruption, and that mechanisms 
are required to ensure citizens have a means to achieve redress of 
violations of their constitutional and legal rights. See, e.g., Zhu 
Xiaoqing, ``Legal Research Must Be Based on China's Situation'' 
(``[E]very country believes that, if power is not subject to restraint 
and supervision, it must lead to corruption''); Cheng Xiangqing, ``A 
Discussion of Perfecting National People's Congress Supervision 
System'' (``History, both ancient and modern, foreign and domestic, 
proves that if those who hold power are not restrained, they will 
necessarily abuse their authority and become corrupt.''); Hu Jintao, 
``Speech in the Capital Commemorating the Twentieth Anniversary of the 
Promulgation and Implementation of the Constitution'' [Zai shoudu gejie 
jinian zhonghua renmingongheguo xianfa gongbu shixing ershi zhou nian 
dahui de yanjiang], Guangming Daily (Online), 4 December 02 (``As a 
result of problems with flawed laws and systems and the ill-adapted 
quality of law enforcement personal, there remain many problems of laws 
not being complied with, laws not being strictly enforced, and 
violations of law not being prosecuted, and there continues to exist 
some unconstitutional situations at different levels. We must 
expeditiously study and implement constitutional supervision mechanisms 
and further clarify constitutional supervision procedures in order to 
redress all violations of the Constitution.'').
    \64\ Ding Aiping and Fei Zhiming, ``Constitutional Review Takes A 
Big Step Forward.''
    \65\ Under the national Regulations on Letters and Visits (RLV), 
citizens may ``give information, make comments or suggestions, or lodge 
complaints'' to xinfang (letters and visits) bureaus of local 
governments and their departments. Regulations on Letters and Visits 
[Xinfang tiaoli], issued 10 January 05, arts. 3, 6. The Law on 
Administrative Supervision allows citizens to file complaints of 
illegal behavior of government officials with Ministry of Supervision 
(MOS) officials. PRC Law on Administrative Supervision, enacted 9 May 
97, art. 6. Party discipline bureaus handle similar accusations 
regarding Party members' violation of Party discipline. Regulations on 
Intra-Party Supervision [Dangnei jiandu tiaoli], issued 17 February 04, 
arts. 8, 25-26. None of the above channels allows citizens to challenge 
the underlying legality of regulations.
    \66\ PRC Administrative Reconsideration Law, enacted 29 April 99, 
arts. 6, 14. The Chinese administrative law system speaks in terms of 
``concrete'' acts, which refer to actions by a government official or 
agency against a specific target with regard to a specific matter. 
``Abstract'' acts refer to universally binding documents issued by 
administrative agencies to regulate behavior.
    \67\ Ibid., art. 14; PRC Administrative Procedure Law, arts. 2, 11.
    \68\ PRC State Compensation Law, enacted 12 May 94, art. 9.
    \69\ Shaanxi Provincial Party Disciplinary Commission and Bureau of 
Supervision (Online), ``Record of Jinhua Open Hearing of Party and 
Government Disciplinary Violations'' [Jinhua gongkai shenli dangji 
zhengji anjian jishi], 24 March 05.
    \70\ Defined as ``regulatory documents below the level of rules'' 
[Guizhang yixiade guifanxing wenjian]. See National People's Congress 
(Online), ``Explanation Regarding the Administrative Reconsideration 
Law of the People's Republic of China'' [Zhonghua renmin gongheguo 
xingzheng fuyi fa shiyi], 18 October 00. ``Rules'' are defined in 
article 2 of the Regulation for Filing Local and Administrative Rules 
[Fagui guizhang bei'an tiaoli], issued 14 December 01, as ``Those rules 
[guizhang] formulated by State Council ministries and commissions, the 
People's Bank of China, the Auditing Administration, and subordinate 
agencies having executive administration capacity in accordance with 
laws and State Council's administrative regulations [xinzheng fagui], 
decisions, and orders within the scope of their authority pursuant to 
the Regulation on the Procedures for the Formulation of Rules. Article 
6 of the Regulation on the Procedures for the Formulation of Rules 
[Guizhang zhiding chengxu tiaoli], issued 16 November 01, states that 
the names of rules generally include ``provisions'' [guiding] and 
``measures'' [banfa], but not ``regulations'' [tiaoli].
    \71\ PRC Administrative Reconsideration Law, art. 7.
    \72\ National People's Congress, ``Explanation Regarding the 
Administrative Reconsideration Law.''
    \73\ Legislative Affairs Office of the State Council (Online), 
``2005 Analytical Report on Administrative Reconsideration and 
Administrative Litigation in Hubei Province'' [2005 nian Hubei sheng 
xingzheng fuyi ji xingzheng yingsu qingkuang fenxi de baogao], 29 March 
06.
    \74\ Ibid.
    \75\ 2006 Supreme People's Court Work Report, 11 March 06; 1995 Law 
Yearbook of China [1995 Zhongguo falu nianjian] (Beijing: China Law 
Yearbook Press, 1995), 958.
    \76\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xiaoxi fuwu guanli guiding], issued 25 
September 05.
    \77\ The groups claimed that the Provisions granting the SCIO the 
authority to license Web sites violated article 35 of the Constitution, 
and various provisions of the PRC Administrative Licensing Law, issued 
27 August 03. ``Petition on Behalf of the Aegean Sea Web Site Et. Al. 
to Repeal Rules on the Administration of Internet News Information 
Services'' [Aiqinhai shijian weixian shencha shenqing daibiao tuan 
deng], Signature Net, issued 28 March 06.
    \78\ Decision of the State Council Establishing Administration 
Examination and Approval Matters That Must Remain Subject to 
Administrative Licensing [Guowuyuan dui quexu baoliu de xingzheng 
shenpi xiangmu sheding xingzheng xuke de jueding daohang], issued 29 
June 04.
    \79\ PRC Administrative Reconsideration Law, art. 5.
    \80\ PRC Administrative Procedure Law, art. 12(2) states that 
``people's courts shall not accept actions initiated by citizens, legal 
persons or other organizations concerning any of the following matters: 
administrative rules and regulations, or decisions and orders with 
general binding force formulated and promulgated by administrative 
organs.'' PRC Administrative Reconsideration Law, art. 7 stipulates 
that ``rules of departments and commissions under the State Council, 
and local people's governments'' are excluded from administrative 
reconsideration review.
    \81\ PRC Administrative Procedure Law, arts. 52 and 53 state that, 
in adjudicating administrative disputes, people's courts shall ``rely 
upon'' national laws and State Council and local regulations, and shall 
``refer to'' the rules of State Council ministries, commissions, and 
local governments.
    \82\ Wang Zhenmin, ``China's Constitutional Review System'' (``But 
if the Legislation Law is strictly implemented, [Article 90] in fact 
clearly negates the constitutional review power of the Supreme People's 
Courts and the lower level courts, and requires that, if the Supreme 
People's Court runs into a situation where a rule or regulation is 
unconstitutional, it must temporarily suspend adjudication proceedings 
and apply to the NPCSC to undertake constitutional review of the rule 
or regulation . . . .'').
    \83\ CECC, 2005 Annual Report, 95-98; Carl Minzner, ``Xinfang: An 
Alternative to Formal Chinese Legal Institutions,'' 42 Stanford Journal 
of International Law 103, 115-6 (2006).
    \84\ Regulations on Letters and Visits, arts. 3, 6.
    \85\ CECC, 2005 Annual Report, 95.
    \86\ ``The Growth of Xinfang Cases Has Been Turned Back'' [Wo guo 
xinfang zongliang chixu pansheng shitou huo ezhi shangfang geng quxiang 
lixing], China National Radio (Online), 29 April 06.
    \87\ SPC Work Report, 11 March 06. Note that since 2005, the SPC 
work report has included ``executed'' (zhixing) cases in its annual 
computations of judicial cases, raising the total numbers of cases 
handled by the Chinese judiciary by 2 million a year. CECC, 2005 Annual 
Report, 177, endnote 9.
    \88\ Zhou Zhanshun, Director of the State Bureau of Letters and 
Calls stated in a 2003 interview that the total number of petitions 
received had risen regularly since 1993. ``Director of the State Bureau 
for Letters and Calls: 80 Percent of Petitioners Are Justified,'' 
Outlook, reprinted in the China Internet Information Center (Online), 
20 November 03. In 2006, Chinese authorities noted that the total 
number of petitions had declined in 2005 for the first time in 12 
years. ``The Growth of Xinfang Cases Has Been Turned Back,'' China 
National Radio.
    \89\ SPC Work Report, 11 March 06.
    \90\ ``In the Past Three Months, Public Security Organs Have 
Resolved 163,000 Xinfang Problems from the Masses'' [Guoqu 3 ge yue 
gongan jiguan jiejue qunzhong xinfang wenti 16.3 wan qi], People's 
Daily (Online), 18 August 06.
    \91\ Provisions on the Letters and Visits Work of Public Security 
Agencies [Gongan jiguan xinfang gongzuo guiding], issued 18 August 05, 
arts. 8, 38(5).
    \92\ ``Communist Party, State Council Order Stronger Controls Over 
Society,'' CECC China Human Rights and Rule of Law Update, January 
2006, 14-15. Party leaders have set a 2006 goal to decrease the number 
of ``mass incidents'' such as strikes, marches, demonstrations, or 
collective petitions directed at government authorities. Ibid.
    \93\ ``Communist Party, State Council Order Stronger Controls Over 
Society,'' CECC China Human Rights and Rule of Law Update, January 
2006, 14-15.
    \94\ ``The Growth of Xinfang Cases Has Been Turned Back,'' China 
National Radio; ``In the Past Three Months, Public Security Agencies 
Have Resolved 163,000 Xinfang Problems of the Masses,'' People's Daily.
    \95\ ``The Growth of Xinfang Cases Has Been Turned Back,'' China 
National Radio. Official statistics also report a 20.7 percent decline 
in the number of collective petitions to national xinfang authorities 
and a 22.5 percent decrease in the number of collective petitioners 
approaching provincial xinfang authorities. Ibid. Chinese courts 
recorded a 5 percent decline in the total number of petitions in 2005. 
SPC Work Report, 11 March 06.
    \96\ Reports state that authorities closed out 92.6 percent of 
those received, and successfully resolved more than 90 percent of the 
conflicts examined. ``A Look Back at the New Xinfang Regulations'' 
[``Xinfang tiaoli'': changtong youxu kai yanlu wushi gaoxiao jie min 
you], People's Daily (Online), 2 May 06.
    \97\ Zhao Ling, ``Xinfang Reform Triggers Controversy'' [Xinfang 
gaige yinfa zhengyi], Southern Weekend (Online), 18 November 04.
    \98\ Provisions on the Letters and Visits Work of Public Security 
Agencies, arts. 8, 38(5).
    \99\ Regulations on Letters and Visits, art. 6.
    \100\ For example, the xinfang responsibility system adopted in 
February 2006 by the Ningnan county government in Sichuan province 
provides that local authorities receive a warning if 10 or more 
petitioners from their jurisdiction collectively petition provincial or 
higher authorities, if 20 or more petitioners collectively petition 
prefectural authorities, or if 30 or more petitioners do so at the 
county level. If petitioners present three or more collective petitions 
within a year to provincial or national officials, local officials lose 
eligibility for promotion or other awards. Ningnan County Party and 
Government Xinfang Responsibility System [Zhonggong ningnan xian wei 
ningnan xian renmin zhengfu guanyu luoshi xinfang gongzuo zeren zhi he 
zeren zhuijiu zhi de shishi yijian], issued 27 February 06. See also 
Implementation Details For The Municipal 2005-2007 Xinfang Evaluation 
System [Guanyu yinfa ``2005-2007 nian quan shi jijian jiancha xinfang 
jubao gongzuo mubiao guanli kaoping xize'' de tongzhi], issued 2 August 
05; Lujiang County Trial Regulation on Implementing Xinfang 
Responsibility System [Lujiang xian shixing xinfang gongzuo guocuo 
zeren zhuijiu zhi de zanxing guiding], issued 9 December 05.
    \101\ Minzner, ``Xinfang: An Alternative to Formal Chinese Legal 
Institutions,'' 156-58, 172-74.
    \102\ Human Rights Watch, ``China: Rampant Violence and 
Intimidation Against Petitioners,'' 8 December 05.
    \103\ Human Rights Watch, `` `We Could Disappear at Any Time'--
Retaliation and Abuses Against Chinese Petitioners,'' December 2005, 
47.
    \104\ ``Ministry of Public Security Issues Notice Regarding the 
Situation of Preventing Serious Public Security Incidents, and Ensuring 
the Supervision of Public Security'' [Gonganbu tongbao yufang zhongda 
zhi'an zaihai shigu, baozhang gonggong anquan ducha qingkuang], China 
Internet Information Center (Online), 2 March 06. See also ``Official 
Discloses Use of Mass Roundups During NPC, CPPCC Sessions,'' CECC China 
Human Rights and Rule of Law Update, April 2006, 5. At the same time, 
Chinese authorities raided an area in Beijing where petitioners live 
and detained more than 400 people. Ibid.
    \105\ ``U.S. NGO Reports That Official Abuse of Petitioners Is 
Rampant in China,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 7-8.
    \106\ ``Supreme People's Court To Strengthen Handling of Citizen 
Petitions by Trial Judges,'' CECC China Human Rights and Rule of Law 
Update, December 2005, 6.
    \107\ The 2005 Regulations on Letters and Visits require county-
level and township governments to establish ``leadership reception 
days'' where petitioners may individually approach government leaders 
regarding the resolution of their grievances. Regulations on Letters 
and Visits, art. 10. The regulations also require local governments to 
adopt responsibility systems that make officials' success in handling 
these petitions a component of their regular performance evaluations. 
Ibid, art. 7.
    \108\ ``Supreme People's Court to Strengthen Handling of Citizen 
Petitions by Trial Judges,'' CECC China Human Rights and Rule of Law 
Update, December 2005, 6.

    Notes to Section VII(d)--Commercial Rule of Law and the Impact of 
the WTO
    \1\ U.S. Department of State (Online), ``U.S.-China Trade Lacks 
`Balance in Opportunity,' Official Says,'' 4 April 06.
    \2\ English, French, and Spanish. Includes all laws, regulations, 
and measures pertaining to or affecting trade in goods, services, 
trade-related aspects of intellectual property rights, or the control 
of foreign exchange.
    \3\ World Trade Organization, Report of the Working Party on the 
Accession of China, WT/MIN(01)/3, 10 November 01, para. 334.
    \4\ Ibid., para. 332; World Trade Organization, Protocol on the 
Accession of the People's Republic of China, WT/L/432, 23 November 01, 
para. 2(C)2.
    \5\ Ibid.
    \6\ U.S. Department of State, ``U.S.-China Trade Lacks `Balance in 
Opportunity,' Official Says,'' 4 April 06.
    \7\ World Trade Organization, Committee on Import Licensing: Report 
to the Council for Trade in Goods on China's Transitional Review, G/
LIC/14, 2 November 05. para. 3.10 (citing the representative of China 
as saying that, while all the procedures and requirements relating to 
TRQ administration were available on the Ministry of Commerce and 
National Development and Reform Commission Web sites, owing to huge 
resource restraints and language difficulties it was difficult for his 
authorities to have all procedures and requirements in English and make 
them available on the Web sites).
    \8\ Coalition of Service Industries, Letter to USTR and Department 
of Commerce Regarding 2006 JCCT Plenary, 21 March 06; CECC Staff 
Interview.
    \9\ Circular Regarding Further Carrying Out the Work Relating to 
Implementing Transparency Provisions of China's World Trade 
Organization Protocol [Guanyu jinyibu zuohao luxing wo guo jiaru shijie 
maoyi zuzhi yidingshu toumingdu tiaokuan xiangguan gongzuo de tongzhi], 
issued 30 March 06. When China acceded to the WTO, it stated that the 
``full listing of official journals'' was as follows: Gazette of the 
Standing Committee of the National People's Congress of the People's 
Republic of China; Gazette of the State Council of the People's 
Republic of China; Collection of the Laws of the People's Republic of 
China; Collection of the Laws and Regulations of the People's Republic 
of China; Gazette of MOFTEC of the People's Republic of China; 
Proclamation of the People's Bank of the People's Republic of China; 
and Proclamation of the Ministry of Finance of the People's Republic of 
China. World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II--Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01, para. 330. MOFCOM first began issuing the 
Bulletin in November 2002.
    \10\ MOFCOM has made its Gazette available at the following URL: 
http://www.mofcom.gov.cn/static/column/b/g.html/1.
    \11\ Hearing of the U.S.-China Economic and Security Review 
Commission, 5 February 04, Testimony of James J. Jochum, Assistant 
Secretary of Commerce for Import Administration.
    \12\ Agreement on Subsidies and Countervailing Measures, 15 April 
94; Marrakesh Agreement Establishing the World Trade Organization, 
arts. 25.1 and 25.9.
    \13\ U.S. Department of State, ``U.S.-China Trade Lacks `Balance In 
Opportunity,' Official Says,'' 4 April 06.
    \14\ World Trade Organization, Committee on Subsidies and 
Countervailing Measures--Subsidies: China Notification Pursuant to 
Article XVI:1 of the GATT 1994 and Article 25 of the SCM Agreement, G/
SCM/N/123/CHN, 13 April 06.
    \15\ ``Senior Official Credits WTO Accession for Advancing 
Transparency,'' CECC China Human Rights and Rule of Law Update, 
November 2005, 8; ``Giving the Public Open Access,'' Beijing Review 
(Online), 13 October 05.
    \16\ ``Changzhou City Government Adopts WTO-Inspired Transparency 
Measure,'' CECC China Human Rights and Rule of Law Update, January 
2006, 8; ``Changzhou: No Effect for Unpublicized Laws'' [Changzhou: bu 
gongbu de zhengce guifan bu neng shengxiao], Legal Daily (Online), 8 
December 05; Circular Regarding the Program To Submit Proposals to the 
City Government's 2006 Plan for Drafting Regulatory Documents [Guanyu 
baosong shi zhengfu 2006 nian zhiding guifanxing wenjian jihua jianyi 
xiangmu de tongzhi], issued 7 November 05.
    \17\ ``China Clamped Down on Rampant Piracy Last Year,'' Xinhua 
(Online), 10 March 06.
    \18\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \19\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \20\ U.S. Department of State, ``U.S. Boosting IPR Enforcement in 
China, Commerce Official Says,'' 10 March 06.
    \21\ ``China's Piracy Crackdown Praised,'' Reuters (Online), 30 
March 06.
    \22\ ``China Vows To Bar Software Piracy,'' International Herald 
Tribune (Online), 27 March 06. See also, ``US-China Meet Could Yield 
Some Progress on Piracy,'' Reuters (Online), 11 April 06. A Chinese 
government-backed study claimed that only 26 percent of the software 
packages installed on computers in China in 2005 were illegal, pirated 
copies. ``Twenty-six Percent of China's Software Illegal,'' China Daily 
(Online), 18 May 06.
    \23\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \24\ Motion Picture Association of America, Inc., ``Comprehensive 
Snapshot of Film Theft Provides International Anti-Piracy Roadmap,'' 3 
May 06.
    \25\ ``Hollywood Urges China Reforms Before Olympics,'' Reuters 
(Online), 13 December 05.
    \26\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \27\ Office of the U.S. Trade Representative, China Top-to-Bottom 
Review, 1 February 06.
    \28\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \29\ ``China Results Mixed in Antipiracy Efforts,'' Variety 
(Online), 26 October 05.
    \30\ ``Ministry of Public Security Targets Intellectual Property 
Infringement with Remarkable Success'' [Quanguo gongan jiguan daji 
qinfan zhishi chanquan fanzui chengxiao xianzhu], Xinhua (Online), 15 
November 05; ``Major Headway Made in IPR Protection,'' China Daily 
(Online), 28 March 06.
    \31\ World Trade Organization, Report to the General Council by the 
Chair, Council for Trade-Related Aspects of Intellectual Property 
Rights, IP/C/39, 21 November 05, para. 8.
    \32\ ``Ministry of Public Security: Inspection Reveals 200 Illegal 
Optical Disc Production Lines Are from United States and Europe'' 
[Gonganbu: chahuo de 200 tiao feifa guangpan shengchanxian jun laizi 
Oumei], People's Daily (Online), 17 November 05.
    \33\ ``US Exaggerates IPR Violations: Experts,'' Xinhua (Online), 4 
March 06.
    \34\ State Council Information Office (Online), ``State Council 
Information Office Holds Press Conference To Discuss Strengthening of 
Intellectual Property Rights Administrative Law Enforcement'' [Guo 
xinban jiu jiaqiang zhishi chanquan xingzheng zhifa deng qingkuang 
juxing fabuhui], 27 March 06 (quoting Gong Zheng, deputy director of 
the General Administration of Customs).
    \35\ According to China's state-run media, Chinese authorities 
destroyed 106 million pirated discs and books in 2005. ``Major Headway 
Made in IPR Protection,'' China Daily (Online), 28 March 06. Between 
September 2004 and September 2005 Chinese authorities handled over 
50,000 infringement cases with fines of up to 376 million yuan 
(US$46.36 million). During that period authorities seized over 50 
million illegal audio-visual products and 19,000 illegal businesses 
were closed down, in addition to handling 3,176 cases of counterfeit 
patents. ``Chinese State Council IP Office Director Touts China's IP 
Protection Effort,'' Xinhua (Online), 3 November 05.
    \36\ ``United States and China Conclude Annual Bilateral Trade 
Meeting,'' CECC Human Rights and Rule of Law Update, May 2006, 14. In 
April 2006, the Ministry of Information Industry, National Copyright 
Administration, and Ministry of Commerce jointly issued a circular 
requiring all computers manufactured and sold in China to have 
legitimate copies of an operating system installed before they reach 
consumers. Circular Regarding Certain Issues Relating to the Pre-
installation of Computer Operating System Software [Guanyu jisuanji yu 
zhuang zhengban caozuo xitong ruanjian youguan wenti de tongzhi], 
issued 6 April 06. Between January and April 2006, the government 
investigated 48 optical disc-copying enterprises, and found 14 were 
operating illegally. It rescinded six licenses and ordered eight 
enterprises to shut down and ``make adjustments.'' ``China Punishes 14 
Companies for Illegal Disc Copying,'' People's Daily (Online), 27 March 
06.
    \37\ Examples include: Trademark Examination Rules [Shangbiao 
pingshen guize], issued 26 September 05; Interpretation of Relevant 
Issues of Handling Criminal Cases of Infringing Upon Copyright 
Concerning Audio-visual Fixation [Guanyu banli qinfan zhuzuoquan 
xingshi anjian zhong sheji luyin luxiang zhipin you guan wenti de 
pifu], issued 13 October 05; Working Plan for Regional Punishment 
Campaign To Strike Hard Against Illegal Piracy Conduct [Yanli daji 
qinquan daoban weifa fanzui huodong quyuxing zhengzhi xingdong gongzuo 
fangan], issued 28 October 05; Regulations on the Administration of 
Entertainment Venues [Yulechangsuo guanli tiaoli], issued 29 January 06 
(banning pirated products for commercial use in these places); Measures 
on the Resolution of Domain Name Disputes [Yuming zhengyi jiejue 
banfa], issued 14 February 06. In November 2005, the State Intellectual 
Property Office announced that it had commenced work on the third 
amendment to China's Patent Law. ``Patent Law Reform Set in Motion,'' 
China Daily (Online), 24 November 05.
    \38\ Ministry of Commerce (Online), ``China's Action Plan on IPR 
Protection 2006'' [2006 Zhongguo baohu zhishi chanquan xingdong jihua], 
8 March 06.
    \39\ Regulation on the Protection of Network Information 
Broadcasting Rights [Xinxi wangluo chuanboquan baohu tiaoli], issued 10 
May 06; ``China Vows To Better Protect Copyright on Internet,'' Xinhua 
(Online), 31 May 06.
    \40\ ``Vice Premier, Senior Official Say China Moving to Join WIPO 
Internet Treaties,'' CECC Human Rights and Rule of Law Update, May 
2006, 14; ``Liu Binjie: China To Enter Into WTO Internet Treaties in 
Second Half of Year'' [Liu Binjie: Zhonguo jiangyu xiabannian jiaru 
guoji hulianwang gongyue], Xinhua (Online), 12 April 06; U.S. 
Department of Commerce, Press Conference with Gutierrez and Wu Yi at 
the Annual Meeting of the U.S.-China Joint Commission on Commerce and 
Trade, 11 April 06.
    \41\ ``Supreme Court Publicizes and Seeks a Review of Four Draft 
Interpretations'' [Zuigaofa jiu si ge sifa jieshi gao gongkai zhengqiu 
yijian], Xinhua (Online), 21 November 05. See Interpretation Regarding 
Certain Laws To Be Used in Adjudicating Disputes Relating to Music 
Television Copyright Civil Disputes (Draft for Comment) [Guanyu shenli 
sheji yinyue dianshi zhuozuoquan minshi jiufen anjian sheyong falu 
ruogan wenti de jieshi (zhengqiu yijian gao)], issued 18 November 05; 
Interpretation Regarding Certain Laws To Be Used in Adjudicating 
Disputes Relating to Unfair Competition Civil Disputes (Draft for 
Comment) [Guanyu shenli bu zhengdang jingzheng minshi jiufen anjian 
sheyong falu ruogan wenti de jieshi (zhengqiu yijian gao)], issued 18 
November 05; Interpretation Regarding Certain Laws To Be Used in 
Adjudicating Disputes Relating to Intellectual Property Rights 
Conflicts Civil Disputes (Draft for Comment) [Guanyu shenli sheji 
zhishi chanquan quanli chongtu minshi jiufen anjian sheyong falu ruogan 
wenti de jieshi (zhengqiu yijian gao)], issued 18 November 05; and 
Interpretation Regarding Certain Laws To Be Used in Adjudicating 
Disputes Relating to Plant Variety Rights Infringement Disputes (Draft 
For Comment) [Guanyu shenli qinfan zhiwu xinpin zhong quan jiufen 
anjian sheyong falu ruogan wenti de jieshi (zhengqiu yijian gao)], 
issued 18 November 05. The comment period concluded in March 2006. 
``SPC Strengthens Judicial Interpretation Work in Intellectual Property 
Adjudication'' [Zuigao fayuan jiaqiang zhishi chanquan shenpan sifa 
jieshi gongzuo], China Court Net (Online), 10 March 06.
    \42\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \43\ Office of the U.S. Trade Representative, The U.S.-China Joint 
Commission on Commerce and Trade (JCCT), Outcomes On Major U.S. Trade 
Concerns, 11 July 05.
    \44\ ``Major Headway Made in IPR Protection,'' China Daily 
(Online), 28 March 06.
    \45\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \46\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 1 
October 97, 25 December 99, 31 August 01, 29 December 01, 28 December 
02, arts. 213--20. U.S. Chamber of Commerce, The AmCham-China White 
Paper: American Business in China, 16 May 05, 48 (``The most glaring 
deficiency in the current IPR regime is the one key law not revised 
when China joined the WTO-- its criminal code. This should be revised 
to provide stronger protection, enhanced penalties and further 
clarification of standards.'').
    \47\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06. See also, ``IPR Protection in 2005,'' China Daily 
(Online), 28 March 06.
    \48\ Agreement on Trade-Related Aspects of Intellectual Property 
Rights, Marrakesh Agreement Establishing the World Trade Organization, 
15 April 94, art. 61.
    \49\ ``IPR Judicial System in Need of Review, Says Legal Expert,'' 
China Daily (Online), 16 February 06.
    \50\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \51\ See, e.g., ``First Instance Court Decision Made on Major 
Intellectual Property Rights Violation Case of `Counterfeiting the 
Registered Trademark of the American Cisco Technology, Inc.' '' 
[``Jiamao Meiguo sike gongsi zhuce shangbiao an'' yi shen panjue], 
Xinhua (Online), 29 August 05; Ministry of Commerce, 2005-2006 Awards 
for Best Cases of IPR Protection [2005-2006 niandu zhishi chanquan 
baohu zuijia anli jiang], 12 April 06.
    \52\ ``U.S. Companies to Test China's Criminal IPR Enforcement 
Regime,'' Inside U.S.-China Trade (Online), 21 September 05.
    \53\ Interpretation Concerning Certain Questions of Using the 
Criminal Law To Handle Violations of Intellectual Property Rights 
[Guanyu banli qinfan zhishichanquan xingshi anjian juti yingyong falu 
ruogan wenti de jieshi], issued 8 December 04.
    \54\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \55\ U.S. Chamber of Commerce, China's WTO Implementation and Other 
Issues of Importance to American Business in the U.S.-China Commercial 
Relationship, September 05, 36.
    \56\ World Trade Organization, Communication from the United States 
to China, Council for Trade-Related Aspects of Intellectual Property 
Rights, IP/C/W/453, 5 October 05.
    \57\ World Trade Organization, Report to the General Council by the 
Chair, Council For Trade-Related Aspects of Intellectual Property 
Rights, IP/C/39, 21 November 05.
    \58\ Opinion Regarding the Timely Transfer of Cases in 
Administrative Enforcement That Are Suspected of Involving Crimes 
[Guanyu zai xingzheng zhifa zhong jishi yisong shexian fanzui anjian de 
yijian], issued 27 March 06.
    \59\ Ibid.; Temporary Provisions Regarding Strengthening Linkages 
and Cooperation During Striking Criminal Copyright Violation Work 
[Guanyu zai daji qinfan zhuzuoquan weifa fanzui gongzuo zhong jiaqiang 
xianjie peihe de zanxing guiding], issued 20 March 06; Temporary 
Provisions Regarding Strengthening Linkages and Cooperation During 
Striking Criminal Trademark Exclusivity Violation Work [Guanyu daji 
qinfan shangbiao zhuanyongquan weifa fanzui gongzuo zhong jiaqiang 
xianjie peihe de zanxing guiding], issued 13 January 06; and Temporary 
Provisions Regarding Strengthening Intellectual Property Law 
Enforcement Cooperation [Guanyu jiaqiang zhishi chanquan zhifa xiezuo 
de zanxing guiding], issued 24 March 06. The agencies were the Ministry 
of Supervision, State Administration of Industry and Commerce, National 
Copyright Administration, and General Administration of Customs.
    \60\ Office of the U.S. Trade Representative, 2006 Special 301 
Report, 28 April 06.
    \61\ Ibid.; ``Legal Experts Say IPR Judicial System in Need of 
Review,'' China Daily (Online), 16 February 06; ``Piracy Has No Place 
in China's Hi-Tech Dream,'' South China Morning Post (Online), 12 
January 06.
    \62\ ``Starbucks Wins China Trademark Fight,'' Associated Press, 
reprinted in International Herald Tribune (Online), 2 January 06. See 
also, ``Hennessy Wins China Piracy Case,'' BBC (Online), 30 November 
05.
    \63\ ``Viagra Ruling in Beijing Lifts Foreign Firms' Hopes,'' Wall 
Street Journal (Online), 5 June 06. Twelve Chinese drug companies 
appealed the verdict. ``Chinese Firms Appeal Ruling Over Viagra,'' 
China Daily (Online), 20 June 06.
    \64\ ``Fight on Piracy Is for China's Own Good, Says Official,'' 
Reuters (Online), 23 February 06.
    \65\ ``Yearender: China To Strengthen IPR Protection To Encourage 
Innovation,'' Xinhua, reprinted in People's Daily (Online), 27 December 
05.
    \66\ Organization for Economic Co-operation and Development, ``OECD 
Finds That China Is Biggest Exporter of Information Technology Goods in 
2004, Surpassing US and EU,'' 12 December 05. Includes computers, 
mobile phones, and digital cameras.
    \67\ ``China Overtakes U.S. As Tech Supplier,'' International 
Herald Tribune (Online), 12 December 05 (stating that ``Figures from 
the Chinese Ministry of Commerce show that companies that had received 
overseas investment accounted for almost 90 percent of 2004 exports of 
high technology products.''). See also ``Learning from China's Export 
Boom,'' Business Week, 19 January 06 (Roughly 60 percent of exports are 
made by foreign-invested enterprises, and the percentage progressively 
rises with the technology level.).
    \68\ ``First Chinese IT Company with Independent IPR Appears on 
NASDAQ,'' Xinhua, reprinted in People's Daily (Online), 11 November 05.
    \69\ ``A Realistic View Into the IPR Issue: Comment,'' People's 
Daily (Online), 29 March 06; ``China To Continue Efforts in Combating 
Piracy, FM Spokesman,'' Xinhua, reprinted in People's Daily (Online), 
23 February 06.
    \70\ Intellectual Property Protection as Economic Policy: Will 
China Ever Enforce Its IP Laws?, Staff Roundtable of the Congressional-
Executive Commission on China, 16 May 05, Testimony of Daniel C.K. 
Chow. See also, ``Copyright Forum Hears of Advances and Failures,'' 
South China Morning Post (Online), 27 April 06 (quoting Yan Xiaohong, 
deputy commissioner of the National Copyright Administration, as 
saying: ``Local protectionism has resulted in rampant piracy and 
counterfeiting, which tainted the country's international image.'').
    \71\ Regulations on the Protection of the Olympic Symbol [Aolinpike 
biaozhi baohu tiaoli], issued 4 February 02.
    \72\ ``Yes, Beijing Can Stop Counterfeiters,'' Newsweek (Online), 
10 January 06. Another example is the Chinese government's repression 
of the Falun Gong spiritual movement. Before the state banned Falun 
Gong in 1999, the spiritual group's materials were found throughout 
China. Since the crackdown, the only publicly available materials in 
China that discuss Falun Gong are anti-Falun Gong materials published 
by the government.
    \73\ International Trade Commission, Recent Trends in U.S. Services 
Trade: 2006 Annual Report, June 06.
    \74\ Ibid.
    \75\ ``China's Banking Industry Enters Global Integration,'' China 
Daily (Online), 20 December 04.
    \76\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II--Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01.
    \77\ Ibid.
    \78\ The schedule required the Chinese government to permit foreign 
banks to conduct local currency business in Shantou, Ningbo, Shenyang, 
and Xi'an by December 2005. The government opened the latter two cities 
in December 2004, and the former two and Harbin, Changchun, Lanzhou, 
Yinchuan and Nanning in December 2005. World Trade Organization, 
Secretariat Report--Trade Policy Review: China, WT/TPR/S/161, 28 
February 06, para. 179.
    \79\ Public Notice Regarding Further Opening Up China's Banking 
Industry [Guanyu jin yi bu duiwai kaifang yinhangye xiangguan shixiang 
de gonggao], issued 8 December 05, art. 2.
    \80\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \81\ Measures Governing Foreign Debts of Domestic Foreign Funded 
Banks [Jingnei waizi yinhang waizhai guanli banfa], issued 27 May 04; 
Robert Vastine (President of the Coalition of Service Industries), 
Statement to the Trade Policy Staff Committee, U.S. Trade 
Representative, 14 September 05.
    \82\ PRC Commercial Bank Law, issued 10 May 95, amended 27 December 
03, art. 13.
    \83\ Detailed Rules for the Implementation of the Regulations on 
the Administration of Foreign-funded Financial Institutions [Waizi 
jinrong jigou guanli tiaoli shishi xize], issued 26 July 04, arts. 31-
36.
    \84\ Regulations on the Administration of Financial Institutions 
with Foreign Investment [Waizi jinrong jigou guanli tiaoli], issued 12 
December 01, arts. 6 and 8. US$20 billion in the case of foreign bank 
branch.
    \85\ Ibid., art. 6. The Chinese government has stated it will waive 
the representative office requirement for foreign banks that directly 
apply for the establishment of operational branches in western China 
(Shaanxi, Gansu, Qinghai, Sichuan, Yunnan, and Guizhou provinces, 
Chongqing municipality, and the Ningxia Hui, Xinjiang Uighur, and Tibet 
Autonomous Regions). ``China Announces New Policies to Encourage 
Foreign Banks to Enter Western Regions,'' Xinhua, reprinted in People's 
Daily (Online), 22 September 05.
    \86\ Detailed Rules for the Implementation of the Regulations on 
the Administration of Foreign-Funded Financial Institutions, arts. 31.
    \87\ PRC Commercial Bank Law, arts. 19-20.
    \88\ Detailed Rules for the Implementation of the Regulations on 
the Administration of Foreign-Funded Financial Institutions, art. 17.
    \89\ Regulations on the Administration of Financial Institutions 
with Foreign Investment, art. 7. US$20 billion in the case of a foreign 
bank branch.
    \90\ Measures on the Administration of Foreign Financial 
Institutions Taking Equity Stakes in Chinese Invested Financial 
Institutions [Jingwai jinrong jigou touzi rugu zhong zijin jinrong 
jigou guanli banfa], 8 December 03, arts. 8 and 9.
    \91\ ``Citigroup Expected To Land China Deal,'' New York Times 
(Online), 31 December 05.
    \92\ ``China Cap on Foreign Investment in Banks May Change Soon--
Central Huijin,'' Forbes (Online), 22 June 06; ``China May Raise Caps 
on Banks,'' Wall Street Journal (Online), 23 June 06; ``China Govt 
Official: Studying Easing Bank Investment Cap,'' Wall Street Journal 
(Online), 21 April 06. But see also, ``China Bank Investment Caps To 
Stay: Regulator,'' Reuters (Online), 21 April 06; ``Official: Opening 
up Further to Foreign Banks To Have `Big Impact' on PRC Banks,'' China 
Daily (Online), 9 March 06 (citing Shi Jiliang, Vice Chairman of the 
China Banking Regulatory Commission, as saying that China will continue 
to limit foreign banks' investment to two domestic banks because 
strategic investors ``do not need too many partners,'' and that current 
restrictions on foreign investment in local banks are appropriate and 
will probably not be changed before the end of 2006).
    \93\ ``China CBRC Says Guandong Devt Deal Will Not Be Exempt from 
Foreign Stake Rules,'' Forbes (Online), 19 April 06.
    \94\ ``Foreign Investors' Bank Bid Left Hanging,'' China Daily 
(Online), 25 April 06.
    \95\ ``Hope for a Breakthrough in the Guangdong Development Bank 
Reorganization Deadlock,'' Ta Kung Pao (Online), 12 July 06.
    \96\ Office U.S. Trade Representative, 2005 Report to Congress on 
China's WTO Compliance, 11 December 05.
    \97\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II --Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01.
    \98\ Office of the U.S. Trade Representative, 2004 Report to 
Congress on China's WTO Compliance, 11 December 04.
    \99\ Public Notice Regarding Implementation of WTO Accession 
Commitments [Guanyu luxing rushi chengnuo de gonggao], issued 11 
December 04.
    \100\ Ibid.
    \101\ World Trade Organization, Secretariat Report--Trade Policy 
Review: China, WT/TPR/S/161, 28 February 06, para. 190.
    \102\ Regulation on the Administration of Foreign-Funded Insurance 
Companies [Waizi baoxian gongsi guanli tiaoli], issued 5 December 01.
    \103\ U.S. Department of State (Online), Jon Shaffer, ``Huge 
Unrealized Opportunities Remain in China's Services Sectors,'' 6 May 
05.
    \104\ ``China Approves 40 Overseas Insurers,'' Xinhua (Online), 2 
March 06.
    \105\ ``AIA Receives Approvals To Conduct Group Insurance Business 
in China,'' American International Group Press Release, 26 May 06; 
``AIG Subsidiaries Receive Approvals from Chinese Regulators for 
Guangdong and Jiangsu Provincial Expansion,'' American International 
Group Press Release, 15 May 06.
    \106\ ``Schumer Delays Schwab USTR Confirmation Over China Trade 
Complaint,'' China Trade Extra (Online), 26 May 06.
    \107\ Jon Shaffer, ``Huge Unrealized Opportunities Remain in 
China's Services Sectors.''
    \108\ Rules for Establishment of Securities Companies with Foreign 
Equity Participation [Waizi cangu zhengquan gongsi jianli guize], 
issued 1 June 02, art. 10; Measures for the Administration of 
Securities Investment Fund Management Companies [Zhengquan touzi jijin 
guanli gongsi guanli banfa], issued 12 August 04, art. 10; Circular 
Regarding Certain Questions Regarding the Implementation of the 
``Measures for the Administration of Securities Investment Fund 
Management Companies'' [Guanyu shishi ``Zhengquan touzi jijin guanli 
gongsi guanli banfa'' ruogan wenti de tongzhi], issued 21 September 04, 
art. 1(7).
    \109\ Rules for Establishment of Securities Companies with Foreign 
Equity Participation [Waizi cangu zhengquan gongsi jianli guize], 
issued 1 June 02, art. 5.
    \110\ ``Joint Venture Securities Companies Enter the A-Share 
Business'' [Hezi quanshang jieru A gu yewu], Shanghai Securities 
Report, reprinted in State Council Information Office (Online), 13 
December 02; Office of the U.S. Trade Representative, 2005 National 
Trade Estimate Report on Foreign Trade Barriers, 30 March 05.
    \111\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II--Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01.
    \112\ Securities and Exchange Commission (Online), ``SEC and CSRC 
Announce Terms of Reference for Enhanced Dialogue,'' 2 May 06.
    \113\ Transparency International, Corruption Perceptions Index 
2005, 18 October 05.
    \114\ At a December 2005 meeting of Asian and European prosecutors 
in Shenzhen, Deputy Procurator General Wang Zhenchuan said that 
procuratorates nationwide prosecuted and punished 50,000 corrupt 
officials from 2003 to 2005. ``50,000 Officials Punished in Anti-
Corruption Campaign,'' Xinhua (Online), 11 December 05. In 2005, 
Chinese news media reported on ``China's biggest political scandal,'' 
in which more than 260 government officials were alleged to have 
connections with Ma De, a senior official in Heilongjiang province 
convicted in July 2005 for taking bribes. ``Official on Trial for 
Selling High-level Jobs,'' China Daily (Online), 23 March 05.
    \115\ An inter-governmental body established by the G-7 nations in 
1989 to develop and promote national and international policies to 
combat narcotics trafficking-related money laundering and terrorist 
financing.
    \116\ ``China Ratifies UN Convention against Corruption,'' Xinhua 
(Online), 27 October 05.
    \117\ ``Government Considering New Anti-Money Laundering 
Regulations to Address Corruption, Improve Commercial Environment,'' 
CECC Human Rights and Rule of Law Update, June 2006, 16-17; ``New Rules 
against Money Laundering Proposed,'' Xinhua (Online), 13 April 06; 
Anti-Money Laundering Provisions for Insurance Financial Organizations 
(Draft for Soliciting Opinions) [Baoxianye jinrong jigou fan xiqian 
guiding (zhengqiu yijian gao)], issued 12 April 06; Anti-Money 
Laundering Provisions for Securities and Commodities Financial 
Organizations (Draft for Soliciting Opinions) [Zhengquan, qihuoye 
jinrong jigou fan xiqian guiding (zhengqiu yijian gao)], issued 12 
April 06. Anti-Money Laundering Provisions for Banking and Financial 
Organizations (Draft for Soliciting Opinions) [Yinhangye jinrong jigou 
fan xiqian guiding (zhengqiu yijian gao)], issued 12 April 06.
    \118\ Measures on Implementing the Items Subject to Administrative 
Licensing for China-Funded Commercial Banks [Zhongzi shangye yinhang 
xingzheng xuke shixiang shishi banfa], issued 12 January 06, art. 7(4). 
See also, ``China Sets New Bank Rules,'' Wall Street Journal (Online), 
24 February 06.
    \119\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II--Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01.
    \120\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II--Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01; Office of the U.S. Trade Representative, 2006 
National Trade Estimate Report on Foreign Trade Barriers, 31 March 06, 
133.
    \121\ For example, the Measures on the Administration of Foreign-
Invested Book, Magazine, and Newspaper Distribution Enterprises 
[Waishang tuozi tushu, baozhi, qikan fenxiao qiye guanli banfa], issued 
17 March 03; and the Measures on the Management of Foreign Investment 
in the Commercial Sector [Waishang touzi shangye lingyu guanli banfa], 
issued 16 April 04.
    \122\ For example, the Measures on the Administration of the 
Subscription of Imported Publications [Ding hu ding gou jinkou chubanwu 
guanli banfa], issued 31 December 04; Certain Opinions Regarding the 
Introduction of Foreign Investment Into the Cultural Domain [Guanyu 
wenhua lingyu yinjin waizi de ruogan yijian], issued 6 July 05. See, 
Office of the U.S. Trade Representative, 2005 Report to Congress on 
China's WTO Compliance, 11 December 05; ``Moving Forward on 
Distribution,'' China Business Review (Online), September-October 2005.
    \123\ Catalogue for the Guidance of Foreign Investment Industries 
[Waishang touzi chanye zhidao mulu], issued 30 November 04, Part 
3(VIII)(2). It also included in the ``prohibited'' category news 
agencies and television program production.
    \124\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \125\ Decision of the State Council Establishing Administration 
Examination and Approval Matters That Must Remain Subject to 
Administrative Licensing [Guowuyuan dui xu baoliu de xingzheng shenpi 
xiangmu sheding xingzheng xuke de jueding daohang], issued 29 June 04.
    \126\ U.S. Chamber of Commerce, The AmCham-China White Paper: 
American Business in China, 16 May 05, 126; Office of the U.S. Trade 
Representative, 2006 National Trade Estimate Report on Foreign Trade 
Barriers, 31 March 06, 133.
    \127\ Measures for Administering the Release of News and 
Information in China by Foreign News Agencies [Waiguo tongxunshe zai 
zhongguo jingnei fabu xinwen xinxi guanli banfa], issued 10 September 
06.
    \128\ Michael Connolly, ``Beijing Curbs Media to Protect Their 
Rights?, '' Wall Street Journal (Online), 11 September 06.
    \129\ U.S. Chamber of Commerce, China's WTO Implementation and 
Other Issues of Importance to American Business in the U.S.-China 
Commercial Relationship, September 2005, 39.
    \130\ World Trade Organization, WTO Communication from the United 
States to China, Council for Trade-Related Aspects of Intellectual 
Property Rights, IP/C/W/453, 5 October 05.
    \131\ World Trade Organization, Report to the General Council by 
the Chair, Council for Trade-related Aspects of Intellectual Property 
Rights, IP/C/39, 21 November 05.
    \132\ The Internet in China: A Tool for Freedom or Suppression?, 
Hearing of the Committee on International Relations, U.S. House of 
Representatives, Testimony of Elliot Schrage, Vice President, Global 
Communications and Public Affairs, Google Inc., 15 February 06.
    \133\ Ibid., Testimony of Jack Krumholtz, Associate General Counsel 
and Managing Director, Federal Government Affairs, Microsoft 
Corporation.
    \134\ Ibid., Testimony of Michael Callahan, Senior Vice President 
and General Counsel, Yahoo!.
    \135\ ``Murdoch Says News Corp. Has Hit `Brick Wall' in China,'' 
Bloomberg News (Online), 19 September 05.
    \136\ ``Government Regulators Block Foreign Access to China's Media 
Market,'' CECC Human Rights and Rule of Law Update, October 2005, 9; 
``New SARFT Rules Further Restrict Cooperation and Interaction Between 
Domestic Radio and Television Stations and Foreign Counterparts,'' CECC 
Human Rights and Rule of Law Update, August, 2005, 4; Notice Regarding 
Further Strengthening the Administration of Radio and Television 
Channels [Guanyu jin yi bu jiaqiang guangbo dianshi pindao guanli de 
tongzhi], issued 4 August 05 (stipulating that to preserve the 
government's ability ``to make final decisions regarding the contents 
of propaganda,'' and that ``controlling shares in radio and television 
stations must be in the hands of the government, and non-government 
investors may not participate in editorial decisions.''); Certain 
Opinions Regarding the Introduction of Foreign Investment into the 
Cultural Domain [Guanyu wenhua lingyu yinjin waizi de ruogan yijian], 
issued 6 July 05; ``Five Government Agencies Formulate the `Certain 
Opinions Regarding the Introduction of Foreign Investment Into the 
Cultural Domain' '' [5 bu wei zhiding ``guanyu wenhua lingyu yinjin 
waizi de ruogan yijian''], Xinhua (Online), 4 August 05 (stating that 
the ``Certain Opinions'' document ``prohibits foreign businesses from 
investing in businesses that engage in book, magazine, or newspaper 
publishing, distribution, or importation, businesses that publish, 
produce, distribute, or import audio-visual products and electronic 
publications, as well as businesses that utilize information networks 
to launch audio-visual programming services, news Web sites, and 
Internet publishing.'').
    \137\ ``New Rules Issued: Foreign-Invested Film and Television 
Media May Only Open One Joint Venture Company'' [Xin guiding chutai: 
waizi yingshi chuanmei zhi neng kai yi jia hezi gongsi], People's Daily 
(Online), 7 March 05; Notice Regarding Matters Relating to the 
Implementation of the ``Temporary Provisions on the Administration of 
Sino-Foreign Investment and Cooperative Joint Venture Television 
Program Production Enterprises'' [Guanyu shishi ``zhongwai hezi, hezuo 
guangbo dianshi jiemu zhizuo jingying qiye zanxing guiding'' youguan 
shiyi de tongzhi], issued 7 March 05. For additional examples, see 
Section III(a)--Special Focus for 2006: Freedom of Expression.
    \138\ ``Media Executives Court China, But Still Run Into 
Obstacles,'' New York Times (Online), 29 August 05.
    \139\ ``News Corp. Sells Phoenix TV Stake to China Mobile,'' 
Washington Post (Online), 8 June 06. News Corp. had been distributing 
the National Geographic Channel, a music channel, and other programming 
to local cable television companies without government permission.
    \140\ Certain Decisions Regarding Non-Public Investment in Cultural 
Industries [Guowuyuan guanyu feigongyou ziben jinru wenhua chanye de 
ruogan jueding], issued 13 April 05 (prohibiting the importation of 
newspapers, magazines, movies, and television shows); Circular 
Regarding Promulgation of the ``Provisions on the Administration of 
Radio, Film, and Television Systems' Local Foreign Affairs Work'' 
[Guanyu yinfa ``guangbo yingshi xitong difang waishi gongzuo guanli 
guiding'' de tongzhi], issued 7 July 05 (prohibiting television and 
radio stations from leasing their channels to foreign companies, and 
from cooperating with foreign companies in station operations); 
Measures Regarding Strengthening the Administration of the Importation 
of Cultural Products [Guanyu jiaqiang wenhua chanpin jinkou guanli de 
banfa], issued 28 April 05 (freezing approvals for new foreign 
satellite television channels). See, e.g., ``China Exclusive: China 
Issues Regulations to Protect Cultural Security,'' People's Daily 
(Online), 12 August 05; ``Policies in the Cultural Area Are 
Continuously Issued Promoting the Health Development of the Culture 
Sector'' [Wenhua lingyu xiangguan zhengce luxu chutai cujin wenhua 
chanye jiankang fazhan], Xinhua (Online), 21 August 05. Also in late 
2005, the GAPP issued an internal rule limiting approvals for the 
introduction of foreign magazines to science and technology 
publications. ``GAPP Tightens Restrictions on Foreign Publications,'' 
CECC Human Rights and Rule of Law Update, May 2006, 13; Geoffrey A. 
Fowler and Juying Qin, ``China Curbs Magazines from Foreign 
Publishers,'' Wall Street Journal (Online), 7 April 06.
    \141\ World Trade Organization, Report of the Working Party on the 
Accession of China, Schedule CLII, Part II --Schedule of Specific 
Commitments on Services List of Article II MFN Exemptions, WT/MIN(01)/
3/Add.2, 10 November 01.
    \142\ Ibid.
    \143\ U.S. Department of Commerce, ``The U.S.-China Joint 
Commission on Commerce and Trade (JCCT) Outcomes on U.S. Requests,'' 11 
April 06.
    \144\ ``China's Government Procurement Market Will Open'' [Zhongguo 
zhengce caigou shichang jijiang duiwai kaifang], Economic Information 
Daily, reprinted in China Finance and Economy News (Online), 3 August 
05.
    \145\ ``Drafter Predicts: Government Procurement To Open Up to 
Foreign Companies in Four Years'' [Qicaozhe yuce: Zhongguo zhengfu 
caigou 4 nian hou kaifang], Beijing Business Today (Online), 27 April 
06.
    \146\ ``Industry Expert Expects Procurement Market To Remain Closed 
Four More Years,'' CECC Human Rights And Rule Of Law Update, June 2006, 
17.
    \147\ ``There Exists a Phenomenon in Government Procurement Where 
There Is Law But It Is Not Being Obeyed'' [Zhengfu caigou cunzai you fa 
bu yi fa xianxiang jianguan gongzuo jidai jiaqiang], Xinhua (Online), 
30 November 05.
    \148\ ``Government Procurement: Who Has Market Opportunity? '' 
[Zhengfu caigou: shichang jihui luo shei jia?], People's Daily 
(Online), 4 July 02.
    \149\ ``Ministry of Finance Launches Project to Combat Bribery in 
Government Procurement and Commercial Enterprises'' [Caizhengbu qidong 
zhengfu caigou lingyu shangye huilu zhuanxiang zhili gongzuo], Xinhua 
(Online), 1 April 06.
    \150\ ``Ministry of Finance Begins Accepting Reports of Commercial 
Bribery in Government Procurement'' [Caizhengbu kaishi shouli zhengfu 
caigou lingyu shangye huilu jubao], Xinhua (Online), 21 April 06.
    \151\ U.S. Senate Finance Committee, Testimony of Karan K. Bhatia, 
Deputy U.S. Trade Representative, 29 March 06.
    \152\ World Trade Organization, Secretariat Report--Trade Policies 
and Practices by Measure, WT/TPR/S/161, 28 February 06, para. 4; World 
Trade Organization, Secretariat Report--Contents and Summary 
Observations, WT/TPR/S/161, 28 February 06, para 12.
    \153\ These two bans ended in late 2004, except for cherries from 
California. Office of the U.S. Trade Representative, 2006 National 
Trade Estimate Report on Foreign Trade Barriers, 31 March 06.
    \154\ The maximum residual level has not been enforced yet. Office 
of the U.S. Trade Representative, 2006 National Trade Estimate Report 
on Foreign Trade Barriers, 31 March 06. World Trade Organization 
members may avoid a claim that their phytosanitary measure lacks a 
scientific basis if they rely on an international standard. World Trade 
Organization Agreement on the Application of Sanitary and Phytosanitary 
Measures, arts. 3.1 and 3.3.
    \155\ World Trade Organization, Secretariat Report--Contents and 
Summary Observations, WT/TPR/S/161, 28 February 06, para 85.
    \156\ Ibid.
    \157\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \158\ Administrative Measures for the Entry-Exit Inspection and 
Quarantine for Grains and Feed Stuff, 4 December 01.
    \159\ Administrative Measures for Entry for Animal and Plant 
Quarantine [Jinjing dongzhiwu jianyi shenpi guanli banfa], issued 2 
August 02.
    \160\ World Trade Organization, Questions from the United States to 
China, World Trade Organization Committee on Import Licensing, G/lic/q/
chn/16, 16 August 05, para. 3.
    \161\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \162\ In June 2004, the General Administration of Quality 
Supervision, Inspection and Quarantine issued Public Notice 2004[73] 
[Guojia zhiliang jiancha yancha zongju gonggao 2004 nian di 73 hao], 
which extended the period of validity for quarantine permits from three 
months to six months.
    \163\ American Chamber of Commerce in China, 2006 White Paper, 74.
    \164\ Ibid., 76; Office of the U.S. Trade Representative, 2006 
National Trade Estimate Report on Foreign Trade Barriers, 31 March 06.
    \165\ American Chamber of Commerce in China, 2006 White Paper, 76.
    \166\ Ibid., 74; Office of the U.S. Trade Representative, 2006 
National Trade Estimate Report on Foreign Trade Barriers, 31 March 06.
    \167\ World Trade Organization, Questions from the United States to 
China, World Trade Organization Committee on Import Licensing, G/lic/q/
chn/16, 16 August 05, para. 3.
    \168\ U.S.-China Economic Relations, Hearing of the Senate Finance 
Committee, Testimony of Gary Joachim, Vice President, American Soybean 
Association, 29 March 06.
    \169\ U.S. Department of Commerce, The U.S.-China Joint Commission 
on Commerce and Trade (JCCT) Outcomes on U.S. Requests, 11 April 06.
    \170\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \171\ Ministry of Agriculture Public Notice Number 678 [Nongyebu 
gonggao di 678 hao], issued 29 June 06 (provided that it has been 
stripped of spines, brains, and other parts).
    \172\ ``U.S.: No Deal on Beef Trade with China,'' Business Week 
(Online), 30 June 06; ``U.S. Says China Announcement on Beef Market 
Opening Is Meaningless,'' Inside U.S.-China Trade (Online), 5 July 06.
    \173\ ``U.S., China Cite Progress on Beef, GPA, Subsidies; But 
Questions Remain,'' Inside U.S.-China Trade (Online), 12 April 06; 
``U.S. Considering Next Steps in Bid to Open China's Beef Market,'' 
Inside U.S.-China Trade (Online), 12 July 06; Office of the U.S. Trade 
Representative, 2005 Report to Congress on China's WTO Compliance, 11 
December 05.
    \174\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \175\ Ibid.
    \176\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \177\ American Chamber of Commerce in China, ``White Paper 2006,'' 
76; Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \178\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \179\ U.S. Department of Agriculture (Online), ``Johanns Signs 
Agreement With China on Food Safety and Plant and Animal Health,'' 13 
April 06.
    \180\ American Soybean Association, ``ASA and Chinese Officials 
Sign Agreement in Washington D.C.,'' 11 April 06.
    \181\ World Trade Organization, Request for Consultations by the 
United States: China--Measures Affecting Imports of Automobile Parts, 
WT/DS340/1, 3 April 06.
    \182\ World Trade Organization, Request for Consultations by 
Canada: China--Measures Affecting Imports of Automobile Parts, WT/
DS342/1, 19 April 06.; World Trade Organization, Request for 
Consultations by the European Communities: China--Measures Affecting 
Imports of Automobile Parts, WT/DS339/1, 3 April 06.
    \183\ The request also notes that Chinese regulations appear to 
assess tariffs on certain specified parts and assemblies as though they 
are complete vehicles. According to the request, these appear to be 
inconsistent with the Article 2 of the TRIMs Agreement, Articles II and 
III of the GATT 1994, Article 3 of the SCM Agreement; and China's 
Protocol on the Accession. The request cited the following rules as 
providing for the aforementioned treatment: Auto Industry Development 
Policy [Qiche chanye fazhan zhengce], issued 21 May 04; Management 
Measures for Imports of Auto Parts Having the Characteristics of a 
Complete Automobile [Goucheng zhengche tezheng de qiche lingbujian 
jinkou guanli banfa], issued 28 February 05; and Rules for Determining 
Whether Imported Automotive Parts and Components Constitute Complete 
Vehicles [Jinkou qiche lingbujian goucheng zhengche tezheng heding 
guize], issued 28 March 05.
    \184\ ``Nation Agrees To Hold Talks on Auto Parts,'' China Daily 
(Online), 10 April 06.
    \185\ ``China Becomes Victim of Trade Protectionism,'' China Daily 
(Online), 10 April 06.
    \186\ ``Consultation Over Auto Parts Tariffs May Continue,'' Xinhua 
(Online), 16 June 06; ``U.S. To Move Quickly Toward WTO Auto Parts 
Case,'' ChinaTradeExtra (Online), 7 June 06.
    \187\ ``U.S. Department of State, ``Trade Dispute Panel Sought on 
Auto Parts Exports to China,'' 15 September 06.
    \188\ Steel Industry Development Policy [Gangtie chanye fazhan 
zhengce], issued 20 July 05.
    \189\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \190\ ``NDRC Issues Steel Industry Development Policy,'' CECC Human 
Rights and Rule of Law Update, August 2005, 8; Office of the U.S. Trade 
Representative, 2005 Report to Congress on China's WTO Compliance, 11 
December 05. The policy encourages domestic enterprises to ``use 
domestic facilities and technology'' while importing only ``equipment 
and technology that cannot be made domestically or for which domestic 
supply is unable to satisfy the requirements.'' Steel Industry 
Development Policy, art. 18. The policy prohibits foreign control over 
domestic steel enterprises and restricts foreign investment in the 
steel industry. Steel Industry Development Policy, art. 23. Foreign 
companies wishing to invest in the domestic steel industry must have 
produced either 10 million tons of steel or 1 million tons of high-
alloy specialty steel during the previous year. Ibid. If the foreign 
company can fulfill these requirements it may invest in existing 
Chinese steel facilities, but may not create new ones.
    \191\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05. See also, ``Report 
of the Working Party on the Accession of China,'' WT/MIN(01)/3, para. 
46.
    \192\ Congressional Steel Caucus Hearing, Statement by Timothy 
Stratford, Assistant U.S. Trade Representative for China Affairs, 14 
June 06.
    \193\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05. See also, Report of 
the Working Party on the Accession of China, WT/MIN(01)/3, para. 49.
    \194\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \195\ World Trade Organization, Questions from the United States to 
China, Committee on Import Licensing, G/LIC/Q/CHN/16, 16 August 05.
    \196\ World Trade Organization, Minutes of the Meeting Held on 28 
September 05, Committee on Import Licensing, G/LIC/M/22, 2 November 05.
    \197\ World Trade Organization, 2005 Transitional Review Mechanism, 
for the Council for Trade-Related Investment Measures, Committee on 
Trade-Related Investment Measures, G/L/751, 24 October 05.
    \198\ World Trade Organization, Minutes of the Meeting Held on 28 
September 05, Committee on Import Licensing, G/LIC/M/22, 2 November 05. 
The organizations were the China Steel Industry Association and the 
Commercial Chamber for Metals, Minerals and Chemicals Importers and 
Exporters.
    \199\ Protocol on the Accession of the People's Republic of China, 
World Trade Organization Document WT/L/432 (23 November 01), para. 5; 
``Report of the Working Party on the Accession of China, Schedule CLII, 
Part II--Schedule of Specific Commitments on Services List of Article 
II MFN Exemptions,'' WT/MIN(01)/3/Add.2, 10 November 01.
    \200\ PRC Foreign Trade Law, issued 1 July 04.
    \201\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05.
    \202\ Measures on the Management of Foreign Investment in the 
Commercial Sector [Waishang touzi shangye lingyu guanli banfa], issued 
16 April 04.
    \203\ Circular Regarding Certain Issues with Foreign-Invested Non-
Commercial Enterprises Expanding the Scope of Retail Operations [Guanyu 
waishang touzi fei shangye qiye zengjia fenxiao jingying fanwei youguan 
wenti de tongzhi], issued 2 April 05.
    \204\ Circular Regarding Issues Regarding the Administration of 
Trade in Bonded Zones and Bonded Logistic Parks [Guanyu baoshui qu ji 
baoshui wuliu yuanqumaoyi guanli youguan wenti de tongzhi], issued 28 
July 05. See also, ``Moving Forward on Distribution,'' China Business 
Review, September-October 05.
    \205\ Circular Regarding Certain Issues with Foreign-Invested Non-
Commercial Enterprises Expanding the Scope of Retail Operations; 
Ministry of Commerce (Online), ``Ministry of Commerce Promulgates Set 
of Provisions on the Handling Procedures for Establishing the Scope of 
Projects for Foreign-Invested Commercial Enterprises'' [Shangyebu banbu 
sheli waishang touzi shangye lingyu xiangmu banli chengxu deng xilie 
guiding], 5 August 05.
    \206\ Regulation on the Administration of Direct Selling [Zhixiao 
guanli tiaoli], issued 23 August 05.
    \207\ Office of the U.S. Trade Representative, 2005 Report to 
Congress on China's WTO Compliance, 11 December 05; ``Companies Hope 
Direct Sales Approval for Avon Leads to Others,'' Inside US-China Trade 
(Online), 8 March 06.
    \208\ ``Avon Grabs China's First License for Direct Sales,'' 
Xinhua, reprinted in People's Daily (Online), 5 March 06.
    \209\ U.S. Department of Commerce, Remarks as Prepared by Commerce 
Secretary Carlos Gutierrez on Behalf of the U.S. Delegation, 11 April 
06.
    \210\ World Trade Organization, Agreement on Technical Barriers to 
Trade, arts. 2.2 and 2.4.
    \211\ World Trade Organization, Minutes of the Meeting of 2 
November 2005, Committee on Technical Barriers to Trade, G/TBT/M/37, 22 
December 05.
    \212\ World Trade Organization, Secretariat Report--Trade Policies 
and Practices by Measure, WT/TPR/S/161, 28 February 06, para. 4.
    \213\ U.S. Trade and Development Agency, USTDA Initiative Promotes 
U.S.-China Cooperation in Industrial Standards Policy and Regulatory 
Development, 23 May 06.
    \214\ Office of the U.S. Trade Representative, 2006 National Trade 
Estimate Report on Foreign Trade Barriers, 31 March 06.
    \215\ Ibid.
    \216\ Office of the U.S. Trade Representative, 2005 National Trade 
Estimate Report on Foreign Trade Barriers, 30 March 05.
    \217\ Ibid.
    \218\ ``ISO Votes Down China Encryption System,'' Associated Press, 
reprinted in China Daily (Online), 14 March 06.
    \219\ ``China Resolved to Use Home-Grown WLAN Security 
Technology,'' Xinhua (Online), 13 March 06.
    \220\ ``China Appeals to ISO Against Intel-Dominated Wireless 
Encryption Standard,'' Xinhua, reprinted in People's Daily (Online), 29 
May 06.
    \221\ ``Chinese WAPI Delegation Quits Prague Meeting,'' Xinhua, 
reprinted by the Ministry of Commerce (Online), 9 June 06.

    Notes to Section VIII--Tibet
    \1\ ``Tibet Sees Record High Per Capita GDP in 2005,'' Xinhua 
(Online), 13 January 06. Jampa Phuntsog (Xiangba Pingcuo) told 
reporters that the TAR GDP grew to 25.04 billion yuan in 2005, an 
increase of more than 12 percent for the fifth consecutive year.
    \2\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, April 2006. U.S. 
policy urges China to ``respect the unique religious, linguistic, and 
cultural heritage of its Tibetan people and to respect fully their 
human rights and civil liberties.'' Bureau of Democracy, Human Rights, 
and Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (includes Tibet, Hong Kong, and Macau), 8 March 
06. The report observes, ``The preservation and development of the 
unique religious, cultural, and linguistic heritage of Tibetan areas 
and the protection of Tibetan people's fundamental human rights 
continued to be of concern.'' See also, CECC, 2003 Annual Report, 2 
October 02; Teaching and Learning Tibetan: The Role of Tibetan Language 
in Tibet's Future, Staff Roundtable of the Congressional-Executive 
Commission on China, 7 April 03.
    \3\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development with Chinese 
Characteristics (Washington D.C.: self-published CD- ROM, 1997), Table 
7. The 13 Tibetan autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR), with an area of 1.2 million square kilometers 
(463,320 square miles), as well as 10 Tibetan autonomous prefectures 
(TAP) and two Tibetan autonomous counties (TAC) located in Qinghai, 
Gansu, Sichuan, and Yunnan provinces. Qinghai province: Yushu TAP, 
197,791 square kilometers (76,367 square miles); Guoluo (Golog) TAP, 
78,444 square kilometers (30,287 square miles); Huangnan (Malho) TAP, 
17,901 square kilometers (6,912 square miles); Hainan (Tsolho) TAP, 
41,634 square kilometers (16,075 square miles); Haibei (Tsojang) TAP, 
52,000 square kilometers (20,077 square miles); Haixi (Tsonub) Mongol 
and Tibetan AP, 325,787 square kilometers (125,786 square miles). Gansu 
province: Gannan (Kanlho) TAP, 45,000 square kilometers (17,374 square 
miles); Tianzhu (Pari) TAC, 7,150 square kilometers (2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP, 153,870 square kilometers 
(59,409 square miles); Aba (Ngaba) Tibetan and Qiang AP, 86,639 square 
kilometers (33,451 square miles); Muli (Mili) TAC, 11,413 square 
kilometers (4,407 square miles). Yunnan province: Diqing (Dechen) TAP, 
23,870 square kilometers (9,216 square miles). The Table provides areas 
in square kilometers; conversion to square miles uses the formula 
provided on the Web site of the U.S. Geological Survey (USGS): one 
square kilometer = 0.3861 square mile. Based on data in the Table, the 
10 TAPs and two TACs have a total area of approximately 1.04 million 
square kilometers (402,000 square miles). The TAR and the Tibetan 
autonomous prefectures and counties are contiguous and total 
approximately 2.24 million square kilometers (865,000 square miles). 
Xining city and Haidong prefecture, located in Qinghai province, have a 
total area of 20,919 square kilometers (8,077 square miles) and are not 
Tibetan autonomous areas.
    \4\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, April 2006. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003. See, Committee on International Relations 
(Online), U.S. House of Representatives, ``Survey of Activities, Week 
of April 17, 2006,'' last visited 6 September 06. The Survey of 
Activities lists receipt of the Report on Tibet Negotiations by the 
Committee on International Relations on April 14, 2006.
    \5\ Ibid. ``Encouraging substantive dialogue between Beijing and 
the Dalai Lama is an important objective of this Administration. The 
United States encourages China and the Dalai Lama to hold direct and 
substantive discussions aimed at resolution of differences at an early 
date, without preconditions.''
    \6\ Ibid.
    \7\ Tibetan Government-in-Exile (Online), ``Education Will Help 
Tibetans to Fight for Their Rights,'' 17 January 06. The Dalai Lama led 
an 11-day teaching known as the Kalachakra.
    \8\ Tibetan Government-in-Exile (Online), ``The Middle-Way 
Approach: A Framework for Resolving the Issue of Tibet,'' last visited 
30 August 06. The explanation of the Middle-Way Approach lists eight 
``important components.'' The first three are: (1) Without seeking 
independence for Tibet, the Central Tibetan Administration strives for 
the creation of a political entity comprising the three traditional 
provinces of Tibet; (2) Such an entity should enjoy a status of genuine 
national regional autonomy; (3) This autonomy should be governed by the 
popularly-elected legislature and executive through a democratic 
process.
    \9\ Tibetan Government-in-Exile, ``Education Will Help Tibetans to 
Fight for Their Rights.''
    \10\ International Campaign for Tibet (Online), ``The Kalachakra in 
India: Dalai Lama Tells Tibetans From Tibet They Are Key to Future,'' 
11 January 06. ``The Dalai Lama opened the Kalachakra teachings this 
week in Amravati, India, with a powerful statement urging Tibetans from 
inside Tibet to tell Tibetans when they return about the importance of 
the `Middle Path' approach towards a genuine autonomy for Tibet.''
    \11\ Tibetan Government-in-Exile (Online), ``Statement by Special 
Envoy Lodi Gyari, Head of the Delegation Sent by His Holiness the Dalai 
Lama to China,'' 25 February 06. Special Envoy Lodi Gyari and Envoy 
Kelsang Gyaltsen traveled with two senior aides, Sonam N. Dagpo and 
Bhuchung K. Tsering. The delegation visited China from February 15 to 
23, 2006.
    \12\ In addition to serving as the Dalai Lama's Special Envoy, Lodi 
Gyari is the Executive Chairman of the International Campaign for Tibet 
(ICT). According to the ICT mission statement, ICT ``promotes self-
determination for the Tibetan people through negotiations between the 
Chinese government and the Dalai Lama.'' The ICT Web site describes 
Tibet as an ``occupied'' country of 2.5 million square kilometers 
(965,000 square miles) with Lhasa as its capital.
    \13\ The envoys traveled to China in September 2002, May-June 2003, 
and September 2004. (In addition to visiting Beijing and other major 
Chinese cities, they visited Lhasa in 2002, Dechen (Deqen) Tibetan 
Autonomous Prefecture (Yunnan province) in 2003, and Kardze (Ganzi) TAP 
(Sichuan province) in 2004. They met with Chinese officials in Bern, 
Switzerland in late June to early July 2005.)
    \14\ The Tibetan government-in-exile's representation of Tibet 
exceeds the total area of Chinese-designated Tibetan autonomy by about 
100,000 square miles. Aside from pockets of long-term Tibetan 
settlement in Qinghai, most of that is made up of autonomous 
prefectures or counties allocated to other ethnic groups. These include 
the Nu, Lisu, Bai, and Naxi in Yunnan Province; the Yi and Qiang in 
Sichuan Province; the Hui, Kazak, Mongol, and Yugur in Gansu Province; 
the Hui, Tu, Salar, and Mongol in Qinghai Province; and, according to 
some maps, Mongol in Xinjiang. Substantial Han Chinese populations are 
also included, some established for centuries.
    \15\ ``Spokesman: Differences on Tibet's Definition Persist Between 
China, Dalai Lama,'' Associated Press, reprinted in Phayul (Online), 8 
July 05.
    \16\ The Dalai Lama has made a statement on the anniversary of the 
1959 Lhasa uprising on March 10 of every year that he has lived in 
exile, beginning in 1960.
    \17\ Office of His Holiness the Dalai Lama (Online), ``Statement of 
His Holiness the Dalai Lama on the Forty-Seventh Anniversary of the 
Tibetan National Uprising Day, 10 March 2006,'' 10 March 06. The Dalai 
Lama listed the unique characteristics of Tibetans: ``Tibetans--as one 
of the larger groups of China's 55 minority nationalities--are distinct 
in terms of their land, history, language, culture, religion, customs, 
and traditions.''
    \18\ Ibid.
    \19\ The China-Dalai Lama Dialogue: Prospects for Progress, Staff 
Roundtable of the Congressional-Executive Commission on China, 13 March 
06, Written Statement and Testimony of Tashi Wangdi, Representative of 
His Holiness the Dalai Lama to the Americas.
    \20\ Tibetan Government-in-Exile (Online), ``Statement of the 
Kashag on the 47th Anniversary of the Tibetan People's Uprising Day, 10 
March 2006,'' 10 March 06.
    \21\ Ibid. ``[T]oday [Tibetans] are either scattered or live in 
these areas with a majority nationality. Therefore, [they] are reduced 
to minority [status] in their own areas, [and] it is not possible to 
protect their unique characteristics. . . . Therefore, if things go in 
this direction it would be nothing but similar to the system of `divide 
and rule' practised under imperialism.''
    \22\ The Dalai Lama explained in an interview with the Voice of 
America Mandarin Service on September 11, 2003, that the existing areas 
of Tibetan autonomy should be joined together to form a single 
administrative area. International Campaign for Tibet (Online), ``Dalai 
Lama Explains His Position on China's Preconditions on Negotiations on 
Tibet,'' 15 September 03. Transcript of Voice of America Mandarin 
Service interview with the Dalai Lama conducted by Zhang Jing, 11 
September 03. Responding to a question about his concept of the 
``Tibet'' that should have genuine autonomy, the Dalai Lama responded, 
in part, ``But since I'm asking for a certain right which the 
Constitution of the People's Republic of China provided, within that 
[constitutional right], [I'm asking that] they be joined from small 
pieces, like autonomous regions, autonomous districts, autonomous 
prefectures, like that. So instead of many small, small autonomies, the 
self-administration, actually, as far as work is concerned, or 
effectiveness, is concerned, is more difficult. So a broader 
administration could be more effective.''
    \23\ ``Dalai Lama's Demands Are Obstacle to Talks: China,'' 
Reuters, reprinted in Washington Post (Online), 26 May 06; ``Dalai 
Returning to China--Experts Are Not Optimistic About It,'' Wen Wei Po, 
27 May 06 (Open Source Center, 30 May 06). Wen Wei Po reported the same 
remarks by Lhagpa Phuntsog: ``Dalai's proposal of building a great 
Tibet region and his demand of implementing a high degree of autonomy 
in Tibet are not in accord with the history of Tibet, China's 
Constitution, and the law governing regional national autonomy.''
    \24\ ``Tibet No Longer a Chink in Bilateral Ties: China,'' Indo-
Asian News Service (IANS), reprinted in Phayul (Online), 28 October 05.
    \25\ ``Dalai's Return Based on What He Says and Does,'' Wen Wei Po, 
5 July 06 (Open Source Center, 7 July 06). ``Wu pointed out that at 
present, the Dalai Lama's continual launching of anti-Chinese political 
activities has undermined the peace and stability of Tibet. He [Dalai 
Lama] stated clearly that if he returned, the central government must 
accept two conditions: to build a great Tibet region, and to hold 
democratic elections in Tibet--and that seems to be definitely 
impossible.''
    \26\ Tibetan Government-in-Exile, ``The Middle-Way Approach: A 
Framework for Resolving the Issue of Tibet.'' The Dalai Lama's Middle 
Way Approach calls for ``the creation of a political entity comprising 
the three traditional provinces of Tibet,'' for the political entity to 
``enjoy a status of genuine national regional autonomy,'' and that 
``autonomy should be governed by the popularly-elected legislature and 
executive through a democratic process.''
    \27\ ``Dalai's Return Based on What He Says and Does,'' Wen Wei Po. 
``He added that in recent years under the CPC leadership Tibetans enjoy 
a standard of living just as prosperous as `the blossoming of sesame 
seeds,' and thus they are reluctant to see the Dalai Lama return.''
    \28\ ``Central Government Opens Door to Communicate with Dalai 
Lama: Says Tibetan Autonomous Regional Chairman,'' Xinhua (Online), 14 
March 06. ``For many years, the Chinese central government has made 
great efforts and showed sincerity to help facilitate negotiations, 
Qiangba Punco [Jampa Phuntsog] told Xinhua in an exclusive interview in 
Beijing. But the talks between the two sides have not achieved results. 
The responsibility for this totally rests with the Dalai Lama side for 
their failure to truly recognize the situation, Qiangba Punco said. . . 
. Judging from the communication between the central government and the 
Dalai Lama, it is obvious that although the Dalai Lama has been 
changing his tactics, he has not changed his `Tibet independence' 
stance and his efforts to split the motherland, Qiangba Punco said.''
    \29\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesman Qin Gang's Regular Press Conference on 14 September 2006,'' 
15 September 06; ``China Strongly Opposes U.S. Awarding Congressional 
Gold Medal to Dalai Lama,'' Xinhua, reprinted in People's Daily 
(Online), 15 September 06.
    \30\ The U.S. Senate passed S.2784, the Fourteenth Dalai Lama 
Congressional Gold Medal Act, on May 25, 2006. The U.S. House of 
Representatives passed its companion legislation (H.R.4562) on 
September 13, 2006.
    \31\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's Press Conference on 16 February 2006,'' 16 
February 06.
    \32\ ``China Says No Progress in Talks with Dalai Lama,'' Reuters 
(Online), 6 March 06.
    \33\ Regional Ethnic Autonomy Law [hereinafter REAL], enacted 31 
May 84, amended 28 February 01, Preamble.
    \34\ REAL, art. 7: ``Institutions of self-government in ethnic 
autonomous areas shall place the interests of the state as a whole 
above all else and actively fulfill all tasks assigned by state 
institutions at higher levels.''
    \35\ China's Regional Ethnic Autonomy Law: Does it Protect Minority 
Rights?, Staff Roundtable of the Congressional-Executive Commission on 
China, 11 April 05, Written Statement and Testimony of David L. 
Phillips, Senior Fellow, Council on Foreign Relations. Phillips told 
the roundtable that a study of Tibetan autonomy laws and regulations 
that he co-authored in 2004 considered ``a compilation of 161 laws and 
regulations concerning autonomy arrangements in the ethnic Tibetan 
areas of [the Tibet Autonomous Region, and Sichuan, Qinghai, Gansu, and 
Yunnan provinces].'' Theodore C. Sorenson and David L. Phillips, Legal 
Standards and Autonomy Options for Minorities in China: The Tibetan 
Case (Cambridge, Mass.: Harvard University, Belfer Center for Science 
and International Affairs, 2004), 45. The report lists seven areas of 
concern about the practice of ethnic minority rights of Tibetans in 
China: basic freedoms, access to information, economy, religion, 
education, healthcare, and environment. The report states, 
``Shortcomings in implementation of laws on autonomy and ethnic 
minority rights give rise to the above concerns. Faulty implementation 
[of laws and regulations] negates the value of legislation and erodes 
the rule of law.''
    \36\ Yash Ghai, ``China's Constitution: Which Model of Autonomy for 
Tibet? '' South China Morning Post (Online), 3 March 06. Professor Ghai 
is an honorary professor at the University of Hong Kong. (His remark 
refers to provisions for regional ethnic autonomy under Chapter III, 
Section 6, of the Constitution.)
    \37\ State Council Information Office, White Paper on Regional 
Autonomy for Ethnic Minorities in China, Xinhua (Online), 28 February 
05. The White Paper states in its conclusion, ``The practice of more 
than half a century has proved that the system and practice of China's 
regional ethnic autonomy have been immensely successful. Regional 
ethnic autonomy is a correct solution to the issue of ethnic groups in 
China, and is in keeping with China's actual conditions and the common 
interests of all ethnic groups.''
    \38\ ``CPC Central Committee Politburo Holds Meeting to Look Into 
Further Doing a Good Job in Tibet Work in the New Century and New 
Stage; CPC Central Committee General Secretary Hu Jintao Chairs 
Meeting,'' Xinhua, 26 August 05 (Open Source Center, 26 August 05).
    \39\ The China-Dalai Lama Dialogue: Prospects for Progress, Written 
Statement and Testimony of Sonam Wangdu, Chairman, United States Tibet 
Committee.
    \40\ Ibid.
    \41\ Tibetans living outside of China generally do not face 
imprisonment for peacefully advocating Tibetan independence. The U.S. 
Department of State Bureau of Democracy, Human Rights, and Labor, 
Country Reports on Human Rights Practices--2005, China (includes Tibet, 
Hong Kong, and Macau), however, observes that the Tibetan community in 
Nepal faces restrictions on the freedom of assembly, including a ban on 
celebrating Tibetan Democracy Day. Inside China, Tibetans who 
peacefully advocate Tibetan independence could face imprisonment under 
Article 103 of the Criminal Law, which sets out punishment for persons 
who ``organize, plot or carry out the scheme of splitting the State or 
undermining unity of the country,'' as well as for someone who 
``incites others to split the State or undermine unity of the 
country.''
    \42\ Tibetan Youth Congress (Online), ``About Us,'' site last 
visited 31 August 06. According to the TYC Web site, the TYC is the 
largest and most active Tibetan NGO in exile.
    \43\ Liu Yuxiang and Wu Kun, ``Analysis on Threats of Violent Acts 
of Terror Presently Facing Sichuan Province,'' Policing Studies, No. 2, 
10 February 04 (Open Source Center, 17 May 04). The authors claim that 
TYC members ``have repeatedly engineered violent terrorist activities 
both inside and outside Sichuan, such as bomb attacks, assassinations, 
and arson.''
    \44\ Ibid. In the same article, the authors modify their 
description, saying, ``At present, violent terrorist organizations such 
as the TYC are still at a lower level in general and have not yet 
evolved into a terrorist organization with international leverage.''
    \45\ Chen Fan, ``Lies Do Not Hold Water,'' China's Tibet (Online), 
No. 4, 2005.
    \46\ ``Dalai Lama Rejects Tibetan Buddhist Praise of China,'' 
Reuters (Online), 29 December 05.
    \47\ The China-Dalai Lama Dialogue: Prospects for Progress, Written 
Statement and Testimony of Tseten Wangchuk, senior broadcaster, Voice 
of America, Tibetan language service.
    \48\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth, 15 June 00 (Open Source 
Center, 15 June 00). Li Dezhu (Li Dek Su) addresses the social and 
ethnic implications of the program that Jiang Zemin launched in 1999. 
Li states that the program is intended to ``accelerate economic and 
social development of the western region and the minority nationality 
regions in particular.''
    \49\ Ibid.
    \50\ Ibid. ``In carrying out the strategy of large-scale western 
development, development of the west will be greatly accelerated and 
human talent will flow westward if the country favors the western 
regions in policy and capital. . . . In keeping with the increased 
population flow of the various ethnic groups, there will be some 
changes in the proportions of the nationalities. There will also be 
some conflicts and clashes in their contacts. If this is not handled 
well, it will have a deleterious effect on national unity and social 
stability, and should draw a high level of attention.''
    \51\ REAL, art. 20. ``If a resolution, decision, order or 
instruction of a state organ at a higher level does not suit the actual 
conditions in an ethnic autonomous area, an autonomous agency of the 
area may report for the approval of the state organ at the next higher 
level to either implement it with certain alterations or cease 
implementing it altogether. The next higher level state agency must 
give its decision within sixty days of receiving the report.''
    \52\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem.''
    \53\ State Council, ``Some Suggestions of the State Council on 
Continuing to Press Ahead with the Development of the Western Region,'' 
Xinhua, 22 March 04 (Open Source Center, 29 March 04).
    \54\ ``Law on Western Development in Pipeline,'' China Daily 
(Online), 14 March 06. Vice Minister Wang Jinxiang said the Legislative 
Affairs Office of the State Council was working on the 14th version of 
the bill, and that it will be the first time a law is created for the 
development of a single region. The law is based on the experience of 
the U.S., Japan, Canada, Germany, and France in promoting the 
development of their poor regions, according to the report.
    \55\ ``Masses of All Ethnic Groups in Tibet Hold a Rally to 
Celebrate the 40th Founding Anniversary of the Tibet Autonomous Region; 
Hu Jintao Writes a Congratulatory Inscription; Jia Qinglin Attends and 
Addresses the Rally,'' Xinhua, 1 September 05 (Open Source Center, 4 
September 05).
    \56\ ``A Cadres Meeting Was Held To Mark the 40th Anniversary of 
the Founding of the Tibet Autonomous Region,'' Xinhua, 31 August 05 
(Open Source Center, 7 September 05).
    \57\ Ibid.
    \58\ TibetInfoNet (Online), ``Detentions Before 40th Anniversary of 
TAR,'' 8 September 05. According to the report, details are not 
available about nine of the detainees or the reasons that security 
officials detained them. State Security Bureau ransacked Sonam Gyalpo's 
home on August 28 and found photos of the Dalai Lama, video cassettes 
of the Dalai Lama conducting Buddhist teaching, and other books and 
printed matter.
    \59\ Human Rights Watch (Online), ``Tibet: Monk Spirited Away by 
Security Forces,'' 17 September 05. According to the report, a 
confidential Human Rights Watch source characterized the detention as 
``politically motivated.''
    \60\ TibetInfoNet (Online), ``Detentions Before 40th Anniversary of 
TAR,'' 8 September 05.
    \61\ ``Report on the Outline of The 10th Five-Year Plan for 
National Economic and Social Development by Chinese Premier Zhu Rongji 
at the Opening of the Fourth Session of the Ninth National People's 
Congress at the Great Hall of the People in Beijing,'' China Central 
Television, 5 March 01 (Open Source Center, 5 March 01). Premier Zhu 
said, ``During the Tenth Five-Year Plan period, we need to place 
emphasis on key projects for a good beginning to the program. . . . We 
must focus on a number of major projects of strategic significance, 
such as the transmission of natural gas and electricity from western to 
eastern regions and the planned Qinghai-Tibet Railway.'' State Council 
Office of Western Region Development, ``Implementation Opinions 
Concerning Policies and Measures Pertaining to the Development of the 
Western Region,'' Xinhua, 20 December 01 (Open Source Center, 15 
January 01). ``Resources must be concentrated on the construction of a 
host of major projects that impact the development of the western 
region as a whole, such as the ``West China-East China Gas Pipeline 
Project,'' the ``West China-East China Power Transmission Project,'' 
the Qinghai-Tibet Railway, major state highways, and the proper 
exploitation, conservation, and utilization of water resources.''
    \62\ ``Qinghai-Tibet Railway Ready for Operation on July 1,'' 
Xinhua (Online), 29 June 06. Zhu Zhensheng, the vice director of an 
office managing the railway, said that the railway startup is one year 
ahead of schedule due to ``good construction, environment, and safety 
conditions.'' Guo Aibing, ``Full Steam Ahead for World's Highest 
Railway,'' China Daily (Online), 8 November 01. The article, published 
in the year when railway construction started, reports that completion 
was due in 2007. ``US$660m Poured into Qinghai-Tibet Railway,'' China 
Daily (Online), 1 December 04. The article reports that increased 
funding ``was needed to ensure the rail link could open to the public 
on schedule in 2007.'' ``Tibet Rail Construction Completed,'' China 
Daily (Online), 15 October 05. The article indicated that commercial 
passenger service would begin early in 2007, saying, ``Once signaling 
and track testing is completed in the next 15 months, it will be 
possible to travel from Beijing to Lhasa in 48 hours.''
    \63\ ``Tibetans in Tibet Speak Against Qinghai-Tibet Railway,'' 
Phayul (Online), 29 June 06. A Phayul representative interviewed seven 
recently arrived Tibetan refugees about Tibetan views about the 
railway. They expressed concerns about increased ethnic Han migration, 
the loss of farm of grazing land, natural resource exploitation, and 
adverse effects on the environment and Tibetan culture. ``Tibet Braces 
for Wave of Newcomers as Rail Link Opens,'' Radio Free Asia (Online), 
30 June 06. The article reports the concerns of NGOs based outside of 
China. International Campaign for Tibet (Online), ``Political 
Repression Intensifies as Tibet Railway Opens,'' 30 June 06. The report 
provides information about the railway's construction, and Chinese and 
Tibetan views on the railway's potential impact on Tibetan culture.
    \64\ ``Hu Jintao's Speech at a Rally To Celebrate Putting the 
Qinghai-Tibet Railway Into Service on 1 July 2006,'' Xinhua, 1 July 06 
(Open Source Center, 01 July 06).
    \65\ ``China Arranges First Five Scheduled Trains to Tibet,'' 
Xinhua (Online), 5 May 06. Deputy General Manager Ma Baocheng of the 
Qinghai-Tibet Railway Company announced on May 5, 2006, that the first 
five trains to Lhasa would depart from Beijing, Shanghai, Guangzhou, 
Chengdu, and Xining, and that they were all sold out. ``Tibetan Railway 
Ticket Price Confirmed,'' China Tibet Information Center (Online), 26 
June 06. ``[S]ources from the 8th conference of the leading group for 
Qinghai-Tibet Railway construction'' announced that the scheduled 
railway service would link Lhasa with Beijing, Chengdu, Chongqing, 
Lanzhou, and Xining. The report did not explain why Shanghai and 
Guangzhou departures were not included as part of initial operations.
    \66\ ``Tibetan Legislator Calls Railway `Road to Heaven' for 
Tibetans,'' Xinhua (Online), 6 July 06.
    \67\ ``Tibet's New Railway To Extend to Xigaze Next Year: 
Official,'' Xinhua (Online), 9 August 06. Yu Yungui, a senior official 
in the Rikaze (Shigatse) prefectural government in the TAR, said that 
the 270 kilometer (170 mile) extension is expected to take three years.
    \68\ ``Dalai Lama: Rail Link `Cultural Genocide','' Associated 
Press, reprinted in Washington Post (Online), 12 September 05. 
Referring to the Qinghai-Tibet railway, then under construction, the 
Dalai Lama told reporters in Idaho, ``Some kind of cultural genocide is 
taking place. In general, a railway link is very useful in order to 
develop, but not when politically motivated to bring about demographic 
change.'' ``China Opens World's Highest Railway to Tibet,'' Agence 
France-Presse, reprinted in Yahoo! (Online), 1 July 06. Thupten 
Samphel, a spokesman for the Tibetan government-in-exile indicated that 
the Dalai Lama conditionally supports the railway. Samphel told 
reporters, ``If there is no political motivation and no hidden 
political agenda, the railway will be good for Tibet. This is why his 
holiness the Dalai Lama has declared his support for the project.''
    \69\ ``People Should Have a More Worldly Eye on Tibet Railway,'' 
Xinhua (Online), 1 July 06.
    \70\ ``Railway Makes Room for Tibetan Culture: Experts,'' Xinhua 
(Online), 1 July 06.
    \71\ ``Tibet Tourism Impact Fears Rejected,'' South China Morning 
Post (Online), 6 July 06. In addition to naming Wu Yingjie as the Vice 
Chairman of the TAR government, the article describes Wu as the 
region's ``propaganda chief.''
    \72\ ``Railway Won't Bring Influx of Settlers to Tibet: Official,'' 
Xinhua (Online), 12 July 06.
    \73\ Tabulation on China's Nationality: Data of 1990 Population 
Census, Department of Population Statistics of State Statistical Bureau 
and Economic Department of State Nationalities Affairs Commission 
(Beijing: China Statistical Press, May 1994), Table 2-1. Tabulation on 
Nationalities of 2000 Population Census of China, Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics, and Department of Economic Development, State Ethnic 
Affairs Commission (Beijing: Ethnic Publishing House, September 2003), 
Table 10-1. According to census data, Han population in the TAR 
increased from 80,837 in 1990, to 158,570. Bureau of Human Rights, 
Democracy, and Labor, U.S. Department of State, Country Reports on 
Human Rights Practices--2005, China (includes Tibet, Hong Kong, and 
Macau), 8 March 06. According to the report, the Chinese 2000 census 
does not provide a complete count of ethnic Han in the TAR: ``However, 
TAR census figures did not include a large number of long-term Han 
residents, such as cadres, skilled workers, unskilled laborers, 
military and paramilitary troops, and their dependents.''
    \74\ ``Qinghai-Tibet Railroad No Harm to Environment,'' China Daily 
(Online), 06 July 06.
    \75\ ``Qinghai-Tibet Railway to Transport 4,000 More Tourists Each 
Day,'' Xinhua (Online), 21 May 06.
    \76\ ``Qinghai-Tibet Railway to Bring More Visitors to Tibet,'' 
China News Service (Online), 22 May 06.
    \77\ Cao Deshung, ``Tibet Rail Construction Completed,'' China 
Daily (Online), 15 October 05.
    \78\ ``Frozen Soil Thawing Faster, Endangering Qinghai-Tibet 
Railway,'' Xinhua (Online), 5 February 06.
    \79\ ``Experts at the Chinese Academy of Sciences Are Concerned 
That Disaster Could Strike Ten Years from Now'' [Dongtu tui rong jiang 
weixie qing zang tielu anquan], Beijing News (Online), 22 January 06.
    \80\ ``Frozen Soil Thawing Faster, Endangering Qinghai-Tibet 
Railway,'' Xinhua.
    \81\ ``New Height of World's Railway Born in Tibet,'' Xinhua 
(Online), 24 August 05: ``About 550 kilometers of the railway runs on 
frozen earth.''
    \82\ ``Conference Opens on Judicial Response to Opening of Qinghai-
Tibet Railroad,'' China Court Net (Online), 16 June 06.
    \83\ Under the Criminal Law, acts of sabotage against trains and 
railways are crimes under Articles 116, 117, and 119, and gathering 
crowds to disturb order at railway stations, along railway lines, or to 
harm or obstruct business operation are crimes under Articles 290 and 
291.
    \84\ ``Conference Opens on Judicial Response to Opening of Qinghai-
Tibet Railroad,'' China Court Net (Online).
    \85\ Ibid.
    \86\ PRC State Council, ``Some Suggestions of the State Council on 
Continuing To Press Ahead with the Development of the Western Region.'' 
The paper states that the success of GWD depends on sending a 
substantial number of personnel to live and work in the western region: 
``The key to the great development of the West is qualified personnel, 
especially leading cadres and high-level professionals. . . . Each year 
we should select a fairly large number of cadres at the appropriate 
levels and send them to the Western region to work among leading groups 
above the county level. . . . We need to establish a system that 
regularly sends scientific, technical, educational, public health, and 
cultural personnel and other professionals to the Western region to 
support work in the rural areas.'' The paper advises that the 
government must establish ``regional economic growth nodes'' that will 
``promote the development of an entire area.''
    \87\ ``Tibet Rail Construction Completed,'' China Daily (Online), 
15 October 05. ``The gigantic project, which involves an investment of 
33 billion yuan (US$4.7 billion), is part of the nation's efforts to 
build up the underdeveloped western regions. . . . The line is expected 
to attract tourists, traders and ethnic Chinese settlers who currently 
have to take either expensive flights to Lhasa or bone-shaking bus 
rides.''
    \88\ Provisions of the State Council for Implementing the Law on 
Regional Ethnic Autonomy of the People's Republic of China, issued 11 
May 05, art. 29.
    \89\ Ibid.
    \90\ ``Responsible Comrades from the Organization Department of the 
CPC Central Committee, the Ministry of Personnel, and the Ministry of 
Education Answer Reporter's Questions on Guiding and Encouraging 
Graduates of Schools of Higher Learning To Seek Employment in Grass-
Roots Areas,'' Xinhua, 13 July 05 (Open Source Center, 22 July 05). 
``While continuing to carry out the `plan for encouraging university 
students to serve the western region voluntarily,' the `Opinions' have 
clearly demanded that in the next five years starting from 2005, a 
certain number of graduates of schools of higher learning will be 
recruited every year and organized to carry out the work of supporting 
education, supporting agriculture, supporting medical care, and 
assisting the poor in towns and townships. After serving for two to 
three years, they will be assisted by relevant departments to 
independently choose their career in the market.'' (``Opinions on 
Guiding and Encouraging Graduates of Schools of Higher Learning to Seek 
Employment in Grassroots Areas'' explains that the government will not 
rely solely on volunteers, but will recruit graduates to work in the 
GWD region.)
    \91\ Ibid.
    \92\ Tabulation on China's Nationality: Data of 1990 Population 
Census, Table 2-1. Tabulation on Nationalities of 2000 Population 
Census of China, Table 10-1. According to census data, Han population 
decreased in 10 areas of Tibetan autonomy (listed in order of size of 
decrease): Guoluo prefecture (Qinghai), -25.0 percent; Hainan 
prefecture (Qinghai), -22.7 percent; Haibei prefecture (Qinghai), -20.2 
percent; Huangnan prefecture (Qinghai), -19.2 percent; Yushu prefecture 
(Qinghai), -16.9 percent; Muli county (Sichuan), -16.1 percent; Aba 
prefecture (Sichuan), -14.3 percent; Haixi prefecture (Qinghai), -9.0 
percent; Ganzi prefecture (Sichuan), -7.9 percent; Tianzhu county 
(Gansu), -0.9 percent.
    \93\ Census day was July 1 in 1990, and November 1 in 2000. The 
population of transient Han workers and vendors in Tibetan areas peaks 
during summer and is declining by November, undermining the reliability 
of direct comparison of 1990 and 2000 data.
    \94\ The national census uses a method of enumeration that attempts 
to record more of the population as present in the locations where they 
actually are, rather than at the location recorded on their permanent 
residence registration certificates. Provincial annual statistical 
yearbooks instead rely on data compiled by the Public Security Bureau 
(PSB).
    \95\ Tabulation on Nationalities of 2000 Population Census of 
China, Table 10-1.
    \96\ Tibet Statistical Yearbook 2005 (Beijing: China Statistics 
Press, 2005), Table 3-4, ``Population Nationality,'' 33. The Yearbook 
reports that there were 93,306 Han in the TAR in 2004, the most recent 
year for which data were reported. The figure is substantially lower 
than the number of Han reported in the TAR by the 2000 census.
    \97\ Ma Rong (Professor and Chair, Department of Sociology, Peking 
University) and Tanzen Lhundup (Research Fellow and Vice Director, 
Institute of Social Economic Development, Chinese Center for 
Tibetological Studies), ``Temporary Migrants in Lhasa in 2005,'' 
unpublished conference paper, Section IV(4.5). The authors surveyed 
1,470 migrants: 68.1 percent of them had arrived in Lhasa in the period 
2000-2005, and 72.5 percent of them had been in Lhasa for more than one 
year. Ibid., Section IV(4.6). Of the 1,470 migrants, the Tibetan total 
is 235 and the Hui total is 163. (The paper does not state a total 
number of Han migrants surveyed.) Ibid., Section IV(4.8). Education 
levels are known for 965 Han migrants. (The paper provides ethnicity 
for 1,363 of the 1,470 migrants. Because none of the remaining 107 
migrants are Tibetan or Hui, it is likely that most of them are Han.)
    \98\ Ibid., Section IV(4.1). 11,185 temporary migrants applied for 
a ``Temporary Residence Certificate'' in 2000. In 2005, 52,812 migrants 
registered with the Lhasa Urban District PSB, while [migrants] renting 
apartments numbered 69,924. ``It is clear that a large number of 
temporary migrants did not apply for a ``certificate'' or report their 
``renting'' activities. The real number [of migrants] is much larger.'' 
The Lhasa PSB estimated that the number of temporary migrants in Lhasa 
varied between 100,000 and 200,000, according to the paper.
    \99\ Ibid., Section IV(4.1).
    \100\ See CECC, 2005 Annual Report, 11 October 05, Section VI--
Tibet--Culture, Development, and Demography, for more information about 
Tibetan educational levels.
    \101\ Tabulation on Nationalities of 2000 Population Census of 
China, Table 2-3. Based on 2000 census data for persons aged 15 and 
over, the rate of illiteracy of Tibetans (47.55 percent) is 5.24 times 
higher than China's national average (9.08 percent), and 5.53 times 
higher than the rate of illiteracy for Han (8.60 percent). Tabulation 
on the 2000 Population Census of the People's Republic of China 
(Beijing: China Statistics Press, August 2002), Table 2-2. Based on 
2000 census data, of 1,061,196,336 Han aged six and over, 93,677,240 
(8.83 percent) reached senior middle school. Of 4,791,241 Tibetans aged 
six and over, 81,366 (1.70 percent) reached senior middle school. Based 
on the data, Han reached senior middle school at 5.19 times the rate of 
Tibetans.
    \102\ Ma Rong and Tanzen Lhundup, ``Temporary Migrants in Lhasa in 
2005,'' Section IV(4.8), Table 14.
    \103\ Ibid., Section IV(4.8), Table 14.
    \104\ Ibid. The survey sample included 1,470 temporary migrants. 
Table 14 provides data on educational level and ethnicity for 1,373 
participants: 965 Han, 235 Tibetan, 146 Hui, and 27 other. In section 
4.6, ``Religion and Political Status of Temporary Migrants,'' the 
report states that 235 Tibetans and 163 Hui were included in the 
survey. (The paper does not state a total number of Han surveyed. It is 
likely that many of the 97 participants not accounted for in Table 14 
are Han since the report specifies the total number of Tibetan and 
Hui.)
    \105\ The disparity between urban and rural education that 
adversely affects rural Tibetans is consistent with a nationwide 
problem in China. Levels of Tibetan educational attainment in cities, 
towns, and rural areas are, however, lower than national averages. See 
CECC, 2005 Annual Report, 11 October 05, Section VI--Tibet--Culture, 
Development, and Demography, for more information about Tibetan 
educational levels.
    \106\ Tabulation on Nationalities of 2000 Population Census of 
China. Table 2-1a shows that 8,845 of 137,545 TAR Tibetans aged six and 
over, and classified as ``city'' residents, reached senior middle 
school as their highest level of educational attainment; Table 2-1b 
shows that 5,400 of 211,990 TAR Tibetans aged six and over, and 
classified as ``town'' residents, reached senior middle school; Table 
2-1c shows that 5,999 of 1,808,859 TAR Tibetans aged six and over, and 
classified as ``rural'' residents, reached senior middle school. Based 
on these figures, 14,245 of the 349,535 Tibetans (4 percent) aged six 
and over who were residents of towns and cities reached senior middle 
school, compared to 5,999 of the 1,808,859 Tibetans (0.33 percent) aged 
six and over who were rural residents.
    \107\ Ibid. Based on the data in Tables 2-1a, 2-1b, and 2-1c, there 
were 5.18 times as many rural Tibetans aged six and over as there were 
town and city Tibetans.
    \108\ ``Milestone in Tibet's Reform, Development, and Stability,'' 
People's Daily, 19 July 01 (Open Source Center, 19 July 01).
    \109\ ``Tibetans Report Income Rises,'' Xinhua, 31 January 06 (Open 
Source Center, 31 January 06).
    \110\ ``A Cadres Meeting Was Held To Mark the 40th Anniversary of 
the Founding of the Tibet Autonomous Region,'' Xinhua, 31 August 05 
(Open Source Center, 7 September 05). Jia Qinglin listed priorities for 
the TAR that include improving income and living conditions for farmers 
and herdsmen, and improving education and healthcare for all TAR 
residents. ``Tibet to Improve Rural School Conditions,'' China Radio 
International (Online), 4 May 03.
    \111\ ``More Nomadic Tibetan Herders Settle Down,'' Xinhua 
(Online), 2 September 04. The program was one of the ``numerous key 
aiding-Tibet projects'' established by the Fourth Forum on Work in 
Tibet, held by the Communist Party Central Committee in June 2001 in 
Beijing.
    \112\ Hamish McDonald, ``China Anxious To Prove Settled Life is 
Better for Tibetan Nomads,'' Sydney Morning Herald (Online), 5 October 
05. ``A Qinghai official, Wang Zeshan, said about 10,000 nomadic 
households--or about 60,000 people--Mongols and Kazaks as well as 
Tibetans, had been settled in this way, which he said was 89.2 percent 
of the nomad population before the scheme started three years ago.''
    \113\ CECC Staff Interviews. The nomad families lived in Gannan 
(Kanlho) TAP and Tianzhu (Pari) Tibetan Autonomous County.
    \114\ Development Projects in Tibetan Areas of China: Articulating 
Clear Goals and Achieving Sustainable Results, Staff Roundtable of the 
Congressional-Executive Commission on China, 19 March 04, Testimony of 
Daniel J. Miller, Agriculture Development Office, U.S. Agency for 
International Development, 3. Miller pointed out, for example, that in 
the past 20 years, the government had achieved agricultural and rural 
growth, reduced poverty, and addressed environmental and natural 
resource degradation issues.
    \115\ Ibid., 3. Miller noted the transformation that has taken 
place because of nomad settlement, privatization and fencing of 
rangelands, and infrastructure development. But, according to Miller: 
``Government development programs have generally taken a top-down 
approach and, despite many of their good intentions, have often been 
hampered because Tibetan farmers and nomads were not involved in both 
the design and implementation of activities. Many of the government's 
efforts have also been not as effective because of faulty assumptions 
that have been made about poverty and Tibetans' traditional 
agricultural and livestock production practices.''
    \116\ CECC Annual Reports for 2002-2005 provided the number of 
Tibetan political prisoners detained or imprisoned, according to then-
current information: 2002 (fewer than 200 prisoners); 2003 
(approximately 150 prisoners); 2004 (approximately 145 prisoners); 2005 
(approximately 120 prisoners). Data for 2002-2004 are based on Tibet 
Information Network (TIN) reports. Data for 2005 was drawn from the 
CECC Political Prisoner Database (PPD).
    \117\ Steven D. Marshall, In the Interests of the State: Hostile 
Elements III--Political Imprisonment in Tibet 1987-2001 (London: Tibet 
Information Network, 2002), 3. There were nearly 700 known or likely 
Tibetan political prisoners by the end of 1995.
    \118\ See CECC, 2005 Annual Report, 11 October 05, Section VI--
Tibet--Tibetan Culture and Human Rights, for discussion of how Tibetans 
use of literature to lament cultural loss and advocate ethnic 
ambitions.
    \119\ Tibetan Government-in-Exile (Online), ``Education Will Help 
Tibetans to Fight for Their Rights,'' 17 January 06. An estimated 
90,000 persons attended the January 5-15 Kalachakra teaching. About 
9,000 attendees were Tibetans who traveled from Tibetan areas of China.
    \120\ Wildlife Trust of India (Online), ``Tibetans at Kalachakra 
Vow for Wildlife Protection,'' 17 January 06.
    \121\ TibetInfoNet (Online), ``Tibetans Burn Animal Skins in 
Rebkong,'' 10 February 06. The report provides information about 
burning fur at Rongbo Monastery in Tongren (Rebgong), the capital of 
Huangnan (Malho) TAP in Qinghai province, and the role of the 
organizer, Tseten Gyal. The incident was apparently the first of its 
kind. ``Tibetans Swear Off Endangered Furs After Dalai Lama Appeal,'' 
Radio Free Asia (Online), 13 February 06. The article provides 
additional detail about the incident organized by Tseten Gyal in 
Tongren (Rebgong). TibetInfoNet (Online), ``Burning of Wildlife Skins 
Prohibited as Tensions Rise in Rebkong,'' 14 February 06. According to 
the report, local authorities in Tongren banned fur-burning and the 
``situation'' in the area was ``tense.'' ``Tibetan Youths Detained Over 
Anti-Fur Campaign,'' Radio Free Asia (Online), 21 February 06. The 
article reports on organized fur-burning in Aba (Ngaba) and Ruo'ergai 
(Dzoege) counties in Aba Tibetan and Qiang Autonomous Prefecture, 
Sichuan province. TibetInfoNet (Online), ``Accounts of Wildlife Skins 
Burning,'' 17 March 06. The report provides details of fur-burning in 
Aba and Ruo'ergai (Dzoege) counties in Aba prefecture, Sichuan 
province. TibetInfoNet (Online), ``Fur Burning Incidents in Gansu,'' 29 
March 06. The report provides a detailed account of fur-burning in 
Hezuo (Tsoe), the capital of Gannan (Kanlho) TAP in Gansu.
    \122\ ``Tibetans Swear Off Endangered Furs After Dalai Lama 
Appeal,'' Radio Free Asia. According to the report, a source told RFA, 
``Soon after [fur-burning activity on February 8] national security 
officials and local public security officials confronted [Tseten Gyal] 
and demonstrated their dislike. That very night he was taken to the 
public security bureau office and interrogated for a long time.'' 
Officers asked him repeatedly if he had any ``political motives'' for 
the campaign, according to the report. (The account provides further 
information establishing that Tseten Gyal was released.) ``Tibetan 
Youths Detained Over Anti-Fur Campaign,'' Radio Free Asia. The article 
reports the detention of eight men in February who organized fur-
burning at Kirti Monastery in Aba county. Authorities interrogated the 
men, but none of them were ``punished or beaten,'' according to the 
account, and the men denied that the fur-burning was done ``under 
outside influence'' (a term Chinese officials often use to refer to the 
Dalai Lama). Authorities permitted relatives to visit the detainees. 
(According to subsequent, unpublished information, all of them were 
released after an unspecified period of time.)
    \123\ TibetInfoNet (Online), ``Fur Burning Incidents in Gansu,'' 29 
March 06. (The event took place in Gannan TAP.) According to the 
report, the organizers, some of whom were local government staff, 
initially planned to conduct the event on March 10. The date coincides 
with the anniversary of the 1959 Lhasa Uprising, and the organizers 
were concerned that a public gathering that day would be ``politically 
sensitive'' and a ``potential deterrent'' to attendees. They 
rescheduled it for March 14, a date coinciding with a Tibetan Buddhist 
festival on which Tibetans customarily make offerings at monasteries. 
The organizers staged the event at Kharguthog Monastery in Hezuo (the 
capital of Gannan TAP) because they thought the monastic site would be 
less likely to embarrass the authorities.
    \124\ Ibid. According to the TibetInfoNet report, ``While the furs 
were burning, some people were seen chanting prayers for the Dalai 
Lama, while others shot videos and stills of the scene with the express 
intention of letting the outside world know about the event. The 
general consensus in Tsoe is that the main purpose of the event was to 
please the Dalai Lama, and people asked that reports about the event be 
communicated to him.''
    \125\ Ibid.
    \126\ According to PPD data current in August 2006, there were 59 
known cases of political imprisonment of Tibetans in Sichuan province 
in 2001-2004 compared to 46 in the TAR. One case of Tibetan political 
imprisonment is recorded in Sichuan in 2000.
    \127\ Free Tibet Campaign (Online), ``Four Monks and Nuns Arrested 
for Displaying Dalai Lama Poster,'' 30 January 06. According to the 
report, the posters ``called for the independence of Tibet, for the 
Chinese authorities to enter into negotiations, and reportedly said 
that China should not host the 2008 Olympics until the Tibet question 
is peacefully resolved.'' Security officials detained the monks and 
nuns in May 2005.
    \128\ On September 27, 1987, 21 monks from Drepung Monastery staged 
a peaceful protest march in Lhasa, calling for Tibetan freedom. 
Security officials detained all of them. It was the first Tibetan 
political protest in China in the post-Cultural Revolution period that 
was internationally reported. A few days earlier, on September 21, the 
Dalai Lama introduced his Five Point Peace Plan in a speech before the 
U.S. Congressional Human Rights Caucus in Washington, D.C. Reports at 
the time did not portray the September 27 political protest in Lhasa to 
be a consequence of the Dalai Lama's address in Washington. According 
to a report (``Fall of a Nation'') available on the Web site of the 
Tibetan government-in-exile, Chinese authorities in Lhasa began an 
anti-Dalai Lama campaign after he spoke to the Congress, and staged 
mass political rallies and a public sentencing that caused widespread 
resentment among Tibetans.
    \129\ The Dui Hua Foundation (Online), ``Dui Hua Welcomes Phuntsog 
Nyidron's Arrival in the United States,'' 15 March 06.
    \130\ According to information available in the CECC PPD, Phuntsog 
Nyidron, a nun at Mechungri Nunnery, was detained on October 14, 1989 
and sentenced to nine years' imprisonment for ``counterrevolutionary 
propaganda and incitement'' the following November. In September 1993, 
she was convicted along with 13 other nuns for committing additional 
counterrevolutionary crime and sentenced to an additional eight years 
after the nuns secretly recorded songs on a cassette tape that was 
smuggled out of the prison. She received a one-year sentence reduction 
for good behavior in March 2001. The remainder of her sentence was 
commuted on February 26, 2004 and she was released from prison.
    \131\ Lhasa Municipal Intermediate People's Court, Criminal Court 
Judgment, No. 52 (2000). Bangri Chogtrul (also known as Bangri Tsamtrul 
or Jigme Tenzin Nyima) was sentenced to life imprisonment on September 
26, 2000, on charges of ``attempting to split the country.''
    \132\ The Dui Hua Foundation (Online), ``Clemency Granted to 
Tibetan Monk, Labor Activist,'' 28 February 06. The Lhasa Intermediate 
People's Court commuted Bangri Chogtrul's sentence from life 
imprisonment to 19 years on July 31, 2003, and further reduced the 
sentence by 1 year on November 17, 2005. His 18-year sentence will 
expire on July 30, 2021.
    \133\ The Dui Hua Foundation (Online), ``Last Known Female 
Political Prisoner in TAR Released Early,'' 28 June 06.
    \134\ UN Commission on Human Rights (Online), ``Report of the 
Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Manfred Nowak: Mission to China,'' 10 March 06 
[hereinafter Nowak Report]. ``The Special Rapporteur was informed that 
Qushui prison is for very serious crimes (i.e. sentences of over 15 
years), and holds the principal criminal actors while accessories are 
held in Drapchi.'' PRC Criminal Law, art. 25. ``A joint crime refers to 
an intentional crime committed by two or more persons jointly.'' PRC 
Criminal Law, art. 26. ``A principal criminal refers to any person who 
organizes and leads a criminal group in carrying out criminal 
activities or plays a principal role in a joint crime.''
    \135\ International Campaign for Tibet, ``New Prison in Lhasa: 
Increased Surveillance for Political Prisoners, `Oppressive' Cell-
blocks,'' 20 January 06. According to the ICT report, ``at least 25 
political prisoners'' were transferred from TAR Prison (Drapchi) to 
Qushui Prison in summer 2005. The figure concurs with CECC staff 
analysis of likely transferees.
    \136\ CECC, Annual Report 2005, 112. Jigme Gyatso was sentenced in 
1996 to 15 years' imprisonment for counterrevolution. Chinese officials 
told a UN Working Group on Arbitrary Detention (UNWGAD) delegation in 
September 2004 that he was guilty of ``planning to found an illegal 
organization and seeking to divide the country and damage its unity.'' 
Another UNWGAD opinion on the case found that ``there is nothing to 
indicate that the `illegal organization' . . . ever advocated violence, 
war, national, racial, or religious hatred, and that Jigme Gyatso was 
``merely exercising the right to freedom of peaceful assembly with 
others in order to express opinions.''
    \137\ Tibetans often add the honorific ``Rinpoche'' after Bangri 
Tsogtrul's name, signifying his status as a reincarnated lama.
    \138\ According to information available in the CECC PPD, monk 
Lobsang Tsultrim of Drongsar Monastery was one of three monks detained 
in 1995 for removing signboards on a government office building and 
damaging them, and putting up posters opposing China's rule of Tibet 
and supporting the legitimacy of the boy the Dalai Lama recognized as 
the Panchen Lama. The Changdu Intermediate People's Court sentenced the 
monks to imprisonment on charges of inciting counterrevolutionary 
propaganda.
    \139\ Nowak Report. ``In one incident in March 2004, [Jigme Gyatso] 
yelled out, `Long live the Dalai Lama,' for which he was kicked and 
beaten, including with electric batons. The electric batons were used 
on his back and chest with painful effect, and ceased once the Chief of 
Police came and stopped it. After this incident his sentence was 
extended for an additional two years.''
    \140\ Ibid. According to the prisoner interviews, Qushui Prison's 
cells are hotter in summer and colder in winter than those in TAR 
Prison, and are poorly lit and ventilated.

    Notes to Section IX--North Korean Refugees in China
    \1\ Bill Powell, ``Long Walk to Freedom,'' Time Magazine (Online), 
23 April 06; U.S. Committee for Refugees and Immigrants (Online), 
``World Refugee Survey 2006,'' China section, 14 June 06. In August 
2005, Chinese authorities detained seven North Koreans seeking asylum 
in a South Korean international school in Yantai and repatriated them 
in September. For the two years before the incident, North Korean 
refugees had been largely successful in seeking asylum on international 
school grounds in China. Park Song-wu, ``China Hands Over 8 NK 
Refugees,'' Korea Times (Online), 11 October 05; ``China Changes Tack 
on Asylum,'' Seoul JoongAng Daily (Online), 11 October 05.
    \2\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06. More than one-third 
of the 65 North Korean refugees in Yanbian interviewed by Refugees 
International in 2003 and 2004 had been repatriated at least once, and 
14 percent had been repatriated multiple times. Joel Charny, ``Acts of 
Betrayal: The Challenge of Protecting North Koreans in China,'' 
Refugees International, April 2005, 11.
    \3\ Life Funds for North Korean Refugees (Online), ``Mother of 5-
year-old Repatriated to North Korea,'' 1 March 06; Joel Charny, ``North 
Korean Asylum Seekers in China Face Heightened Risk of Deportation,'' 
Refugees International (Online), 27 August 04. In June 2004, public 
notices posted throughout Yanji asked residents to be on the lookout 
for illegal North Korean migrants and to turn in any to local police 
for deportation. Charny, ``Acts of Betrayal,'' 9.
    \4\ Convention relating to the Status of Refugees, 28 July 51 by 
the United Nations Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33. China acceded to the 
Convention on September 24, 1982.
    \5\ Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Area, Rescue the North Korean 
People Urgent Action Network (RENK), 12 August 86. The protocol commits 
each side to treat as illegal those border crossers who do not have 
certificates, except in cases of ``calamity or unavoidable factors.'' 
According to James Seymour, RENK obtained and translated the document 
in December 2002. Seymour writes that ``this document cannot be 
authenticated, but it does not seem implausible.'' James Seymour, 
``China: Background Paper on the Situation of North Koreans in China,'' 
commissioned by the UNHCR, Protection Information Section, January 
2005, 13.
    \6\ Seymour, ``China: Background Paper on the Situation of North 
Koreans in China,'' 5.
    \7\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Qin Gang's March 21, 2006 Press Conference'' [2006 nian 3 
yue 21 ri waijiaobu fayanren Qin Gang zai liexing jizhehui shang da 
jizhe wen], 21 March 06. The UNHCR distinguishes between refugees and 
economic migrants by defining the latter as someone who ``leaves a 
country voluntarily to seek a better life. Should he or she elect to 
return home they would continue to receive the protection of their 
government.'' UNHCR, ``The 1951 Refugee Convention: Questions & 
Answers,'' July 2003, 10.
    \8\ Convention relating to the Status of Refugees, art. 1.
    \9\ The UN Special Rapporteur on Human Rights in North Korea, 
``Question of the Violation of Human Rights and Fundamental Freedom in 
any Part of the World: Situation of Human Rights in the Democratic 
People's Republic of Korea,'' 10 January 05, 13.
    \10\ DPRK Penal Code, amended 2004, arts. 233, 62. For an English 
translation of the quoted sections of these articles, see Norma Kang 
Muico, ``An Absence of Choice: The Sexual Exploitation of North Korean 
Women in China,'' Anti-Slavery International, 9 November 05, 2. 
Sometime during and after the 1995-1998 famine, the North Korean 
government began to distinguish between repatriated North Koreans who 
sought political refugee status in China and those who simply crossed 
the border in search of food or employment. The government seems to 
have reduced the standard sentence for those in the latter category to 
less than six months. Charny, ``Acts of Betrayal,'' 12.
    \11\ Liberty in North Korea (Online), ``LiNK Team Returns From 
China,'' 6 December 05.
    \12\ Charny, ``Acts of Betrayal,'' 2.
    \13\ Combating Human Trafficking in China: Domestic and 
International Efforts, Hearing of the Congressional-Executive 
Commission on China, 6 March 06, Testimony and Written Statement 
Submitted by Abraham Lee, Director of Public Relations, Crossing 
Borders; Muico, ``An Absence of Choice,'' 10.
    \14\ Muico, ``An Absence of Choice,'' 12.
    \15\ North Korea: Human Rights Update and International Abduction 
Issues, Joint Hearing of the Subcommittee on Africa, Global Human 
Rights and International Operations and Subcommittee on Asia and the 
Pacific, Committee on International Relations, U.S. House of 
Representatives, 27 April 06, Testimony and Written Statement Submitted 
by Jay Lefkowitz, Special Envoy for Human Rights in North Korea, U.S. 
Department of State.
    \16\ Joel Charny points out that although the most common estimate 
of North Koreans in China is 100,000 to 300,000, the estimate is 
``problematic'' given the lack of publicly available data and the fact 
that many North Koreans in China move back and forth across the border 
seeking temporary employment rather than political asylum. Charny, 
``Acts of Betrayal,'' 5.
    \17\ Mikyoung Kim, ``Beijing's Hot Potato: North Korean Refugees 
and Human Rights Debates,'' Association for Asian Research (Online), 16 
March 05.
    \18\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, 2006 Trafficking in Persons Report, 5 June 06.
    \19\ Combating Human Trafficking in China, Written Statement and 
Testimony of Wenchi Yu Perkins, Director, Anti-Trafficking and Human 
Rights Program, Vital Voices, Written Statement and Testimony of 
Abraham Lee.
    \20\ Ibid.; Life Funds for North Korean Refugees (Online), ``Speech 
to Joint Session of NGOs and Lawmakers of 4 Nations,'' 1 Aug 05. 
According to Norma Kang Muico, ``[t]raffickers seek out North Korean 
women to exploit at river crossings, train stations, or markets.'' 
Muico, ``An Absence of Choice,'' 3. In addition to the high number of 
trafficked North Korean women in China, many women are trafficked 
multiple times, escaping only to be caught again. Combating Human 
Trafficking in China, Written Statement and Testimony of Abraham Lee.
    \21\ Muico, ``An Absence of Choice,'' 3, 5, 6. Traffickers rely on 
deception and coercion to force North Korean women into marriage or 
prostitution. Combating Human Trafficking in China, Written Statement 
and Testimony of Abraham Lee. There is a considerable market for wives 
in the Yanbian Autonomous Region, where the male-female ratio among the 
unmarried age group after schooling is 14:1. Charny, ``Acts of 
Betrayal,'' 11.
    \22\ Most of these children do not have access to education because 
they are not Chinese citizens. The Chinese government does not 
recognize Chinese-North Korean marriages and does not grant citizenship 
to children born from these marriages. Charny, ``Acts of Betrayal,'' 
11; Life Funds for North Korean Refugees (Online), ``Border Report 
January 2006,'' January 2006.
    \23\ Life Funds for North Korean Refugees (Online), ``Interview 
with Our Local Staff Members in China,'' January 2006.
    \24\ ``State Councilor: China To Continue Strengthening Cooperation 
With UNHCR,'' People's Daily (Online), 23 March 06.
    \25\ ``Foreign Ministry Spokesperson Qin Gang's March 21, 2006 
Press Conference.''
    \26\ ``The State Council's Legislative Plan for 2006'' [Guowuyuan 
2006 nian lifa jihua], Eastday (Online), 30 March 06.
    \27\ UNHCR (Online), ``Statement to Media by UN High Commissioner 
for Refugees Antonio Guterres, on Conclusion of His Mission to the 
People's Republic of China,'' 23 March 06.
    \28\ Article III(5) United Nations (United Nations High 
Commissioner for Refugees) and China, Agreement on the Upgrading of the 
UNHCR Mission in the People's Republic of China to UNHCR Office in the 
People's Republic of China, UNTS Vol. 1898/1899, I-3237, 1 December 95, 
61-71. Excerpted text available at: North Korea: Human Rights, 
Refugees, and Humanitarian Challenges, Hearing of the Subcommittee on 
Asia and the Pacific, Committee on International Relations, U.S. House 
of Representatives, 28 April 04, Written Statement Submitted by Tarik 
M. Radwan, Assistant Professor of Law, Handong International Law 
School, Pohang, Korea, and Advocate with Jubilee Campaign.
    \29\ Bureau of Population, Refugees, and Migration, U.S. Department 
of State, The Status of North Korean Asylum Seekers and the U.S. 
Government Policy Towards Them, 11 March 05.
    \30\ Benjamin Kang Lim, ``Women Most Vulnerable of North Korean 
Refugees,'' Reuters, posted on the Crossing Borders Web site, 27 July 
05.
    \31\ White House (Online), ``Statement on China's Treatment of Kim 
Chun-hee,'' 30 March 06; ``High Commissioner for Refugees Visits China, 
Objects to North Korean Repatriation,'' CECC China Human Rights and 
Rule of Law Update, May 2006, 2-3.
    \32\ ``The Lucky Ones,'' Wall Street Journal (Online), 4 August 06. 
In 2005, the Chinese government allowed several hundred North Koreans 
to travel to South Korea after they had sought refuge at diplomatic 
compounds or international schools in China. Nevertheless, most North 
Koreans hiding in China who wish to seek asylum have to travel to a 
third country to seek asylum or resettlement as refugees. In May 2006, 
six refugees arrived in the United States as the first North Koreans to 
be granted asylum under the North Korean Human Rights Act of 2004. The 
six North Koreans had traveled secretly through China to a Southeast 
Asian country to seek refuge in a U.S. Embassy. U.S. Department of 
State, Country Reports on Human Rights Practices--2005, China; Melanie 
Kirkpatrick, ``The New Underground Railroad,'' Wall Street Journal 
(Online), 12 May 06.
    \33\ The Plight of North Korean Migrants in China: A Current 
Assessment, Staff Roundtable of the Congressional-Executive Commission 
on China, 19 April 04, Written Statement Submitted by Kim Sang Hun, 
activist on behalf of North Korean refugees.
    \34\ David Chircop, ``Everett Pastor Out of Chinese Prison,'' 
Everett Daily Herald (Online), 21 Aug 06.
    \35\ David Chircop, ``Everett Missionary Hopes to Shine a Light on 
China,'' Everett Daily Herald (Online), 23 Aug 06.
    \36\ ``Fifteen South Koreans Detained in China for Aiding N.K. 
Defectors,'' Yonhap News (Online), 23 September 05.
    \37\ U.S. Committee for Refugees and Immigrants, ``World Refugee 
Survey 2006.''
    \38\ Life Funds for North Korean Refugees, ``Speech to Joint 
Session of NGOs and Lawmakers of 4 Nations.''

    Notes to Section X--Developments in Hong Kong
    \1\ United States-Hong Kong Policy Act of 1992, Public Law No. 102-
383, enacted 4 April 90; The Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China, enacted 4 
April 90; Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted 19 December 84.
    \2\ CECC, 2005 Annual Report, 11 October 05, 115-116.
    \3\ CECC, 2004 Annual Report, 5 October 04, 104-6. Decision of the 
Standing Committee of the National People's Congress on Issues Relating 
to the Methods for Selecting the Chief Executive of the Hong Kong 
Special Administrative Region in the Year 2007 and for Forming the 
Legislative Council of the Hong Kong Special Administrative Region in 
the Year 2008, 26 April 2004.
    \4\ The Basic Law of the Hong Kong Special Administrative Region of 
the PRC, arts. 45 and 68.
    \5\ CECC, 2004 Annual Report, 105.
    \6\ Of the 529 District Councilors, 427 are directly elected and 
102 appointed. Constitutional Affairs Bureau, the Government of the 
Hong Kong Special Administrative Region, The Fifth Report of the 
Constitutional Development Task Force: Package of Proposals for the 
Methods for Selecting the Chief Executive in 2007 and for Forming the 
Legislative Council in 2008, 20 October 05.
    \7\ Ibid.
    \8\ Ibid.
    \9\ Constitutional Affairs Bureau, the Government of the Hong Kong 
Special Administrative Region (Online), ``Transcript of the Media 
Session by the Chief Executive, Mr. Donald Tsang, on the Fifth Report 
of the Constitutional Task Force,'' 19 October 05.
    \10\ Ibid.
    \11\ Constitutional Affairs Bureau, the Government of the Hong Kong 
Special Administrative Region (Online), ``Statement by CS on the Fifth 
Report of the Constitutional Development Task Force,'' 19 October 05.
    \12\ K.C. Ng, ``Crowd Rallies for Democracy in Hong Kong,'' 
Washington Post (Online), 5 December 05.
    \13\ Gary Cheung, ``Drop in Public Support for Reform Plan,'' South 
China Morning Post (Online), 29 November 05.
    \14\ Ibid.
    \15\ ``Hong Kong Unveils Reform Package Adjustments,'' China Daily, 
20 December 05 (Open Source Center, 21 December 05).
    \16\ ``Hong Kong Lawmakers Reject First Stage of Government's 
Reform Proposal,'' Agence-France Presse, 21 December 05 (Open Source 
Center, 22 December 05).
    \17\ The Sino-British Joint Declaration states that the provisions 
of the ICCPR still remain in force in Hong Kong after the territory's 
reversion to the PRC. Joint Declaration of the Government of the United 
Kingdom of Great Britain and Northern Ireland and the Government of the 
People's Republic of China on the Question of Hong Kong, Section XIII; 
International Covenant on Civil and Political Rights, adopted by 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76 [hereinafter ICCPR]; Ravina Shamdasani, ``Basic Law 
Interpretations `Concern' UN Rights Panel,'' South China Morning Post 
(Online), 28 March 06.
    \18\ See ICCPR, art. 25.
    \19\ UN Human Rights Committee, Concluding Observations of the 
Human Rights Committee--Hong Kong Special Administrative Region 
(HKSAR), 30 March 06.

                                 <all>

</pre></body></html>
